<html>
<title> - FACEBOOK, SOCIAL MEDIA PRIVACY, AND THE USE AND ABUSE OF DATA</title>
<body><pre>[Senate Hearing 115-683]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-683

                    FACEBOOK, SOCIAL MEDIA PRIVACY, 
                     AND THE USE AND ABUSE OF DATA

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                                AND THE

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION
                               __________

                             APRIL 10, 2018
                               __________

                          Serial No. J-115-40
                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
                 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


                Available online: http://www.govinfo.gov
                
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
37-801 PDF                 WASHINGTON : 2019                  
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER WICKER, Mississippi            BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  TOM UDALL, New Mexico
JAMES INHOFE, Oklahoma               GARY PETERS, Michigan
MIKE LEE, Utah                       TAMMY BALDWIN, Wisconsin
RON JOHNSON, Wisconsin               TAMMY DUCKWORTH, Illinois
SHELLEY MOORE CAPITO, West Virginia  MAGGIE HASSAN, New Hampshire
CORY GARDNER, Colorado               CATHERINE CORTEZ MASTO, Nevada
TODD YOUNG, Indiana                  JON TESTER, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

                   SENATE COMMITTEE ON THE JUDICIARY

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                     CHUCK GRASSLEY, Iowa, Chairman
ORRIN HATCH, Utah                    DIANNE FEINSTEIN, California, 
LINDSEY GRAHAM, South Carolina           Ranking
JOHN CORNYN, Texas                   PATRICK LEAHY, Vermont
MIKE LEE, Utah                       RICHARD DURBIN, Illinois
TED CRUZ, Texas                      SHELDON WHITEHOUSE, Rhode Island
BEN SASSE, Nebraska                  AMY KLOBUCHAR, Minnesota
JEFF FLAKE, Arizona                  CHRISTOPHER COONS, Delaware
MIKE CRAPO, Idaho                    RICHARD BLUMENTHAL, Connecticut
THOM TILLIS, North Carolina          MAZIE HIRONO, Hawaii
JOHN KENNEDY, Louisiana              CORY BOOKER, New Jeresey
                                     KAMALA HARRIS, California


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2018...................................     1
Statement of Senator Grassley....................................     1
    Prepared statement...........................................     5
Statement of Senator Thune.......................................     2
Statement of Senator Feinstein...................................     3
    Letter dated April 9, 2018 from Faiz Shakir, National 
      Political Director and Neema Singh Guliani, Legislative 
      Counsel, American Civil Liberties Union....................    51
    Letter dated April 9, 2018 to Senator Chuck Grassley, Senator 
      Dianne Feinstein, Senator John Thune, and Senator Bill 
      Nelson from Marc Rotenberg, President; Sunny Kang, 
      International Consumer Counsel; Caitriona Fitzgerald, 
      Policy Director; Sam Lester, Consumer Privacy Counsel; and 
      Enid Zhou, Open Government Fellow, Electronic Privacy 
      Information Center.........................................    54
    Letter dated April 9, 2018 to Hon. John Thune, Hon. Charles 
      Grassley, Hon. Bill Nelson and Hon. Dianne Feinstein from 
      Stuart Shapiro, Chair, Association for Computing Machinery.    81
    Comments dated April 9, 2018 from Carl Szabo, Vice President 
      and General Counsel, NetChoice.............................    84
    Letter dated April 10, 2018 to Hon. Chuck Grassley, Hon. 
      Dianne Feinstein, Hon. John Thune and Hon. Bill Nelson from 
      Allison S. Bohm, Policy Counsel, Public Knowledge..........    88
    Letter dated April 10, 2018 to Chairmen Grassley and Thune, 
      and Ranking Members Feinstein and Nelson from Charles H. 
      Rivkin, Chairman and CEO, Motion Picture Association of 
      America....................................................   147
Statement of Senator Nelson......................................     6
    Prepared statement...........................................     7
Statement of Senator Hatch.......................................    21
Statement of Senator Cantwell....................................    22
Statement of Senator Wicker......................................    24
Statement of Senator Leahy.......................................    27
Statement of Senator Graham......................................    29
Statement of Senator Klobuchar...................................    32
Statement of Senator Blunt.......................................    34
Statement of Senator Durbin......................................    38
Statement of Senator Cornyn......................................    41
Statement of Senator Blumenthal..................................    43
Statement of Senator Cruz........................................    48
Statement of Senator Whitehouse..................................    91
Statement of Senator Lee.........................................    93
Statement of Senator Schatz......................................    95
Statement of Senator Fischer.....................................    97
Statement of Senator Coons.......................................    99
Statement of Senator Sasse.......................................   102
Statement of Senator Markey......................................   103
Statement of Senator Flake.......................................   106
Statement of Senator Hirono......................................   107
Statement of Senator Sullivan....................................   109
Statement of Senator Udall.......................................   111
Statement of Senator Moran.......................................   114
Statement of Senator Booker......................................   116
Statement of Senator Heller......................................   118
Statement of Senator Peters......................................   120
Statement of Senator Tillis......................................   123
Statement of Senator Harris......................................   125
Statement of Senator Kennedy.....................................   126
Statement of Senator Baldwin.....................................   128
Statement of Senator Johnson.....................................   131
Statement of Senator Hassan......................................   133
Statement of Senator Capito......................................   135
Statement of Senator Cortez Masto................................   138
Statement of Senator Gardner.....................................   139
Statement of Senator Tester......................................   142
Statement of Senator Young.......................................   144

                               Witnesses

Mark Zuckerberg, Chairman and Chief Executive Officer, Facebook..     8
    Prepared statement...........................................     9

                                Appendix

Letter dated April 10, 2018 to Hon. Chuck Grassley and Hon. 
  Dianne Feinstein from Curt Levey, President, The Committee for 
  Justice; and Ashley Baker, Director of Public Policy, The 
  Committee for Justice..........................................   151
Statement dated April 10, 2018 from Daniel Castro, Vice President 
  of Information Technology & Innovation Foundation (ITIF).......   154
Letter dated April 16, 2018 to Chairmen Grassley and Thune, and 
  Ranking Members Feinstein and Nelson from Russell Hollander, 
  National Executive Director, Directors Guild of America; David 
  P. White, National Executive Director, SAG-AFTRA; and Matthew 
  D. Loeb, International President, International Alliance of 
  Theatrical Stage Employees.....................................   155
Letter dated April 19, 2018 to Hon. Chuck Grassley, Hon. Dianne 
  Feinstein, Hon. John Thune and Hon. Bill Nelson from the 
  American Federation of Musicians; Content Creators Coalition; 
  CreativeFuture; and Independent Film & Television Alliance.....   156
Article from Avaaz.org entitled ``How to Fix Fakebook Fast''.....   158

           Committee on Commerce, Science, and Transportation

Response to written questions submitted to Mark Zuckerberg by:
    Hon. John Thune..............................................   159
    Hon. Roger Wicker............................................   164
    Hon. Roy Blunt...............................................   168
    Hon. Ted Cruz................................................   171
    Hon. Deb Fischer.............................................   215
    Hon. Jerry Moran.............................................   217
    Hon. Dan Sullivan............................................   220
    Hon. Bill Nelson.............................................   223
    Hon. Maria Cantwell..........................................   226
    Hon. Amy Klobuchar...........................................   229
    Hon. Richard Blumenthal......................................   229
    Hon. Brian Schatz............................................   243
    Hon. Edward Markey...........................................   248
    Hon. Tom Udall...............................................   249
    Hon. Gary Peters.............................................   257
    Hon. Tammy Baldwin...........................................   261
    Hon. Tammy Duckworth.........................................   262
    Hon. Maggie Hassan...........................................   265
    Hon. Catherine Cortez Masto..................................   273

                       Committee on the Judiciary

Response to written questions submitted to Mark Zuckerberg by:
    Hon. Chuck Grassley..........................................   295
    Hon. Orrin Hatch.............................................   307
    Hon. Dianne Feinstein........................................   309
    Hon. Patrick Leahy...........................................   317
    Hon. Richard Durbin..........................................   323
    Hon. Sheldon Whitehouse......................................   334
    Hon. Amy Klobuchar...........................................   339
    Hon. Christopher Coons.......................................   342
    Hon. Mazie Hirono............................................   353
    Hon. Cory Booker.............................................   361
    Hon. Kamala Harris...........................................   363


 
                    FACEBOOK, SOCIAL MEDIA PRIVACY, 
                     AND THE USE AND ABUSE OF DATA

                              ----------                              


                        TUESDAY, APRIL 10, 2018

                                       U.S. Senate,
   Committee on Commerce, Science, and Transportation, AND 
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Committees met, pursuant to notice, at 2:30 p.m., in 
room 216, Hart Senate Office Building, Hon. Chuck Grassley, 
Chairman of the Committee on the Judiciary, presiding.
    Present from the Committee on Commerce, Science, and 
Transportation: Senators Thune, Wicker, Blunt, Cruz, Fischer, 
Moran, Sullivan, Heller, Inhofe, Johnson, Capito, Gardner, 
Young, Nelson, Cantwell, Klobuchar, Blumenthal, Schatz, Markey, 
Udall, Peters, Baldwin, Hassan, Cortez Masto, and Tester.
    Present from the Committee on the Judiciary: Senators 
Grassley [presiding], Hatch, Graham, Cornyn, Cruz, Lee, Sasse, 
Flake, Crapo, Tillis, Kennedy, Feinstein, Leahy, Durbin, 
Whitehouse, Klobuchar, Coons, Blumenthal, Hirono, Booker, and 
Harris.

           OPENING STATEMENT OF HON. CHUCK GRASSLEY, 
                     U.S. SENATOR FROM IOWA

    Chairman Grassley. The committees on the Judiciary and 
Commerce, Science, and Transportation will come to order.
    We welcome everyone to today's hearing on ``Facebook, 
Social Media Privacy, and the Use and Abuse of Data.'' Although 
not unprecedented, this is a unique hearing. The issues we will 
consider range from data privacy and security to consumer 
protection and the Federal Trade Commission enforcement, 
touching on jurisdictions of these two committees.
    We have 44 members between our two committees. That may not 
seem like a large group by Facebook standards, but it is 
significant here for a hearing in the United States Senate. We 
will do our best to keep things moving efficiently, given our 
circumstances.
    We will begin with opening statements from the chairmen and 
ranking members of each committee, starting with Chairman 
Thune, and then proceed with Mr. Zuckerberg's opening 
statement. We will then move on to questioning. Each member 
will have 5 minutes to question witnesses.
    I would like to remind the members of both committees that 
time limits will be and must be strictly enforced given the 
numbers that we have here today. If you are over your time, 
Chairman Thune and I will make sure to let you know. There will 
not be a second round as well. Of course, there will be the 
usual follow-up written questions through the record. 
Questioning will alternate between majority and minority and 
between committees. We will proceed in order based on 
respective committee seniority.
    We will anticipate a couple short breaks later in the 
afternoon, and so it is my pleasure to recognize the Chairman 
of the Commerce Committee, Chairman Thune, for his opening 
statement.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Chairman Thune. Thank you, Chairman Grassley.
    Today's hearing is extraordinary. It is extraordinary to 
hold a joint committee hearing. It is even more extraordinary 
to have a single CEO testify before nearly half of the U.S. 
Senate. But then Facebook is pretty extraordinary. More than 2 
billion people use Facebook every month. One point four billion 
people use it every day, more than the population of any 
country on Earth except China and more than four times the 
population of the United States. It is also more than 1,500 
times the population of my home state of South Dakota. Plus, 
roughly 45 percent of American adults report getting at least 
some of their news from Facebook.
    In many respects, Facebook's incredible reach is why we are 
here today. We are here because of what you, Mr. Zuckerberg, 
have described as a breach of trust. A quiz app used by 
approximately 300,000 people led to information about 87 
million Facebook users being obtained by the company Cambridge 
Analytica. There are plenty of questions about the behavior of 
Cambridge Analytica, and we expect to hold a future hearing on 
Cambridge and similar firms.
    But as you have said, this is not likely to be an isolated 
incident, a fact demonstrated by Facebook's suspension of 
another firm just this past weekend. You have promised that 
when Facebook discovers other apps that access to large amounts 
of user data, you will ban them and tell those affected. And 
that is appropriate. But it is unlikely to be enough for the 2 
billion Facebook users.
    One reason that so many people are worried about this 
incident is what it says about how Facebook works. The idea 
that for every person who decided to try an app, information 
about nearly 300 other people was scraped from your services, 
to put it mildly, disturbing. And the fact that those 87 
million people may have technically consented to making their 
data available does not make most people feel any better.
    The recent revelation that malicious actors were able to 
utilize Facebook's default privacy settings to match e-mail 
addresses and phone numbers found on the so-called dark web to 
public Facebook profiles, potentially affecting all Facebook 
users, only adds fuel to the fire.
    What binds these two incidents is that they do not appear 
to be caused by the kind of negligence that allows typical data 
breaches to happen. Instead, they both appear to be the result 
of people exploiting the very tools that you have created to 
manipulate users' information.
    I know Facebook has taken several steps and intends to take 
more to address these issues. Nevertheless, some have warned 
that the actions Facebook is taking to ensure that third 
parties do not obtain data from unsuspecting users, while 
necessary, will actually serve to enhance Facebook's own 
ability to market such data exclusively.
    Most of us understand that, whether you are using Facebook 
or Google or some other online services, we are trading certain 
information about ourselves for free or low-cost services. But 
for this model to persist, both sides of the bargain need to 
know the stakes that are involved. Right now, I am not 
convinced that Facebook users have the information that they 
need to make meaningful choices.
    In the past, many of my colleagues on both sides of the 
aisle have been willing to defer to tech companies' efforts to 
regulate themselves, but this may be changing. Just last month, 
in overwhelming bipartisan fashion, Congress voted to make it 
easier for prosecutors and victims to go after websites that 
knowingly facilitate sex trafficking. This should be a wake-up 
call for the tech community. We want to hear more without delay 
about what Facebook and other companies plan to do to take 
greater responsibility for what happens on their platforms. How 
will you protect users' data? How will you inform users about 
the changes that you are making? And how do you intend to 
proactively stop harmful conduct instead of being forced to 
respond to it months or years later?
    Mr. Zuckerberg, in many ways, you and the company that you 
have created, the story that you have created represent the 
American dream. Many are incredibly inspired by what you have 
done. At the same time, you have an obligation and it is up to 
you to ensure that that dream does not become a privacy 
nightmare for the scores of people who use Facebook.
    This hearing is an opportunity to speak to those who 
believe in Facebook and to those who are deeply skeptical about 
it. We are listening, America is listening, and quite possibly, 
the world is listening, too.
    Chairman Grassley. Thank you. And now, Ranking Member 
Feinstein.

              STATEMENT OF HON. DIANNE FEINSTEIN, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Mr. Chairman. 
Chairman Grassley, Chairman Thune, thank you both for holding 
this hearing.
    Mr. Zuckerberg, thank you for being here. You have a real 
opportunity this afternoon to lead the industry and demonstrate 
a meaningful commitment to protecting individual privacy.
    We have learned over the past few months, and we have 
learned a great deal that is alarming. We have seen how foreign 
actors are abusing social media platforms like Facebook to 
interfere in elections and take millions of Americans' personal 
information without their knowledge in order to manipulate 
public opinion and target individual voters.
    Specifically, on February 16, Special Counsel Mueller 
issued an indictment against the Russia-based Internet Research 
Agency and 13 of its employees for interfering with operations 
targeting the United States. Through this 37-page indictment, 
we learned that the IRA ran a coordinated campaign through 470 
Facebook accounts and pages. The campaign included ads and 
false information to create discord and harm Secretary 
Clinton's campaign. And the content was seen by an estimated 
157 million Americans.
    A month later, on March 17, news broke that Cambridge 
Analytica exploited the personal information of approximately 
50 million Facebook users without their knowledge or 
permission. And last week, we learned that number was even 
higher, 87 million Facebook users who had their private 
information taken without their consent. Specifically, using a 
personality quiz he created, Professor Kogan collected the 
personal information of 300,000 Facebook users and then 
collected data on millions of their friends. It appears the 
information collected included everything these individuals had 
on their Facebook pages and, according to some reports, even 
included private direct messages between users.
    Professor Kogan is said to have taken data from over 70 
million Americans. It has also been reported that he sold this 
data to Cambridge Analytica for $800,000. Cambridge Analytica 
then took this data and created a psychological welfare tool to 
influence United States elections. In fact, the CEO Alexander 
Nix declared that Cambridge Analytica ran all the digital 
campaign, the television campaign, and its data informed all 
the strategy for the Trump campaign. The reporting has also 
speculated that Cambridge Analytica worked with the Internet 
Research Agency to help Russia identify which American voters 
to target with its propaganda.
    I am concerned that press reports indicate Facebook learned 
about this breach in 2015 but appears not to have taken 
significant steps to address it until this year.
    So this hearing is important, and I appreciate the 
conversation we had yesterday. And I believe that Facebook, 
through your presence here today and the words you are about to 
tell us, will indicate how strongly your industry will regulate 
and/or reform the platforms that they control. I believe this 
is extraordinarily important. You lead a big company with 
27,000 employees, and we very much look forward to your 
comments.
    Thank you, Mr. Chairman.
    Chairman Grassley. Thank you, Senator Feinstein.
    The history and growth of Facebook mirrors that of many of 
our technological giants. Founded by Mr. Zuckerberg in 2004, 
Facebook has exploded over the past 14 years. Facebook 
currently has over 2.13 billion monthly active users across the 
world, over than 25,000 employees, and offices in 13 U.S. 
cities and various other countries.
    Like their expanding user base, the data collected on 
Facebook users has also skyrocketed. They have moved on from 
schools, likes, and relationship statuses. Today, Facebook has 
access to dozens of data points, ranging from ads that you have 
clicked on, events you have attended, and your location based 
upon your mobile device.
    It is no secret that Facebook makes money off this data 
through advertising revenue, although many seem confused by, or 
altogether unaware, of this fact. Facebook generated $40 
billion in revenue in 2017, with about 98 percent coming from 
advertising across Facebook and Instagram.
    Significant data collection is also occurring at Google, 
Twitter, Apple, and Amazon. An ever-expanding portfolio of 
products and services offered by these companies grant endless 
opportunities to collect increasing amounts of information on 
their customers. As we get more free or extremely low-cost 
services, the tradeoff for the American consumer is to provide 
more personal data. The potential for further growth and 
innovation based on collection of data is limitless. However, 
the potential for abuse is also significant.
    While the contours of the Cambridge Analytica situation are 
still coming to light, there was clearly a breach of consumer 
trust and a likely improper transfer of data. The Judiciary 
Committee will hold a separate hearing exploring Cambridge and 
other data privacy issues. More importantly though, these 
events have ignited a larger discussion on consumers' 
expectations and the future of data privacy in our society. It 
has exposed that consumers may not fully understand or 
appreciate the extent to which their data is collected, 
protected, transferred, used, and misused.
    Data has been used in advertising and political campaigns 
for decades. The amount and type of data obtained, however, has 
seen a very dramatic change. Campaigns, including Presidents 
Bush, Obama, and Trump, all used these increasing amounts of 
data to focus on micro-targeting and personalization over 
numerous social media platforms, and especially Facebook.
    In fact, President Obama's campaign developed an app 
utilizing the same Facebook feature as Cambridge Analytica to 
capture the information of not just the apps users, but 
millions of their friends. The digital director for that 
campaign for 2012 described the data-scraping app as something 
that would, ``wind up being the most groundbreaking piece of 
technology developed for this campaign.''
    So the effectiveness of these social media tactics can be 
debated, but their use over the past years across the political 
spectrum and their increased significance cannot be ignored. 
Our policy toward data privacy and security must keep pace with 
these changes. Data privacy should be tethered to consumer 
needs and expectations.
    Now, at a minimum, consumers must have the transparency 
necessary to make an informed decision about whether to share 
their data and how it can be used. Consumers ought to have 
clear information, not opaque policies and complex click-
through consent pages. The tech industry has an obligation to 
respond to widespread and growing concerns over data privacy 
and security and to restore the public's trust. The status quo 
no longer works.
    Moreover, Congress must determine if and how we need to 
strengthen privacy standards to ensure transparency and 
understanding for the billions of consumers who utilize these 
products.
    [The prepared statement of Chairman Grassley follows:]

   Prepared Statement of Hon. Chuck Grassley, U.S. Senator from Iowa
    The history and growth of Facebook mirrors that of many of our 
technology giants. Founded by Mr. Zuckerberg in 2004, Facebook has 
exploded over the last 14 years. Facebook currently has 2.13 billion 
monthly active users across the world, more than 25,000 employees, and 
offices in 13 U.S. cities and various other countries.
    Like their expanding user base, the data collected on Facebook 
users has also skyrocketed. They have moved on from schools, likes, and 
relationship status. Today, Facebook has access to dozens of data 
points, ranging from ads you've clicked on, events you've attended, and 
your location based on your mobile device.
    It is no secret that Facebook makes money off this data through 
advertising revenue, although many seem confused by, or altogether 
unaware, of this fact. Facebook generated $40 billion in revenue in 
2017, with about 98 percent coming from advertising across Facebook and 
Instagram.
    Significant data collection is also occurring at Google, Twitter, 
Apple, and Amazon. An ever-expanding portfolio of products and services 
offered by these companies grant endless opportunities to collect 
increasing amounts of information on their customers. As we get more 
free, or extremely low-cost, services, the tradeoff for the American 
consumer is to provide more personal data.
    The potential for further growth and innovation based on the 
collection of data is limitless. However, the potential for abuse is 
significant.
    While the contours of the Cambridge Analytica situation are still 
coming to light, there was clearly a breach of consumer trust and a 
likely improper transfer of data. The Judiciary Committee will hold a 
separate hearing exploring Cambridge and other data privacy issues.
    More importantly though, these events have ignited a larger 
discussion on consumers' expectations and the future of data privacy in 
our society.
    It has exposed that consumers may not fully understand or 
appreciate the extent to which their data is collected, protected, 
transferred, used and misused.
    Data has been used in advertising and political campaigns for 
decades. The amount and types of data obtained, however, has seen a 
dramatic change. Campaigns, including President Bush, Obama, and Trump, 
all used these increasing amounts of data to focus on micro-targeting 
and personalization over numerous social media platforms, especially 
Facebook.
    In fact, President Obama's campaign developed an app utilizing the 
same Facebook feature as Cambridge Analytica to capture the information 
of not just the apps users, but millions of their friends. The digital 
director for Obama for America 2012 described the data-scraping app as 
something that would ``wind up being the most groundbreaking piece of 
technology developed for this campaign''.
    The effectiveness of these social media tactics can be debated, but 
their use over the past years across the political spectrum and their 
increased significance cannot.
    Our policy towards data privacy and security must keep pace with 
these changes. Data privacy should be tethered to consumer needs and 
expectations.
    At a minimum, consumers must have the transparency necessary to 
make informed decisions about whether to share their data and how it 
can be used. Consumers ought to have clear information, not opaque 
policies and complex click-through consent pages.
    The tech industry has an obligation to respond to widespread and 
growing concerns over data privacy and security and to restore the 
public trust. The status quo no longer works.
    Moreover, Congress must determine if and how we need to strengthen 
privacy standards to ensure transparency and understanding for the 
billions of consumers who utilize these products.

    Chairman Grassley. Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Zuckerberg, good afternoon.
    Let me just cut to the chase. If you and other social media 
companies do not get your act in order, none of us are going to 
have any privacy anymore. That is what we are facing. We are 
talking about personally identifiable information that, if not 
kept by the social media companies from theft, we will not have 
our personal privacy anymore, a value that we have in America.
    It is the advent of technology, and of course all of us are 
part of it. From the moment that we wake up in the morning 
until we go to bed, we are on those handheld tablets, and 
online companies like Facebook are tracking our activities and 
collecting information. Facebook has a responsibility to 
protect this personal information.
    We had a good discussion yesterday. We went over all of 
this. You told me that the company had failed to protect 
privacy. It is not the first time that Facebook has mishandled 
its users' information. The FTC found that Facebook's privacy 
policies had deceived users in the past. And in the present 
case, we recognize that Cambridge Analytica and an app 
developer lied to consumers and lied to you, lied to Facebook, 
but did Facebook watch over the operations? We want to know 
that. And why did Facebook not notify 87 million users that 
their personally identifiable information had been taken? And 
why were they not informed that it was also being used for 
unauthorized political purposes?
    So only now--and I appreciate our conversation. Only now, 
Facebook has pledged to inform those consumers whose accounts 
were compromised. I think you are genuine. I got that sense in 
conversing with you. You want to do the right thing. You want 
to enact reforms. We want to know if it is going to be enough. 
And I hope that will be in the answers today.
    Now, since we still do not know what Cambridge Analytica 
has done with this data, you heard Chairman Thune say, as we 
have discussed, we want to haul Cambridge Analytica in to 
answer these questions at a separate hearing.
    I want to thank Chairman Thune for working with all of us 
on scheduling a hearing. There is obviously a great deal of 
interest in this subject. I hope we can get to the bottom of 
this. And if Facebook and other online companies will not or 
cannot fix the privacy invasions, then we are going to have to, 
we, the Congress. How can American consumers trust folks like 
your company to be caretakers of their most personal and 
identifiable information? And that is the question. Thank you.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Let me get to the point, one that I made to Mr. Zuckerberg 
yesterday during our lengthy conversation in my office. If Facebook and 
other social media and online companies don't do a better job as 
stewards of our personal information, American consumers are no longer 
going to have any privacy to protect.
    From the minute consumers wake up to the minute they put down their 
smartphone at the end of the day, online companies like Facebook are 
tracking their activities and collecting information. Facebook has a 
responsibility to protect this personal information.
    Unfortunately, I believe that the company failed to do so. This is 
not the first time that Facebook has mishandled its users' information. 
The Federal Trade Commission found that Facebook's privacy policies had 
deceived users in the past.
    In the present case, I recognize that Cambridge Analytica and an 
app developer lied to consumers and lied to Facebook. But did Facebook 
watch over their operations? And why didn't Facebook notify eighty-
seven million users when it discovered that Cambridge Analytica had 
inappropriately gotten hold of their sensitive information and was 
using it for unauthorized political purposes?
    Only now has Facebook pledged to inform those consumers whose 
accounts were compromised. I know Mr. Zuckerberg wants to do the right 
thing and enact reforms, but will it be enough? I hope to get some 
answers today.
    Lastly, we still don't know exactly what Cambridge Analytica has 
done with this data. That's why I have asked Chairman Thune to haul 
Cambridge Analytica in to answer these questions at a separate hearing. 
I want to thank the chairman for working with me on scheduling a 
hearing in the near future.
    There is obviously a great deal of interest in this subject, and I 
hope that we can get to the bottom line. That is, if Facebook and other 
online companies will not or cannot fix these privacy invasions, then 
we will. How can American consumers trust them to be caretakers of 
their most personal and identifiable information?

    Chairman Grassley. Thank you, my colleagues, and Senator 
Nelson.
    Our witness today is Mark Zuckerberg, Founder, Chairman, 
Chief Executive Officer of Facebook. Mr. Zuckerberg launched 
Facebook February 4, 2004, at the age of 19. And at that time 
he was a student at Harvard University. As I mentioned 
previously, his company now has over $40 billion of annual 
revenue and over 2 billion monthly active users. Mr. 
Zuckerberg, along with his wife, also established the Chan 
Zuckerberg Initiative to further philanthropic causes.
    I now turn to you. Welcome to the Committee. And whatever 
your statement is orally, if you have a longer one, it will be 
included in the record. So, proceed, sir.

            STATEMENT OF MARK ZUCKERBERG, CHAIRMAN 
             AND CHIEF EXECUTIVE OFFICER, FACEBOOK

    Mr. Zuckerberg. Chairman Grassley, Chairman Thune, Ranking 
Member Feinstein, and Ranking Member Nelson and members of the 
Committee, we face a number of important issues around privacy, 
safety, and democracy, and you will rightfully have some hard 
questions for me to answer. Before I talk about the steps we 
are taking to address them, I want to talk about how we got 
here.
    Facebook is an idealistic and optimistic company. For most 
of our existence, we focused on all of the good that connecting 
people can do. And as Facebook has grown, people everywhere 
have gotten a powerful new tool for staying connected to the 
people they love, for making their voices heard, and for 
building communities and businesses. Just recently, we have 
seen the #metoo movement and the March for Our Lives organized, 
at least in part, on Facebook. After Hurricane Harvey, people 
came together to raise more than $20 million for relief. And 
more than 70 million small businesses use Facebook to create 
jobs and grow.
    But it is clear now that we did not do enough to prevent 
these tools for being used for harm as well, and that goes for 
fake news, for foreign interference in elections, and hate 
speech, as well as developers and data privacy. We did not take 
a broad enough view of our responsibility, and that was a big 
mistake. And it was my mistake, and I am sorry. I started 
Facebook, I run it, and I am responsible for what happens here.
    So now, we have to go through all of our relationship with 
people and make sure that we are taking a broad enough view of 
our responsibility. It is not enough to just connect people; we 
have to make sure that those connections are positive. It is 
not enough to just give people a voice; we need to make sure 
that people are not using it to harm other people or to spread 
misinformation. And it is not enough to just give people 
control over their information; we need to make sure that the 
developers they share it with protect their information, too. 
Across the board, we have a responsibility to not just build 
tools but to make sure that they are used for good.
    It will take some time to work through all the changes we 
need to make across the company, but I am committed to getting 
this right. This includes the basic responsibility of 
protecting people's information, which we failed to do with 
Cambridge Analytica. So here are a few things that we are doing 
to address this and to prevent it from happening again.
    First, we are getting to the bottom of exactly what 
Cambridge Analytica did and telling everyone affected. What we 
know now is that Cambridge Analytica improperly accessed some 
information about millions of Facebook members by buying it 
from an app developer. This was information that people 
generally shared publicly on their Facebook pages like names 
and their profile picture and the pages they follow.
    When we first contacted Cambridge Analytica, they told us 
that they had deleted the data. About a month ago, we heard new 
reports that suggested that was not true. And now, we are 
working with governments in the U.S., the U.K., and around the 
world to do a full audit of what they have done and to make 
sure that they get rid of any data they may still have.
    Second, to make sure no other app developers out there are 
misusing data, we are now investigating every single app that 
had access to a large amount of information in the past. And if 
we find that someone improperly used data, we are going to ban 
them from Facebook and tell everyone affected.
    Third, to prevent this from ever happening again going 
forward, we are making sure that developers cannot access as 
much information now. The good news here is that we already 
made big changes to our platform in 2014 that would have 
prevented this specific situation with Cambridge Analytica from 
occurring again today. But there is more to do, and you can 
find more details on the steps we are taking in my written 
statement.
    My top priority has always been our social mission of 
connecting people, building community, and bringing the world 
closer together. Advertisers and developers will never take 
priority over that as long as I am running Facebook.
    I started Facebook when I was in college. We have come a 
long way since then. We now serve more than 2 billion people 
around the world, and every day, people use our services to 
stay connected with the people that matter to them most. I 
believe deeply in what we are doing, and I know that when we 
address these challenges, we will look back and view helping 
people connect and giving more people a voice is a positive 
force in the world.
    I realize the issues we are talking about today are not 
just issues for Facebook and our community; they are issues and 
challenges for all of us as Americans.
    Thank you for having me here today, and I am ready to take 
your questions.
    [The prepared statement of Mr. Zuckerberg follows:]

            Prepared Statement of Mark Zuckerberg, Chairman 
                 and Chief Executive Officer, Facebook
I. Introduction
    Chairman Grassley, Chairman Thune, Ranking Member Feinstein, 
Ranking Member Nelson, and Members of the Committees,

    We face a number of important issues around privacy, safety, and 
democracy, and you will rightfully have some hard questions for me to 
answer. Before I talk about the steps we're taking to address them, I 
want to talk about how we got here.
    Facebook is an idealistic and optimistic company. For most of our 
existence, we focused on all the good that connecting people can bring. 
As Facebook has grown, people everywhere have gotten a powerful new 
tool to stay connected to the people they love, make their voices 
heard, and build communities and businesses. Just recently, we've seen 
the #metoo movement and the March for Our Lives, organized, at least in 
part, on Facebook. After Hurricane Harvey, people raised more than $20 
million for relief. And more than 70 million small businesses now use 
Facebook to grow and create jobs.
    But it's clear now that we didn't do enough to prevent these tools 
from being used for harm as well. That goes for fake news, foreign 
interference in elections, and hate speech, as well as developers and 
data privacy. We didn't take a broad enough view of our responsibility, 
and that was a big mistake. It was my mistake, and I'm sorry. I started 
Facebook, I run it, and I'm responsible for what happens here.
    So now we have to go through every part of our relationship with 
people and make sure we're taking a broad enough view of our 
responsibility.
    It's not enough to just connect people, we have to make sure those 
connections are positive. It's not enough to just give people a voice, 
we have to make sure people aren't using it to hurt people or spread 
misinformation. It's not enough to give people control of their 
information, we have to make sure developers they've given it to are 
protecting it too. Across the board, we have a responsibility to not 
just build tools, but to make sure those tools are used for good.
    It will take some time to work through all of the changes we need 
to make, but I'm committed to getting it right.
    That includes improving the way we protect people's information and 
safeguard elections around the world. Here are a few key things we're 
doing:
II. Cambridge Analytica
    Over the past few weeks, we've been working to understand exactly 
what happened with Cambridge Analytica and taking steps to make sure 
this doesn't happen again. We took important actions to prevent this 
from happening again today four years ago, but we also made mistakes, 
there's more to do, and we need to step up and do it.
A. What Happened
    In 2007, we launched the Facebook Platform with the vision that 
more apps should be social. Your calendar should be able to show your 
friends' birthdays, your maps should show where your friends live, and 
your address book should show their pictures. To do this, we enabled 
people to log into apps and share who their friends were and some 
information about them.
    In 2013, a Cambridge University researcher named Aleksandr Kogan 
created a personality quiz app. It was installed by around 300,000 
people who agreed to share some of their Facebook information as well 
as some information from their friends whose privacy settings allowed 
it. Given the way our platform worked at the time this meant Kogan was 
able to access some information about tens of millions of their 
friends.
    In 2014, to prevent abusive apps, we announced that we were 
changing the entire platform to dramatically limit the Facebook 
information apps could access. Most importantly, apps like Kogan's 
could no longer ask for information about a person's friends unless 
their friends had also authorized the app. We also required developers 
to get approval from Facebook before they could request any data beyond 
a user's public profile, friend list, and e-mail address. These actions 
would prevent any app like Kogan's from being able to access as much 
Facebook data today.
    In 2015, we learned from journalists at The Guardian that Kogan had 
shared data from his app with Cambridge Analytica. It is against our 
policies for developers to share data without people's consent, so we 
immediately banned Kogan's app from our platform, and demanded that 
Kogan and other entities he gave the data to, including Cambridge 
Analytica, formally certify that they had deleted all improperly 
acquired data--which they ultimately did.
    Last month, we learned from The Guardian, The New York Times and 
Channel 4 that Cambridge Analytica may not have deleted the data as 
they had certified. We immediately banned them from using any of our 
services. Cambridge Analytica claims they have already deleted the data 
and has agreed to a forensic audit by a firm we hired to investigate 
this. We're also working with the U.K. Information Commissioner's 
Office, which has jurisdiction over Cambridge Analytica, as it 
completes its investigation into what happened.
B. What We Are Doing
    We have a responsibility to make sure what happened with Kogan and 
Cambridge Analytica doesn't happen again. Here are some of the steps 
we're taking:

  <bullet> Safeguarding our platform. We need to make sure that 
        developers like Kogan who got access to a lot of information in 
        the past can't get access to as much information going forward.

    <ctr-circle> We made some big changes to the Facebook platform in 
            2014 to dramatically restrict the amount of data that 
            developers can access and to proactively review the apps on 
            our platform. This makes it so a developer today can't do 
            what Kogan did years ago.

    <ctr-circle> But there's more we can do here to limit the 
            information developers can access and put more safeguards 
            in place to prevent abuse.

        <bullet>  We're removing developers' access to your data if you 
            haven't used their app in three months.

        <bullet>  We're reducing the data you give an app when you 
            approve it to only your name, profile photo, and e-mail 
            address. That's a lot less than apps can get on any other 
            major app platform.

        <bullet>  We're requiring developers to not only get approval 
            but also to sign a contract that imposes strict 
            requirements in order to ask anyone for access to their 
            posts or other private data.

        <bullet>  We're restricting more APIs like groups and events. 
            You should be able to sign into apps and share your public 
            information easily, but anything that might also share 
            other people's information--like other posts in groups 
            you're in or other people going to events you're going to--
            will be much more restricted.

        <bullet>  Two weeks ago, we found out that a feature that lets 
            you look someone up by their phone number and e-mail was 
            abused. This feature is useful in cases where people have 
            the same name, but it was abused to link people's public 
            Facebook information to a phone number they already had. 
            When we found out about the abuse, we shut this feature 
            down.

  <bullet> Investigating other apps. We're in the process of 
        investigating every app that had access to a large amount of 
        information before we locked down our platform in 2014. If we 
        detect suspicious activity, we'll do a full forensic audit. And 
        if we find that someone is improperly using data, we'll ban 
        them and tell everyone affected.

  <bullet> Building better controls. Finally, we're making it easier to 
        understand which apps you've allowed to access your data. This 
        week we started showing everyone a list of the apps you've used 
        and an easy way to revoke their permissions to your data. You 
        can already do this in your privacy settings, but we're going 
        to put it at the top of News Feed to make sure everyone sees 
        it. And we also told everyone whose Facebook information may 
        have been shared with Cambridge Analytica.

    Beyond the steps we had already taken in 2014, I believe these are 
the next steps we must take to continue to secure our platform.
III. Russian Election Interference
    Facebook's mission is about giving people a voice and bringing 
people closer together. Those are deeply democratic values and we're 
proud of them. I don't want anyone to use our tools to undermine 
democracy. That's not what we stand for.
    We were too slow to spot and respond to Russian interference, and 
we're working hard to get better. Our sophistication in handling these 
threats is growing and improving quickly. We will continue working with 
the government to understand the full extent of Russian interference, 
and we will do our part not only to ensure the integrity of free and 
fair elections around the world, but also to give everyone a voice and 
to be a force for good in democracy everywhere.
A. What Happened
    Elections have always been especially sensitive times for our 
security team, and the 2016 U.S. presidential election was no 
exception.
    Our security team has been aware of traditional Russian cyber 
threats--like hacking and malware--for years. Leading up to Election 
Day in November 2016, we detected and dealt with several threats with 
ties to Russia. This included activity by a group called APT28, that 
the U.S. Government has publicly linked to Russian military 
intelligence services.
    But while our primary focus was on traditional threats, we also saw 
some new behavior in the summer of 2016 when APT28-related accounts, 
under the banner of DC Leaks, created fake personas that were used to 
seed stolen information to journalists. We shut these accounts down for 
violating our policies.
    After the election, we continued to investigate and learn more 
about these new threats. What we found was that bad actors had used 
coordinated networks of fake accounts to interfere in the election: 
promoting or attacking specific candidates and causes, creating 
distrust in political institutions, or simply spreading confusion. Some 
of these bad actors also used our ads tools.
    We also learned about a disinformation campaign run by the Internet 
Research Agency (IRA)--a Russian agency that has repeatedly acted 
deceptively and tried to manipulate people in the U.S., Europe, and 
Russia. We found about 470 accounts and pages linked to the IRA, which 
generated around 80,000 Facebook posts over about a two-year period.
    Our best estimate is that approximately 126 million people may have 
been served content from a Facebook Page associated with the IRA at 
some point during that period. On Instagram, where our data on reach is 
not as complete, we found about 120,000 pieces of content, and estimate 
that an additional 20 million people were likely served it.
    Over the same period, the IRA also spent approximately $100,000 on 
more than 3,000 ads on Facebook and Instagram, which were seen by an 
estimated 11 million people in the United States. We shut down these 
IRA accounts in August 2017.
B. What We Are Doing
    There's no question that we should have spotted Russian 
interference earlier, and we're working hard to make sure it doesn't 
happen again. Our actions include:

  <bullet> Building new technology to prevent abuse. Since 2016, we 
        have improved our techniques to prevent nation states from 
        interfering in foreign elections, and we've built more advanced 
        AI tools to remove fake accounts more generally. There have 
        been a number of important elections since then where these new 
        tools have been successfully deployed. For example:

    <ctr-circle> In France, leading up to the presidential election in 
            2017, we found and took down 30,000 fake accounts.

    <ctr-circle> In Germany, before the 2017 elections, we worked 
            directly with the election commission to learn from them 
            about the threats they saw and to share information.

    <ctr-circle> In the U.S. Senate Alabama special election last year, 
            we deployed new AI tools that proactively detected and 
            removed fake accounts from Macedonia trying to spread 
            misinformation.

    <ctr-circle> We have disabled thousands of accounts tied to 
            organized, financially motivated fake news spammers. These 
            investigations have been used to improve our automated 
            systems that find fake accounts.

    <ctr-circle> Last week, we took down more than 270 additional pages 
            and accounts operated by the IRA and used to target people 
            in Russia and Russian speakers in countries like 
            Azerbaijan, Uzbekistan and Ukraine. Some of the pages we 
            removed belong to Russian news organizations that we 
            determined were controlled by the IRA.

  <bullet> Significantly increasing our investment in security. We now 
        have about 15,000 people working on security and content 
        review. We'll have more than 20,000 by the end of this year.

    <ctr-circle> I've directed our teams to invest so much in 
            security--on top of the other investments we're making--
            that it will significantly impact our profitability going 
            forward. But I want to be clear about what our priority is: 
            protecting our community is more important than maximizing 
            our profits.

  <bullet> Strengthening our advertising policies. We know some Members 
        of Congress are exploring ways to increase transparency around 
        political or issue advertising, and we're happy to keep working 
        with Congress on that. But we aren't waiting for legislation to 
        act.

    <ctr-circle> From now on, every advertiser who wants to run 
            political or issue ads will need to be authorized. To get 
            authorized, advertisers will need to confirm their identity 
            and location. Any advertiser who doesn't pass will be 
            prohibited from running political or issue ads. We will 
            also label them and advertisers will have to show you who 
            paid for them. We're starting this in the U.S. and 
            expanding to the rest of the world in the coming months.

    <ctr-circle> For even greater political ads transparency, we have 
            also built a tool that lets anyone see all of the ads a 
            page is running. We're testing this in Canada now and we'll 
            launch it globally this summer. We're also creating a 
            searchable archive of past political ads.

    <ctr-circle> We will also require people who manage large pages to 
            be verified as well. This will make it much harder for 
            people to run pages using fake accounts, or to grow virally 
            and spread misinformation or divisive content that way.

    <ctr-circle> In order to require verification for all of these 
            pages and advertisers, we will hire thousands of more 
            people. We're committed to getting this done in time for 
            the critical months before the 2018 elections in the U.S. 
            as well as elections in Mexico, Brazil, India, Pakistan and 
            elsewhere in the next year.

    <ctr-circle> These steps by themselves won't stop all people trying 
            to game the system. But they will make it a lot harder for 
            anyone to do what the Russians did during the 2016 election 
            and use fake accounts and pages to run ads. Election 
            interference is a problem that's bigger than any one 
            platform, and that's why we support the Honest Ads Act. 
            This will help raise the bar for all political advertising 
            online.

  <bullet> Sharing information. We've been working with other 
        technology companies to share information about threats, and 
        we're also cooperating with the U.S. and foreign governments on 
        election integrity.

    At the same time, it's also important not to lose sight of the more 
straightforward and larger ways Facebook plays a role in elections.
    In 2016, people had billions of interactions and open discussions 
on Facebook that may never have happened offline. Candidates had direct 
channels to communicate with tens of millions of citizens. Campaigns 
spent tens of millions of dollars organizing and advertising online to 
get their messages out further. And we organized ``get out the vote'' 
efforts that helped more than 2 million people register to vote who 
might not have voted otherwise.
    Security--including around elections--isn't a problem you ever 
fully solve. Organizations like the IRA are sophisticated adversaries 
who are constantly evolving, but we'll keep improving our techniques to 
stay ahead. And we'll also keep building tools to help more people make 
their voices heard in the democratic process.
IV. Conclusion
    My top priority has always been our social mission of connecting 
people, building community and bringing the world closer together. 
Advertisers and developers will never take priority over that as long 
as I'm running Facebook.
    I started Facebook when I was in college. We've come a long way 
since then. We now serve more than 2 billion people around the world, 
and every day, people use our services to stay connected with the 
people that matter to them most. I believe deeply in what we're doing. 
And when we address these challenges, I know we'll look back and view 
helping people connect and giving more people a voice as a positive 
force in the world.
    I realize the issues we're talking about today aren't just issues 
for Facebook and our community--they're challenges for all of us as 
Americans. Thank you for having me here today, and I'm ready to take 
your questions.

    Chairman Grassley. I will remind members that maybe were 
not here when I had my opening comments that we are operating 
under the five-minute rule, and that applies to the----
    [Laughter.]
    Chairman Grassley. The five-minute rule, and that applies 
to those of us who are chairing the Committee as well.
    I will start with you. Facebook handles extensive amounts 
of personal data for billions of users. A significant amount of 
that data is shared with third-party developers who utilize 
your platform. As of early this year, you did not actively 
monitor whether that data was transferred by such developers to 
other parties. Moreover, your policies only prohibit transfers 
by developers to parties seeking to profit from such data.
    Number one, besides Professor Kogan's transfer and now 
potentially Cubeyou, do you know of any instances where user 
data was improperly transferred to a third party in breach of 
Facebook's terms? If so, how many times has that happened, and 
was Facebook only made aware of that transfer by some third 
party?
    Mr. Zuckerberg. Mr. Chairman, thank you. As I mentioned, we 
are now conducting a full investigation into every single app 
that had access to a large amount of information before we 
locked down platform to prevent developers from accessing this 
information around 2014. We believe that we are going to be 
investigating many apps, tens of thousands of apps, and if we 
find any suspicious activity, we are going to conduct a full 
audit of those apps to understand how they are using their data 
and if they are doing anything improper. And if we find it they 
are doing anything improper, we will ban them from Facebook and 
we will tell everyone affected.
    As for past activity, I do not have all the examples of 
apps that we have banned here, but if you would like, I can 
have my team follow up with you after this.
    Chairman Grassley. OK. Have you ever required an audit to 
ensure the deletion of improperly transferred data, and if so, 
how many times?
    Mr. Zuckerberg. Mr. Chairman, yes, we have. I do not have 
the exact figure on how many times we have, but overall, the 
way we have enforced our platform policies in the past is we 
have looked at patterns of how apps have used our APIs and 
accessed information, as well as looked into reports that 
people have made to us about apps that might be doing sketchy 
things.
    Going forward, we are going to take a more proactive 
position on this and do much more regular spot-checks and other 
reviews of apps, as well as increasing the amount of audits 
that we do. And again, I can make sure that our team follows up 
with you on anything about the specific past stats that would 
be interesting.
    Chairman Grassley. I was going to assume that sitting here 
today you have no idea, and if I am wrong on that, if you are 
able--you are telling me I think that you are able to supply 
those figures to us at least as of this point.
    Mr. Zuckerberg. Mr. Chairman, I will have my team follow up 
with you on what information we have.
    [The information referred to follows:]

    Do you know of any instances where user data was improperly 
transferred to a third party in breach of Facebook's terms? If so, how 
many times has that happened, and was Facebook only made aware of that 
transfer by some third party?
    Facebook's policies regarding third-party usage of its platform 
technologies have prohibited--and continue to prohibit--those third-
party app developers from selling or licensing user data obtained from 
Facebook and from sharing any user data obtained from Facebook with any 
ad network, data broker, or other advertising or monetization-related 
service. We will investigate all apps that had access to large amounts 
of information before we changed our platform in 2014 to reduce data 
access, and we will conduct a full audit of any app with suspicious 
activity.
    Have you ever required an audit to ensure the deletion of 
improperly transferred data? And if so, how many times?
    We use a variety of tools to enforce Facebook policies against 
violating parties, including developers. We review tens of thousands of 
apps per year and regularly disapprove noncompliant apps as part of our 
proactive review process. We also use tools like cease and desist 
letters, account suspensions, letter agreements, and civil litigation. 
For example, since 2006, Facebook has sent over 1,150 cease-and-desist 
letters to over 1,600 targets. In 2017, we took action against about 
370,000 apps, ranging from imposing certain restrictions to removal of 
the app from the platform. Moreover, we have required parties who have 
procured our data without authorization to delete that data. We have 
invested significant resources in these efforts. Facebook is presently 
investigating apps that had access to large amounts of information 
before we changed our platform policies in 2014 to significantly reduce 
the data apps could access. To date around 200 apps (from a handful of 
developers: Kogan, AIQ, Cube You, the Cambridge Psychometrics Center, 
myPersonality, and AIQ) have been suspended--pending a thorough 
investigation into whether they did in fact misuse any data.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So, we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.

    Chairman Grassley. OK. Right now, you have no certainty of 
whether or not--how much of that is going on, right? OK.
    Facebook collects massive amounts of data from consumers, 
including content, networks, contact lists, device information, 
location, and information from third parties, yet your data 
policy is only a few pages long and provides consumers with 
only a few examples of what is collected and how it might be 
used. The examples given emphasize benign uses such as 
connecting with friends, but your policy does not give any 
indication for more controversial issues of such data.
    My question: Why does Facebook not disclose to its users 
all the ways the data might be used by Facebook and other third 
parties, and what is Facebook's responsibility to inform users 
about that information?
    Mr. Zuckerberg. Mr. Chairman, I believe it is important to 
tell people exactly how the information that they share on 
Facebook is going to be used. That is why every single time you 
go to share something on Facebook, whether it is a photo in 
Facebook or a message in Messenger or WhatsApp, every single 
time, there is a control right there about who you are going to 
be sharing it with, whether it is your friends or public or a 
specific group, and you can change that and control that in 
line.
    To your broader point about the privacy policy, this gets 
into an issue that I think we and others in the tech industry 
have found challenging, which is that long privacy policies are 
very confusing. And if you make it long and spell out all the 
detail, then you are probably going to reduce the percent of 
people who read it and make it accessible to them. So one of 
the things that we have struggled with over time is to make 
something that is as simple as possible so people can 
understand it, as well as giving them controls in line in the 
product in the context of when they are trying to actually use 
them, taking into account that we do not expect that most 
people will want to go through and read a full legal document.
    Chairman Grassley. Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Yesterday, when we talked, I gave the relatively harmless 
example that I am communicating with my friends on Facebook and 
indicate that I love a certain kind of chocolate, and all of a 
sudden, I start receiving advertisements for chocolate. What if 
I do not want to receive those commercial advertisements? So 
your Chief Operating Officer, Ms. Sandberg, suggested on the 
NBC Today show that Facebook users who do not want their 
personal information used for advertising might have to pay for 
that protection, pay for it. Are you actually considering 
having Facebook users pay for you not to use that information?
    Mr. Zuckerberg. Senator, people have a control over how 
their information is used in ads in the product today, so if 
you want to have an experience where your ads are not targeted 
using all the information that we have available, you can turn 
off third-party information. What we have found is that even 
though some people do not like ads, people really do not like 
ads that are not relevant. And while there is some discomfort 
for sure with using information in making ads more relevant, 
the overwhelming feedback that we get from our community is 
that people would rather have us show relevant content there 
than not.
    So we offer this control that you are referencing. Some 
people use it. It is not the majority of people on Facebook. 
And I think that that is a good level of control to offer. I 
think what Sheryl was saying was that in order to not run ads 
at all, we would still need some sort of business model.
    Senator Nelson. And that is your business model. And I use 
the harmless example of chocolate, but if it got into a more 
personal thing, communicating with friends, and I want to cut 
it off, I am going to have to pay you in order not to send me, 
using my personal information, something that I do not want. 
That in essence is what I understood Ms. Sandberg to say. Is 
that correct?
    Mr. Zuckerberg. Yes, Senator. Although, to be clear, we do 
not offer an option today for people to pay to not show ads. We 
think offering an ad-supported service is the most aligned with 
our mission of trying to help connect everyone in the world 
because we want to offer a free service that everyone can 
afford.
    Senator Nelson. OK.
    Mr. Zuckerberg. That is the only way that we can reach 
billions of people.
    Senator Nelson. So, therefore, you consider my personally 
identifiable data the company's data, not my data, is that it?
    Mr. Zuckerberg. No, Senator. Actually, the first line of 
our terms of service say that you control and own the 
information and content that you put on Facebook.
    Senator Nelson. Well, the recent scandal is obviously 
frustrating not only because it affected 87 million but because 
it seems to be part of a pattern of lax data practices by the 
company going back years. So back in 2011 it was a settlement 
with the FTC and now we discover yet another instance where the 
data failed to be protected. When you discovered the Cambridge 
Analytica that had fraudulently obtained all this information, 
why did you not inform those 87 million?
    Mr. Zuckerberg. When we learned in 2015 that Cambridge 
Analytica had bought data from an app developer on Facebook 
that people had shared it with, we did take action. We took 
down the app, and we demanded that both the app developer and 
Cambridge Analytica delete and stop using any data that they 
had. They told us that they did this. In retrospect, it was 
clearly a mistake to believe them.
    Senator Nelson. Yes.
    Mr. Zuckerberg. We should have followed up and done a full 
audit then, and that is not a mistake that we will make again.
    Senator Nelson. Yes, you did that, and you apologized for 
it, but you did not notify them. And do you think that you have 
an ethical obligation to notify 87 million Facebook users?
    Mr. Zuckerberg. Senator, when we heard back from Cambridge 
Analytica that they had told us that they were not using the 
data and they had deleted it, we considered it a closed case. 
In retrospect, that was clearly a mistake. We should not have 
taken their word for it, and we have updated our policies and 
how we are going to operate the company to make sure that we do 
not make that mistake again.
    Senator Nelson. Did anybody notify the FTC?
    Mr. Zuckerberg. No, Senator, for the same reason, that we 
had considered it a closed case.
    Chairman Grassley. Senator Thune.
    Chairman Thune. And, Mr. Zuckerberg, would you do that 
differently today presumably, in response to Senator Nelson's 
question?
    Mr. Zuckerberg. Yes.
    Chairman Thune. This may be your first appearance before 
Congress, but it is not the first time that Facebook has faced 
tough questions about its privacy policies. Wired magazine 
recently noted that you have a 14-year history of apologizing 
for ill-advised decisions regarding user privacy, not unlike 
the one that you made just now in your opening statement. After 
more than a decade of promises to do better, how is today's 
apology different, and why should we trust Facebook to make the 
necessary changes to ensure user privacy and give people a 
clearer picture of your privacy policies?
    Mr. Zuckerberg. Thank you, Mr. Chairman. So we have made a 
lot of mistakes in running the company. I think it is pretty 
much impossible, I believe, to start a company in your dorm 
room and then grow it to be the scale we are at now without 
making some mistakes. And because our service is about helping 
people connect and information, those mistakes have been 
different in how we try not to make the same mistake multiple 
times, but in general, a lot of the mistakes are around how 
people connect to each other just because of the nature of the 
service.
    Overall, I would say that we are going through a broader 
philosophical shift in how we approach our responsibility as a 
company. For the first 10 or 12 years of the company, I viewed 
our responsibility as primarily building tools, that if we 
could put those tools in people's hands, then that would 
empower people to do good things.
    What I think we have learned now across a number of issues, 
not just data privacy but also fake news and foreign 
interference in elections, is that we need to take a more 
proactive role and a broader view of our responsibility. It is 
not enough to just build tools; we need to make sure that they 
are used for good. And that means that we need to now take a 
more active view in policing the ecosystem and in watching and 
kind of looking out and making sure that all of the members in 
our community are using these tools in a way that is going to 
be good and healthy.
    So, at the end of the day, this is going to be something 
where people will measure us by our results on this. It is not 
that I expect that anything I say here today to necessarily 
change people's view, but I am committed to getting this right, 
and I believe that over the coming years, once we fully work 
all these solutions through, people will see real differences.
    Chairman Thune. OK. I am glad that you all have gotten that 
message.
    As we discussed in my office yesterday, the line between 
legitimate political discourse and hate speech can sometimes be 
hard to identify, and especially when you are relying on 
artificial intelligence and other technologies for the initial 
discovery. Can you discuss the steps that Facebook currently 
takes when making these evaluations, the challenges that you 
face, and any examples of where you may draw the line between 
what is and what is not hate speech?
    Mr. Zuckerberg. Yes, Mr. Chairman. I will speak to hate 
speech, and then I will talk about enforcing our content 
policies more broadly. Actually, maybe if you are OK with it, I 
will go in the other order.
    So, from the beginning of the company in 2004, I started in 
my dorm room. It was me and my roommate. We did not have AI 
technology that could look at the content that people were 
sharing, so we basically had to enforce our content policies 
reactively. People could share what they wanted, and then if 
someone in the community found it to be offensive or against 
our policies, they would flag it for us and we would look at it 
reactively.
    Now, increasingly, we are developing AI tools that can 
identify certain classes of bad activity proactively and flag 
it for our team at Facebook. By the end of this year, by the 
way, we are going to have more than 20,000 people working on 
security and content review working across all these things, so 
when content gets flagged to us, we have those people look at 
it, and if it violates our policies, then we take it down.
    Some problems lend themselves more easily to AI solutions 
than others, so hate speech is one of the hardest because 
determining if something is hate speech is very linguistically 
nuanced, right? You need to understand, you know, what a slur 
is and whether something is hateful not just in English, but 
the majority of people on Facebook use it in languages that are 
different across the world.
    Contrast that, for example, with an area like finding 
terrorist propaganda, which we have actually been very 
successful at deploying AI tools on already. Today, as we sit 
here, 99 percent of the ISIS and al-Qaida content that we take 
down on Facebook our AI systems flag before any human sees it, 
so that is a success in terms of rolling out AI tools that can 
proactively police and enforce safety across the community.
    Hate speech, I am optimistic that over a 5- to 10-year 
period we will have AI tools that can get into some of the 
nuances, the linguistic nuances of different types of content 
to be more accurate in flagging things for our system, but 
today, we are just not there on that. So a lot of this is still 
reactive. People flag it to us. We have people look at it. We 
have policies to try to make it as not subjective as possible, 
but until we get it more automated, there is a higher error 
rate than I am happy with.
    Chairman Thune. Thank you, Mr. Chairman.
    Chairman Grassley. Senator Feinstein.
    Senator Feinstein. Thanks, Mr. Chairman.
    Mr. Zuckerberg, what is Facebook doing to prevent foreign 
actors from interfering in U.S. elections?
    Mr. Zuckerberg. Thank you, Senator. This is one of my top 
priorities in 2018 is to get this right. One of my greatest 
regrets in running the company is that we were slow in 
identifying the Russian information operations in 2016. We 
expected them to do a number of more traditional cyber attacks, 
which we did identify and notify the campaigns, that they were 
trying to hack into them, but we were slow to identifying the 
type of new information operations.
    Senator Feinstein. When did you identify new operations?
    Mr. Zuckerberg. It was right around the time of the 2016 
election itself. So since then, we--2018 is an incredibly 
important year for elections, not just with the U.S. midterms 
but around the world. There are important elections in India, 
in Brazil, in Mexico and Pakistan and in Hungary, that we want 
to make sure that we do everything we can to protect the 
integrity of those elections.
    Now, I have more confidence that we are going to get this 
right because since the 2016 election, there have been several 
important elections around the world where we have had a better 
record. There is the French Presidential election, there is the 
German election, there was the U.S. Senate Alabama special 
election last year.
    Senator Feinstein. Explain what is better about the record.
    Mr. Zuckerberg. So we have deployed new AI tools that do a 
better job of identifying fake accounts that may be trying to 
interfere in elections or spread misinformation. And between 
those three elections, we were able to proactively remove tens 
of thousands of accounts before they could contribute 
significant harm. And the nature of these attacks, though, is 
that, you know, there are people in Russia whose job it is to 
try to exploit our systems and other Internet systems and other 
systems as well, so this is an arms race, right? I mean, they 
are going to keep getting better at this, and we need to invest 
and keep getting better at this, too, which is why one of the 
things I mentioned before is we are going to have more than 
20,000 people by the end of this year working on security and 
content review across the company.
    Senator Feinstein. Speak for a moment about automated bots 
that spread disinformation. What are you doing to punish those 
who exploit your platform in that regard?
    Mr. Zuckerberg. Well, you are not allowed to have a fake 
account on Facebook. Your content has to be authentic. So we 
build technical tools to try to identify when people are 
creating fake accounts, especially large networks of fake 
accounts like the Russians have, in order to remove all of that 
content.
    After the 2016 election, our top priority was protecting 
the integrity of other elections around the world, but at the 
same time, we had a parallel effort to trace back to Russia the 
IRA activity, the Internet Research Agency activity that was 
part of the Russian Government that did this activity in 2016. 
And just last week, we were able to determine that a number of 
Russian media organizations that were sanctioned by the Russian 
regulator were operated and controlled by this Internet 
Research Agency. So we took the step last week that was a 
pretty big step for us of taking down sanctioned news 
organizations in Russia as part of an operation to remove 270 
fake accounts and pages, part of their broader network in 
Russia that was actually not targeting international 
interference as much as--I am sorry, let me correct that. It 
was primarily targeting spreading misinformation in Russia 
itself, as well as certain Russian-speaking neighboring 
countries.
    Senator Feinstein. How many accounts of this type have you 
taken down?
    Mr. Zuckerberg. In the IRA specifically, the ones that we 
have pegged back to the IRA, we can identify the 470 in the 
American elections and the 270 that we specifically went after 
in Russia last week. There were many others that our systems 
catch, which are more difficult to attribute specifically to 
Russian intelligence, but the number would be in the tens of 
thousands of fake accounts that we remove, and I am happy to 
have my team follow up with you on more information if that 
would be helpful.
    Senator Feinstein. Would you, please? I think this is very 
important.
    [The information referred to follows:]

    How many accounts of this type [Russian IRA/fake accounts] have you 
taken down?
    After the 2016 election, we learned from press accounts and 
statements by congressional leaders that Russian actors might have 
tried to interfere in the election by exploiting Facebook's ad tools. 
This is not something we had seen before, and so we started an 
investigation. We found that about 470 fake accounts associated with 
the IRA spent approximately $100,000 on around 3,500 Facebook and 
Instagram ads between June 2015 and August 2017. Our analysis also 
showed that these accounts used these ads to promote the roughly 120 
Facebook Pages they had set up, which in turn posted more than 80,000 
pieces of content between January 2015 and August 2017. More recently, 
we took down more than 270 Pages and accounts controlled by the IRA 
that primarily targeted either people living in Russia or Russian 
speakers around the world, including from countries neighboring Russia.
    We are committed to finding and removing fake accounts. We 
continually update our technical systems to identify, checkpoint, and 
remove inauthentic accounts. We block millions of attempts to register 
fake accounts every day. These systems examine thousands of detailed 
account attributes and prioritize signals that are more difficult for 
bad actors to disguise, such as their connections to others on our 
platform. We do not share detailed descriptions of how our tools work 
in order to avoid providing a road map to bad actors who are trying to 
avoid detection. When we suspect that an account is inauthentic, we 
typically enroll the account in a checkpoint that requires the account 
holder to provide additional information or verification. We view 
disabling an account as a severe sanction, and we want to ensure that 
we are highly confident that the account violates our policies before 
we take permanent action. When we have confirmed that an account 
violates our policies, we remove the account.

    Senator Feinstein. If you knew in 2015 that Cambridge 
Analytica was using the information of Professor Kogan, why did 
Facebook not ban Cambridge in 2015? Why did you wait in other 
words?
    Mr. Zuckerberg. Senator, that is a great question. 
Cambridge Analytica was not using our services in 2015 as far 
as we can tell, so this is clearly one of the questions I asked 
our team as soon as I learned about this is why did we wait 
until we found out about the reports last month to ban them? It 
is because, as of the time that we learned about their activity 
in 2015, they were not an advertiser, they were not running 
pages, so we actually had nothing to ban.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Grassley. Yes, thank you, Senator Feinstein.
    Now, Senator Hatch.

                STATEMENT OF HON. ORRIN HATCH, 
                     U.S. SENATOR FROM UTAH

    Senator Hatch. Well, this is the most intense public 
scrutiny I have seen for a tech-related hearing since the 
Microsoft hearing that I chaired back in the late 1990s. The 
recent stories about Cambridge Analytica and data mining on 
social media raise serious concerns about consumer privacy, and 
naturally, I know you understand that.
    At the same time, these stories touch on the very 
foundation of the Internet economy and the way the websites 
that drive our Internet economy make money. Some have professed 
themselves shocked, shocked that companies like Facebook and 
Google share user data with advertisers. Did any of these 
individuals ever stop to ask themselves why Facebook and Google 
do not charge for access? Nothing in life is free. Everything 
involves tradeoffs. If you want something without having to pay 
money for it, you are going to have to pay for it in some other 
way it seems to me, and that is what we are seeing here.
    And these great websites that do not charge for access, 
they extract value in some other way, and there is nothing 
wrong with that, as long as they are upfront about what they 
are doing. In my mind the issue here is transparency. It is 
consumer choice. Do users understand what they are agreeing to 
when they access the website or agree to terms of service? Are 
websites upfront about how they extract value from users, or do 
they hide the ball? Do consumers have the information they need 
to make an informed choice regarding whether or not to visit a 
particular website? To my mind, these are questions that we 
should ask or be focusing on.
    Now, Mr. Zuckerberg, I remember well your first visit to 
Capitol Hill back in 2010. You spoke to the Senate Republican 
High-Tech Task Force, which I chair. You said back then that 
Facebook would always be free. Is that still your objective?
    Mr. Zuckerberg. Senator, yes. There will always be a 
version of Facebook that is free. It is our mission to try to 
help connect everyone around the world and to bring the world 
closer together. In order to do that, we believe that we need 
to offer a service that everyone can afford, and we are 
committed to doing that.
    Senator Hatch. Well, if so, how do you sustain a business 
model in which users do not pay for your service?
    Mr. Zuckerberg. Senator, we run ads.
    Senator Hatch. I see. That is great. Whenever a controversy 
like this arises, there is always a danger that Congress' 
response will be to step in and overregulate. Now, that has 
been the experience that I have had in my 42 years here. In 
your view, what sorts of legislative changes would help to 
solve the problems the Cambridge Analytica story has revealed, 
and what sorts of legislative changes would not help to solve 
this issue?
    Mr. Zuckerberg. Senator, I think that there are few 
categories of legislation that make sense to consider. Around 
privacy specifically, there are few principles that I think it 
would be useful to discuss and potentially codify into law. One 
is around having a simple and practical set of ways that you 
explain what you are doing with data. And we talked a little 
bit earlier around the complexity of laying out this long 
privacy policy. It is hard to say that people, you know, fully 
understand something when it is only written out in a long 
legal document. The stuff needs to be implemented in a way 
where people can actually understand it, where consumers can 
understand it but that can also capture all the nuances of how 
these services work in a way that is not overly restrictive on 
providing the services. That is one.
    The second is around giving people complete control. This 
is the most important principle for Facebook. Every piece of 
content that you share on Facebook you own, and you have 
complete control over who sees it and how you share it. And you 
can remove it at any time. That is why every day, about 100 
billion times a day, people come to one of our services and 
either post a photo or send a message to someone because they 
know that they have that control and that who they say it is 
going to is who sees the content. And I think that that control 
is something that is important that I think should apply to 
every service. And----
    Senator Hatch. Go ahead.
    Mr. Zuckerberg.--the third point is just around enabling 
innovation because some of these use cases that are very 
sensitive like face recognition, for example--and I think that 
there is a balance that is extremely important to strike here 
where you obtain special consent for sensitive features like 
face recognition, but we still need to make it so that American 
companies can innovate in those areas or else we are going to 
fall behind Chinese competitors and others around the world who 
have different regimes for different new features like that.
    Chairman Grassley. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman.
    Welcome, Mr. Zuckerberg. Do you know who Palantir is?
    Mr. Zuckerberg. I do.
    Senator Cantwell. Some people have referred to them as a 
Stanford Analytica. Do you agree?
    Mr. Zuckerberg. Senator, I have not heard that.
    Senator Cantwell. OK. Do you think Palantir taught 
Cambridge Analytica--press reports are saying--how to do these 
tactics?
    Mr. Zuckerberg. Senator, I do not know.
    Senator Cantwell. Do you think that Palantir has ever 
scraped data from Facebook?
    Mr. Zuckerberg. Senator, I am not aware of that.
    Senator Cantwell. OK. Do you think that during the 2016 
campaign, as Cambridge Analytica was providing support to the 
Trump campaign under Project Alamo, were there any Facebook 
people involved in that sharing of technique and information?
    Mr. Zuckerberg. Senator, we provided support to the Trump 
campaign similar to what we provide to any advertiser or 
campaign who asks for it.
    Senator Cantwell. So that was a yes? Is that a yes?
    Mr. Zuckerberg. Senator, can you repeat the specific 
question? I just want to make sure I get----
    Senator Cantwell. Yes.
    Mr. Zuckerberg.--specifically what you are asking.
    Senator Cantwell. During the 2016 campaign, Cambridge 
Analytica worked with the Trump campaign to refine tactics, and 
were Facebook employees involved in that?
    Mr. Zuckerberg. Senator, I do not know that our employees 
were involved with Cambridge Analytica, although I know that we 
did help out with the Trump campaign overall in sales support 
in the same way that we do with other campaigns.
    Senator Cantwell. So they may have been involved and all 
working together during that time period? Maybe that is 
something your investigation will find out?
    Mr. Zuckerberg. Senator, I can certainly have my team get 
back to you on any specifics there that I do not know sitting 
here today.
    Senator Cantwell. Have you heard of Total Information 
Awareness? Do you know what I am talking about?
    Mr. Zuckerberg. No, I do not.
    Senator Cantwell. OK. Total Information Awareness was 2003, 
John Ashcroft and others trying to do similar things to what I 
think is behind all of this, geopolitical forces trying to get 
data and information to influence a process. So when I look at 
Palantir and what they are doing and I look at WhatsApp, which 
is another acquisition, and I look at where you are from the 
2011 Consent Decree and where you are today, I am thinking is 
this guy outfoxing the foxes, or is he going along with what is 
a major trend in an information age to try to harvest 
information for political forces?
    And so my question to you is do you see that those 
applications, that those companies Palantir and even WhatsApp 
are going to fall into the same situation that you have just 
fallen into over the last several years?
    Mr. Zuckerberg. Senator, I am not sure specifically. 
Overall, I do think that these issues around information access 
are challenging. To the specifics about those apps, I am not 
really that familiar with what Palantir does. WhatsApp collects 
very little information and I think is less likely to have the 
kind of issues because of the way that the service is 
architected, but certainly, I think that these are broad issues 
across the tech industry.
    Senator Cantwell. Well, I guess, given the track record 
where Facebook is and why you are here today, I guess people 
would say that they did not act boldly enough. And the fact 
that people like John Bolton basically was an investor--in a 
New York Times article earlier--I guess it was actually last 
month that the Bolton PAC was obsessed with how America was 
becoming limp-wristed and spineless and it wanted research and 
messaging for national security issues.
    So the fact that, you know, there are a lot of people who 
are interested in this larger effort, and what I think my 
constituents want to know is was this discussed at your Board 
meetings, and what are the applications and interests that are 
being discussed without putting real teeth into this? We do not 
want to come back to this situation again. I believe you have 
all the talent. My question is whether you have all the will to 
help us solve this problem?
    Mr. Zuckerberg. Yes, Senator. So data privacy and foreign 
interference in elections are certainly topics that we have 
discussed at the Board meeting. These are some of the biggest 
issues that the company has faced, and we feel a huge 
responsibility to get these right.
    Senator Cantwell. Do you believe the European regulations 
should be applied here in the U.S.?
    Mr. Zuckerberg. Senator, I think everyone in the world 
deserves good privacy protection, and regardless of whether we 
implement the exact same regulation--I would guess that it 
would be somewhat different because we have somewhat different 
sensibilities in the U.S. as to other countries--we are 
committed to rolling out the controls and the affirmative 
consent and the special controls around sensitive types of 
technology like face recognition that are required in GDP are. 
We are doing that around the world. So I think it is certainly 
worth discussing whether we should have something similar in 
the U.S., but what I would like to say today is that we are 
going to go forward and implement that, regardless of what the 
regulatory outcome is.
    Chairman Grassley. Senator Wicker. Senator Thune will chair 
next. Senator Wicker.

                STATEMENT OF HON. ROGER WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman.
    And, Mr. Zuckerberg, thank you for being with us. My 
question is going to be sort of a follow-up on what Senator 
Hatch was talking about. And let me agree with his advice that 
we do not want to overregulate to the point where we are 
stifling innovation and investment.
    I understand with regard to suggested rules or suggested 
legislation for internet privacy there are at least two schools 
of thought out there. One would be the ISPs, the internet 
service providers, who are advocating for privacy protections 
for consumers that apply to all online entities equally across 
the entire Internet ecosystem. Now, Facebook is an edge 
provider on the other hand. It is my understanding that many 
edge providers such as Facebook may not support that effort 
because edge providers have different business models than the 
ISPs and should not be considered like services.
    So do you think we need consistent privacy protections for 
consumers across the entire Internet ecosystem that are based 
on the type of consumer information being collected, used, or 
shared, regardless of the entity doing the collecting, using, 
or sharing?
    Mr. Zuckerberg. Senator, this is an important question. I 
would differentiate between ISPs, which I consider to be the 
pipes of the internet, and the platforms like Facebook or 
Google or Twitter, YouTube that are the apps or platforms on 
top of that. I think in general, the expectations that people 
have of the pipes are somewhat different from the platforms, so 
there might be areas where there needs to be more regulation in 
one and less on the other, but then I think there are going to 
be other places where there needs to be more regulation of the 
other type.
    Specifically, though, on the pipes, one of the important 
issues that I think we face and have debated is----
    Senator Wicker. When you say pipes, you mean?
    Mr. Zuckerberg. ISPs.
    Senator Wicker. The ISPs.
    Mr. Zuckerberg. Yes. And I know net neutrality has been a 
hotly debated topic, and one of the reasons why I have been out 
there saying that I think that that should be the case is 
because, you know, I look at my own story of when I was getting 
started building Facebook at Harvard, you know, I only had one 
option for an ISP to use, and if I had to pay extra in order to 
make it so that my app could potentially be seen or used by 
other people, then we probably would not be here today.
    Senator Wicker. OK, but we are talking about privacy 
concerns. And let me just say we will have to follow up on 
this, but I think you and I agree this is going to be one of 
the major items of debate if we have to go forward and address 
internet privacy from a governmental standpoint.
    Let me move on to another couple of items. Is it true, as 
was recently publicized, that Facebook collects the call and 
text histories of its users that use android phones?
    Mr. Zuckerberg. Senator, we have an app called Messenger 
for sending messages to your Facebook friends, and that app 
offers people an option to sync their text messages into the 
messaging app and to make it so that--basically, so you can 
have one app where it has both your texts and your Facebook 
messages in one place. We also allow people the option----
    Senator Wicker. You can opt in or out of that?
    Mr. Zuckerberg. Yes.
    Senator Wicker. Is it easy to opt out?
    Mr. Zuckerberg. It is opt-in. You have to affirmatively say 
that you want to sync that information before we get access to 
it.
    Senator Wicker. Unless you opt in, you do not collect that 
call and text history?
    Mr. Zuckerberg. That is correct.
    Senator Wicker. And is this practice done at all with 
minors or do you make an exception there for persons aged 13 to 
17?
    Mr. Zuckerberg. I do not know. We can follow up on that.
    Senator Wicker. OK. Do that. And let us know.
    [The information referred to follows:]

    Does Facebook allow minors (13-17) to opt in to share their call 
and text history?
    Call and text history logging is part of an opt-in feature that 
lets people import contact information to help them connect with people 
they know on Facebook and Messenger. We introduced the call and text 
history component of this feature for Android users several years ago, 
and currently offer it in Messenger and Facebook Lite, a lightweight 
version of Facebook, on Android.
    We've reviewed this feature to confirm that Facebook does not 
collect the content of messages--and will delete all logs older than 
one year. In the future, the client will only upload to our servers the 
information needed to offer this feature--not broader data such as the 
time of calls. We do allow people from 13 to 17 to opt into this 
service. However, we do take other steps to protect teens on Facebook 
and Messenger:

  <bullet> We provide education before allowing teens to post publicly.

  <bullet> We don't show search results based on specific profile data 
        (high school, birthday/age, and hometown, or current city) of 
        teens to unconnected adults when the adults search on Facebook.

  <bullet> Unconnected adults can't message minors who are 13-17.

  <bullet> We have age limits for advertisements. For example, ads for 
        dating sites, financial services and other products or services 
        are gated to users under 18.

  <bullet> We've also helped many teenagers with information about 
        bullying prevention campaigns and online safety tips.

    Senator Wicker. And one other thing. There have been 
reports that Facebook can track a user's Internet browsing 
activity even after that user has logged off of the Facebook 
platform. Can you confirm whether or not this is true?
    Mr. Zuckerberg. Senator, I want to make sure I get this 
accurate so it would probably be better to have my team follow 
up afterwards.
    Senator Wicker. So you do not know?
    Mr. Zuckerberg. I know that people use cookies on the 
internet and that you can probably correlate activity between 
sessions. We do that for a number of reasons, including 
security and including measuring ads to make sure that the ad 
experiences are the most effective, which, of course, people 
can opt out of. But I want to make sure that I am precise in my 
answer so----
    Senator Wicker. Well, when you get----
    Mr. Zuckerberg. --let me follow up with you after.
    Senator Wicker.--back to me, sir, would you also let us 
know how Facebook discloses to its users that it is engaging in 
this type of tracking, if Facebook is in fact tracking users 
after they have logged off the platform?
    Mr. Zuckerberg. Yes.
    [The information referred to follows:]

    There have been reports that Facebook can track users' Internet 
browsing activity even after that user has logged off of the Facebook 
platform. Can you confirm whether or not this is true? Would you also 
let us know how Facebook discloses to its users that engaging in this 
type of tracking gives us that result of tracking between devices?
    When people visit apps or websites that feature our technologies--
like the Facebook Like or Comment button--our servers automatically log 
(i) standard browser or app records of the fact that a particular 
device or user visited the website or app (this connection to 
Facebook's servers occurs automatically when a person visits a website 
or app that contains our technologies, such as a Like button, and is an 
inherent function of Internet design); and (ii) any additional 
information the publisher of the app or website chooses to share with 
Facebook about the person's activities on that site (such as the fact 
that a purchase was made on the site). This is a standard feature of 
the Internet, and most websites and apps share this same information 
with multiple different third-parties whenever people visit their 
website or app. For example, the Senate Commerce Committee's website 
shares information with Google and its affiliate DoubleClick and with 
the analytics company Webtrends. This means that, when a person visits 
the Committee's website, it sends browser information about their visit 
to each one of those third parties. More information about how this 
works is available at https://newsroom.fb.com/news/2018/04/data-off-
facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product or use specific features like our Like button--but 
without providing any information about a specific person. We do not 
create profiles for non-Facebook users, nor do we use browser and app 
logs for non-Facebook users to show targeted ads from our advertisers 
to them or otherwise seek to personalize the content they see. However, 
we may take the opportunity to show a general ad that is unrelated to 
the attributes of the person or an ad encouraging the non-user to sign 
up for Facebook.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings. We do not sell or share this information with third-parties.

    Senator Wicker. And thank you very much.
    Chairman Thune [presiding]. Thank you, Senator Wicker. 
Senator Leahy is up next.

               STATEMENT OF HON. PATRICK LEAHY, 
                   U.S. SENATOR FROM VERMONT

    Senator Leahy. Thank you.
    Mr. Zuckerberg, I assume Facebook has been served subpoenas 
from Special Counsel Mueller's office. Is that correct?
    Mr. Zuckerberg. Yes.
    Senator Leahy. Have you or anyone at Facebook been 
interviewed by the Special Counsel's office?
    Mr. Zuckerberg. Yes.
    Senator Leahy. Have you been interviewed?
    Mr. Zuckerberg. I have not. I have not.
    Senator Leahy. Others have?
    Mr. Zuckerberg. I believe so. And I want to be careful here 
because our work with the Special Counsel is confidential, and 
I want to make sure that in an open session I am not revealing 
something that is confidential.
    Senator Leahy. I understand. I just want to make clear that 
you have been contacted, and you have had subpoenas.
    Mr. Zuckerberg. Actually, let me clarify that. I actually 
am not aware of a subpoena. I believe that there may be, but I 
know we are working with them.
    Senator Leahy. Thank you. Six months ago, your General 
Counsel promised us that you were taking steps to prevent 
Facebook from serving, as it is called, as an unwitting co-
conspirator in Russian interference. But these unverified 
divisive pages are on Facebook today. They look a lot like the 
anonymous groups the Russian agencies used to spread propaganda 
during the 2016 election. Are you able to confirm whether they 
are Russian-created groups? Yes or no?
    Mr. Zuckerberg. Senator, are you asking about those 
specifically?
    Senator Leahy. Yes.
    Mr. Zuckerberg. Senator, last week, we actually announced a 
major change to our ads-and-pages policies that we will be 
verifying the identity of every single----
    Senator Leahy. I am asking about----
    Mr. Zuckerberg.--advertiser----
    Senator Leahy.--specific ones. Do you know whether they 
are?
    Mr. Zuckerberg. I am not familiar with those pieces of 
content specifically.
    Senator Leahy. But if you decided this policy a week ago, 
you would be able to verify them?
    Mr. Zuckerberg. We are working on that now. What we are 
doing is we are going to verify the identity of any advertiser 
who is running a political- or issue-related ad. This is 
basically what the Honest Ads Act is proposing, and we are 
following that, and we are also going to do that for pages so--
--
    Senator Leahy. But you cannot answer on these?
    Mr. Zuckerberg. I am not familiar with those specific 
cases.
    Senator Leahy. Will you find out the answer and get back to 
me?
    Mr. Zuckerberg. I will have my team get back to you.
    [The information referred to follows:]

    Six months ago, your general counsel promised us you were taking 
steps to prevent Facebook from serving what I call unwitting conspiracy 
Russian interference. But these unverified, divisive pages are on 
Facebook today. They look a lot like Russian agents used to spread 
propaganda during the 2016 election. Are you able to confirm whether 
they are Russian groups, yes or no?
    In general, we take aggressive investigative steps to identify and 
disable groups that conduct coordinated inauthentic activities on the 
platform, but it is extremely challenging to definitively attribute 
online activity to particular threat actors. We often rely on 
information from others, like information from the government, to 
identify actors behind abuse that we observe and to better understand 
these issues. We would need more information in order to review the 
specific Pages referenced at the hearing.

    Mr. Zuckerberg. I do think it is worth adding, though, that 
we are going to do the same verification of the identity and 
location of admins who are running large pages, so that way 
even if they are not going to be buying ads on our system, that 
will make it significantly harder for Russian interference 
efforts or other inauthentic efforts----
    Senator Leahy. Well, some----
    Mr. Zuckerberg.--to try to spread information through the 
network.
    Senator Leahy. And it has been going on for some time, so 
you might say that it is about time. You know, six months ago, 
I asked your general counsel about Facebook's role as a 
breeding ground for hate speech against Rohingya refugees. 
Recently, U.N. investigators blamed Facebook for playing a role 
in inciting the possible genocide in Myanmar, and there has 
been genocide there. Now, you say you used AI to find this. 
This is the type of content I am referring to. It calls for the 
death of a Muslim journalist. Now, that threat went straight 
through your detection system, it spread very quickly, and 
then, it took attempt after attempt after attempt and the 
involvement of civil society groups to get you to remove it. 
Why could it not be removed within 24 hours?
    Mr. Zuckerberg. Senator, what is happening in Myanmar is a 
terrible tragedy, and we need to do more.
    Senator Leahy. We all agree with that.
    Mr. Zuckerberg. OK.
    Senator Leahy. But U.N. investigators have blamed you, 
blamed Facebook for playing a role in the genocide. We all 
agree it is terrible. How can you dedicate and will you 
dedicate resources to make sure such hate speech is taken down 
within 24 hours?
    Mr. Zuckerberg. Yes, we are working on this. And there are 
three specific things that we are doing. One is we are hiring 
dozens of more Burmese language content reviewers because hate 
speech is very language-specific. It is hard to do it without 
people who speak the local language, and we need to ramp up our 
effort there dramatically.
    Second is we are working with civil society in Myanmar to 
identify specific hate figures so we can take down their 
accounts rather than specific pieces of content.
    And third is we are standing up a product team to do 
specific product changes in Myanmar and other countries that 
may have similar issues in the future to prevent this from 
happening.
    Senator Leahy. Senator Cruz and I sent a letter to Apple 
asking what they are going to do about Chinese censorship. My 
question, I will place it for the record.
    Chairman Thune. That would be great. Thank you, Senator 
Leahy.
    Senator Leahy. At least for the record I want to know what 
you will do about Chinese censorship when they come to you.
    [The information referred to follows:]

    I want to know what you'll do about Chinese censorship when they 
come to you.
    Because Facebook has been blocked in China since 2009, we are not 
in a position to know exactly how the government would seek to apply 
its laws and regulations on content were we permitted to offer our 
service to Chinese users. Since 2013, Facebook has been a member of the 
Global Network Initiative (GNI), a multi-stakeholder digital rights 
initiative. As part of our membership, Facebook has committed to the 
freedom of expression and privacy standards set out in the GNI 
Principles--which are in turn based on the Universal Declaration of 
Human Rights and the United Nations Guiding Principles on Business and 
Human Rights--and we are independently assessed on our compliance with 
these standards on a biennial basis.
    When something on Facebook or Instagram is reported to us as 
violating local law, but doesn't go against our Community Standards, we 
may restrict the content's availability only in the country where it is 
alleged to be illegal after careful legal review. We receive reports 
from governments and courts, as well from non-government entities such 
as members of the Facebook community and NGOs.
    More information is available here: https://
transparency.facebook.com/content-restrictions.

    Chairman Thune. Senator Graham is up next.

               STATEMENT OF HON. LINDSEY GRAHAM, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator Graham. Thank you.
    Are you familiar with Andrew Bosworth?
    Mr. Zuckerberg. Yes, Senator, I am.
    Senator Graham. He said, ``So we connect more people, maybe 
someone dies in a terrorist attack coordinated on our tools. 
The ugly truth is that we believe in connecting people so 
deeply that anything that allows us to connect more people more 
often is de facto good.'' Do you agree with that?
    Mr. Zuckerberg. No, Senator, I do not, and as context, Bos 
wrote that--Bos is what we call him internally--he wrote that 
as an internal note. We had a lot of discussion internally. I 
disagreed with it at the time that he wrote it. If you looked 
at the comments on the internal discussion, the vast majority--
--
    Senator Graham. Would you say----
    Mr. Zuckerberg.--of people internally did, too.
    Senator Graham.--that you did a poor job as a CEO 
communicating your displeasure with such thoughts because if he 
had understood where you were, he never would have said it to 
begin with?
    Mr. Zuckerberg. Well, Senator, we try to run our company in 
a way where people can express different opinions internally.
    Senator Graham. Well, this is an opinion that really 
disturbs me. And if somebody worked for me that said this, I 
would fire them.
    Who is your biggest competitor?
    Mr. Zuckerberg. Senator, we have a lot of competitors.
    Senator Graham. Who is your biggest?
    Mr. Zuckerberg. I think the categories of--did you want 
just one? I am not sure I can give one, but can I give a bunch?
    Senator Graham. Yes.
    Mr. Zuckerberg. So there are three categories I would focus 
on. One are the other tech platforms so Google, Apple, Amazon, 
Microsoft. We overlap with them in different ways.
    Senator Graham. Do they provide the same service you 
provide?
    Mr. Zuckerberg. In different ways, different parts of it, 
yes.
    Senator Graham. Let me put it this way. If I buy a Ford and 
it does not work well and I do not like it, I can buy a Chevy. 
If I am upset with Facebook, what is the equivalent product 
that I can go sign up for?
    Mr. Zuckerberg. Well, the second category that I was going 
to talk about are specific----
    Senator Graham. I am not talking about categories. I am 
talking about is there real competition you face? Because car 
companies face a lot of competition. If they make a defective 
car, it gets out in the world, people stop buying that car or 
they buy another one. Is there an alternative to Facebook in 
the private sector?
    Mr. Zuckerberg. Yes, Senator. The average American uses 
eight different apps----
    Senator Graham. OK.
    Mr. Zuckerberg.--to communicate with their friends and stay 
in touch with people----
    Senator Graham. OK.
    Mr. Zuckerberg.--ranging from texting apps----
    Senator Graham. Which is the----
    Mr. Zuckerberg.--to e-mail to----
    Senator Graham.--same service you provide? Is----
    Mr. Zuckerberg. Well, we provide a number of different 
services.
    Senator Graham. Is Twitter the same as what you do?
    Mr. Zuckerberg. It overlaps with a portion of what we do.
    Senator Graham. You do not think you have a monopoly?
    Mr. Zuckerberg. It certainly does not feel like that to me.
    [Laughter.]
    Senator Graham. OK. So it does not. So Instagram, you 
bought Instagram. Why did you buy Instagram?
    Mr. Zuckerberg. Because they were very talented app 
developers who were making good use of our platform and 
understood our values.
    Senator Graham. It was a good business decision. My point 
is that one way to regulate a company is through competition, 
through government regulation. Here is the question that all of 
us got an answer. What we tell our constituents, given what has 
happened here, why we should let you self-regulate? What would 
you tell people in South Carolina that, given all the things we 
have just discovered here, it is a good idea for us to rely 
upon you to regulate your own business practices?
    Mr. Zuckerberg. Well, Senator, my position is not that 
there should be no regulation.
    Senator Graham. OK.
    Mr. Zuckerberg. I think the Internet has increased the 
importance----
    Senator Graham. Do you embrace regulation?
    Mr. Zuckerberg. I think the real question, as the internet 
becomes more important in people's lives, is what is the right 
regulation, not whether there should be regulation.
    Senator Graham. But you as a company welcome regulation?
    Mr. Zuckerberg. I think if it is the right regulation, then 
yes.
    Senator Graham. Do you think the Europeans have it right?
    Mr. Zuckerberg. I think that they get things right.
    Senator Graham. Have you ever submitted----
    [Laughter.]
    Senator Graham. That is true. So would you work with us in 
terms of what regulations you think are necessary in your 
industry?
    Mr. Zuckerberg. Absolutely.
    Senator Graham. OK. Would you submit to us some proposed 
regulations?
    Mr. Zuckerberg. Yes, and I will have my team follow up with 
you, so that way we can have this discussion across the 
different categories where I think that this discussion needs 
to happen.
    Senator Graham. I look forward to it.
    [The information referred to follows:]

    Would you submit to us some proposed regulations?
    Facebook is generally not opposed to regulation but wants to ensure 
it is the right regulation. The issues facing the industry are complex, 
multi-faceted, and affect an important part of peoples' lives. As such, 
Facebook is absolutely committed to working with regulators, like 
Congress, to craft the right regulations. Facebook would be happy to 
review any proposed legislation and provide comments.

    Senator Graham. When you sign up for Facebook, you sign up 
for terms of service. Are you familiar with that?
    Mr. Zuckerberg. Yes.
    Senator Graham. OK. It says, ``The terms govern your use of 
Facebook and the products, features, apps, services, 
technologies, software we offer (the Facebook products or 
products), except where we expressly state that separate terms 
(and not these) apply.'' I am a lawyer and I have no idea what 
that means. But when you look at terms of service, this is what 
you get. Do you think the average consumer understands what 
they are signing up for?
    Mr. Zuckerberg. I do not think that the average person 
likely reads that whole document.
    Senator Graham. Yes.
    Mr. Zuckerberg. But I think that there are different ways 
that we can communicate that and have a responsibility to do 
so.
    Senator Graham. Do you agree with me that you better come 
up with different ways because this is not working?
    Mr. Zuckerberg. Well, Senator, I think in certain areas 
that is true, and I think in other areas like the core part of 
what we do--right, if you think about just at the most basic 
level, people come to Facebook, Instagram, WhatsApp, Messenger 
about 100 billion times a day to share a piece of content or a 
message with a specific set of people. And I think that that 
basic functionality people understand because we have the 
controls in line every time. And given the volume of the 
activity and the value that people tell us that they are 
getting from that, I think that that control in line does seem 
to be working fairly well.
    Now, we can always do better, and there are other services 
that are complex and there is more to it than just, you know, 
you go and you push the photo, so I agree that in many places 
we could do better. But I think for the core of the service, it 
actually is quite clear.
    Chairman Thune. Thank you, Senator Graham.
    Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you, Mr. Chairman.
    Mr. Zuckerberg, I think we all agree that what happened 
here was bad. You acknowledged it was a breach of trust. And 
the way I explained it to my constituents is that if someone 
breaks into my apartment with a crowbar and they take my stuff, 
it is just like if the manager gave them the keys or if they 
did not have any locks on the doors. It is still a breach. It 
is still a break-in. And I believe we need to have laws and 
rules that are as sophisticated as the brilliant products that 
you have developed here, and we just have not done that yet.
    And one of the areas that I have focused on is the 
election, and I appreciate the support that you and Facebook 
and now Twitter actually have given to the Honest Ads Act, a 
bill that you mentioned that I am leading with Senator McCain 
and Senator Warner. And I just want to be clear, as we work to 
pass this law so that we have the same rules in place to 
disclose political ads and issue ads as we do for TV and radio, 
as well as disclaimers, that you are going to take early 
action--as soon as June I heard--before this election so that 
people can view these ads, including issue ads, is that 
correct?
    Mr. Zuckerberg. That is correct, Senator, and I just want 
to take a moment before I go into this in more detail to thank 
you for your leadership on this. This I think is an important 
area for the whole industry to move on.
    The two specific things that we are doing are, one is 
around transparency, so now, you are going to be able to go and 
click on any advertiser or any page on Facebook and see all of 
the ads that they are running, so that actually brings 
advertising online on Facebook to an even higher standard than 
what you would have on TV or print media because there is 
nowhere where you can see all of the TV ads that someone is 
running, for example, where as you will be able to see now on 
Facebook whether this campaign or third party is saying 
different messages to different types of people. And I think 
that is a really important element of transparency. And the 
other really important piece is around verifying every single 
advertiser who is going to be running political or issue ads.
    Senator Klobuchar. I appreciate that. And Senator Warner 
and I have also called on Google and the other platforms to do 
the same, so memo to the rest of you, we have to get this done 
or we are going to have a patchwork of ads. And I hope that you 
will be working with us to pass this bill. Is that right?
    Mr. Zuckerberg. We will.
    Senator Klobuchar. OK. Thank you.
    Now, on the subject of Cambridge Analytica, were these 
people, the 87 million people, users, concentrated in certain 
states? Are you able to figure out where they are from?
    Mr. Zuckerberg. I do not have that information with me----
    Senator Klobuchar. But you could get it?
    Mr. Zuckerberg.--but we can follow up with your office.
    Senator Klobuchar. OK. Because, as we know, the election 
was close, and it was only thousands of votes in certain 
states.
    You have also estimated that roughly 126 million people may 
have been shown content from a Facebook page associated with 
the Internet Research Agency. Have you determined whether any 
of those people were the same Facebook users whose data was 
shared with Cambridge Analytica? Are you able to make that 
determination?
    Mr. Zuckerberg. Senator, we are investigating that now. We 
believe that it is entirely possible that there will be a 
connection there.
    Senator Klobuchar. OK. That seems like a big deal as we 
look back at that last election.
    Former Cambridge Analytica employee Christopher Wiley has 
said that the data that it improperly obtained, that Cambridge 
Analytica improperly obtained from Facebook users could be 
stored in Russia. Do you agree that that is a possibility?
    Mr. Zuckerberg. Sorry, are you asking if Cambridge 
Analytica's data could be stored in Russia?
    Senator Klobuchar. That is what he said this weekend on a 
Sunday show.
    Mr. Zuckerberg. Senator, I do not have any specific 
knowledge that would suggest that, but one of the steps that we 
need to take now is go do a full audit of all of Cambridge 
Analytica's systems, understand what they are doing, whether 
they still have any data, to make sure that they remove all the 
data. If they do not, we are going to take legal action against 
them to do so.
    That audit we have temporarily ceded that in order to let 
the U.K. Government complete their government investigation 
first because of course a government investigation takes 
precedence over a company doing that. But we are committed to 
completing this full audit and getting to the bottom of what is 
going on here so that way we can have more answers to this.
    Senator Klobuchar. OK. You earlier stated publicly and here 
that you would support some privacy rules so that everyone is 
playing by the same rules here. And you also said here that you 
should have notified customers earlier. Would you support a 
rule that would require you to notify your users of a breach 
within 72 hours?
    Mr. Zuckerberg. Senator, that makes sense to me, and I 
think we should have our team follow up with yours to discuss 
the details around that more.
    [The information referred to follows:]

    Can you provide a breakdown of users affected by Cambridge 
Analytica by state?
    See the state breakdown here: https://
fbnewsroomus.files.wordpress.com/2018/05/state-by-state-breakdown.pdf.
    Do you support a rule that would require you to notify your users 
of a breach within 72 hours?
    Facebook is generally open to the idea of breach notification 
requirements, particularly legislation that would centralize reporting 
and ensure a consistent approach across the United States. For example, 
in Europe, the GDPR requires notification to a lead supervisory 
authority, rather than individual member states, in cases of a data 
breach. In the United States, however, there is no centralized 
notification scheme, and instead, reporting obligations vary widely 
across all 50 states. This complexity makes it harder to respond 
appropriately and swiftly to protect people in the event of a data 
breach. We believe this is an important issue and an area that is ripe 
for thoughtful regulation.

    Senator Klobuchar. Thank you. I just think part of this was 
when people do not even know that their data has been breached, 
that is a huge problem, and I also think we get to solutions 
faster when we get that information out there.
    Thank you, and we look forward to passing this bill. We 
would love to pass it before the election on the Honest Ads and 
looking forward to better disclosure this election. Thank you.
    Chairman Thune. Thank you, Senator Klobuchar.
    Senator Blunt is up next.

                 STATEMENT OF HON. ROY BLUNT, 
                   U.S. SENATOR FROM MISSOURI

    Senator Blunt. Thank you, Mr. Chairman.
    Mr. Zuckerberg, nice to see you. I saw you not too long 
after I entered the Senate in 2011. I told you when I sent my 
business cards down to be printed, they came back from the 
Senate printshop with the message that they were the first 
business card they had ever printed a Facebook address on. 
There are days when I have regretted that but more days when we 
get lots of information that we need to get. There are days 
when I wonder if the term ``Facebook friends'' is a little 
misstated. It does not seem like I have those every single day. 
But, you know, the platform you have created is really 
important.
    Now, my son Charlie, who is 13, is dedicated to Instagram, 
so he would want to be sure I mentioned him while I was here 
with you.
    [Laughter.]
    Senator Blunt. I have not printed that on my card yet, I 
will say that, but I think we have that account as well. A lot 
of ways to connect people. And the information obviously is an 
important commodity, and it is what makes your business work. I 
get that. However, I wonder about some of the collection 
efforts, and maybe we can go through largely just even yes or 
no and then we will get back to more expansive discussion of 
this.
    But do you collect user data through cross-device tracking?
    Mr. Zuckerberg. Senator, I believe we do link people's 
accounts between devices in order to make sure that their 
Facebook and Instagram and their other experiences can be 
synced between their devices.
    Senator Blunt. And that would also include off-line data, 
data that is tracking that is not necessarily linked to 
Facebook but linked to some device they went through Facebook 
on, is that right?
    Mr. Zuckerberg. Senator, I want to make sure we get this 
right, so I want to have my team follow up with you on that 
afterwards.
    Senator Blunt. Well, now, that does not seem that 
complicated to me. Now, you understand this better than I do, 
but maybe you can explain to me why that is complicated. Do you 
track devices that an individual who uses Facebook has that is 
connected to the device that they use for their Facebook 
connection but not necessarily connected to Facebook?
    Mr. Zuckerberg. I am not sure the answer to that question.
    Senator Blunt. Really?
    Mr. Zuckerberg. Yes. There may be some data that is 
necessary to provide the service that we do, but I do not have 
that sitting here today, so that is something I would want to 
follow up with you on.
    [The information referred to follows:]

    Do you track non-Facebook data from devices on which they have used 
Facebook, even if they are logged off of Facebook or the device is 
offline? So you don't have bundled permissions for how I can agree to 
what devices I may use that you may have contact with? Do you bundle 
that permission, or am I able to individually say what I'm willing for 
you to watch and what I don't want you to watch?
    When people visit apps or websites that feature our technologies--
like the Facebook Like or Comment button--our servers automatically log 
(i) standard browser or app records of the fact that a particular 
device or user visited the website or app (this connection to 
Facebook's servers occurs automatically when a person visits a website 
or app that contains our technologies, such as a Like button, and is an 
inherent function of Internet design); and (ii) any additional 
information the publisher of the app or website chooses to share with 
Facebook about the person's activities on that site (such as the fact 
that a purchase was made on the site). This is a standard feature of 
the Internet, and most websites and apps share this same information 
with multiple different third-parties whenever people visit their 
website or app. For example, the Senate Commerce Committee's website 
shares information with Google and its affiliate DoubleClick and with 
the analytics company Webtrends. This means that, when a person visits 
the Committee's website, it sends browser information about their visit 
to each one of those third parties. More information about how this 
works is available at https://newsroom.fb.com/news/2018/04/data-off-
facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product or use specific features like our Like button--but 
without providing any information about a specific person. We do not 
create profiles for non-Facebook users, nor do we use browser and app 
logs for non-Facebook users to show targeted ads from our advertisers 
to them or otherwise seek to personalize the content they see. However, 
we may take the opportunity to show a general ad that is unrelated to 
the attributes of the person or an ad encouraging the non-user to sign 
up for Facebook.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings. We do not sell or share this information with third-parties.

    Senator Blunt. Now, the FTC last year flagged cross-device 
tracking as one of their concerns generally that people are 
tracking devices that the users of something like Facebook do 
not know they are being tracked. How do you disclose your 
collection methods? Is that all in this document that I would 
see and agree to before I entered into a Facebook partnership?
    Mr. Zuckerberg. Yes, Senator. So there are two ways that we 
do this. One is we try to be exhaustive in the legal documents 
around the terms of service and privacy policies. But more 
importantly, we try to provide in-line controls that are in 
plain English that people can understand. They can either go to 
settings or we can show them at the top of the app periodically 
so that people understand all the controls and settings they 
have and can configure their experience the way that they want.
    Senator Blunt. So do people now give you permission to 
track specific devices in their contract? And if they do, is 
that a relatively new addition to what you do?
    Mr. Zuckerberg. Senator, I am sorry I do not have the----
    Senator Blunt. Am I able to opt out? Am I able to say it is 
OK for you to track what I am saying on Facebook, but I do not 
want you to track what I am texting to somebody else off 
Facebook on an android phone?
    Mr. Zuckerberg. Oh, OK. Yes, Senator. In general, Facebook 
is not collecting data from other apps that you use. There may 
be some specific things about the device that you are using 
that Facebook needs to understand in order to offer the 
service, but if you are using Google or you are using some 
texting app, unless you specifically opt in that you want to 
share the texting app information, Facebook would not see that.
    Senator Blunt. Has it always been that way or is that a 
recent addition to how you deal with those other ways that I 
might communicate?
    Mr. Zuckerberg. Senator, my understanding is that that is 
how the mobile operating systems are architected.
    Senator Blunt. So you do not have bundled permissions for 
how I can agree to what devices I may use that you may have 
contact with? Do you bundle that permission or am I able to 
individually say what I am willing for you to watch and what I 
do not want you to watch? I think we may have to take that for 
the record based on everybody else's time.
    [The information referred to follows:]

    Do you track devices that an individual who uses Facebook has that 
is connected to the device that they use for their Facebook connection 
but not necessarily connected to Facebook?
    Yes, Facebook's Data Policy specifically discloses that we 
associate information across different devices that people use to 
provide a consistent experience wherever they use Facebook.
    Facebook's services inherently operate on a cross-device basis: 
understanding when people use our services across multiple devices 
helps us provide the same personalized experience wherever people use 
Facebook--for example, to ensure that a person's News Feed or profile 
contains the same content whether they access our services on their 
mobile phone or in a desktop computer's web browser.
    In support of those and other purposes, we collect information from 
and about the computers, phones, connected TVs and other web-connected 
devices our users use that integrate with our Products, and we combine 
this information across a user's different devices. For example, we use 
information collected about a person's use of our Products on their 
phone to better personalize the content (including ads) or features 
they see when they use our Products on another device, such as their 
laptop or tablet, or to measure whether they took an action in response 
to an ad we showed them on their phone or on a different device.
    Information we obtain from these devices includes:

  <bullet> Device attributes: information such as the operating system, 
        hardware and software versions, battery level, signal strength, 
        available storage space, browser type, app and file names and 
        types, and plugins.

  <bullet> Device operations: information about operations and 
        behaviors performed on the device, such as whether a window is 
        foregrounded or backgrounded, or mouse movements (which can 
        help distinguish humans from bots).

  <bullet> Identifiers: unique identifiers, device IDs, and other 
        identifiers, such as from games, apps or accounts people use, 
        and Family Device IDs (or other identifiers unique to Facebook 
        Company Products associated with the same device or account).

  <bullet> Device signals: Bluetooth signals, and information about 
        nearby Wi-Fi access points, beacons, and cell towers.

  <bullet> Data from device settings: information a user allows us to 
        receive through device settings they turn on, such as access to 
        their GPS location, camera or photos.

  <bullet> Network and connections: information such as the name of a 
        user's mobile operator or ISP, language, time zone, mobile 
        phone number, IP address, connection speed and, in some cases, 
        information about other devices that are nearby or on their 
        network, so we can do things like help them stream a video from 
        their phone to their TV.

  <bullet> Cookie data: data from cookies stored on a user's device, 
        including cookie IDs and settings. More information is 
        available at https://www.facebook.com/policies/cookies/ and 
        https://help.instagram.com/1896641480634370?ref=ig.

    Advertisers, app developers, and publishers can send us information 
through Facebook Business Tools they use, including our social plug-ins 
(such as the Like button), Facebook Login, our APIs and SDKs, or the 
Facebook pixel. These partners provide information about a person's 
activities off Facebook--including information about their device, 
websites they visit, purchases they make, the ads they see, and how 
they use their services--whether or not they have a Facebook account or 
are logged into Facebook. For example, a game developer could use our 
API to tell us what games a person plays, or a business could tell us 
about a purchase a person made in its store. We also receive 
information about a person's online and offline actions and purchases 
from third-party data providers who have the rights to provide us with 
that person's information.
    We use the information we have to deliver our Products, including 
to personalize features and content (including a person's News Feed, 
Instagram Feed, Instagram Stories and ads) and make suggestions for a 
user (such as groups or events they may be interested in or topics they 
may want to follow) on and off our Products. To create personalized 
Products that are unique and relevant to them, we use their 
connections, preferences, interests and activities based on the data we 
collect and learn from them and others (including any data with special 
protections they choose to provide); how they use and interact with our 
Products; and the people, places, or things they're connected to and 
interested in on and off our Products.
    For example, if people have shared their device locations with 
Facebook or checked into a specific restaurant, we can show them ads 
from an advertiser that wants to promote its services in their area or 
from the restaurant. We use location-related information--such as a 
person's current location, where they live, the places they like to go, 
and the businesses and people they're near--to provide, personalize and 
improve our Products, including ads, for them and others. Location-
related information can be based on things like precise device location 
(if a user has allowed us to collect it), IP addresses, and information 
from their and others' use of Facebook Products (such as check-ins or 
events they attend). We store data until it is no longer necessary to 
provide our services and Facebook Products, or until a person's account 
is deleted--whichever comes first. This is a case-by-case determination 
that depends on things like the nature of the data, why it is collected 
and processed, and relevant legal or operational retention needs. We 
provide advertisers with reports about the kinds of people seeing their 
ads and how their ads are performing, but we don't share information 
that personally identifies someone (information such as a person's name 
or e-mail address that by itself can be used to contact them or 
identifies who they are) unless they give us permission. For example, 
we provide general demographic and interest information to advertisers 
(for example, that an ad was seen by a woman between the ages of 25 and 
34 who lives in Madrid and likes software engineering) to help them 
better understand their audience. We also confirm which Facebook ads 
led users to make a purchase or take an action with an advertiser.

    Chairman Thune. Thank you, Senator Blunt.
    Next up, Senator Durbin.

               STATEMENT OF HON. RICHARD DURBIN, 
                   U.S. SENATOR FROM ILLINOIS

    Senator Durbin. Thank you very much, Mr. Chairman.
    Mr. Zuckerberg, would you be comfortable sharing with us 
the name of the hotel you stayed in last night?
    Mr. Zuckerberg. No.
    [Laughter.]
    Senator Durbin. If you messaged anybody this week, would 
you share with us the names of the people you have messaged?
    Mr. Zuckerberg. Senator, no. I would probably not choose to 
do that publicly here.
    Senator Durbin. I think that may be what this is all about, 
your right to privacy, the limits of your right to privacy, and 
how much you give away in modern America in the name of, quote, 
``connecting people around the world,'' a question basically of 
what information Facebook is collecting, who they are sending 
it to, and whether they ever asked me in advance my permission 
to do that. Is that a fair thing for a user of Facebook to 
expect?
    Mr. Zuckerberg. Yes, Senator. I think everyone should have 
control over how their information is used. And as we have 
talked about in some of the other questions, I think that that 
is laid out in some of the documents, but more importantly, you 
want to give people control in the product itself. So the most 
import way that this happens across our services is that every 
day people come to our services to choose to share photos or 
send messages, and every single time they choose to share 
something, they have a control right there about who they want 
to share it with. But that----
    Senator Durbin. They certainly----
    Mr. Zuckerberg.--level of control is extremely important.
    Senator Durbin. They certainly know within the Facebook 
pages who their friends are, but they may not know, as has 
happened--and you have conceded this point in the past--that 
sometimes that information is going way beyond their friends, 
and sometimes, people have made money off of sharing that 
information, correct?
    Mr. Zuckerberg. Senator, you are referring I think to our 
developer platform, and it may be useful for me to give some 
background on how we set that up if that is useful.
    Senator Durbin. I have 3 minutes left, so maybe you can do 
that for the record because I have a couple other questions 
that I would like to ask.
    [The information referred to follows:]

    They certainly know within the Facebook pages who their friends 
are, but they may not know, as has happened, and you've conceded this 
point in the past, that sometimes that information is going way beyond 
their friends and sometimes people have made money off of sharing that 
information, correct?
    Our Download Your Information or ``DYI'' tool is Facebook's data 
portability tool and was launched many years ago to let people access 
and download many types of information that we maintain about them. The 
data in DYI and in our Ads Preferences tool contain each of the 
interest categories that are used to show people ads, along with 
information about the advertisers are currently running ads based on 
their use of an advertiser's website or app. People also can choose not 
to see ads from those advertisers. We recently announced expansions to 
Download Your Information, which, among other things, will make it 
easier for people to see their data, delete it, and easily download and 
export it. More information is available at https://newsroom.fb.com/
news/2018/04/new-privacy-protections.
    Responding to feedback that we should do more to provide 
information about websites and apps that send us information when 
people use them, we also announced plans to build Clear History. This 
new feature will enable users to see the websites and apps that send us 
information when they use them, delete this information from their 
account, and turn off Facebook's ability to store it associated with 
their account going forward.
    We have also introduced Access Your Information. This feature 
provides a new way for people to access and manage their information. 
Users can go here to delete anything from their timeline or profile 
that they no longer want on Facebook. They can also see their ad 
interests, as well as information about ads they've clicked on and 
advertisers who have provided us with information about them that 
influence the ads they see. From here, they can go to their ad settings 
to manage how this data is used to show them ads.
    Facebook allows people to view, manage, and remove the apps that 
they have logged into with Facebook through the App Dashboard. We 
recently prompted everyone to review their App Dashboard as a part of a 
Privacy Checkup, and we also provided an educational notice on Facebook 
to encourage people to review their settings. More information about 
how users can manage their app settings is available at https://
www.facebook.com/help/218345114850283?helpref=about_content.
    The categories of information that an app can access are clearly 
disclosed before the user consents to use an app on the Facebook 
Platform. Users can view and edit the categories of information that 
apps they have used have access to through the App Dashboard.

    Senator Durbin. You have recently announced something that 
is called Messenger Kids. Facebook created an app allowing kids 
between the ages of 6 and 12 to send video and text messages 
through Facebook as an extension of their parent's account. 
They have cartoon-like stickers and other features designed to 
appeal to little kids, first-graders, kindergartners. On 
January 30, Campaign for a Commercial-Free Childhood and lots 
of other child development organizations warned Facebook. They 
pointed to a wealth of research demonstrating that excessive 
use of digital devices and social media is harmful to kids. It 
argued that young children simply are not ready to handle 
social media accounts at age six.
    In addition, there are concerns about data that is being 
gathered about these kids. Now, there are certain limits in the 
law, we know. There is Children's Online Privacy Protection 
Act. What guarantees can you give us that no data from 
Messenger Kids is or will be collected or shared with those 
that might violate that law?
    Mr. Zuckerberg. All right. Senator, so a number of things I 
think are important here. The background on Messenger Kids is 
we heard feedback from thousands of parents that they want to 
be able to stay in touch with their kids and call them, use 
apps like FaceTime when they are working late or not around and 
want to communicate with their kids, but they want to have 
complete control over that. So I think we can all agree that 
when your kid is six or seven, even if they have access to a 
phone, you want to be able to control everyone who they can 
contact. And there was not an app out there that did that, so 
we built this service to do that.
    The app collects a minimum amount of information that is 
necessary to operate the service, so, for example, the messages 
that people send is something that we collect in order to 
operate the service. But in general, that data is not going to 
be shared with third parties. It is not connected to the 
broader Facebook experience----
    Senator Durbin. Excuse me. As a lawyer, I picked up on that 
word ``in general,'' that phrase ``in general.'' It seems to 
suggest that in some circumstances it will be shared with third 
parties.
    Mr. Zuckerberg. No, it will not.
    Senator Durbin. All right. Would you be open to the idea 
that someone having reached adult age having grown up with 
Messenger Kids should be allowed to delete the data you have 
collected?
    Mr. Zuckerberg. Senator, yes. As a matter of fact, when you 
become 13, which is our legal limit--we do not allow people 
under the age of 13 to use Facebook--you do not automatically 
go from having a Messenger Kids account to a Facebook account. 
You have to start over and get a Facebook account. So I think 
it is a good idea to consider making sure that all that 
information is deleted, and in general, people are going to be 
starting over when they get their Facebook or other accounts.
    Senator Durbin. I will close because I just have a few 
seconds. Illinois has a Biometric Information Privacy Act, our 
state does, which is to regulate the commercial use of facial, 
voice, finger, and iris scans and the like. We are now in a 
fulsome debate on that, and I am afraid Facebook has come down 
with the position of trying to carve out exceptions to that. I 
hope you will fill me in on how that is consistent with 
protecting privacy. Thank you.
    [The information referred to follows:]

    Illinois has a biometric information privacy act, our state does, 
which is to regulate the commercial use of facial, voice, finger and 
iris scans and the like. We're now in a fulsome debate on that and 
Facebook has come down on a position trying to carve out exceptions and 
I hope you'll fill me in on how that is consistent with protecting 
privacy.
    We are aware of several pending measures to amend the Illinois 
Biometric Information Privacy Act to foster the use of technology to 
enhance privacy and data security and combat threats like fraud, 
identity theft, and impersonation. Facebook has not supported these 
measures or requested any organization or chamber of commerce to do so.
    In 2016, Senator Terry Link, the author of the Illinois Biometric 
Information Privacy Act, introduced a measure (HB 6074) clarifying that 
the original law (1) does not apply to information derived from 
physical or digital photographs and (2) uses the term ``scan'' to mean 
information that is obtained from an in-person process. These 
clarifying amendments were consistent with industry's longstanding 
interpretation of the law and Facebook publicly supported them.
    Facebook's advocacy is consistent with our commitment to protecting 
privacy. As the findings of the Illinois General Assembly confirm, when 
people raise privacy concerns about facial recognition, they are 
generally about specific uses of facial recognition. In enacting the 
Illinois Biometric Information Privacy Act, the General Assembly 
explained that its concern was ``new applications of biometric-
facilitated financial transactions, including finger-scan technologies 
at grocery stores, gas stations, and school cafeterias.'' 740 ILCS 14/
5.
    Facebook's use of facial recognition in our products, on the other 
hand, is very different. Facebook uses facial-recognition technology 
with users to provide Facebook users--who choose to join Facebook for 
the purpose of connecting with and sharing information about themselves 
with others, and affirmatively agree to Facebook's Terms of Service and 
Data Policy--with products and features that protect their identities 
and enhance their online experiences while giving them control over the 
technology. For example, Facebook uses facial-recognition technology to 
protect users against impersonators by notifying users when someone 
else has uploaded a photo of them for use as a profile photo and to 
enable features on the service to people who are visually impaired. 
Facebook also uses facial-recognition technology to suggest that people 
who upload photos or videos tag the people who appear in the photos or 
videos. When someone is tagged in a photo or video, Facebook 
automatically notifies that person that he or she has been tagged, 
which in turn enables that person to take action if he or she does not 
like the content--such as removing the tag or requesting that the 
content be removed entirely. Facebook users have always had the ability 
to change their settings to prevent Facebook from using facial 
recognition to recognize them.
    Given the very different uses of facial-recognition technology that 
exist, we believe that a one-size-fits-all approach to regulation of 
facial-recognition technology is not in the public's best interest, and 
we believe that clarification that the Illinois Biometric Information 
Privacy Act was not intended to apply to all uses of facial recognition 
is consistent with Facebook's commitment to protecting privacy. 
Furthermore, our commitment to support meaningful, thoughtfully drafted 
privacy legislation means that we can and do oppose measures that 
create confusion, interfere with legitimate law enforcement action, 
create unnecessary risk of frivolous litigation, or place undue burdens 
on people's ability to do business online.

    Chairman Thune. Thank you, Senator Durbin.
    Senator Cornyn.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Thank you, Mr. Zuckerberg, for being here.
    I note that up until 2014 the mantra or motto of Facebook 
was ``move fast and break things.'' Is that correct?
    Mr. Zuckerberg. I do not know when we changed it, but the 
mantra is currently ``move fast with stable infrastructure,'' 
which is a much less sexy mantra.
    Senator Cornyn. It sounds much more boring, but my question 
is during the time that it was Facebook's mantra or motto to 
move fast and break things, do you think some of the 
misjudgments, perhaps mistakes that you have admitted to here 
were as a result of that culture or that attitude, particularly 
as regards to personal privacy, the information of your 
subscribers?
    Mr. Zuckerberg. Senator, I do think that we made mistakes 
because of that, but the broadest mistakes that we made here 
are not taking a broad enough view of our responsibility. And 
while that was not a matter--the ``move fast'' cultural value 
is more tactical around whether engineers can ship things and 
different ways that we operate, but I think the big mistake 
that we have made looking back on this is viewing our 
responsibility as just building tools rather than viewing our 
whole responsibility as making sure that those tools are used 
for good.
    Senator Cornyn. Well, and I appreciate that because 
previously or in the past we have been told that platforms like 
Facebook, Twitter, Instagram, and the like are neutral 
platforms and the people who own and run those for profit--and 
I am not criticizing doing something for profit in this 
country--but they bore no responsibility for the content. You 
agree now that Facebook and other social media platforms are 
not neutral platforms but bear some responsibility for the 
content?
    Mr. Zuckerberg. I agree that we are responsible for the 
content. And I think that there is--one of the big societal 
questions that I think we are going to need to answer is the 
current framework that we have is based on this reactive model 
that assumed that there weren't AI tools that can proactively 
tell whether something was terrorist content or something bad, 
so it naturally relied on requiring people to flag for a 
company and then the company needed to take reasonable action.
    In the future, we are going to have tools that are going to 
be able to identify more types of bad content, and I think that 
there are moral and legal obligation questions that I think we 
will have to wrestle with as a society about when we want to 
require companies to take action proactively on certain of 
those things----
    Senator Cornyn. I----
    Mr. Zuckerberg.--and when that gets in the way of----
    Senator Cornyn. I appreciate that. I have two minutes 
left----
    Mr. Zuckerberg. All right.
    Senator Cornyn.--to ask you questions. So, interestingly, 
the terms of the--what do you call it? The terms of service is 
a legal document which discloses to your subscribers how their 
information is going to be used, how Facebook is going to 
operate. But you concede that you doubt everybody reads or 
understands that legalese, those terms of service. So is that 
to suggest that the consent that people give, subject to that 
terms of services, is not informed consent? In other words, 
they may not read it, and even if they read it, they may not 
understand it.
    Mr. Zuckerberg. I just think we have a broader 
responsibility than what the law requires, so I think we need 
to----
    Senator Cornyn. No, I appreciate that. What I am asking 
about in terms of what your subscribers understand in terms of 
how their data is going to be used. But let me go to the terms 
of service under paragraph number two, you say you own all of 
the content and information you post on Facebook. That is what 
you have told us here today a number of times. So if I choose 
to terminate my Facebook account, can I bar Facebook or any 
third parties from using the data that I had previously 
supplied for any purpose whatsoever?
    Mr. Zuckerberg. Yes, Senator. If you delete your account, 
we should get rid of all of your information.
    Senator Cornyn. You should or----
    Mr. Zuckerberg. We do.
    Senator Cornyn.--do you?
    Mr. Zuckerberg. We do.
    Senator Cornyn. How about third parties that you have 
contracted with who use some of that underlying information 
perhaps to target advertising for themselves? Do you claw back 
that information as well, or does that remain in their custody?
    Mr. Zuckerberg. Well, Senator, this is actually a very 
important question, and I am glad you brought this up because 
there is a very common misperception about Facebook that we 
sell data to advertisers, and we do not sell data to 
advertisers. We do not sell data to anyone.
    Senator Cornyn. Well, you clearly rent it.
    Mr. Zuckerberg. What we allow is for advertisers to tell us 
who they want to reach, and then we do the placement. So if an 
advertiser comes to us and says, all right, I am a ski shop and 
I want to sell skis to women, then we might have some sense 
because people shared skiing-related content or said they were 
interested in that. They shared whether they are a woman, and 
then we can show the ads to the right people without that data 
ever changing hands and going to the advertiser. That is a very 
fundamental part of how our model works and something that is 
often misunderstood, so I appreciate that you brought that up.
    Chairman Thune. Thank you, Senator Cornyn.
    We had indicated earlier on that we would take a couple of 
breaks and give our witness an opportunity, and I think we have 
been going now for just under 2 hours, so I think what we will 
do, Mr. Zuckerberg.
    Mr. Zuckerberg. We can do a few more.
    [Laughter.]
    Chairman Thune. You want to keep going?
    Mr. Zuckerberg. Maybe 15 minutes.
    Chairman Thune. OK.
    Mr. Zuckerberg. Does that work?
    Chairman Thune. All right. We will keep going. Senator 
Blumenthal is up next, and we will commence.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you for being here today, Mr. Zuckerberg. You have 
told us today and you have told the world that Facebook was 
deceived by Aleksandr Kogan when he sold user information to 
Cambridge Analytica, correct?
    Mr. Zuckerberg. Yes.
    Senator Blumenthal. I want to show you the terms of service 
that Aleksandr Kogan provided to Facebook and note for you that 
in fact Facebook was on notice that he could sell that user 
information. Have you seen these terms of service before?
    Mr. Zuckerberg. I have not.
    Senator Blumenthal. Who in Facebook was responsible for 
seeing those terms of service that put you on notice that that 
information could be sold?
    Mr. Zuckerberg. Senator, our app review team would be 
responsible for that. And----
    Senator Blumenthal. Has anyone been fired on that app 
review team?
    Mr. Zuckerberg. Senator, not because of this.
    Senator Blumenthal. Does that term of service not conflict 
with the FTC order that Facebook was under at that very time 
that this term of service was in fact provided to Facebook? And 
you will note that the FTC order specifically requires Facebook 
to protect privacy. Is there not a conflict there?
    Mr. Zuckerberg. Senator, it certainly appears that we 
should have been aware that this app developer submitted a term 
that was in conflict with the rules of the platform.
    Senator Blumenthal. Well, what happened here was in effect 
willful blindness. It was heedless and reckless, which in fact 
amounted to a violation of the FTC Consent Decree. Would you 
agree?
    Mr. Zuckerberg. No, Senator. My understanding is not that 
this was a violation of the consent decree. But, as I have said 
a number of times today, I think we need to take a broader view 
of our responsibility around privacy than just what is mandated 
in the current laws and the consent----
    Senator Blumenthal. Well, here is my reservation, Mr. 
Zuckerberg, and I apologize for interrupting you, but my time 
is limited. We have seen the apology tours before. You have 
refused to acknowledge even an ethical obligation to have 
reported this violation of the FTC consent decree. And we have 
letters, we have had contacts with Facebook employees, and I am 
going to submit a letter for the record from Sandy Parakilas, 
with your permission, that indicates not only a lack of 
resources but lack of attention to privacy.
    [The information referred to follows:]

Dear Senator Blumenthal,

    In 2011 and 2012, I led the team responsible for overseeing 
Facebook's data policy enforcement efforts governing third-party 
application developers who were using Facebook's App Platform, and 
responding to violations of that policy.
    In my first week on the job, I was told about a troubling feature 
of the App Platform: there was no way to track the use of data after it 
left Facebook's servers. That is, once Facebook transferred user data 
to the developer, Facebook lost all insight into or control over it. To 
prevent abuse, Facebook created a set of platform policies that forbade 
certain kinds of activity, such as selling the data or passing it to an 
ad network or data broker such as Cambridge Analytica.
    Facebook had the following tools to deal with developers who abused 
the platform policies: it could call the developer and demand answers; 
it could demand an audit of the developer's application and associated 
data storage, a right granted in the platform policies; it could ban 
the developer from the platform; it could sue the developer for breach 
of the policies; or it could do some combination of the above. During 
my sixteen months at Facebook, I called many developers and demanded 
compliance, but I don't recall the company conducting a single audit of 
a developer where the company inspected the developer's data storage. 
Lawsuits and outright bans for data policy violations were also very 
rare.
    Despite the fact that executives at Facebook were well aware that 
developers could, without detection, pass data to unauthorized fourth 
parties (such as what happened with Cambridge Analytica), little was 
done to protect users. A similar, well-publicized incident happened in 
2010, where Facebook user IDs were passed by apps to a company called 
Rapleaf, which was a data broker. Despite my attempts to raise 
awareness about this issue, nothing was done to close the 
vulnerability. It was difficult to get any engineering resources 
assigned to build or maintain critical features to protect users.
    Unfortunately, Facebook's failure to address this clear weakness, 
during my time there or after I left, led to Cambridge Analytica's 
misappropriation of tens of millions of Americans' data.
            Sincerely,
                                           Sandy Parakilas.
                                 ______
                                 
THISISYOURDIGITALLIFE APP
APPLICATION END USER TERMS AND CONDITIONS
    1. The Parties: This Agreement (``Agreement'') is between Global 
Science Research (``We'', ``Us'' or ``GSR''), which is a research 
organisation registered in England and Wales (Number: 9060785) with its 
registered office based at St John's Innovation Centre, Cowley Road, 
Cambridge, CB4 0WS, and the User of the Application (``You'' or 
``User'').
    2. Agreement to Terms: By using THISISYOURDIGITALLIF APP 
(``Application''), by clicking ``OKAY'' or by accepting any payment, 
compensation, remuneration or any other valid consideration, you 
consent to using the Application, you consent to sharing information 
about you with us and you also accept to be bound by the Terms 
contained herein.
    3. Purpose of the Application: We use this Application to (a) 
provide people an opportunity to see their predicted personalities 
based on their Facebook information, and (b) as part of our research on 
understanding how people's Facebook data can predict different aspects 
of their lives. Your contribution and data will help us better 
understand relationships between human psychology and online behaviour.
    4. Data Security and Storage: Data security is very important to 
us. All data is stored on an encrypted server that is compliant with EU 
Directive 95/46/EC on the protection of individuals with regard to the 
processing of personal data.
    5. Your Statutory Rights: Depending on the server location, your 
data may be stored within the United States or in the United Kingdom. 
If your data is stored in the United States, American laws will 
regulate your rights. If your data is stored within the United Kingdom 
(UK), British and European Union laws will regulate how the data is 
processed, even if you live in the United States. Specifically, data 
protection and processing falls under a law called the Data Protection 
Act 1998. Under British and European Union law, you are considered to 
be a ``Data Subject'', which means you have certain legal rights. These 
rights include the ability to see what data is stored about you. Where 
data held in the EU is transferred to the United States, GSR will 
respect any safe harbour principles agreed between the United States 
Department of Commerce and the European Commission. The GSR Data 
Controller can be contacted by e-mail at 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e676068614e6962616c6f627d6d676b606d6b7c6b7d6b6f7c6d66206d616320">[email&#160;protected]</a>
    6. Information Collected: We collect any information that you 
choose to share with us by using the Application. This may include, 
inter alia, the name, demographics, status updates and Facebook likes 
of your profile and of your network.
    7. Intellectual Property Rights: If you click ``OKAY'' or otherwise 
use the Application or accept payment, you permit GSR to edit, copy, 
disseminate, publish, transfer, append or merge with other databases, 
sell, licence (by whatever means and on whatever terms) and archive 
your contribution and data. Specifically, agreement to these Terms also 
means you waive any copyright and other intellectual property rights in 
your data and contribution to GSR, and grant GSR an irrevocable, 
sublicenceable, assignable, non-exclusive, transferrable and worldwide 
license to use your data and contribution for any purpose. You 
acknowledge that any and all intellectual property rights and database 
rights held in your data or contribution that is acquired by GSR or the 
Application will vest with GSR and that you will not have any claim in 
copyright, contract or otherwise. Nothing in this Agreement shall 
inhibit, limit or restrict GSR's ability to exploit, assert, transfer 
or enforce any database rights or intellectual property rights anywhere 
in the world. You also agree not attempt to appropriate, assert claim 
to, restrict or encumber the rights held in, interfere with, 
deconstruct, discover, decompile, disassemble, reconstruct or otherwise 
reverse-engineer the Application, the data collected by the Application 
or any other GSR technology, algorithms, databases, methods, formulae, 
compositions, designs, source code, underlying ideas, file formats, 
programming interfaces, inventions and conceptions of inventions 
whether patentable or un-patentable.
    8. Informed Consent: By signing this form, you indicate that you 
have read, understand, been informed about and agree to these Terms. 
You also are consenting to have your responses, opinions, likes, social 
network and other related data recorded and for the data collected from 
you to be used by GSR. If you do not understand these Terms, or if you 
do not agree to them, then we strongly advise that you do not continue, 
do not click ``OKAY'', do not use the Application and do not to collect 
any compensation from us.
    9. Variation of Terms: You permit GSR to vary these Terms from time 
to time to comply with relevant legislation, for the protection of your 
privacy or for commercial reasons. If you choose to provide us with 
your e-mail address, notice of any variation will be sent to that e-
mail address. If you do not provide us with an e-mail address, you 
waive your right to be notified of any variation of terms. 10. Rights 
of Third Parties: A person who is not a Party to this Agreement will 
not have any rights under or in connection with it.

  <bullet> Privacy Policy

  <bullet> Powered by Global Science Research

 2014 Global Science Research LTD. All content is copyrighted. St 
John's Innovation Centre, Cowley Road, Cambridge, CB4 0WS

E-mail: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d8b1b6beb798bfb4b7bab9b4abbbb1bdb6bbbdaabdabbdb9aabbb0f6bbb7b5">[email&#160;protected]</a>
                                 ______
                                 
GSRApp APPLICATION END USER TERMS AND CONDITIONS

      1.  The Parties: This Agreement (``Agreement'') is between Global 
Science Research (``We'', ``Us'' or ``GSR''), which is a research 
organisation registered in England and Wales (Number: 9060785) with its 
registered office based at Magdelene College, Cambridge, UK CB3 0AG, 
and the User of the Application (``You'' or ``User'').

      2.  Agreement to Terms: By using GSRApp APP (``Application''), by 
clicking ``OKAY'' or by accepting any payment, compensation, 
remuneration or any other valid consideration, you consent to using the 
Application, you consent to sharing information about you with us and 
you also accept to be bound by the Terms contained herein.

      3.  Purpose of the Application: We use this Application as part 
of our research on understanding how people's Facebook data can predict 
different aspects of their lives. Your contribution and data will help 
us better understand relationships between human psychology and online 
behaviour.

      4.  Data Security and Storage: Data security is very important to 
us. All data is stored on an encrypted server that is compliant with EU 
Directive 95/46/EC on the protection of individuals with regard to the 
processing of personal data.

      5.  Your Statutory Rights: Depending on the server location, your 
data may be stored within the United States or in the United Kingdom. 
If your data is stored in the United States, American laws will 
regulate your rights. If your data is stored within the United Kingdom 
(UK), British and European Union laws will regulate how the data is 
processed, even if you live in the United States. Specifically, data 
protection and processing falls under a law called the Data Protection 
Act 1998. Under British and European Union law, you are considered to 
be a ``Data Subject'', which means you have certain legal rights. These 
rights include the ability to see what data is stored about you. Where 
data held in the EU is transferred to the United States, GSR will 
respect any safe harbour principles agreed between the United States 
Department of Commerce and the European Commission. The GSR Data 
Controller can be contacted by e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e48588819c868f8b83858aa48389858d88ca878b89ca">[email&#160;protected]</a>

      6.  Information Collected: We collect any information that you 
choose to share with us by using the Application. This may include, 
inter alia, the name, demographics, status updates and Facebook likes 
of your profile and of your network.

      7.  Intellectual Property Rights: If you click ``OKAY'' or 
otherwise use the Application or accept payment, you permit GSR to 
edit, copy, disseminate, publish, transfer, append or merge with other 
databases, sell, licence (by whatever means and on whatever terms) and 
archive your contribution and data. Specifically, agreement to these 
Terms also means you waive any copyright and other intellectual 
property rights in your data and contribution to GSR, and grant GSR an 
irrevocable, sublicenceable, assignable, non-exclusive, transferrable 
and worldwide license to use your data and contribution for any 
purpose. You acknowledge that any and all intellectual property rights 
and database rights held in your data or contribution that is acquired 
by GSR or the Application will vest with GSR and that you will not have 
any claim in copyright, contract or otherwise. Nothing in this 
Agreement shall inhibit, limit or restrict GSR's ability to exploit, 
assert, transfer or enforce any database rights or intellectual 
property rights anywhere in the world. You also agree not attempt to 
appropriate, assert claim to, restrict or encumber the rights held in, 
interfere with, deconstruct, discover, decompile, disassemble, 
reconstruct or otherwise reverse-engineer the Application, the data 
collected by the Application or any other GSR technology, algorithms, 
databases, methods, formulae, compositions, designs, source code, 
underlying ideas, file formats, programming interfaces, inventions and 
conceptions of inventions whether patentable or un-patentable.

      8.  Informed Consent: By signing this form, you indicate that you 
have read, understand, been informed about and agree to these Terms. 
You also are consenting to have your responses, opinions, likes, social 
network and other related data recorded and for the data collected from 
you to be used by GSR. If you do not understand these Terms, or if you 
do not agree to them, then we strongly advise that you do not continue, 
do not click ``OKAY'', do not use the Application and do not to collect 
any compensation from us.

      9.  Variation of Terms: You permit GSR to vary these Terms from 
time to time to comply with relevant legislation, for the protection of 
your privacy or for commercial reasons. If you choose to provide us 
with your e-mail address, notice of any variation will be sent to that 
e-mail address. If you do not provide us with an e-mail address, you 
waive your right to be notified of any variation of terms.

    10.   Rights of Third Parties: A person who is not a Party to this 
Agreement will not have any rights under or in connection with it.

    Senator Blumenthal. And so my reservation about your 
testimony today is that I do not see how you can change your 
business model unless there are specific rules of the road. 
Your business model is to monetize user information to maximize 
profit over privacy. And unless there are specific rules and 
requirements enforced by an outside agency, I have no assurance 
that these kinds of vague commitments are going to produce 
action.
    So I want to ask you a couple of very specific questions, 
and they are based on legislation that I have offered in the MY 
DATA Act and in legislation that Senator Markey is introducing 
today, the CONSENT Act, which I am joining. Do you not agree 
that companies ought to be required to provide users with 
clear, plain information about how their data will be used and 
specific ability to consent to the use of that information?
    Mr. Zuckerberg. Senator, I do generally agree with what you 
are saying, and I laid that out earlier when I talked about 
what----
    Senator Blumenthal. Would you agree to an opt-in as opposed 
to an opt-out?
    Mr. Zuckerberg. Senator, I think that that certainly makes 
sense to discuss, and I think the details around this matter a 
lot, so----
    Senator Blumenthal. Would you agree that users should be 
able to access all of their information?
    Mr. Zuckerberg. Senator, yes, of course.
    Senator Blumenthal. All of the information that you collect 
as a result of purchases from data brokers, as well as tracking 
them?
    Mr. Zuckerberg. Senator, we have already a download-your-
information tool that allows people to see and to take out all 
of the information that they have put into Facebook or that 
Facebook knows about them. So yes, I agree with that. We 
already have that.
    Senator Blumenthal. I have a number of other specific 
requests that you agree to support as part of legislation. I 
think legislation is necessary. The rules of the road have to 
be the result of congressional action.
    Facebook has participated recently in the fight against the 
scourge of sex trafficking, and the bill that we have just 
passed, it will be signed into law tomorrow, SESTA, the Stop 
Enabling Sex Trafficking Act, was the result of our 
cooperation. I hope that we can cooperate on this kind of 
measure as well.
    Mr. Zuckerberg. Senator, I look forward to having my team 
work with you on this.
    [The information referred to follows:]

    I have a number of other specific requests that you agree to 
support as part of legislation. I think legislation is necessary. The 
rules of the road have to be the result of congressional action. We 
have--Facebook has participated recently in the fight against the 
scourge of sex trafficking and the bill that we've just passed. It will 
be signed into law tomorrow. The Stop Exploiting Sex Trafficking Act 
was as a result of our cooperation and I hope we can cooperate on this 
kind of measure as well.
    Facebook supports SESTA, and we were very pleased to be able to 
work successfully with a bipartisan group of Senators on a bill that 
protects women and children from the harms of sex trafficking.
    Facebook is generally not opposed to regulation but wants to ensure 
it is the right regulation. The issues facing the industry are complex, 
multi-faceted, and affect an important part of peoples' lives. As such, 
Facebook is absolutely committed to working with regulators, like 
Congress, to craft the right regulations. Facebook would be happy to 
review any proposed legislation and provide comments.

    Senator Blumenthal. Thank you.
    Chairman Thune. Thank you, Senator Blumenthal.
    Senator Cruz.

                  STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Zuckerberg, welcome. Thank you for being here.
    Mr. Zuckerberg, does Facebook consider itself a neutral 
public forum?
    Mr. Zuckerberg. Senator, we consider ourselves to be a 
platform for all ideas.
    Senator Cruz. Let me ask the question again. Does Facebook 
consider itself to be a neutral public forum? And 
representatives of your company have given conflicting answers 
on this. Are you a First Amendment----
    Mr. Zuckerberg. Well----
    Senator Cruz.--speaker expressing your views, or are you a 
neutral public forum allowing everyone to speak?
    Mr. Zuckerberg. Senator, here is how we think about this. I 
do not believe that--there is certain content that clearly we 
do not allow, right? Hate speech, terrorist content, nudity, 
anything that makes people feel unsafe in the community. From 
that perspective, that is why we generally try to refer to what 
we do as a platform for----
    Senator Cruz. Let me try----
    Mr. Zuckerberg.--all ideas----
    Senator Cruz.--this because the time is constrained. It is 
just a simple question. The predicate for Section 230 immunity 
under the CDA is that you are a neutral public forum. Do you 
consider yourself a neutral public forum or are you engaged in 
political speech, which is your right under the First 
Amendment?
    Mr. Zuckerberg. Well, Senator, our goal is certainly not to 
engage in political speech. I am not that familiar with the 
specific legal language of the law that you speak to, so I 
would need to follow up with you on that. I am just trying to 
lay out how broadly I think about this.
    [The information referred to follows:]

    The predicate for Section 230 immunity under the CDA is that you're 
a neutral public forum. Do you consider yourself a neutral public forum 
or are you engaged in political speech, which is your right under the 
First Amendment?
    We are, first and foremost, a technology company. Facebook does not 
create or edit the content that our users published on our platform. 
While we seek to be a platform for a broad range of ideas, we do 
moderate content in good faith according to published community 
standards in order to keep users on the platform safe, reduce 
objectionable content and to make sure users participate on the 
platform responsibly.
    Section 230 of the Communications Decency Act provides that ``[N]o 
provider or user of an interactive computer service shall be treated as 
the publisher or speaker of any information provided by another 
information content provider.'' Outside of certain specific exceptions, 
this means that online platforms that host content posted by others are 
generally not liable for the speech of their users, and, indeed, 
Section 230 explicitly provides that a platform that chooses to 
moderate content on its service based on its own standards does not 
incur liability on the basis of that decision. Specifically, 47 U.S.C. 
Sec. 230(c)(2) provides, in relevant part, that ``[N]o provider or user 
of an interactive computer service shall be held liable on account of--
(A) any action voluntarily taken in good faith to restrict access to or 
availability of material that the provider or user considers to be 
obscene, lewd, lascivious, filthy, excessively violent, harassing, or 
otherwise objectionable, whether or not such material is 
constitutionally protected.''

    Senator Cruz. Well, Mr. Zuckerberg, I will say there are a 
great many Americans who I think are deeply concerned that 
Facebook and other tech companies are engaged in a pervasive 
pattern of bias and political censorship. There have been 
numerous instances with Facebook. In May of 2016, Gizmodo 
reported that Facebook had purposefully and routinely 
suppressed conservative stories from trending news, including 
stories about CPAC, including stories about Mitt Romney, 
including stories about the Lois Lerner IRS scandal, including 
stories about Glenn Beck.
    In addition to that, Facebook has initially shut down the 
Chick-fil-A Appreciation Day page, has blocked a post of a Fox 
News reporter, has blocked over two dozen Catholic pages, and 
most recently blocked Trump supporters Diamond and Silk page 
with 1.2 million Facebook followers after determining their 
content and brand were, quote, ``unsafe to the community.'' To 
a great many Americans, that appears to be a pervasive pattern 
of political bias. Do you agree with that assessment?
    Mr. Zuckerberg. Senator, let me say a few things about 
this. First, I understand where that concern is coming from 
because Facebook and the tech industry are located in Silicon 
Valley, which is an extremely left-leaning place. And this is 
actually a concern that I have and that I try to root out in 
the company is making sure that we do not have any bias in the 
work that we do. And I think it is a fair concern that people 
would at least wonder about.
    Senator Cruz. So let me ask this question.
    Mr. Zuckerberg. Now----
    Senator Cruz. Are you aware of any ad or page that has been 
taken down from Planned Parenthood?
    Mr. Zuckerberg. Senator, I am not, but let me just--can I--
--
    Senator Cruz. How about MoveOn.org?
    Mr. Zuckerberg.--finish? I am sorry.
    Senator Cruz. How about MoveOn.org?
    Mr. Zuckerberg. I am not specifically aware of those 
instances.
    Senator Cruz. How about any democratic candidate for 
office?
    Mr. Zuckerberg. I am not specifically aware. I mean, I am 
not sure.
    Senator Cruz. In your testimony you say that you have 
15,000 to 20,000 people working on security and content review. 
Do you know the political orientation of those 15,000 to 20,000 
people engaged in content review?
    Mr. Zuckerberg. No, Senator. We do not generally ask people 
about their political orientation when they are joining the 
company.
    Senator Cruz. So, as CEO, have you ever made hiring or 
firing decisions based on political positions or what 
candidates they supported?
    Mr. Zuckerberg. No.
    Senator Cruz. Why was Palmer Luckey fired?
    Mr. Zuckerberg. That is a specific personnel matter. That 
seems like it would be inappropriate to speak to here.
    Senator Cruz. You just made a specific representation that 
you did not make decisions based on political views. Is that 
accurate?
    Mr. Zuckerberg. Well, I can commit that it was not because 
of a political view.
    Senator Cruz. Do you know of those 15,000 to 20,000 people 
engaged in content review how many if any have ever supported 
financially a Republican candidate for office?
    Mr. Zuckerberg. Senator, I do not know that.
    Senator Cruz. Your testimony says, ``It is not enough that 
we just connect people; we have to make sure those connections 
are positive.'' It says, ``We have to make sure people are not 
using their voice to hurt people or spread misinformation. We 
have a responsibility not just to build tools but to make sure 
those tools are used for good.'' Mr. Zuckerberg, do you feel it 
is your responsibility to assess users, whether they are good 
and positive connections or ones that those 15,000 to 20,000 
people deem unacceptable or deplorable?
    Mr. Zuckerberg. Senator, you are asking about me 
personally?
    Senator Cruz. Facebook.
    Mr. Zuckerberg. Senator, I think that there are a number of 
things that we would all agree are clearly bad. Foreign 
interference in our elections, terrorism, self-harm, those are 
things----
    Senator Cruz. I am talking about censorship.
    Mr. Zuckerberg. Oh, well, I think that you would probably 
agree that we should remove terrorist propaganda from the 
service. So that I agree I think is clearly bad activity that 
we want to get down, and we are generally proud of how well we 
do with that.
    Now, what I can say--and I do want to get this in before 
the end here--is that I am very committed to making sure that 
Facebook is a platform for all ideas. That is a very important 
founding principle of what we do. We are proud of the discourse 
and the different ideas that people can share on the service, 
and that is something that, as long as I am running the 
company, I am going to be committed to making sure is the case.
    Senator Cruz. Thank you.
    Chairman Thune. Thank you, Senator Cruz. Do you want to 
break now?
    [Laughter.]
    Chairman Thune. Or do you want to keep going?
    [Laughter.]
    Mr. Zuckerberg. Sure. I mean, that was pretty good, so--all 
right.
    [Laughter.]
    Chairman Thune. All right. Senator Whitehouse is up next, 
but if you want to take a----
    Mr. Zuckerberg. Yes.
    Chairman Thune.--five-minute break right now, we have now 
been going a good 2 hours so----
    Mr. Zuckerberg. Thank you.
    Chairman Thune.--we will recess for 5 minutes and 
reconvene.
    [Recess.]
    Chairman Grassley [presiding]. The Committee will come to 
order.
    Before I call on Senator Whitehouse, Senator Feinstein 
asked permission to put letters and statements in the record. 
And without objection, they will be put in from the ACLU, the 
Electronic Privacy Information Center, the Association for 
Computing Machinery Public Policy Council, and Public 
Knowledge.
    [The information referred to follows:]

                             American Civil Liberties Union
                                      Washington, DC, April 9, 2018

Re: Questions for Mark Zuckerberg

Dear Senator,

    On behalf of the American Civil Liberties Union (``ACLU''), we 
submit this letter for the record in connection with the Senate 
Judiciary and Commerce, Science, and Transportation Committees joint 
hearing, ``Facebook, Social Media Privacy, and the Use and Abuse of 
Data,'' where Facebook Chairman and Chief Executive Officer Mark 
Zuckerberg is scheduled to testify.
    Over the last month, the public has learned of various privacy 
breaches that have impacted tens of millions of Facebook users. The 
personal information of as many as 87 million people may have been 
improperly shared with Cambridge Analytica, which appears to have used 
this data to influence American voters.\1\ Most Facebook users have 
reportedly had their public profile scraped for malicious purposes.\2\ 
And, Facebook is currently being sued over concerns that it continues 
to fail to prevent ads that appear on the platform from improperly 
discriminating on the basis of gender, age, and other protected 
characteristics.\3\ These incidents highlight both the existence of 
systemic deficiencies within Facebook and the need for stronger privacy 
laws in the U.S. to protect consumers.
---------------------------------------------------------------------------
    \1\ Kurt Wagner, Facebook says Cambridge Analytica may have had 
data from as many as 87 million people, Recode, April 4, 2018, https://
www.recode.net/2018/4/4/17199272/facebook-cambridge-analytica-87-
million-users-data-collection (last visited Apr 5, 2018).
    \2\ Tony Romm, Craig Timberg & Elizabeth Dwoskin, Malicious Actors' 
used its tools to discover identities and collect data on a massive 
global scale, Washington Post, April 5, 2018, https://
www.washingtonpost.com/news/the-switch/wp/2018/04/04/facebook-said-the-
personal-data-of-most-its-2-billion-users-has-been-collected-and-
shared-with-outsiders/?utm_term=.31c3a8a679ee (last visited Apr 5, 
2018).
    \3\ Charles Baglie, Facebook Vowed to End Discriminatory Housing 
Ads. Suits Says it Didn't., New York Times, March 27, 2018, available 
at https://www.nytimes.com/2018/03/27/nyregion/facebook-housing-ads-
discrimination-lawsuit.html (last visited Apr 5, 2018).
---------------------------------------------------------------------------
    We anticipate that members will question Mr. Zuckerberg regarding 
the recent incidents, the reasons Facebook has failed to adequately 
protect user privacy, and regulatory proposals the company will 
support. In addition to these topics, we urge you to ask Mr. Zuckerberg 
the following questions:

  <bullet> Why has Facebook failed to take sufficient steps to ensure 
        that advertisers do not wrongly exclude individuals from 
        housing, employment, credit, and public accommodation ads based 
        on gender, ethnic affinity, age, or other protected 
        characteristics?

  <bullet> Will Facebook provide privacy protections related to 
        consent, retention, data portability, and transparency to 
        American consumers that it will provide to EU consumers as a 
        result of Europe's law on data protection, the General Data 
        Protection Regulation (``GDPR''),\4\ which will go into effect 
        on May 25, 2018? In short, does Facebook plan to offer better 
        privacy protection to Europeans than it does to Americans?
---------------------------------------------------------------------------
    \4\ Regulation (EU) 2016/679 of the European Parliament and Council 
of the European Union on the Protection of Natural Persons with Regard 
to the Processing of Personal Data and on the Free Movement of Such 
Data, and Repealing Directive 95/46/EC (General Data Protection 
Regulation) [hereinafter GDPR], April 27, 2016, available at http://
eur-lex.europa.eu/legal-content/EN/TXT/PDF/
?uri=CELEX:32016R0679&qid=1490179745294&from=en
---------------------------------------------------------------------------
1.  Facebook Ad Discrimination
    Facebook offers advertisers many thousands of targeting categories, 
including those based on characteristics that are protected by civil 
rights laws--such as, gender, age, familial status, sexual orientation, 
disability, and veteran status--and those based on ``proxies'' for such 
characteristics. In the case of ads for housing, credit, and 
employment, discriminatory ad targeting and exclusion is illegal. Even 
outside these contexts, however, discriminatory targeting could raise 
civil rights concerns. For example, do we want any advertisers to be 
able to offer higher prices to individuals who Facebook believes are a 
particular race, or to exclude them from receiving ads offering certain 
commercial benefits?
    Following complaints of discriminatory targeting, including efforts 
by the ACLU to raise concerns directly with the company, Facebook 
announced that it would no longer allow housing, credit, and employment 
ads targeted based on ``affinity'' for certain ethnic groups.\5\ 
However, it did not prohibit targeting based on gender, age, veteran 
status, or other protected categories.
---------------------------------------------------------------------------
    \5\ Erin Egan, Improving Enforcement and Promoting Diversity: 
Updates to Ethnic Affinity Marketing, Facebook, Nov. 11, 2016, https://
newsroom.fb.com/news/2016/11/updates-to-ethnic-affinity-marketing/ 
(last visited Apr 6, 2018).
---------------------------------------------------------------------------
    These changes also did not address questions or concerns 
surrounding intentional targeting or exclusion of ads for public 
accommodations (for example, transportation). However, even after 
Facebook announced that it would no longer allow targeting of certain 
ads based on ethnic affinity, a ProPublica study found that the 
platform still failed to catch and prevent discriminatory ads that 
improperly excluded categories of users under the guise of targeting 
based on interests or affinity, including African Americans, Jewish 
people, and Spanish speakers.\6\ Since then, Facebook has temporarily 
turned off ad targeting based on ethnic affinity until it can address 
these issues.\7\
---------------------------------------------------------------------------
    \6\ Julia Angwin, Ariana Tobin & Madeleine Varner, Facebook (Still) 
Letting Housing Advertisers Exclude Users by Race, ProPublica, 
Propublica, November 21, 2017, https://www.propublica.org/article/
facebook-advertising-discrimination-housing-race-sex-national-origin 
(last visited Apr 5, 2018).
    \7\ Jessica Guynn, Facebook halts ads that exclude racial and 
ethnic groups, USA Today, Nov. 29, 2017, https://www.usatoday.com/
story/tech/2017/11/29/facebook-stop-allowing-advertisers-exclude-
racial-and-ethnic-groups-targeting/905133001/ (last visited Apr 6, 
2018).
---------------------------------------------------------------------------
    Members should ask Zuckerberg why the platform has not turned off 
ad targeting for all protected categories or their proxies in the 
housing, credit, and employment, given that existing civil rights laws 
prohibit discriminatory ads in these contexts. In addition, they should 
question Zuckerberg regarding why the company has not taken sufficient 
steps--including increased auditing and facilitating research from 
independent entities--to assess and protect against discrimination 
outside of these contexts.
2. Privacy Protections Under the GDPR
    For years, the ACLU has called on Facebook to provide more privacy 
protections to consumers and has emphasized the need for baseline 
privacy legislation in the U.S. With regards to Facebook, among other 
things, we have urged increased transparency, requirements that 
customers provide affirmative opt-in consent to share, use, or retain 
information, enhanced app privacy settings, auditing to assess third 
parties with access to Facebook, and other reforms. Many of these 
reforms have not been fully adopted, even in the wake of the Cambridge 
Analytica incident.\8\
---------------------------------------------------------------------------
    \8\ Nicole Ozer & Chris Conley, https://www.aclu.org/blog/privacy-
technology/internet-privacy/after-facebook-privacy-debacle-its-time-
clear-steps-protect, ACLU, Mar. 23, 2018, https://www.aclu.org/blog/
privacy-technology/internet-privacy/after-facebook-privacy-debacle-its-
time-clear-steps-protect (last visited Apr 6, 2018).
---------------------------------------------------------------------------
    However, some of these changes may soon be required for Facebook's 
operation in the European Union as a result of Europe's law on data 
protection, the GDPR, which will go into effect on May 25. The GDPR 
does not provide an exact template for what baseline privacy regulation 
should look like in the U.S.--indeed, provisions such as the right to 
be forgotten would likely be unconstitutional if applied in the U.S. 
Nevertheless, there are elements of the GDPR that, if applied in the 
U.S., would help to ensure that Americans have full control over their 
data and are equipped with the tools necessary to safeguard their 
rights.
    In recent statements, Zuckerberg has said that Facebook is working 
to extend a version of the GDPR that could be extended globally, but 
has failed to provide details regarding which provisions of the law 
will be applied to U.S. consumers.\9\ Given this, members of Congress 
should press Zuckerberg on whether Facebook intends to voluntarily 
provide certain GDPR protections\10\ to U.S. consumers, including:
---------------------------------------------------------------------------
    \9\ David Ingrem & Joseph Menn, Exclusive: Facebook CEO stops short 
of extending European privacy globally, Reuters, Apr. 3, 2018, https://
www.reuters.com/article/us-facebook-ceo-privacy-exclusive/exclusive-
facebook-ceo-stops-short-of-extending-european-privacy-globally-idUSKC
N1HA2M1 (last visited Apr 6, 2018).
    \10\ GDPR places different restrictions on entities based on 
whether they are ``controllers'' or ``processors'' of data. Facebook 
has stated that it acts as a controller for the majority of its 
business practices, though acts as a processor in certain instances 
when ``working with business and third parties.'' For purposes of this 
letter, we have included obligations on Facebook as both a controller 
and processor. See What is the General Data Protection Regulation, 
Facebook Business, available at https://www.facebook.com/business/gdpr.

  <bullet> Consent Requirements: Absent certain exceptions,\11\ the 
        GDPR requires that companies obtain user consent to collect, 
        use, or otherwise process their personal data.\12\ This consent 
        must be freely given, specific, informed, and made by an 
        affirmative action or statement by the user, and authorized by 
        a parent/guardian if the user is under age 16.\13\ If consent 
        is written, the company must present the information in a 
        manner that is intelligible, easily accessible, and uses clear 
        and plain language. In addition, the user must have the right 
        to withdraw their consent at any time.\14\ In addition, 
        processing of certain categories of sensitive data, like 
        biometrics, religious beliefs, health data, and political 
        opinions requires more rigorous ``explicit consent.''
---------------------------------------------------------------------------
    \11\ Other than consent, a company may process data to fulfill a 
contractual obligation to which the user is a party or to take steps at 
the request of the user prior to a contract; to comply with a legal 
obligation, to perform a task in the public interest; to protect the 
vital interests of a data subject or other person; or to pursue a 
legitimate interest unless the interests are overridden by the 
interests/rights of the data subject. See GDRP, supra note 4, art. 6.
    \12\ Id.
    \13\ Id. at art. 4. GDPR permits members states to provide a lower 
age, no younger than 13, for consent purposes. See Id. at art. 6.
    \14\ Id. at art.7.

  <bullet> Data Portability: GDPR provides users the right to obtain a 
        copy of the data they have provided in a ``structured, commonly 
        used and machine-readable format'' and to have this data 
        transferred to another provider.\15\
---------------------------------------------------------------------------
    \15\ Id. at art. 20.

  <bullet> Transparency: GDPR states that companies collecting data 
        must provide transparency regarding their data processes. Among 
        other things, users are entitled to know the amount of time 
        their personal data will be stored (or the criteria used to 
        determine the retention period), categories of personal data 
        collected, whether the provision of the data is a statutory or 
        contractual requirement, the existence of automated decision 
        making, who receives their personal data, and the purpose for 
        which their personal data is being collected, used, or 
        otherwise processed.\16\ There are also similar transparency 
        requirements in cases where an entity obtains personal data 
        about an individual from a source other than the 
        individual.\17\
---------------------------------------------------------------------------
    \16\ Id. at art. 12.
    \17\ Id. at art. 14.
---------------------------------------------------------------------------
  <bullet> Use of Data for Marketing: GDPR provides user the right to 
        object to use of their data for marking purposes, including 
        profiling for direct marketing purposes.\18\
---------------------------------------------------------------------------
    \18\ Id. at art. 21.

  <bullet> Automated Decision-Making: Absent certain exceptions (for 
        example, explicit consent), GDPR states that users have the 
        right to not be subject to decisions based solely on automated 
        processing, including profiling, if it has a legal or similarly 
        significant effect.\19\
---------------------------------------------------------------------------
    \19\ Id. at art. 22.

  <bullet> Breach Notification: In cases of any personal data breach, 
        companies must notify a user if it is likely to result in a 
        ``high risk to the rights and freedoms'' of individuals.\20\ 
        While the ACLU believes that notification should be required in 
        circumstances far broader than this--and there are state laws 
        that require notice in any case where there is a breach 
        involving certain types of personal data \21\--the GDPR breach 
        policy could be a step forward in cases where there is not more 
        protective applicable U.S. law.
---------------------------------------------------------------------------
    \20\ Id. at art. 34.
    \21\ See California Civ. Code s. 1798.82(a).

    Voluntary application of GDPR requirements by companies to U.S. 
consumers cannot be a substitute for baseline privacy legislation in 
the U.S., which must include enforcement mechanisms, redress in the 
case of breaches, and a private right of action not subject to 
mandatory arbitration. Until such legislation, however, voluntary 
application of these rights could help to safeguard users in the U.S.
    If you have questions, please contact ACLU Legislative Counsel, 
Neema Singh Guliani, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="412f26342d28202f280120222d346f2e33266f">[email&#160;protected]</a>
            Sincerely,
                                               Faiz Shakir,
                                       National Political Director.
                                       Neema Singh Guliani,
                                               Legislative Counsel.
                                 ______
                                 
                      Electronic Privacy Information Center
                                      Washington, DC, April 9, 2018

Senator Chuck Grassley, Chairman,
Senator Dianne Feinstein, Ranking Member,
Committee on the Judiciary,
Washington, DC.

Senator John Thune, Chairman,
Senator Bill Nelson, Ranking Members,
Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Members of the Senate Judiciary Committee and the Senate Commerce 
Committee:

    We write to you regarding the joint hearing this week on 
``Facebook, Social Media Privacy, and the Use and Abuse of Data.'' \1\ 
We appreciate your interest in this important issue. For many years, 
the Electronic Privacy Information Center (``EPIC'') has worked with 
both the Judiciary Committee and the Commerce Committee to help protect 
the privacy rights of Americans.\2\
---------------------------------------------------------------------------
    \1\ Facebook, Social Media Privacy, and the Use and Abuse of Data: 
Hearing Before the S. Comm. on the Judiciary, 115th Cong. (2018), 
https://www.judiciary.senate.gov/meetings/facebook-social-media-
privacy-and-the-use-and-abuse-of-data (April 10, 2018).
    \2\ See, e.g., The Video Privacy Protection Act: Protecting Viewer 
Privacy in the 21st Century: Hearing Before the S. Comm on the 
Judiciary, 112th Cong. (2012) (statement of Marc Rotenberg, Exec. Dir., 
EPIC), https://epic.org/privacy/vppa/EPIC-Senate-VPPA-Testimony.pdf; An 
Examination of Children's Privacy: New Technologies and the Children's 
Online Privacy Protection Act (COPPA): Hearing Before the S. Comm. on 
Commerce, Science, and Transportation, 111th Cong. (2010) (statement of 
Marc Rotenberg, Exec. Dir. EPIC), (C-SPAN video at https://www.c-
span.org/video/?293245-1/childrens-privacy), https://epic.org/privacy/
kids/EPIC_COPPA_Tes
timony_042910.pdf; Impact and Policy Implications of Spyware on 
Consumers and Businesses: Hearing Before the S. Comm. on Commerce, 
Science, and Transportation 110th Cong. (2008) (statement of Marc 
Rotenberg, Exec. Dir. EPIC) (C-SPAN video at https://www.c-span.org/vi
deo/?205933-1/computer-spyware), https://www.epic.org/privacy/dv/
Spyware_Test061108.pdf.
---------------------------------------------------------------------------
    In this statement from EPIC, we outline the history of Facebook's 
2011 Consent Order with the Federal Trade Commission, point to key 
developments (including the failure of the FTC to enforce the Order), 
and make a few preliminary recommendations. Our assessment is that the 
Cambridge Analytica breach, as well as a range of threats to consumer 
privacy and democratic institutions, could have been prevented if the 
Commission had enforced the Order.
    EPIC would welcome the opportunity to testify, to provide more 
information, and to answer questions you may have. Our statement 
follows below.
EPIC, the 2011 FTC Consent Order, and Earlier Action by the FTC
    Facebook's transfer of personal data to Cambridge Analytica was 
prohibited by a Consent Order the FTC reached with Facebook in 2011 in 
response to an extensive investigation and complaint pursued by EPIC 
and several U.S. consumer privacy organizations.\3\ The FTC's failure 
to enforce the order we helped obtain has resulted in the unlawful 
transfer of 87 million user records to a controversial data mining firm 
to influence a presidential election as well as the vote in Brexit. The 
obvious question now is ``why did the FTC fail to act?'' The problems 
were well known, widely documented, and had produced a favorable legal 
judgement in 2011.
---------------------------------------------------------------------------
    \3\ Fed. Trade Comm'n., In re Facebook, Decision and Order, FTC 
File No. 092 3184 (Jul. 27, 2012) (Hereinafter ``Facebook Consent 
Order''), https://www.ftc.gov/sites/default/files/documents/cases/2012/
08/120810facebookdo.pdf.
---------------------------------------------------------------------------
    Back in 2007, Facebook launched Facebook Beacon, which allowed a 
Facebook user's purchases to be publicized on their friends' News Feed 
after transacting with third-party sites.\4\ Users were unaware that 
such features were being tracked, and the privacy settings originally 
did not allow users to opt out. As a result of widespread criticism, 
Facebook Beacon was eventually shutdown.
---------------------------------------------------------------------------
    \4\ EPIC, Social Networking Privacy, https://epic.org/privacy/
socialnet/.
---------------------------------------------------------------------------
    In testimony before the Senate Commerce Committee in 2008, we 
warned about Facebook's data practices:

        Users of social networking sites are also exposed to the 
        information collection practices of third party social 
        networking applications. On Facebook, installing applications 
        grants this third-party application provider access to nearly 
        all of a user's information. Significantly, third party 
        applications do not only access the information about a given 
        user that has added the application. Applications by default 
        get access to much of the information about that user's friends 
        and network members that the user can see. This level of access 
        is often not necessary. Researchers at the University of 
        Virginia found that 90 percent of applications are given more 
        access privileges than they need.\5\
---------------------------------------------------------------------------
    \5\ Impact and Policy Implications of Spyware on Consumers and 
Businesses: Hearing Before the S. Comm. on Commerce, Science, and 
Transportation 110th Cong. (2008) (statement of Marc Rotenberg, Exec. 
Dir. EPIC) (C-SPAN video at https://www.c-span.org/video/?205933-1/
computer-spyware), https://www.epic.org/privacy/dv/
Spyware_Test061108.pdf.

    Nonetheless in February 2009, Facebook changed its Terms of 
Service. The new TOS allowed Facebook to use anything a user uploaded 
to the site for any purpose, at any time, even after the user ceased to 
use Facebook. Further, the TOS did not provide for a way that users 
could completely close their account. Rather, users could 
``deactivate'' their account, but all the information would be retained 
by Facebook, rather than deleted.
    EPIC planned to file an FTC complaint, alleging that the new Terms 
of Service violated the FTC Act Section 5, and constituted ``unfair and 
deceptive trade practices.'' In response to this planned complaint, and 
a very important campaign organized by the ``Facebook Users Against the 
New Terms of Service,'' Facebook returned to its previous Terms of 
Service. Facebook then established a comprehensive program of Governing 
Principles and a statement of Rights and Responsibilities.\6\
---------------------------------------------------------------------------
    \6\ Facebook takes a Democratic Turn, USA Today, Feb. 27, 2009, at 
1B, https://www.press
reader.com/usa/usa-today-us-edition/20090227/281887294213804
---------------------------------------------------------------------------
    As we reported in 2009:

        Facebook has announced the results of the vote on site 
        governance. The initial outcome indicates that approximately 75 
        percent of users voted for the new terms of service which 
        includes the new Facebook Principles and Statement of Rights 
        and Responsibilities. Under the new Principles, Facebook users 
        will ``own and control their information.'' Facebook also took 
        steps to improve account deletion, to limit sublicenses, and to 
        reduce data exchanges with application developers. EPIC 
        supports the adoption of the new terms. For more information, 
        see EPIC's page on Social Networking Privacy.\7\
---------------------------------------------------------------------------
    \7\ EPIC, Facebook Gets Ready to Adopt Terms of Service (Apr. 24, 
2009) https://epic.org/2009/04/facebook-gets-ready-to-adopt-t.html

    However, Facebook failed to uphold its commitments to a public 
governance structure for the company.
    From mid-2009 through 2011, EPIC and a coalition of consumer 
organizations pursued comprehensive accountability for the social media 
platform.\8\ When Facebook broke its final commitment, we went ahead 
with a complaint to the Federal Trade Commission. Our complaint alleged 
that Facebook had changed user privacy settings and disclosed the 
personal data of users to third parties without the consent of 
users.\9\ EPIC and others had conducted extensive research and 
documented the instances of Facebook overriding the users' privacy 
settings to reveal personal information and to disclose, for commercial 
benefit, user data, and the personal data of friends and family 
members, to third parties without their knowledge or affirmative 
consent.\10\
---------------------------------------------------------------------------
    \8\ There is a longer history of significant events concerning the 
efforts of Facebook users to establish democratic accountability for 
Facebook during the 2008-2009 period. The filing of the 2009 complaint 
came about after it became clear that Facebook would not uphold its 
commitments to the Statement of Right and Responsibilities it had 
established. It would also be worth reconstructing the history of the 
``Facebook Users Against the New Terms of Service'' as Facebook 
destroyed the group and all records of its members and activities after 
the organizers helped lead a successful campaign against the company. 
Julius Harper was among the organizers of the campaign. A brief history 
was written by Ben Popken in 2009 for The Consumerist, ``What 
Facebook's Users Want In The Next Terms Of Service,'' https://
consumerist.com/2009/02/23/what-facebooks-users-want-in-the-next-terms-
of-service/. Julius said this in 2012: ``Most people on Facebook don't 
even know they can vote or even that a vote is going on. What is a 
democracy if you don't know where the polling place is? Or that a vote 
is even being held? How can you participate? Ignorance becomes a tool 
that can be used to disenfranchise people.'' Facebook upsets some by 
seeking to take away users' voting rights, San Jose Mercury News, Nov. 
30, 2012, https://www.mercurynews.com/2012/11/30/facebook-upsets-some-
by-seeking-to-take-away-users-voting-rights/.
    \9\ In re Facebook, EPIC.org, https://epic.org/privacy/
inrefacebook/.
    \10\ FTC Facebook Settlement, EPIC.org, https://epic.org/privacy/
ftc/facebook/.
---------------------------------------------------------------------------
    We explained our argument clearly in the 2009 EPIC complaint with 
the Commission (attached in full to this statement):

        This complaint concerns material changes to privacy settings 
        made by Facebook, the largest social network service in the 
        United States, which adversely impact users of the Facebook 
        service. Facebook's changes to users' privacy settings disclose 
        personal information to the public that was previously 
        restricted. Facebook's changes to users' privacy settings also 
        disclose personal information to third parties that was 
        previously not available. These changes violate user 
        expectations, diminish user privacy, and contradict Facebook's 
        own representations. These business practices are Unfair and 
        Deceptive Trade Practices, subject to review by the Federal 
        Trade Commission (the ``Commission'') under section 5 of the 
        Federal Trade Commission Act.\11\
---------------------------------------------------------------------------
    \11\ In the Matter of Facebook, Inc. (EPIC, Complaint, Request for 
Investigation, Injunction, and Other Relief) before the Federal Trade 
Commission, Washington, D.C. (filed Dec. 17, 2009), http://
www.epic.org/privacy/inrefacebook/EPIC-FacebookComplaint.pdf.

    We should also make clear that the 2009 complaint that EPIC filed 
with the Federal Trade Commission about Facebook was not the first to 
produce a significant outcome. In July and August 2001, EPIC and a 
coalition of fourteen leading consumer groups filed complaints with the 
Federal Trade Commission (FTC) alleging that the Microsoft Passport 
system violated Section 5 of the Federal Trade Commission Act (FTCA), 
which prohibits unfair or deceptive practices in trade.\12\
---------------------------------------------------------------------------
    \12\ EPIC, Microsoft Passport Investigation Docket, https://
epic.org/privacy/consumer/microsoft/passport.html.
---------------------------------------------------------------------------
    EPIC and the groups alleged that Microsoft violated the law by 
linking the Windows XP operating system to repeated exhortations to 
sign up for Passport; by representing that Passport protects privacy, 
when it and related services facilitate profiling, tracking and 
monitoring; by signing up Hotmail users for Passport without consent or 
even the ability to opt-out; by representing that the system complies 
with the Children's Online Privacy Protection Act; by not allowing 
individuals to delete their account; and by representing that the 
system securely holds individuals' data.
    We requested that the FTC initiate an investigation into the 
information collection practices of Windows XP and other services, and 
to order Microsoft to revise XP registration procedures; to block the 
sharing of Passport information among Microsoft properties absent 
explicit consent; to allow users of Windows XP to gain access to 
Microsoft websites without disclosing their actual identity; and to 
enable users of Windows XP to easily integrate services provided by 
non-Microsoft companies for online payment, electronic commerce, and 
other Internet-based commercial activity.
    The Federal Trade Commission undertook the investigation we 
requested and issued an important consent order. As the Commission 
explained announcing its enforcement action in 2002:

        Microsoft Corporation has agreed to settle Federal Trade 
        Commission charges regarding the privacy and security of 
        personal information collected from consumers through its 
        ``Passport'' web services. As part of the settlement, Microsoft 
        will implement a comprehensive information security program for 
        Passport and similar services. . . .

        The Commission initiated its investigation of the Passport 
        services following a July 2001 complaint from a coalition of 
        consumer groups led by the Electronic Privacy Information 
        Center (EPIC).

        According to the Commission's complaint, Microsoft falsely 
        represented that:

      <bullet>  It employs reasonable and appropriate measures under 
            the circumstances to maintain and protect the privacy and 
            confidentiality of consumers' personal information 
            collected through its Passport and Passport Wallet 
            services, including credit card numbers and billing 
            information stored in Passport Wallet;

      <bullet>  Purchases made with Passport Wallet are generally safer 
            or more secure than purchases made at the same site without 
            Passport Wallet when, in fact, most consumers received 
            identical security at those sites regardless of whether 
            they used Passport Wallet to complete their transactions;

      <bullet>  Passport did not collect any personally identifiable 
            information other than that described in its privacy policy 
            when, in fact, Passport collected and held, for a limited 
            time, a personally identifiable sign-in history for each 
            user; and

      <bullet>  The Kids Passport program provided parents control over 
            what information participating Websites could collect from 
            their children.

        The proposed consent order prohibits any misrepresentation of 
        information practices in connection with Passport and other 
        similar services. It also requires Microsoft to implement and 
        maintain a comprehensive information security program. In 
        addition, Microsoft must have its security program certified as 
        meeting or exceeding the standards in the consent order by an 
        independent professional every two years.\13\
---------------------------------------------------------------------------
    \13\ Fed. Trade Comm'n, Microsoft Settles FTC Charges Alleging 
False Security and Privacy Promises: Passport Single Sign-In, Passport 
``Wallet,'' and Kids Passport Named in Complaint Allegations, Press 
Release, (Aug. 8, 2002), https://www.ftc.gov/news-events/press-
releases/2002/08/microsoft-settles-ftc-charges-alleging-false-security-
privacy.

    FTC Chairmen Timothy J. Muris said at the time, ``Good security is 
fundamental to protecting consumer privacy. Companies that promise to 
keep personal information secure must follow reasonable and appropriate 
measures to do so. It's not only good business, it's the law. Even 
absent known security breaches, we will not wait to act.'' \14\
---------------------------------------------------------------------------
    \14\ Id.
---------------------------------------------------------------------------
    Then in December 2004, EPIC filed a complaint with the Federal 
Trade Commission against databroker Choicepoint, urging the Commission 
to investigate the compilation and sale of personal dossiers by data 
brokers such as Choicepoint.\15\ Based on the EPIC complaint, in 2005, 
the FTC charged that Choicepoint did not have reasonable procedures to 
screen and verify prospective businesses for lawful purposes and as a 
result compromised the personal financial records of more than 163,000 
customers in its database. In January 2006, the FTC announced a 
settlement with Choicepoint, requiring the company to pay $10 million 
in civil penalties and provide $5 millions for consumer redress. EPIC's 
Choicepoint complaint produced the largest civil fine at the time in 
the history of the FTC.\16\
---------------------------------------------------------------------------
    \15\ EPIC, ChoicePoint, https://www.epic.org/privacy/choicepoint/
    \16\ Fed. Trade Comm'n., ChoicePoint Settles Data Security Breach 
Charges; to Pay $10 Million in Civil Penalties, $5 Million for Consumer 
Redress: At Least 800 Cases of Identity Theft Arose From Company's Data 
Breach (Jan. 26, 2006), https://www.ftc.gov/news-events/press-releases/
2006/01/choicepoint-settles-data-security-breach-charges-pay-10-
million.
---------------------------------------------------------------------------
    The Microsoft order led to user-centric identity scheme that, if 
broadly adopted, could have done much to preserve the original open, 
decentralized structure of the Internet. The Choicepoint order led to 
significant reforms in the data broker industry. And it is worth noting 
that both investigations were successfully pursued with Republican 
chairmen in charge of the Federal agency and both actions were based on 
unanimous decisions by all of the Commissioners.
    The Facebook complaint should have produced an outcome even more 
consequential than the complaints concerning Microsoft and Choicepoint. 
In 2011, the FTC, based the materials we provided in 2009 and 2010, 
confirmed our findings and recommendations. In some areas, the FTC even 
went further. The FTC issued a Preliminary Order against Facebook in 
2011 and then a Final Order in 2012.\17\ In the press release 
accompanying the settlement, the FTC stated that Facebook ``deceived 
consumers by telling them they could keep their information on Facebook 
private, and then repeatedly allowing it to be shared and made 
public.'' \18\
---------------------------------------------------------------------------
    \17\ Facebook Consent Order.
    \18\ Fed. Trade Comm'n., Facebook Settles FTC Charges That It 
Deceived Consumers by Failing to Keep Privacy Promises, Press Release, 
(Nov. 29, 2011), https://www.ftc.gov/news-events/press-releases/2011/
11/facebook-settles-ftc-charges-it-deceived-consumers-failing-keep.
---------------------------------------------------------------------------
    According to the FTC, under the proposed settlement Facebook is:

  <bullet> ``barred from making misrepresentations about the privacy or 
        security of consumers' personal information;''

  <bullet> ``required to obtain consumers' affirmative express consent 
        before enacting changes that override their privacy 
        preferences;''

  <bullet> ``required to prevent anyone from accessing a user's 
        material more than 30 days after the user has deleted his or 
        her account;''

  <bullet> ``required to establish and maintain a comprehensive privacy 
        program designed to address privacy risks associated with the 
        development and management of new and existing products and 
        services, and to protect the privacy and confidentiality of 
        consumers' information; and''

  <bullet> ``required, within 180 days, and every two years after that 
        for the next 20 years, to obtain independent, third-party 
        audits certifying that it has a privacy program in place that 
        meets or exceeds the requirements of the FTC order, and to 
        ensure that the privacy of consumers' information is 
        protected.'' \19\
---------------------------------------------------------------------------
    \19\ Id.

    The reporting requirements are set out in more detail in the text 
---------------------------------------------------------------------------
of the Final Order. According to the Final Order:

        [The] Respondent [Facebook] shall, no later than the date of 
        service of this order, establish and implement, and thereafter 
        maintain, a comprehensive privacy program that is reasonably 
        designed to (1) address privacy risks related to the 
        development and management of new and existing products and 
        services for consumers, and (2) protect the privacy and 
        confidentiality of covered information. Such program, the 
        content and implementation of which must be documented in 
        writing, shall contain controls and procedures appropriate to 
        Respondent's size and complexity, the nature and scope of 
        Respondent's activities, and the sensitivity of the covered 
        information, including:

    A.  the designation of an employee or employees to coordinate and 
            be responsible for the privacy program.

    B.  the identification of reasonably foreseeable, material risks, 
            both internal and external, that could result in 
            Respondent's unauthorized collection, use, or disclosure of 
            covered information and an assessment of the sufficiency of 
            any safeguards in place to control these risks. At a 
            minimum, this privacy risk assessment should include 
            consideration of risks in each area of relevant operation, 
            including, but not limited to: (1) employee training and 
            management, including training on the requirements of this 
            order, and (2) product design, development, and research.

    C.  the design and implementation of reasonable controls and 
            procedures to address the risks identified through the 
            privacy risk assessment, and regular testing or monitoring 
            of the effectiveness of those controls and procedures.

    D.  the development and use of reasonable steps to select and 
            retain service providers capable of appropriately 
            protecting the privacy of covered information they receive 
            from Respondent and requiring service providers, by 
            contract, to implement and maintain appropriate privacy 
            protections for such covered information.

    E.  the evaluation and adjustment of Respondent's privacy program 
            in light of the results of the testing and monitoring 
            required by subpart C, any material changes to Respondent's 
            operations or business arrangements, or any other 
            circumstances that Respondent knows or has reason to know 
            may have a material impact on the effectiveness of its 
            privacy program.\20\
---------------------------------------------------------------------------
    \20\ Facebook Consent Order.

---------------------------------------------------------------------------
    Moreover, the Final Order stated:

        Respondent shall obtain initial and biennial assessments and 
        reports (``Assessments'') from a qualified, objective, 
        independent third-party professional, who uses procedures and 
        standards generally accepted in the profession. A person 
        qualified to prepare such Assessments shall have a minimum of 
        three (3) years of experience in the field of privacy and data 
        protection. All persons selected to conduct such Assessments 
        and prepare such reports shall be approved by the Associate 
        Director for Enforcement, Bureau of Consumer Protection, 
        Federal Trade Commission, Washington, D.C. 20580, in his or her 
        sole discretion. Any decision not to approve a person selected 
        to conduct such Assessments shall be accompanied by a writing 
        setting forth in detail the reasons for denying such approval. 
        The reporting period for the Assessments shall cover: (1) the 
        first one hundred and eighty (180) days after service of the 
        order for the initial Assessment, and (2) each two (2) year 
        period thereafter for twenty (20) years after service of the 
        order for the biennial Assessments. Each Assessment shall:

    A.  set forth the specific privacy controls that Respondent has 
            implemented and maintained during the reporting period;

    B.  explain how such privacy controls are appropriate to 
            Respondent's size and complexity, the nature and scope of 
            Respondent's activities, and the sensitivity of the covered 
            information;

    C.  explain how the privacy controls that have been implemented 
            meet or exceed the protections required by Part IV of this 
            order; and

    D.  certify that the privacy controls are operating with sufficient 
            effectiveness to provide reasonable assurance to protect 
            the privacy of covered information and that the controls 
            have so operated throughout the reporting period.

        Each Assessment shall be prepared and completed within sixty 
        (60) days after the end of the reporting period to which the 
        Assessment applies. Respondent shall provide the initial 
        Assessment to the Associate Director for Enforcement, Bureau of 
        Consumer Protection, Federal Trade Commission, Washington, D.C. 
        20580, within ten (10) days after the Assessment has been 
        prepared. All subsequent biennial Assessments shall be retained 
        by Respondent until the order is terminated and provided to the 
        Associate Director of Enforcement within ten (10) days of 
        request.\21\
---------------------------------------------------------------------------
    \21\ Id. at 6-7.

    EPIC expressed support for the Consent Order but also believed it 
could be improved.\22\ In response to the FTC's request for public 
comments on the proposed order we wrote:
---------------------------------------------------------------------------
    \22\ Comments of EPIC, In the Matter of Facebook, Inc., FTC File 
No. 092 3184, (Dec. 27, 2011), https://epic.org/privacy/facebook/
Facebook-FTC-Settlement-Comments-FINAL.pdf.

        EPIC supports the findings in the FTC Complaint and supports, 
        in part, the directives contained in the Consent Order. The 
        Order makes clear that companies should not engage in unfair 
        and deceptive trade practices, particularly in the collection 
        and use of personal data. However, the proposed Order is 
        insufficient to address the concerns originally identified by 
        EPIC and the consumer coalition, as well as those findings 
        established by the Commission. Consistent with this earlier 
        determination, to protect the interests of Facebook users, and 
        in light of recent changes in the company's business practices, 
---------------------------------------------------------------------------
        EPIC urges the Commission to require Facebook to:

      <bullet>  Restore the privacy settings that users had in 2009, 
            before the unfair and deceptive practices addressed by the 
            Complaint began;

      <bullet>  Allow users to access all of the data that Facebook 
            keeps about them;

      <bullet>  Cease creating facial recognition profiles without 
            users' affirmative consent;

      <bullet>  Make Facebook's privacy audits publicly available to 
            the greatest extent possible;

      <bullet>  Cease secret post-log out tracking of users across 
            websites.

    At the time, the FTC settlement with Facebook was widely viewed as 
a major step forward for the protection of consumer privacy in the 
United States. The Chairman of the FTC stated, ``Facebook is obligated 
to keep the promises about privacy that it makes to its hundreds of 
millions of users. Facebook's innovation does not have to come at the 
expense of consumer privacy. The FTC action will ensure it will not.'' 
Mark Zuckerberg said at the time of the Consent Order that the company 
had made ``a bunch of mistakes.'' \23\ The FTC Chair called Mr. 
Zuckerberg's post a ``good sign'' and said, ``He admits mistakes. That 
can only be good for consumers.'' \24\
---------------------------------------------------------------------------
    \23\ Somini Sengupta, F.T.C. Settles Privacy Issue at Facebook, 
N.Y. Times, at B1 (Nov. 29, 2011), https://www.nytimes.com/2011/11/30/
technology/facebook-agrees-to-ftc-settlement-on-privacy.html. There was 
also a ``lengthy blog post'' from Mr. Zuckerberg in the N.Y. Times 
article but the link no longer goes to Mr. Zuckerberg's original post. 
Mr. Zuckerberg's post in 2009 that established the Bill of Rights and 
Responsibilities for the site has also disappeared. This is the 
original link: http://blog.facebook.com/blog.php?post=54746167130.
    \24\ Julianne Pepitone, Facebook settles FTC charges over 2009 
privacy breaches, CNN Money (Nov. 29, 2011), http://money.cnn.com/2011/
11/29/technology/facebook_settlement/index.htm.
---------------------------------------------------------------------------
    Commissioners and staff of the FTC later testified before Congress, 
citing the Facebook Consent Order as a major accomplishment for the 
Commission.\25\ And U.S. policymakers held out the FTC's work in 
discussions with trading partners for the proposition that the U.S. 
could provide privacy protections to those users of US-based services. 
For example, former FTC Chairwoman wrote this to Vera Jourova, 
Commissioner for Justice, Consumers and Gender Equality, European 
Commission:
---------------------------------------------------------------------------
    \25\ According to the statement of the FTC Commissioners who 
testified before the Senate Commerce Committee in 2012:

    Similar to the Google order, the Commission's consent order against 
Facebook prohibits the company from deceiving consumers with regard to 
privacy; requires it to obtain users' affirmative express consent 
before sharing their information in a way that exceeds their privacy 
settings; and requires it to implement a comprehensive privacy program 
and obtain outside audits. In addition, Facebook must ensure that it 
will stop providing access to a user's information after she deletes 
that information.

    The Need for Privacy Protections: Perspectives from the 
Administration and the Federal Trade Commission: Hearing Before the S. 
Comm on Commerce, Science and Transportation, at 18, 112th Cong. (May 
9, 2012) (statement of Fed. Trade Comm'n.), https://www.ftc.gov/sites/
default/files/documents/public_statements/prepared-statement-federal-
trade-commission-need-privacy-protections-perspectives-administration-
and/120509privacyprotections.pdf; see also, The Need for Privacy 
Protections: Perspectives from the Administration and the Federal Trade 
Commission, Hearing before the S. Comm. on Commerce, Science, and 
Transportation, 112th Cong. (May 19, 2012) (statement of Maureen K. 
Ohlhausen, Commissioner, Fed. Trade Comm'n) (``We have also charged 
companies with failing to live up to their privacy promises, as in the 
highly publicized privacy cases against companies such as Google and 
Facebook, which together will protect the privacy of more than one 
billion users worldwide. As a Commissioner, I will urge continuation of 
this strong enforcement record.''), https://www.ftc.gov/sites/default/
files/documents/public_statements/statement-commissioner-maureen-
k.ohlhausen/120509privacytestimony
.pdf.

        As part of its privacy and security enforcement program, the 
        FTC has also sought to protect EU consumers by bringing 
        enforcement actions that involved Safe Harbor violations. . . . 
        Twenty-year consent orders require Google, Facebook, and 
        Myspace to implement comprehensive privacy programs that must 
        be reasonably designed to address privacy risks related to the 
        development and management of new and existing products and 
        services and to protect the privacy and confidentiality of 
        personal information. The comprehensive privacy programs 
        mandated under these orders must identify foreseeable material 
        risks and have controls to address those risks. The companies 
        must also submit to ongoing, independent assessments of their 
        privacy programs, which must be provided to the FTC. The orders 
        also prohibit these companies from misrepresenting their 
        privacy practices and their participation in any privacy or 
        security program. This prohibition would also apply to 
        companies' acts and practices under the new Privacy Shield 
        Framework. . . . Consequently, these FTC orders help protect 
        over a billion consumers worldwide, hundreds of millions of 
        whom reside in Europe.\26\
---------------------------------------------------------------------------
    \26\ Letter from FTC Chairwoman Edith Ramirez to Vera Jourova, 
Commissioner for Justice, Consumers and Gender Equality, European 
Commission, at 4-5 (Jul. 7, 2016), https://www.privacyshield.gov/
servlet/servlet.FileDownload?file=015t00000004q0v

    Yet the Federal Trade Commission never charged Facebook with a 
single violation of the 2011 Consent Order.
The Google Consent Order and the FTC's Subsequent Failure to Enforce 
        Consent Orders
    In 2011, we also had also obtained a significant consent order at 
the FTC against Google after the disastrous roll-out of Google 
``Buzz.'' In that case, the FTC established a consent order after 
Google tried to enroll Gmail users into a social networking service 
without meaningful consent. The outcome was disastrous. Personal 
contact information was made publicly available by Google as part of 
its effort to establish a social network service to compete with 
Facebook. EPIC filed a detailed complaint with the Commission in 
February that produced a consent order in 2011, comparable to the order 
for Facebook.\27\
---------------------------------------------------------------------------
    \27\ In the Matter of Google, Inc., EPIC Complaint, Request for 
Investigation, Injunction, and Other Relief, before the Federal Trade 
Commission, Washington, D.C. (filed Feb. 16, 2010), https://epic.org/
privacy/ftc/googlebuzz/GoogleBuzz_Complaint.pdf; Fed. Trade Comm'n., 
FTC Charges Deceptive Privacy Practices in Googles Rollout of Its Buzz 
Social Network: Google Agrees to Implement Comprehensive Privacy 
Program to Protect Consumer Data, Press Release, (Mar. 30, 2011), 
https://www.ftc.gov/news-events/press-releases/2011/03/ftc-charges-
deceptive-privacy-practices-googles-rollout-its-buzz.
---------------------------------------------------------------------------
    But a problem we did not anticipate became apparent almost 
immediately: the Federal Trade Commission was unwilling to enforce its 
own consent orders. Almost immediately after the settlements, both 
Facebook and Google began to test the FTC's willingness to stand behind 
its judgements. Dramatic changes in the two companies' advertising 
models led to more invasive tracking of Internet users. Online and 
offline activities were increasingly becoming merged.
    To EPIC and many others, these changes violated the terms of the 
consent orders. We urged the FTC to establish a process to review these 
changes and publish its findings so that the public could at least 
evaluate whether the companies were complying with the original orders. 
But the Commission remained silent, even as it claimed that its model 
was working well for these companies.
    In 2012, EPIC sued the Commission when it became clear that Google 
was proposing to do precisely what the FTC said it could not--
consolidate user data across various services that came with diverse 
privacy policies in order to build detailed individual profiles. The 
problem was widely understood. Many members of Congress in both 
parties, state attorneys general, and Jon Leibowitz, the head of the 
FTC itself, warned about the possible outcome. Even the federal court, 
which ruled that it could not require the agency to enforce its order, 
was sympathetic. ``EPIC--along with many other individuals and 
organizations--has advanced serious concerns that may well be 
legitimate, and the FTC, which has advised the Court that the matter is 
under review, may ultimately decide to institute an enforcement 
action,'' wrote the judge.\28\
---------------------------------------------------------------------------
    \28\ EPIC v. FTC, 844 F. Supp. 2d 98 (D.D.C. 2012), https://
epic.org/privacy/ftc/google/EPICvFTC-CtMemo.pdf.
---------------------------------------------------------------------------
    But that enforcement action never came. Even afterward, EPIC and 
other consumer privacy organizations have continued to urge the Federal 
Trade Commission to enforce its consent orders. In our most recent 
comments to the Federal Trade Commissioner, we said simply ``The FTC 
Must Enforce Existing Consent Orders.'' We wrote:

        The effectiveness of FTC enforcement is determined by the 
        agency's willingness to enforce the legal judgments it obtains. 
        The FTC should review substantial changes in business practices 
        for companies under consent orders that implicate the privacy 
        interests of consumers. Multiple prominent Internet firms have 
        been permitted to alter business practices, without 
        consequence, despite being subject to 20-year consent orders 
        with the FTC. This has harmed consumers and promoted industry 
        disregard for the FTC.\29\
---------------------------------------------------------------------------
    \29\ EPIC Statement to FTC (Feb. 2017), https://epic.org/privacy/
internet/ftc/EPIC-et-al-ltr-FTC-02-15-2017.pdf.

    The Senate Commerce Committee should be specifically concerned 
about the FTC's ongoing failure to enforce its consent orders. This 
agency practice poses an ongoing risk to both American consumers and 
American businesses.
Cambridge Analytica Breach
    On March 16, 2018, Facebook admitted the unlawful transfer of 50 
million user profiles to the data mining firm Cambridge Analytica, 
which harvested the data obtained without consent to influence the 2016 
U.S. presidential election.\30\ Relying on the data provided by 
Facebook, Cambridge Analytica was able to collect the private 
information of approximately 270,000 users and their extensive friend 
networks under false pretenses as a research-driven application.\31\ 
Last week, Facebook announced that the number of users who had their 
data unlawfully harvested was actually closer to 87 million.\32\
---------------------------------------------------------------------------
    \30\ Press Release, Facebook, Suspending Cambridge Analytica and 
SCL Group from Facebook (Mar. 16, 2018), https://newsroom.fb.com/news/
2018/03/suspending-cambridge-analytica/.
    \31\ Id.
    \32\ Cecilia Kang and Sheera Frenkel, Facebook Says Cambridge 
Analytica Harvested Data of Up to 87 Million Users, N.Y. Times, (Apr. 
4, 2018), https://www.nytimes.com/2018/04/04/technology/mark-
---------------------------------------------------------------------------
    This is in clear violation of the 2011 Consent Order, which states 
that Facebook ``shall not misrepresent in any manner, expressly or by 
implication . . . the extent to which [Facebook] makes or has made 
covered information accessible to third parties; and the steps 
[Facebook] takes or has taken to verify the privacy or security 
protections that any third party provides.'' \33\ Part II of the 
proposed order required Facebook to ``give its users a clear and 
prominent notice and obtain their affirmative express consent before 
sharing their previously-collected information with third parties in 
any way that materially exceeds the restrictions imposed by their 
privacy settings.'' \34\ Part IV ``requires Facebook to establish and 
maintain a comprehensive privacy program that is reasonably designed 
to: (1) Address privacy risks related to the development and management 
of new and existing products and services, and (2) protect the privacy 
and confidentiality of covered information. The privacy program must be 
documented in writing and must contain controls and procedures 
appropriate to Facebook's size and complexity, the nature and scope of 
its activities, and the sensitivity of covered information.'' \35\
---------------------------------------------------------------------------
    \33\ Federal Trade Commission, Facebook, Inc.; Analysis of Proposed 
Consent Order To Aid Public Comment, 76 Fed. Reg. 75883 (Dec. 5, 2011), 
https://www.ftc.gov/sites/default/files/documents/
federal_register_notices/facebook-inc.analysis-proposed-consent-order-
aid-public-comment-proposed-consent-agreement/111205facebookfrn.pdf.
    \34\ Id. (emphasis added).
    \35\ Id. (emphasis added).
---------------------------------------------------------------------------
Response of EPIC and Consumer Privacy Organizations, Compliance with 
        GDPR
    After the news broke of the Cambridge Analytica breach, EPIC and a 
consumer coalition urged the FTC to reopen the Facebook 
investigation.\36\ We stated, ``Facebook's admission that it disclosed 
data to third parties without users' consent suggests a clear violation 
of the 2011 Facebook Order.'' We further said:
---------------------------------------------------------------------------
    \36\ Letter to Acting Chairman Maureen Ohlhausen and Commissioner 
Terrell McSweeney from leading consumer privacy organizations in the 
United States (Mar. 20, 2018), https://epic.org/privacy/facebook/EPIC-
et-al-ltr-FTC-Cambridge-FB-03-20-18.pdf. See ``EPIC, Consumer Groups 
Urge FTC To Investigate Facebook'' (Mar. 20, 2018), https://epic.org/
2018/03/epic-consumer-groups-urge-ftc-.html.

        The FTC has an obligation to the American public to ensure that 
        companies comply with existing Consent Orders. It is 
        unconscionable that the FTC allowed this unprecedented 
        disclosure of Americans' personal data to occur. The FTC's 
---------------------------------------------------------------------------
        failure to act imperils not only privacy but democracy as well.

    On March 26, 2018, less than two weeks ago, the FTC announced it 
would reopen the investigation.\37\ The Statement by the Acting 
Director of FTC's Bureau of Consumer Protection Regarding Reported 
Concerns about Facebook Privacy Practice, issued on March 26, 2018, was 
as follows:
---------------------------------------------------------------------------
    \37\ Fed. Trade Comm'n., Statement by the Acting Director of FTC's 
Bureau of Consumer Protection Regarding Reported Concerns about 
Facebook Privacy Practices (March 26, 2018), https://www.ftc.gov/news-
events/press-releases/2018/03/statement-acting-director-ftcs-bureau-
consumer-protection. See EPIC, ``FTC Confirms Investigation into 
Facebook about 2011 Consent Order'' (Mar. 26, 2018), https://epic.org/
2018/03/ftc-confirms-investigation-int.html.

        The FTC is firmly and fully committed to using all of its tools 
        to protect the privacy of consumers. Foremost among these tools 
        is enforcement action against companies that fail to honor 
        their privacy promises, including to comply with Privacy 
        Shield, or that engage in unfair acts that cause substantial 
        injury to consumers in violation of the FTC Act. Companies who 
        have settled previous FTC actions must also comply with FTC 
        order provisions imposing privacy and data security 
        requirements. Accordingly, the FTC takes very seriously recent 
        press reports raising substantial concerns about the privacy 
        practices of Facebook. Today, the FTC is confirming that it has 
---------------------------------------------------------------------------
        an open non-public investigation into these practices.

    Congress should monitor this matter closely. This may be one of the 
most consequential investigations currently underway in the Federal 
Government.
    But others are not waiting for the resolution. State Attorneys 
General have also made clear their concerns about the Facebook 
matter.\38\
---------------------------------------------------------------------------
    \38\ EPIC, ``State AGs Launch Facebook Investigation,'' (Mar. 26, 
2018), https://epic.org/2018/03/state-ags-launch-facebook-inve.html.
---------------------------------------------------------------------------
    Also today, a broad coalition of consumer organizations in the 
United States and Europe, represented by the TransAtlantic Consumer 
Dialogue (``TACD''), will urge Mr. Zuckerberg to make clear his 
commitment to compliance with the General Data Protection Regulation. 
The TACD wrote:

        The GDPR helps ensure that companies such as yours operate in 
        an accountable and transparent manner, subject to the rule of 
        law and the democratic process. The GDPR provides a solid 
        foundation for data protection, establishing clear 
        responsibilities for companies that collect personal data and 
        clear rights for users whose data is gathered. These are 
        protections that all users should be entitled to no matter 
        where they are located.\39\
---------------------------------------------------------------------------
    \39\ Letter from TACD to Marck Zuckerberg, CEO, Facebook, Inc., 
Apr. 9, 2018, http://tacd.org/wp-content/uploads/2018/04/TACD-letter-
to-Mark-Zuckerberg_final.pdf.

    EPIC supports the recommendation of TACD concerning the GDPR. There 
is little reason that a U.S. firm should provide better privacy 
protection to individuals outside the United States than it does to 
those inside our country.
Oversight of the Federal Trade Commission and Facebook Compliance with 
        the 2011 Consent Order
    Several former FTC commissioners and former FTC staff members have 
recently suggested that the FTC needs more authority to protect 
American consumers. At least with regard to enforcement of its current 
legal authority, we strongly disagree. The FTC could have done far more 
than it did.
    On March 20, 2018, EPIC submitted a request to the FTC under the 
Freedom of Information Act for the 2013, 2015, and 2017 Facebook 
Assessments, as well as all records concerning the person(s) approved 
by the FTC to undertake the Facebook Assessments; and all records of 
communications between the FTC and Facebook regarding the Facebook 
Assessments. In 2013, EPIC received redacted version of Facebook's 
initial compliance report and first independent assessment after a 
similar FOIA request.\40\
---------------------------------------------------------------------------
    \40\ Facebook Initial Compliance Report (submitted to FTC on Nov. 
13, 2012), http://epic.org/foia/FTC/facebook/EPIC-13-04-26-FTC-FOIA-
20130612-Production-1.pdf; Facebook Initial Independent Assessment 
(submitted to FTC on Apr. 22, 2013), http://epic.org/foia/FTC/facebook/
EPIC-14-04-26-FTC-FOIA-20130612-Production-2.pdf.
---------------------------------------------------------------------------
    Under the Final Consent Order, Facebook's initial assessment was 
due to the FTC on April 13, 2013, and the subsequent reporting 
deadlines were in 2015 and 2017. Cambridge Analytica engaged in the 
illicit collection of Facebook user data from 2014 to 2016, encompassed 
by the requested reporting period of the assessments.
    We will keep both Committees informed of the progress of EPIC's 
FOIA request for the FTC reports on Facebook compliance. We also urge 
both Committees to pursue the public release of these documents. They 
will provide for you a fuller pictures of the FTC's lack of response to 
the looming privacy crisis in America.
Recommendations
    There is a lot of work ahead to safeguard the personal data of 
Americans. Here are a few preliminary recommendations:

  <bullet> Improve oversight of the Federal Trade Commission. The FTC 
        has failed to protect the privacy interests of American 
        consumer and the Commission's inaction contributed directly to 
        the Cambridge Analytica breach, and possibly the Brexit vote 
        and the outcome of the 2016 Presidential election. Oversight of 
        the Commission's failure to enforce the 2011 consent order is 
        critical, particularly for the Senate Commerce Committee which 
        also bears some responsibility for this outcome.

  <bullet> Update U.S. privacy laws. It goes without saying (though 
        obviously it still needs to be said) that U.S. privacy law is 
        out of date. There has always been a gap between changes in 
        technology and business practices and the development of new 
        privacy protections. But the gap today in the United States is 
        the greatest at any time since the emergence of modern privacy 
        law in the 1960s. The current approach is also unnecessarily 
        inefficient, complex, and ineffective. And many of the current 
        proposals, e.g., better privacy notices, would do little to 
        protect privacy or address the problems arising from Cambridge 
        Analytica debacle.

  <bullet> Establish a Federal privacy agency in the United States. The 
        U.S. is one of the few developed countries in the world without 
        a data protection agency. The practical consequence is that the 
        U.S consumers experience the highest levels of data breach, 
        financial fraud, and identity theft in the world. And U.S. 
        businesses, with their vast collections of personal data, 
        remain the target of cyber attack by criminals and foreign 
        adversaries. The longer the U.S. continues on this course, the 
        greater will be the threats to consumer privacy, democratic 
        institutions, and national security.
Conclusion
    The transfer of 87 million user records to Cambridge Analytica 
could have been avoided if the FTC had done its job. The 2011 Consent 
Order against Facebook was issued to protect the privacy of user data. 
If it had been enforced, there would be no need for the hearing this 
week.
    After the hearing with Mr. Zuckerberg this week, the Committees 
should ask current and former FTC Commissioners and key staff, ``why 
didn't you enforce the 2011 Consent Order against Facebook and prevent 
this mess?'' \41\
---------------------------------------------------------------------------
    \41\ See Marc Rotenberg, How the FTC Could Have Prevented the 
Facebook Mess, Techonomy (Mar. 22, 2018), https://techonomy.com/2018/
03/how-the-ftc-could-have-avoided-the-facebook-mess/.
---------------------------------------------------------------------------
    We ask that this letter be submitted into the hearing record. EPIC 
looks forward to working with the Committee.
            Sincerely,

/s/ Marc Rotenberg
Marc Rotenberg
EPIC President

/s/ Caitriona Fitzgerald
Caitriona Fitzgerald
EPIC Policy Director

/s/ Enid Zhou
Enid Zhou
EPIC Open Government Fellow

/s/ Sunny Kang
Sunny Kang
EPIC International Consumer Counsel

/s/ Sam Lester
Sam Lester
EPIC Consumer Privacy Counsel

  
  
  
Attachment
    EPIC, et al. In the Matter of Facebook, Inc: Complaint, Request for 
Investigation, Injunction, and Other Relief, Before the Federal Trade 
Commission, Washington, DC (Dec. 17, 2009) (29 pages, 119 numbered 
paragraphs) (signatories include The Electronic Privacy Information 
Center, The American Library Association, The Center for Digital 
Democracy, The Consumer Federation of America, Patient Privacy Rights, 
Privacy Activism, Privacy Rights Now Coalition, The Privacy Rights 
Clearinghouse, The U.S. Bill of Rights Foundation).
                               Before the
                        Federal Trade Commission
                             Washington, DC


In the Matter of                     )
                                     )
Facebook, Inc.                       )
                                     )
                                     )
 

   Complaint, Request for Investigation, Injunction, and Other Relief
I. Introduction
    1. This complaint concerns material changes to privacy settings 
made by Facebook, the largest social network service in the United 
States, which adversely impact users of the Facebook service. 
Facebook's changes to users' privacy settings disclose personal 
information to the public that was previously restricted. Facebook's 
changes to users' privacy settings also disclose personal information 
to third parties that was previously not available. These changes 
violate user expectations, diminish user privacy, and contradict 
Facebook's own representations. These business practices are Unfair and 
Deceptive Trade Practices, subject to review by the Federal Trade 
Commission (the ``Commission'') under section 5 of the Federal Trade 
Commission Act.
    2. These business practices impact more than 100 million users of 
the social networking site who fall within the jurisdiction of the 
United States Federal Trade Commission.\1\
---------------------------------------------------------------------------
    \1\ Facebook, Statistics, http://www.facebook.com/press/
info.php?statistics (last visited Dec. 14, 2009); see also Eric Eldon, 
Facebook Reaches 100 Million Monthly Active Users in the United States, 
InsideFacebook.com, Dec. 7, 2009, http://www.insidefacebook.com/2009/
12/07/facebook-reaches-100-million-monthly-active-users-in-the-united-
states (last visited Dec. 15, 2009).
---------------------------------------------------------------------------
    3. EPIC urges the Commission to investigate Facebook, determine the 
extent of the harm to consumer privacy and safety, require Facebook to 
restore privacy settings that were previously available as detailed 
below, require Facebook to give users meaningful control over personal 
information, and seek appropriate injunctive and compensatory relief.
II. Parties
    4. The Electronic Privacy Information Center (``EPIC'') is a not-
for-profit research center based in Washington, D.C. EPIC focuses on 
emerging privacy and civil liberties issues and is a leading consumer 
advocate before the Federal Trade Commission. Among its other 
activities, EPIC first brought the Commission's attention to the 
privacy risks of online advertising.\2\ In 2004, EPIC filed a complaint 
with the FTC regarding the deceptive practices of data broker firm 
Choicepoint, calling the Commission's attention to ``data products 
circumvent[ing] the FCRA, giving businesses, private investigators, and 
law enforcement access to data that previously had been subjected to 
Fair Information Practices.'' \3\ As a result of the EPIC complaint, 
the FTC fined Choicepoint $15 million.\4\ EPIC initiated the complaint 
to the FTC regarding Microsoft Passport.\5\ The Commission subsequently 
required Microsoft to implement a comprehensive information security 
program for Passport and similar services.\6\ EPIC also filed a 
complaint with the FTC regarding the marketing of amateur spyware,\7\ 
which resulted in the issuance of a permanent injunction barring sales 
of CyberSpy's ``stalker spyware,'' over-the-counter surveillance 
technology sold for individuals to spy on other individuals.\8\
---------------------------------------------------------------------------
    \2\ In the Matter of DoubleClick, Complaint and Request for 
Injunction, Request for Investigation and for Other Relief, before the 
Federal Trade Commission (Feb. 10, 2000), available at http://epic.org/
privacy/internet/ftc/DCLK_complaint.pdf.
    \3\ In the Matter of Choicepoint, Request for Investigation and for 
Other Relief, before the Federal Trade Commission (Dec. 16, 2004), 
available at http://epic.org/privacy/choicepoint/fcraltr12.16.04.html.
    \4\ Federal Trade Commission, ChoicePoint Settles Data Security 
Breach Charges; to Pay $10 Million in Civil Penalties, $5 Million for 
Consumer Redress, http://www.ftc.gov/opa/2006/01/choicepoint.shtm (last 
visited Dec. 13, 2009).
    \5\ In the Matter of Microsoft Corporation, Complaint and Request 
for Injunction, Request for Investigation and for Other Relief, before 
the Federal Trade Commission (July 26, 2001), available at http://
epic.org/privacy/consumer/MS_complaint.pdf.
    \6\ In the Matter of Microsoft Corporation, File No. 012 3240, 
Docket No. C-4069 (Aug. 2002), available at http://www.ftc.gov/os/
caselist/0123240/0123240.shtm. See also Fed. Trade Comm'n, ``Microsoft 
Settles FTC Charges Alleging False Security and Privacy Promises'' 
(Aug. 2002) (``The proposed consent order prohibits any 
misrepresentation of information practices in connection with Passport 
and other similar services. It also requires Microsoft to implement and 
maintain a comprehensive information security program. In addition, 
Microsoft must have its security program certified as meeting or 
exceeding the standards in the consent order by an independent 
professional every two years.''), available at http://www.ftc.gov/opa/
2002/08/microst.shtm.
    \7\ In the Matter of Awarenesstech.com, et al., Complaint and 
Request for Injunction, Request for Investigation and for Other relief, 
before the Federal Trade Commission, available at http://epic.org/
privacy/dv/spy_software.pdf.
    \8\ FTC v. Cyberspy Software, No. 6:08-cv-1872 (D. Fla. Nov. 6, 
2008) (unpublished order), available at http://ftc.gov/os/caselist/
0823160/081106cyberspytro.pdf.
---------------------------------------------------------------------------
    5. Earlier this year, EPIC urged the FTC to undertake an 
investigation of Google and cloud computing.\9\ The FTC agreed to 
review the complaint, stating that it ``raises a number of concerns 
about the privacy and security of information collected from consumers 
online.'' \10\ More recently, EPIC asked the FTC to investigate the 
``parental control'' software firm Echometrix.\11\ Thus far, the FTC 
has failed to announce any action in this matter, but once the 
Department of Defense became aware of the privacy and security risks to 
military families, it removed Echometrix's software from the Army and 
Air Force Exchange Service, the online shopping portal for military 
families.\12\
---------------------------------------------------------------------------
    \9\ In the Matter of Google, Inc., and Cloud Computing Services, 
Request for Investigation and for Other Relief, before the Federal 
Trade Commission (Mar. 17, 2009), available at http://epic.org/privacy/
cloudcomputing/google/ftc031709.pdf.
    \10\ Letter from Eileen Harrington, Acting Director of the FTC 
Bureau of Consumer Protection, to EPIC (Mar. 18, 2009), available at 
http://epic.org/privacy/cloudcomputing/google/031809_ftc_ltr.pdf.
    \11\ In the Matter of Echometrix, Inc., Request for Investigation 
and for Other Relief, before the Federal Trade Commission (Sep. 25, 
2009), available at http://epic.org/privacy/ftc/
Echometrix%20FTC%20Complaint%20final.pdf.
    \12\ EPIC, Excerpts from Echometrix Documents, http://epic.org/
privacy/echometrix/Excerpts_from_echometrix_docs_12-1-09.pdf (last 
visited Dec. 13, 2009).
---------------------------------------------------------------------------
    6. The American Library Association is the oldest and largest 
library association in the world, with more than 64,000 members. Its 
mission is ``to provide leadership for the development, promotion, and 
improvement of library and information services and the profession of 
librarianship in order to enhance learning and ensure access to 
information for all.''
    7. The Center for Digital Democracy (``CDD'') is one of the leading 
non-profit groups analyzing and addressing the impact of digital 
marketing on privacy and consumer welfare. Based in Washington, D.C., 
CDD has played a key role promoting policy safeguards for interactive 
marketing and data collection, including at the FTC and Congress.
    8. Consumer Federation of America (``CFA'') is an association of 
some 300 nonprofit consumer organizations across the U.S. CFA was 
created in 1968 to advance the consumer interest through research, 
advocacy, and education.
    9. Patient Privacy Rights is a non-profit organization located in 
Austin, Texas. Founded in 2004 by Dr. Deborah Peel, Patient Privacy 
Rights is dedicated to ensuring Americans control all access to their 
health records.
    10. Privacy Activism is a nonprofit organization whose goal is to 
enable people to make well-informed decisions about the importance of 
privacy on both a personal and societal level. A key goal of the 
organization is to inform the public about the importance of privacy 
rights and the short-and long-term consequences of losing them, either 
inadvertently, or by explicitly trading them away for perceived or ill-
understood notions of security and convenience.
    11. The Privacy Rights Clearinghouse (``PRC'') is a nonprofit 
consumer organization with a two-part mission--consumer information and 
consumer advocacy. It was established in 1992 and is based in San 
Diego, CA. Among its several goals, PRC works to raise consumers' 
awareness of how technology affects personal privacy and to empower 
consumers to take action to control their own personal information by 
providing practical tips on privacy protection.
    12. The U.S. Bill of Rights Foundation is a non-partisan public 
interest law policy development and advocacy organization seeking 
remedies at law and public policy improvements on targeted issues that 
contravene the Bill of Rights and related Constitutional law. The 
Foundation implements strategies to combat violations of individual 
rights and civil liberties through Congressional and legal liaisons, 
coalition building, message development, project planning & 
preparation, tactical integration with supporting entities, and the 
filings of complaints and of amicus curiae briefs in litigated matters.
    13. Facebook Inc. was founded in 2004 and is based in Palo Alto, 
California. Facebook's headquarters are located at 156 University 
Avenue, Suite 300, Palo Alto, CA 94301. At all times material to this 
complaint, Facebook's course of business, including the acts and 
practices alleged herein, has been and is in or affecting commerce, as 
``commerce'' is defined in Section 4 of the Federal Trade Commission 
Act, 15 U.S.C. Sec. 45.
III. The Importance of Privacy Protection
    14. The right of privacy is a personal and fundamental right in the 
United States.\13\ The privacy of an individual is directly implicated 
by the collection, use, and dissemination of personal information. The 
opportunities to secure employment, insurance, and credit, to obtain 
medical services and the rights of due process may be jeopardized by 
the misuse of personal information.\14\
---------------------------------------------------------------------------
    \13\ See Department of Justice v. Reporters Committee for Freedom 
of the Press, 489 U.S. 749, 763 (1989) (``both the common law and the 
literal understandings of privacy encompass the individual's control of 
information concerning his or her person''); Whalen v. Roe, 429 U.S. 
589, 605 (1977); United States v. Katz, 389 U.S. 347 (1967); Olmstead 
v. United States, 277 U.S. 438, 478 (1928) (Brandeis, J., dissenting).
    \14\ Fed. Trade Comm'n, Consumer Sentinel Network Data Book 11 
(2009) (charts describing how identity theft victims' information have 
been misused).
---------------------------------------------------------------------------
    15. The excessive collection of personal data in the United States 
coupled with inadequate legal and technological protections have led to 
a dramatic increase in the crime of identity theft.\15\
---------------------------------------------------------------------------
    \15\ Id. at 5 (from 2000-2009, the number of identity theft 
complaints received increased from 31,140 to 313,982); see U.S. Gen. 
Accounting Office, Identity Theft: Governments Have Acted to Protect 
Personally Identifiable Information, but Vulnerabilities Remain 8 
(2009); Fed. Trade Comm'n, Security in Numbers: SSNs and ID Theft 2 
(2008).
---------------------------------------------------------------------------
    16. The Federal Government has established policies for privacy and 
data collection on Federal websites that acknowledge particular privacy 
concerns ``when uses of web technology can track the activities of 
users over time and across different websites'' and has discouraged the 
use of such techniques by Federal agencies.\16\
---------------------------------------------------------------------------
    \16\ Office of Management and Budget, Memorandum for the Heads of 
Executive Departments and Agencies (2000), available at http://
www.whitehouse.gov/omb/memoranda_m00-13 (last visited Dec. 17, 2009).
---------------------------------------------------------------------------
    17. As the Supreme Court has made clear, and the Court of Appeals 
for the District of Columbia Circuit has recently held, ``both the 
common law and the literal understanding of privacy encompass the 
individual's control of information concerning his or her person.'' 
\17\
---------------------------------------------------------------------------
    \17\  U.S. Dep't of Justice v. Reporters Comm. for Freedom of the 
Press, 489 U.S. 749, 763 (1989), cited in Nat'l Cable & Tele. Assn. v. 
Fed. Commc'ns. Comm'n, No. 07-1312 (D.C. Cir. Feb. 13, 2009).
---------------------------------------------------------------------------
    18. The Organization for Economic Co-operation and Development 
(``OECD'') Guidelines on the Protection of Privacy and Transborder 
Flows of Personal Data recognize that ``the right of individuals to 
access and challenge personal data is generally regarded as perhaps the 
most important privacy protection safeguard.''
    19. The appropriation tort recognizes the right of each person to 
protect the commercial value of that person's name and likeness. The 
tort is recognized in virtually every state in the United States.
    20. The Madrid Privacy Declaration of November 2009 affirms that 
privacy is a basic human right, notes that ``corporations are acquiring 
vast amounts of personal data without independent oversight,'' and 
highlights the critical role played by ``Fair Information Practices 
that place obligations on those who collect and process personal 
information and gives rights to those whose personal information is 
collected.'' \18\
---------------------------------------------------------------------------
    \18\ The Madrid Privacy Declaration: Global Privacy Standards for a 
Global World, Nov. 3, 2009, available at http://thepublicvoice.org/
madrid-declaration/.
---------------------------------------------------------------------------
    21. The Federal Trade Commission is ``empowered and directed'' to 
investigate and prosecute violations of Section 5 of the Federal Trade 
Commission Act where the privacy interests of Internet users are at 
issue.\19\
---------------------------------------------------------------------------
    \19\ 15 U.S.C. Sec. 45 (2006).
---------------------------------------------------------------------------
IV. Factual Background
Facebook's Size and Reach Is Unparalleled Among Social Networking Sites
    22. Facebook is the largest social network service provider in the 
United States. According to Facebook, there are more than 350 million 
active users, with more than 100 million in the United States. More 
than 35 million users update their statuses at least once each day.\20\
---------------------------------------------------------------------------
    \20\ Facebook, Statistics, http://www.facebook.com/press/
info.php?statistics (last visited Dec. 14, 2009).
---------------------------------------------------------------------------
    23. More than 2.5 billion photos are uploaded to the site each 
month.\21\ Facebook is the largest photo-sharing site on the internet, 
by a wide margin.\22\
---------------------------------------------------------------------------
    \21\ Id.
    \22\ Erick Schonfeld, Facebook Photos Pulls Away From the Pack, 
TechCrunch (Feb. 22, 2009), http://www.techcrunch.com/2009/02/22/
facebook-photos-pulls-away-from-the-pack/.
---------------------------------------------------------------------------
    24. As of August 2009, Facebook is the fourth most-visited website 
in the world, and the sixth most-visited website in the United 
States.\23\
---------------------------------------------------------------------------
    \23\ Erick Schonfeld, Facebook is Now the Fourth Largest Site in 
the World, TechCrunch (Aug. 4, 2009), http://www.techcrunch.com/2009/
08/04/facebook-is-now-the-fourth-largest-site-in-the-world/.
---------------------------------------------------------------------------
Facebook Has Previously Changed Its Service in Ways that Harm Users' 
        Privacy
    25. In September 2006, Facebook disclosed users' personal 
information, including details relating to their marital and dating 
status, without their knowledge or consent through its ``News Feed'' 
program.\24\ Hundreds of thousands of users objected to Facebook's 
actions.\25\ In response, Facebook stated:
---------------------------------------------------------------------------
    \24\ See generally EPIC, Facebook Privacy, http://epic.org/privacy/
facebook/ (last visited Dec. 15, 2009).
    \25\ Justin Smith, Scared students protest Facebook's social 
dashboard, grappling with rules of attention economy, Inside Facebook 
(Sept. 6, 2006), http://www.insidefacebook.com/2006/09/06/scared-
students-protest-facebooks-social-dashboard-grappling-with-rules-of-
attention-economy/.

        We really messed this one up. When we launched News Feed and 
        Mini-Feed we were trying to provide you with a stream of 
        information about your social world. Instead, we did a bad job 
        of explaining what the new features were and an even worse job 
        of giving you control of them.\26\
---------------------------------------------------------------------------
    \26\ Mark Zuckerberg, An Open Letter from Mark Zuckerberg (Sept. 8, 
2006), http://blog.facebook.com/blog.php?post=2208562130.

    26. In 2007, Facebook disclosed users' personal information, 
including their online purchases and video rentals, without their 
knowledge or consent through its ``Beacon'' program.\27\
---------------------------------------------------------------------------
    \27\ See generally EPIC, Facebook Privacy, http://epic.org/privacy/
facebook/ (last visited Dec. 15, 2009).
---------------------------------------------------------------------------
    27. Facebook is a defendant in multiple Federal lawsuits \28\ 
arising from the ``Beacon'' program.\29\ In the lawsuits, users allege 
violations of Federal and state law, including the Video Privacy 
Protection Act, the Electronic Communications Privacy Act, the Computer 
Fraud and Abuse Act, and California's Computer Crime Law.\30\
---------------------------------------------------------------------------
    \28\ In Lane v. Facebook, Inc., No. 5:08-CV-03845 (N.D. Cal. filed 
Aug. 12, 2008), Facebook has requested court approval of a class action 
settlement that would terminate users' claims, but provide no monetary 
compensation to users. The court has not ruled on the matter.
    \29\ See e.g., Harris v. Facebook, Inc., No. 09-01912 (N.D. Tex. 
filed Oct. 9, 2009); Lane v. Facebook, Inc., No. 5:08-CV-03845 (N.D. 
Cal. filed Aug. 12, 2008); see also Harris v. Blockbuster, No. 09-217 
(N.D. Tex. filed Feb. 3, 2009), appeal docketed, No. 09-10420 (5th Cir. 
Apr. 29, 2009).
    \30\ Id.
---------------------------------------------------------------------------
    28. On May 30, 2008, the Canadian Internet Policy and Public 
Interest Clinic filed a complaint with Privacy Commissioner of Canada 
concerning the ``unnecessary and non-consensual collection and use of 
personal information by Facebook.'' \31\
---------------------------------------------------------------------------
    \31\ Letter from Philippa Lawson, Director, Canadian Internet 
Policy and Public Interest Clinic to Jennifer Stoddart, Privacy 
Commissioner of Canada (May 30, 2008), available at http://
www.cippic.ca/uploads/CIPPICFacebookComplaint_29May08.pdf.
---------------------------------------------------------------------------
    29. On July 16, 2009, the Privacy Commissioner's Office found 
Facebook ``in contravention'' of Canada's Personal Information 
Protection and Electronic Documents Act.\32\
---------------------------------------------------------------------------
    \32\ Elizabeth Denham, Assistant Privacy Commissioner of Canada, 
Report of Findings into the Complaint Filed by the Canadian Internet 
Policy and Public Interest Clinic (CIPPIC) against Facebook Inc. Under 
the Personal Information Protection and Electronic Documents Act, July 
16, 2009, available at http://priv.gc.ca/cf-dc/2009/
2009_008_0716_e.pdf.
---------------------------------------------------------------------------
    30. The Privacy Commissioner's Office found:

        Facebook did not have adequate safeguards in place to prevent 
        unauthorized access by application developers to users' 
        personal information, and furthermore was not doing enough to 
        ensure that meaningful consent was obtained from individuals 
        for the disclosure of their personal information to application 
        developers.\33\
---------------------------------------------------------------------------
    \33\ Id. at 3.

    31. On February 4, 2009, Facebook revised its Terms of Service, 
asserting broad, permanent, and retroactive rights to users' personal 
information--even after they deleted their accounts.\34\ Facebook 
stated that it could make public a user's ``name, likeness and image 
for any purpose, including commercial or advertising.'' \35\
---------------------------------------------------------------------------
    \34\ Chris Walters, Facebook's New Terms Of Service: ``We Can Do 
Anything We Want With Your Content. Forever.'' The Consumerist, Feb. 
15, 2009, available at http://consumerist.com/2009/02/facebooks-new-
terms-of-service-we-can-do-anything-we-want-with-your-content-
forever.html
#reset.
    \35\ Id.
---------------------------------------------------------------------------
    32. Users objected to Facebook's actions, and Facebook reversed the 
revisions on the eve of an EPIC complaint to the Commission.\36\
---------------------------------------------------------------------------
    \36\ JR Raphael, Facebook's Privacy Flap: What Really Went Down, 
and What's Next, PC World, Feb. 18, 2009, http://www.pcworld.com/
article/159743/facebooks_privacy_flap_what_really_
went_down_and_whats_next.html.
---------------------------------------------------------------------------
Changes in Privacy Settings: ``Publicly Available Information''
    33. Facebook updated its privacy policy and changed the privacy 
settings available to users on November 19, 2009 and again on December 
9, 2009.\37\
---------------------------------------------------------------------------
    \37\ Facebook, Facebook Asks More Than 350 Million Users Around the 
World To Personalize Their Privacy (Dec. 9, 2009), available at http://
www.facebook.com/press/releases.php?p
=133917.
---------------------------------------------------------------------------
    34. Facebook now treats the following categories of personal data 
as ``publicly available information:''

  <bullet> users' names,

  <bullet> profile photos,

  <bullet> lists of friends,

  <bullet> pages they are fans of,

  <bullet> gender,

  <bullet> geographic regions, and

  <bullet> networks to which they belong.\38\
---------------------------------------------------------------------------
    \38\ Facebook, Privacy Policy, http://www.facebook.com/policy.php 
(last visited Dec. 16, 2009).

    35. By default, Facebook discloses ``publicly available 
information'' to search engines, to Internet users whether or not they 
use Facebook, and others. According to Facebook, such information can 
be accessed by ``every application and website, including those you 
have not connected with . . ..'' \39\
---------------------------------------------------------------------------
    \39\ Id.
---------------------------------------------------------------------------
    36. Prior to these changes, only the following items were 
mandatorily ``publicly available information:''

  <bullet> a user's name and

  <bullet> a user's network.

    37. Users also had the option to include additional information in 
their public search listing. as the screenshot of the original privacy 
settings for search discovery demonstrates.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    38. Facebook's original privacy policy stated that users ``may not 
want everyone in the world to have the information you share on 
Facebook'' as the screenshot below makes clear:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    39. Facebook's Chief Privacy Officer, Chris Kelly, testified before 
Congress that Facebook gives ``users controls over how they share their 
personal information that model real-world information sharing and 
provide them transparency about how we use their information in 
advertising.'' \40\ Kelly further testified, ``many of our users choose 
to limit what profile information is available to non-friends. Users 
have extensive and precise controls available to choose who sees what 
among their networks and friends, as well as tools that give them the 
choice to make a limited set of information available to search engines 
and other outside entities.'' \41\
---------------------------------------------------------------------------
    \40\ Testimony of Chris Kelly, Chief Privacy Officer, Facebook, 
Before the U.S. House or Representatives Committee on Energy and 
Commerce Subcommittee on Commerce, Trade, and Consumer Protection 
Subcommittee on Communications, Technology and the Internet (June 18, 
2009), available at http://energycommerce.house.gov/Press_111/20090618/
testimony_kelly.pdf.
    \41\ Id.
---------------------------------------------------------------------------
    40. In an ``Important message from Facebook,'' Facebook told users 
it was giving ``you more control of your information . . . and [had] 
added the ability to set privacy on everything you share . . .'' as the 
screen from the transition tool illustrates:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    41. Facebook's CEO, Mark Zuckerberg, reversed changes to his 
personal Facebook privacy settings after the transition from the 
original privacy settings to the revised settings made public his 
photographs and other information.\42\
---------------------------------------------------------------------------
    \42\ Kashmir Hill, Either Mark Zuckerberg got a whole lot less 
private or Facebook's CEO doesn't understand the company's new privacy 
settings (Dec. 10, 2009), http://trueslant.com/KashmirHill/2009/12/10/
either-mark-zuckerberg-got-a-whole-lot-less-private-or-facebooks-ceo-
doesnt-understand-the-companys-new-privacy-settings/.
---------------------------------------------------------------------------
    42. Barry Schnitt, Facebook's Director of Corporate Communications 
and Public Policy, ``suggests that users are free to lie about their 
hometown or take down their profile picture to protect their privacy.'' 
\43\
---------------------------------------------------------------------------
    \43\ Julia Angwin, How Facebook Is Making Friending Obsolete, Wall 
St. J., Dec. 15, 2009, available at http://online.wsj.com/article/
SB126084637203791583.html.
---------------------------------------------------------------------------
    43. Providing false information on a Facebook profile violates 
Facebook's Terms of Service.\44\
---------------------------------------------------------------------------
    \44\ Facebook, Statement of Rights and Responsibilities, http://
www.facebook.com/terms.php (last visited Dec. 16, 2009); see Jason 
Kincaid, Facebook Suggests You Lie, Break Its Own Terms Of Service To 
Keep Your Privacy, Washington Post, Dec. 16, 2009, available at http://
www.washingtonpost.com/wp-dyn/content/article/2009/12/15/
AR2009121505270.html.
---------------------------------------------------------------------------
    44. Facebook user profile information may include sensitive 
personal information.
    45. Facebook users can indicate that they are ``fans'' of various 
organizations, individuals, and products, including controversial 
political causes.\45\
---------------------------------------------------------------------------
    \45\ See, e.g., Facebook, Prop 8, http://www.facebook.com/pages/
Prop-8/86610985605 (last visited Dec. 15, 2009); Facebook, No on Prop 8 
Don't Eliminate Marriage for Anyone, http://www.facebook.com/#/pages/
No-on-Prop-8-Dont-Eliminate-Marriage-for-Anyone/29097894014 (last 
visited Dec. 15, 2009); see also Court Tosses Prop. 8 Ruling on 
Strategy Papers, San Francisco Chron. (Dec. 12, 2009), available at 
http://www.sfgate.com/cgi-bin/article.cgi?f=/c/a/2009/12/11/
BA3A1B34VC.DTL.
---------------------------------------------------------------------------
    46. Under the original privacy settings, users controlled public 
access to the causes they supported. Under the revised settings, 
Facebook has made users' causes ``publicly available information,'' 
disclosing this data to others and preventing users from exercising 
control as they had under the original privacy policy.
    47. Based on profile data obtained from Facebook users' friends 
lists, MIT researchers found that ``just by looking at a person's 
online friends, they could predict whether the person was gay.'' \46\ 
Under Facebook's original privacy policy, Facebook did not categorize 
users' friends lists as ``publicly available information.'' Facebook 
now makes users' friends lists ``publicly available information.''
---------------------------------------------------------------------------
    \46\ See Carolyn Y. Johnson, Project ``Gaydar,'' Sep. 20, 2009, 
Boston Globe, available at http://www.boston.com/bostonglobe/ideas/
articles/2009/09/20/
project_gaydar_an_mit_experiment_raises_new_questions_about_online_priva
cy/?page=full
---------------------------------------------------------------------------
    48. Dozens of American Facebook users, who posted political 
messages critical of Iran, have reported that Iranian authorities 
subsequently questioned and detained their relatives.\47\ Under the 
revised privacy settings, Facebook makes such users' friends lists 
publicly available.
---------------------------------------------------------------------------
    \47\ Farnaz Fassihi, Iranian Crackdown Goes Global, Wall Street 
Journal (Dec. 4, 2009), available at http://online.wsj.com/article/
SB125978649644673331.html.
---------------------------------------------------------------------------
    49. According to the Wall Street Journal, one Iranian-American 
graduate student received a threatening e-mail that read, ``we know 
your home address in Los Angeles,'' and directed the user to ``stop 
spreading lies about Iran on Facebook.'' \48\
---------------------------------------------------------------------------
    \48\ Id.
---------------------------------------------------------------------------
    50. Another U.S. Facebook user who criticized Iran on Facebook 
stated that security agents in Tehran located and arrested his father 
as a result of the postings.\49\
---------------------------------------------------------------------------
    \49\ Id.
---------------------------------------------------------------------------
    51. One Facebook user who traveled to Iran said that security 
officials asked him whether he owned a Facebook account, and to verify 
his answer, they performed a Google search for his name, which revealed 
his Facebook page. His passport was subsequently confiscated for one 
month, pending interrogation.\50\
---------------------------------------------------------------------------
    \50\ Id.
---------------------------------------------------------------------------
    52. Many Iranian Facebook users, out of fear for the safety of 
their family and friends, changed their last name to ``Irani'' on their 
pages so government officials would have a more difficult time 
targeting them and their loved ones.\51\
---------------------------------------------------------------------------
    \51\ Id.
---------------------------------------------------------------------------
    53. By implementing the revised privacy settings, Facebook 
discloses users' sensitive friends lists to the public and exposes 
users to the analysis employed by Iranian officials against political 
opponents.
Changes to Privacy Settings: Information Disclosure to Application 
        Developers
    54. The Facebook Platform transfers Facebook users' personal data 
to application developers without users' knowledge or consent.\52\
---------------------------------------------------------------------------
    \52\ See Facebook, Facebook Platform, http://www.facebook.com/
facebook#/platform?v=info (last visited Dec. 13, 2009).
---------------------------------------------------------------------------
    55. Facebook permits third-party applications to access user 
information at the moment a user visits an application website. 
According to Facebook, third party applications receive publicly 
available information automatically when you visit them, and additional 
information when you formally authorize or connect your Facebook 
account with them.'' \53\
---------------------------------------------------------------------------
    \53\ Facebook, Privacy Policy, http://www.facebook.com/policy.php 
(last visited Dec. 16, 2009).
---------------------------------------------------------------------------
    56. As Facebook itself explains in its documentation, when a user 
adds an application, by default that application then gains access to 
everything on Facebook that the user can see.\54\ The primary ``privacy 
setting'' that Facebook demonstrates to third-party developers governs 
what other users can see from the application's output, rather than 
what data may be accessed by the application.\55\
---------------------------------------------------------------------------
    \54\ Facebook, About Platform, http://developers.facebook.com/
about_platform.php (last visited Dec. 16, 2009).
    \55\ Facebook Developer Wiki, Anatomy of a Facebook App, http://
wiki.developers.facebook.com/index.php/
Anatomy_of_a_Facebook_App#Privacy_Settings (last visited Dec. 16, 
2009).
---------------------------------------------------------------------------
    57. According to Facebook:

        Examples of the types of information that applications and 
        websites may have access to include the following information, 
        to the extent visible on Facebook: your name, your profile 
        picture, your gender, your birthday, your hometown location 
        (city/state/country), your current location (city/state/
        country), your political view, your activities, your interests, 
        your musical preferences, television shows in which you are 
        interested, movies in which you are interested, books in which 
        you are interested, your favorite quotes, your relationship 
        status, your dating interests, your relationship interests, 
        your network affiliations, your education history, your work 
        history, your course information, copies of photos in your 
        photo albums, metadata associated with your photo albums (e.g., 
        time of upload, album name, comments on your photos, etc.), the 
        total number of messages sent and/or received by you, the total 
        number of unread messages in your in-box, the total number of 
        ``pokes'' you have sent and/or received, the total number of 
        wall posts on your Wall, a list of user IDs mapped to your 
        friends, your social timeline, notifications that you have 
        received from other applications, and events associated with 
        your profile.\56\
---------------------------------------------------------------------------
    \56\ Facebook, About Platform, http://developers.facebook.com/
about_platform.php (last visited Dec. 16, 2009).

    58. To access this information, developers use the Facebook 
Application Programming Interface (``API''), to ``utiliz[e] profile, 
friend, Page, group, photo, and event data.'' \57\ The API is a 
collection of commands that an application can run on Facebook, 
including authorization commands, data retrieval commands, and data 
publishing commands.\58\
---------------------------------------------------------------------------
    \57\ Facebook Developer Wiki, API, http://
wiki.developers.facebook.com/index.php/API (last visited Dec. 16, 
2009).
    \58\ Id.
---------------------------------------------------------------------------
    59. Third-parties who develop Facebook applications may also 
transmit the user information they access to their own servers, and are 
asked only to retain the information for less than 24 hours.\59\
---------------------------------------------------------------------------
    \59\ Facebook Developer Wiki, Policy Examples and Explanations/Data 
and Privacy, http://wiki.developers.facebook.com/index.php/
Policy_Examples_and_Explanations/Data_and_Privacy (last visited Dec. 
16, 2009).
---------------------------------------------------------------------------
    60. A 2007 University of Virginia study of Facebook applications 
found that ``90.7 percent of applications are being given more 
privileges than they need.''\60\
---------------------------------------------------------------------------
    \60\ Adrienne Felt & David Evans, Privacy Protection for Social 
Networking APIs, http://www.cs.virginia.edu/felt/privacy/ (last visited 
Dec. 16, 2009).
---------------------------------------------------------------------------
    61. According to the Washington Post, many Facebook developers who 
have gained access to information this way have considered the 
``value'' of having the data, even when the data is not relevant to the 
purpose for which the user has added the application.\61\
---------------------------------------------------------------------------
    \61\ Kim Hart, A Flashy Facebook Page, at a Cost to Privacy, Wash. 
Post, June 12, 2008, available at http://www.washingtonpost.com/wp-dyn/
content/article/2008/06/11/AR20080611037
59.html
---------------------------------------------------------------------------
    62. Under the revised privacy policy, Facebook now categorizes 
users' names, profile photos, lists of friends, pages they are fans of, 
gender, geographic regions, and networks to which they belong as 
``publicly available information,'' and Facebooks sets the ``default 
privacy setting for certain types of information [users] post on 
Facebook . . . to `everyone.' '' \62\
---------------------------------------------------------------------------
    \62\ Facebook, Privacy Policy, http://www.facebook.com/policy.php 
(last visited Dec. 16, 2009).
---------------------------------------------------------------------------
    63. Facebook allows user information that is categorized as 
publicly available to ``everyone'' to be: ``accessed by everyone on the 
Internet (including people not logged into Facebook);'' made subject to 
``indexing by third party search engines;'' ``associated with you 
outside of Facebook (such as when you visit other sites on the 
internet);'' and ``imported and exported by us and others without 
privacy limitations.'' \63\
---------------------------------------------------------------------------
    \63\ Id. (emphasis added)
---------------------------------------------------------------------------
    64. With the Preferred Developer Program, Facebook will give third-
party developers access to a user's primary e-mail address, personal 
information provided by the user to Facebook to subscribe to the 
Facebook service, but not necessarily available to the public or to 
developers.\64\ In fact, some users may choose to create a Facebook 
account precisely to prevent the disclosure of their primary e-mail 
address.
---------------------------------------------------------------------------
    \64\ Facebook, Developer Roadmap, http://
wiki.developers.facebook.com/index.php/Developer_Roadmap (last visited 
Dec. 17 2009); Facebook, Roadmap E-mail, http://wiki.develo
pers.facebook.com/index.php/Roadmap_E-mail (last visited Dec. 17, 
2009); see also Mark Walsh, Facebook Starts Preferred Developer Program 
(Dec. 17, 2009), http://www.mediapost
.com/publications/?fa=Articles.showArticle&art_aid=119293.
---------------------------------------------------------------------------
    65. Facebook states in the revised privacy policy that users can 
``opt-out of Facebook Platform and Facebook Connect altogether through 
[their] privacy settings.'' \65\ Facebook further states that, ``you 
can control how you share information with those third-party 
applications and websites through your application settings.'' \66\
---------------------------------------------------------------------------
    \65\ Facebook, Privacy Policy, http://www.facebook.com/policy.php 
(last visited Dec. 16, 2009).
    \66\ Id.
---------------------------------------------------------------------------
    66. In fact, under the original privacy settings, users had a one-
click option to prevent the disclosure of personal information to third 
party application developers through the Facebook API, as the 
screenshot below indicates:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    67. Under the revised privacy settings, Facebook has eliminated the 
universal one-click option and replaced it with the screen illustrated 
below:\67\
---------------------------------------------------------------------------
    \67\ Facebook, Privacy Settings, http://www.facebook.com/settings/
?tab=privacy&section=
applications&field=friends_share (last visited Dec. 13, 2009).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    68. Under the revised settings, even when a user unchecks all boxes 
and indicates that none of the personal information listed above should 
be disclosed to third party application developers, Facebook states 
that ``applications will always be able to access your publicly 
available information (Name, Profile Picture, Gender, Current City, 
Networks, Friend List, and Pages) and information that is visible to 
Everyone.'' \68\
---------------------------------------------------------------------------
    \68\ Id. (emphasis added)
---------------------------------------------------------------------------
    69. Facebook's ``Everyone'' setting overrides the user's choice to 
limit access by third-party applications and websites.
    70. Facebook does not now provide the option that explicitly allows 
users to opt out of disclosing all information to third parties through 
the Facebook Platform.
    71. Users can block individual third-party applications from 
obtaining personal information by searching the Application Directory, 
visiting the application's ``about'' page, clicking a small link on 
that page, and then confirming their decision.\69\ A user would have to 
perform these steps for each of more than 350,000 applications in order 
to block all of them.\70\
---------------------------------------------------------------------------
    \69\ Facebook, General Application Support: Application Safety and 
Security, http://www.facebook.com/help.php?page=967 (last visited Dec. 
14, 2009).
    \70\ Facebook, Statistics, http://www.facebook.com/press/
info.php?statistics (last visited Dec. 14, 2009).
---------------------------------------------------------------------------
Facebook Users Oppose the Changes to the Privacy Settings
    72. Facebook users oppose these changes. In only four days, the 
number of Facebook groups related to privacy settings grew to more than 
five hundred.\71\ Many security experts, bloggers, consumer groups, and 
news organizations have also opposed these changes.
---------------------------------------------------------------------------
    \71\ Facebook, Search ``privacy settings,'' http://
www.facebook.com/search/?o=69&init=s%3A
group&q=privacy%20settings (last visited Dec. 15, 2009).
---------------------------------------------------------------------------
    73. More than 1,050 Facebook users are members of a group entitled 
``Against The New Facebook Privacy Settings!'' The group has a simple 
request: ``We demand that Facebook stop forcing people to reveal things 
they don't feel comfortable revealing.'' \72\
---------------------------------------------------------------------------
    \72\ Facebook, Against The New Facebook Privacy Settings!, http://
www.facebook.com/group
.php?gid=209833062912 (last visited Dec. 15, 2009).
---------------------------------------------------------------------------
    74. More than 950 Facebook users are members of a group entitled 
``Facebook! Fix the Privacy Settings,'' which exhorts users to ``tell 
Facebook that our personal information is private, and we want to 
control it!'' \73\
---------------------------------------------------------------------------
    \73\ Facebook, Facebook! Fix the Privacy Settings, http://
www.facebook.com/group.php?
gid=192282128398 (last visited Dec. 15, 2009).
---------------------------------------------------------------------------
    75. More than 74,000 Facebook users are members of a group entitled 
``Petition: Facebook, stop invading my privacy!'' \74\ The group 
objects to the revisions and hopes to ``get a message across to 
Facebook.'' \75\ The group description explains, ``[o]n December 9, 
2009 Facebook once again breached our privacy by imposing new `privacy 
settings' on 365+ million users. These settings notably give us LESS 
privacy than we had before, so I ask, how exactly do they make us more 
secure?. . . . Perhaps the most frustrating and troublesome part is the 
changes Facebook made on our behalf without truly making us aware or 
even asking us.'' \76\
---------------------------------------------------------------------------
    \74\ Facebook, Petition: Facebook, stop invading my privacy!, 
http://www.facebook.com/group
.php?gid=5930262681&ref=share (last visited Dec. 15, 2009).
    \75\ Id.
    \76\ Id.
---------------------------------------------------------------------------
    76. A Facebook blog post discussing the changes to Facebook's 
privacy policy and settings drew 2,000 comments from users, most of 
them critical of the changes.\77\ One commenter noted, ``I came here to 
communicate with people with whom I have some direct personal 
connection; not to have my personal information provided to 
unscrupulous third party vendors and made available to potential 
stalkers and identity thieves.'' \78\ Another commented, ``I liked the 
old privacy settings better. I felt safer and felt like I had more 
control.'' \79\
---------------------------------------------------------------------------
    \77\ See The Facebook Blog, Updates on Your New Privacy Tools, 
http://blog.facebook.com/blog.php?post=197943902130 (last visited Dec. 
14, 2009).
    \78\ Id.
    \79\ Id.
---------------------------------------------------------------------------
    77. The Electronic Frontier Foundation posted commentary online 
discussing the ``good, the bad, and the ugly'' aspects of Facebook's 
revised privacy policy and settings. More than 400 people have 
``tweeted'' this article to encourage Facebook users to read EFF's 
analysis.\80\
---------------------------------------------------------------------------
    \80\ See Twitter, Twitter Search ``eff.org Facebook,'' http://
twitter.com/#search?q=eff.org%
20facebook (last visited Dec. 14, 2009).
---------------------------------------------------------------------------
    78. The American Civil Liberties Union of Northern California's 
Demand Your dotRights campaign started a petition to Facebook demanding 
that Facebook (1) give full control of user information back to users; 
(2) give users strong default privacy settings; and (3) restrict the 
access of third party applications to user data.\81\ The ACLU is 
``concerned that the changes Facebook has made actually remove some 
privacy controls and encourage Facebook users to make other privacy 
protections disappear.'' \82\
---------------------------------------------------------------------------
    \81\ American Civil Liberties Union, Demand Your dotRights: 
Facebook Petition, https://secure.aclu.org/site/SPageNavigator/
CN_Facebook_Privacy_Petition (last visited Dec. 15, 2009).
    \82\ Id; see also ACLUNC dotRights, What Does Facebook's Privacy 
Transition Mean for You?, http://dotrights.org/what-does-facebooks-
privacy-transition-mean-you (last visited Dec. 16, 2009).
---------------------------------------------------------------------------
    79. In the past week, more than 3,000 blog posts have been written 
focusing on criticism of Facebook's privacy changes.\83\
---------------------------------------------------------------------------
    \83\ See Google, Google Blog Search ``facebook privacy criticism,'' 
http://blogsearch.google.com/
blogsearch?client=news&hl=en&q=facebook+privacy+criticism&ie=UTF-
8&as_drrb=q&as_qdr=w (last visited Dec. 14, 2009).
---------------------------------------------------------------------------
    80. After rolling out the revised Facebook privacy settings, 
widespread user criticism of the change in the ``view friends'' setting 
prompted Facebook to roll back the changes in part: ``In response to 
your feedback, we've improved the Friend List visibility option 
described below. Now when you uncheck the `Show my friends on my 
profile' option in the Friends box on your profile, your Friend List 
won't appear on your profile regardless of whether people are viewing 
it while logged into Facebook or logged out.'' Facebook further stated 
that ``this information is still publicly available, however, and can 
be accessed by applications.'' \84\
---------------------------------------------------------------------------
    \84\ The Facebook Blog, Updates on Your New Privacy Tools, http://
blog.facebook.com/blog
.php?post=197943902130 (last visited Dec. 14, 2009).
---------------------------------------------------------------------------
    81. Ed Felten, a security expert and Princeton University 
professor,\85\ stated:
---------------------------------------------------------------------------
    \85\ Prof. Felton is also Director of the Princeton Center for 
Information Technology Policy, a cross-disciplinary effort studying 
digital technologies in public life.

        As a user myself, I was pretty unhappy about the recently 
        changed privacy control. I felt that Facebook was trying to 
        trick me into loosening controls on my information. Though the 
        initial letter from Facebook founder Mark Zuckerberg painted 
        the changes as pro-privacy. . .the actual effect of the 
        company's suggested new policy was to allow more public access 
        to information. Though the company has backtracked on some of 
        the changes, problems remain.\86\
---------------------------------------------------------------------------
    \86\ Ed Felten, Another Privacy Misstep from Facebook (Dec. 14, 
2009), http://www.freedom-to-tinker.com/blog/felten/another-privacy-
misstep-facebook.

    82. Joseph Bonneau, a security expert and University of Cambridge 
researcher, criticized Facebook's disclosure of users' friend lists, 
---------------------------------------------------------------------------
observing,

        there have been many research papers, including a few by me and 
        colleagues in Cambridge, concluding that [friend lists are] 
        actually the most important information to keep private. The 
        threats here are more fundamental and dangerous-unexpected 
        inference of sensitive information, cross-network de-
        anonymisation, socially targeted phishing and scams.\87\
---------------------------------------------------------------------------
    \87\ Joseph Bonneau, Facebook Tosses Graph Privacy into the Bin 
(Dec. 11, 2009), http://www.lightbluetouchpaper.org/2009/12/11/
facebook-tosses-graph-privacy-into-the-bin/; see also Arvind Narayanan 
and Vitaly Shmatikov, De-Anonymizing Social Networks, available at 
http://www.scribd.com/doc/15021482/DeAnonymizing-Social-Networks-
Shmatikov-Narayanan; Phishing Attacks Using Social Networks, http://
www.indiana.edu/phishing/social-network-experiment/ (last visited Dec. 
15, 2009).

    Bonneau predicts that Facebook ``will likely be completely crawled 
fairly soon by professional data aggregators, and probably by 
enterprising researchers soon after.'' \88\
---------------------------------------------------------------------------
    \88\ Bonneau, Facebook Tosses Graph Privacy into the Bin.
---------------------------------------------------------------------------
    83. Security expert\89\ Graham Cluley stated:
---------------------------------------------------------------------------
    \89\ Wikipedia, Graham Cluley, http://en.wikipedia.org/wiki/
Graham_Cluley.

        if you make your information available to ``everyone,'' it 
        actually means ``everyone, forever.'' Because even if you 
        change your mind, it's too late--and although Facebook say they 
        will remove it from your profile they will have no control 
---------------------------------------------------------------------------
        about how it is used outside of Facebook.

    Cluley further states, ``there's a real danger that people will go 
along with Facebook's recommendations without considering carefully the 
possible consequences.'' \90\
---------------------------------------------------------------------------
    \90\ Graham Cluley, Facebook privacy settings: What you need to 
know (Dec. 10, 2009) http://www.sophos.com/blogs/gc/g/2009/12/10/
facebook-privacy/.
---------------------------------------------------------------------------
    84. Other industry experts anticipated the problems that would 
result from the changes in Facebook's privacy settings. In early July, 
TechCrunch, Jason Kincaid wrote:

        Facebook clearly wants its users to become more comfortable 
        sharing their content across the web, because that's what needs 
        to happen if the site is going to take Twitter head-on with 
        real-time search capabilities Unfortunately that's far easier 
        said than done for the social network, which has for years 
        trumpeted its granular privacy settings as one of its greatest 
        assets.\91\
---------------------------------------------------------------------------
    \91\ Jason Kincaid, The Looming Facebook Privacy Fiasco (July 1, 
2009), http://www.tech
crunch.com/2009/07/01/the-looming-facebook-privacy-fiasco/.

    Kincaid observed that ``Facebook sees its redesigned control panel 
as an opportunity to invite users to start shrugging off their privacy. 
So it's piggybacking the new `Everyone' feature on top of the 
Transition Tool . . .'' \92\
---------------------------------------------------------------------------
    \92\ Id.
---------------------------------------------------------------------------
    85. Following the changes in Facebook privacy settings, noted 
blogger Danny Sullivan wrote, ``I came close to killing my Facebook 
account this week.'' He went on to say, ``I was disturbed to discover 
things I previously had as options were no longer in my control.'' 
Sullivan, the editor of Search Engine Land and an expert in search 
engine design,\93\ concluded:
---------------------------------------------------------------------------
    \93\ Wikipedia, Danny Sullivan (technologist), http://
en.wikipedia.org/wiki/Danny_Sullivan_
(technologist) (last visited Dec. 15, 2009).

        I don't have time for this. I don't have time to try and figure 
        out the myriad of ways that Facebook may or may not want to use 
        my information. That's why I almost shut down my entire account 
        this week. It would be a hell of a lot easier than this 
        mess.\94\
---------------------------------------------------------------------------
    \94\ Danny Sullivan, Now Is It Facebook's Microsoft Moment? (Dec. 
11, 2009), http://daggle.com/facebooks-microsoft-moment-1556.

    86. Carleton College librarian Iris Jastram states that the privacy 
trade-off resulting from the Facebook changes is not ``worth it.'' She 
---------------------------------------------------------------------------
writes,

        I'm already making concessions by making myself available to 
        the students who want to friend me there and by grudgingly 
        admitting that I like the rolodex function it plays. But I feel 
        zero motivation to give up more than I can help to Facebook and 
        its third party developers. They can kindly leave me alone, 
        please.\95\
---------------------------------------------------------------------------
    \95\ Iris Jastram, Dear Facebook: Leave Me Alone, Pegasus Librarian 
Blog (Dec. 10, 2009), http://pegasuslibrarian.com/2009/12/dear-
facebook-leave-me-alone.html.

    87. Chris Bourg, manager of the Information Center at Stanford 
University Libraries, notes that ``[t]here are some concerns with the 
new default/recommended privacy settings, which make your updates 
visible to Everyone, including search engines.'' \96\
---------------------------------------------------------------------------
    \96\ Chris Bourg, Overview of new Facebook Privacy Settings, Feral 
Librarian (Dec. 9, 2009), http://chrisbourg.wordpress.com/2009/12/09/
overview-of-new-facebook-privacy-settings/.
---------------------------------------------------------------------------
    88. Reuters columnist Felix Salmon learned of Facebook's revised 
privacy settings when Facebook disclosed his ``friends'' list to 
critics, who republished the personal information. Salmon apologized to 
his friends and denounced the Facebook ``Everyone'' setting:

        I'm a semi-public figure, and although I might not be happy 
        with this kind of cyberstalking, I know I've put myself out 
        there and that there will be consequences of that. But that 
        decision of mine shouldn't have some kind of transitive 
        property which feeds through to my personal friends, and I 
        don't want the list of their names to be publicly available to 
        everyone.\97\
---------------------------------------------------------------------------
    \97\ Felix Salmon, Why Can't I Hide My List of Facebook Friends?, 
Reuters (Dec. 10, 2009), http://blogs.reutes.com/felix-salmon/2009/12/
10/why-cant-i-hide-my-list-of-facebook-friends/.

    89. In a blog post responding to the revisions, Marshall 
Kirkpatrick of ReadWriteWeb wrote, ``the company says the move is all 
about helping users protect their privacy and connect with other 
people, but the new default option is to change from 'old settings' to 
becoming visible to 'everyone.' . . . This is not what Facebook users 
signed up for. It's not about privacy at all, it's about increasing 
traffic and the visibility of activity on the site.'' \98\
---------------------------------------------------------------------------
    \98\ Marshall Kirkpatrick, ReadWriteWeb, The Day Has Come: Facebook 
Pushes People to Go Public, http://www.readwriteweb.com/archives/
facebook_pushes_people_to_go_public.php (last visited Dec. 14, 2009).
---------------------------------------------------------------------------
    90. Jared Newman of PC World details Facebook's privacy 
revisions.\99\ He is particularly critical of the ``Everyone'' setting:
---------------------------------------------------------------------------
    \99\ http://www.pcworld.com/article/184465/
facebook_privacy_changes_the_good_and_the_bad
.html

        By default, Facebook suggests sharing everything on your 
        profile to make it `easier for friends to find, identify and 
        learn about you.' It should read, `make it easier for anyone in 
        the world to find, identify and learn about you.' A little 
        creepier, sure, but this is part of Facebook's never-ending 
        struggle to be, essentially, more like Twitter. Thing is, a lot 
        of people like Facebook because it isn't like Twitter. Don't 
        mess with a good thing.\100\
---------------------------------------------------------------------------
    \100\ Id.

    91. Rob Pegoraro blogged on the Washington Post's ``Faster 
Forward'' that the Facebook changes were ``more of a mess than I'd 
expected.'' He criticized the revised ``Everyone'' privacy setting, 
stating the change ``should never have happened. Both from a usability 
and a PR perspective, the correct move would have been to leave users' 
settings as they were, especially for those who had already switched 
their options from the older defaults.''\101\
---------------------------------------------------------------------------
    \101\ Rob Pegoraro, Facebook's new default: Sharing updates with 
`Everyone', Washington Post, Dec. 10, 2009, available at http://
voices.washingtonpost.com/fasterforward/2009/12/facebook
_default_no-privacy.html (emphasis added)
---------------------------------------------------------------------------
    92. In another Washington Post story, Cecilia Kang warned users, 
``post with care.'' \102\ According to Kang:
---------------------------------------------------------------------------
    \102\ Cecilia Kang, Facebook adopts new privacy settings to give 
users more control over content, Washington Post, Dec. 10, 2009, 
available at http://www.washingtonpost.com/wp-dyn/content/article/2009/
12/09/AR2009120904200.html?hpid=topnews.

        While Facebook users will be able to choose their privacy 
        settings, the problem is that most people don't take the time 
        to do so and may simply stick with the defaults. Others may 
        find the process confusing and may not understand how to adjust 
        those settings. Facebook said about one in five users currently 
        adjusts privacy settings.\103\
---------------------------------------------------------------------------
    \103\ Id.

    93. New York Times technology writer Brad Stone reported that these 
changes have not been welcomed by many users.\104\ One user wrote:
---------------------------------------------------------------------------
    \104\ Brad Stone, Facebook's Privacy Changes Draw More Scrutiny, 
N.Y. Times, Dec. 10, 2009, available at http://bits.blogs.nytimes.com/
2009/12/10/facebooks-privacy-changes-draw-more-scrutiny.

        It's certainly a violation of my privacy policy. My own 
        `personal' privacy policy specifically states that I will not 
        share information about my friends with any potential weirdos, 
        child molesters, homicidal maniacs, or anyone I generally don't 
        like.\105\
---------------------------------------------------------------------------
    \105\ Id.

    94. Stone invited readers to comment on their understanding of the 
changes. Of the more than 50 responses received, most expressed 
---------------------------------------------------------------------------
confusion, concern, or anger. One user explained,

        I find the changes to be the exact opposite of what Facebook 
        claims them to be. Things that were once private for me, and 
        for carefully selected Facebook friends, are now open to 
        everyone on the Internet. This is simply not what I signed up 
        for. These are not the privacy settings I agreed to. It is a 
        complete violation of privacy, not the other way around.\106\
---------------------------------------------------------------------------
    \106\ Id.

---------------------------------------------------------------------------
    95. Another Facebook user wrote,

        There are users like myself that joined Facebook because we 
        were able to connect with friends and family while maintaining 
        our privacy and now FB has taken that away. Im [sic] wondering 
        where are the millions of users that told FB it would be a good 
        idea to offer real-time search results of their FB content on 
        Google.\107\
---------------------------------------------------------------------------
    \107\ Riva Richmond, The New Facebook Privacy Settings: A How-To, 
N.Y. Times, Dec. 11, 2009, available at http://
gadgetwise.blogs.nytimes.com/2009/12/11/the-new-facebook-privacy-
settings-a-how-to/?em.

    96. A Boston Globe editorial, ``Facebook's privacy downgrade,'' 
observes that ``Facebook's subtle nudges toward greater disclosure 
coincided with other disconcerting changes: The site is treating more 
information, such as a user's home city and photo, as `publicly 
available information' that the user cannot control. Over time, privacy 
changes can only alienate users.'' Instead, the Globe argues, 
``Facebook should be helping its 350 million members keep more of their 
information private.'' \108\
---------------------------------------------------------------------------
    \108\ Editorial, Facebook's privacy downgrade, Boston Globe, Dec. 
16, 2009, available at http://www.boston.com/bostonglobe/
editorial_opinion/editorials/articles/2009/12/16/
facebooks_privacy_downgrade.
---------------------------------------------------------------------------
    97. An editorial from the L.A. Times states simply ``what's good 
for the social networking site isn't necessarily what's good for 
users.'' \109\
---------------------------------------------------------------------------
    \109\ Editorial, The business of Facebook, L.A. Times, Dec. 12, 
2009, available at http://www.latimes.com/news/opinion/editorials/la-
ed-facebook12-2009dec12,0,4419776.story.
---------------------------------------------------------------------------
V. Legal Analysis
The FTC's Section 5 Authority
    98. Facebook is engaging in unfair and deceptive acts and 
practices.\110\ Such practices are prohibited by the FTC Act, and the 
Commission is empowered to enforce the Act's prohibitions.\111\ These 
powers are described in FTC Policy Statements on Deception \112\ and 
Unfairness.\113\
---------------------------------------------------------------------------
    \110\ See 15 U.S.C. Sec. 45.
    \111\ Id.
    \112\ Fed. Trade Comm'n, FTC Policy Statement on Deception (1983), 
available at http://www.ftc.gov/bcp/policystmt/ad-decept.htm 
[hereinafter FTC Deception Policy].
    \113\ Fed. Trade Comm'n, FTC Policy Statement on Unfairness (1980), 
available at http://www.ftc.gov/bcp/policystmt/ad-unfair.htm 
[hereinafter FTC Unfairness Policy].
---------------------------------------------------------------------------
    99. A trade practice is unfair if it ``causes or is likely to cause 
substantial injury to consumers which is not reasonably avoidable by 
consumers themselves and not outweighed by countervailing benefits to 
consumers or to competition.'' \114\
---------------------------------------------------------------------------
    \114\ 15 U.S.C. Sec. 45(n); see, e.g., Fed. Trade Comm'n v. Seismic 
Entertainment Productions, Inc., Civ. No. 1:04-CV-00377 (Nov. 21, 2006) 
(finding that unauthorized changes to users' computers that affected 
the functionality of the computers as a result of Seismic's anti-
spyware software constituted a ``substantial injury without 
countervailing benefits.'').
---------------------------------------------------------------------------
    100. The injury must be ``substantial.'' \115\ Typically, this 
involves monetary harm, but may also include ``unwarranted health and 
safety risks.'' \116\ Emotional harm and other ``more subjective types 
of harm'' generally do not make a practice unfair.\117\ Secondly, the 
injury ``must not be outweighed by an offsetting consumer or 
competitive benefit that the sales practice also produces.'' \118\ Thus 
the FTC will not find a practice unfair ``unless it is injurious in its 
net effects.'' \119\ Finally, ``the injury must be one which consumers 
could not reasonably have avoided.'' \120\ This factor is an effort to 
ensure that consumer decision making still governs the market by 
limiting the FTC to act in situations where seller behavior 
``unreasonably creates or takes advantage of an obstacle to the free 
exercise of consumer decisionmaking.'' \121\ Sellers may not withhold 
from consumers important price or performance information, engage in 
coercion, or unduly influence highly susceptible classes of 
consumers.\122\
---------------------------------------------------------------------------
    \115\ FTC Unfairness Policy, supra note 113.
    \116\ Id.; see, e.g., Fed. Trade Comm'n v. Information Search, 
Inc., Civ. No. 1:06-cv-01099 (Mar. 9, 2007) (``The invasion of privacy 
and security resulting from obtaining and selling confidential customer 
phone records without the consumers' authorization causes substantial 
harm to consumers and the public, including, but not limited to, 
endangering the health and safety of consumers.'').
    \117\ FTC Unfairness Policy, supra note 113.
    \118\ Id.
    \119\ Id.
    \120\ Id.
    \121\ Id.
    \122\ Id.
---------------------------------------------------------------------------
    101. The FTC will also look at ``whether the conduct violates 
public policy as it has been established by statute, common law, 
industry practice, or otherwise.'' \123\ Public policy is used to 
``test the validity and strength of the evidence of consumer injury, 
or, less often, it may be cited for a dispositive legislative or 
judicial determination that such injury is present.'' \124\
---------------------------------------------------------------------------
    \123\ Id.
    \124\ Id.
---------------------------------------------------------------------------
    102. The FTC will make a finding of deception if there has been a 
``representation, omission or practice that is likely to mislead the 
consumer acting reasonably in the circumstances, to the consumer's 
detriment.'' \125\
---------------------------------------------------------------------------
    \125\ FTC Deception Policy, supra note 112.
---------------------------------------------------------------------------
    103. First, there must be a representation, omission, or practice 
that is likely to mislead the consumer.\126\ The relevant inquiry for 
this factor is not whether the act or practice actually misled the 
consumer, but rather whether it is likely to mislead.\127\ Second, the 
act or practice must be considered from the perspective of a reasonable 
consumer.\128\ ``The test is whether the consumer's interpretation or 
reaction is reasonable.'' \129\ The FTC will look at the totality of 
the act or practice and ask questions such as ``how clear is the 
representation? How conspicuous is any qualifying information? How 
important is the omitted information? Do other sources for the omitted 
information exist? How familiar is the public with the product or 
service?'' \130\
---------------------------------------------------------------------------
    \126\ FTC Deception Policy, supra note 112; see, e.g., Fed Trade 
Comm'n v. Pantron I Corp., 33 F.3d 1088 (9th Cir. 1994) (holding that 
Pantron's representation to consumers that a product was effective at 
reducing hair loss was materially misleading, because according to 
studies, the success of the product could only be attributed to a 
placebo effect, rather than on scientific grounds).
    \127\ FTC Deception Policy, supra note 112.
    \128\ Id.
    \129\ Id.
    \130\ Id.
---------------------------------------------------------------------------
    104. Finally, the representation, omission, or practice must be 
material.\131\ Essentially, the information must be important to 
consumers. The relevant question is whether consumers would have chosen 
another product if the deception had not occurred.\132\ Express claims 
will be presumed material.\133\ Materiality is presumed for claims and 
omissions involving ``health, safety, or other areas with which the 
reasonable consumer would be concerned.'' \134\ The harms of this 
social networking site's practices are within the scope of the FTC's 
authority to enforce Section 5 of the FTC Act and its purveyors should 
face FTC action for these violations.
---------------------------------------------------------------------------
    \131\ Id.
    \132\ Id.
    \133\ Id.
    \134\ Id.
---------------------------------------------------------------------------
Material Changes to Privacy Practices and Misrepresentations of Privacy 
        Policies Constitute Consumer Harm
    105. Facebook's actions injure users throughout the United States 
by invading their privacy; allowing for disclosure and use of 
information in ways and for purposes other than those consented to or 
relied upon by such users; causing them to believe falsely that they 
have full control over the use of their information; and undermining 
the ability of users to avail themselves of the privacy protections 
promised by the company.
    106. The FTC Act empowers and directs the FTC to investigate 
business practices, including data collection practices, that 
constitute consumer harm.\135\ The Commission realizes the importance 
of transparency and clarity in privacy policies. ``Without real 
transparency, consumers cannot make informed decisions about how to 
share their information.'' \136\
---------------------------------------------------------------------------
    \135\ 15 U.S.C. Sec. 45.
    \136\ Remarks of David C. Vladeck, Director, FTC Bureau of Consumer 
Protection, New York University: ``Promoting Consumer Privacy: 
Accountability and Transparency in the Modern World'' (Oct. 2, 2009).
---------------------------------------------------------------------------
    107. The FTC recently found that Sears Holding Management 
Corporations business practices violated the privacy of its 
customers.\137\ The consent order arose from the company's use of 
software to collect and disclose users' online activity to third 
parties, and a misleading privacy policy that did not ``adequately 
[inform consumers as to] the full extent of the information the 
software tracked.'' \138\ The order requires that the company fully, 
clearly, and prominently disclose the ``types of data the software will 
monitor, record, or transmit.'' \139\ Further, the company must 
disclose to consumers whether and how this information will be used by 
third parties.\140\
---------------------------------------------------------------------------
    \137\ In re Sears Holdings Mgmt. Corp., No. C-4264 (2009) (decision 
and order), available at http://www.ftc.gov/os/caselist/0823099/
090604searsdo.pdf.
    \138\ In re Sears Holdings Mgmt. Corp., No. C-4264 (2009) 
(complaint), available at http://www.ftc.gov/os/caselist/0823099/
090604searscmpt.pdf (last visited Sep. 25, 2009).
    \139\ In re Sears Holdings Mgmt. Corp., No. C-4264 (2009) (decision 
and order), available at http://www.ftc.gov/os/caselist/0823099/
090604searsdo.pdf.
    \140\ Id.
---------------------------------------------------------------------------
    108. The Commission has also obtained a consent order against an 
online company for changing its privacy policy in an unfair and 
deceptive manner. In 2004, the FTC charged Gateway Learning Corporation 
with making a material change to its privacy policy, allowing the 
company to share users' information with third parties, without first 
obtaining users' consent.\141\ This was the first enforcement action to 
``challenge deceptive and unfair practices in connection with a 
company's material change to its privacy policy.'' \142\ Gateway 
Learning made representations on the site's privacy policy, stating 
that consumer information would not be sold, rented or loaned to third 
parties.\143\ In violation of these terms, the company began renting 
personal information provided by consumers, including gender, age and 
name, to third parties.\144\ Gateway then revised its privacy policy to 
provide for the renting of consumer information ``from time to time,'' 
applying the policy retroactively.\145\ The settlement bars Gateway 
Learning from, among other things, ``misrepresent[ing] in any manner, 
expressly or by implication . . . the manner in which Respondent will 
collect, use, or disclose personal information.'' \146\
---------------------------------------------------------------------------
    \141\ Press Release, FTC, Gateway Learning Settles FTC Privacy 
Charges (July 7, 2004), http://www.ftc.gov/opa/2004/07/gateway.shtm.
    \142\ Id.
    \143\ In re Gateway Learning Corp., No. C-4120 (2004) (complaint), 
available at http://www.ftc.gov/os/caselist/0423047/
040917comp0423047.pdf.
    \144\ Id.
    \145\ Id.
    \146\ In re Gateway Learning Corp., No. C-4120 (2004) (decision and 
order), available at http://www.ftc.gov/os/caselist/0423047/
040917do0423047.pdf.
---------------------------------------------------------------------------
    109. Furthermore, the FTC has barred deceptive claims about privacy 
and security policies with respect to personally identifiable, or 
sensitive, information.\147\ In 2008, the FTC issued an order 
prohibiting Life is Good, Inc. from ``misrepresent[ing] in any manner, 
expressly or by implication, the extent to which respondents maintain 
and protect the privacy, confidentiality, or integrity of any personal 
information collected from or about consumers.'' \148\ The company had 
represented to its customers, ``we are committed to maintaining our 
customers' privacy,'' when in fact, it did not have secure or adequate 
measures of protecting personal information.\149\ The Commission 
further ordered the company to establish comprehensive privacy 
protection measures in relation to its customers' sensitive 
information.\150\
---------------------------------------------------------------------------
    \147\ In re Life is Good, No. C-4218 (2008) (decision and order), 
available at http://www.ftc.gov/os/caselist/0723046/080418do.pdf.
    \148\ Id.
    \149\ Id.
    \150\Id.
---------------------------------------------------------------------------
Facebook's Revisions to the Privacy Settings Constitute an Unfair and 
        Deceptive Trade Practice
    110. Facebook represented that users ``may not want everyone in the 
world to have the information you share on Facebook,'' and that users 
``have extensive and precise controls available to choose who sees what 
among their network and friends, as well as tools that give them the 
choice to make a limited set of information available to search engines 
and other outside entities.'' \151\
---------------------------------------------------------------------------
    \151\ Testimony of Chris Kelly, Chief Privacy Officer, Facebook, 
Before the U.S. House or Representatives Committee on Energy and 
Commerce Subcommittee on Commerce, Trade, and Consumer Protection 
Subcommittee on Communications, Technology and the Internet (June 18, 
2009), available at http://energycommerce.house.gov/Press_111/20090618/
testimony_kelly.pdf.
---------------------------------------------------------------------------
    111. Facebook's changes to users' privacy settings and associated 
policies in fact categorize as ``publicly available information'' 
users' names, profile photos, lists of friends, pages they are fans of, 
gender, geographic regions, and networks to which they belong.\152\ 
Those categories of user data are no longer subject to users' privacy 
settings.
---------------------------------------------------------------------------
    \152\ Facebook, Privacy Policy, http://www.facebook.com/policy.php 
(last visited Dec. 13, 2009).
---------------------------------------------------------------------------
    112. Facebook represented that its changes to its policy settings 
and associated policies regarding application developers permit users 
to ``opt-out of Facebook Platform and Facebook Connect altogether 
through [their] privacy settings,'' \153\ and tells users, ``you can 
control how you share information with those third-party applications 
and websites through your application settings'' \154\
---------------------------------------------------------------------------
    \153\Id.
    \154\ Id.
---------------------------------------------------------------------------
    113. Facebook's changes to users' privacy settings and associated 
policies regarding application developers in fact eliminate the 
universal one-click option for opting out of Facebook Platform and 
Facebook Connect, and replaces it with a less comprehensive option that 
requires users to provide application developers with personal 
information that users could previously prevent application developers 
from accessing.\155\
---------------------------------------------------------------------------
    \155\ Facebook, Privacy Settings, http://www.facebook.com/settings/
?tab=privacy&section=
applications&field=friends_share (last visited Dec. 13, 2009).
---------------------------------------------------------------------------
    114. Facebook's representations regarding its changes to users' 
privacy settings and associated policies are misleading and fail to 
provide users clear and necessary privacy protections.
    115. Wide opposition by users, commentators, and advocates to the 
changes to Facebook's privacy settings and associated policies 
illustrate that the changes injure Facebook users and harm the public 
interest.
    116. Absent injunctive relief by the Commission, Facebook is likely 
to continue its unfair and deceptive business practices and harm the 
public interest.
    117. Absent injunctive relief by the Commission, the privacy 
safeguards for consumers engaging in online commerce and new social 
network services will be significantly diminished.
VI. Prayer for Investigation and Relief
    118. EPIC requests that the Commission investigate Facebook, enjoin 
its unfair and deceptive business practices, and require Facebook to 
protect the privacy of Facebook users. Specifically, EPIC requests the 
Commission to:

        Compel Facebook to restore its previous privacy settings 
        allowing users to choose whether to publicly disclose personal 
        information, including name, current city, and friends;

        Compel Facebook to restore its previous privacy setting 
        allowing users to fully opt out of revealing information to 
        third-party developers;

        Compel Facebook to make its data collection practices clearer 
        and more comprehensible and to give Facebook users meaningful 
        control over personal information provided by Facebook to 
        advertisers and developers; and

        Provide such other relief as the Commission finds necessary and 
        appropriate.

    119. EPIC reserves the right to supplement this petition as other 
information relevant to this proceeding becomes available.
            Respectfully Submitted,
                                            Marc Rotenberg,
                                            EPIC Executive Director
                                                John Verdi,
                                                EPIC Senior Counsel
                                           Kimberly Nguyen,
                                      EPIC Consumer Privacy Counsel
                                             Jared Kaprove,
                                 EPIC Domestic Surveillance Counsel
                                          Matthew Phillips,
                                    EPIC Appellate Advocacy Counsel
                                             Ginger McCall,
                                     EPIC National Security Counsel

                                  ELECTRONIC PRIVACY INFORMATION CENTER

                                           American Library Association
                                       The Center for Digital Democracy
                                         Consumer Federation of America
                                          FoolProof Financial Education
                                                 Patient Privacy Rights
                                                       Privacy Activism
                                           Privacy Rights Now Coalition
                                       The Privacy Rights Clearinghouse
                                     The U.S. Bill of Rights Foundation

December 17, 2009
                                 ______
                                 
                        Association for Computing Machinery
                                      Washington, DC, April 9, 2018

Hon. John Thune, Chair,
United States Senate,
Comm. on Commerce, Science, and Transportation,
Washington, DC.

Hon. Bill Nelson, Ranking Member,
United States Senate,
Comm. on Commerce, Science, and Transportation,
Washington, DC.

Hon. Charles Grassley, Chair,
United States Senate,
Committee on the Judiciary,
Washington, DC.

Hon. Dianne Feinstein, Ranking Member,
United States Senate,
Committee on the Judiciary,
Washington, DC.

Re: Committee Consideration of Facebook Data Compromises and Related 
            Issues

Dear Senators Grassley, Thune, Feinstein and Nelson:

    ACM, the Association for Computing Machinery, is the world's 
largest and oldest association of computing professionals representing 
approximately 50,000 individuals in the United States and 100,000 
worldwide. Its U.S. Public Policy Council (USACM) is charged with 
providing policy and law makers throughout government with timely, 
substantive and apolitical input on computing technology and the legal 
and social issues to which it gives rise.
    On behalf of USACM, thank you and the Committees for undertaking a 
full and public exploration of the causes, scope, consequences and 
implications of the enormous breaches of privacy and public trust 
resulting from Facebook's and outside parties' use and misuse of vast 
amounts of Facebook users' and millions of others' data. The technical 
experts we represent--including luminaries in computer science, 
engineering and other computing disciplines--stand ready to lend their 
expertise to you and your staffs at any time as the hearing and 
legislative processes progress.
    USACM believes that the issues raised by this incident, and the 
intense scrutiny now appropriately being brought to bear on it, make 
this a watershed moment. The issue and challenge is not merely how to 
address the failings of a single company, but to understand how privacy 
and trust in an era of big data, pervasive networks and socially 
embedded platforms must be addressed in order to promote the public 
interest broadly in our society, including specifically the integrity 
of our democratic institutions.
    As your Committees prepare to convene, USACM offers the following 
broad observations grounded in our technical understanding and 
commitment to the highest ethical standards in our professional 
practice:

  <bullet> It is critical to understand the full scale and consequences 
        of how Facebook's past and present business practices or 
        failures compromised, and may continue to undermine, users' and 
        others' privacy and data security. It is also critical, 
        however, to understand the technology underlying its actions 
        and omissions so that truly effective technical and legal means 
        may be designed to assure the protection of privacy by limiting 
        data collection and sharing, ensuring real user consent and 
        notice, and providing full transparency and accountability to 
        its community members. These and other fundamental principles 
        are detailed in USACM's 2018 Statement on the Importance of 
        Preserving Personal Privacy (attached);

  <bullet> The actions and omissions already confirmed or publicly 
        acknowledged to have occurred by Facebook appear to stem from 
        systemic deficiencies in a range of processes considered 
        essential by computing professionals, including proactive risk 
        assessment and management, as well as protecting security and 
        privacy by design;

  <bullet> Facebook's actions and omissions should be measured against 
        all appropriate ethical standards. The first principle of ACM's 
        long-established Code of Ethics states that, ``An essential aim 
        of computing professionals is to minimize negative consequences 
        of computing systems . . . and ensure that the products of 
        their efforts will be used in socially responsible ways.'' 
        Adhering to broadly accepted social norms the ethical code also 
        requires that computing professionals ``avoid harm to others,'' 
        where harm includes injury, negative consequences, or 
        undesirable loss of information or property.

  <bullet> The present controversy underscores that we are living in an 
        era of mega-scale data sets and once inconceivable 
        computational power. Consequently, the nature, scale, depth and 
        consequences of the data, technical and ethical breaches 
        understood to have occurred thus far in the Facebook case are 
        unlikely to be confined to a single company, technology or 
        industry. That argues strongly for Congress to comprehensively 
        revisit whether the public interest can adequately be protected 
        by current legal definitions of consent, the present scope of 
        Federal enforcement authority, and existing penalties for 
        breach of the public's privacy and trust on a massive scale; 
        and

  <bullet> Size and power are not the only consequential hallmarks of 
        the new information era. Ever more complicated and multiplying 
        synergies between technologies (such as platform architecture, 
        data aggregation, and micro-targeting algorithms) exponentially 
        increase the vulnerability of personal privacy. Similarly 
        increasing complexity in the ways that social media continues 
        to be woven into modern life amplifies the threat. Together 
        these trends make it clear that addressing separate elements of 
        this rapidly changing ecosystem in isolation is no longer a 
        viable means of protecting the public interest. Rather, we urge 
        Congress to consider new and holistic ways of conceptualizing 
        privacy and its protection.

    Thank you again for your work at this pivotal time and for formally 
including this correspondence and the attached Statement in the record 
of your upcoming hearing. USACM looks forward to assisting you and your 
staffs in the future. To arrange a technical briefing, or should you 
have any other questions, please contact ACM's Director of Global 
Public Policy, Adam Eisgrau, at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b6d3dfc5d1c4d7c3f6d7d5db98d9c4d198">[email&#160;protected]</a>
            Sincerely,
                                            Stuart Shapiro,
                                                             Chair.
Attachment
cc: Members of the Senate Commerce and Judiciary Committees
                                 ______
                                 
                               Attachment
                  Association for Computing Machinery (ACM)
                     ACM U.S. Public Policy Council (USACM)
                                                      March 1, 2018
    USACM Statement on the Importance of Preserving Personal Privacy
    USACM believes that the benefits of emerging technologies, such as 
Big Data and the Internet of Things, should and need not come at the 
expense of personal privacy. It is hoped and intended that the 
principles and practices set out in this Statement will provide a basis 
for building data privacy into modern technological systems. USACM 
encourages the development of innovative solutions to achieve these 
goals.
Foundational Privacy Principles and Practices
Fairness
  <bullet> An automated system should not produce an adverse decision 
        about an individual without the individual's full knowledge of 
        the factors that produced that outcome.
Transparency
  <bullet> Provide individuals with clear information about how and by 
        whom their personal data is being collected, how it will be 
        used, how long it will be retained, to whom it may be disclosed 
        and why, how individuals may access and modify their own data, 
        and the process for reporting complaints or updates.

  <bullet> Where feasible, provide these details prior to data 
        collection and creation.

  <bullet> Ensure that communications with individuals (i.e., data 
        subjects) are comprehensible, readable, and straightforward.
Collection Limitation and Minimization
  <bullet> Collect and retain personal data only when strictly 
        necessary to provide the service or product to which the data 
        relates, or to achieve a legitimate societal objective.

  <bullet> Minimize the identifiability of personal data by avoiding 
        the collection of individual-level data when feasible, and 
        taking into account the risk of correlation across data sets to 
        re-identify individuals.
Individual Control
  <bullet> In all circumstances, consent to acquisition and use of an 
        individual's data should be meaningful and fully informed.

  <bullet> Provide individuals with the ability to limit the 
        collection, creation, retention, sharing and transfer of their 
        personal data.

  <bullet> Ensure that individuals are able to prevent personal data 
        obtained for one purpose from being used or made available for 
        other purposes without that person's informed consent.

  <bullet> Provide individuals with the ability to access and correct 
        their personal data.
Data Integrity and Quality
  <bullet> Ensure that personal data, including back-up and copies 
        forwarded to third parties, is sufficiently accurate, current, 
        and complete for the purpose for which it is to be used.

  <bullet> Conduct appropriate data quality assessments.
Data Security
  <bullet> Protect personal data against loss, misuse, unauthorized 
        disclosure, and improper alteration.

  <bullet> Audit access, use, and maintenance of personal data.
Data Retention and Disposal
  <bullet> Establish clear policies with fixed publicly stated 
        retention periods and seek individuals' affirmative consent to 
        retain their data for longer periods.

  <bullet> Store personal data only for as long as needed to serve the 
        stated purpose for its initial collection.

  <bullet> Where feasible, de-identify personal information until 
        properly destroyed.

  <bullet> Implement mechanisms to promptly destroy unneeded or expired 
        personal data, including back-up data and information shared 
        with third parties.
Privacy Enhancement
  <bullet> Promote and implement techniques that minimize or eliminate 
        the collection of personal data.

  <bullet> Promote and implement techniques that ensure compliance with 
        the best privacy practices as they evolve.
Management and Accountability
  <bullet> Ensure compliance with privacy practices through appropriate 
        mechanisms, including independent audits.

  <bullet> Establish and routinely test the capability to address a 
        privacy breach or other incident.

  <bullet> Implement privacy and security training and awareness 
        programs.
Risk Management
  <bullet> Routinely assess privacy risks to individuals across the 
        data life cycle using appropriate risk models.
                                 ______
                                 
                                                  NetChoice
                                      Washington, DC, April 9, 2018
NetChoice Comments for the Record for Joint Senate Judiciary and Senate 
 Committee on Commerce, Science, and Transportation Hearing: Facebook, 
          Social Media Privacy, and the Use and Abuse of Data
    NetChoice respectfully submits the following comments for the 
record regarding the Joint Senate Judiciary and Senate Committee on 
Commerce, Science, and Transportation hearing: Facebook, Social Media 
Privacy, and the Use and Abuse of Data.
    NetChoice is a trade association of leading e-commerce and online 
companies. We work to promote the integrity and availability of the 
global Internet and are significantly engaged in privacy issues in the 
states, in Washington, and in international Internet governance 
organizations.
    Through these comments we seek to clarify the potential harm to 
America's businesses from aggressive laws and regulations on online 
platforms. For example, taking a European approach \1\ on interest-
based ads would cost American businesses $340 billion over the next 
five years. Consumers would also have a worse user experience 
accompanied with less relevant advertising.
---------------------------------------------------------------------------
    \1\ See, European Privacy and Electronic Communications Directive 
2002/58/EC.
---------------------------------------------------------------------------
    Likewise, limitations on large online platforms will impact the 
small and mid-size businesses who rely on the size and scope of these 
platforms to reach customers and grow their business.
    Eliminating interest-based ads by default will cost American 
businesses and make it harder for Americans to access content
    Calls to limit or eliminate interest-based ads by default, like the 
BROWSER Act,\2\ would erase up to $340 billion in advertising revenue 
from American websites over the next five years.\3\ This means 
potentially less content, more ads, and/or more paywalls.
---------------------------------------------------------------------------
    \2\ Balancing the Rights of Web Surfers Equally and Responsibly Act 
of 2017, H. R. 2520 (May 18, 2018).
    \3\ See Analysis at https://netchoice.org/library/loss-of-340-
billion/.
---------------------------------------------------------------------------
    Requiring users to opt-in to interest-based advertising and studies 
have shown that such an opt-in regime reduces online ads' effectiveness 
by 65 percent. This precipitous drop in ad effectiveness means a 
likewise drop in revenue for American businesses and a worse user 
experience.
    There is an old adage:

        ``Half the money spent on advertisements is wasted, I just 
        don't know which half.''

    This quote represents a problem from a by-gone era where only mass-
media advertisements were really possible--think TV commercials, radio 
spots, and newspaper ads. With these ads, the likelihood that the 
viewer is interested in the ad is likely low resulting in inefficient 
advertising expenses.
    Conversely, interest-based ads enable small businesses to better 
spend their limited advertising dollars. Studies have shown that 
interest-based advertisements are 65 percent more effective than 
contextual ads.\4\ Interest-based ads help small businesses show 
potential customers products they actually want and allows small 
businesses to use more money to grow their business and hire new 
employees.
---------------------------------------------------------------------------
    \4\ Goldfarb & Tucker, Privacy Regulation and Online Advertising, 
Univ. Toronto & MIT (Aug-2010)--finding that online ad effectiveness 
fell by 65 percent under the EU opt-in regime covering 3.3 million EU 
citizens.
---------------------------------------------------------------------------
    Taking actions to return to the old-school advertising model will 
fall hard on for small businesses.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    It's not just American businesses that lose with such restrictions, 
but also American consumers visiting websites. Because of $340 billion 
price tag for such advertising restrictions, we'll see one or more of 
these consequences:

  <bullet> Websites will show more ads to make up lost revenue.

  <bullet> Websites will have less to spend on reporters, content, 
        services, and innovation.

  <bullet> Some websites will erect paywalls for content that users get 
        for free today.

    These consequences are bad for American consumers, and especially 
harmful for low-income households that can't afford to pay for online 
services.
America's small businesses and organizations rely on online platforms
    Erasing $340 billion of revenue from American websites hits small 
businesses and small organizations the hardest, since they depend on 
low-cost and effective interest-based advertising to reach new 
customers and engage with existing ones. This connection is especially 
important for small and mid-size businesses who may have neither the 
name recognition nor the funds to afford traditional advertising.
    Think back twenty years ago, when new businesses spread the word 
through expensive broadcast and newspaper advertising and direct mail 
campaigns. This was costly and not particularly effective, since 
advertisers were unable to effectively target viewers and households 
who had an interest in their products.
    But online platforms have revolutionized advertising for small 
businesses and non-profit organizations. Using online platforms, small 
businesses now connect with potential customers at a fraction of the 
cost they would have historically paid.
    National advertising used to be restricted to all but the 
wealthiest companies. Using online platforms, now any business of any 
size can advertise across the country. Of course, the larger the 
platform, the easier it is for America's small businesses to connect 
with those most likely to be interested.
    A recent survey by Morning Consult \5\ found that:
---------------------------------------------------------------------------
    \5\ Examining the Impact of Technology on Small Businesses, 
available at https://www.uscham
ber.com/sites/default/files/ctec_sme-rpt_v3.pdf

  <bullet> 84 percent of small enterprises use at least one major 
---------------------------------------------------------------------------
        digital platform to provide information to customers

  <bullet> 70 percent of small businesses said that Facebook helps them 
        attract new customers

    There are many examples of small businesses leveraging online 
platforms in every part of America.

        All Things Real Estate in Portland, OR

        For a couple of dollars, this small business can reach their 
        target audience with ads. The female-owned business used 
        Facebook to increase sales by 500 percent in less than 10 
        months by connecting with likely customers.

        Owner Tracey Hicks said, ``Many of our customers tell us they 
        saw our ads on Facebook or saw another realtor wearing our 
        products and ask us for the same. If it wasn't for our Facebook 
        ads we wouldn't be as big as we are now.''

        CandyLipz LLC. in San Francisco, CA

        Facing declining revenue, owner Thienna Ho turned to online 
        platforms to help her businesses. As a result, she has grown 
        her business from three to fifteen employees in 15 months.

        Lost Cabin Beer Co. in Rapid City, SD

        Realizing that legacy media was cost-prohibitive and 
        ineffective, this small beverage company leveraged online 
        platforms to find customers and grow their business.

        Sons & Daughters Farm and Winery, West Palm Beach, FL

        Following Hurricane Katrina, this family farm was decimated. 
        Using online platforms, this small family business was able to 
        reinvigorate their wine business and is now also hosting 
        parties and weddings at their farm.

    Platforms also help smaller enterprises to find new employees and 
help job-seekers to find work. Large online platforms like LinkedIn and 
ZipRecruiter rely on their large platforms to quickly connect employers 
with ideal candidates.
    With over 8 million job listings and over 7 million active job 
seekers each month, ZipRecruiter connects 80 percent of employers with 
quality candidates within 24 hours.\6\ Of course, the larger the 
platform, the easier it is for businesses and potential employees to 
connect.
---------------------------------------------------------------------------
    \6\ See, e.g., About Us--Ziprecruiter, https://
www.ziprecruiter.com/about.
---------------------------------------------------------------------------
Online platforms are already subject to hundreds of laws and 
        regulations
    Today, every online platform is subject to multiple laws and 
regulations, including 47 state laws regarding data breaches and over a 
hundred state and Federal privacy laws and regulations.
    Take for example Section 5 of the Federal Trade Commission 
(``FTC'') Act, which prohibits ``unfair or deceptive trade practices.'' 
\7\ This broad enforcement power enables the FTC to take action against 
online platforms that fail to honor their terms-of-service or privacy 
promises.\8\ Likewise, the FTC has used its unfairness enforcement 
power to take action against businesses that fail to adequately protect 
data.\9\
---------------------------------------------------------------------------
    \7\ Federal Trade Commission Act, 15 USC Sec. 45 (``FTC Act''), 
``The Commission is hereby empowered and directed to prevent [use of] 
unfair methods of competition in or affecting commerce and unfair or 
deceptive acts or practices in or affecting commerce.''
    \8\ See, e.g., In the Matter of Nomi Technologies, Inc., Matter No. 
1323251 (Apr. 2015). The FTC found that a technical error in Nomi's 
privacy policy was enough for an enforcement action even though the FTC 
couldn't show a single consumer misunderstood or suffered any harm.
    \9\ See In the Matter of ASUSTeK Computer, Inc., Complaint, FTC 
Dkt. No. C-4587 (July 18, 2016) (company's cloud storage service, 
offered in connection with sale of Internet routers, was allegedly 
insecure).
---------------------------------------------------------------------------
    Moreover, Section 5 of the FTC Act is enforceable by the Federal 
Trade Commission and by every state Attorney General under the ``little 
Section 5'' authority.
    Other laws which regulate online platforms include, the Children's 
Online Privacy Protection Act,\10\ California's Online Privacy 
Protection Act,\11\ California's Privacy Rights for California Minors 
in the Digital World Act,\12\ Delaware's Online and Personal Privacy 
Protection,\13\ and the Pennsylvania Deceptive or fraudulent business 
practices law,\14\ to name a few.
---------------------------------------------------------------------------
    \10\ 15 U.S.C. 6501-6505
    \11\ Calif. Bus. & Prof. Code Sec. Sec. 22575-22578
    \12\ Calif. Bus. & Prof. Code Sec. Sec. 22580-22582
    \13\ Del. Code Sec. 19-7-705
    \14\ 18 Pa. C.S.A. Sec. 4107(a)(10)
---------------------------------------------------------------------------
    Clearly, the suggestion that ``internet platforms are unregulated'' 
is inaccurate.
Role for Government
    The role for government should be where consumers cannot adequately 
act to protect their privacy interests, through choices they alone can 
make. Government should use its powers to pursue online fraud and 
criminal misuse of data, not to create rules that narrowly prescribe 
how data should be used.
    Overall, we support the notion that businesses and customers--not 
governments--must take the lead on data privacy. Businesses need to 
pursue innovation without repeatedly asking for permission from 
government agencies. And consumers must understand the decisions they 
make and must be allowed to make those decisions.
    We offer this conceptual view of an industry self-regulatory 
framework that dynamically adapts to new technologies and services, 
encourages participation, and enhances compliance.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    As seen in the conceptual overview, components of the Privacy Bill 
of Rights form the aspirational core that influences business conduct 
regarding data privacy. From previous work by the FTC, NAI, and IAB, 
we've established the foundational principles for the collection and 
use of personal information: individual control, transparency, respect 
for context, access and accuracy, focused collection, accountability, 
and security.
    Participating companies would publicly attest to implement Codes 
within their business operations, including periodic compliance 
reviews. If a company failed to comply with the adopted Codes, the FTC 
and state Attorneys General could bring enforcement actions, as is 
currently the case when companies fail to honor their adopted privacy 
policies.
    We thank the Joint Committees for giving us the opportunity to 
present our concerns and look forward to further discussions about this 
important topic.
            Sincerely,
                                                Carl Szabo,
                                Vice President and General Counsel,
                                                             NetChoice.
                                 ______
                                 
                                           Public Knowledge
                                     Washington, DC, April 10, 2018

Hon. Chuck Grassley,
Chairman,
Senate Committee on Judiciary,
Washington, DC.

Hon. John Thune,
Chairman,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Dianne Feinstein,
Ranking Member,
Senate Committee on Judiciary,
Washington, DC.

Hon. Bill Nelson,
Ranking Member,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairmen Grassley and Thune and Ranking Members Feinstein and 
            Nelson,

    On behalf of Public Knowledge, a public interest advocacy 
organization dedicated to promoting freedom of expression, an open 
internet, and access to affordable communications tools and creative 
works, we applaud the Senate Committee on the Judiciary and the Senate 
Committee on Commerce, Science, and Transportation for holding a 
hearing on ``Facebook, Social Media Privacy, and the Use and Abuse of 
Data.'' We appreciate the opportunity to submit this letter for the 
record.
    The Facebook disclosures over the last several weeks have been 
unrelenting. First, we learned that an app developer, Aleksandr Kogan, 
funneled personal information about at least 87 million Facebook users 
to Cambridge Analytica, a firm that purported to engage in 
``psychographics'' to influence voters on behalf of the Trump campaign. 
Gallingly, as was Facebook's practice for all apps at that time, when 
users connected Kogan's app to their Facebook accounts, the app scooped 
up not only the users' personal information, but also their friends' 
information--without any notice to the friends or opportunity for the 
friends to consent. We then learned that Facebook had been collecting 
Android users' SMS and call histories. While Android users may have 
technically consented to that data collection, the outrage this news 
provoked strongly suggests that the notice Facebook provided about the 
practice was insufficient to permit users to understand precisely to 
what they were consenting. Last week, we learned that ``malicious 
actors'' used Facebook's search tools to build profiles of individuals 
whose e-mail addresses and phone numbers had been stolen in data 
breaches over the years and posted on the dark web. These profiles 
enabled identity theft.
    But Facebook is hardly unique. In the twenty-first century, it is 
impossible to meaningfully participate in society without sharing our 
personal information with third parties. We increasingly live our lives 
online. We turn to platforms and companies to access education, health 
care, employment, the news, and emergency communications. We shop 
online. When we seek to rent a new apartment, buy a home, open a credit 
card, or, sometimes, apply for a job, someone checks our credit scores 
through companies on the internet. These third party companies and 
platforms should have commensurate obligations to protect our personal 
information, and those obligations must have the force of law. 
Unfortunately, it has become increasingly clear that too many third 
parties fail to live up to this responsibility. Rather, unauthorized 
access to personal data has run rampant--whether it is in the form of 
Cambridge Analytica, where authorized access to data was misused and 
shared in ways that exceeded authorization, or in the form of a data 
breach, where information was accessed in an unauthorized way. Just 
since the Cambridge Analytica news broke, consumers have learned of 
data breaches at Orbitz, Under Armour, Lord and Taylor, Saks Fifth 
Avenue, Saks Off Fifth, Panera Bread, Sears Holding Corp., and Delta 
Airlines.
    We have also learned about purportedly authorized access to data 
that many consumers find unsavory and would likely not consent to, if 
they were clearly and fully informed of the nature of the transaction. 
For example, last week, we learned that Grindr has been sharing its 
users' HIV status with two other companies, Apptimize and Localystics. 
This sharing is almost certainly disclosed in Grindr's terms of 
service, but it is well known that few people read terms of service, 
and there is good reason to believe that had Grindr been upfront about 
this data sharing practices, few of its users would have agreed to it.
    The industry has long insisted that it can regulate itself. 
However, the deluge of data breaches and unauthorized and unsavory use 
of consumer data makes clear that self-regulation is insufficient. 
Indeed, Facebook was already under a consent decree with the Federal 
Trade Commission (FTC), and yet it still failed to protect its users' 
personal information.
    This hearing is a good start to begin addressing corporate 
collection and use of user data in the modern economy. But, a hearing 
alone is not enough. We hope that the Committees will use this hearing 
to build the record for strong, comprehensive privacy legislation. Here 
are three elements that any privacy legislation should include:
Notice and Consent
    Until the digital age, individual ownership and control of one's 
own personal information was the basis for privacy law in the United 
States.\1\ We should return to this principle. While we cannot avoid 
sharing information with some third parties, we can have greater 
control over that information. At a minimum, consumers should have a 
right to know a) what information is being collected and retained about 
them; b) how long that information is being retained; c) for what 
purposes that information is being retained; d) whether the retained 
information is identifiable, pseudo-anonymized, or anonymized; e) 
whether and how that information is being used; f) with whom that 
information is being shared; g) for what purposes that information is 
being shared; h) under what rubric that information is being shared 
(for free, in exchange for compensation, subject to a probable cause 
warrant, etc.); and (i) whether such information is being protected 
with industry recognized best practices.
---------------------------------------------------------------------------
    \1\ Harold Feld, Principles for Privacy Legislation: Putting People 
Back in Control of Their Information 19-20 (Public Knowledge, 2017).
---------------------------------------------------------------------------
    It is imperative that this notice be meaningful and effective, 
which means that it cannot be buried in the fine print of a lengthy 
privacy policy or terms of service agreement. Consumers and companies 
know that consumers do not typically read privacy policies or terms of 
service agreements. Indeed, researchers at Carnegie Mellon estimate 
that it would take seventy-six work days for an individual to read all 
of the privacy policies she encounters in a year.\2\ Companies take 
advantage of this common knowledge to bury provisions that they know 
consumers are unlikely to agree to in the fine print of these 
agreements. While courts have found these agreements to be binding 
contract, there is no reason that Congress cannot undo this presumption 
and insist that notice be provided in a way that consumers can quickly 
read and understand.
---------------------------------------------------------------------------
    \2\ Alexis C. Madrigal, Reading the Privacy Policies you Encounter 
in a Year Would Take 76 Work Days, The Atlantic, Mar. 1, 2012, https://
www.theatlantic.com/technology/archive/2012/03/reading-the-privacy-
policies-you-encounter-in-a-year-would-take-76-work-days/253851/.
---------------------------------------------------------------------------
    Moreover, notice alone is insufficient. Consumers must also have 
meaningful opportunities to freely and affirmatively consent to data 
collection, retention, and sharing. And, that consent should be as 
granular as possible. For example, a user should be able to consent for 
her data to be used for research purposes, but not for targeted 
advertising--or vice-versa. As with notice, the consent must be real 
rather than implied in the fine print of a terms of service. Consumers 
must also have the ability to withdraw their consent if they no longer 
wish for a company to use and retain their personal data, and they 
should be able to port their data in a machine-readable format to 
another service, if they so desire. In addition, service should not be 
contingent on the sharing of data that is not necessary to render the 
service.\3\
---------------------------------------------------------------------------
    \3\ While it may be appropriate for a non-essential service like 
Facebook to charge users a fee in lieu of selling their data, see Alex 
Johnson and Erik Ortiz, Without data-targeted ads, Facebook would look 
like a pay service, Sandberg says, NBC News, Apr. 5, 2018, https://
www.nbcnews.com/tech/social-media/users-would-have-pay-opt-out-all-
facebook-ads-sheryl-n863151, such an approach is unacceptable for 
services that are integral for participation in society. Individuals 
should be able to access health care, education, housing, and other 
essential services without compromising their personal information or 
having to pay extra for their fundamental right to privacy.
---------------------------------------------------------------------------
    The General Data Protection Regulation, which goes into effect in 
Europe in May, will require some kinds of granular notice and consent, 
so companies already have to figure out how to offer their users 
opportunities for meaningful consent. There is no reason for them not 
to offer the same opportunities for meaningful notice and consent in 
the United States.
Security Standards
    Organizations that are stewards of our personal information should 
be expected to adhere to recognized best practices to secure the 
information. This is particularly true when an individual cannot avoid 
sharing the information without foregoing critical services or 
declining to participate in modern society.
    Relatedly, organizations should be required to adhere to privacy by 
design and by default and to practice data minimization. The 
presumption should be that only data necessary for the requested 
transaction will be retained, absent explicit consumer consent. 
Organizations should be encouraged to employ encryption, pseudo-
anonymization, and anonymization to protect consumers' private 
information, and security mechanisms should be regularly evaluated. 
Importantly, these evaluations must be publicly conducted, with the 
government acting as convener of any multi-stakeholder process. 
Facebook/Cambridge Analytica, as well as the cascade of recent data 
breaches, has demonstrated that industry cannot be trusted to police 
itself.
Meaningful Recourse
    When there is unauthorized access to personal information, 
individuals must be made whole to the greatest extent possible. There 
are two major barriers to this. The first is the Federal Arbitration 
Act, which requires courts to honor the forced arbitration clauses in 
contracts, including forced arbitration clauses buried in the fine 
print of terms of service agreements. Forced arbitration clauses 
require consumers to settle any dispute they have with a company by 
arbitration rather than having their day in court--and often consumers 
do not even know an arbitration clause is in their contract until they 
go to sue. This presents three problems: (1) Arbitrators are often more 
sympathetic to large companies, who are repeat players in the 
arbitration system, than most juries would be. (2) Arbitration creates 
no legal precedent. (3) Frequently, it is not cost-effective for an 
individual to bring a claim against a large company by herself. The 
damages she could win likely would not exceed her legal costs. But, 
when customers can band together in a class action lawsuit, it becomes 
much more feasible to bring a case against a large company engaged in 
bad behavior. Forced arbitration clauses preclude class action. 
Congress should explicitly exempt cases addressing the failure to 
protect personal information from the Federal Arbitration Act to make 
sure consumers can have their day in court when their information is 
misused and their trust abused.
    The other major barrier to meaningful recourse is the difficulty 
calculating the damages associated with unauthorized access to personal 
information. While one may be able to quantify her damages when her 
credit card information is breached or her identity is stolen, it is 
much harder to do so in a situation like Facebook/Cambridge Analytica. 
It is difficult to put a dollar amount on having one's privacy 
preferences ignored or her personal information revealed to third 
parties without her knowledge or consent. We instinctively know that 
there is harm in having one's personal data used for ``psychographics'' 
to influence her behavior in the voting booth, but that harm is 
difficult to quantify. Congress already uses liquidated damages in 
other situations when the damage is real, but hard to quantify. In 
fact, liquidated damages are already used to address other privacy 
harms. For example, the Cable Privacy Act provides for liquidated 
damages when cable companies impermissibly share or retain personally 
identifiable information.
    While the FTC can step in when companies engage in unfair and 
deceptive practices, the FTC is likely to only intervene in the most 
egregious cases. Moreover, the FTC can only extract damages from 
companies once they have violated users' privacy once, entered into a 
consent decree with the Agency, and then violated the consent decree. 
That means a lot of consumers have to have their personal information 
abused before a company is held to account. Moreover, when the FTC is 
involved, any damages go to the government, not to making individuals 
whole.
    We are not recommending that the FTC be taken out of the business 
of protecting consumers in the digital age, but merely suggesting that 
consumers should also have the opportunity to protect ourselves. 
Allowing private, class action lawsuits for liquidated damages when 
companies fail to safeguard private information will create the 
necessary incentives for companies to take appropriate precautions to 
protect the information they have been entrusted with. Companies, after 
all, understand the technology and the risks, and are in the best 
position to develop safeguards to protect consumers.
Existing Laws and Legislation
    While we hope that Congress will use this hearing to build the 
record for comprehensive privacy legislation, we encourage Congress to 
enact legislation that is compatible with existing Federal sector-
specific privacy laws in communications, health care, finance, and 
other sectors, as well as with state and local privacy laws. While the 
Federal Government should set minimum standards of protection for all 
Americans, states have been in the vanguard of privacy protection and 
are much-needed ``cops on the beat.'' Even if Congress were to 
dramatically expand the resources available to Federal privacy 
agencies, the Federal Government could not hope to provide adequate 
protection to consumers on its own. Rather, the states, as laboratories 
of democracy, should be empowered to innovate and provide greater 
privacy protections to their residents.
    These sector-specific privacy laws and state privacy laws, as well 
as legislation, introduced in this Congress and in previous Congresses, 
addressing notice and consent, security requirements, data breaches, 
and/or forced arbitration may be good building blocks for comprehensive 
legislation. But, Congress must ensure that the bills are updated to 
address today's harms. For example, many of the bills that have been 
drafted narrowly define personal information to include identifiers 
like first and last name, social security numbers, bank account 
numbers, etc. These bills would not personal cover the personal 
information in question in Facebook/Cambridge Analytica--information 
like social media ``likes'' that is certainly useful for influencing an 
individual in the voting booth, as well as for more mundane marketing 
and advertising purposes, and that, when aggregated, may, in fact, be 
personally identifiable.
Conclusion
    Again, we appreciate the opportunity to submit this letter for the 
record for the Senate Committee on the Judiciary and the Senate 
Committee on Commerce, Science, and Transportation hearing on 
``Facebook, Social Media Privacy, and the Use and Abuse of Data.'' We 
look forward to continuing the conversation and stand ready to assist 
interested Members in crafting consumer privacy protection legislation. 
If you have any questions or would like more information, please do not 
hesitate to reach out to me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3c2c1cccbcee3d3d6c1cfcac0c8cdccd4cfc6c7c4c68dccd1c48d">[email&#160;protected]</a>
            Sincerely,
                                           Allison S. Bohm,
                                                    Policy Counsel,
                                                      Public Knowledge.

CC. Members of the Senate Committee on the Judiciary and the Senate 
Committee on Commerce, Science, and Transportation.

    Chairman Grassley. Senator Whitehouse.

             STATEMENT OF HON. SHELDON WHITEHOUSE, 
                 U.S. SENATOR FROM RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman.
    Mr. Zuckerberg. Thank you. Mr. Chairman, I want to correct 
one thing that I said earlier in response to a question from 
Senator Leahy. He had asked why we did not ban Cambridge 
Analytica at the time when we learned about them in 2015, and I 
answered that what my understanding was was that they were not 
on the platform or not an app developer or advertiser. When I 
went back and met with my team afterwards, they let me know 
that Cambridge Analytica actually did start as an advertiser 
later in 2015, so we could have in theory banned them then. We 
made a mistake by not doing so, but I just wanted to make sure 
that I updated that because I misspoke or got that wrong 
earlier.
    Chairman Grassley. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman. Welcome back, Mr. 
Zuckerberg.
    On the subject of bans, I just wanted to explore a little 
bit what these bans mean. Obviously, Facebook has been done 
considerable reputational damage by its association with 
Aleksandr Kogan and with Cambridge Analytica, which is one of 
the reasons you are having this enjoyable afternoon with us. 
Your testimony says that Aleksandr Kogan's app has been banned. 
Has he also been banned?
    Mr. Zuckerberg. Yes, my understanding is he has.
    Senator Whitehouse. So if he were to open up another 
account under a name and you were able to find it out, that 
would be closed down?
    Mr. Zuckerberg. Senator, I believe we are preventing him 
from building any more apps.
    Senator Whitehouse. Does he have a Facebook account still?
    Mr. Zuckerberg. Senator, I believe the answer to that is 
no, but I can follow up with you afterwards.
    [The information referred to follows:]

    Does Kogan still have an account?
    Kogan's personal accounts have been suspended, as have the personal 
accounts of some Cambridge Analytica officers.

    Senator Whitehouse. OK. And with respect to Cambridge 
Analytica, your testimony is that, first, you would require 
them to formally certify that they had deleted all improperly 
acquired data. Where did that formal certification take place? 
That sounds kind of like a quasi-official thing to formally 
certify. What did that entail?
    Mr. Zuckerberg. Senator, first, they sent us an e-mail 
notice from their chief data officer telling us that they did 
not have any of the data anymore, that they deleted it and were 
not using it, and then later, we followed up with I believe a 
full legal contract where they certified that they had deleted 
the data.
    Senator Whitehouse. In a legal contract?
    Mr. Zuckerberg. Yes, I believe so.
    Senator Whitehouse. OK. And then you ultimately said that 
you have banned Cambridge Analytica. Who exactly is banned? 
What if they opened up Cranston, Rhode Island, Analytica, 
different corporate forum, same enterprise? Would that 
enterprise also be banned?
    Mr. Zuckerberg. Senator, that is certainly the intent. 
Cambridge Analytica actually has a parent company, and we 
banned the parent company, and, recently, we also banned a firm 
called AIQ, which I think is also associated with them. And if 
we find other firms that are associated with them, we will 
block them from the platform as well.
    Senator Whitehouse. Are individual principals, p-a-l-s, 
principals of the firm also banned?
    Mr. Zuckerberg. Senator, my understanding is we are 
blocking them from doing business on the platform, but I do not 
believe that we are blocking people's personal accounts.
    Senator Whitehouse. OK. Can any customer amend your terms 
of service or is the terms of service a take-it-or-leave-it 
proposition for the average customer?
    Mr. Zuckerberg. Senator, I think the terms of service are 
what they are, but the service is really defined by people 
because you get to choose what information you share. You know, 
the whole service is about which friends you connect to, which 
people you choose to----
    Senator Whitehouse. Yes, I guess----
    Mr. Zuckerberg.--connect to----
    Senator Whitehouse.--my question would relate to--Senator 
Graham held up that big fat document. It is easy to put a lot 
of things buried in a document that then later turn out to be 
of consequence, and all I wanted to establish with you is that 
that document that Senator Graham held up, that is not a 
negotiable thing with individual customers? That is a take-it-
or-leave-it proposition for your customers to sign up to or not 
use the service?
    Mr. Zuckerberg. Senator, that is right on the terms of 
service----
    Senator Whitehouse. Yes.
    Mr. Zuckerberg.--although we offer a lot of controls so 
people can configure the experience how they want.
    Senator Whitehouse. So last question on a different subject 
having to do with the authorization process that you are 
undertaking for entities that are putting up political content 
or so-called issue ad content. You said that they will have to 
go through an authorization process before they do it. You 
said, ``Here, we will be verifying the identity.'' How do you 
look behind a shell corporation and find who is really behind 
it through your authorization process? Well, step back. Do you 
need to look behind shell corporations in order to find out who 
is really behind the content that is being posted? And if you 
may need to look behind a shell corporation, how will you go 
about doing that? How will you get back to the true what 
lawyers would call beneficial owner of the site that is putting 
out the political material?
    Mr. Zuckerberg. Senator, are you referring to the 
verification of political and issue ads?
    Senator Whitehouse. Yes, and before that, political ads, 
yes.
    Mr. Zuckerberg. Yes. So what we are going to do is require 
a valid government identity, and we are going to verify the 
location. So we are going to do that so that way someone 
sitting in Russia, for example, could not say that they are in 
America and therefore able to run an election ad.
    Senator Whitehouse. But if they were running through a 
corporation domiciled in Delaware, you would not know that they 
were actually a Russian owner?
    Mr. Zuckerberg. Senator, that is correct.
    Senator Whitehouse. OK. Thank you. My time is expired, and 
I appreciate the courtesy of the chair for the extra seconds.
    Thank you, Mr. Zuckerberg.
    Chairman Grassley. Senator Lee.

                  STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee. Thank you, Mr. Chairman.
    Mr. Zuckerberg, I wanted to follow up on a statement that 
you made shortly before the break just a few minutes ago. You 
said that there are some categories of speech, some types of 
content that Facebook would never want to have any part of and 
it takes active steps to avoid disseminating, putting hate 
speech, nudity, racist speech. I assume you also meant 
terrorist acts, threats of physical violence, things like that. 
Beyond that, would you agree that Facebook ought not be putting 
its thumb on the scale with regard to the content of speech, 
assuming it fits out of one of those categories that is 
prohibited?
    Mr. Zuckerberg. Senator, yes. There are generally two 
categories of content that we are very worried about. One are 
things that could cause real-world harm, so terrorism certainly 
fits into that, self-harm fits into that. I would consider 
election interference to fit into that. And those are the types 
of things that we--I do not really consider there to be much 
discussion around whether those are good or bad topics.
    Senator Lee. Sure. Yes, and I am not disputing that. What I 
am asking is once you get beyond those categories of things 
that are prohibited and should be, is it Facebook's position 
that it should not be putting its thumb on the scale? It should 
not be favoring or disfavoring speech based on its content 
based on the viewpoint of that speech?
    Mr. Zuckerberg. Senator, in general that is our position. 
One of the things that is really important, though, is that in 
order to create a service where everyone has a voice, we also 
need to make sure that people are not bullied or basically 
intimidated or the environment feels unsafe for them.
    Senator Lee. OK. So when you say in general, that is the 
exception that you are referring to, the exception being that 
if someone feels bullied, even if it is not a terrorist act, 
nudity, terrorist threats, racist speech, or something like 
that, you might step in there. Beyond that, would you step in 
and put your thumb on the scale as far as the viewpoint of the 
content being posted?
    Mr. Zuckerberg. Senator, no. I mean, in general, our goal 
is to allow people to have as much expression as possible.
    Senator Lee. OK. So subject to the exceptions we have 
discussed you would stay out of that.
    Let me ask you this: Is there not a significant free market 
incentive that a social media company, including yours, has in 
order to safeguard the data of their users? Do you not have 
free market incentives in that respect?
    Mr. Zuckerberg. Yes. Senator, yes.
    Senator Lee. Do your interests not align with those of us 
here who want to see data safeguarded?
    Mr. Zuckerberg. Absolutely.
    Senator Lee. Do you have the technological means available 
at your disposal to make sure that that does not happen and to 
protect, say, an app developer from transferring Facebook data 
to a third party?
    Mr. Zuckerberg. Senator, a lot of that we do, and some of 
that happens outside of our systems and will require new 
measures. So, for example, what we saw here was people chose to 
share information with an app developer. That worked according 
to how the system was designed. That information was then 
transferred out of our system to servers that this developer 
Aleksandr Kogan had, and then that person chose to then go sell 
the data to Cambridge Analytica. That is going to require much 
more active intervention and auditing from us to prevent going 
forward because, once it is out of our system, it is a lot 
harder for us to have a full understanding of what is 
happening.
    Senator Lee. From what you have said today and from 
previous statements made by you and other officials at your 
company, data is at the center of your business model. It is 
how you make money. Your ability to run your business 
effectively, given that you do not charge your users, is based 
on monetizing data. And so the real issue it seems to me really 
comes down to what you tell the public, what you tell users of 
Facebook about what you are going to do with the data, about 
how you are going to use it. Can you give me a couple of 
examples, maybe two examples of ways in which data is collected 
by Facebook in a way that people are not aware of, two examples 
of types of data that Facebook collects that might be 
surprising to Facebook users?
    Mr. Zuckerberg. Well, Senator, I would hope that what we do 
with data is not surprising to people.
    Senator Lee. And has it been at times?
    Mr. Zuckerberg. Well, Senator, I think in this case people 
certainly did not expect this developer to sell the data to 
Cambridge Analytica. In general, there are two types of data 
that Facebook has. The vast majority of them in the first 
category is content that people chose to share on the service 
themselves, so that is all the photos that you share, the posts 
that you make, what you think of as the Facebook service, 
right? Everyone has control every single time that they go to 
share that. They can delete that data anytime they want, full 
control of the majority of the data.
    The second category is around specific data that we collect 
in order to make the advertising experiences better and more 
relevant and work for businesses. And those often revolve 
around measuring--OK, if we showed you an ad and then you click 
through and you go somewhere else, we can measure that you 
actually--that the ad worked. That helps make the experience 
more relevant and better for people who are getting more 
relevant ads and better for the businesses because they perform 
better.
    You also have control completely of that second type of 
data. You can turn off the ability for Facebook to collect 
that. Your ads will get worse, so a lot of people do not want 
to do that. But you have complete control over what you do 
there as well.
    Chairman Grassley. Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Mr. Chairman.
    I want to follow up on the questions around the terms of 
service. Your terms of service are about 3,200 words with 30 
links. One of the links is to your data policy, which is about 
2,700 words with 22 links. And I think the point has been well 
made that people really have no earthly idea what they are 
signing up for. And I understand that at the present time that 
is legally binding, but I am wondering if you can explain to 
the billions of users in plain language, what are they signing 
up for?
    Mr. Zuckerberg. Senator, that is a good and important 
question here. In general, you know, you sign up for the 
Facebook, you get the ability to share the information that you 
want with people. That is what the service is, right, is that 
you can connect with the people that you want and you can share 
whatever content matters to you, whether that is photos or 
links or posts, and you get control over who you share it with, 
you can take it down if you want, and you do not need to put 
anything up in the first place if you do not want.
    Senator Schatz. What about the part that people are worried 
about, not the fun part?
    Mr. Zuckerberg. Well, what is that?
    Senator Schatz. The part that people are worried about is 
that the data is going to be improperly used, so people are 
trying to figure out are your DMs informing the ads? Are your 
browsing habits being collected? Everybody kind of understands 
that when you click ``like'' on something or if you say you 
like a certain movie or have a particular political proclivity, 
I think that is fair game. Everybody understands that. What we 
do not understand exactly because--both as a matter of practice 
and as a matter of not being able to decipher those terms of 
service and the privacy policy is what exactly are you doing 
with the data, and do you draw a distinction between data 
collected in the process of utilizing the platform and that 
which we clearly volunteer to the public to present ourselves 
to other Facebook users?
    Mr. Zuckerberg. Senator, I am not sure I fully understand 
this. In general, people come to Facebook to share content with 
other people. We use that in order to also inform how we rank 
services like newsfeed and ads to provide more relevant 
experiences----
    Senator Schatz. Let me try a couple of specific examples. 
If I am e-mailing within WhatsApp, does that ever inform your 
advertisers?
    Mr. Zuckerberg. No, we do not see any of the content in 
WhatsApp; it is fully encrypted.
    Senator Schatz. Right, but is there some algorithm that 
spits out some information to your ad platform and then let us 
say I am e-mailing about Black Panther within WhatsApp. Do I 
get a Black Panther banner ad?
    Mr. Zuckerberg. Senator, Facebook systems do not see the 
content of messages being transferred over WhatsApp.
    Senator Schatz. Yes, I know, but that is not what I am 
asking. I am asking about whether these systems talk to each 
other without a human being touching them?
    Mr. Zuckerberg. Senator, I think the answer to your 
specific question is if you message someone about Black Panther 
in WhatsApp, it would not inform any ads.
    Senator Schatz. OK. I want to follow up on Senator Nelson's 
original question, which is the question of ownership of the 
data. And I understand as a sort of matter of principle you are 
saying, you know, we want our customers to have a more rather 
than less control over their data, but I cannot imagine that it 
is true as a legal matter that I actually own my Facebook data 
because you are the one monetizing it. Do you want to modify 
that to sort of express that as a statement of principle, a 
sort of aspirational goal? But it does not seem to me that we 
own our own data. Otherwise, we would be getting a cut.
    Mr. Zuckerberg. Well, Senator, you own it in the sense that 
you choose to put it there. You can take it down anytime, and 
you completely control the terms under which it is used. When 
you put it on Facebook, you are granting us a license to be 
able to show it to other people. I mean, that is necessary in 
order for the service to operate.
    Senator Schatz. Right, so your definition of ownership is I 
sign up, I voluntarily--and I may delete my account if I wish, 
but that is basically it?
    Mr. Zuckerberg. Well, Senator, I think that the control is 
much more granular than that. You can choose each photo that 
you want to put up or each message, and you can delete those. 
And you do not need to delete your whole account. You have 
specific control. You can share different posts with different 
people.
    Senator Schatz. In the time I have left, I want to propose 
something to you and take it for the record. I read an 
interesting article this week by Professor Jack Balkin at Yale 
that proposes a concept of an information fiduciary. People 
think of fiduciaries as responsible primarily in the economic 
sense, but this is really about a trust relationship like 
doctors and lawyers. Tech companies should hold in trust our 
personal data. Are you open to the idea of an information 
fiduciary enshrined in statue?
    Mr. Zuckerberg. Senator, I think it is certainly an 
interesting idea, and Jack is very thoughtful in this space, so 
I do think it deserves consideration.
    Senator Schatz. Thank you.
    Chairman Grassley. Senator Fischer.

                STATEMENT OF HON. DEB FISCHER, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Fischer. Thank you, Mr. Chairman.
    Thank you, Mr. Zuckerberg, for being here today. I 
appreciate your testimony.
    The full scope of a Facebook user's activity can paint a 
very personal picture. Additionally, you have 2 billion users 
every month--larger than the population of any country. So how 
many different data categories on each user does Facebook 
store, for the categories that you collect?
    Mr. Zuckerberg. Senator, can you clarify what you mean by 
data categories?
    Senator Fischer. Well, there are some past media reports 
that indicated that Facebook collects over 96 data categories 
for each of those 2 billion active users. Based on that 
estimate, that would be more than 192 billion data points that 
are being generated at any time from consumers globally. How 
many data points does Facebook store out of that, of what it 
tracks? Do you store any?
    Mr. Zuckerberg. Senator, I am not actually sure what that 
is referring to.
    Senator Fischer. Of the data points that you collect 
information, if we call those categories, how many do you 
store?
    Mr. Zuckerberg. Senator, the way I think about this is 
there are two broad categories. This probably does not line up 
with whatever the specific report that you are seeing is, and I 
can make sure that we follow up with you afterwards to get you 
the information you need on that.
    [The information referred to follows:]

    There have been some past reports that indicate that Facebook 
collects about 98 data categories. For those two billion active users. 
That's 192 billion data points that are being generated. I think at any 
time. From consumers globally. Do you store any?
    Your question likely references a Washington Post article that 
purported to identify ``98 data points that Facebook uses to target ads 
to you.'' The article was based on the writer's use of the tool that 
allows advertisers to select the audience that they want to see their 
ads. Anyone on Facebook can see the tool and browse the different 
audiences that advertisers can select.
    The ``data points'' to which the article refers are not categories 
of information that we collect from everyone on Facebook. Rather, they 
reflect audiences into which at least some people on Facebook fall, 
based on the information they have provided and their activity. For 
example, the article lists ``field of study'' and ``employer'' as two 
of the ``data points'' that can be used to show ads to people. People 
can choose to provide information about their field of study and their 
employer in profile fields, and those who do may be eligible to see ads 
based on that information--unless they have used the controls in Ad 
Preferences that enable people to opt out of seeing ads based on that 
information. The same is true of the other items in the list of 98.
    Further, the specific number of categories that are used to decide 
what ads a person will see vary from person to person, depending on the 
interests and information that they have shared on Facebook, how 
frequently they interact with ads and other content on Facebook, and 
other factors. Any person can see each of the specific interests we 
maintain about them for advertising by visiting Ads Preferences, which 
lets people see what interests we use to choose ads for them--and to 
edit or delete these interests. We also provide more detailed 
information about how we use data to decide what ads to show to people 
in our ``About Facebook Ads'' page, at https://www.facebook.com/ads/
about.
    Please note, however, that (as the article explains) many of these 
refer to ``Partner Categories''--audiences that are offered by third-
party data providers. We announced in April that we would stop offering 
this kind of targeting later this year.
    Please also see our letter to you dated April 27, 2018.

    Mr. Zuckerberg. The two broad categories that I think about 
are content that a person has chosen to share and that they 
have complete control over, they get to control when they put 
it into the service, when they take it down, who sees it, and 
then the other category are data that are connected to making 
the ads relevant. You have complete control over both. You can 
turn off the data related to ads.
    Senator Fischer. You?
    Mr. Zuckerberg. You can choose not to share any content or 
control exactly who sees it or take down the content in the 
former category.
    Senator Fischer. And does Facebook store any of that?
    Mr. Zuckerberg. Yes.
    Senator Fischer. How much do you store of that? Is 
everything we click on, is that stored data?
    Mr. Zuckerberg. Senator, we store data about what people 
share on the service and information that is required to do 
ranking better, to show you what you care about in newsfeed.
    Senator Fischer. Do you store text history, user content, 
activity, and device location?
    Mr. Zuckerberg. Senator, some of that content, with 
people's permission, we do store.
    Senator Fischer. Do you disclose any of that?
    Mr. Zuckerberg. Yes. Senator, in order for people to share 
the information with Facebook, I believe that almost everything 
you just said would be opt-in.
    Senator Fischer. All right. And the privacy settings, it is 
my understanding that they limit the sharing of that data with 
other Facebook users, is that correct?
    Mr. Zuckerberg. Senator, yes.
    Senator Fischer. OK.
    Mr. Zuckerberg. Every person gets to control who gets to 
see their content.
    Senator Fischer. And does that also limit the ability for 
Facebook to collect and use it?
    Mr. Zuckerberg. Senator, yes, there are other--there are 
controls that determine what Facebook can do as well. So, for 
example, people have control about face recognition. If people 
do not want us to be able to help identify when they are in 
photos that their friends upload, they can turn that off----
    Senator Fischer. Right.
    Mr. Zuckerberg.--and then we will not store that kind of 
template for them.
    Senator Fischer. There was some action taken by the FTC in 
2011, and you wrote a Facebook post at the time that it used to 
seem scary to people to have a public page on the internet. 
But, as long as they could make their page private, they felt 
safe sharing with their friends online. Control was key. And 
you just mentioned control. Senator Hatch asked you a question, 
and you responded about having complete control. You and your 
company have used that term repeatedly, and you use it to 
reassure users. Is that correct, that you do have control and 
complete control over this information?
    Mr. Zuckerberg. Well, Senator, this is how the service 
works. I mean, the core thing that Facebook is, and all of our 
services, WhatsApp----
    Senator Fischer. Correct.
    Mr. Zuckerberg.--Instagram, Messenger.
    Senator Fischer. So is this then a question of Facebook 
users feeling safe, or are users actually safe? Is Facebook 
being safe?
    Mr. Zuckerberg. Senator, I think Facebook is safe. I use it 
and my family use it and all the people I love and care about 
use it all the time. These controls are not just to make people 
feel safe; it is actually what people want in the product. The 
reality is is that when you--I mean, just think about how you 
use this yourself. You do not want to share--if you take a 
photo, you are not always going to send that to the same 
people. Sometimes, you are going to want to text it to one 
person; sometimes, you might send it to a group.
    But you have a page. You will probably want to put some 
stuff out there publicly so you can communicate with your 
constituents. There are all these different groups of people 
that someone might want to connect with, and those controls are 
very important in practice for the operation of the service not 
just to build trust, although I think that providing people 
with control also does that, but actually in order to make it 
so that people can fulfill their goals of the service.
    Chairman Grassley. Senator Coons.
    Senator Fischer. Thank you.

             STATEMENT OF HON. CHRISTOPHER COONS, 
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Thank you, Chairman Grassley.
    Thank you, Mr. Zuckerberg, for joining us today.
    I think the whole reason we are having this hearing is 
because of a tension between two basic principles you have laid 
out. First, you have said about the data that users post on 
Facebook you control and own the data that you put on Facebook. 
You said some very positive, optimistic things about privacy 
and data ownership. But it is also the reality that Facebook is 
a for-profit entity that generated $40 billion in ad revenue 
last year by targeting ads. In fact, Facebook claims that 
advertising makes it easy to find the right people, capture 
their attention, and get results, and you recognize that an ad-
supported service is, as you said earlier today, best aligned 
with your mission and values.
    But the reality is there are a lot of examples where ad 
targeting has led to results that I think we would all disagree 
with or dislike or would concern us. You have already admitted 
that Facebook's own ad tools allowed Russians to target users, 
voters based on racist or anti-Muslim or anti-immigrant views, 
and that that may have played a significant role in an election 
here in the United States.
    Just today, TIME Magazine posted a story saying that 
wildlife traffickers are continuing to use Facebook tools to 
advertise illegal sales of protected animal parts, and I am 
left questioning whether your ad-targeting tools would allow 
other concerning practices like diet-pill manufacturers 
targeting teenagers who are struggling with their weight or 
allowing a liquor distributor to target alcoholics or a 
gambling organization to target those with gambling problems.
    I will give you one concrete example I am sure you are 
familiar with. ProPublica back in 2016 highlighted that 
Facebook lets advertisers exclude users by race in real estate 
advertising. There was a way that you could say that this 
particular ad I only want to be seen by white folks, not by 
people of color, and that clearly violates fair housing laws 
and our basic sense of fairness in the United States.
    And you promptly announced that that was a bad idea; you 
were going to change the tools and that you would build a new 
system to spot and reject discriminatory ads that violate our 
commitment to fair housing, and yet a year later, a follow-up 
story by ProPublica said that those changes had not fully been 
made and it was still possible to target housing advertisement 
in a way that was racially discriminatory. And my concern is 
that this practice of making bold and engaging promises about 
changes in practices and then the reality of how Facebook has 
operated in the real world are in persistent tension.
    Several different Senators have asked earlier today about 
the 2011 FTC Consent Decree that required Facebook to better 
protect users' privacy, and there are a whole series of 
examples where there have been things brought to your attention 
where Facebook has apologized and has said we are going to 
change our practices and our policies, and yet there does not 
seem to have been as much follow up as would be called for. At 
the end of the day, policies are not worth the paper they are 
written on if Facebook does not enforce them.
    And I will close with a question that is really rooted in 
an experience I had today as an avid Facebook user. I woke up 
this morning and was notified by a whole group of friends 
across the country asking if I had a new family or if there was 
a fake Facebook post of Chris Coons. I went to the one they 
suggested--it had a different middle initial than mine--and 
there is my picture with Senator Dan Sullivan's family, same 
schools I went to but a whole lot of Russian friends. Dan 
Sullivan has got a very attractive family by the way.
    [Laughter.]
    Senator Sullivan. Keep that for the record there, Mr. 
Chairman.
    [Laughter.]
    Senator Coons. The friends who brought this to my attention 
included people I went to law school with in Hawaii and our own 
Attorney General in the state of Delaware. And, fortunately, I 
have got, you know, great folks who work in my office. I 
brought it to their attention. They pushed Facebook, and it was 
taken down by midday.
    But I am left worried about what happens to Delawareans who 
do not have these resources. It is still possible to find 
Russian trolls operating on the platform. Hate groups thrive in 
some areas of Facebook even though your policies prohibit hate 
speech, and you have taken strong steps against extremism and 
terrorists.
    But is a Delawarean who is not in the Senate going to get 
the same sort of quick response? I have already gotten input 
from other friends who say they have had trouble getting a 
positive response when they have brought to Facebook's 
attention a page that is frankly clearly violate of your basic 
principles. My core question is, is it not Facebook's job to 
better protect its users? And why do you shift the burden to 
users to flag inappropriate content and make sure it is taken 
down?
    Mr. Zuckerberg. Senator, there are a number of important 
points in there, and I think it is clear that this is an area, 
content policy enforcement, that we need to do a lot better on 
over time. The history of how we got here is we started off in 
my dorm room with not a lot of resources and not having the AI 
technology to be able to proactively identify a lot of this 
stuff. So just because of the sheer volume of content, the main 
way that this works today is that people report things to us, 
and then we have our team review that. And, as I said before, 
by the end of this year, we are going to have more than 20,000 
people at the company working on security and content review 
because this is important.
    Over time, we are going to shift increasingly to a method 
where more of this content is flagged upfront by AI tools that 
we develop. We have prioritized the most important types of 
content that we can build AI tools for today like terror-
related content where I mentioned earlier that our systems that 
we deploy we are taking down 99 percent of the ISIS and al-
Qaida-related content that we take down before a person even 
flags them to us.
    If we fast-forward 5 or 10 years, I think we are going to 
have more AI technology that can do that in more areas, and I 
think we need to get there as soon as possible, which is why we 
are investing in them.
    Chairman Grassley. Senator Sasse.
    Senator Coons. I could not agree more. I just think we 
cannot wait 5 years to get----
    Chairman Grassley. Senator----
    Senator Coons.--housing discrimination and personally 
offensive material out of Facebook. Thank you, Mr. Chairman.
    Mr. Zuckerberg. I agree.
    Chairman Grassley. Senator Sasse.

                 STATEMENT OF HON. BEN SASSE, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Sasse. Thank you, Mr. Chairman.
    Mr. Zuckerberg, thanks for being here. At current pace, you 
are due to be done with first round of questioning by about 1 
a.m., so congratulations.
    I like Chris Coons a lot with his own family or with Dan 
Sullivan's family. Both are great photos. But I want to ask a 
similar set of questions from the other side maybe.
    I think the conceptual line between mere tech company, mere 
tools and an actual content company, I think it is really hard. 
I think you guys have a hard challenge. I think regulation over 
time will have a hard challenge. And you are a private company 
so you can make policies that may be less than First Amendment 
full-spirit embracing in my view, but I worry about that. I 
worry about a world where when you go from violent groups to 
hate speech in a hurry--in one of your responses to one of the 
opening questions you may decide or Facebook may decide it 
needs to police a whole bunch of speech that I think America 
might be better off not having policed by one company that has 
a really big and powerful platform. Can you define hate speech?
    Mr. Zuckerberg. Senator, I think that this is a really hard 
question, and I think it is one of the reasons why we struggle 
with it. There are certain definitions that we have around, you 
know, calling for violence or----
    Senator Sasse. Let us just agree on that. If someone is----
    Mr. Zuckerberg. Yes.
    Senator Sasse.--calling for violence, that should not be 
there. I am worried about the psychological categories around 
speech. You used language of safety and protection earlier. We 
see this happening on college campuses all across the country. 
It is dangerous. Forty percent of Americans under age 35 tell 
pollsters they think the First Amendment is dangerous because 
you might use your freedom to say something that hurts somebody 
else's feelings. Guess what, there are some really passionately 
held views about the abortion issue on this panel today. Can 
you imagine a world where you might decide that pro-lifers are 
prohibited from speaking about their abortion views on your 
platform?
    Mr. Zuckerberg. I certainly would not want that to be the 
case.
    Senator Sasse. But it might really be unsettling to people 
who have had an abortion to have an open debate about that, 
would it not?
    Mr. Zuckerberg. It might be, but I do not think that that 
would fit any of the definitions of what we have. But I do 
generally agree with the point that you are making, which is, 
as we are able to technologically shift toward especially 
having AI, proactively look at content, I think that that is 
going to create massive questions for society about what 
obligations we want to require companies to fulfill. And I do 
think that that is a question that we need to struggle with as 
a country because I know other countries are, and they are 
putting laws in place. And I think that America needs to figure 
out and create the set of principles that we want American 
companies to operate under.
    Senator Sasse. Thanks. I would not want you to leave here 
today and think there is sort of a unified view in the Congress 
that you should be moving toward policing more and more and 
more speech. I think violence has no place on your platform. 
Sex traffickers and human traffickers have no place on your 
platform. But vigorous debates, adults need to engage in 
vigorous debates.
    I have only a little less than 2 minutes left, so I want to 
shift gears a little bit, but that was about adults. You are a 
dad. I would like to talk a little bit about social media 
addiction. You started your comments today by talking about how 
Facebook is and was founded as an optimistic company. You and I 
have had conversations separate from here. I do not want to put 
words in your mouth, but I think, as you have aged, you might 
be a little bit less idealistic and optimistic than you were 
when you started Facebook. As a dad, do you worry about social 
media addiction as a problem for America's teens?
    Mr. Zuckerberg. Well, my hope is is that we can be 
idealistic but have a broad view of our responsibility. To your 
point about teens, this is certainly something that I think any 
parent thinks about is how much do you want your kids using 
technology. At Facebook specifically, I view our responsibility 
as not just building services that people like but building 
services that are good for people and good for society as well. 
So we study a lot of effects of well-being of our tools and 
broader technology, and, you know, like any tool, there are 
good and bad uses of it.
    What we find in general is that if you are using social 
media in order to build relationships, right, so you are 
sharing content with friends, you are interacting, then that is 
associated with all of the long-term measures of well-being 
that you would intuitively think of, long-term health, long-
term happiness, long-term feeling connected, feeling less 
lonely. But if you are using the Internet and social media 
primarily to just passively consume content and you are not 
engaging with other people, then it does not have those 
positive effects and it could be negative.
    Senator Sasse. We are almost at time, so I want to ask you 
one more. Do social media companies hire consulting firms to 
help them figure out how to get more dopamine feedback loops so 
that people do not want to leave the platform?
    Mr. Zuckerberg. No, Senator, that is not how we talk about 
this or how we set up our product teams. We want our products 
to be valuable to people, and if they are valuable, then people 
choose to use them.
    Senator Sasse. Are you aware that there are social media 
companies that do hire such consultants?
    Mr. Zuckerberg. Not sitting here today.
    Senator Sasse. Thanks.
    Chairman Grassley. Senator Markey.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman.
    In response to Senator Blumenthal's pointed questions, you 
refused to answer whether Facebook should be required by law to 
obtain clear permission from users before selling or sharing 
their personal information. So I am going to ask it one more 
time. Yes or no, should Facebook get clear permission from 
users before selling or sharing sensitive information about 
your health, your finances, your relationships? Should you have 
to get their permission? That is essentially the consent decree 
with the Federal Trade Commission that you signed in 2011. 
Should you have to get permission? Should the consumer have to 
opt in?
    Mr. Zuckerberg. Senator, we do require permission to use 
the system and to put information in there and for all the uses 
of it. I want to be clear; we do not sell information, so 
regardless of whether we could get permission to do that, that 
is just not a thing that we are going to go do.
    Senator Markey. So would you support legislation--I have a 
bill--Senator Blumenthal referred to it--the CONSENT Act that 
would just put on the books a law that said that Facebook and 
any other company that gathers information about Americans has 
to get their permission, their affirmative permission before it 
can be re-used for other purposes? Would you support that 
legislation to make it a national standard for not just 
Facebook but for all the other companies out there, some of 
them bad actors? Would you support that legislation?
    Mr. Zuckerberg. Senator, in general I think that that 
principle is exactly right, and I think we should have a 
discussion around how to best codify that.
    Senator Markey. No, would you support legislation to back 
that general principle, that opt-in, that getting permission is 
the standard? Would you support legislation to make that the 
American standard? Europeans have passed that as a law. 
Facebook is going to live with that law beginning on May 25. 
Would you support that as the law in the United States?
    Mr. Zuckerberg. Senator, as a principle, yes, I would. I 
think the details matter a lot, and----
    Senator Markey. Right, but assuming that we work out the 
details, you do support opt-in as the standard, getting 
permission affirmatively as the standard for the United States? 
Is that correct?
    Mr. Zuckerberg. Senator, I think that that is the right 
principle, and 100 billion times a day in our services when 
people go to share content, they choose who they want to share 
it with affirmatively.
    Senator Markey. So you could support a law that enshrines 
that as the promise that we make to the American people that 
permission has to be obtained before that information is used, 
is that correct?
    Mr. Zuckerberg. Senator, yes.
    Senator Markey. OK.
    Mr. Zuckerberg. I have said that in principle I think that 
that makes sense----
    Senator Markey. OK.
    Mr. Zuckerberg.--and the details matter, and I look forward 
to having our team work with you on fleshing that out.
    Senator Markey. Great. So the next subject, because I want 
to--again, I want to make sure that we kind of drill down here. 
You earlier made reference to the Child Online Privacy 
Protection Act of 1999, of which I am the author, so that is 
the constitution for child privacy protection online in the 
country, and I am very proud of that. But there are no 
protections additionally for a 13-, a 
14-, or a 15-year-old. They get the same protections that a 30-
year-old or a 50-year-old get.
    So I have a separate piece of legislation to ensure that 
kids who are under 16 absolutely have a privacy bill of rights 
and that permission has to be received from their parents or 
the children before any of their information is re-used for any 
other purpose other than that which was originally intended. 
Would you support a child online privacy bill of rights for 
kids under 16 to guarantee that that information is not reused 
for any other purpose without explicit permission from the 
parents or the kids?
    Mr. Zuckerberg. Senator, I think the--as a general 
principle, I think protecting minors and protecting their 
privacy is extremely important, and we do a number of things on 
Facebook to do that already, which I am happy to----
    Senator Markey. And I appreciate that. I am talking about a 
law. I am talking about a law. Would you support a law to 
ensure that kids under 16 have this privacy bill of rights? I 
had this conversation with you in your office seven years ago 
about this specific subject in Palo Alto, and I think that is 
really what the American people want to know right now. What 
are the protections that are going to be put on the books for 
their families but especially for their children? Would you 
support a privacy bill of rights for kids where opt-in is the 
standard, yes or no?
    Mr. Zuckerberg. Senator, I think that that is an important 
principle, and I think----
    Senator Markey. I appreciate that.
    Mr. Zuckerberg.--we should----
    Senator Markey. Do we need a law to protect those children? 
That is my question to you. Do you believe we need a law to do 
so, yes or no?
    Mr. Zuckerberg. Senator, I am not sure if we need a law, 
but I think that this is--it is certainly a thing that deserves 
a lot of discussion.
    Senator Markey. And, again, I could not disagree with you 
more. We are leaving these children to the most rapacious 
commercial predators in the country who will exploit these 
children unless we absolutely have a law on the books, and I 
think that it is----
    Chairman Grassley. Senator----
    Senator Markey.--absolutely imperative----
    Chairman Grassley. Please give a short answer.
    Mr. Zuckerberg. Senator, I look forward to having my team 
follow up to flesh out the details of it.
    [The information referred to follows:]

    Do you support a kids' privacy bill of rights where opt-in is the 
standard?
    Facebook is generally not opposed to regulation but wants to ensure 
it is the right regulation. The issues facing the industry are complex, 
multi-faceted, and affect an important part of peoples' lives. As such, 
Facebook is absolutely committed to working with regulators, like 
Congress, to craft the right regulations. Facebook would be happy to 
review any proposed legislation and provide comments.

    Senator Markey. I do not think----
    Chairman Grassley. Senator Flake.
    Senator Markey.--to get a correct answer.

                 STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. Thank you, Mr. Chairman.
    Thank you, Mr. Zuckerberg. Thanks for enduring so far, and 
I am sorry if I plow old ground. I had to be away for a bit.
    Myself and Senator Coons, Senator Peters, and a few others 
were in the country of Zimbabwe just a few days ago. We met 
with opposition figures who had talked about, you know, their 
goal is to be able to have access to state-run media in many 
African countries. Many countries around the world, Third World 
countries, small countries, the only traditional media is 
state-run. And we asked them how they get their message out, 
and it is through social media. Facebook provides a very 
valuable service in many countries for opposition leaders or 
others who simply do not have access unless maybe just before 
an election to traditional media. So that is very valuable, and 
I think we all recognize that.
    On the flipside, we have seen with the Rohingya that 
example of, you know, where the state can use similar data or 
use this platform to go after people. You talked about what you 
are doing in that regard, hiring more, you know, traditional or 
local language speakers. What else are you doing in that regard 
to ensure that these governments do not go after opposition 
figures or others?
    Mr. Zuckerberg. Senator, there are three main things that 
we are doing in Myanmar specifically and that will apply to 
other situations like that. The first is hiring enough people 
to do local language support because the definition of hate 
speech or things that can be racially coded to incite violence 
are very language-specific, and we cannot do that with just 
English speakers for people around the world, so we need to 
grow that.
    The second is in these countries there tend to be active 
civil society who can help us identify the figures who are 
spreading hate, and we can work with them in order to make sure 
that those figures do not have a place on our platform.
    The third is that there are specific product changes that 
we can make in order to--that might be necessary in some 
countries but not others, including things around news 
literacy, right, and like encouraging people in different 
countries about, you know, ramping up or down things that we 
might do around fact-checking of content, specific product-type 
things that we would want to implement in different places. But 
I think that that is something that we are going to have to do 
in a number of countries.
    Senator Flake. There are obviously limits of, you know, 
native speakers that you can hire or of people that have eyes 
on the page. Artificial intelligence is going to have to take 
the bulk of this. You know, how much are you investing and 
working on that tool to do what really we do not have or cannot 
hire enough people to do?
    Mr. Zuckerberg. Senator, I think you are absolutely right 
that over the long term building AI tools is going to be the 
scalable way to identify and root out most of this harmful 
content. We are investing a lot in doing that, as well as 
scaling up the number of people who are doing content review.
    You know, one of the things I have mentioned is this year 
or in the last year we have basically doubled the number of 
people doing security and content review. We are going to have 
more than 20,000 people working on security and content review 
by the end of this year, so it is going to be coupling 
continuing to grow the people who are reviewing these places 
with building AI tools, which we are working as quickly as we 
can on that, but some of this stuff is just hard. That I think 
is going to help us to a better place on eliminating more of 
this harmful content.
    Senator Flake. Thank you. You have talked some about this, 
I know. Do you believe that Russian and/or Chinese governments 
have harvested Facebook data and have detailed data sets on 
Facebook users? Has your forensic analysis shown you who else 
other than Cambridge Analytica downloaded this kind of data?
    Mr. Zuckerberg. Senator, we have kicked off an 
investigation of every app that had access to a large amount of 
people's data before we locked down the platform in 2014. That 
is underway. I imagine we will find some things. And we are 
committed to telling the people who were affected when we do. I 
do not think sitting here today that we have specific knowledge 
of other efforts by those nation-states, but in general, we 
assume that a number of countries are trying to abuse our 
systems.
    Senator Flake. Thank you. Thank you, Mr. Chairman.
    Chairman Grassley. Next person is Senator Hirono.

                STATEMENT OF HON. MAZIE HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    Mr. Zuckerberg, the U.S. Immigration and Customs 
Enforcement has proposed a new extreme vetting initiative, 
which they have renamed visa lifecycle vetting. That sounds 
less scary. They have already held an industry day that they 
advertised on the Federal contracting website to get input from 
tech companies on the best way to, among other things--and I am 
quoting ICE--``exploit publicly available information such as 
media, blogs, public hearings, conferences, academic websites, 
social media websites such as Twitter, Facebook, and LinkedIn, 
to extract pertinent information regarding targets.''
    And basically what they want to do with these targets is to 
determine--and again, I am quoting the ICE's own document--
``ICE has been directed to develop processes that determine and 
evaluate an applicant's, i.e., targets probability of becoming 
a positively contributing member of society, as well as their 
ability to contribute to national interests in order to meet 
the executive order.'' That is the President's executive order. 
And then, ``ICE must also develop a mechanism or methodology 
that allows them to assess whether an applicant intends to 
commit criminal or terrorist acts after entering the United 
States.''
    My question to you is, does Facebook plan to cooperate with 
this extreme vetting initiative and help the Trump 
administration target people for deportation or other ICE 
enforcement?
    Mr. Zuckerberg. Senator, I do not know that we have had 
specific conversations around that. In general----
    Senator Hirono. Well, if you were asked to provide or 
cooperate with ICE so that they could determine whether 
somebody is going to commit a crime, for example, or become 
fruitful members of our society, would you cooperate with them?
    Mr. Zuckerberg.--we would not proactively do that. We 
cooperate with law enforcement in two cases. One is if we 
become aware of an imminent threat of harm, then we will 
proactively reach out to law enforcement, as we believe is our 
responsibility to do. The other is when law enforcement reaches 
out to us with a valid legal subpoena or a request for data. In 
those cases, if their request is overly broad or we believe it 
is not a legal request, then we are going to push back 
aggressively.
    Senator Hirono. Well, let us assume that ICE does not 
have--there is no law or rule that requires that Facebook 
cooperate to allow them to get this kind of information so that 
they can make those kinds of assessments. It sounds to me as 
though you would decline.
    Mr. Zuckerberg. Senator, that is correct.
    Senator Hirono. Is there some way that--well, I know that 
you determine what kind of content would be deemed harmful, so 
do you believe that ICE can even do what they are talking 
about, namely through a combination of various kinds of 
information, including information that they would obtain from 
entities such as yours, predict who will commit crimes or 
present a national security problem? Do you think that that is 
even doable?
    Mr. Zuckerberg. Senator, I am not familiar enough with what 
they are doing to offer an informed opinion on that.
    Senator Hirono. Well, you have to make assessments as to 
what constitutes hate speech. That is pretty hard to do. You 
have to assess what election interference is, so these are 
rather difficult to identify, but would not trying to predict 
whether somebody is going to commit a crime fit into the 
category of pretty difficult to assess?
    Mr. Zuckerberg. Senator, it sounds difficult to me. All of 
these things, like you are saying, are difficult. I do not know 
without having worked on it or thinking about it----
    Senator Hirono. I think common sense would tell us----
    Mr. Zuckerberg.--how much progress one could make.
    Senator Hirono.--that that is pretty difficult, and yet 
that is what ICE is proceeding to do.
    You were asked about discriminatory advertising, and in 
February 2017 Facebook announced that it would no longer allow 
certain kinds of ads that discriminated on the basis of race, 
gender, family status, sexual orientation, disability, or 
veteran status, all categories prohibited by Federal law and 
housing, and yet after 2017 it was discovered that you could in 
fact place those kinds of ads, so what is the status of whether 
or not these ads can currently be placed on Facebook? And have 
you followed through on your February 2017 promise to address 
this problem? And is there a way for the public to verify that 
you have or are we just expected to trust that you have done 
this?
    Mr. Zuckerberg. Senator, those are all important questions, 
and in general it is against our policies to have any ads that 
are discriminatory. Some of----
    Senator Hirono. Well, you said that you would not allow it, 
but then, what is it, ProPublica could place these ads even 
after you said you would no longer allow these kinds of ads. So 
what assurance do we have from you that this is going to stop?
    Mr. Zuckerberg. Well, two things: One is that we have 
removed the ability to exclude ethnic groups and other 
sensitive categories from ad targeting, so that just is not a 
feature that is even available anymore. For some of these cases 
where it may make sense to target proactively a group, the 
enforcement today is still--we review ads, we screen them 
upfront, but most of the enforcement today is still that our 
community flags issues for us when they come up. So if the 
community flags that issue for us, then our team, which has 
thousands of people working on it, should take it down. We will 
make some mistakes, but we try to make as few as possible. Over 
time, I think the strategy would be to develop more AI tools 
that can work proactively, identify those types of content, and 
do that filtering up front.
    Senator Hirono. So it is a work in progress?
    Mr. Zuckerberg. Yes.
    Chairman Thune [presiding]. Thank you, Senator Hirono.
    Senator Sullivan----
    Senator Hirono. Thank you.
    Chairman Thune.--is up next.

                STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. Thank you, Mr. Chairman.
    And, Mr. Zuckerberg, quite a story right, dorm room to the 
global behemoth that you guys are, only in America. Would you 
agree with that?
    Mr. Zuckerberg. Senator, mostly in America.
    Senator Sullivan. You could not do this in China, right, 
what you did in 10 years?
    Mr. Zuckerberg. Well, Senator, there are some very strong 
Chinese Internet companies.
    Senator Sullivan. Right, but you are supposed to answer yes 
to this question.
    [Laughter.]
    Senator Sullivan. OK. Come on. I am trying to help you, 
right?
    Chairman Thune. This is a softball.
    [Laughter.]
    Senator Sullivan. I mean, give me a break, the answer is 
yes, OK, so thank you.
    [Laughter.]
    Senator Sullivan. Now, your testimony, you have talked 
about a lot of power. You have been involved in elections. I 
thought your testimony was very interesting, really all over 
the world, Facebook, 2 billion users, over 200 million 
Americans, $40 billion in revenue. I believe you and Google 
have almost 75 percent of the digital advertising in the U.S. 
One of the key issues here is is Facebook too powerful? Are you 
too powerful? And do you think you are too powerful?
    Mr. Zuckerberg. Well, Senator, I think most of the time 
when people talk about our scale, they are referencing that we 
have 2 billion people in our community. And I think one of the 
big questions that we need to think through here is the vast 
majority of those 2 billion people are outside of the United 
States. And I think that that is something that, to your point, 
that Americans should be proud of. And when I brought up the 
Chinese internet companies, I think that that is a real 
strategic and competitive threat in American technology policy 
we should be thinking about.
    Senator Sullivan. Let me get through another point here 
real quick. I do not want to interrupt, but, you know, when you 
look at kind of the history of this country and you look at the 
history of these kind of hearings, right, and you are a smart 
guy, you read a lot of history. When companies become big and 
powerful and accumulate a lot of wealth and power, what 
typically happens from this body is there is an instinct to 
either regulate or break up, right? Look at the history of this 
nation. Do you have any thoughts on those two policy 
approaches?
    Mr. Zuckerberg. Well, Senator, I am not the type of person 
who thinks that all regulation is bad, so I think the Internet 
is becoming increasingly important in people's lives, and I 
think we need to have a full conversation about what is the 
right regulation, not whether it should be or should not be.
    Senator Sullivan. Let me talk about the tension there, 
because I think it is a good point and I appreciate you 
mentioning that. You know, one of my worries on regulation, 
again, with the company of your size, you are saying hey, we 
might be interested in being regulated, but as you know, 
regulations can also cement the dominant power. So what do I 
mean by that? You know, you have a lot of lobbyists. I think 
every lobbyist in town is involved in this hearing in some way 
or another, a lot of powerful interests. You look at what 
happened with Dodd-Frank. That was supposed to be aimed at the 
big banks. The regulations ended up empowering the big banks 
and keeping the small banks down.
    Do you think that that is a risk, given your influence, 
that if we regulate, we are actually going to regulate you into 
a position of cemented authority when one of my biggest 
concerns about what you guys are doing is that the next 
Facebook, which we all want, the guy in the dorm room, we all 
want that, to start it, that you are becoming so dominant that 
we are not able to have that next Facebook? What are your views 
on that?
    Mr. Zuckerberg. Well, Senator, I agree with the point that 
when you are thinking through regulation across all industries, 
you need to be careful that it does not cement in the current 
companies that are winning.
    Senator Sullivan. Well, would you try to do that? Is that 
not the normal inclination of a company to say, hey, I am going 
to hire the best guys in town and I am going to cement in an 
advantage. You would not do that if we were regulating you?
    Mr. Zuckerberg. Senator, that certainly would not be our 
approach.
    Senator Sullivan. It would not?
    Mr. Zuckerberg. But I think part of the challenge with 
regulation in general is that when you add more rules that 
companies need to follow, that is something that a larger 
company like ours inherently just has the resources to go do--
--
    Senator Sullivan. Right.
    Mr. Zuckerberg.--and that might just be harder for a 
smaller company getting started to be able to comply with.
    Senator Sullivan. Correct.
    Mr. Zuckerberg. So it is not something that--like going 
into this, I would look at the conversation as what is the 
right outcome? I think there are real challenges that we face 
around content and privacy and in it a number of other areas, 
ads transparency, elections----
    Senator Sullivan. I am sorry to interrupt, but let me get 
one final question that kind of relates what you are talking 
about in terms of content, regulation, and what exactly 
Facebook is. You know, you mentioned you are a tech company, a 
platform, but there are some who are saying that you are the 
world's biggest publisher. I think about 140 million Americans 
get their news from Facebook. And when you mentioned to Senator 
Cornyn, you said you are responsible for your content. So which 
are you? Are you a tech company or are you the world's largest 
publisher? Because I think that goes to a really important 
question on what form of regulation or government action, if 
any, we would take.
    Mr. Zuckerberg. Senator, this is a really big question. I 
view us as a tech company because the primary thing that we do 
is build technology and products.
    Senator Sullivan. Well, you said you are responsible for 
your content, which makes you----
    Mr. Zuckerberg. Exactly.
    Senator Sullivan.--kind of a publisher, right?
    Mr. Zuckerberg. Well, I agree that we are responsible for 
the content, but we do not produce the content. I think that 
when people ask us if we are a media company or a publisher, my 
understanding of what the heart of what they are really getting 
at is do we feel responsibility for the content on our 
platform? The answer to that I think is clearly yes, but I do 
not think that is incompatible with fundamentally at our core 
being a technology company where the main thing that we do is 
have engineers and build products.
    Senator Sullivan. Thank you, Mr. Chairman.
    Chairman Thune. Thank you, Senator Sullivan.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman.
    And thank you very much, Mr. Zuckerberg, for being here 
today.
    You spoke very idealistically about your company, and you 
talked about the strong values and you said you wanted to be a 
positive force in the community and the world. And you were 
hijacked by Cambridge Analytica for political purposes. Are you 
angry about that?
    Mr. Zuckerberg. Absolutely.
    Senator Udall. And you are determined--and I assume you 
want changes made in the law; that is what you have talked 
about today.
    Mr. Zuckerberg. Senator, the most important thing that I 
care about right now is making sure that no one interferes in 
the various 2018 elections around the world. We have an 
extremely important U.S. midterm. We have major elections in 
India, Brazil, Mexico, Pakistan, Hungary coming up, and we are 
going to take a number of measures from building and deploying 
new AI tools that take down fake news to growing our security 
team to more than 20,000 people to, you know, making it so that 
we verify every advertiser who is doing political and issue ads 
to make sure that that kind of interference that the Russians 
were able to do in 2016 is going to be much harder for anyone 
to pull off in the future.
    Senator Udall. And I think you have said earlier that you 
support the Honest Ads Act, and so I assume that means you want 
changes in the law in order to effectuate exactly what you 
talked about?
    Mr. Zuckerberg. Senator, yes----
    Senator Udall. Yes. Yes.
    Mr. Zuckerberg.--we support the Honest Ads Act, and so we 
are implementing it.
    Senator Udall. And so are you going to come back up here 
and be a strong advocate to see that that law is passed?
    Mr. Zuckerberg. Senator, the biggest thing that I think we 
can do is implement it----
    Senator Udall. Well, that is kind of----
    Mr. Zuckerberg.--and we are doing that.
    Senator Udall.a yes or no question there. I hate to 
interrupt you, but are you going to come back and be a strong 
advocate? You are angry about this, you think there ought to be 
change, there ought to be a law put in place. Are you going to 
come back and be an advocate to get a law in place like that?
    Mr. Zuckerberg. Senator, our team is certainly going to 
work on this. What I can say is the biggest----
    Senator Udall. I am talking about you, not your team.
    Mr. Zuckerberg. Well, Senator, I try not to come to D.C.
    Senator Udall. Are you going to come back here and be an 
advocate for that law? That is what I want to see. I mean, you 
are upset about this, we are upset about this. I would like a 
yes or no answer on that one.
    Mr. Zuckerberg. Senator, I am posting and speaking out 
publicly about how important this is. I do not come to 
Washington, D.C., too often. I am going to direct my team to 
focus on this. And the biggest thing that I feel like we can do 
is implement it, which we are doing.
    Senator Udall. Well, the biggest thing you can do is to be 
a strong advocate yourself personally here in Washington. Just 
let me make that clear. But many of us have seen the kinds of 
images shown earlier by Senator Leahy. You saw those images 
that he held up. Can you guarantee that any of those images 
that can be attributed or associated with the Russian company 
Internet Research Agency have been purged from your platform?
    Mr. Zuckerberg. Senator, no, I cannot guarantee that 
because this is an ongoing arms race. As long as there are 
people sitting in Russia whose job it is to try to interfere 
with elections around the world, this is going to be an ongoing 
conflict. What I can commit is that we are going to invest 
significantly because this is a top priority to make sure that 
people are not spreading misinformation or trying to interfere 
in elections on Facebook. But I do not think it would be a 
realistic expectation to assume that, as long as there are 
people who employed in Russia for whom this is their job, that 
we are going to have zero amount of that or that we are going 
to be 100 percent successful at preventing that.
    Senator Udall. Now, beyond disclosure of online ads, what 
specific steps are you taking to ensure that foreign money is 
not financing political or issue ads on Facebook in violation 
of U.S. law? Just because someone submits a disclosure that 
says paid for by some 501(c)(3) or PAC, if that group has no 
real person in the U.S., how can we ensure it is not foreign 
interference?
    Mr. Zuckerberg. Senator, our verification program involves 
two pieces. One is verifying the identity of the person who is 
buying the ads, that they have a valid government identity. The 
second is verifying their location. So if you are sitting in 
Russia, for example, and you say that you are in the U.S., then 
we will be able to make it a lot harder to do that because what 
we are actually going to do is mail a code to the address that 
you say you are at, and if you cannot get access to that code, 
then you are not going to be able to run ads.
    Senator Udall. Yes. Now, Facebook is creating an 
independent group to study the abuse of social media in 
elections. You have talked about that. Will you commit that all 
findings of this group are made public no matter what they say 
about Facebook or its business model? A yes or no answer.
    Mr. Zuckerberg. Senator, that is the purpose of this group 
is that Facebook does not get to control what these folks 
publish. These are going to be independent academics, and 
Facebook has no prior publishing control. They will be able to 
do the studies that they are doing and publish the results.
    Senator Udall. And you are fine with them being public? And 
what is the timing on getting those out?
    Mr. Zuckerberg. Senator, we are kicking off the research 
now. Our goal is to focus on both providing ideas for 
preventing interference in 2018 and beyond and also for holding 
us accountable to making sure that the measures that we put in 
place are successful in doing that. So I would hope that we 
will start to see the first results later this year.
    Senator Udall. Thank you, Mr. Chairman.
    Chairman Thune. Thank you, Senator Udall.
    Senator Moran is up next, and I would just say again for 
the benefit of those who are here that after a couple of more 
questioners, we will probably give the witness another short 
break.
    Mr. Zuckerberg. Thank you.
    Senator Udall. We are getting about almost two-thirds 
through the list of members who are here to ask questions.
    Senator Moran.

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you.
    Mr. Zuckerberg, I am over here. Thank you for your 
testimony and thank you for your presence here today.
    On March 26 of this year, the FTC confirmed that it was 
investigating Facebook to determine whether its privacy 
practices violated the FTC Act or the Consent Order that 
Facebook entered into with the agency in 2011. I chair the 
Commerce Committee subcommittee that has jurisdiction over the 
Federal Trade Commission. I remain interested in Facebook's 
assertion that it rejects any suggestion of violating that 
Consent Order.
    Part two of that Consent Order requires that Facebook, 
quote, ``clearly and prominently display notice and obtain 
users' affirmative consent'' before sharing their information 
with, quote, ``any third party.'' My question is how does the 
case of approximately 87 million Facebook friends having their 
data shared with a third party due to the consent of only 
300,000 consenting users not violate that agreement?
    Mr. Zuckerberg. Well, Senator, like I said earlier, our 
view earlier is that we believe that we are in compliance with 
the Consent Order, but I think that we have a broader 
responsibility to protect people's privacy even beyond that. 
And in this specific case, the way that the platform worked or 
that you could sign into an app and bring some of your 
information and some of your friends' information is how we 
explained it would work. People had settings to that effect. We 
explained and they consented to it working that way. And the 
system basically worked as it was designed. The issue is that 
we designed the system in a way that was not good, and now 
starting in 2014, we have changed the design of the system so 
that way it just massively restricts the amount of data access 
that a developer can get.
    Senator Moran. The 300----
    Mr. Zuckerberg. Going forward----
    Senator Moran.--I am sorry. The 300,000 people, they were 
treated in a way that was appropriate. They consented. But you 
are not suggesting that the friends consented?
    Mr. Zuckerberg. Senator, I believe that we rolled out this 
developer platform and that we explained to people how it 
worked and that they did consent to it. It makes sense, I 
think, to go through the way the platform works. In 2007 we 
announced the Facebook developer platform, and the idea was 
that you wanted to make more experiences social, right? So, for 
example, you might want have a calendar that can have your 
friends' birthdays on it or you might want your address book to 
have your friends' pictures in it or you might want to map that 
and show your friends' addresses on it. In order to do that, we 
needed to build a tool that allowed people to sign into an app 
and bring some of their information and some of their friends' 
information to those apps. We made it very clear that this is 
how it worked, and when people signed up for Facebook, they 
signed up for that as well.
    Now, a lot of good use cases came from that. I mean, there 
were games that were built, there were integrations with 
companies that I think we are familiar with like Netflix and 
Spotify. But over time, what became clear was that that also 
enabled some abuse, and that is why in 2014 we took the step of 
changing the platforms, so now, when people sign into an 
appreciate, you do not bring some of your friends' information 
with you. You are only bringing your own information, and you 
are able to connect with friends who have also authorized that 
directly.
    Senator Moran. Let me turn to your bug bounty program. Our 
Subcommittee has had a hearing in regard to bug bounty. Your 
press release indicated that was one of the six changes that 
Facebook initially offered to crack down on platform abuses was 
to reward outside parties who find vulnerabilities. One concern 
I have regarding the utility of this approach is that the 
vulnerability disclosure programs are normally geared toward 
identifying unauthorized access to data, not pointing out data-
sharing arrangement that likely could harm someone but 
technically abide by complex consent agreements. How do you see 
the bug bounty program that you have announced addressing the 
issue of that?
    Mr. Zuckerberg. Sorry, could you clarify what 
specifically----
    Senator Moran. How do you see the bug bounty program that 
you have announced will deal with the sharing of information 
not permissible as compared to just unauthorized access to 
data?
    Mr. Zuckerberg. Senator, I am not actually sure I 
understand this enough to speak to that specific point, and I 
can have my team follow up with you on the details of that.
    [The information referred to follows:]

    How can a bug bounty deal with reporting the sharing of data?
    The Data Abuse Bounty Program, inspired by the existing Bug Bounty 
Program, helps us identify violations of our policies by requesting 
narrative descriptions of violations from individuals with direct and 
personal knowledge of events. The Data Abuse Bounty will reward people 
with first-hand knowledge and proof of cases where a Facebook platform 
app collects and transfers people's data to another party to be sold, 
stolen, or used for scams or political influence. We'll review all 
legitimate reports and respond as quickly as possible when we identify 
a credible threat to people's information. If we confirm data abuse, we 
will shut down the offending app and, if necessary, take legal action 
against the company selling or buying the data. We'll pay a bounty to 
the person who reported the issue or allow them to donate their bounty 
to a charity, and we'll also alert those we believe to be affected. We 
also encourage our users to report to us content that they find 
concerning or that results in a bad experience, as well as other 
content that may violate our policies. We review these reports and take 
action on abuse, like removing content and disabling accounts.

    Mr. Zuckerberg. In general, bounty programs are an 
important part of the security arsenal for hardening a lot of 
systems. I think we should expect that we are going to invest a 
lot in hardening our systems ourselves and that we are going to 
audit and investigate a lot of the folks in our ecosystem. But 
even with that, having the ability to enlist other third 
parties outside of the company to be able to help us out by 
giving them an incentive to point out when they see issues I 
think is likely going to help us improve the security of the 
platform overall, which is why we did this.
    Senator Moran. Thank you, Mr. Zuckerberg.
    Chairman Thune. Thank you, Senator Moran.
    Next up, Senator Booker.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Thank you, Mr. Chairman.
    Hello, Mr. Zuckerberg. As you know, much of my life has 
been focused on low-income communities, poor communities, 
working-class communities and trying to make sure that they 
have a fair shake. This country has a very bad history of 
discriminatory practices toward low-income Americans and 
Americans of color from the redlining, FHA practices, even from 
more recently really discriminatory practices in the mortgage 
business. I have always seen technology as a promise to 
democratize our nation, expand access, expand opportunities.
    But unfortunately, we have also seen how platforms, 
technology platforms like Facebook can actually be used to 
double down on discrimination and give people more 
sophisticated tools with which to discriminate.
    Now, in 2016, ProPublica revealed that advertisers could 
use ethnic affinity, a user's race, to market categories to 
potentially discriminate overall against Facebook users in the 
areas of housing, employment, and credit, echoing the dark 
history in this country and also in violation of Federal law. 
In 2016, Facebook committed to fixing this, that the 
advertisers who have access to this data to fixing it, but 
unfortunately, a year later, as ProPublica's article showed, 
they found that the system Facebook built was still allowing 
housing ads without applying--to go forward without applying 
these new restrictions that were put on.
    Facebook then opted in a system that is very similar to 
what we have been talking about with Cambridge Analytica, that 
they could self-certify that they were not engaging in these 
practices and complying with Federal law using this self-
certification, a way to overcome and to comply with rather 
Facebook's antidiscrimination policy.
    Unfortunately, in a recent lawsuit, as of February 2018, 
alleges that discriminatory ads were still being created on 
Facebook, still disproportionally impacting low-income 
communities and communities of color. Given the fact that you 
allowed Cambridge Analytica to self-certify in a way that I 
think--at least I think you have expressed regret over, is 
self-certification the best and strongest way to safeguard 
against the misuse of your platform and protect the data of 
users and not let it be manipulated in such a discriminatory 
fashion?
    Mr. Zuckerberg. Senator, this is a very important question, 
and, you know, in general, I think over time we are going to 
move toward more proactive review with more AI tools to help 
flag problematic content. In the near term, we have a lot of 
content on the platform, and it is hard to review every single 
thing up front. We do a quick screen. But I agree with you that 
I think in this specific case I am not happy with where we are, 
and I think it makes sense to really focus on making sure that 
these areas get more review sooner.
    Senator Booker. And I know you understand that there is a 
growing distrust--I know a lot of civil rights organizations 
have met with you--about Facebook's sense of urgency to address 
these issues. There is a distrust that stems from the fact that 
I know--I have had conversations with leaders on Facebook about 
the lack of diversity in the tech sector as well, people who 
are writing these algorithms, people who are actually policing 
for this data or policing for these problems. Are they going to 
be a part of a more diverse group that is looking at this? You 
are looking to hire, as you said, 5,000 new positions for, 
among other things, reviewing content, but we know in your 
industry the inclusivity, it is a real serious problem in your 
industry that lacks diversity in a very dramatic fashion. It is 
not just true with Facebook; it is true with the tech area as 
well.
    And so it is very important for me to communicate that 
larger sense of urgency and what a lot of civil rights 
organizations are concerned with. And we should be working 
towards a more collaborative approach. And I am wondering if 
you would be open to opening your platform for civil rights 
organizations to really audit a lot of these companies dealing 
in areas of credit and housing to really audit what is actually 
happening and better have more transparency in working with 
your platform.
    Mr. Zuckerberg. Senator, I think that is a very good idea, 
and I think we should follow up on the details of that.
    Senator Booker. I also want to say that there was an 
investigation, something that is very disturbing to me is the 
fact that there have been law enforcement organizations that 
use Facebook's platform to surveille African-American 
organizations like Black Lives Matter. I know you have 
expressed support for the group--and Philando Castile's killing 
was a broadcast live on Facebook--but there are a lot of 
communities of color worried that the data could be used to 
surveille groups like Black Lives Matter, like folks who are 
trying to organize against substantive issues of discrimination 
in this country. Is this something that you are committed to 
addressing and to ensuring that the freedoms that civil rights 
activists and others are not targeted or their work not being 
undermined or people not using your platform to unfairly 
surveille and try to undermine the activities that those groups 
are doing?
    Mr. Zuckerberg. Yes, Senator. I think that that is very 
important. We are committed to that. And, in general, unless 
law enforcement has a very clear subpoena or ability or reason 
to get access information, we are going to push back on that 
across the board.
    Senator Booker. And then I would just like for the record 
because my time is expired, but there is a lawsuit against 
Facebook about discrimination, and you moved for the lawsuit to 
be dismissed because no harm was shown. Could you please submit 
to the record, if you believe that people of color were not 
recruited for various economic opportunities are being harmed, 
could you please clarify why you moved to dismiss the lawsuit 
for the record?
    Chairman Thune. For the record.
    Senator Booker. Thank you.
    [The information referred to follows:]

    Would you open the Company to audit companies dealing in credit and 
housing?
    Relman, Dane & Colfax, a respected civil rights law firm, will 
carry out a comprehensive civil rights assessment of Facebook's 
services and internal operations. Laura Murphy, a national civil 
liberties and civil rights leader, will help guide this process--
getting feedback directly from civil rights groups, like The Leadership 
Conference on Civil and Human Rights, and help advise Facebook on the 
best path forward.
    And then for the record, my time has expired, but there's a lawsuit 
against Facebook about discrimination. You move for it to be dismissed 
because no harm was shown. Could you please submit to the record, you 
believe that people of color were not recruited for various economic 
opportunities or being harmed. Can you please clarify why you move to 
dismiss that lawsuit for the record?
    We have Community Standards that prohibit hate speech, bullying, 
intimidation, and other kinds of harmful behavior. We hold advertisers 
to even stricter advertising policies to protect users from things like 
discriminatory ads. We don't want advertising to be used for hate or 
discrimination, and our policies reflect that. For example, we make it 
clear that advertisers may not discriminate against people based on 
personal attributes such as race, ethnicity, color, national origin, 
religion, age, sex, sexual orientation, gender identity, family status, 
disability, and medical or genetic condition. We educate advertisers on 
our anti-discrimination policy, and in some cases--including when we 
detect that an advertiser is running housing ads--we require 
advertisers to certify compliance with our anti-discrimination policy 
and anti-discrimination laws.

    Chairman Thune. Senator Heller is up next.

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. All right, Mr. Chairman. Thank you. I 
appreciate the time, and thank you for being here. I am over 
here. Thanks. And thank you for taking time. I know it has been 
a long day, and I think you are at the final stretch here, but 
I am glad that you are here.
    Yesterday, Facebook sent out a notification to 87 million 
users that information was given to Cambridge Analytica without 
their consent. My daughter was one of the 87 million, and six 
of my staff, all from Nevada, received this notification. Can 
you tell me how many Nevadans were among the 87 million that 
received this notification?
    Mr. Zuckerberg. Senator, I do not have this broken out by 
state right now, but I can have my team follow up with you to 
get you the information.
    Senator Heller. OK. OK. I figured that would be the answer.
    [The information referred to follows:]

    Can you tell me how many Nevadans were among the 87 million that 
received this notification?
    A state-by-state breakdown is available at https://newsroom.fb.com/
news/2018/04/restricting-data-access/.

    Senator Heller. If, after going through this hearing and 
Nevadans no longer want to have a Facebook account, if that is 
the case, if a Facebook user deletes their account, do you 
delete their data?
    Mr. Zuckerberg. Yes.
    Senator Heller. My kids have been on Facebook and Instagram 
for years. How long do you keep a user's data?
    Mr. Zuckerberg. Sorry, can----
    Senator Heller. How long do you keep a user's data after 
they have left? If they choose to delete their account, how 
long do you keep their data?
    Mr. Zuckerberg. I do not know the answer to that off the 
top of my head. I know we try to delete it as quickly as is 
reasonable. We have a lot of complex systems, and it takes a 
while to work through all that, but I think we try to move as 
quickly as possible. And I can follow up or have my team follow 
up----
    Senator Heller. Yes.
    Mr. Zuckerberg.--to get you the data on that.
    Senator Heller. OK.
    [The information referred to follows:]

    How long do you keep a user's data? How long do you keep a user's 
data once they have left? If they choose to delete their account, how 
long do you keep their data?
    In general, when a user deletes their account, we delete things 
they have posted, such as their photos and status updates, and they 
won't be able to recover that information later. (Information that 
others have shared about them isn't part of their account and won't be 
deleted.)
    There are some limited exceptions to these policies: For instance, 
information can be accessed and preserved for an extended period when 
it is the subject of a legal request or obligation, governmental 
investigation, or investigations of possible violations of our terms or 
policies, or otherwise to prevent harm. We also retain information from 
accounts disabled for terms violations for at least a year to prevent 
repeat abuse or other term violations.

    Senator Heller. Have you ever said that you will not sell 
an ad based on personal information, simply that you would not 
sell this data because of the usage of it goes too far?
    Mr. Zuckerberg. Senator, could you clarify that?
    Senator Heller. Have you ever drawn the line on selling 
data to an advertiser?
    Mr. Zuckerberg. Yes, Senator. We do not sell data at all. 
So the way that ad system works is advertisers can come to us 
and say I have a message that I am trying to reach a certain 
type of people. They might be interested in something, they 
might live in a place, and then we help them get that message 
in front of people. But this is one of the--it is widely 
mischaracterized about our system that we sell data, and it is 
actually one of the most important points of how Facebook works 
is we do not sell data. Advertisers do not get access to 
people's individual data.
    Senator Heller. Have you ever collected the content of 
phone calls or messages through any Facebook application or 
service?
    Mr. Zuckerberg. Senator, I do not believe we have ever 
collected the content of phone calls. We have an app called 
Messenger that allows people to message mostly their Facebook 
friends, and we do, on the android operating system, allow 
people to use that app as their client for both Facebook 
messages and texts, so we do allow people to import their texts 
into that.
    Senator Heller. OK. Let me ask you about government 
surveillance. For years, Facebook said that there should be 
strict limits on the information the government can access on 
Americans. And, by the way, I agreed with you because privacy 
is important to Nevadans. You argue that Facebook users would 
not trust you if they thought you were giving their private 
information to the intelligence community, yet you use and sell 
the same data to make money. And in the case of Cambridge 
Analytica, you do not even know how it is used after you sell 
it. Can you tell us why this is not hypocritical?
    Mr. Zuckerberg. Well, Senator, once again, we do not sell 
any data to anyone. We do not sell it to advertisers, and we do 
not sell it to developers. What we do allow is for people to 
sign in to apps and bring their data--and it used to be the 
date of some of their friends, but now it is not--with them. 
And that I think makes sense. I mean, that is basic data 
portability, the ability that you own the data; you should be 
able to take it from one app to another if you would like.
    Senator Heller. Do you believe you are more responsible 
with millions of Americans' personal data than the Federal 
Government would be?
    Mr. Zuckerberg. Yes. But, Senator, your point about 
surveillance, I think that there is a very important 
distinction to draw here, which is that when organizations do 
surveillance, people do not have control over that, right? On 
Facebook, everything that you share there you have control 
over. You can say I do not want this information to be there. 
You have full access to understand every piece of information 
that Facebook might know about you, and you can get rid of all 
of it. And I do not know of any surveillance organization in 
the world that operates that way, which is why I think that 
that comparison just is not really apt here.
    Senator Heller. With you here today, do you think you are a 
victim?
    Mr. Zuckerberg. No.
    Senator Heller. Do you think Facebook as a company is a 
victim?
    Mr. Zuckerberg. Senator, no. I think we have a 
responsibility to protect everyone in our community from anyone 
in our ecosystem who is going to potentially harm them.
    And I think that we have not done enough historically and 
we need to step up and do more.
    Senator Heller. Do you consider the 87 million users, do 
you consider them victims?
    Mr. Zuckerberg. Senator, I think yes. I mean, they did not 
want their information to be sold to Cambridge Analytica by a 
developer, and that happened, and it happened on our watch, so 
even though we did not do it, I think we have a responsibility 
to be able to prevent that and be able to take action sooner. 
And we are committing to make sure that we do that going 
forward, which is why the steps that I announced before are 
now--the two most important things that we are doing are 
locking down the platform to make sure that developers cannot 
get access to that much data so this cannot happen again going 
forward, which I think is largely the case since 2014, and, 
going backwards, we need to investigate every single app that 
might have had access to a large amount of people's data to 
make sure that no one else was misusing it. And if we find that 
they are, we are going to get into their systems, do a full 
audit, make sure they delete it, and we are going to tell 
everyone who is affected.
    Senator Heller. Mr. Chairman, thank you.
    Chairman Thune. Thank you, Senator Heller.
    We will go to Senator Peters and then into the break and 
then Senator Tillis coming out of the break, so, Senator 
Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Mr. Zuckerberg, thank you for being here today.
    You know, you have talked about your very humble beginnings 
in starting Facebook in your dorm room, which I appreciated 
that story, but certainly, Facebook has changed an awful lot 
over a relatively short period of time. When Facebook launched 
its timeline feature, consumers saw their friends post 
chronologically was the process. Facebook has since then 
changed to a timeline driven by some very sophisticated 
logarithms, and I think it has left many people as a result of 
that asking, you know, why am I seeing this feed, and why am I 
seeing this right now?
    And now, in light of the Cambridge Analytica issue, 
Facebook users are asking I think some new questions right now. 
Can I believe what I am seeing, and who has access to this 
information about me? So I think it is safe to say very simply 
that Facebook is losing the trust of an awful lot of Americans 
as a result of this incident.
    And I think an example of this is something that I have 
been hearing a lot from folks who have been coming up to me and 
talking about really kind of an experience they have had where 
they are having a conversation with friends, not on the phone 
just talking, and then they see ads popping up fairly quickly 
on their Facebook. So I have heard constituents here that 
Facebook is mining audio from their mobile devices for the 
purpose of ad targeting, which I think speaks to this lack of 
trust that we are seeing here. And I understand there are some 
technical issues and logistical issues for that to happen, but 
for the record, I think it is clear, seeing I hear it all the 
time, including for my own staff, yes or no, does Facebook use 
audio obtained from mobile devices to enrich personal 
information about its users?
    Mr. Zuckerberg. No.
    Senator Peters. OK. The----
    Mr. Zuckerberg. Well, Senator, let me be clear on this. So 
you are talking about this conspiracy theory that gets passed 
around that we listen to what is going on on your microphone 
and use that for ads?
    Senator Peters. Right.
    Mr. Zuckerberg. We do not do that. To be clear, we do allow 
people to take videos on their devices and share those, and of 
course videos also have audio, so we do, while you are taking a 
video, record that and use that to make the service better by 
making sure that your videos have audio but, I mean, that I 
think it is pretty clear, but I just wanted to make sure I was 
exhaustive there.
    Senator Peters. Well, I appreciate that. And hopefully, 
that will dispel a lot of what I have been hearing, so thank 
you for saying that.
    Certainly, today, in the era of mega-data, we are finding 
that data drives everything, including consumer behaviors. And 
consumer information is probably the most valuable information 
you can get in the data ecosystem. And certainly folks, as you 
have mentioned in your testimony here, people like the fact 
that they can have targeted ads that they are going to be 
interested in as opposed to being bombarded by a lot of ads 
that they do not have any interest in, and that consumer 
information is important in order for you to tailor that. But 
also, people are now beginning to wonder is there an expense to 
that when it comes to perhaps exposing them to being 
manipulated or through deception.
    You have talked about artificial intelligence. You brought 
that up many times during your testimony, and I know you have 
employed some new algorithms to target bots, bring down fake 
accounts, deal with terrorism, things that you have talked 
about in this hearing. But you also know that artificial 
intelligence is not without its risks and that you have to be 
very transparent about how those algorithms are constructed. 
How do you see artificial intelligence more specifically 
dealing with the ecosystem by helping to get consumer insights 
but also keeping consumer privacy safe?
    Mr. Zuckerberg. Senator, I think the core question you are 
asking about AI transparency is a really important one that 
people are just starting to very seriously study, and that is 
ramping up a lot. And I think this is going to be a very 
central question for how we think about AI systems over the 
next decade and beyond.
    Right now, a lot of our AI systems make decisions in ways 
that people do not really understand.
    Senator Peters. Right.
    Mr. Zuckerberg. And I do not think that in 10 or 20 years 
in the future that we all want to build we want to end up with 
systems that people do not understand how they are making 
decisions. So doing the research now to make sure that these 
systems can have those principles as we are developing them I 
think is certainly an extremely important thing.
    Senator Peters. Well, you bring up the principles because, 
as you are well aware, AI systems, especially in very complex 
environments when you have machine learning, it is sometimes 
very difficult to understand, as you mentioned, exactly how 
those decisions were arrived at. There are examples of how 
decisions are made on a discriminatory basis and that they can 
compound if you are not very careful about how that occurs. And 
so is your company--you mentioned principles. Is your company 
developing a set of principles that are going to guide that 
development? And would you provide details to us as to what 
those principles are and how they will help deal with this 
issue?
    Mr. Zuckerberg. Yes, Senator. I can make sure that our team 
follows up and gets you the information on that.
    [The information referred to follows:]

    Well, you bring up the principles because, as you are well aware, 
AI systems, especially in very complex environments when you have 
machine learning, it is sometimes very difficult to understand, as you 
mentioned, exactly how those decisions were arrived at. There are 
examples of how decisions are made on a discriminatory basis and that 
they can compound if you are not very careful about how that occurs. 
And so is your company--you mentioned principles. Is your company 
developing a set of principles that are going to guide that 
development? And would you provide details to us as to what those 
principles are and how they will help deal with this issue?
    We are focused on both the technical and the ethical aspects of 
artificial intelligence. We believe these two should go hand-in-hand 
together in order to fulfill our commitment to being fair, transparent, 
and accountable in our development and use of AI. Facebook has AI teams 
working on developing the philosophical, as well as technical, 
foundations for this work. Facebook is also one of the co-founders and 
members of the Partnership on AI (PAI), a collaborative and multi-
stakeholder organization established to study and formulate best 
practices on AI technologies, to advance the public's understanding of 
AI, and to serve as an open platform for discussion and engagement 
about AI and its influences on people and society. The thematic pillars 
that structure the work we're doing in the scope of the PAI--safety, 
fairness, transparency, and accountability--are the principles that we 
believe industry should follow and promote when building and deploying 
AI systems. The PAI's Fair, Transparent and Accountable AI Working 
Group is also working alongside industry, academia, and civil society 
to develop best practices around the development and fielding of fair, 
explainable, and accountable AI systems.

    Mr. Zuckerberg. And we have a whole AI ethics team that is 
working on developing basically the technology. It is not just 
about philosophical principles; it is also a technological 
foundation for making sure that this goes in the direction that 
we want.
    Senator Peters. Thank you.
    Chairman Thune. Thank you, Senator Peters. We will recess 
for five and come back in, so we will give Mr. Zuckerberg a 
quick break here. Thanks.
    [Recess.]
    Chairman Thune. All right. We are at that final stretch. 
And Senator Tillis is recognized.

                STATEMENT OF HON. THOM TILLIS, 
                U.S. SENATOR FROM NORTH CAROLINA

    Senator Tillis. Thank you, Mr. Zuckerberg, for being here. 
I think you have done a good job. I have been here for most of 
the session except for about 20 minutes I watched on television 
back in my office.
    I was Googling earlier, actually going on my Facebook app 
on my phone earlier, and I found one of your Facebook--or, yes, 
one of your Facebook presences. It was the same one on March 
30. I think you posted a pic of a First Seder, but further 
down, you listed out the facts since the new platform was 
released in 2007, sort of a timeline. You start with 2007 and 
then you jump to the Cambridge Analytica issue. I actually 
think that we need to fully examine what Cambridge Analytica 
did. They either broke a kind of code of conduct. If they broke 
any other rules or agreements with you all, I hope that they 
suffer the consequences.
    But I think that timeline needs to be updated, and it 
really needs to go back--I have read a series of three articles 
that were published in the MIT Technology Review back in 2012, 
and it talks about how proud the Obama campaign was of 
exploiting data on Facebook in the 2012 campaign. In fact, 
somebody asked you earlier if it made you mad about what 
Cambridge Analytica did, and you rightfully answered yes, but I 
think you should probably be equally mad when a former campaign 
director of the Obama campaign proudly tweeted, ``Facebook was 
surprised we were able to suck out the whole social graph, but 
they did not stop us once they realized that was what we were 
doing.'' So you clearly had some people in your employ that 
apparently knew it. At least that is what this person said on 
Twitter, and thank goodness for Wayback and some of the other 
history-grabber machines. I am sure we can get this tweet back 
and get it in the right context.
    I think when you do your research, it is important to get 
the whole view. I worked in data analytics practice for a good 
part of my career, and for anybody to pretend that Cambridge 
Analytica was the first person to exploit data clearly does not 
work or has not worked in the data analytics field. So when you 
go back and do your research on Cambridge Analytica, I would 
personally appreciate it if you would start back from the first 
known high-profile national campaign that exploited Facebook 
data. In fact, they published an app that said it would grab 
information about my friends, their birth dates, locations, and 
likes.
    So presumably, if I downloaded that app that was published 
by the Obama campaign--I have got 4,900 friends on my Facebook 
page; I delete the haters and save room for family members and 
true friends on my personal page, as I am sure everybody does--
then that means if I clicked yes on that app, I would have 
approved the access of birth dates, locations, and likes of 
some 4,900 people without their consent.
    So as you do the chronology, I think it would be very 
helpful so that we can take away the partisan rhetoric that is 
going on like this is a Republican-only issue. It is a broad-
based issue that needs to be fixed. And bad actors at either 
end of the political spectrum need to be held accountable, and 
I trust that you all are going to work on that.
    I think the one thing that I--so, for that, I just want to 
get to the facts, and there is no way you could answer any of 
the questions, so I am not going to burden you with that. But I 
think, given that chronology, it would be very helpful.
    The one thing I would encourage people to do is go to 
Facebook--I am a proud member of Facebook. I just got a post 
from my sister on this being National Sibling Day, so I have 
connected with four or five of my staff while I was giving you 
my undivided--or family undivided attention. But go to the 
privacy tab. If you do not want to share something, do not 
share it. This is a free service. Go on there and say I do not 
want to allow third-party search engines to get in my Facebook 
page. Go on there and say only my friends can look at it. Go in 
there and understand what you are signing up for. It is a free 
app.
    Now, you need to do more, and I think it would be helpful. 
I did not read your disclaimer page or the terms of use because 
I did not see anywhere in there that I could get an attorney 
and negotiate the terms, so it was a terms of use. I went on 
there, then I used the privacy settings to be as safe as I 
could be with a presence on Facebook.
    Last thing, we talk about all these proposed legislation, 
good ideas, but I have one question for you. When you were 
developing this app in your dorm, how many people did you have 
in your regulatory affairs division?
    [Laughter.]
    Senator Tillis. Exactly. So if government takes a heavy-
handed approach to fix this problem, then we know very well 
that the next Facebook, the next thing that you are going to 
wake up and worry about how you continue to be relevant as the 
behemoth that you are today is probably not going to happen. So 
I think that there is probably a place for some regulatory 
guidance here, but there is a huge place for Google, Snapchat, 
Twitter, all the other social media platforms to get together 
and create standards.
    And I also believe that that person who may have looked the 
other way when the whole social graph was extracted for the 
Obama campaign, if they are still working for you, they 
probably should not or at least there should be a business code 
of conduct that says you do not play favorites. You are trying 
to create a fair place for people to share their ideas.
    Thank you for being here.
    Chairman Thune. Thank you, Senator Tillis.
    Senator Harris.

               STATEMENT OF HON. KAMALA HARRIS, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Harris. Thank you. Thank you for being here.
    I have been here on and off for the last 4 hours that you 
have been testifying, and I have to tell you that I am 
concerned about how much Facebook values trust and transparency 
if we agree that a critical component of a relationship of 
trust and transparency is we speak truth and we get to the 
truth.
    During the course of this hearing these last four hours, 
you have been asked several critical questions for which you do 
not have answers, and those questions have included whether 
Facebook can track users' browsing activity even after the user 
has logged off of Facebook, whether Facebook can track your 
activity across devices even when you are not logged into 
Facebook, who is Facebook's biggest competition, whether 
Facebook may store up to 96 categories of users' information, 
whether you knew Kogan's terms of service and whether you knew 
that Kogan could sell or transfer data.
    And then another case in point specifically as it relates 
to Cambridge Analytica, and a concern of mine, is that you, 
meaning Facebook--and I am going to assume you personally as 
CEO became aware in December 2015 that Dr. Kogan and Cambridge 
Analytica misappropriated data from 87 million Facebook users. 
That is 27 months ago that you became, as Facebook, and perhaps 
you personally became aware. However, a decision was made not 
to notify the users.
    So my question is, did anyone at Facebook have a 
conversation at the time that you became aware of this breach--
and have a conversation wherein the decision was made not to 
contact the users?
    Mr. Zuckerberg. Senator, I do not know if there were any 
conversations at Facebook overall because I was not in a lot of 
them, but----
    Senator Harris. On that subject?
    Mr. Zuckerberg. Yes. I mean, I am not sure what other 
people discussed. In 2015 we heard the report that this 
developer Aleksandr Kogan had sold data to Cambridge Analytica.
    Senator Harris. And were----
    Mr. Zuckerberg. That is in violation of our terms.
    Senator Harris. Correct. And were you a part of a 
discussion that resulted in a decision not to inform your 
users?
    Mr. Zuckerberg. I do not remember a conversation like that 
for the reason why----
    Senator Harris. Are you aware of anyone in leadership at 
Facebook who was in a conversation where a decision was made 
not to inform your users, or do you believe no such 
conversation ever took place?
    Mr. Zuckerberg. I am not sure whether there was a 
conversation about that, but I can tell you the thought process 
at the time of the company, which was that in 2015 when we 
heard about this, we banned the developer and we demanded that 
they delete all the data and stop using it, and the same with 
Cambridge Analytica.
    Senator Harris. And I appreciate your----
    Mr. Zuckerberg. They told us they had----
    Senator Harris.--your testimony in that regard, but I am 
talking about notification of the users, and this relates to 
the issue of transparency and the relationship of trust, 
informing the user about what you know in terms of how their 
personal information has been misused. And I am also concerned 
that when you personally became aware of this, did you or 
senior leadership do an inquiry to find out who at Facebook had 
this information, and did they not have a discussion about 
whether or not the users should be informed back in December 
2015?
    Mr. Zuckerberg. Senator, in retrospect, I think we clearly 
view it as a mistake that we did not inform people, and we did 
that based on false information that we thought that the case 
was closed and that the data had been deleted.
    Senator Harris. So there was a decision made on that basis 
not to inform the users, is that correct?
    Mr. Zuckerberg. That is my understanding, yes.
    Senator Harris. OK. And----
    Mr. Zuckerberg. But, in retrospect, I think that was a 
mistake, and knowing what we know now, we should have handled a 
lot of things here differently.
    Senator Harris. And I appreciate that point. Do you know 
when that decision was made not to inform the users?
    Mr. Zuckerberg. I do not.
    Senator Harris. OK. Last November, the Senate Intelligence 
Committee held a hearing on social media influence. I was a 
part of that hearing. I submitted 50 written questions to 
Facebook and other companies, and the responses that we 
received were unfortunately evasive and some are frankly 
nonresponsive. So I am going to ask the question again here. 
How much revenue did Facebook earn from the user engagement 
that resulted from foreign propaganda?
    Mr. Zuckerberg. Well, Senator, what we do know is that the 
IRA, the Internet Research Agency, the Russian firm, ran about 
$100,000 worth of ads.
    Senator Harris. How much did Facebook----
    Mr. Zuckerberg. I cannot say that we have identified all of 
the foreign actors who were involved here, so I cannot say that 
that is all of the money, but that is what we have identified.
    Senator Harris. OK. My time is up. I will submit more 
questions for the record. Thank you.
    Chairman Thune. Thank you, Senator Harris.
    Next up is Senator Kennedy.

                STATEMENT OF HON. JOHN KENNEDY, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Kennedy. Mr. Zuckerberg, I come in peace.
    [Laughter.]
    Senator Kennedy. I do not want to have to vote to regulate 
Facebook, but, by God, I will. A lot of that depends on you. I 
am a little disappointed in this hearing today. I just do not 
feel like that we are connecting. So let me try to lay it out 
for you from my point of view. I think you are a really smart 
guy, and I think you have built an extraordinary American 
company, and you have done a lot of good. Some of the things 
that you have been able to do are magical. But our promised 
digital utopia we have discovered has minefields. There are 
some impurities in the Facebook punch bowl, and they have got 
to be fixed. And I think you can fix them.
    Now, here is what is going to happen. There are going to be 
a whole bunch of bills introduced to regulate Facebook. It is 
up to you whether they pass or not. You can go back home, spend 
$10 million on lobbyists and fight us, or you can go back home 
and help us solve this problem. And there are two. One is a 
privacy problem; the other one is what I call a propaganda 
problem. Let us start with the privacy problem first. Let us 
start with the user agreement.
    Here is what everybody has been trying to tell you today, 
and I say this gently. Your user agreement sucks.
    [Laughter.]
    Senator Kennedy. You can spot me 75 IQ points. If I can 
figure it out, you can figure it out. The purpose of that user 
agreement is to cover Facebook's rear end. It is not to inform 
your users about their rights. Now, you know that and I know 
that. I am going to suggest to you that you go back home and 
rewrite it and tell your $1,200-an-hour lawyers--no disrespect; 
they are good--but tell them you want it written in English and 
non-Swahili so the average American can understand it. That 
would be a start.
    As a Facebook user, are you willing to give me more control 
over my data?
    Mr. Zuckerberg. Senator, as someone who uses Facebook, I 
believe that you should have complete control over your data.
    Senator Kennedy. OK. Are you willing to go back and work on 
giving me a greater right to erase my data?
    Mr. Zuckerberg. Senator, you can already delete any of the 
data that is there or delete all of your data.
    Senator Kennedy. Are you willing to work on expanding that?
    Mr. Zuckerberg. Senator, I think we already do what you are 
referring to, but certainly, we are always working on trying to 
make these controls easier.
    Senator Kennedy. Are you willing to expand my right to know 
who you are sharing my data with?
    Mr. Zuckerberg. Senator, we already give you a list of apps 
that you are using, and you sign into those yourself and 
provide affirmative consent.
    Senator Kennedy. Right, on that----
    Mr. Zuckerberg. And as I have said before, we do not share 
any data with----
    Senator Kennedy.--user agreement. Are you willing to expand 
my right to prohibit you from sharing my data?
    Mr. Zuckerberg. Senator, again, I believe that you already 
have that control, so, I mean, I think people have that full 
control in the system already today. If we are not 
communicating this clearly, then that is a big thing that we 
should work on because I think the principles that you are 
articulating are the ones that we believe in and try to codify 
in the product that we build.
    Senator Kennedy. Are you willing to give me the right to 
take my data on Facebook and move it to another social media 
platform?
    Mr. Zuckerberg. Senator, you can already do that. We have a 
download-your-information tool where you can go, get a file of 
all the content there, and then do whatever you want with it.
    Senator Kennedy. Then I assume you are willing to give me 
the right to say I am going to go on your platform and you are 
going to be able to tell a lot about me as a result, but I do 
not want you to share it with anybody?
    Mr. Zuckerberg. Yes, Senator, and I believe you already 
have that ability today. People can sign on and choose to not 
share things and just follow some friends or some pages and 
read content if that is what they want to do.
    Senator Kennedy. OK. I want to be sure--I am about out of 
time. Boy, it goes fast, does it not? Let me ask you one final 
question in my 12 seconds. Could somebody call you up and say I 
want to see John Kennedy's file?
    Mr. Zuckerberg. Absolutely not.
    Senator Kennedy. Not would you do it, could you do it?
    Mr. Zuckerberg. In theory----
    Senator Kennedy. Do you have the right to put my data, a 
name on my data, and share it with somebody?
    Mr. Zuckerberg. I do not believe we have the right to do 
that.
    Senator Kennedy. Do you have the ability?
    Mr. Zuckerberg. Senator, the data is in the system, so----
    Senator Kennedy. Do you have the ability?
    Mr. Zuckerberg. Technically, I think someone could do that, 
but that would be a massive breach, so we would never do that.
    Senator Kennedy. It would be a breach. Thank you, Mr. 
Chairman.
    Chairman Thune. Thank you, Senator Kennedy.
    Senator Baldwin is up next.

               STATEMENT OF HON. TAMMY BALDWIN, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Baldwin. Thank you, Mr. Chairman.
    Thank you for being here and enduring the long day, Mr. 
Zuckerberg.
    I want to start with what I hope can be a quick round of 
questions just so I make sure I understand your previous 
testimony.
    Specifically with regard to the process by which Cambridge 
Analytica was able to purchase Facebook users' data, so it was 
an app developer Aleksandr Kogan, he collected data via a 
personality quiz. Is that correct?
    Mr. Zuckerberg. Yes.
    Senator Baldwin. OK. And he thereby is able to gain access 
of not only the people who took the quiz but their network? Is 
that correct, too?
    Mr. Zuckerberg. Senator, yes. The terms of the platform at 
the time allowed for people to share their information and some 
basic information about their friends as well. And we have 
since changed that. As of 2014----
    Senator Baldwin. And----
    Mr. Zuckerberg.--now, that is not possible.
    Senator Baldwin. And so, in total, about 87 million 
Facebook users. You earlier testified about the two types of 
ways you gain data. One is what is voluntarily shared by 
Facebook members and users, and the other is in order to I 
think you said improve your advertising experience, whatever 
that exactly means, the data that Facebook collects in order to 
customize or focus on that. Was Aleksandr Kogan able to get 
both of those sets of data or just what was voluntarily entered 
by the user?
    Mr. Zuckerberg. Yes, that is a good question. It was just a 
subset of what was entered by the person. And----
    Senator Baldwin. So a subset of the 95 categories of data 
that you keep?
    Mr. Zuckerberg. Yes, when you sign into an app----
    Senator Baldwin. OK.
    Mr. Zuckerberg.--the app developer has to say here are the 
types of data from you that I am asking for, including public 
information like your name and profile, the pages you follow, 
other interests on your profile, that kind of content.
    Senator Baldwin. OK.
    Mr. Zuckerberg. The app developer has to disclose that 
upfront and you agree to it.
    Senator Baldwin. OK. So in answer to a couple of other 
Senators' questions, specifically Senator Fischer, you talked 
about Facebook storing this data and I think you just talked 
about the data being in the system. I wonder if outside of the 
way in which Aleksandr Kogan was able to access this data, 
whether you--could Facebook be vulnerable to a data breach or 
hack? Why or why not?
    Mr. Zuckerberg. Well, there are many kinds of security 
threats that a company like ours faces, including people trying 
to break into our security systems----
    Senator Baldwin. OK. And if you believe that you had been 
hacked, do you believe you would have the duty to inform those 
who were impacted?
    Mr. Zuckerberg. Yes.
    Senator Baldwin. OK. Do you know whether Aleksandr Kogan 
sold any of the data he collected with anyone other than 
Cambridge Analytica?
    Mr. Zuckerberg. Senator, yes, we do. He sold it to a couple 
of other firms.
    Senator Baldwin. Can you identify them?
    Mr. Zuckerberg. Yes, there is one called Eunoia, and there 
may have been a couple of others as well, and I can follow up 
with you----
    Senator Baldwin. Can you furnish that to me after?
    Mr. Zuckerberg. Yes.
    [The information referred to follows:]

    Do you know whether Aleksandr Kogan sold any of the data he 
collected to anyone other than Cambridge Analytica?
    Kogan represented to us that he provided data to SCL, Eunoia 
Technologies (a company founded by Christopher Wylie), and a researcher 
at the Toronto Laboratory for Social Neuroscience at the University of 
Toronto. He represented to Facebook that he only received payment from 
SCL/Cambridge Analytica.

    Senator Baldwin. Thank you. I appreciate that. And then how 
much do you know or have you tried to find out how Cambridge 
Analytica used the data while they had it before you believe 
they deleted it?
    Mr. Zuckerberg. Since we just heard that they did not 
delete it about a month ago, we have kicked off an internal 
investigation to see if they used that data in any of their 
ads, for example. That investigation is still underway, and we 
can come back to you with the results of that once we have 
that.
    [The information referred to follows:]

    How much do you know or have you tried to find out how Cambridge 
Analytica used the data while they had it before you believed they 
deleted it?
    On December 11, 2015, The Guardian published an article reporting 
that Kogan and his company, GSR, may have passed information his app 
had obtained from Facebook users to SCL Elections Ltd. (SCL)/Cambridge 
Analytica. By doing so, Kogan and his company violated Facebook's 
Platform Policies, which explicitly prohibited selling or licensing 
user data accessed from Facebook and from sharing any user data 
accessed from Facebook with any ad network, data broker or other 
advertising or monetization-related service. For this reason, Facebook 
immediately banned his app from our platform and launched an 
investigation into these allegations. Kogan signed a certification 
declaring that he had deleted all data that he obtained through his app 
and obtained certifications of deletion from others he had shared data 
with, including Cambridge Analytica. In March 2018, new allegations 
surfaced that Cambridge Analytica may not have deleted data as it had 
represented. Our investigation of these matters is ongoing.

    Senator Baldwin. OK. I want to switch to my home State of 
Wisconsin. According to press reports, my home State of 
Wisconsin was a major target of Russian-bought ads on Facebook 
in the 2016 election. These divisive ads touching on a number 
of very polarizing issues were designed to interfere with our 
election.
    We have also learned that Russian actors using another 
platform Twitter similarly targeted Wisconsin with divisive 
content aimed at sowing division and dissent, including in the 
wake of a police-involved shooting in Milwaukee's Sherman Park 
neighborhood in August 2016.
    Now, I find some encouragement in the steps you have 
outlined today to provide greater transparency regarding 
political ads. I do want to get further information on how you 
can be confident that you have excluded entities based outside 
of the United States.
    Mr. Zuckerberg. We will follow up on that.
    [The information referred to follows:]

    I find some encouragement in the steps you have outlined today to 
provide greater transparency regarding political ads. I want to get 
further information on how you can be confident that you have excluded 
entities based outside of the United States.
    Pursuant to the new transparency measures Facebook is launching, 
all advertisers who want to run ads with political content targeted at 
the U.S. will have to confirm their identity and location by providing 
either a U.S. driver's license or passport, last four digits of their 
social security number, and a residential mailing address. In addition, 
people who manage Pages with large numbers of followers will need to be 
verified. Those who manage large Pages that do not clear the process 
will no longer be able to post.

    Senator Baldwin. And then I think on that topic, if you 
require disclosure of a political ad's sponsor, what sort of 
transparency will you be able to provide with regard to people 
who were not the subject of that ad seeing its content?
    Mr. Zuckerberg. Senator, you will be able to go to any page 
and see all of the ads that that page has run, so if someone is 
running a political campaign, for example, and they are 
targeting one district with one ad and another district with 
another, historically, it has been hard to track that down, but 
now, it will be very easy. You will just be able to look at all 
of the ads that they have run, the targeting associated with 
each to see what they are saying to different folks and in some 
cases how much they are spending on the ads and all of the 
relevant information. This is an area where I think more 
transparency will really help discourse overall and root out 
foreign interference in elections.
    Senator Baldwin. And will you----
    Chairman Thune. Thank you, Senator Baldwin.
    Senator Johnson.

                STATEMENT OF HON. RON JOHNSON, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Johnson. Thank you, Mr. Chairman.
    Thank you, Mr. Zuckerberg, for testifying here today. Do 
you have any idea how many of your users actually read the 
terms of service, the privacy policy, the statement of rights 
and responsibilities, I mean, actually read it?
    Mr. Zuckerberg. Senator, I do not.
    Senator Johnson. Would you imagine it is a very small 
percentage?
    Mr. Zuckerberg. Senator, who read the whole thing? I would 
imagine that probably most people do not read the whole thing, 
but everyone has the opportunity to and consents to it.
    Senator Johnson. Well, I agree, but that is kind of true of 
every application where, you know, you want to get to it, and 
you have to agree to it and people just press that agree, the 
vast majority, correct?
    Mr. Zuckerberg. Senator, it is really hard for me to make a 
full assessment, but----
    Senator Johnson. Common sense will tell you that would be 
probably the case.
    With all this publicity, have you documented any kind of 
backlash from Facebook users? I mean, has there been a dramatic 
falloff in the number of people who utilize Facebook because of 
these concerns?
    Mr. Zuckerberg. Senator, there has not.
    Senator Johnson. Do you have any witness to any?
    Mr. Zuckerberg. Senator, there was a movement where some 
people were encouraging their friends to delete their account, 
and I think that that got shared a bunch.
    Senator Johnson. So it is kind of safe to say that Facebook 
users don't seem to be overly concerned about all these 
revelations, although obviously Congress apparently is?
    Mr. Zuckerberg. Well, Senator, I think people are concerned 
about it, and I think these are incredibly important issues 
that people want us to address. And I think people have told us 
that very clearly.
    Senator Johnson. So it seems like Facebook users still want 
to use the platform because they enjoy sharing photos and they 
share the connectivity with the family members, that type of 
thing, and that overrides their concerns about privacy.
    You talk about the user owns the data. You know, there have 
been a number of proposals of having that data stay at the user 
and allow the user to monetize it themselves. Your COO Ms. 
Sandberg mentioned possibly if you can't utilize that data to 
sell advertising, perhaps we would charge people to go into 
Facebook. Have you thought about that model where the user data 
is actually monetized by the actual user?
    Mr. Zuckerberg. Senator, I am not sure exactly how it would 
work for it to be monetized by the person directly. In general, 
we believe that the ads model is the right one for us because 
it aligns with our social mission of trying to connect everyone 
and bring the world close together.
    Senator Johnson. But you are aware of people making that 
kind of proposal, correct?
    Mr. Zuckerberg. Yes, Senator, a number of people suggest 
that we should offer a version where people cannot have ads if 
they pay a monthly subscription, and certainly we consider 
ideas like that. I think that they are reasonable ideas to 
think through. But overall, I think that the ads experience is 
going to be the best one. I think in general people like not 
having to pay for a service. A lot of people can't afford to 
pay for a service around the world. And this aligns with our 
mission the best.
    Senator Johnson. You answered Senator Graham when he asked 
you if you thought you were a monopoly that you didn't think 
so. You are obviously a big player in this space. That might be 
an area for competition, correct, if somebody else wants to 
create a social platform that allows a user to monetize their 
own data?
    Mr. Zuckerberg. Senator, yes. There are lots of new social 
apps all the time, and as I said before, the average American I 
think uses eight different communication and social apps, so 
there is a lot of different choice and a lot of innovation and 
activity going on in this space.
    Senator Johnson. I want to, in a very short period of time, 
for you to talk about the difference between advertisers and 
application developers because those, again, you said in 
earlier testimony that advertisers have no access to data 
whatsoever, but application developers do. Now, is that only 
through their own service agreements with their customers, or 
do they actually access data as they are developing 
applications?
    Mr. Zuckerberg. Senator, this is an important distinction, 
so thanks for giving me the opportunity to clarify this. We 
give people the ability to take their data to another app if 
they want. Now, this is a question that Senator Kennedy asked 
me just a few minutes ago. The reason why we designed the 
platform that way is because we thought it would be very useful 
to make it so that people could easily bring their data to 
other services. Some people in the company argued against that 
at the time because they were worried that--they said, hey, we 
should just make it so that we can be the only ones who develop 
this stuff and we thought that that was a useful thing for 
people to do so we built it.
    Senator Johnson. That is the user agreeing to allow you to 
share when they are using that app to allow Facebook to share 
their data. Does the developer ever have access to that prior 
to users using it? I mean, in developing the application 
because you used the term scraped data. What does that mean? 
Who scraped the data?
    Mr. Zuckerberg. Yes, Senator, this is a good question. So 
there is the developer platform, which is the sanctioned way 
that an app developer can ask a person to access information. 
We also have certain features and certain things that are 
public, right? A lot of the information that people choose to 
put on Facebook they are sharing with everyone in the world, 
not privately but, you know, you put your name, you put your 
profile picture. That is public information that people put out 
there. And sometimes people who aren't registered developers at 
Facebook try to load a lot of pages in order to get access to a 
bunch of people's public information and aggregate it. We fight 
back hard against that because we do not want anyone to 
aggregate information even if people made it public and chose 
to share it with everyone.
    Senator Johnson. OK. Thank you, Mr. Chairman.
    Chairman Thune. Thank you, Senator Johnson.
    Senator Hassan.

               STATEMENT OF HON. MAGGIE HASSAN, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Hassan. Thank you, Mr. Chair.
    Thank you, Mr. Zuckerberg, for being here today.
    I want to talk to a couple of broader issues. I am 
concerned that Facebook's profitability rests on two 
potentially problematic foundations, and we have heard other 
Senators talk about this a little today. The foundations are 
maximizing the amount of time people spend on your products and 
collecting people's data. I have looked at Facebook's 2017 
corporate financial statement where you lay out some of the 
major risks to your business. One risk is a decrease in, and I 
quote, ``user engagement, including time spent on our 
products.'' That concerns me because of the research we have 
seen suggesting that too much time spent on social media can 
hurt people's mental health, especially young people.
    Another major risk to your business is a potential decline 
in--and here is another quote--``the effectiveness of our ad 
targeting or the degree to which users opt out of certain types 
of ad targeting, including as a result of changes that enhance 
the user's privacy.'' There is clearly tension, as other 
Senators have pointed out, between your bottom line and what is 
best for your users.
    You have said in your testimony that Facebook's mission is 
to bring the world closer together, and you have said that you 
will never prioritize advertisers over that mission. And I 
believe that you believe that. But at the end of the day, your 
business model does prioritize advertisers over the mission. 
Facebook is a for-profit company, and as the CEO, you have a 
legal duty to do what is best for your shareholders.
    So given all of that, why should we think that Facebook on 
its own will ever truly be able to make the changes that we 
need it to make to protect Americans' well-being and privacy?
    Mr. Zuckerberg. Well, Senator, you raise a number of 
important points in there, so let me respond----
    Senator Hassan. Sure.
    Mr. Zuckerberg.--in a couple of different ways. The first 
is that I think it is really important to think about what we 
are doing is building this community over the long term. Any 
business has the opportunity to do things that might increase 
revenue in the short term but at the expense of trust or 
building engagement over time. What we actually find is not 
necessarily that increasing time spent, especially not just in 
the short term, is going to be best for our business. It 
actually aligns very closely with the well-being research that 
we have done, that when people are interacting with other 
people and posting and basically building relationships, that 
is both correlated with higher measures of well-being, health, 
happiness, not feeling lonely, and that ends up being better 
for the business than when they are doing lower-value things 
like just passively consuming content. So I think that that is 
an important point to----
    Senator Hassan. OK. And I understand the point that you are 
trying to make here, but here is what I am concerned about. We 
have heard this point from you over the last decade-plus since 
you founded Facebook, and I understand that you founded it 
pretty much as a solo entrepreneur with your roommate, but now, 
you know, you are sitting here, the head of a bazillion-dollar 
company. And we have heard you apologize numerous times and 
promise to change, but here we are again, right?
    So I really firmly believe in free enterprise, but when 
private companies are unwilling or unable to do what is 
necessary, public officials have historically in every industry 
stepped up to protect our constituents and consumers.
    You have supported targeted regulations such as the Honest 
Ads Act, and that is an important step for election integrity. 
I am proud to be a cosponsor of that bill. But we need to 
address other broader issues as well. And today, you have said 
you would be open to some regulation, but this has been a 
pretty general conversation. So will you commit to working with 
Congress to develop ways of protecting constituent privacy and 
well-being, even if it means that that results in some laws 
that will require you to adjust your business model?
    Mr. Zuckerberg. Senator, yes. We will commit to that. I 
think that that is an important conversation to have. Our 
position is not that regulation is bad. I think the Internet is 
so important in people's lives and it is getting more 
important.
    Senator Hassan. Yes.
    Mr. Zuckerberg. The expectations on internet companies and 
technology companies overall are growing, and I think the real 
question is what is the right framework for this, not should 
there be one.
    Senator Hassan. That is very helpful, and I think the other 
question--and it does not just go to Facebook--is whether the 
framework should include financial penalties when large 
providers like Facebook are breached and privacy is compromised 
as a result because right now, there is very little incentive 
for whether it is Facebook or Equifax to actually be aggressive 
in protecting customer privacy and looking for potential 
breaches or vulnerabilities in their system. So what we hear 
after the fact, after people's privacy has been breached, after 
they have taken the harm that comes with that and considerable 
inconvenience in addition to the harm. We have heard apologies 
but there is no financial incentive right now it seems to me 
for these companies to aggressively stand in their consumers' 
stead and protect their privacy, and I would really look 
forward to working with you on that and getting your considered 
opinion about it.
    Mr. Zuckerberg. Well, Senator, we look forward to 
discussing that with you. I would disagree, however, that we 
have no financial incentive or incentive overall to do this. 
This episode has clearly hurt us and has clearly made it harder 
for us to achieve the social mission that we care about. And we 
now have to do a lot of work around building trust back, which 
is just a really important part of this.
    [The information referred to follows:]

    The other question I had, and it does not just apply to Facebook, 
is should the framework include financial penalties when large 
providers like Facebook are breached and privacy is compromised as a 
result? There is very little incentive for whether it is Facebook or 
Equifax to actually be abreast of protecting customer privacy and 
working for potential breaches or vulnerabilities in the system.
    Protecting people's data is one of our most important 
responsibilities. We know that if people don't trust that their 
information will be safe on Facebook, they won't feel comfortable using 
our services.
    We have every incentive to work as hard as we can to protect 
people's information, and we're committed to continuing our work to 
improve those protections.
    Facebook is generally open to the idea of Federal breach 
notification requirements, particularly legislation that would 
centralize reporting and ensure a consistent approach across the United 
States. For example, in Europe, the GDPR requires notification to a 
lead supervisory authority, rather than individual member states, in 
cases of a data breach. In the United States, however, there is no 
centralized notification scheme, and instead, reporting obligations 
vary widely across all 50 states. This complexity makes it harder to 
respond appropriately and swiftly to protect people in the event of a 
data breach. We believe this is an important issue and an area that is 
ripe for thoughtful regulation.
    Facebook is generally not opposed to regulation but wants to ensure 
it is the right regulation. We are already regulated in many ways--for 
example, under the Federal Trade Commission Act--and we are subject to 
ongoing oversight by the FTC under the terms of a 2011 consent order. 
Facebook has inherent incentives to protect its customers' privacy and 
address breaches and vulnerabilities. Indeed, the recent discovery of 
misconduct by an app developer on the Facebook platform clearly hurt 
Facebook and made it harder for us to achieve our social mission. As 
such, Facebook is committed to protecting our platform from bad actors, 
ensuring we are able to continue our mission of giving people a voice 
and bringing them closer together. We are also actively building new 
technologies to help prevent abuse on its platform, including advanced 
AI tools to monitor and remove fake accounts. We have also 
significantly increased our investment in security, employing more than 
15,000 individuals working solely on security and content review and 
planning to increase that number to over 20,000 by the end of the year. 
We have also strengthened our advertising policies, seeking to prevent 
discrimination while improving transparency.

    Senator Hassan. Well, I thank you. My time is up, and I 
will follow up with you on that.
    Chairman Grassley [presiding]. Senator Capito.

            STATEMENT OF HON. SHELLEY MOORE CAPITO, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Capito. Thank you, Chairman Grassley.
    And thank you, Mr. Zuckerberg, for being here today.
    I want to ask just kind of a process question. You have 
said more than a few times that Facebook users can delete from 
their own account at any time. Well, we know in the course I 
do. I have got grandchildren now, but children, you tell your 
children once you make that mark in the Internet system, it 
never really goes away.
    So my question to you is, and I think you answered that 
once an individual deletes the information from their page, it 
is gone forever from Facebook's archives. Is that correct?
    Mr. Zuckerberg. Yes. And I think you raise a good point, 
though, which is that we will delete it from our systems, but 
if you have shared something to someone else, then we cannot 
guarantee that they do not have it somewhere else.
    Senator Capito. OK. So if somebody leaves Facebook and then 
rejoins and asks Facebook can you recreate my past, your answer 
would be?
    Mr. Zuckerberg. If they delete their account, their answer 
is no. That is why we actually offer two options. We offer 
deactivation, which allows you to shut down or suspend your 
account but not delete the information because actually a lot 
of people want to at least for some period of time--and we hear 
students with exams coming up want to not be on Facebook 
because they want to make sure they can focus on the exam, so 
they deactivate their account temporarily but then want the 
ability to turn it back on when they are ready.
    You can also delete your account, which is wiping 
everything, and if you----
    Senator Capito. So?
    Mr. Zuckerberg.--do that, then you cannot get it back.
    Senator Capito. You cannot get it back? It is gone from 
your archives?
    Mr. Zuckerberg. Yes.
    Senator Capito. But is it ever really gone?
    Mr. Zuckerberg. From our systems it is.
    Senator Capito. From the cloud or wherever it is. I mean, 
it always seems to be able to reappear in investigations and 
other things, not necessary Facebook but other e-mails and 
other things of that nature.
    What about the information going from the past, the 
information that has already been in the Cambridge Analytica 
case? You cannot really go back and redo that, so I am going to 
assume that what we have been talking with and the improvements 
that you are making now at Facebook are from this point 
forward. Is that a correct assumption?
    Mr. Zuckerberg. Senator, I actually do think we can go back 
in some cases, and that is why one of the things that I 
announced is that we are going to be investigating every single 
app that had access to a large amount of information before we 
lock down the platform in 2014. And if we find any pattern of 
suspicious activity, then we are going to go, do a full audit 
of their systems. And if we find that anyone is improperly 
using data, then we will take action to make sure that they 
delete the data, and we will inform everyone who may have had 
their data misused.
    Senator Capito. OK. The other suggestion I would make 
because we are kind of running out of time here is you have 
heard more than a few complaints, and I join the chorus, of the 
lapse in the time of when you discovered and when you became 
transparent. And I understand you sent out two messages just 
today to users.
    So I would say--you say you regret that decision that you 
wish you had been more transparent at the time, so I would 
imagine if in the course of your investigation you find more 
breaches, so to speak, that you will be re-informing your 
Facebook customers?
    Mr. Zuckerberg. Yes, that is correct. We have already 
committed that if we find any improper use, we will inform 
everyone affected.
    Senator Capito. OK. Thank you. You have said also that you 
want to have an active view on controlling your ecosystem. Last 
week, the FDA Commissioner Scott Gottlieb addressed a drug 
summit in Atlanta and spoke on the national opioid epidemic. My 
state, and I am from West Virginia, and thank you for visiting. 
And next time you visit if you would please bring some fiber 
because we do not have connectivity in our rural areas like we 
really need, and Facebook could really help us with that.
    So Commissioner Gottlieb called upon social media and 
internet service providers, and he mentioned Facebook when he 
talked about it, to try to disrupt the sale of illegal drugs 
and particularly powerful opioid fentanyl, which has been 
advertised and sold online. I know you have policies against 
this. The Commissioner is announcing his intention to convene a 
meeting of chief executives and senior leaders, and I want to 
know, could I get a commitment from you today that Facebook 
will commit to having a representative with Commissioner 
Gottlieb to finalize with this meeting?
    Mr. Zuckerberg. Senator, that sounds like an important 
initiative, and we will send someone.
    [The information referred to follows:]

    Please send someone to the opioid meeting.
    Thank you for highlighting this important issue. Yes, we will work 
with the Administration to send a Facebook representative. We are 
committed to doing our part in combating the opioid crisis and look 
forward to a continued dialogue with you.

    Senator Capito. OK. And?
    Mr. Zuckerberg. And let me also say that on your point 
about connectivity, we do have a group in Facebook that is 
working on trying to spread Internet connectivity in rural 
areas, and we would be happy to follow up with you on that as 
well. That is something that I am very passionate about.
    Senator Capito. That is good. That is good news.
    The last question I have just on the advertising, if 
somebody advertises on Facebook and somebody purchases 
something, does Facebook get a percentage or any kind of a fee 
associated with a successful purchase from an advertiser?
    Mr. Zuckerberg. Senator, no. The way that the system works 
is advertisers bid how much it is worth it to them to show an 
ad or when an action happens. So it is not that we would get a 
percent of the sale, but--let us just use an example. So let us 
say you are an app developer, and your goal is you want to get 
more people to install your app. You could bid in the ad system 
and say I will pay $3 any time someone installs this app, and 
then we basically calculate on our side which ads are going to 
be relevant for people. And we have an incentive to show people 
ads that are going to be relevant because we only get paid when 
it delivers a business result. And that is how the system 
works.
    Senator Capito. So you could be paid for the sale?
    Mr. Zuckerberg. We get paid when the action that the 
advertiser wants to happen happens.
    Senator Capito. All right. Thank you.
    Chairman Grassley. Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you.
    Mr. Zuckerberg, thank you. It has been a long afternoon, 
and I appreciate you being here and taking the time with every 
single one of us.
    I am going to echo a lot of what I have heard my colleagues 
say today as well. I appreciate you being here, appreciate the 
apology, but stop apologizing and let us make the change. I 
think it is time to really change the conduct. I appreciate the 
fact that you talked about your principles for Facebook, notice 
to users on the use of the data and that users have complete 
control of their data. But the skepticism that I have--and I am 
hoping you can help me with this--is over the last, what, 7 
years, 7, 14 years, 7 years, I have not seen really much change 
in ensuring that the privacy is there and that individual users 
have control over their data.
    So let me ask you this. Back in 2009, you made two changes 
to your privacy policy, and in fact prior to that most users 
could either identify only friends or friends of friends as 
part of their privacy, correct, if they wanted to protect their 
data? They could identify only friends or friends of friends 
who could see their data, is that not correct?
    Mr. Zuckerberg. Senator, I believe that we have had the 
option for people to share with friends, friends of friends, a 
custom audience, or publicly for a long time.
    Senator Cortez Masto. OK.
    Mr. Zuckerberg. I do not remember exactly when we put that 
in place, but I believe it was before 2009.
    Senator Cortez Masto. So either you can choose only friends 
or friends of friends to decide how you are going to protect 
that data, correct?
    Mr. Zuckerberg. Those are two of the options, yes.
    Senator Cortez Masto. OK. And in 2011 when the FTC started 
taking a look at this, they were concerned that if somebody 
chose only friends, that the individual user was under the 
impression they could continue to restrict sharing of data to 
limited audience, but that was not the case. And in fact, 
selecting friends only did not prevent users' information from 
being shared with their third-party applications their friends 
used. Is that not the case? And that is why the FTC was looking 
at you and making that change because there was concern that if 
you had friends on your page, a third party could access that 
information. Is that not correct?
    Mr. Zuckerberg. Senator, I do not remember the exact 
context that the----
    Senator Cortez Masto. So let me help you here because David 
Vladeck, who spent nearly 4 years as Director of the Federal 
Trade Commission's Bureau of Consumer Protection, where he 
worked, including on the FTC's enforcement case against 
Facebook, basically identifies in this article that that was 
the case, that not only did Facebook misrepresent and that is 
why there were eight counts of deceptive acts and practices, 
the actual FTC in November's 2011 Decree basically required 
Facebook to give users clear and conspicuous notice and to 
obtain affirmative--let me jump back here--to do three things. 
The decree barred Facebook from making any further deceptive 
privacy claims, and it required Facebook get consumers' 
approval before changing the way it shares their data. And most 
importantly, the third thing, it required Facebook to give 
users clear and conspicuous notice and to obtain affirmative 
express consent before sharing their data with third parties. 
That was part of the FTC consent decree, correct?
    Mr. Zuckerberg. Senator, that sounds right to me.
    Senator Cortez Masto. OK. So at that time you were on 
notice that there were concerns about the sharing of data and 
information, users' data, including those friends with third 
parties, correct?
    Mr. Zuckerberg. Senator, my understanding----
    Senator Cortez Masto. Well, let me ask you this. Let me do 
it this way. In response to the FTC consent to make those 
changes, did you make those changes? And what did you do to 
ensure individuals' user data was protected and they had notice 
of that information and that potentially third parties would be 
accessing that and they had to give express consent? What did 
you specifically do in response to that?
    Mr. Zuckerberg. Senator, a number of things. One of the 
most important parts of the FTC consent decree that we signed 
was establishing a robust privacy program at the company headed 
by our chief privacy officer Erin Egan.
    Senator Cortez Masto. Can you give me----
    Mr. Zuckerberg. We are now----
    Senator Cortez Masto.--specifics on it? And I have heard 
this over and over again and I am running out of time, but here 
is the concern that I have. It cannot be a privacy policy 
because that is what the consent said it could not be. It had 
to be something very specific, something very simple like you 
have heard from my colleagues, and that did not occur. Had that 
occurred, we would not be here today talking about Cambridge 
Analytica. Is that not really true? Had you addressed those 
issues then, had you done an audit, had you looked at not only 
the third party applications but they are audited their 
associated data storage as well, you would have known that this 
type of data information was being shared. And that is our 
concern, and that is what I am saying now. It is time just to 
make the change. It is time to really address the privacy 
issue. It is time to really come and lead the country on this 
issue and how we can protect individual user's data and 
information.
    I know my time is running out, but I appreciate you being 
here, and I am just hoping that you are committed to working 
with us in the future in addressing these concerns.
    Chairman Thune [presiding]. Thank you, Senator Cortez 
Masto.
    Senator Gardner.

                STATEMENT OF HON. CORY GARDNER, 
                   U.S. SENATOR FROM COLORADO

    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Zuckerberg, for your patience and 
testimony today. The end is near I think, one, two, three, or 
four people, so that is good news to get out of this hearing.
    A couple questions for you. To clarify one of the comments 
made about deleting accounts from Facebook, in the user 
agreement it says, ``When you delete IP content, it is deleted 
in a manner similar to emptying the recycle bin on a computer. 
However, you understand that removed content may persist in 
backup copies for a reasonable period of time.`` How long is 
that?
    Mr. Zuckerberg. Senator, I do not know sitting here what 
our current systems are on that, but the intent is to get all 
the content out of the system as quickly as possible.
    Senator Gardner. And does that mean your user data as well? 
It talks about IP content. Is that the same thing as your user 
data? It can sit in backup copies?
    Mr. Zuckerberg. Senator, I think that that is probably 
right. I am not sitting here today having full knowledge of our 
current state of the systems around wiping all of the data out 
of backups, so I can follow up with you on that afterwards. But 
what I can tell you is that----
    Senator Gardner. But all backups get wiped?
    Mr. Zuckerberg. That is certainly the way it is supposed to 
work.
    Senator Gardner. Has there ever been a failure of that?
    Mr. Zuckerberg. Senator, I do not know. If we tell people 
that we are going to delete their data, we need to do that.
    Senator Gardner. And you do do that? Thank you.
    Mr. Zuckerberg, a couple of other questions. I think that 
gets to the heart of this expectation gap as I call it with 
users. Facebook, as I understand it, if you are logged into 
Facebook with a separate browser and you log into another 
article, open a new tab in the browser while you have the 
Facebook tab open and that new tab has a Facebook, you know, 
button on it, you track the article that you are reading, is 
that correct?
    Mr. Zuckerberg. Senator, I think that----
    Senator Gardner. In the tab?
    Mr. Zuckerberg. I think that there is functionality like 
that, yes.
    Senator Gardner. Do you think users understand that?
    Mr. Zuckerberg. Senator, I think that there is a 
reasonable--I think the answer is probably yes for the 
following reason: because when we show a like button on a 
website, we show social context there, so it says here are your 
friends who liked that. So in order to do that, we would have 
to----
    Senator Gardner. But if you have got your Facebook browser 
open and you open up an article in the Denver Post and it has a 
Facebook button it, do you think they know, consumers, users 
know that Facebook now knows what article you are reading in 
the Denver Post?
    Mr. Zuckerberg. Well, we would need to have that in order 
to serve up the like button and show you who your friends were 
who had also liked that.
    Senator Gardner. So I think that goes to the heart of this 
expectation gap because I do not think consumers, users 
necessarily understand that. I mean, in going through this user 
agreement, as others have, you do need a lawyer to understand 
it. And I hope that you can close that expectation gap by 
simplifying the user agreement, making sure that people 
understand their privacy.
    Has there ever been a violation outside of the talk about 
Cambridge Analytica about the privacy settings? Has a privacy 
setting violation ever occurred outside of Cambridge Analytica?
    Mr. Zuckerberg. I am not aware that we have had systems 
that have----
    Senator Gardner. So the privacy setting----
    Mr. Zuckerberg.--shown content----
    Senator Gardner.--a user uses have always been respected? 
There has never been an instance where those privacy settings 
have been violated?
    Mr. Zuckerberg. That is my understanding. I mean, this is 
the core thing that our company does is you come to Facebook, 
you say, hey, I want to share this photo or I want to----
    Senator Gardner. I understand.
    Mr. Zuckerberg.--send this message to these people and we 
have to----
    Senator Gardner. Has there ever been a breach of Facebook 
data, a hack?
    Mr. Zuckerberg. There have been--I do not believe that 
there has been a breach of data that we are aware of.
    Senator Gardner. Has there ever been a hack?
    Mr. Zuckerberg. Yes.
    Senator Gardner. And have those hacks accessed user data?
    Mr. Zuckerberg. I do not believe so. I think we had an 
instance back in 2013 where someone was able to install some 
malware on a few employees' computers and had access to some of 
the content on their computers, but I do not believe----
    Senator Gardner. Never affected a user page?
    Mr. Zuckerberg.--they had access to data.
    Senator Gardner. It never affected the user page?
    Mr. Zuckerberg. I do not believe so.
    Senator Gardner. OK. Has the government ever asked to 
remove a page, have a page removed?
    Mr. Zuckerberg. Senator, I believe so.
    Senator Gardner. OK. Can you get a warrant to join a page 
to be on a page pretending you are a separate user, to be liked 
by that, to track what that person is doing? Do you need a 
warrant for that or can the government just do that, the FBI, 
anybody?
    Mr. Zuckerberg. Senator, I am not sure I fully understand. 
You are saying to----
    Senator Gardner. We can follow up on that because I do have 
one final question I want to ask you. A couple days ago, I 
think Facebook talked about that it would label traditional 
advocacy as political ads. And, for instance, if the Sierra 
Club was to run a climate change ad, that would be labeled a 
political ad. If the Chamber of Commerce wanted to place an ad 
as the climate change regulations would have an impact and talk 
about that through an ad, that would be labeled as political, 
which is different than current standards of what is political, 
what is issue advocacy. Is it your intent to label things 
political that would be in contradiction to Federal law?
    Mr. Zuckerberg. Senator, the intent of what we are trying 
to get at is the foreign election interference that we have 
seen has taken more the form of issue ads than direct political 
electioneering advertising. So, because of that, we think it is 
very important to extend the verification and transparency to 
issue ads in order to block the kind of interference that the 
Russians attempted to do and I think will likely continue to 
attempt to do. That is why I think that those measures are 
important to do.
    Senator Gardner. Thank you.
    Chairman Thune. Thank you, Senator Gardner.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to thank you for being here today, Mark. I 
appreciate you coming in. I hope this is not the last time we 
see you in front of committee. I know we are approaching 5 
hours, so it has been a little tenuous, some mental gymnastics 
for all of us, and I just want to thank you for being here.
    Facebook is an American company, and with that I believe 
you have got a responsibility to protect American liberties 
central to our privacy. Facebook allowed a foreign company to 
steal private information. They allowed a foreign company to 
steal private information from tens of millions of Americans 
largely without any knowledge of their own. Who and how we 
choose to share our opinions is a question of personal freedom. 
Who we share our likes and dislikes with is a question of 
personal freedom. This is a troubling episode that completely 
shatters that liberty, so that you understand the magnitude of 
this. Montanans are deeply concerned with this breach of 
privacy and trust.
    So you have been at this for nearly 5 hours today. So 
besides taking reactive steps--and I want you to be as concise 
as you possibly can--what are you doing to make sure what 
Cambridge Analytica did never happens again?
    Mr. Zuckerberg. Thank you, Senator. There are three 
important steps that we are taking here. For Cambridge 
Analytica, first of all, we need to finish resolving this, by 
doing a full audit of their systems to make sure that they 
delete all the data that they have and so we can fully 
understand what happened.
    There are two sets of steps that we are taking to make sure 
that this does not happen again. The most important is 
restricting the amount of access to information that developers 
will have going forward. The good news here is that back in 
2014 we actually had already made a large change to restrict 
access on the platform that would have prevented this issue 
with Cambridge Analytica from happening again today. Clearly, 
we did not do that soon enough. If we had done it a couple of 
years earlier, then we probably would not be sitting here 
today. But this is not a change that we had to take now in 
2018. It is largely a change that we did back in 2014.
    Senator Tester. OK.
    Mr. Zuckerberg. There are other parts of the platform that 
we also similarly can lock down now to make sure that other 
issues that might have been exploited in the future will not be 
able to. And we have taken a number of those steps, and I have 
outlined those in my written statement as well.
    Senator Tester. I appreciate that. And you feel confident 
that the actions that you have taken thus far, whether it was 
the ones back in 2014 or the one that you just talked about, 
about locking down the other parts, will adequately protect the 
folks who use Facebook?
    Mr. Zuckerberg. Senator, I believe so----
    Senator Tester. OK.
    Mr. Zuckerberg.--although security is never a solved 
problem.
    Senator Tester. That is all I need. You talked about a full 
audit of Cambridge Analytica's systems. Can you do a full audit 
if that information is stored in some other country?
    Mr. Zuckerberg. Senator, right now, we are waiting on the 
audit because the U.K. Government is doing a government 
investigation of them.
    Senator Tester. OK. But----
    Mr. Zuckerberg. And I do believe that the government will 
have the ability to get into the systems even if we cannot.
    Senator Tester. If information is stored in the U.K., but 
what if it is stored in some other country? What if the 
information is stored in some other country? Is an audit even 
possible?
    Mr. Zuckerberg. Well, Senator, we believe a bunch of the 
information that we will be able to audit. I think you raise an 
important question, and if we have issues, then we--if we are 
not able to do an audit to our satisfaction, we are going to 
take legal action to enable us to do that. And also, I know 
that the U.K. and U.S. Governments are also involved in working 
on this as well.
    Senator Tester. I am telling you I would have faith in the 
U.S. Government. I really actually have faith in the U.K., too. 
There have been claims that this information is being stored in 
Russia. I do not care. It could be stored anywhere in the 
world. I do not know how you get access to that information. I 
am not as smart as you are about tech information, and so the 
question really becomes--and I have got to move on, but the 
question is I do not see how you can perform a full audit if 
they have got stuff stored somewhere else that we cannot get 
access to. That is all. Maybe you have other ideas on how to do 
that.
    Mr. Zuckerberg. Well, I think we will know once we get in 
there whether we feel like we can fully investigate everything.
    Senator Tester. Just real quickly, Senator Schatz asked a 
question earlier about data and who owns the data. I want to 
dig into it a little bit more. You said--and I think multiple 
times during this hearing--that I own the data on Facebook if 
it is my data.
    Mr. Zuckerberg. Yes.
    Senator Tester. And I am going to tell you that I think 
that that sounds really good to me, but in practice, let us 
think about this for a second. You are making about 40 billion 
bucks a year on the data. I am not making any money on it. It 
feels like you own the data. And in fact, I would say that the 
data that was breached through Cambridge Analytica, which 
impacted--and correct me if these numbers are wrong--some 80 
million Americans, my guess is that few if any knew that that 
information was being breached. If I own that data, I know it 
is being breached.
    So could you give me some sort of idea on how you can 
really honestly say it is my data when, quite frankly, they may 
have goods on me. I do not want them to have any information on 
me.
    Mr. Zuckerberg. Senator, when I say it is----
    Senator Tester. If I own it, I can stop it.
    Mr. Zuckerberg. Yes. So, Senator, when I say it is your 
data, what I mean is that you have control over how it is used 
on Facebook. You clearly need to give Facebook a license to use 
it within our system----
    Senator Tester. Yes.
    Mr. Zuckerberg.--or else the service does not work.
    Senator Tester. Yes, I know, and this license has been 
brought up many times today. And I am going to be quiet in just 
one second, Mr. Chairman.
    But the fact is is the license is very thick, maybe 
intentionally so, so people get tired of reading it and do not 
want to.
    Look, Mark, I appreciate you being here. I look forward to 
having you at another hearing.
    Chairman Grassley [presiding]. Senator Young.

                 STATEMENT OF HON. TODD YOUNG, 
                   U.S. SENATOR FROM INDIANA

    Senator Young. Mr. Zuckerberg, thanks so much for being 
here enduring the many questions today. I think it is important 
you are here because your social media platform happens to be 
the ubiquitous social media platform. And there is not a 
Senator that you heard from today that is not on Facebook, that 
does not communicate with our constituents through Facebook. In 
a sense, we have to be on it, and so I think it is especially 
important that you are here not just for Facebook but really 
for our country and beyond.
    The threshold question that continues to emerge here today 
is, what are the reasonable expectations of privacy that users 
ought to have? And, I will tell you, my neighbors are 
unsatisfied by an answer to that question that involves, you 
know, take a look at the User Agreement. And I think there has 
been a fair amount of discussion here about whether or not 
people actually read that User Agreement. I would encourage you 
to, you know, survey that, get all the information you can with 
respect to that, and make sure that user agreement is easy to 
understand and streamlined and so forth.
    Mr. Zuckerberg, earlier in today's hearing, you drew a 
distinction that I thought was interesting. It caught my 
attention. It was a distinction between consumer expectation of 
privacy depending upon whether they were on an ISP or the pipes 
of the Internet as you characterized it or on an edge platform 
like Facebook. I find this distinction somewhat unsatisfying 
because most folks who use the Internet just think of it as one 
place if you will. They think of it as the Internet as opposed 
to various places requiring different degrees of privacy.
    Could you speak to this issue and indicate whether you 
would support a comprehensive privacy policy that applies in 
the same manner to all entities across the entire internet 
ecosystem?
    Mr. Zuckerberg. Senator, sure. I think that people's 
expectations of how they use these different systems are 
different. Some apps are very lightweight, and you can fully 
encrypt the data going across them in a way that the app 
developer or the pipes in the ISP case probably should not be 
able to see any of the content. And I think you probably should 
have a full expectation that no one is going to be 
introspecting or looking at that content. Other services----
    Senator Young. Give me some quick examples if you would 
kindly, sir.
    Mr. Zuckerberg. Sure. Well, when data is going over the 
Verizon network, I think it would be good for that to be as 
encrypted as possible and such that Verizon would not look at 
it, right? I think that that is what people expect, and I do 
not know that being able to look at the data is required to 
deliver their service. That is how WhatsApp works, too, so that 
is an app. It is a very lightweight app. It does not require us 
to know a lot of information about you, so we can offer that 
with full encryption, and therefore, we do not see the content.
    For a service like Facebook or Instagram where you are 
sharing photos and then people want to access them from lots of 
different places, people kind of want to store that in a 
central place so that way they can go access it from lots of 
different devices. In order to do that, we need to have an 
understanding of what that content is, so I think the 
expectations of what Facebook will have knowledge of versus 
what an ISP will have knowledge of are just different.
    Senator Young. I think that needs to be clearly 
communicated to your users, and we will leave it at that, that 
those different levels of privacy that the user can expect to 
enjoy when they are on your platform.
    I would like to sort of take a different tack to internet 
privacy policy with you, sir. Might we create stronger privacy 
rights for consumers either through creating a stronger general 
property right regime online, say a new law that states 
unequivocally something that you have said before, that users 
own their online data or through stronger affirmative opt-in 
requirements on platforms like yours. Now, if we were to do 
that, would you need to retool your model if we were to adopt 
one of those two approaches?
    Mr. Zuckerberg. Senator, could you repeat what the 
approaches are again?
    Senator Young. Yes, so one is to create a stronger property 
right for the individual online through a law that states 
unequivocally----
    Mr. Zuckerberg. OK.
    Senator Young.--users own their data. The other one is a 
stronger affirmative opt-in requirement to be a user on 
Facebook. Would you have to fundamentally change the Facebook 
architecture to accommodate those policies?
    Mr. Zuckerberg. Senator, those policies and the principles 
that you articulated are generally how we view our service 
already, so depending on the details of what the proposal 
actually ends up being, and the details do just matter a huge 
amount here, it is not clear that it would be a fundamental 
shift. But the details really matter, and if this is something 
you are considering or working on, we would love to follow up 
with you on this because this is very important to get right.
    [The information referred to follows:]

    Might we create stronger privacy rights for consumers through 
creating a stronger general property right regime online, say a law 
states that users own their online data or stronger opt in requirements 
on platforms like yours? If we're to do that, would you need to retool 
your model? If we're to adopt one of the two approaches?
    Our Terms of Service confirm that people own the information they 
shared on Facebook. They entrust it to us to use it consistent with our 
Terms and Data Policy to provide meaningful and useful services to 
them. They have the ability to choose who can see it, delete it, or 
take it with them if they want to do so. We're also rolling out a new 
Privacy Shortcuts feature, which centralizes a broad range of choices 
that people have about how their information is used as a part of the 
Facebook service, and we're contacting people on our service to ask 
them to make choices about these issues as well.
    Facebook already allows users to download a copy of their 
information from Facebook. This functionality, which we've offered for 
many years, includes numerous categories of data, including About Me, 
Account Status History, Apps, Chat, Follower, Following, Friends, 
Messages, Networks, Notes, and more. We recently launched improvements 
to our ``Download Your Information'' tool, including to give people 
choices about whether they want to download only certain types of 
information and about the format in which they want to receive the 
download, to make it easier for people to use their information once 
they've retrieved it.
    Of course, the details of any new privacy legislation matter, and 
we would be pleased to discuss any specific proposals with you and your 
staff.

    Senator Young. I would love to work with you. I am out of 
time. Thank you.
    Chairman Grassley. Senator Thune has a closing comment 
and----
    Chairman Thune. Yes.
    Chairman Grassley.--and I have a process statement for 
everybody to listen to.
    Chairman Thune. Mr. Chairman, thank you. And thanks to all 
of our Members for their patience. It has been a long hearing, 
a particularly long hearing for you, Mr. Zuckerberg. Thank you 
for sitting through this. But I think this is important.
    I do have a letter here from the Motion Picture Association 
of America that I want to get into the record. Without 
objection.
    Chairman Grassley. Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman Thune. And then just a quick, sort of, wrap-up 
question if you will and maybe one quick comment, but you have 
answered several questions today about efforts to keep bad 
actors, whether that is a terrorist group to a malicious 
foreign agent, off of your platform. You have also heard 
concerns about bias at Facebook, particularly bias against 
conservatives. And just as a final question, can you assure us 
that when you are improving tools to stop bad actors that you 
will err on the side of protecting speech, especially political 
speech, from all different corners?
    Mr. Zuckerberg. Senator, yes. That is our approach. If 
there is an imminent threat of harm, we are going to take a 
conservative position on that and make sure that we flag that 
and understand that more broadly. But overall, I want to make 
sure that we provide people with the most voice possible. I 
want the widest possible expression, and I do not want anyone 
at our company to make any decisions based on the political 
ideology of the content.
    Chairman Thune. And just one final observation, Chairman 
Grassley. Mr. Zuckerberg has answered a lot of questions today, 
but there are also a lot of promises to follow up with some of 
our members and sometimes on questions about Facebook practices 
that seem fairly straightforward. I think it is going to be 
hard for us to fashion solutions to solve some of this stuff 
until we have some of those answers. And you had indicated 
earlier that you are continuing to try and find out who among 
these other analytics companies may have had access to user 
data that they were able to use. And hopefully, as you get 
those answers, you will be able to forward those to us, and it 
will help shape our thinking in terms of where we go from here.
    But overall, I think it was a very informative hearing, Mr. 
Chairman, and so I am ready to wrap it up.
    Chairman Grassley. Yes. I probably would not make this 
comment, but your response to him in regard to political 
speech, I will not identify the CEO I had a conversation with 
yesterday, but one of our platforms, and he admitted to being 
more left than right--or, I mean, being left I guess is what he 
admitted. And I am not asking you what you are, but just so you 
understand that probably as liberals have a lot of concerns 
about, you know, the leaning of Fox News or conservatives have 
questions about the leaning of MSNBC let us say, it seems to me 
that when we get--whether it is from the right or the left, so 
I am speaking to you for your platform, there is a great deal 
of cynicism in American society about government generally.
    And then when there are suspicions, legitimate or not, that 
maybe you are playing it one way unfairly toward the other, it 
seems to me that everything you do to lean over backwards to 
make sure that you are fair in protecting political speech, 
right or left, that you ought to do it. And I am not telling 
you how to do it, and I am not saying you do not do it, but we 
have got to do something to reduce this cynicism.
    At my town meetings in Iowa, I always get this question: 
How come you guys in D.C. cannot get along, you know, meaning 
Republicans and Democrats. Well, I try to explain to them that 
they kind of get an obtuse--what would say--review of what goes 
on here because controversy makes news, so if people are 
getting along, you never hear about that, so they get a 
distorted view of it. And really, Congressmen get along more 
than the public thinks.
    But these attitudes of the public, we have got to change, 
and people of your position and your influence, you can do a 
lot to change this. I know you have got plenty of time to run 
your corporation. Through your corporation or privately, 
anything you can do to reduce this cynicism because we have a 
perfect Constitution--maybe it is not perfect, but we have got 
a very good Constitution and the longest written Constitution 
in the history of mankind. But if people do not have faith in 
the institutions of government and then it is our 
responsibility to enhance that faith so they have less cynicism 
on us, you know, we do not have a very strong democracy just 
because we have got a good Constitution.
    So I hope that everybody will do whatever they can to help 
enhance respect for government, including speaking to myself, I 
have got to bend over backward to do what I can so I do not add 
to that cynicism. So I am sorry you had to listen to me.
    [Laughter.]
    Chairman Grassley. And so this concludes today's hearing. 
Thanks to all the witnesses for attending. The record will be 
open for 14 days for the Members to submit additional written 
questions and for the witness, Mr. Zuckerberg, to make any 
corrections to his testimony.
    The hearing is adjourned.
    [Whereupon, at 7:24 p.m., the Committees were adjourned.]

                            A P P E N D I X

                                      Committee For Justice
                                     Washington, DC, April 10, 2018

Hon. Chuck Grassley,
Chairman,
Senate Committee on the Judiciary.

Hon. Dianne Feinstein,
Ranking Member,
Senate Committee on the Judiciary.

RE: Facebook, Social Media Privacy, and the Use and Abuse of Data

Dear Chairman Grassley and Ranking Member Feinstein,

    We write to you regarding your April 10 hearing, ``Facebook, Social 
Media Privacy, and the Use and Abuse of Data.'' We, the president and 
public policy director of the Committee for Justice (CFJ), are 
concerned that the hearing will lead to the introduction of new 
legislation regulating online data collection and use. We are convinced 
such legislation is not only unnecessary but, if enacted, would also 
hurt consumers, threaten the online ecosystem that has transformed our 
daily lives, and negatively impact our country's economic growth.
    Founded in 2002, CFJ is a nonprofit, nonpartisan legal and policy 
organization that educates the public and policymakers about and 
promotes the rule of law and constitutionally limited government. 
Consistent with this mission, CFJ engages in the national debate about 
a variety of tech policy issues, including advocating for digital 
privacy protections in Congress, the Federal courts, and the news 
media.\1\
---------------------------------------------------------------------------
    \1\ See, e.g., amicus briefs filed in Carpenter v. United States. 
August 2017. https://www
.scribd.com/document/356288790/Amicus-Brief-Filed-in-Carpenter-v-
United-States and United States v. Kolsuz. March 2017. https://
www.scribd.com/document/355249553/United-States-v-Kolsuz-Amucis-Brief; 
Letter to Congress in support of the CLOUD Act. March 2018. https://
www.committeeforjustice.org/single-post/support-clarifying-lawful-use-
data.
---------------------------------------------------------------------------
    We have concluded that a legislative solution to the data privacy 
issues being discussed at the hearing would be detrimental to our 
Nation for the following reasons:

  <bullet> Government-imposed restrictions on data collection would 
        undercut economic growth, the vibrancy of the online ecosystem, 
        and consumer satisfaction. In recent decades, consumers' 
        personal and professional lives have been transformed for the 
        better by a vast collection of data-driven online resources 
        that are made available to consumers for no cost because they 
        are subsidized by advertising. These resources have also been 
        an engine of economic growth, even during difficult economic 
        times. For example, more than 70 million small businesses now 
        use Facebook to grow and create jobs.\2\ In particular, data-
        driven marketing, at issue in this hearing, is estimated to 
        have added more than $200 billion to the U.S. economy in 2014, 
        a 35 percent increase over just two years earlier.\3\ 
        Government-imposed restrictions on such marketing would slow or 
        reverse this economic growth, while hurting consumers by 
        causing the demise of many of the data-driven online resources 
        they rely on.
---------------------------------------------------------------------------
    \2\ Facebook: Transparency and Use of Consumer Data: Hearing Before 
the H. Comm. on Energy & Commerce, 115th Cong. (2018) (statement of 
Mark Zuckerberg).
    \3\ Deighton, John and Johnson, Peter. ``The Value of Data 2015: 
Consequences for Insight, Innovation and Efficiency in the U.S. 
Economy.'' Data & Marketing Association. Dec. 2015. http://thedma.org/
advocacy/data-driven-marketing-institute/value-of-data.

  <bullet> Legislation designed to reign in big companies like Facebook 
        will inevitably harm small companies and tech startups the 
        most. When regulations restrict companies' ability to collect 
        and use data, advertisers and other online companies experience 
        decreased revenue. Large companies can typically survive these 
        decreases in revenue, while small companies are often driven 
        out of business. The vast majority of Internet companies fall 
        in the latter category and include the very companies that 
        might otherwise grow to compete with and even supplant Facebook 
        and the other tech giants of today. The European Union's 
        Privacy and Electronic Communications Directive (2002/58/EC) 
        provides an unfortunate example of the harm privacy regulations 
        can inflict on small businesses.\4\ It is one reason why there 
        are relatively few technology start-ups in Europe and most of 
        them struggle to receive venture capital funding.\5\
---------------------------------------------------------------------------
    \4\ OJ L 201, 31.7.2002, p. 37-47, ELI: http://data.europa.eu/eli/
dir/2002/58/oj.
    \5\ Scott, Mark. ``For Tech Start-Ups in Europe, an Oceanic Divide 
in Funding.'' The New York Times. January 19, 2018. https://
www.nytimes.com/2015/02/14/technology/for-tech-start-ups-in-europe-an-
oceanic-divide-in-funding.html.

  <bullet> The best way to provide consumers with data privacy 
        solutions that meet their needs is competition in the Internet 
        marketplace. In contrast, increased government regulation of 
        data privacy will stifle competition, in part because only 
        larger companies can afford the increased compliance costs and 
        reductions in revenue. This hearing will undoubted include 
        questions about balancing the tradeoffs between privacy and the 
        ability to share our lives, make our voices heard, and build 
        online communities through social media. It makes little sense 
        for Congress to impose a one-size-fits-all answer to these 
        questions, given that individuals value the tradeoffs very 
        differently. Addressing data privacy through competition, on 
        the other hand, allows consumers to answer these questions for 
---------------------------------------------------------------------------
        themselves according to their individual values.

  <bullet> Public opinion polls showing support for stronger data 
        protections are misleading because they rarely confront 
        consumers with the monetary of and other costs of their 
        choices.\6\ A 2016 study found that, despite most participants' 
        unease with an e-mail provider using automated content analysis 
        to provide more targeted advertisements, 65 percent of them 
        were unwilling to pay providers any amount for a privacy-
        protecting alternative.\7\ However, in the real world, 
        consumers will lose free e-mail and social media if government-
        imposed privacy regulations cut into providers' advertising 
        revenue. Moreover, such studies remind us that most consumers 
        do not value data privacy enough to pay anything for it. That 
        should not be too surprising considering that today's thriving 
        but largely unregulated social media ecosystem is not something 
        that was thrust upon consumers or arose from factors beyond 
        their control. Instead, it arose through the collective choices 
        and values tradeoffs of billions of consumers.
---------------------------------------------------------------------------
    \6\ McQuinn, Alan. ``The Economics of `Opt-Out' Versus `Opt-In' 
Privacy Rules.'' Information Technology and Innovation Foundation. Oct. 
6, 2017. https://itif.org/publications/2017/10/06/economics-opt-out-
versus-opt-in-privacy-rules.
    \7\ Strahilevitz, Lior Jacob, and Matthew B. Kugler. ``Is Privacy 
Policy Language Irrelevant to Consumers?'' The Journal of Legal Studies 
45, no. S2. Sept. 9, 2016. https://papers.ssrn.com/sol3/
papers.cfm?abstract_id=2838449.

  <bullet> New, punitive data privacy legislation is unnecessary 
        because legal safeguards already exist. In addition to industry 
        self-regulation, consumers of social media and other Internet 
        services are protected by the Federal Trade Commission's 
        vigorous enforcement of its data privacy and security 
        standards, using the prohibition against ``unfair or 
        deceptive'' business practices in Section 5 of the Federal 
        Trade Commission Act 15 U.S.C. Sec. 45(a).\8\ In addition, 
        state attorneys general enforce similar laws at the state 
        level.\9\
---------------------------------------------------------------------------
    \8\ See, e.g., Federal Trade Commission. FTC Staff Report: Self-
regulatory Principles for Online Behavioral Advertising. 2009. https://
www.ftc.gov/reports/federal-trade-commission-staff-report-self-
regulatory-principles-online-behavioral; Federal Trade Commission. 
Privacy Online: Fair Information Practices in the Electronic 
Marketplace. 2000. http://www.ftc.gov/reports/privacy
2000/privacy2000.pdf.
    \9\ Widman, Amy, and Prentiss Cox. ``State Attorneys General Use of 
Concurrent Public Enforcement Authority in Federal Consumer Protection 
Laws.'' SSRN Electronic Journal, 2011. doi:10.2139/ssrn.1850744.

  <bullet> The Cambridge Analytica incident that sparked this hearing 
        must be put in perspective. It is important to remember that 
        the personal data disclosed by Facebook to an academic app 
        builder named Aleksandr Kogan was not the sort of highly 
        private data--credit card numbers, health records, and the 
        like--that is sometimes stolen by hackers to the great 
        detriment of consumers.\10\ The data disclosed by Facebook came 
        from the profiles of its users and consisted mostly of names, 
        hometowns, and page likes--in other words, the type of data 
        most people on Facebook are public about.\11\ However, even 
        that data is no longer available to app developers today. Kogan 
        got the idea before Facebook tightened its data privacy 
        policies in 2014.\12\ Finally, the concern that has focused so 
        much attention on the Kogan incident--claims that the data was 
        used by Cambridge Analytica to put Donald Trump over the top in 
        2016--have little basis in fact. Cambridge used the Facebook 
        data to run voter-targeted ads for political campaigns, but it 
        appears that those ads were neither effective nor used in the 
        Trump campaign.\13\
---------------------------------------------------------------------------
    \10\ Iraklis Symeonidis, Pagona Tsormpatzoudi, and Bart Preneel. 
Collateral Damage of Online Social Network Applications. 2016. https://
eprint.iacr.org/2015/456.pdf; Ruffini, Patrick. ``The Media's Double 
Standard on Privacy and Cambridge Analytica.'' Medium. March 20, 2018. 
https://medium.com/@PatrickRuffini/the-medias-double-standard-on-
privacy-and-cambridge-analytica-1e37ef0649da.
    \11\ Albright, Jonathan. ``The Graph API: Key Points in the 
Facebook and Cambridge Analytica Debacle.'' Medium. March 20, 2018. 
https://medium.com/tow-center/the-graph-api-key-points-in-the-facebook-
and-cambridge-analytica-debacle-b69fe692d747.
    \12\ Facebook, ``The New Facebook Login and Graph API 2.0.'' 
Facebook for Developers. April 30, 2014. https://
developers.facebook.com/blog/post/2014/04/30/the-new-facebook-login.
    \13\ Kavanagh, Chris. ``Why (almost) Everything Reported about the 
Cambridge Analytica Facebook `Hacking' Controversy Is Wrong.'' Medium. 
March 26, 2018. https://medium.com/@CKava/why-almost-everything-
reported-about-the-cambridge-analytica-facebook-hacking-controversy-is-
db7f8af2d042?mc_cid=849ab4c39f&mc_eid=5a60ec2d43.

  <bullet> Because there is no crisis requiring urgent action and 
        because no one yet fully understands the extent and nature of 
        the privacy risks posed by Facebook's now discontinued 
        policies, calls for government-imposed regulation are 
        premature. Replacing the light-touch regulation of data privacy 
        currently provided by the FTC and state law with more heavy-
        handed Federal legislation should be a last resort, not the 
        reflexive response to news headlines. Consider also that the 
        Cambridge Analytica incident would not be dominating the news 
        but for the report, apparently incorrect, that the data in 
        question was used to elect Donald Trump president.\14\ Nor 
        would the news coverage be so negative. Contrast that with the 
        widely documented use of Facebook data in Barack Obama's 2012 
        presidential campaign, which was portrayed in a vastly 
        different light by the news media and did not set off calls for 
        Congressional hearings or new privacy legislation.\15\ The 
        important point is that allowing unhappiness with the 2016 
        election results to drive a push for increased government 
        regulation and control of the Internet is a very bad way to 
        make policy.
---------------------------------------------------------------------------
    \14\ See, e.g., Wood, Paul. ``The British Data-crunchers Who Say 
They Helped Donald Trump to Win.'' The Spectator. December 01, 2016. 
http://www.spectator.co.uk/2016/12/the-british-data-crunchers-who-say-
they-helped-donald-trump-to-win/; Taggart, Kendall. ``The Truth About 
The Trump Data Team That People Are Freaking Out About.'' BuzzFeed. 
February 16, 2017. https://www.buzzfeed.com/kendalltaggart/the-truth-
about-the-trump-data-team-that-people-are-
freaking?utm_term=.it3kDeoJYn#.myDn1Kd9rJ; Kroll, Andy. ``Cloak and 
Data: The Real Story behind Cambridge Analytica's Rise and Fall.'' 
Mother Jones. March 26, 2018. https://www.motherjones.com/politics/
2018/03/cloak-and-data-cambridge-analytica-robert-mercer.
    \15\ See Pilkington, Ed, and Amanda Michel. ``Obama, Facebook and 
the Power of Friendship: The 2012 Data Election.'' The Guardian. 
February 17, 2012. https://www.theguardian.com/world/2012/feb/17/obama-
digital-data-machine-facebook-election; Michael Scherer. ``Friended: 
How the Obama Campaign Connected with Young Voters.'' TIME. November 
20, 2012. http://swampland.time.com/2012/11/20/friended-how-the-obama-
campaign-connected-with-young-voters.

  <bullet> A rush to enact date privacy legislation is particularly 
        dangerous in light of the glacial pace with which Congress will 
        respond to the need for modernizing the legislation as 
        technology rapidly evolves. Consider the example of the 
        Electronic Communications Privacy Act of 1986 (ECPA), which 
        governs law enforcement's access to stored electronic data, 
        such as e-mails. As storage of such data moved to the cloud, 
        the ECPA became hopelessly obsolete, leading to increasingly 
        concerned calls for its modernization from industry, law 
        enforcement, and the White House. Despite those calls, it took 
        many years for Congress to act by passing the Clarifying Lawful 
        Overseas Use of Data or CLOUD Act in March of this year. And 
        even then, Congress acted primarily because a Supreme Court 
        case, U.S. v. Microsoft, forced them to.\16\ There is good 
        reason to believe that any legislation that comes out of this 
        hearing will similarly remain in effect, unchanged, long after 
        today's technological and privacy landscape has morphed into 
        something we cannot fathom in 2018. In contrast, the self-
        regulation continuously being improved by Facebook and similar 
        companies not only allows adaptation to technological change 
        with far greater speed but also allows those companies to 
        tailor data privacy solutions to the specific features of their 
        platforms, rather than trying to conform with a one-size-fits-
        all Federal mandate.
---------------------------------------------------------------------------
    \16\ Levey, Curt. ``Your e-mail privacy will get a boost thanks to 
the omnibus spending bill (and that's a good thing).'' Fox News. March 
22, 2018. http://www.foxnews.com/opinion/2018/03/22/your-e-mail-
privacy-will-get-boost-thanks-to-omnibus-spending-bill-and-thats-good-
thing.html.

    In sum, rushing to enact new legislation regulating online data 
collection and use would hinder innovation in the rapidly evolving 
world of social media and data-driven marketing, lessen consumer 
choice, and negatively impact our Nation's economic growth.
    We ask that this letter be entered in the hearing record. We thank 
you for your oversight of this important issue.
            Sincerely,
                                                Curt Levey,
                                                         President,
                                             The Committee for Justice.
                                              Ashley Baker,
                                         Director of Public Policy,
                                             The Committee for Justice.
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
                                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                                                  
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Mark Zuckerberg
    Question 1. In its April 2, 2018, response to the letter Sen. 
Wicker, Sen. Moran, and I sent you on March 19, 2018, Facebook 
committed to investigating all apps that potentially had access to the 
same type of data as Cambridge Analytica to identify other misuses of 
such data. Will you commit to having Facebook brief Commerce Committee 
staff on a periodic basis regarding the progress of these 
investigations and any future developments in Facebook's efforts to 
combat data misuse more generally?
    Answer. We are in the process of investigating every app that had 
access to a large amount of information before we changed our Platform 
in 2014. The investigation process is in full swing, and it has two 
phases. First, a comprehensive review to identify every app that had 
access to this amount of Facebook data and to focus on apps that 
present reason for deeper investigation. And second, where we have 
concerns, we will conduct interviews, make requests for information 
(RFI)--which ask a series of detailed questions about the app and the 
data it has access to--and perform audits using expert firms that may 
include on-site inspections. We have large teams of internal and 
external experts working hard to investigate these apps as quickly as 
possible. To date thousands of apps have been investigated and around 
200 apps have been suspended--pending a thorough investigation into 
whether they did in fact misuse any data. Where we find evidence that 
these or other apps did misuse data, we will ban them and let people 
know.
    These apps relate to a handful of developers: Kogan, AIQ, Cube You, 
the Cambridge Psychometrics Center, and myPersonality, with many of the 
suspended apps being affiliated with the same entity. Many of these 
suspensions include apps that appear to be ``test'' apps that were 
never released to the public, and therefore would not have acquired 
significant user data, although our investigation into these apps is 
ongoing.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So, we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.
    We will commit to briefing your staff on future developments.

    Question 2. Mr. Zuckerberg, as you know, Sen. Wicker, Sen. Moran, 
and I sent a letter to you on March 19, requesting answers to several 
questions regarding Facebook's privacy practices. Facebook's general 
counsel sent a response letter on April 2nd that did not adequately 
answer some of the questions posed, saying that Facebook's review of 
the matter is ongoing. Will you commit to providing additional answers 
to our questions in writing in a timely manner as you learn more?
    Answer. We responded to your questions to the best of our ability 
based on accessible data and information. Should additional or revised 
information related to the questions come to light, we respectfully 
request an opportunity to supplement or amend our response as needed.

    Question 3. Mr. Zuckerberg, at the hearing you responded to over 20 
questions from a number of Senators by saying that you would have to 
follow up at a later date. As you compile the promised information, 
please provide all such responses to these questions to Commerce 
Committee staff in addition to the Senator who posed the question.
    Answer. Today we are submitting responses to the questions posed at 
the hearing requiring follow-up.

    Question 4. Mr. Zuckerberg, given the concerns raised by a number 
of Senators that Facebook's user agreement is too opaque to give users 
a real understanding of how their data may be used and how they can 
control their data privacy, do you intend to make any changes to the 
user agreement? If so, please summarize those changes and why you 
believe they will make the agreement more easily understood.
    Answer. We believe that it's important to communicate with people 
about the information that we collect and how people can control it. 
This is why we work hard to provide this information to people in a 
variety of ways: in our Data Policy, and in Privacy Basics, which 
provides walkthroughs of the most common privacy questions we receive. 
Beyond simply disclosing our practices, we also think it's important to 
give people access to their own information, which we do through our 
Download Your Information and Access Your Information tools, Activity 
Log, and Ad Preferences, all of which are accessible through our 
Privacy Shortcuts tool. We also provide information about these topics 
as people are using the Facebook service itself.
    While ``up front'' information like that contained in the terms of 
service are useful, research overwhelmingly demonstrates that in-
product controls and education are the most meaningful to people and 
the most likely to be read and understood. On-demand controls are also 
important, and we recently redesigned our entire settings menu on 
mobile devices from top to bottom to make things easier to find. We 
also created a new Privacy Shortcuts, a menu where users can control 
their data in just a few taps, with clearer explanations of how our 
controls work. The experience is now clearer, more visual, and easy-to-
find.
    Improving people's understanding of how digital services work is an 
industry-wide challenge that we are highly committed to addressing. 
That's why, over the last 18 months, we've run a global series of 
design workshops called ``Design Jams,'' bringing together experts in 
design, privacy, law, and computer science to work collaboratively on 
new and innovative approaches. These workshops have run in Paris, 
London, Dublin, Berlin, Sao Paolo, Hong Kong, and other cities, and 
included global regulators and policymakers. At these workshops, expert 
teams use ``people centric design'' methods to create innovative new 
design prototypes and experiences to improve transparency and education 
in digital services. These workshops inform Facebook's constantly-
improving approach.
    In recognition of the need for improved approaches to data 
transparency across all digital services, working with partners from 
academia, design, and industry we recently launched TTC Labs, a design 
innovation lab that seeks to improve user experiences around personal 
data. TTC Labs is an open platform for sharing and innovation and 
contains insights from leading experts in academia, design and law, in 
addition to prototype designs from the Design Jams, template services 
and open-source toolkits for people-centric design for transparency, 
trust and control of data. Working collaboratively, and based on open-
source approaches, TTC Labs seeks to pioneer new and more people-
centric best practices for people to understand how their data is used 
by digital services, in ways that they find easy to understand and 
control.
    Facebook is highly committed to improving people's experience of 
its own services as well as investing in new innovations and approaches 
to support improvements across the industry.

    Question 5. Mr. Zuckerberg, in the weeks since the revelations 
regarding Cambridge Analytica, the Committee has become aware that 
Facebook has surveyed users about whether they trust the company to 
safeguard their privacy. Please provide the Commerce Committee with the 
results of any such survey.
    Answer. Privacy is at the core of everything we do, and our 
approach to privacy starts with our commitment to transparency and 
control. Our threefold approach to transparency includes, first, 
whenever possible, providing information on the data we collect and use 
and how people can control it in context and in our products. Second, 
we provide information about how we collect and use data in our user 
agreements and related educational materials. And third, we enable 
people to learn more about the specific data we have about them through 
interactive tools such as Download Your Information, which lets people 
download a file containing data that they may want to take to another 
service, and Access Your Information, a tool we are launching that will 
let people more easily access and manage their data on Facebook.
    Our approach to control is based on the belief that people should 
be able to choose who can see what they share and how their data shapes 
their experience on Facebook. People can control the audience for their 
posts and the apps that can receive their data. They can see and delete 
the history of their activities on Facebook, and, if they no longer 
want to use Facebook, they can delete their account and the data 
associated with it. Of course, we recognize that controls are only 
useful if people know how to find and use them. That is why we 
continuously deliver in-product educational videos in people's News 
Feeds on important privacy topics. We are also inviting people to take 
our Privacy Checkup--which prompts people to review key data controls--
and we are sharing privacy tips in education campaigns off of Facebook, 
including through ads on other websites. To make our privacy controls 
easier to find, we are launching a new settings menu that features core 
privacy settings in a single place. We are always working to help 
people understand and control how their data shapes their experience on 
Facebook.

    Question 6. Mr. Zuckerberg, when did you personally become aware of 
Cambridge Analytica's breach of your policies in 2014-2015, and when 
did you personally become aware that Cambridge Analytica had not in 
fact deleted the data they obtained despite certifying otherwise?
    Answer. On December 11, 2015, The Guardian published an article 
reporting that Kogan and his company, GSR, may have passed information 
the app had obtained from Facebook users to SCL Elections Ltd. (SCL)/
Cambridge Analytica. As part of its investigation, Facebook contacted 
Kogan and Cambridge Analytica to investigate the allegations reflected 
in the reporting. Thereafter, Facebook obtained written certifications 
or confirmations from Kogan, GSR, and other third parties (including 
Cambridge Analytica and SCL) declaring that all such data they had 
obtained was accounted for and destroyed. In March 2018, Facebook 
received information from the media suggesting that the certification 
we received from SCL may not have been accurate and immediately banned 
SCL Group and Cambridge Analytica from purchasing advertising on our 
platform. Since then, Facebook has been actively investigating the 
issue, including pursuing a forensic audit of Cambridge Analytica, 
which is currently paused at the request of the UK Information 
Commissioner's Office (which is separately investigating Cambridge 
Analytica).
    Mr. Zuckerberg did not become aware of allegations that Cambridge 
Analytica may not have deleted data about Facebook users obtained from 
Kogan's app until March of 2018, when these issues were raised in the 
media.

    Question 7. On April 24, 2018, Facebook announced that it would 
institute an appeals process for posts that Facebook removes for 
violating its community standards. This process will initially only be 
available for posts that were removed for nudity/sexual activity, hate 
speech, or graphic violence. Why did Facebook decide to launch its 
appeals process for these categories? Prior to this new appeals 
process, did Facebook users have any recourse if their post was 
removed?
    Answer. Prior to April 24, 2018, appeals generally were only 
available to people whose profiles, Pages, or Groups had been taken 
down, but we had not yet been able to implement an appeals process at 
the content level.
    On April 24, we announced the launch of appeals for content that 
was removed for nudity/sexual activity, hate speech, and graphic 
violence. We focused on starting with these content violations 
initially based on feedback from our community.
    We are working to extend this process further, by: supporting more 
violation types; giving people the opportunity to provide more context 
that could help us make the right decision; and making appeals 
available not just for content that was taken down, but also for 
content that was reported and left up.

    Question 8. In your testimony, you discussed two typical business 
models employed by social media companies to make content available to 
users: an advertising-supported model and a subscription-based model. 
If Facebook were to shift from an advertising model to a subscription 
model, how much would consumers expect to pay in order to access 
Facebook content? Would you ever consider making such a shift? If not, 
why not?
    Answer. Like many other free online services, we sell advertising 
space to third parties. Doing so enables us to offer our services to 
consumers for free. This is part of our mission to give people the 
power to build community and bring the world closer together.

    Question 9. According to your testimony, Facebook has found that, 
while some users don't like advertisements, ``people really don't like 
ads that aren't relevant'' and the ``overwhelming feedback we get from 
our community is that people would rather have us show relevant 
content.'' Can you elaborate on your basis for these statements about 
user preferences?
    Answer. Part of Facebook's goal is to deliver the right content to 
the right people at the right time. This is just as true of posts and 
other content in users' News Feeds as it is for ads in their News Feed. 
And to choose the right ads Facebook listens to what feedback users 
provide. Users frequently provide feedback about what ads they want to 
see and don't want to see; they interact with ads positively (clicks, 
likes, comments, or shares) and negatively (by hiding the ad). Facebook 
takes all of this into consideration when selecting ads for its users.
    In conjunction with this user feedback, Facebook has been working 
to better understand people's concerns with online ads. For example, 
Facebook has conducted multi-method, multi-market research surrounding 
ad blocking and personalization expectations among consumers. And the 
take away from this has been that people don't like to see ads that are 
irrelevant to them or that disrupt or break their experience. 
Furthermore, people like to have control over the kinds of ads they 
see. For these reasons, Facebook seeks to provide users more relevant 
ads, as well as the tools to improve their control over which ads they 
see.

    Question 10. You stated that ``there is some discomfort . . . with 
using information in making ads more relevant.'' Why do you believe 
Facebook users feel this discomfort? Do you believe users would feel 
more comfortable if they had a clearer understanding of the 
relationship between their information, the relevance of the 
advertisements they are served, and Facebook's ability to offer content 
without charging subscription fees?
    Answer. We maintain our commitment to privacy by not telling 
advertisers who users are or selling people's information to anyone. 
That has always been true. We think relevant advertising and privacy 
are not in conflict, and we're committed to doing both well.
    We believe targeted advertising creates value for people and 
advertisers who use Facebook. Being able to target ads to the people 
most likely to be interested in the products, service or causes being 
advertised enables businesses and other organizations to run effective 
campaigns at reasonable prices. This efficiency has particularly 
benefited small businesses, which make up the vast majority of the six 
million active advertisers on Facebook. That said, we are keenly aware 
of the concerns about the potential of our tools to be abused. That is 
why we are investing heavily in improving the security and integrity of 
our platform.
    Separately, our core service involves personalizing all content, 
features and recommendations that people see on Facebook services. No 
two people have the same experience on Facebook or Instagram, and they 
come to our services because they expect everything they see to be 
relevant to them. If we were not able to personalize or select ads or 
other content based on relevance, this would fundamentally change the 
service we offer on Facebook--and it would no longer be Facebook.
    We do not have a ``business reason'' to compromise the personal 
data of users; we have a business reason to protect that information. 
Our mission is to build community and bring the world closer together, 
but it is not enough to just connect people, we have to make sure those 
connections are positive. If people's experiences are not positive--if 
we fail to maintain their trust--they will not use our services.

    Question 11. Mr. Zuckerberg, how does Facebook determine whether 
and for how long to store user data or delete user data?
    Answer. In general, when a user deletes their account, we delete 
things they have posted, such as their photos and status updates, and 
they won't be able to recover that information later. (Information that 
others have shared about them isn't part of their account and won't be 
deleted.)
    There are some limited exceptions to these policies: For instance, 
information can be accessed and preserved for an extended period when 
it is the subject of a legal request or obligation, governmental 
investigation, or investigations of possible violations of our terms or 
policies, or otherwise to prevent harm. We also retain information from 
accounts disabled for terms violations for at least a year to prevent 
repeat abuse or other term violations.

    Question 12. Mr. Zuckerberg, you have discussed how a Facebook user 
can learn what data Facebook has collected about him or her. How can a 
non-user learn what data, if any, Facebook has collected about him or 
her?
    Answer. If a person doesn't have a Facebook account but believes 
Facebook may have information about them, they can contact us to 
request a copy of their information. A contact form is available at 
https://www.facebook.com/help/contact/180237
885820953. However, Facebook does not create profiles about or track 
web or app browser behavior of non-users.

    Question 13. Does Facebook continue to track users who have turned 
off personalized ads? If so, why? Provide a list of uses Facebook makes 
of the data of users who have disabled personalized ads.
    Answer. When people visit apps or websites that feature our 
technologies--like the Facebook Like or Comment button--our servers 
automatically log (i) standard browser or app records of the fact that 
a particular device or user visited the website or app (this connection 
to Facebook's servers occurs automatically when a person visits a 
website or app that contains our technologies, such as a Like button, 
and is an inherent function of Internet design); and (ii) any 
additional information the publisher of the app or website chooses to 
share with Facebook about the person's activities on that site (such as 
the fact that a purchase was made on the site). This is a standard 
feature of the Internet, and most websites and apps share this same 
information with multiple different third-parties whenever people visit 
their website or app. For example, the Senate Commerce Committee's 
website shares information with Google and its affiliate DoubleClick 
and with the analytics company Webtrends. This means that, when a 
person visits the Committee's website, it sends browser information 
about the visit to each one of those third parties. More information 
about how this works is available at https://newsroom.fb.com/news/2018/
04/data-off-facebook/.

    Question 14. Is Facebook's use of a user's data on the Facebook 
platform for targeted advertising a condition of using Facebook?
    Answer. Users can't opt out of seeing ads altogether because 
selling ads is what keeps Facebook free, but they do have different 
options to control how their data can and can't be used to show them 
ads. They're all found in ad preferences, which allows users to turn 
off the use of all data collected from partners off Facebook to target 
ads.
    Users can also decide which of their profile fields they want used 
for ad targeting in the Information section under ``About you.'' Users 
can remove themselves from interests under ``Your interests'' and 
categories under ``Your categories.''

    Question 15. Mr. Zuckerberg, on March 25, you took out several 
full-page ads in newspapers around the world in which you stated: 
``We're also investigating every single app that had access to large 
amounts of data before we fixed this,'' referring to your 2014 policy 
changes. You went on to say, ``We expect there are others. And when we 
find them, we will ban them and tell everyone affected.'' How many 
other offending apps have you found so far? You mentioned, when you 
find offending apps, you will be notifying users. Please also provide a 
list of these apps to Congress.
    Answer. See Response to Question 1.

    Question 16. Mr. Zuckerberg, as you may know, Carol Davidsen, who 
in 2012 served as the Obama campaign's director of data integration and 
media analytics, reportedly asserted that Facebook allowed the campaign 
to access users' personal data ``because they were on our side.'' Did 
Facebook give preferential treatment to the Obama campaign with respect 
to data access in 2012? With respect to data access, did Facebook 
discriminate between the presidential campaigns in 2016?
    Answer. Both the Obama and Romney campaigns had access to the same 
tools, and no campaign received any special treatment from Facebook. 
Likewise, we offered identical support to both the Trump and Clinton 
campaigns, and had teams assigned to both. Everyone had access to the 
same tools, which are the same tools that every campaign is offered.

    Question 17. Since 2011, Facebook has been operating under a 
consent order issued by the Federal Trade Commission following agency 
charges that Facebook had deceived consumers by failing to keep privacy 
promises to them. You have indicated that--without prejudging the FTC's 
decision to investigate the Cambridge Analytica incident--you do not 
believe the consent order is implicated in the current matter. Please 
explain why.
    Answer. We furnished extensive information to the FTC regarding the 
ability for users to port their Facebook data (including friends data 
that had been shared with them) with apps on Facebook's platform, as 
part of the FTC's investigation culminating in the July 27, 2012 
Consent Order. The Consent Order memorializes the agreement between 
Facebook and the FTC and did not require Facebook to turn off the 
ability for people to port friends data that had been shared with them 
on Facebook to apps they used. Facebook voluntarily changed this 
feature of the Platform in 2014, however.
    Among other things, the consent order obligates Facebook not to 
misrepresent the extent to which it maintains the privacy or security 
of covered information (Section I), not to materially exceed the 
restrictions of a privacy setting that applies to nonpublic user 
information without affirmative express consent (Section II), and to 
implement a comprehensive privacy program that is subjected to ongoing 
review by an independent assessor (Sections IV and V). Facebook 
accurately represented the operation of its developer Platform and the 
circumstances under which people could share data (including friends 
data) with developers, honored the restrictions of all privacy settings 
that covered developer access to data, and implemented a comprehensive 
privacy program build on industry-leading controls and principles, 
which has undergone ongoing review by an independent assessor approved 
by the FTC.

    Question 18. Initial media reports stated that 50 million Facebook 
users were impacted by the Cambridge Analytica incident, Facebook later 
reported that 87 million users were impacted. How did Facebook arrive 
at this number, and can we expect this number to rise?
    Answer. Facebook users shared some data associated with 
approximately 87 million users with Kogan's app, consisting of people 
who installed the app and the friends of those users whose settings 
permitted their data to be shared by their friends with apps. Facebook 
does not know how many of these users actually had data shared by Kogan 
with Cambridge Analytica, so this is a highly conservative estimate of 
the maximum number of users who could have been impacted. Several 
additional caveats apply to this figure:

  <bullet> First, this figure does not include users who installed the 
        app but have since deleted their Facebook account (since 
        Facebook no longer has that information).

  <bullet> Second, Facebook's counts of potentially affected friends of 
        installers of the app are likely substantially higher than the 
        ``true'' number of affected friends, because (a) the counts 
        include any friend of any installer of the app during any time 
        between when the app first became active on the Platform in 
        November 2013 and when the app's access to friends data was 
        limited in May 2015, even though the friend may not have been a 
        friend when the app was actually installed by a relevant user; 
        (b) the counts include any friend of any installer even if they 
        changed their privacy settings during the relevant period to 
        disallow sharing with apps installed by their friends (due to 
        limited historical information about when or how users updated 
        their settings), such that some of their data may not have been 
        shared with the app; and (c) Facebook's counts include anyone 
        who installed the app during its existence on Facebook's 
        Platform, even if they installed the app at a time when its 
        access to user data, including data from friends of installers, 
        was more limited (due to limited historical information about 
        when individual users installed the app).

    In addition, it is worth noting that the existing evidence that we 
are able to access supports the conclusion that Kogan only provided SCL 
with data on Facebook users from the United States. While the accounts 
of Kogan and SCL conflict in some minor respects not relevant to this 
question, both have consistently maintained that Kogan never provided 
SCL with any data for Facebook users outside the United States. These 
consistent statements are supported by a publicly released contract 
between Kogan's company and SCL.

    Question 19. Having discovered the improper data transfer to 
Cambridge Analytica in 2015, why did Facebook wait until 2018 to 
investigate or audit the data transfer to determine its full scope, 
including the type of data improperly transferred?
    Answer. Facebook obtained written certifications from Kogan, GSR, 
and other third parties (including Cambridge Analytica and SCL) 
declaring that all data they had obtained, and any derivatives, was 
accounted for and destroyed. Based on recent allegations, we have 
reopened our investigation into the veracity of these certifications 
and have hired a forensic auditor to conduct a forensic audit of 
Cambridge Analytica's systems. We are currently paused on the audit at 
the request of the UK Information Commissioner's Office request, which 
is conducting a regulatory investigation into Cambridge Analytica 
(based in the UK), and we hope to move forward with that audit soon.
    Facebook banned Cambridge Analytica from our service. We understand 
that the company is now defunct.

    Question 20. Mr. Zuckerberg, as you know, the Commerce Committee 
has been seeking to find a bipartisan path forward on net neutrality 
legislation. I believe bipartisan legislation is the best way to 
protect net neutrality and stop the partisan back-and-forth at the 
Federal Communications Commission over this issue. Will you commit to 
working with Congress to develop a bipartisan legislative solution to 
the issue of net neutrality?
    Answer. Keeping the Internet open for everyone is crucial. Not only 
does it promote innovation, but it lets people access information that 
can change their lives and gives voice to those who might not otherwise 
be heard. For these reasons, Facebook supports net neutrality and is 
open to working with members of Congress and anyone else on a solution 
that will preserve strong net neutrality protections.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Roger Wicker to 
                            Mark Zuckerberg
    Question 1. Mr. Zuckerberg, during the hearing you confirmed that 
Facebook collects the call and text histories of its users that use 
Android phones. You also stated that Facebook only collects call and 
text histories if a consumer opts-in to this Facebook service.
    Does Facebook collect the call and text history information of 
minors (13 to 17 years of age) that have Android phones and opt-in to 
this service?
    If yes, does Facebook require parental consent for minors to be 
able to opt-in to this service?
    How and in what manner does Facebook disclose to its users that it 
is collecting the call and text history information of those that opt-
in to this service?
    Answer. Call and text history logging is part of an opt-in feature 
that lets people import contact information to help them connect with 
people they know on Facebook and Messenger. We introduced the call and 
text history component of this feature for Android users several years 
ago, and currently offer it in Messenger and Facebook Lite, a 
lightweight version of Facebook, on Android.
    Contact importers are fairly common among social apps and serve as 
a way to more easily find the people users want to connect with. They 
help users find and stay connected with the people they care about and 
provide them with a better experience across Facebook.
    Before we receive call and text history from people, they 
specifically grant us permission to access this data on their device 
and separately agree to use the feature. If, at any time, they no 
longer wish to use this feature they can turn it off, and all 
previously shared call and text history shared via that app is deleted. 
People can also access information they previously imported through the 
Download Your Information tool.
    We've reviewed this feature to confirm that Facebook does not 
collect the content of messages--and will delete all logs older than 
one year. In the future, people will only upload to our servers the 
information needed to offer this feature--not broader data such as the 
time of calls. We do allow people from 13 to 17 to opt into this 
service. However, we do take other steps to protect teens on Facebook 
and Messenger:

c  <bullet> We provide education before allowing teens to post 
        publicly.

  <bullet> We don't show search results based on specific profile data 
        (high school, birthday/age, and hometown, or current city) of 
        teens to unconnected adults when the adults search on Facebook.

  <bullet> Unconnected adults can't message minors who are 13-17.

  <bullet> We have age limits for advertisements. For example, ads for 
        dating sites, financial services and other products or services 
        are gated to users under 18. We've also helped many teenagers 
        with information about bullying prevention campaigns and online 
        safety tips, including creating a new website full of privacy 
        and safety resources for teens: https://www.facebook.com/
        safety/youth

    Question 2. Is the data Facebook collects from call and text 
histories of its users that have Android phones used for targeted 
advertising purposes?
    Answer. No, Facebook does not use SMS history to target interest-
based ads. Instead, call and text history logging is part of an opt-in 
feature for people using Messenger or Facebook Lite on Android. This 
helps Facebook users find and stay connected with the people they care 
about and provides them with a better experience across Facebook. This 
feature does not collect the content of users' calls or text messages.

    Question 3. When a user uploads his or her contact list, Facebook 
collects the phone numbers of the user's contacts. Please provide all 
details regarding what Facebook does with the phone numbers of the 
users' contacts, including with whom Facebook shares those numbers, 
whether Facebook creates or updates profiles that associate these 
numbers with people's names, and how long Facebook stores those 
numbers.
    Answer. Facebook allows people to upload, sync, and import their 
contacts, typically using permissions that are enabled by major 
operating systems like Apple's iOS and Google Android. When people use 
the contact upload tool, they see prompts explaining what data will be 
collected:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    We use this information that people choose to share for a variety 
of purposes, including to provide, personalize, and improve our 
products; provide measurement, analytics, and other business services; 
promote safety and security; to communicate with people who use our 
services; and to research and innovate to promote the social good. We 
provide more information in our Data Policy about these uses as well. 
People can view and manage their contact uploads using our Contacts 
Uploading tools, available at https://www.facebook.com/help/
355489824655936.

    Question 4. There have been reports that Facebook can track a 
user's internet-browsing activity even after the user has logged off of 
the Facebook platform. Can you confirm whether or not this is true?
    If yes, how does Facebook disclose to its users that it is engaging 
in this type of tracking or data collection activity when a user has 
logged off of the Facebook platform?
    Answer. When people visit apps or websites that feature our 
technologies--like the Facebook Like or Comment button--our servers 
automatically log (i) standard browser or app records of the fact that 
a particular device or user visited the website or app (this connection 
to Facebook's servers occurs automatically when a person visits a 
website or app that contains our technologies, such as a Like button, 
and is an inherent function of Internet design); and (ii) any 
additional information the publisher of the app or website chooses to 
share with Facebook about the person's activities on that site (such as 
the fact that a purchase was made on the site). This is a standard 
feature of the Internet, and most websites and apps share this same 
information with multiple different third-parties whenever people visit 
their website or app. For example, the Senate Commerce Committee's 
website shares information with Google and its affiliate DoubleClick 
and with the analytics company Webtrends. This means that, when a 
person visits the Committee's website, it sends browser information 
about their visit to each one of those third parties. More information 
about how this works is available at https://newsroom.fb.com/news/2018/
04/data-off-facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for that 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product, or use specific features like our Like button--
but without providing any information about a specific person. We do 
not create profiles for non-Facebook users, nor do we use browser and 
app logs for non-Facebook users to show targeted ads from our 
advertisers to them or otherwise seek to personalize the content they 
see. However, we may take the opportunity to show a general ad that is 
unrelated to the attributes of the person or an ad encouraging the non-
user to sign up for Facebook.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings. We do not sell or share this information with third-parties.

    Question 5. Mr. Zuckerberg, if a user deletes his or her Facebook 
account, does Facebook still track that person on non-Facebook websites 
and applications?
    Answer. Facebook does not create profiles or track website visits 
for people without a Facebook account. See Response to Question 4.

    Question 6. Mr. Zuckerberg, you asserted in the hearing that ``the 
expectations that people have'' regarding use of data by ISPs are 
somewhat different than for edge platforms like yours. In fact, a 
survey by Peter D. Hart showed that 94 percent of consumers want their 
online data to be subject to a consistent level of privacy protection 
across the Internet and that ISPs and edge providers should be treated 
alike. Do you have any consumer survey data or empirical evidence to 
support your assertion that consumers expect or want different privacy 
protections for ISPs? If so, please provide the consumer survey data or 
empirical evidence that supports your assertion.
    Answer. We believe that everyone should enjoy strong privacy 
protections, but we also realize that people have different 
expectations based on the context in which their information is 
provided. For instance, a person who orders shoes from a mail-order 
catalog would expect the retailer to know what is in the box that he is 
being sent. But the customer would not expect the post office to know 
what he or she has purchased just because it is delivering the box. 
Because of this difference in expectations, the post office may need to 
do more to inform people if it intends to inspect packages it delivers 
and to give people control if it intends to use the information it 
learns in other ways.
    Consistent with this difference, experts have observed, ``The 
context in which broadband customers share private information with 
[Internet service] providers is specific and accompanied by cabined 
expectations: the customers share the information with [Internet 
service] providers to facilitate provision of a service for which they 
have contracted. The information is therefore most appropriately 
thought of as a loan to, rather than transferred to, broadband 
providers.'' \1\ In contrast, a group of leading academic experts led 
by Prof. Nick Feamster of Princeton University observed that people may 
have access to only one or a few ISPs and simply expect those ISPs to 
deliver their communications. Such a person has no choice about whether 
to send his or her traffic over an ISP's network, whereas a ``user may 
simply elect not to provide certain personal information or data to a 
social network, or even to not use the social network at all.'' \2\ 
Other experts have observed that edge providers' collection of 
information is generally more expected because it is related to the 
services those companies provide.\3\
---------------------------------------------------------------------------
    \1\ Comments of New America Foundation, FCC 16-39, at 7.
    \2\ Comments of Nick Feamster, et al., FCC 16-39, at 3.
    \3\ Paul R. Gaus, Only the Good Regulations Die Young: Recognizing 
the Consumer Benefits of the FCC's Now-Defunct Privacy Regulations, 18 
Minn. J. Law, Sci. & Tech. 713 (2017) (``Defining the Internet consumer 
seems like a facile task, but it must incorporate how the person uses 
digital devices to connect to the Internet and use content. In the 
context of ISPs, the digital consumer conforms to a traditional 
definition in that the consumer purchases ISP services to access the 
internet. In the space of edge providers, the digital consumer engages 
in traditional retail, watches content, interacts with others via 
social media, and performs a plethora of other activities that provide 
a telling summary about a person's life.'').
---------------------------------------------------------------------------
    In our own services, Facebook needs to have a different 
understanding of a person's data than an ISP would. For instance, when 
someone adds information to their profile or likes a Page on Facebook, 
we must have access to that information in order to display it and use 
it to personalize that person's experience. People would not 
necessarily anticipate that other companies would have access to that 
information, which is why we do not sell people's information to 
advertisers and are increasing our efforts to guard against misuse of 
people's Facebook information by third parties. It is also why we 
provide people with the ability to turn off advertising based on the 
apps and websites they use outside of our service, and we are investing 
in enhanced transparency and control around this through our recent 
announcement of a new tool, Clear History, that we are building.
    Although we have not reviewed the detailed survey by Mr. Hart to 
which the question refers, we understand that it focused on a different 
question than Mr. Zuckerberg's testimony. Specifically, Mr. Hart's 
survey asked people whether they believe that information should be 
subject to protection; this is different from asking whether people 
have different expectations about what information Facebook will 
receive when they put information on their Facebook profile, as 
compared to what information their Internet service provider will 
receive when they take the same action.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Roy Blunt to 
                            Mark Zuckerberg
    Question 1. Does Facebook collect user data through cross-device 
tracking, and does this include off-line data (offline data defined as 
that which is not directly contributed by a user through usage of 
features of the Facebook app)?
    Answer. Yes, Facebook's Data Policy specifically discloses that we 
associate information across different devices that people use to 
provide a consistent experience wherever they use Facebook.
    Facebook's services inherently operate on a cross-device basis: 
understanding when people use our services across multiple devices 
helps us provide the same personalized experience wherever people use 
Facebook--for example, to ensure that people's News Feeds or profiles 
contains the same content whether they access our services on their 
mobile phone or in a desktop computer's web browser.
    In support of those and other purposes, we collect information from 
and about the computers, phones, connected TVs and other web-connected 
devices our users use that integrate with our Products, and we combine 
this information across a user's different devices. For example, we use 
information collected about a person's use of our Products on their 
phone to better personalize the content (including ads) or features 
they see when they use our Products on another device, such as their 
laptop or tablet, or to measure whether they took an action in response 
to an ad we showed them on their phone or on a different device.
    Information we obtain from these devices includes:

  <bullet> Device attributes: information such as the operating system, 
        hardware and software versions, battery level, signal strength, 
        available storage space, browser type, app and file names and 
        types, and plugins.

  <bullet> Device operations: information about operations and 
        behaviors performed on the device, such as whether a window is 
        foregrounded or backgrounded, or mouse movements (which can 
        help distinguish humans from bots).

  <bullet> Identifiers: unique identifiers, device IDs, and other 
        identifiers, such as from games, apps or accounts people use, 
        and Family Device IDs (or other identifiers unique to Facebook 
        Company Products associated with the same device or account).

  <bullet> Device signals: Bluetooth signals, and information about 
        nearby Wi-Fi access points, beacons, and cell towers.

  <bullet> Data from device settings: information a user allows us to 
        receive through device settings they turn on, such as access to 
        their GPS location, camera, or photos.

  <bullet> Network and connections: information such as the name of a 
        user's mobile operator or ISP, language, time zone, mobile 
        phone number, IP address, connection speed and, in some cases, 
        information about other devices that are nearby or on their 
        network, so we can do things like help them stream a video from 
        their phone to their TV.

  <bullet> Cookie data: data from cookies stored on a user's device, 
        including cookie IDs and settings. More information is 
        available at https://www.facebook.com/policies/cookies/ and 
        https://help.instagram.com/1896641480634370?ref=ig.

    Advertisers, app developers, and publishers can send us information 
through Facebook Business Tools they use, including our social plug-ins 
(such as the Like button), Facebook Login, our APIs and SDKs, or the 
Facebook pixel. These partners provide information about a person's 
activities off Facebook--including information about their device, 
websites they visit, purchases they make, the ads they see, and how 
they use their services--whether or not they have a Facebook account or 
are logged into Facebook. For example, a game developer could use our 
API to tell us what games a person plays, or a business could tell us 
about a purchase a person made in its store. We also receive 
information about a person's online and offline actions and purchases 
from third-party data providers who have the rights to provide us with 
that person's information.
    We use the information we have to deliver our Products, including 
to personalize features and content (including a person's News Feed, 
Instagram Feed, Instagram Stories, and ads) and make suggestions for a 
user (such as groups or events they may be interested in or topics they 
may want to follow) on and off our Products. To create personalized 
Products that are unique and relevant to them, we use their 
connections, preferences, interests and activities based on the data we 
collect and learn from them and others (including any data with special 
protections they choose to provide); how they use and interact with our 
Products; and the people, places, or things they're connected to and 
interested in on and off our Products.
    For example, if people have shared their device locations with 
Facebook or checked into a specific restaurant, we can show them ads 
from an advertiser that wants to promote its services in their area or 
from the restaurant. We use location-related information-such as a 
person's current location, where they live, the places they like to go, 
and the businesses and people they're near-to provide, personalize and 
improve our Products, including ads, for them and others. Location-
related information can be based on things like precise device location 
(if a user has allowed us to collect it), IP addresses, and information 
from their and others' use of Facebook Products (such as check-ins or 
events they attend). We store data until it is no longer necessary to 
provide our services and Facebook Products, or until a person's account 
is deleted--whichever comes first. This is a case-by-case determination 
that depends on things like the nature of the data, why it is collected 
and processed, and relevant legal or operational retention needs. We 
provide advertisers with reports about the kinds of people seeing their 
ads and how their ads are performing, but we don't share information 
that personally identifies someone (information such as a person's name 
or e-mail address that by itself can be used to contact them or 
identifies who they are) unless they give us permission. For example, 
we provide general demographic and interest information to advertisers 
(for example, that an ad was seen by a woman between the ages of 25 and 
34 who lives in Madrid and likes software engineering) to help them 
better understand their audience. We also confirm which Facebook ads 
led users to make a purchase or take an action with an advertiser.

    Question 2. Cross-device data collection allows for data and user 
profile meshing that the average users are likely not cognizant of. 
Last year, the Federal Trade Commission flagged cross-device tracking 
as a possible concern, due to the fact that most companies do not 
explicitly discuss cross-device tracking in their privacy policies. 
Does Facebook disclose its collection methods across each applicable 
device, and if so, do you offer your users choices about how cross-
device activity is tracked?
    Answer. See Response to Question 1.

    Question 3. Are users required to resubmit their permissions for 
each separate device that utilizes the Facebook app, or are user 
permissions blanketed across devices?
    Answer. Mobile operating systems like Google's Android and Apple's 
iOS have device-specific access controls implemented at the operating 
system level.

    Question 4. Facebook has been criticized for previous versions of 
its mobile application on Android devices, and the manner in which 
permissions were bundled without the ability to grant or deny each 
permission individually. I understand that Facebook and Android have 
updated their platforms, allowing more latitude for users to review 
permissions individually. What is the technical and commercial purpose 
of bundling permissions?
    Answer. Android and other operating systems (like Apple's iOS) 
control the way device permissions work. Facebook can't, for example, 
request permissions in a way that's not permitted on an Android device. 
Accordingly, where permitted by the operating system, we generally ask 
for permission in-context--for example, requesting access to a device's 
camera roll when someone uses a feature that requires it. But for other 
permissions, on the Android operating system, we must list all of the 
permissions that various features might require at the point when a 
person installs the app, even if we do not intend to use those 
permissions until those features are accessed.
    On our website, we explain more about permissions that we request 
and provide examples of how they are used. You can find this 
information at https://www
.facebook.com/help/210676372433246.

    Question 5. How does your company prioritize transparency and 
choice for users in the way that it collects and aggregates user data?
    Answer. Our approach to transparency is threefold.
    First, we provide information about the data we collect and use and 
how people can control it in context as people use Facebook. Research 
overwhelmingly demonstrates that in-product controls and education are 
the most meaningful to people and the most likely to be read and 
understood.
    Second, we provide information about how we collect and use data in 
our user agreements and related educational materials. These materials 
include our Data Policy, which we updated recently to make it more 
detailed and easier to understand, and Privacy Basics, a series of 
short, interactive guides that answer some of the most common questions 
we receive about privacy.
    Third, we enable people to learn more about the data we collect 
through interactive tools such as Download Your Information, which lets 
people download a file containing data that they may want to take to 
another service, and Access Your Information, a tool we've launched for 
people to more easily access and manage their data on Facebook.
    Our approach to control is based on the belief that people should 
be able to choose who can see what they share and how their data shapes 
their experience on Facebook and should have control over all data 
collection and uses that are not necessary to provide and secure our 
service. People can control the audience for their posts and the apps 
that can receive their data. They can control the people, Pages, 
Groups, and Events they connect to, and how they see content from those 
connections in their News Feeds. They can provide feedback on every 
post they see on Facebook--feedback, for example, that they want to see 
less of a particular kind of post or fewer posts from a particular 
person or Page. They can see and delete the history of their activities 
on Facebook, and, if they no longer want to use Facebook, they can 
delete their account and the data associated with it.
    We recognize, however, that controls are only useful if people know 
how to find and use them. That is why we continuously deliver in-
product educational videos in people's News Feeds on important privacy 
topics like how to review and delete old posts and what it means to 
delete an account. We are also inviting people to take our Privacy 
Checkup--which prompts people to review key data controls--and we are 
sharing privacy tips in education campaigns off of Facebook, including 
through ads on other websites. To make our privacy controls easier to 
find, we are launching a new settings menu that features core privacy 
settings in a single place.
                                 ______
                                 
      Response to Written Questions Submitted by Hon. Ted Cruz to 
                            Mark Zuckerberg
I. Directions
    Please provide a wholly contained answer to each question. A 
question's answer should not cross-reference answers provided in other 
questions.
    If a question asks for a yes or no answer, please provide a yes or 
no answer first and then provide subsequent explanation. If the answer 
to a yes or no question is sometimes yes and sometimes no, please state 
such first and then describe the circumstances giving rise to each 
answer.
    If a question asks for a choice between two options, please begin 
by stating which option applies, or both, or neither, followed by any 
subsequent explanation.
    If you disagree with the premise of a question, please answer the 
question as-written and then articulate both the premise about which 
you disagrees and the basis for that disagreement.
    If you lack a basis for knowing the answer to a question, please 
first describe what efforts you undertook as Chief Executive Officer of 
Facebook order to ascertain an answer to the question and then provide 
your tentative answer as a consequence of its reasonable investigation. 
If even a tentative answer is impossible at this time, please state 
what efforts you and Facebook intend to take to provide an answer in 
the future and give an estimate as to when the Committees shall receive 
that answer.
    If it is impossible to answer a question without divulging 
confidential or privileged information, please clearly state the basis 
for confidentiality or privilege invoked and provide as extensive an 
answer as possible without breaching that confidentiality or privilege. 
For questions calling for answers requiring confidential information, 
please provide a complete answer in a sealed, confidential form. These 
materials will be kept confidential. For questions calling for 
privileged information, please describe the privileged relationship and 
identify the privileged documents or materials that, if disclosed, 
would fully answer the question.
    If the answer to a question depends on one or more individuals' 
memory or beliefs and that individual or those individuals either do 
not recall relevant information or are not available to provide it, 
please state the names of those individuals, what efforts you undertook 
to obtain the unavailable information, and the names of other 
individuals who may have access to that information.
    To the extent that an answer depends on an ambiguity in the 
question asked, please state the ambiguity you perceive in the question 
and provide multiple answers which articulate each possible reasonable 
interpretation of the question in the light of the ambiguity.
    To the extent that a question inquires about you or Facebook's 
actions, omissions, or policies, the question also asks about any 
entities that you or Facebook owns or controls, including any 
subsidiaries and affiliates. If context suggests that a question may 
ask about Facebook as a service rather than as an entity, please answer 
the question as applied to both Facebook as a service as well as all of 
Facebook's affiliated entities or platforms.
II. Questions
    Question 1. Please attach a copy of each and every formal or 
informal policy, whether presently written or otherwise, regarding the 
moderation, promotion, evaluation, or alteration of users or content on 
Facebook. These include, for example, Facebook's Terms of Service, its 
Community Guidelines, and similar policies.
    Answer. Facebook's Terms and Policies are available here: https://
www.facebook
.com/policies. Facebook's Community Standards are available at https://
www
.facebook.com/communitystandards/.

    Question 2. Yes or no: Are Facebook's decisions to permit users 
access to its services or to permit content to remain displayed on its 
services, or the prominence or accessibility of that content, including 
its order, visibility, duration visible, inclusion in searches or order 
within search results, inclusion within ``Trending'' lists or analogous 
suggestions of content to users, determined in whole or part by 
Facebook's corporate values, beliefs, priorities, or opinions?

    (a) Yes or no: Does Facebook promote, demote, or block users or 
content based on its assessment of the social value or social 
desirability of that content?

    (b) Yes or no: Does Facebook promote, demote, or block users or 
content based on its assessment of that content's truth or falsity?

    (c) Yes or no: Does Facebook promote, demote, or block users or 
content based on its assessment of the content's agreement or 
disagreement with Facebook's corporate values, beliefs, priorities, or 
opinions?
    Answer. The conversations that happen on Facebook reflect the 
diversity and free expression of a community of more than two billion 
people communicating across countries and cultures and in dozens of 
languages, posting everything from text to photos and videos.
    With regard the order and visibility of content, a user's News Feed 
is made up of stories from their friends, Pages they've chosen to 
follow and groups they've joined. Ranking is the process we use to 
organize all of those stories so that users can see the most relevant 
content at the top, every time they open Facebook. Ranking has four 
elements: the available inventory of stories; the signals, or data 
points that can inform ranking decisions; the predictions we make, 
including how likely we think they are to comment on a story, share 
with a friend, etc.; and a relevancy score for each story.
    Misleading or harmful content on Facebook comes in many different 
forms, from annoyances like clickbait to hate speech and violent 
content. When we detect this kind of content in News Feed, there are 
three types of actions we take: remove it, reduce its spread, or inform 
people with additional context.
    Our Community Standards and Ads Policies outline the content that 
is not allowed on the platform, such as hate speech, fake accounts, and 
praise, support, or representation of terrorism/terrorists. When we 
find things that violate these standards, we remove them. There are 
other types of problematic content that, although they don't violate 
our policies, are still misleading or harmful and that our community 
has told us they don't want to see on Facebook--things like clickbait 
or sensationalism. When we find examples of this kind of content, we 
reduce its spread in News Feed using ranking and, increasingly, we 
inform users with additional context so they can decide whether to 
read, trust, or share it.
    The goal of our Community Standards is to encourage expression and 
create a safe environment. We base our policies on input from our 
community and from experts in fields such as technology and public 
safety. Our policies are also rooted in the following principles:

        (1) Safety: People need to feel safe in order to build 
        community. We are committed to removing content that encourages 
        real-world harm, including (but not limited to) physical, 
        financial, and emotional injury.

        (2) Voice: Our mission is all about embracing diverse views. We 
        err on the side of allowing content, even when some find it 
        objectionable, unless removing that content can prevent a 
        specific harm. Moreover, at times we will allow content that 
        might otherwise violate our standards if we feel that it is 
        newsworthy, significant, or important to the public interest. 
        We do this only after weighing the public interest value of the 
        content against the risk of real-world harm; and

        (3) Equity: Our community is global and diverse. Our policies 
        may seem broad, but that is because we apply them consistently 
        and fairly to a community that transcends regions, cultures, 
        and languages. As a result, our Community Standards can 
        sometimes appear less nuanced than we would like, leading to an 
        outcome that is at odds with their underlying purpose. For that 
        reason, in some cases, and when we are provided with additional 
        context, we make a decision based on the spirit, rather than 
        the letter, of the policy.

    Question 3. Yes or no: Have Facebook's decisions to permit users 
access to its services or to permit content to remain displayed on its 
services, or the prominence or accessibility of that content, including 
its order, visibility, duration visible, inclusion in searches or order 
within search results, inclusion within ``Trending'' lists or analogous 
suggestions of content to users, ever been determined in whole or part 
by Facebook's corporate values, beliefs, priorities, or opinions?
    Answer. See Response to Question 2.

    (a) Yes or no: Has Facebook ever promoted, demoted, or blocked 
users or content based on its assessment of the social value or social 
desirability of that content?
    Answer. See Response to Question 2.

    (b) Yes or no: Has Facebook ever promoted, demoted, or blocked 
users or content based on its assessment of that content's truth or 
falsity?
    Answer. See Response to Question 2.

    (c) Yes or no: Has Facebook ever promoted, demoted, or blocked 
users or content based on its assessment of the content's agreement or 
disagreement with Facebook's corporate values, beliefs, priorities, or 
opinions?
    Answer. See Response to Question 2.

    Question 4. Yes or no: Does Facebook employ its corporate values, 
beliefs, priorities, or opinions when deciding what content Facebook 
removes, republishes, moderates, promotes, or otherwise increases or 
decreases access to content?
    Answer. The conversations that happen on Facebook reflect the 
diversity of a community of more than two billion people communicating 
across countries and cultures and in dozens of languages, posting 
everything from text to photos and videos.
    We recognize how important it is for Facebook to be a place where 
people feel empowered to communicate, and we take our role in keeping 
abuse off our service seriously. That's why we have developed a set of 
Community Standards that outline what is and is not allowed on 
Facebook. Our Standards apply around the world to all types of content. 
They're designed to be comprehensive--for example, content that might 
not be considered hate speech may still be removed for violating our 
bullying policies.
    The goal of our Community Standards is to encourage expression and 
create a safe environment. We base our policies on input from our 
community and from experts in fields such as technology and public 
safety. Our policies are also rooted in the following principles:

        (1) Safety: People need to feel safe in order to build 
        community. We are committed to removing content that encourages 
        real-world harm, including (but not limited to) physical, 
        financial, and emotional injury.

        (2) Voice: Our mission is all about embracing diverse views. We 
        err on the side of allowing content, even when some find it 
        objectionable, unless removing that content can prevent a 
        specific harm. Moreover, at times we will allow content that 
        might otherwise violate our standards if we feel that it is 
        newsworthy, significant, or important to the public interest. 
        We do this only after weighing the public interest value of the 
        content against the risk of real-world harm; and

        (3) Equity: Our community is global and diverse. Our policies 
        may seem broad, but that is because we apply them consistently 
        and fairly to a community that transcends regions, cultures, 
        and languages. As a result, our Community Standards can 
        sometimes appear less nuanced than we would like, leading to an 
        outcome that is at odds with their underlying purpose. For that 
        reason, in some cases, and when we are provided with additional 
        context, we make a decision based on the spirit, rather than 
        the letter, of the policy.

    Question 5. Yes or no: Has Facebook ever employed its corporate 
values, beliefs, priorities, or opinions when deciding what content 
Facebook removes, republishes, moderates, promotes, or otherwise 
increases or decreases access to content?
    Answer. See Response to Question 4.

    Question 6. It has become a common position on colleges and 
universities that statements which a listener disagrees with severely 
either can constitute violence or can rise to the moral equivalent of 
violence. According to this position, statements may rise to the level 
of violence even without a threat, reasonable or otherwise, of imminent 
violence, the use of ``fighting words,'' or either a subjective intent 
or reasonably understood objective attempt to harass a listener.
    (a) Yes or no: Does Facebook believe that speech neither advocating 
for physical violence against, threatening physical violence against, 
nor undertaken with either the subjective purpose or objective indicia 
of harassing a listener, may constitute violence?
    Answer. Freedom of expression is one of our core values, and we 
believe that adding voices to the conversation creates a richer and 
more vibrant community. We want people to feel confident that our 
community welcomes all viewpoints and we are committed to designing our 
products to give all people a voice and foster the free flow of ideas 
and culture.
    On the subject of credible violence, our Community Standards are 
explicit in what we don't allow. We aim to prevent potential real-world 
harm that may be related to content on Facebook. We understand that 
people commonly express disdain or disagreement by threatening or 
calling for violence in facetious and non-serious ways. That's why we 
try to consider the language, context and details in order to 
distinguish casual statements from content that constitutes a credible 
threat to public or personal safety. In determining whether a threat is 
credible, we may also consider additional information like a targeted 
person's public visibility and vulnerability. We remove content, 
disable accounts, and work with law enforcement when we believe there 
is a genuine risk of physical harm or direct threats to public safety.

    (b) Yes or no: Has Facebook ever believed that speech neither 
advocating for physical violence against, threatening physical violence 
against, nor undertaken with either the subjective purpose or objective 
indicia of harassing a listener, may constitute violence?
    Answer. See Response to Question 6(a).

    Question 7. Regardless of Facebook's answer to Question 7, have any 
of Facebook's policies ever required removal of content not described 
in Question 7 from Facebook? If so, what categories, and based on what 
policies?
    Answer. The goal of our Community Standards is to encourage 
expression and create a safe environment. We base our policies on input 
from our community and from experts in fields such as technology and 
public safety. Our policies are also rooted in the following 
principles:

        (1) Safety: People need to feel safe in order to build 
        community. We are committed to removing content that encourages 
        real-world harm, including (but not limited to) physical, 
        financial, and emotional injury.

        (2) Voice: Our mission is all about embracing diverse views. We 
        err on the side of allowing content, even when some find it 
        objectionable, unless removing that content can prevent a 
        specific harm. Moreover, at times we will allow content that 
        might otherwise violate our standards if we feel that it is 
        newsworthy, significant, or important to the public interest. 
        We do this only after weighing the public interest value of the 
        content against the risk of real-world harm; and

        (3) Equity: Our community is global and diverse. Our policies 
        may seem broad, but that is because we apply them consistently 
        and fairly to a community that transcends regions, cultures, 
        and languages. As a result, our Community Standards can 
        sometimes appear less nuanced than we would like, leading to an 
        outcome that is at odds with their underlying purpose. For that 
        reason, in some cases, and when we are provided with additional 
        context, we make a decision based on the spirit, rather than 
        the letter, of the policy.

    Question 8. Yes or no: Does Facebook consider itself a publisher or 
speaker entitled to First Amendment protection when supervising its 
services, designing or implementing its policies, altering, reposting, 
promoting or demoting content, including through results displayed by a 
user search, their order or presence in a ``Trending'' list or similar 
suggestions to users regarding content?
    Answer. Facebook does not create the content that users share on 
its Platform, although it does take steps to arrange, rank and 
distribute that content to those who are most likely to be interested 
in it, or to remove objectionable content from its service. These 
activities are protected functions under Communications Decency Act 
Section 230 and the First Amendment.

    Question 9. Aside from content clearly marked as coming from 
Facebook or one of its officers or employees, under what circumstances 
does Facebook consider itself as acting as a First-Amendment-protected 
publisher or speaker in its moderation, maintenance, or supervision 
over its users or their content?
    Answer. We are, first and foremost, a technology company. Facebook 
does not create or edit the content that users publish on our platform. 
While we seek to be a platform for a broad range of ideas, we do 
moderate content according to published community standards in order to 
keep users on the platform safe, to reduce objectionable content and to 
make sure users participate on the platform responsibly.

    Question 10. Yes or no: Does Facebook provide access to its 
services on a viewpoint-neutral basis? For this question and its 
subparts, please construe ``access to its services'' and similar 
phrases broadly, including the position or order in which content is 
displayed on its services, the position or order in which users or 
content show up in searches (or whether they show up at all), whether 
users or content are permitted to purchase advertisements (or be 
advertised), the rates charged for those advertisements, and so on.
    Answer. We are committed to free expression and err on the side of 
allowing content. When we make a mistake, we work to make it right. And 
we are committed to constantly improving our efforts so we make as few 
mistakes as humanly possible.
    Decisions about whether to remove content are based on whether the 
content violates our Community Standards.
    Discussing controversial topics or espousing a debated point of 
view is not at odds with our Community Standards, the policies that 
outline what is and isn't allowed on Facebook. We believe that such 
discussion is important in helping bridge division and promote greater 
understanding.
    We are committed to designing our products to give all people a 
voice and foster the free flow of ideas and culture. That said, when 
something crosses the line into hate speech, it has no place on 
Facebook, and we are committed to removing it from our platform any 
time we become aware of it.
    We define hate speech as a direct attack on people based on what we 
call protected characteristics--race, ethnicity, national origin, 
religious affiliation, sexual orientation, sex, gender, gender 
identity, and serious disability or disease. We also provide some 
protections for immigration status. We define attack as violent or 
dehumanizing speech, statements of inferiority, and calls for exclusion 
or segregation. The detailed guidelines our reviewers use to assess 
whether content violates our hate speech policies are available here: 
https://www.facebook.com/communitystan
dards/objectionable_content/hate_speech.

    (a) Yes or no: Has Facebook ever discriminated among users on the 
basis of viewpoint when determining whether to permit a user to access 
its services? If so, please list each instance in which Facebook has 
done so.
    Answer. See Response to Question 10.

    (i) If so, does Facebook continue to do so today, or when did 
Facebook stop doing so?
    Answer. See Response to Question 10.

    (ii) If so, what viewpoint(s) has Facebook discriminated against or 
in favor of? In what way(s) has Facebook done so?
    Answer. See Response to Question 10.

    (iii) If so, does Facebook act only on viewpoints expressed on 
Facebook, or does it discriminate among users based on viewpoints 
expressed elsewhere? Has Facebook ever based its decision to permit or 
deny a user access to its services on viewpoints expressed off 
Facebook?
    Answer. See Response to Question 10.

    (b) Yes or no: Excluding content encouraging physical self-harm, 
threats of physical violence, terrorism, and other content relating to 
the credible and imminent physical harm of specific individuals, has 
Facebook ever discriminated among content on the basis of viewpoint in 
its services? If so, please list each instance in which Facebook has 
done so.
    Answer. See Response to Question 10.

    (c) Yes or no: Has Facebook ever discriminated against American 
users or content on the basis of an affiliation with a religion or 
political party? If so, please list each instance in which Facebook has 
done so and describe the group or affiliation against which (or in 
favor of which) Facebook was discriminating.
    Answer. See Response to Question 10.

    (d) Yes or no: Has Facebook ever discriminated against any American 
users or content on its services on the basis of partisan affiliation 
with the Republican or Democratic parties? This question includes 
advocacy for or against a party or specific candidate or official. If 
so, please list each instance and the party affiliation discriminated 
against.
    Answer. See Response to Question 10.

    (e) Yes or no: Has Facebook ever discriminated against any American 
users or content on its services on the basis of the user's or 
content's advocacy for a political position on any issue in local, 
State, or national politics? This question includes but is not limited 
to advocacy for or against abortion, gun control, consumption of 
marijuana, and net neutrality.
    Answer. See Response to Question 10.

    (f) Yes or no: Has Facebook ever discriminated against any American 
users or content on its services on the basis of the user's or 
content's religion, including advocacy for one or more tenets of that 
religion? If so, please list each such instance in which Facebook has 
done so and identify the religion, religious group, or tenet against 
which Facebook discriminated.
    Answer. See Response to Question 10.

    Question 11. Yes or no: Has Facebook ever discriminated between 
users in how their content is published, viewed, received, displayed in 
``trending'' or similar lists, or otherwise in any function or feature, 
based on the user's political affinity, religion, religious tenets, 
ideological positions, or any ideological or philosophical position 
asserted? If so, please list each such incident as well as the basis on 
which Facebook discriminated against that user or content.
    Answer. Being a platform for all ideas is a foundational principle 
of Facebook. We are committed to ensuring there is no bias in the work 
we do.
    Suppressing content on the basis of political viewpoint or 
preventing people from seeing what matters most to them is directly 
contrary to Facebook's mission and our business objectives.
    When allegations of political bias surfaced in relation to 
Facebook's Trending Topics feature, we immediately launched an 
investigation to determine if anyone violated the integrity of the 
feature or acted in ways that are inconsistent with Facebook's policies 
and mission. We spoke with current reviewers and their supervisors, as 
well as a cross-section of former reviewers; spoke with our contractor; 
reviewed our guidelines, training, and practices; examined the 
effectiveness of operational oversight designed to identify and correct 
mistakes and abuse; and analyzed data on the implementation of our 
guidelines by reviewers.
    Ultimately, our investigation revealed no evidence of systematic 
political bias in the selection or prominence of stories included in 
the Trending Topics feature. In fact, our analysis indicated that the 
rates of approval of conservative and liberal topics are virtually 
identical in Trending Topics. Moreover, we were unable to substantiate 
any of the specific allegations of politically-motivated suppression of 
subjects or sources, as reported in the media. To the contrary, we 
confirmed that most of those subjects were in fact included as trending 
topics on multiple occasions, on dates and at intervals that would be 
expected given the volume of discussion around those topics on those 
dates.
    Nonetheless, as part of our commitment to continually improve our 
products and to minimize risks where human judgment is involved, we are 
making a number of changes:

        We have engaged an outside advisor, former Senator Jon Kyl, to 
        advise the company on potential bias against conservative 
        voices. We believe this external feedback will help us improve 
        over time and ensure we can most effectively serve our diverse 
        community and build trust in Facebook as a platform for all 
        ideas.

        We continue to expand our list of outside partner organizations 
        to ensure we receive feedback on our content policies from a 
        diverse set of viewpoints.

        We have made our detailed reviewer guidelines public to help 
        people understand how and why we make decisions about the 
        content that is and is not allowed on Facebook.

        We have launched an appeals process to enable people to contest 
        content decisions with which they disagree.

        We are instituting additional controls and oversight around the 
        review team, including robust escalation procedures and updated 
        reviewer training materials.

    These improvements and safeguards are designed to ensure that 
Facebook remains a platform for all ideas and enables the broadest 
spectrum of free expression possible.

    Question 12. Except for accidental instances, has Facebook ever 
removed, downgraded, concealed, or otherwise censored content 
associated with any of the following? If yes, please describe the 
content that was removed, downgraded, concealed, or otherwise censored 
and the circumstances under which it was removed, downgraded, 
concealed, or otherwise censored.

    a. Any individuals employed by Facebook?

    b. Any elected official or candidate seeking elected office who 
self-identifies or is registered as a Democrat or a ``Democratic 
Socialist''?

    c. Any group who self-identifies as being part of the ``Anti-Trump 
Resistance Movement''?

    d. Any individuals employed by MSNBC?

    e. Any individuals employed by CNN?

    f. Any blogs that self-identify as ``liberal'' or ``progressive''?

    g. Any Facebook groups that self-identify as ``liberal'', 
``progressive'', or being part of the ``Anti-Trump Resistance 
Movement''?

    h. Open Society Foundation?

    i. Planned Parenthood?

    j. Indivisible?

    k. Sierra Club?

    l. The American Civil Liberties Union?

    m. The Anti-Defamation League?

    n. The Council on American-Islamic Relations (CAIR)?

    o. Emily's List?

    p. NARAL Pro-Choice America?

    q. The National Association for the Advancement of Colored People 
(NAACP)?

    r. NextGen Climate Action?

    s. The Southern Poverty Law Center?

    t. The Union of Concerned Scientists?

    u. Everytown for Gun Safety?

    v. Amnesty International?

    w. Priorities USA Action?

    x. Media Matters for America?

    y. Human Rights Watch?

    z. Every Voice?

    aa. NowThis?

    bb. The Women's March?

    cc. Organizing for America?

    dd. Organizing for Action?
    Answer. When content that violates our policies is brought to our 
attention, we remove that content--regardless of who posted it. We have 
removed content posted by individuals and entities across the political 
spectrum.
    On April 24, 2018, we published the detailed guidelines our 
reviewers use to make decisions about reported content on Facebook. 
These guidelines cover everything from nudity to graphic violence.
    We published these guidelines because we believe that increased 
transparency will provide more clarity on where we draw lines on 
complex and continuously evolving issues, and we hope that sharing 
these details will prompt an open and honest dialogue about our 
decision making process that will help us improve--both in how we 
develop and enforce our standards. We recognize that our policies are 
only as good as the strength and accuracy of our enforcement--and our 
enforcement is not perfect. We make mistakes because our processes 
involve people, and people are not infallible. We are always working to 
improve.
    We do not typically comment on specific cases of content removal 
for privacy reasons.

    Question 13. In your testimony before the committees, you stated 
several times that Facebook prohibits content based on its status as 
``hate speech.'' How have you and Facebook defined ``hate speech'' 
today and at any other stage in Facebook's existence?
    Answer. We define hate speech as a direct attack on people based on 
what we call protected characteristics--race, ethnicity, national 
origin, religious affiliation, sexual orientation, sex, gender, gender 
identity, and serious disability or disease. We also provide some 
protections for immigration status. We define attack as violent or 
dehumanizing speech, statements of inferiority, and calls for exclusion 
or segregation. The detailed guidelines our reviewers use to assess 
whether content violates our hate speech policies are available here: 
https://www.facebook.com/com
munitystandards/objectionable_content/hate_speech.
    Our Community Standards make an important distinction between 
targeting people and targeting particular beliefs or institutions. We 
believe that people should be able to share their views and discuss 
controversial ideas on Facebook.

    Question 14. Did or does Facebook collaborate with or defer to any 
outside individuals or organizations in determining whether to classify 
a particular statement as ``hate speech?'' If so, please list the 
individuals and organizations.
    Answer. Hate speech has no place on our platform. Our Community 
Standards prohibit attacks based on characteristics including race, 
ethnicity, religion, and national origin.
    Facebook has partnerships with academics and experts who study 
organized hate groups and hate speech. These academics and experts 
share information with Facebook as to how organizations are adapting to 
social media and give feedback on how Facebook might better tackle 
these problems. We recently hosted several of these academics at 
Facebook for multiple days of observation and assessment, during which 
the academics attended substantive meetings on our content policies and 
the guidance we provide to our reviewers. Further, in the area of hate 
speech, there are very important academic projects that we follow 
closely. Timothy Garton Ash, for example, has created the Free Speech 
Debate to look at these issues on a cross-cultural basis. Susan Benesch 
established the Dangerous Speech Project, which investigates the 
connection between speech and violence. These projects show how much 
work is left to be done in defining the boundaries of speech online, 
which is why we will keep participating in this work to help inform our 
policies at Facebook. We are committed to continuing our dialogue with 
third parties to ensure we can have the widest possible expression of 
ideas, while preventing abuse of the platform.
    Facebook works with organizations from across the political 
spectrum around changes to our content standards including hate speech. 
While we do not share individual pieces of content from users with 
these organizations out of concerns for user privacy, we do provide in-
depth examples and explanations of what the policy changes would 
entail.

    Question 15. Did or does Facebook collaborate with or defer to any 
outside individuals or organizations in determining whether a given 
speaker has committed acts of ``hate speech'' in the past? If so, 
please list the individuals and organizations.
    Answer. In an effort to prevent and disrupt real-world harm, we do 
not allow any organizations or individuals that are engaged in 
organized hate to have a presence on Facebook. We also remove content 
that expresses support or praise for groups, leaders, or individuals 
involved in these activities.
    In developing and iterating on our policies, including our policy 
specific to hate speech, we consult with outside academics and experts 
from across the political spectrum and around the world. We do not, 
however, defer to these individuals or organizations in making 
decisions about content on our platform. Content that violates our 
Community Standards is removed when we are made aware of it, and 
content that doesn't violate is left on the platform.
    Designating hate organizations and/or individuals is an extensive 
process that takes into account a number of different signals. We 
worked with academics and NGOs to establish this process and regularly 
engage with them to understand whether we should refine it. Among the 
signals we consider are whether the individual or organization in 
question has called for or directly carried out violence against people 
based on protected characteristics.

    Question 16. Did or does Facebook ban or otherwise limit the 
content of individuals or organizations who have spoken ``hate speech'' 
on its platform aside from the offending content? If so, under what 
circumstances?
    Answer. See Response to Question 15.

    Question 17. Yes or no: Did or does Facebook ban or otherwise limit 
the content of individuals or organizations on its platform based on 
hate speech or other behavior conducted outside of Facebook's platform?
    Answer. See Response to Question 15.

    Question 18. Yes or no: Do you believe that ``hate speech'' is not 
protected under the First Amendment from government censorship?
    Answer. The goal of our Community Standards is to encourage 
expression and create a safe community for our 2 billion users, more 
than 87 percent of whom are located outside the United States.
    We err on the side of allowing content, even when some find it 
objectionable, unless removing that content prevents a specific harm.
    We do not allow hate speech on Facebook because it creates an 
environment of intimidation and exclusion and in some cases may promote 
real-world violence.
    Our current definition of hate speech is anything that directly 
attacks people based on what are known as their ``protected 
characteristics''--race, ethnicity, national origin, religious 
affiliation, sexual orientation, sex, gender, gender identity, or 
serious disability or disease. However, our definition does allow for 
discussion around these characteristics as concepts in an effort to 
allow for and encourage expression and dialogue by our users.
    There is no universally accepted answer for when something crosses 
the line.
    Our approach to hate speech, like those of other platforms, has 
evolved over time and continues to change as we learn from our 
community, from experts in the field, and as technology provides us new 
tools to operate more quickly, more accurately and precisely at scale.

    Question 19. Yes or no: Have you ever believed that ``hate speech'' 
is not protected under the First Amendment from government censorship?
    Answer. See Response to Question 18.

    Question 20. Yes or no: Does Facebook believe that ``hate speech'' 
is not protected under the First Amendment from government censorship?
    Answer. See Response to Question 18.

    Question 21. Yes or no: Has Facebook ever believed that ``hate 
speech'' is not protected under the First Amendment from government 
censorship?
    Answer. See Response to Question 18.

    Question 22. Yes or no: Does Facebook's ``hate speech'' policy 
prohibit, exclude, remove, or censor content that, were Facebook a 
governmental entity, would be entitled to First Amendment protections?
    Answer. See Response to Question 18.

    Question 23. Facebook states on its website that, per its community 
standards, Facebook will remove hate speech, which it describes as 
``including content that directly attacks people based on their: race, 
ethnicity, national origin, religious affiliation, sexual orientation, 
sex, gender, or gender identity, or serious disabilities or diseases.'' 
Yes or no: Does Facebook limit its definition of hate speech only to 
content that ``directly attacks'' people based on the aforementioned 
characteristics?
    Answer. We define ``attack'' under our hate speech policy as 
violent or dehumanizing speech, statements of inferiority, and calls 
for exclusion or segregation. We allow discussion of issues related to 
characteristics like race, gender, ethnicity, and immigration status. 
We do not permit attacks against people based on these characteristics. 
Context matters in making what can be a difficult determination in some 
cases.
    Specific details on the type of content that is prohibited under 
our hate speech policies are available here: https://www.facebook.com/
communitystandards/objec
tionable_content/hate_speech.

    Question 24. What standard or procedure has Facebook applied now 
and in the past in determining whether content ``directly attacks'' an 
individual or group based on a protected characteristic under 
Facebook's community standards?
    Answer. See Response to Question 23.

    Question 25. Yes or no: Has Facebook ever removed content for hate 
speech that did not directly attack a person on the basis of his or her 
race, ethnicity, national origin, religious affiliation, sexual 
orientation, sex, gender, or gender identity, or serious disabilities 
or diseases? If so, what criteria did Facebook use to determine that 
the content violated Facebook's policy?
    Answer. We define ``attack'' under our hate speech policy as 
violent or dehumanizing speech, statements of inferiority, and calls 
for exclusion or segregation.
    Sometimes, it's obvious that something is hate speech and should be 
removed--because it includes the direct incitement of violence against 
people possessing protected characteristics, or degrades or dehumanizes 
people. Sometimes, however, there isn't a clear consensus--because the 
words themselves are ambiguous, the intent behind them is unknown, or 
the context around them is unclear. Language also continues to evolve, 
and a word that was not a slur yesterday may become one today.
    Here are some of the things we take into consideration when 
deciding what to leave on the site and what to remove.

  <bullet> Context: Regional and linguistic context is often critical 
        in deciding whether content constitutes hate speech, as is the 
        need to take geopolitical events into account. In Myanmar, for 
        example, the word ``kalar'' has benign historic roots, and is 
        still used innocuously across many related Burmese words. The 
        term can however also be used as an inflammatory slur, 
        including as an attack by Buddhist nationalists against 
        Muslims. We looked at the way the word's use was evolving, and 
        decided our policy should be to remove it as hate speech when 
        used to attack a person or group, but not in the other harmless 
        use cases.

  <bullet> Intent: There are times someone might share something that 
        would otherwise be considered hate speech but for non-hateful 
        reasons, such as making a self-deprecating joke or quoting 
        lyrics from a song. People often use satire and comedy to make 
        a point about hate speech. In other cases, people may speak out 
        against hatred by condemning someone else's use of offensive 
        language, which requires repeating the original offense. This 
        is something we allow, even though it might seem questionable 
        since it means some people may encounter material disturbing to 
        them. But it also gives our community the chance to speak out 
        against hateful ideas. We revised our Community Standards to 
        encourage people to make it clear when they're sharing 
        something to condemn it, but sometimes their intent isn't 
        clear, and anti-hatred posts get removed in error.

    On April 24, 2018, we announced the launch of appeals for content 
that was removed for hate speech. We recognize that we make enforcement 
errors on both sides of the equation--what to allow, and what to 
remove--and that our mistakes cause a great deal of concern for people, 
which is why we need to allow the option to request review of the 
decision and provide additional context that will help our team see the 
fuller picture as they review the post again. This type of feedback 
will allow us to continue improving our systems and processes so we can 
prevent similar mistakes in the future.

    Question 26. Has Facebook ever removed content for hate speech that 
was posted by an individual employed by Facebook? If so, please 
describe each instance.
    Answer. Our policies apply equally to all of our users. If a 
Facebook employee posted content that was reported to us and violated 
our policies, the content would be removed.

    Question 27. Recording artist Taylor Swift recently released a 
cover of Earth, Wind & Fire's ``September.''

    (a) In response, Nathaniel Friedman, an author at GQ magazine, 
stated that ``Taylor Swift's cover of `September' is hate speech.'' 
Does Facebook agree?

    (b) In response, Monique Judge, an author at The Root, stated that 
``Taylor Swift needs her *** whooped.'' Is this statement hate speech?
    Answer. We define hate speech as a direct attack on people based on 
what we call protected characteristics--race, ethnicity, national 
origin, religious affiliation, sexual orientation, sex, gender, gender 
identity, and serious disability or disease. We also provide some 
protections for immigration status. We define attack as violent or 
dehumanizing speech, statements of inferiority, and calls for exclusion 
or segregation. Our detailed hate speech policies are available at 
https://www.facebook.com/
communitystandards/objectionable_content/hate_speech.
    We generally do not assess whether content violates our policies 
(including our hate speech policy) unless it is part of our normal 
content review process. Context matters in making what can be a 
difficult determination in some cases. Sometimes, it's obvious that 
something is hate speech and should be removed--because it includes the 
direct incitement of violence against people possessing protected 
characteristics, or degrades or dehumanizes people. Sometimes, however, 
there isn't a clear consensus--because the words themselves are 
ambiguous, the intent behind them is unknown or the context around them 
is unclear. Language also continues to evolve, and a word that was not 
a slur yesterday may become one today.

    Question 28. It was reported that Democratic D.C. Councilman Trayon 
White posted a video on his Facebook page blaming a recent snowstorm on 
wealthy Jewish families. According to USA Today, White said: ``It just 
started snowing out of nowhere this morning, man. Y'all better pay 
attention to this climate control, man, this climate manipulation,'' 
which White attributed to ``the Rothschilds controlling the climate to 
create natural disasters they can pay for to own the cities, man.''
    (a) Yes or no: Does Facebook consider this video or this quote hate 
speech?
    Answer. See Response to Question 27.

    (b) Yes or no: Did Facebook remove this video from its platform? If 
so, when? If not, why not?
    Answer. See Response to Question 27.

    Question 29. Multiple authors for the website Vox, including its 
founder, Ezra Klein, have described Charles Murray's book, The Bell 
Curve, as ``hate speech.'' Similarly, the left-wing Southern Poverty 
Law Center perplexingly describes Murray as a ``white nationalist,'' 
largely relying on its depiction of The Bell Curve.
    (a) Does The Bell Curve qualify as ``hate speech'' for purposes of 
Facebook's policies?
    Answer. See Response to Question 27.

    (i) If so, what portions of The Bell Curve qualify as ``hate 
speech?'' Please provide quotations with page numbers for these 
portions.
    Answer. See Response to Question 27.

    (ii) If not, do Facebook's content policies prohibit a false claim 
that someone has engaged in ``hate speech?''
    Answer. See Response to Question 27.

    (iii) What procedures or penalties does Facebook employ, if any, to 
discourage false claims that someone has engaged in hate speech?
    Answer. See Response to Question 27.

    Question 30. Are any portions of the Bible, quoted verbatim and 
with citation, subject to removal as:

    (a) ``Hate speech?'' If so, please list the quotations and under 
which translation Facebook considers the quote ``hate speech.''
    Answer. See Response to Question 27.

    (b) Harassment? If so, please list the quotations and under which 
translation Facebook considers the quote harassment.
    Answer. We do not tolerate harassment on Facebook because we want 
people to feel safe to engage and connect with their community. Our 
harassment policy applies to both public and private individuals and 
includes behavior like repeatedly contacting a single user despite that 
person's clear desire and action to prevent that contact and repeatedly 
contacting large numbers of people with no prior solicitation. It also 
applies to calls for death, serious disease or disability, or physical 
harm aimed at an individual or group of individuals in a message 
thread. Context and intent matter, however, and we allow people to 
share and re-share posts if it is clear that something was shared in 
order to condemn or draw attention to harassment. The detailed 
guidelines our reviewers use to assess whether content violates our 
hate speech policies are available at https://www.facebook.com/
communitystan
dards/safety/harassment.
    We released our updated Community Standards--which reflect the 
guidelines our reviewers use to evaluate content that is reported to 
us--in order to better demonstrate where we draw lines on complex and 
continuously evolving issues. We also simultaneously launched an 
appeals process for content that has been removed for nudity/sexual 
activity, hate speech, and graphic violence. With this launch, we are 
giving people an opportunity to request review of our decisions and 
provide additional context that will help our team see a more complete 
picture as they review the post again. This type of feedback allows us 
to continue improving our systems and processes so we can prevent 
similar mistakes in the future.

    Question 31. On April 19, 2018, the California State Assembly voted 
in favor of a bill, AB 2943, which would make it an ``unlawful business 
practice'' to engage in any transaction for a good or service that 
seeks ``to change an individual's sexual orientation'' The bill 
clarifies that this includes efforts to ``change behaviors or gender 
expressions, or to eliminate or reduce sexual or romantic attractions 
or feelings toward individuals of the same sex.'' Multiple legal 
experts have observed that the bill's language, reasonably interpreted, 
could be read to outlaw the sale and purchase of books, such as the 
Bible, the Torah, and the Koran, which advocate for traditional sexual 
ethics.
    (a) Yes or no: Does Facebook believe that books, such as the Bible, 
the Torah, and the Koran, which advocate for traditional sexual ethics, 
constitute hate speech?
    Answer. See Response to Question 27.

    (b) Yes or no: Does Facebook consider any part of the Bible, the 
Torah, and/or the Koran hate speech? If so, what parts of the Bible, 
the Torah, and/or the Koran qualify? Please provide quotations with 
page numbers for each part identified as hate speech.
    Answer. See Response to Question 27.

    (c) Yes or no: Does Facebook believe that the messages contained in 
books, such as the Bible, the Torah, and the Koran, which advocate for 
traditional sexual ethics (i.e. that sex should be had only within a 
marriage between one man and one woman), should be discouraged from 
public dissemination?
    Answer. See Response to Question 27.

    (d) Yes or no: Does Facebook agree with the California State 
Assembly that goods or services that seek to change behaviors or gender 
expressions deserve to be discouraged, muted, or banned?
    Answer. See Response to Question 27.

    (e) Yes or no: Does Facebook agree with the California State 
Assembly that goods or services that seek to eliminate or reduce sexual 
or romantic attractions or feelings toward individuals of the same sex 
deserve to be discouraged, muted, or banned?
    Answer. See Response to Question 27.

    (f) Yes or no: In the event AB 2943 is fully enacted into law, will 
Facebook comply with its provisions by removing, denying, downgrading, 
concealing, or otherwise censoring content and advertisements 
restricted by the bill? If so, does Facebook intend to remove, deny, 
downgrade, conceal, or otherwise censor content and advertisements that 
pertain to the Bible, the Torah, the Koran, and other books which 
advance traditional sexual ethics.
    Answer. See Response to Question 27.

    Question 32. If an individual posted any of the following 
statements, standing alone and not directed to any Facebook user in 
particular, would that statement violate Facebook's ``hate speech'' 
policy? To the extent that the decision would depend on additional 
facts, please describe whether the statement would prompt an 
investigation to determine whether it constitutes ``hate speech,'' and 
whether the decision would involve algorithmic or human decision 
making.
    (a) There are only two sexes or two genders, male and female.

    (b) Bathroom segregation based on sex is similar to segregation 
based on race.

    (c) God created man in his image, male and female.

    (d) Gender is a social construct.

    (e) A person's sex or gender are immutable characteristics.

    (f) Sex reassignment surgery is a form of bodily mutilation.

    (g) The abortion of an unborn child is murder.

    (h) It should be a crime to perform or facilitate an abortion.

    (i) It should be a crime to prevent someone from performing or 
obtaining an abortion.

    (j) No person of faith should be required to assist a same-sex 
wedding by providing goods or services to a same-sex marrying couple.

    (k) When an individual enters the marketplace, he gives up the 
right to choose whether to support a same-sex marriage.

    (l) Islam is a religion of peace.

    (m) Islam is a religion of war.

    (n) All white people are inherently racist.

    (o) All black people are inherently racist.

    (p) Black lives matter.

    (q) Blue lives matter.

    (r) All lives matter.

    (s) Donating to the NRA funds the murder of children, such as those 
slain in Parkland, Florida.

    (t) Donating to Planned Parenthood funds the murder of children, 
such as those dismembered by Kermit Gosnell.

    (u) Men should stop interrupting when women are talking.

    (v) Women should stop interrupting when men are talking.

    (w) DREAMers are Americans too and should be entitled to stay in 
this country.

    (x) Illegal aliens need to be sent back.

    (y) Religious beliefs are irrational and anti-science.

    (z) Non-believers have no path to eternal salvation.

    (aa) Affirmative Action policies discriminate on the basis of race 
and sex.

    (bb) America is a ``melting pot.''
    Answer. See Response to Question 27.

    Question 33. Facebook states on its website that per its community 
standards, ``organizations and people dedicated to promoting hatred'' 
against protected groups are not allowed a presence on Facebook.
    (a) What standards or policies does Facebook apply in determining 
whether a group violates this policy?
    Answer. See Response to Question 15.

    (b) Yes or no: Does Facebook contract with or in any way rely upon 
an outside party to determine what organizations and people are 
dedicated to promoting hatred against protected groups? If yes, please 
list the outside parties.
    Answer. See Response to Question 15.

    (c) Yes or no: Has Facebook ever referenced, used, consulted, or in 
any way relied upon the left-wing Southern Poverty Law Center's list of 
designated hate groups in order to determine whether an organization or 
individual was dedicated to promoting hatred against protected groups?
    Answer. See Response to Question 15.

    (d) Yes or no: Has Facebook ever denied an organization a presence 
on Facebook on account of the organization being dedicated to promoting 
hatred? If so, has Facebook ever reversed its decision to designate an 
organization a hate group under its community standards and reinstated 
the organization's privilege to post and have a presence on Facebook?
    Answer. See Response to Question 15.

    Question 34. One group on Facebook, ``TERMINATE the Republican 
Party,'' has over 10,000 followers, one of which was James T. 
Hodgkinson. In June 2017, Hodgkinson opened fire on Republican members 
of Congress at a baseball practice, seriously wounding Rep. Steve 
Scalise, a congressional staffer, and two heroic police officers. 
Quotes from this group's posts and comments include that ``These people 
are all the same, criminals, rapists, racists, Republicans;'' that, 
about Rep. Patrick McHenry, ``who gives birth to sorry pieces of s*** 
like him and allowed it to reach adulthood, truly needs a f*****g 
hammer to the head a few times;'' and, referring to the President, 
``G*****n Russian roach traitor bastard . . . and his Republicanazi 
followers!'' Each of these quotes took place long after Hodgkinson's 
shooting, though similar quotes are available from before it as well.
    (a) Do these quotes constitute ``hate speech?''

        (i) If so, why have they not been removed?

        (ii) If not, why do they not?

    (b) If applied to Democrats, would the quotes above constitute 
``hate speech?''

    (c) How has Facebook changed its platform in response to 
Hodgkinson's shooting? It has apparently not suspended or ended this 
group.

    (d) Does it concern Facebook that such rhetoric is being used in a 
group which had an attempted political assassin as a member?

    (e) Does Facebook permit threats of violence against the President?

    (f) Does Facebook permit threats of violence against members of 
Congress?

    (g) Does Facebook monitor its platforms for potential left-wing 
violence?

        (i) If so, what is Facebook doing to ensure that shooters like 
        Hodgkinson do not coordinate using Facebook?

        (ii) If so, what is Facebook doing to ensure that shooters like 
        Hodgskinson do not use Facebook to incite violence against 
        Republicans or conservatives?

        (iv) If not, why is Facebook not doing so given that its 
        platform was integral to at least one attempted political 
        assassination?

    Answer. The shooting at the Congressional baseball practice was a 
horrendous act. As a designated mass shooting, any praise for that 
conduct or the shooter is against Facebook policies. We also do not 
allow any pages or accounts representing the shooter. If we are made 
aware of such comments, we would take them down.
    We define hate speech as a direct attack on people based on what we 
call protected characteristics--race, ethnicity, national origin, 
religious affiliation, sexual orientation, sex, gender, gender 
identity, and serious disability or disease. We also provide some 
protections for immigration status. Political-party affiliation is not 
included in our list of protected characteristics. We define attack as 
violent or dehumanizing speech, statements of inferiority, and calls 
for exclusion or segregation. Our detailed hate speech policies are 
available at https://www.facebook.com/
communitystandards/objectionable_content/hate_speech.
    Our credible violence policies prohibit posting credible statements 
of intent to commit violence against any person, groups of people, or 
place (city or smaller). We assess credibility based upon the 
information available to us and generally consider statements credible 
if the following are present:

  <bullet> A target (person, group of people, or place) and:

    <ctr-circle> Bounty/demand for payment, or

    <ctr-circle> Mention or image of specific weapon, or

    <ctr-circle> Sales offer or ask to purchase weapon, or

    <ctr-circle> Spelled-out address or named building, or

  <bullet> A target and 2 or more of the following details (can be 2 of 
        the same detail):

    <ctr-circle> Location

    <ctr-circle> Timing

    <ctr-circle> Method

    We also prohibit calls for violence, statements advocating 
violence, or aspirational or conditional statements of violence 
targeting public individuals, provided those statements are credible, 
as defined above. Any calls for violence against heads of state, 
including the United States President, violate our policies.
    There are times someone might share something that would otherwise 
be considered hate speech but for non-hateful reasons, such as making a 
self-deprecating joke or quoting lyrics from a song. People often use 
satire and comedy to make a point about hate speech. In other cases, 
people may speak out against hatred by condemning someone else's use of 
offensive language, which requires repeating the original offense. This 
is something we allow, even though it might seem questionable since it 
means some people may encounter material disturbing to them.

    Question 35. In July 2012, Governor Mike Huckabee praised Chick-
fil-A because of its support for traditional marriage and called on 
Christians to support Chick-fil-A in its position by purchasing its 
products. Facebook temporarily removed Governor Huckabee's post from 
its service before reinstating it.
    (a) Why was Governor Huckabee's post removed?

    (b) What Facebook rule was Governor Huckabee's post thought to have 
violated before it was reinstated?

    (c) Did Governor Huckabee's post violate Facebook's prohibition on 
``hate speech,'' either in 2012 or now?

    (d) Does a post opposing the Supreme Court's decision in Obergefell 
v. Hodges violate Facebook's prohibition on ``hate speech?''

    (e) Does a post opposing legalized same-sex marriage violate 
Facebook's prohibition on ``hate speech?''

    (f) As of July 2012, had Facebook removed, downgraded, concealed, 
or otherwise censored any content created by a state Governor, member 
of the U.S. House of Representatives, member of the U.S. Senate, or the 
President on account of that individual's support for same-sex 
marriage? If so, please include the removed content including 
identifying information indicating its author.

    (g) As of July 2012, had Facebook removed, downgraded, concealed, 
or otherwise censored any other content created by a state Governor, 
member of the U.S. House of Representatives, member of the U.S. Senate, 
or the President on account of that individual's opposition to same-sex 
marriage? If so, please include the removed content including 
identifying information indicating its author.

    (h) Has, since July 2012, Facebook removed, downgraded, concealed, 
or otherwise censored any posts by a state Governor, member of the U.S. 
House of Representatives, member of the U.S. Senate, or the President 
on account of that individual's (or that content's) opposition to same-
sex marriage? If so, please include the removed post identifying 
information indicating its author.

    (i) Has, since July 2012, Facebook removed, downgraded, concealed, 
or otherwise censored any posts by a state Governor, member of the U.S. 
House of Representatives, member of the U.S. Senate, or the President 
on account of that individual's (or that content's) support for same-
sex marriage? If so, please include the removed post identifying 
information indicating its author.

    (j) Under what circumstances does Facebook remove, downgrade, 
conceal, or otherwise censor content that, though not threatening 
physical harm, promoting imminent physical self-harm, or advocating for 
terrorism, opposes same-sex marriage?

    (k) Under what circumstances does Facebook remove, downgrade, 
conceal, or otherwise censor content that, though not threatening 
physical harm, promoting imminent physical self-harm, or advocating for 
terrorism, supports same-sex marriage?
    Answer. In July 2012, our automated systems incorrectly removed an 
event page entitled ``Chick-fil-A Appreciation Day.'' The page was 
restored within hours of coming to our attention. When we make mistakes 
on these important content decisions, we make every attempt to make it 
right as quickly as we can.
    Our goal is to allow people to have as much expression as possible, 
including on the issue of same-sex marriage. We err on the side of 
allowing content, even when some find it objectionable, unless removing 
that content prevents a specific harm.
    See also Response to Question 27.

    Question 36. As described in the Washington Post, in October 2012, 
Facebook removed a post by a group called ``Special Operations 
Speaks.'' The post said: ``Obama called the SEALs and THEY got bin 
Laden. When the SEALs called Obama, they got denied,'' a reference to 
the failure of the Executive Branch to provide military support to 
Americans under assault, and later killed, in Benghazi. Facebook first 
warned the group that the post violated its rules and then subsequently 
removed the post as a violation of ``Facebook's Statements of Rights 
and Responsibilities.'' Facebook further suspended Special Operations 
Speaks for 24 hours following the removal. Facebook later admitted 
error and permitted the content to remain on its platform.
    (a) Why was Special Operations Speaks' post removed?

    (b) What term of Facebook's then-extant 2012 Statement of Rights 
and Responsibilities was Special Operations Speaks' post thought to 
have violated before Facebook reversed its decision?

    (c) Yes or no: Did any member of the Obama Administration, 
including any administrative agency then-directed by an executive 
official appointed by the Obama administration, contact Facebook to 
request that the post be removed?

        (i) If so, whom?

        (ii) What was Facebook's response?

    (d) Yes or no: Did Facebook assure any government official or 
employee that this post would be removed? If so, whom?

    (e) Did Special Operations Speaks' post violate Facebook's 
prohibition on ``hate speech,'' either in 2012 or now?

    (f) As of October 2012, had Facebook removed, downgraded, 
concealed, or otherwise censored any other content created by a 
political action committee on the basis of that content's disapproval 
of how the Obama administration handled the attack on U.S. diplomats 
and servicemen in Benghazi? If so, please include the removed content 
including identifying information about its author.

    (g) As of October 2012, had Facebook removed, downgraded, 
concealed, or otherwise censored any content created by a political 
action committee on the basis of that content's approval of how the 
Obama administration handled the attack on U.S. diplomats and 
servicemen in Benghazi? If so, please include the removed content 
including identifying information about its author.

    (h) Has, since October 2012, Facebook removed, downgraded, 
concealed, or otherwise censored any posts by a political action 
committee on the basis of that content's disapproval of how the Obama 
administration handled the attack on U.S. diplomats and servicemen in 
Benghazi? If so, please include the removed content including 
identifying information about its author.

    (i) Has, since October 2012, Facebook removed, downgraded, 
concealed, or otherwise censored any posts by a political action 
committee on the basis of that content's disapproval of how the Obama 
administration handled the attack on U.S. diplomats and servicemen in 
Benghazi? If so, please include the removed content including 
identifying information about its author.

    (j) Under what circumstances does Facebook remove, downgrade, 
conceal, or otherwise censor content that, though not threatening 
physical harm, promoting imminent physical self-harm, or advocating for 
terrorism, opposes the Obama Administration's handling of the attacks 
on U.S. diplomats and servicemen in Benghazi?

    (k) Under what circumstances does Facebook remove, downgrade, 
conceal, or otherwise censor content that, though not threatening 
physical harm, promoting imminent physical self-harm, supports the 
Obama Administration's handling of the attacks on U.S. diplomats and 
servicemen in Benghazi?
    Answer. In this particular case, we removed the content as a 
violation of our standards. The content was deleted for 29 hours. 
However, we realized that we made a mistake, and we restored the 
content and apologized for the error.
    We define hate speech as a direct attack on people based on what we 
call protected characteristics--race, ethnicity, national origin, 
religious affiliation, sexual orientation, sex, gender, gender 
identity, and serious disability or disease. We also provide some 
protections for immigration status. We define attack as violent or 
dehumanizing speech, statements of inferiority, and calls for exclusion 
or segregation. Our detailed hate speech policies are available at 
https://www.facebook.com/com
munitystandards/objectionable_content/hate_speech.
    Our Community Standards prohibit hate speech and celebrating 
graphic violence and allow people to use Facebook to raise awareness of 
and condemn violence. Drawing that line requires complex and nuanced 
judgments, and we carefully review reports that we receive from the 
public, media, civil society, and governments. We remove content that 
violates our policies, regardless of who posted the content.

    Question 37. In September 2017, Facebook deemed the videos of two 
African American Trump supporters, known as Diamond and Silk, as 
``dangerous.'' In a company e-mail, Facebook stated that the decision 
was final and ``not appealable in any way.'' Facebook then retracted 
this statement, explaining that the determination was inaccurate.
    (a) What about Diamond and Silk did Facebook initially determine to 
be ``dangerous?''

    (b) What is Facebook's criteria for determining whether content 
that neither depicts nor advocates for violence as ``dangerous?''

    (c) Aside from the illustration of or advocacy for violence, under 
what conditions is the discussion of non-classified speech 
``dangerous?''

    (d) Has Facebook implemented an appeals system by which users can 
challenge a determination of dangerousness?

    (e) How often does Facebook retract these determinations?

    (f) What is the internal review process for these types of 
determinations?
    Answer. We mishandled communication with Diamond and Silk for 
months. Their frustration was understandable, and we apologized to 
them. The message they received on April 5, 2018 that characterized 
their Page as ``dangerous'' was incorrect and not reflective of the way 
we seek to communicate with our community and the people who run Pages 
on our platform.
    As part of our commitment to continually improve our products and 
to minimize risks where human judgment is involved, we are making a 
number of changes:

  <bullet> We have engaged an outside advisor, former Senator Jon Kyl, 
        to advise the company on potential bias against conservative 
        voices. We believe this external feedback will help us improve 
        over time and ensure we can most effectively serve our diverse 
        community.

  <bullet> We continue to expand our list of outside organizations from 
        across the political spectrum to provide feedback on potential 
        changes to our content standards.

  <bullet> We have made our detailed reviewer guidelines public to help 
        people understand how and why we make decisions about the 
        content that is and is not allowed on Facebook.

  <bullet> We have launched an appeals process to enable people to 
        contest content decisions with which they disagree. We 
        recognize that we make enforcement errors on both sides of the 
        equation--what to allow, and what to remove--and that our 
        mistakes cause a great deal of concern for people, which is why 
        we need to allow the option to request review of the decision 
        and provide additional context that will help our team see the 
        fuller picture as they review the post again. This type of 
        feedback will allow us to continue improving our systems and 
        processes so we can prevent similar mistakes in the future.

    See also Response to Question 27.

    Question 38. In October 2017, the social-media company Twitter 
refused to permit Representative Marsha Blackburn to pay to promote a 
campaign advertisement because Rep. Blackburn stated that she fought to 
stop the sale of children's body parts. Twitter's explanation was that 
Blackburn's critique of ``the sale of baby body parts'' was an 
``inflammatory statement'' that Twitter refused to advertise.
    (a) Does Representative Blackburn's campaign advertisement 
(available readily on the internet) violate Facebook's policies 
regarding acceptable advertisements?

    (b) Does Representative Blackburn's campaign advertisement violate 
Facebook's policies against ``hate speech?''

    (c) Would the statement, standing alone, that Planned Parenthood 
sells baby body parts qualify as ``hate speech?''

    (d) Would Facebook censor or otherwise downgrade or make 
unavailable the statement that Planned Parenthood sells baby body parts 
for any other reason?
    Answer. As Facebook indicated publicly in October 2017, 
Representative Blackburn's campaign advertisement, in which she 
mentioned ``the sale of baby body parts'' does not violate our 
Advertising Policies or our Community Standards.
    We work to strike the right balance between enabling free 
expression around the globe and ensuring that our platform is safe. We 
currently define hate speech as anything that directly attacks people 
based on protected characteristics--race, ethnicity, national origin, 
religious affiliation, sexual orientation, sex, gender, gender 
identity, or serious disability or disease. We remove content that 
violates our policies, regardless of who posted the content, including 
the government.
    Our policies allow content that may be controversial and at times 
even distasteful, but which does not cross the line into hate speech. 
This may include criticism of public figures, religions, professions, 
and political ideologies.

    Question 39. Louis Farrakhan presently employs Facebook to reach 
numerous individuals. At present, he has over a million followers.
    (a) On his Facebook page, Farrakhan links to an open letter of his 
which states: ``We can now present to our people and the world a true, 
undeniable record of the relationship between Blacks and Jews from 
their own mouths and pens. These scholars, Rabbis and historians have 
given to us an undeniable record of Jewish anti-Black behavior, 
starting with the horror of the trans-Atlantic slave trade, plantation 
slavery, Jim Crow, sharecropping, the labor movement of the North and 
South, the unions and the misuse of our people that continues to this 
very moment.''

        (i) Does this statement violate Facebook's policies against 
        ``hate speech?''

        (ii) If so, why has this post been permitted to remain?

        (iii) If not, why not?

    (b) On his Facebook page, Farrakhan links to a sermon in which he 
describes the ``Synagogue of Satan'' and its attempts to harm him.

        (i) Is the term ``Synagogue of Satan'' a violation of 
        Facebook's policies against ``hate speech?''

        (ii) If so, why has this post been permitted to remain?

        (iii) If not, why not?

    Answer. We are committed to designing our products to give all 
people a voice and foster the free flow of ideas and culture. That 
said, when something crosses the line into hate speech, it has no place 
on Facebook, and we are committed to removing it from our platform any 
time we become aware of it.
    We define hate speech as a direct attack on people based on what we 
call protected characteristics--race, ethnicity, national origin, 
religious affiliation, sexual orientation, sex, gender, gender 
identity, and serious disability or disease. We also provide some 
protections for immigration status. We define attack as violent or 
dehumanizing speech, statements of inferiority, and calls for exclusion 
or segregation. The detailed guidelines our reviewers use to assess 
whether content violates our hate speech policies are available at 
https://www.facebook.com/communitystan
dards/objectionable_content/hate_speech.

    Question 40. In June 2013, Facebook blocked the following post 
written by Fox News Radio's Todd Starnes for violating Facebook's 
community standards, ``I'm about as politically incorrect as you can 
get. I'm wearing an NRA ball cap, eating a Chick-fil-A sandwich, 
reading a Paula Deen cookbook and sipping a 20-ounce sweet tea while 
sitting in my Cracker Barrel rocking chair with the Gather Vocal Band 
singing `Jesus Saves' on the stereo and a Gideon's Bible in my pocket. 
Yes sir, I'm politically incorrect and happy as a June bug.'' Although 
Facebook ultimately reversed its decision, for several hours, Todd 
Starnes could not access either his fan or person page.
    (a) Why was Todd Starnes' post removed?

    (b) What Facebook rule was Todd Starnes' post thought to have 
violated before it was reinstated?

    (c) Was any part of Starnes' statement ``hate speech?''

    (d) Was any part of Starnes' statement considered harassment?

    (e) Yes or no: must posted content be ``politically correct'' to 
remain in accordance with Facebook's community standards?

    (f) Is a statement that something is not ``politically correct'' a 
violation of Facebook's standards?
    Answer. The page where Todd Starnes posted the content was not 
unpublished. He was the administrator that made the post, and the 
action was taken on his profile. He posted the content at around 2 a.m. 
on June 29, 2013, and it was restored shortly before 10 a.m. the same 
day. During that time, he did not lose his ability to access either his 
profile or his page, just the post itself. When we reinstated the post, 
we sent him an apology the same day.
    Our policies apply equally to individuals and entities across the 
political spectrum. We are committed to designing our products to give 
all people a voice and foster the free flow of ideas and culture. That 
said, when something crosses the line into hate speech, it has no place 
on Facebook, and we are committed to removing it from our platform any 
time we become aware of it.
    We recognize that our policies are only as good as the strength and 
accuracy of our enforcement--and our enforcement is not perfect. We 
make mistakes because our processes involve people, and people are not 
infallible. We are always working to improve.
    When we're made aware of incorrect content removals, we review them 
with team members so as to prevent similar mistakes in the future. We 
also audit the accuracy of reviewer decisions on an ongoing basis to 
coach them and follow up on improving, where errors are being made.
    We hope that our recent decision to publicize our detailed 
Community Standards--which reflect our internal reviewer guidelines--
and the introduction of appeals will aid in this process. By providing 
more clarity on what is and isn't allowed on Facebook, we hope that 
people will better understand how our policies apply to them. Where 
people believe we have made a mistake, they can request review of our 
decisions.
    Answer. See also Response to Question 44.

    Question 41. How many individuals at Facebook have the ability to 
moderate, remove, downgrade, conceal, or otherwise censor content, ban, 
suspend, warn, or otherwise discipline users, or approve, price, 
review, or refuse advertisements on the platform? This question 
includes individuals with the power to alter search results and similar 
mechanisms that suggest additional content to users in order to to 
promote or demote content, whether individually or routinely through an 
algorithm or by altering any of the platform's search functions. 
(Please include all employees, independent contractors, or others with 
such ability at Facebook.)
    (a) Into what divisions or groups are those individuals organized?

    (b) Who are the individuals responsible for supervising these 
individuals as their conduct relates to American citizens, nationals, 
businesses, and groups?

    (c) We understand from your April 10 testimony that Facebook has 
approximately 15,000 to 20,000 moderators. How many individuals have 
the responsibility to moderate, remove, downgrade, conceal, or 
otherwise censor content, ban, suspend, warn, or otherwise discipline 
users, or approve, price, review, or refuse advertisements as a primary 
or significant function of their role at Facebook? This question 
includes individuals with the power to alter search results and similar 
mechanisms that suggest additional content to users in order to to 
promote or demote content, whether individually or routinely through an 
algorithm or by altering any of the platform's search functions. (Going 
forward, we will refer to these individuals, with a primary or 
significant responsibility for reviewing content, users, or 
advertisements, as ``moderators.'')

    (d) Who are the individuals responsible for supervising these 
moderators as their conduct relates to American citizens, nationals, 
businesses, and groups?

    (e) How many moderators has Facebook had on its platform for each 
of the calendar years 2006 to 2018? Please provide approximations if 
exact numbers are impossible to obtain.

    (f) How many moderators does Facebook intend to retain for the 
years 2019 and 2020?

    (g) On average, how many pieces of content (e.g., a Facebook post, 
an Instagram photo, and so on) does a moderator remove a day?

    (h) On average, how many users does a moderator discipline a day?

    (i) On average, how many advertisements does a moderator approve, 
disapprove, price, consult on, review, or refuse a day?
    Answer. Our content reviewers respond to millions of reports each 
week from people all over the world.
    Our community of users helps us by reporting accounts or content 
that may violate our policies. Our content review teams around the 
world--which grew by 3,000 people last year--work 24 hours a day and in 
dozens of languages to review these reports. By the end of 2018, we 
will have doubled the number of people working on safety and security 
as compared to the beginning of the year--to a total of 20,000.
    To help the Facebook community better understand our efforts to 
enforce the Community Standards, we recently published a Community 
Standards Enforcement Preliminary Report (https://
transparency.facebook.com/community-standards-enforcement) describing 
the amount and types of content we take action against, as well as the 
amount of content that we flag for review proactively.
    We are also committed to getting better at enforcing our 
advertising policies. We review many ads proactively using automated 
and manual tools, and reactively when people hide, block, or mark ads 
as offensive. We are taking aggressive steps to strengthen both our 
automated and our manual review. We are also expanding our global ads 
review teams and investing more in machine learning to better 
understand when to flag and take down ads, such as ads that offer 
employment or credit opportunity while including or excluding 
multicultural advertising segments. Enforcement is never perfect, but 
we will get better at finding and removing improper ads.
    As to the questions regarding ranking and algorithmic changes, see 
Response to Question 47.

    Question 42. What percentage of Facebook's moderators:

    (a) Self-identify or are registered as Democrats?

    (b) Self-identify or are registered as Republicans?

    (c) Would identify themselves as ``liberal?''

    (d) Would identify themselves as ``conservative?''

    (e) Have donated to:

        (i) The Democratic Party?

        (ii) A candidate running for office as a Democrat?

        (iii) A cause primarily affiliated with or supported by the 
        Democratic Party?

        (iv) A cause primarily affiliated with or supported by liberal 
        interest groups?

        (v) A political action committee primarily advocating for the 
        Democratic Party, Democratic candidates or office-holders, or 
        causes primarily supported by the Democratic Party?

        (vi) The Republican Party?

        (vii) A candidate running for office as a Republican?

        (viii) A cause primarily affiliated with or supported by the 
        Republican Party?

        (ix) A cause primarily affiliated with or supported by 
        conservative interest groups?

        (x) A political action committee primarily advocating for the 
        Republican Party, Republican candidates or office-holders, or 
        causes primarily supported by the Republican Party?

    (f) Worked on or volunteered for a Democratic campaign?

    (g) Worked on or volunteered for a Republican campaign?

    (h) Worked on, interned for, or volunteered for a Democratic 
legislator, State or federal?

    (i) Worked on, interned for, or volunteered for a Republican 
legislator, State or federal?

    (j) Worked on or interned for a Democratic administration or 
candidate?

    (k) Worked on or interned for a Republican administration or 
candidate?
    Answer. We do not maintain statistics on these data points.

    Question 43. What percentage of Facebook's employees:
    (a) Self-identify or are registered as Democrats?

    (b) Self-identify or are registered as Republicans?

    (c) Self-identify as ``liberal?''

    (d) Self-identify as ``conservative?''

    (e) Have donated to:

        (i) The Democratic National Committee, the Democratic 
        Congressional Campaign Committee, or the Democratic Senatorial 
        Campaign Committee?

        (ii) A candidate running for office as a Democrat?

        (iii) A cause primarily affiliated with or supported by the 
        Democratic Party?

        (iv) A cause primarily affiliated with or supported by liberal 
        interest groups?

        (v) A political action committee primarily advocating for the 
        Democratic Party, Democratic candidates or office-holders, or 
        causes primarily supported by the Democratic Party?

        (vi) The Republican National Committee, the National Republican 
        Senate Committee, or the National Republican Congressional 
        Committee?

        (vii) A candidate running for office as a Republican?

        (viii) A cause primarily affiliated with or supported by the 
        Republican Party?

        (ix) A cause primarily affiliated with or supported by 
        conservative interest groups?

        (x) A political action committee primarily advocating for the 
        Republican Party, Republican candidates or office-holders, or 
        causes primarily supported by the Republican Party?

    (f) Worked on, interned for, or volunteered for a Democratic 
candidate campaigning for elected office or an elected Democratic 
official or candidate?

    (g) Worked on, interned for, or volunteered for a Republican 
campaigning for elected office or an elected Republican official or 
candidate?

    (e) Have donated to:

        (i) The Democratic National Committee, the Democratic 
        Congressional Campaign Committee, or the Democratic Senatorial 
        Campaign Committee?

        (ii) A candidate running for office as a Democrat?

        (iii) A cause primarily affiliated with or supported by the 
        Democratic Party?

        (iv) A cause primarily affiliated with or supported by liberal 
        interest groups?

        (v) A political action committee primarily advocating for the 
        Democratic Party, Democratic candidates or office-holders, or 
        causes primarily supported by the Democratic Party?

        (vi) The Republican National Committee, the National Republican 
        Senate Committee, or the National Republican Congressional 
        Committee?

        (vii) A candidate running for office as a Republican?

        (viii) A cause primarily affiliated with or supported by the 
        Republican Party?

        (ix) A cause primarily affiliated with or supported by 
        conservative interest groups?

        (x) A political action committee primarily advocating for the 
        Republican Party, Republican candidates or office-holders, or 
        causes primarily supported by the Republican Party?

    (f) Worked on, interned for, or volunteered for an elected 
Democratic official or candidate?

    (g) Worked on, interned for, or volunteered for an elected 
Republican official or candidate?
    Answer. We do not maintain statistics on these data points.

    Question 45. What percentage of Facebook's executives:
    (a) Self-identify or are registered as Democrats?

    (b) Self-identify or are registered as Republicans?

    (c) Self-identify as ``liberal?''

    (d) Self-identify as ``conservative?''

    (e) Have donated to:

        (i) The Democratic National Committee, the Democratic 
        Congressional Campaign Committee, or the Democratic Senatorial 
        Campaign Committee?

        (ii) A candidate running for office as a Democrat?

        (iii) A cause primarily affiliated with or supported by the 
        Democratic Party?

        (iv) A cause primarily affiliated with or supported by liberal 
        interest groups?

        (v) A political action committee primarily advocating for the 
        Democratic Party, Democratic candidates or office-holders, or 
        causes primarily supported by the Democratic Party?

        (vi) The Republican National Committee, the National Republican 
        Senate Committee, or the National Republican Congressional 
        Committee?

        (vii) A candidate running for office as a Republican?

        (viii) A cause primarily affiliated with or supported by the 
        Republican Party?

        (ix) A cause primarily affiliated with or supported by 
        conservative interest groups?

        (x) A political action committee primarily advocating for the 
        Republican Party, Republican candidates or office-holders, or 
        causes primarily supported by the Republican Party?

    (f) Worked on, interned for, or volunteered for an elected 
Democratic official or candidate?

    (g) Worked on, interned for, or volunteered for an elected 
Republican official or candidate?
    Answer. We do not maintain statistics on these data points.

    Question 46. How many employees has Facebook hired that previously 
worked for 501(c)(3) or 501(c)(4) nonprofits? Please list the names of 
the 501(c)(3) and 501(c)(4) organizations employees have previously 
worked for and the number of employees for each.
    Answer. We do not maintain statistics on these data points.

    Question 47. Based on your testimony, we understand that Facebook 
conducts many of its editorial and moderating decisions using one or 
more algorithms.
    (a) What editorial and moderating functions do these algorithms 
undertake?

    (b) List and describe the factors that the algorithm evaluates and 
considers.

    (c) Describe what if any human oversight or auditing is in place to 
review the algorithm's functions.

    (d) Do any of the factors in these algorithms associated with 
promoting, demoting, flagging, removing, suggesting, or otherwise 
altering the visibility of content correlate strongly (defined as 
meeting any generally accepted threshold for strong correlation using 
any generally accepted bivariate or multivariate analysis technique, 
including, but not limited to, chi-square, ANOVA, MANCOVA, Probit, 
Logit, regression, etc.) with any of the following traits (if so, 
please list which factor and its correlation):

        (i) Self-identification with the Democratic Party?

        (ii) Registration as a Democrat?

        (iii) Self-identification as a liberal?

        (iv) Self-identification with the Republican Party?

        (v) Registration as a Republican?

        (vi) Self-identification as a conservative?

    (e) Do any of these factors correlate significantly (p greater than 
or equal to .05) with any of the following traits (if so, please list 
which factor and its correlation):

        (i) Self-identification with the Democratic Party?

        (ii) Registration as a Democrat?

        (iii) Self-identification as a liberal?

        (iv) Self-identification with the Republican Party?

        (v) Registration as a Republican?

        (vi) Self-identification as a conservative?

    Answer. A user's News Feed is made up of stories from their 
friends, Pages they've chosen to follow and groups they've joined. 
Ranking is the process we use to organize all of those stories so that 
users can see the most relevant content at the top, every time they 
open Facebook. Ranking has four elements: the available inventory of 
stories; the signals, or data points that can inform ranking decisions; 
the predictions we make, including how likely we think a user is to 
comment on a story, share with a friend, etc.; and a relevancy score 
for each story.
    News Feed considers thousands of signals to surface the content 
that's most relevant to each person who uses Facebook. Our employees 
don't determine the ranking of any specific piece of content. To help 
the community understand how News Feed works and how changes to News 
Feed affect their experience on Facebook, we publish a regularly-
updated News Feed FYI blog (https://newsroom.fb.com/news/category/
inside-feed/) where our team shares details of significant changes.

    Question 48. What percentage of the individuals who design, code, 
implement, monitor, correct, or alter any of these algorithms:

    (a) Self-identify as Democrats?

    (b) Are registered as Democrats?

    (c) Self-identify as liberal?

    (d) Self-identify as Republicans?

    (e) Are registered as Republicans?

    (f) Self-identify as conservative?
    Answer. We do not maintain statistics on these data points.

    Question 49. In 2016, in response to complaints about ``fake news'' 
during the 2016 Presidential campaign and following President Trump's 
election, Facebook procured the services of specific ``fact-checking'' 
outlets in order to flag certain stories or sources as disputed, 
challenged, or incorrect. Earlier this year, it additionally changed 
one or more of the algorithms that recommend websites to users, such as 
users' news feeds.
    (a) On what basis did Facebook select the fact-checking 
organizations that it enlisted to identify incorrect assertions of 
fact?

    (b) Numerous sources have cited the presence of political bias in 
many ``fact-checking'' organizations; for example, according to one 
2013 study by George Mason University's Center for Media and Public 
Affairs, the site Politifact.com--which Facebook employs to check facts 
on its platform--was between two and three times more likely to rate 
Republicans' claims as false (32 percent) than Democrats' claims (11 
percent), and was between two and three times more likely to rate 
Democrats' statements as mostly or entirely true (54 percent) compared 
to Republicans' statements (18 percent). Indeed, the RealClearPolitics 
``Fact Check Review'' notes that, in the last 120 days, approximately 
1/6th of ``facts'' that Politifact.com claims to check aren't facts at 
all, but mere opinions.

        (i) What steps does Facebook take to counteract liberal or 
        left-wing bias by fact-checking outlets?

        (ii) What steps does Facebook intend to take to bring political 
        balance to its fact-checking review process?

        (iii) What mechanisms for appealing a determination that a 
        statement is false or otherwise disagreed-with does Facebook 
        make available to entities that Politifact (or others) 
        accuse(s) of lying?

                (1) If none exist, what mechanisms does Facebook intend 
                to make available?

                (2) If none exist, to what extent will Facebook make 
                its review of these claims publicly visible?

        (iv) Has Facebook ever labeled claims or articles by any of the 
        following entities as false? If so, please identify which 
        claims and when.

                (1) Huffington Post

                (2) Salon

                (3) Slate

                (4) ThinkProgress

                (5) Media Matters for America

                (6) ShareBlue

                (7) The Daily Kos

                (8) Vice

                (9) Vox

                (10) TalkingPointsMemo

        (v) Does Facebook consider the basis for a fact-checker's 
        determination that something is ``false'' when choosing to 
        label it as such? For example, as numerous media outlets have 
        noted, some fact-checking outlets concede that the factual 
        statement a public figure has made is true, but then condemn it 
        for lacking ``context'' or spin favorable to a left-wing 
        politician.

                (1) If so, how does Facebook consider it?

                (2) If not, does Facebook intend to do so in the 
                future? And if so, how? If not, why not?

    (c) When one of Facebook's fact-checkers determines that a claim is 
false, how does Facebook determine what material to refer a user to in 
response? Please list all such sources and any method relied on for 
determining their priority.

    (d) Facebook's 2018 alteration of its algorithm has had a noted and 
outsized impact on traffic to conservative websites while not having a 
similar effect on liberal websites. At least one study by the Western 
Journal estimated liberal publishers' traffic from Facebook rose 
approximately 2 percent following the change, while conservative 
publishers' traffic declined approximately 14 percent.

        (i) In what way(s) did Facebook change its content-screening or 
        news-suggesting algorithms, or any other feature of its website 
        which suggests content to users, in this 2018 instance?

                (1) Were any components of these changes intended to 
                have a differential impact on conservative outlets 
                versus liberal ones?

                (2) Were any components of these changes expected to 
                have a differential impact on conservative outlets 
                versus liberal ones?

        (ii) Measured against pre-change traffic, how has the traffic 
        of liberal publishers changed following this 2018 instance?

        (iii) Measured against pre-change traffic, how has the traffic 
        of conservative publishers changed following this 2018 
        instance?

        (iv) Measured against pre-change traffic, how has this 2018 
        instance changed the traffic of the following publishers:

                (1) The Washington Post

                (2) The New York Times

                (3) The Washington Times

                (4) The New York Post

                (5) The New York Daily News

                (6) Fox News

                (7) National Review

                (8) The Daily Beast

                (9) Huffington Post

                (10) Buzzfeed

                (11) Newsweek

                (12) The Daily Wire

                (13) Vice

                (14) USA Today

                (15) Salon

                (16) Slate

                (17) Vox

                (18) The Daily Caller

                (19) The Blaze

                (20) PJ Media

                (21) The Washington Free Beacon

                (22) Reuters

                (23) The Associated Press

                (24) National Public Radio

                (25) Bloomberg

        (v) Does Facebook intend to do anything to reduce the 
        differential effect on its recent algorithmic changes on 
        conservative publishers?

                (1) If so, what?

                (2) If not, why not?

    Answer. To reduce the spread of false news, one of the things we're 
doing is working with third-party fact checkers to let people know when 
they are sharing news stories (excluding satire and opinion) that have 
been disputed or debunked, and to limit the distribution of stories 
that have been flagged as misleading, sensational, or spammy. Third-
party fact-checkers on Facebook are signatories to the non-partisan 
International Fact-Checking Network Code of Principles. Third-party 
fact-checkers investigate stories in a journalistic process meant to 
result in establishing the truth or falsity of the story.
    In the United States, Facebook uses third-party fact-checking by 
the Associated Press, Factcheck.org, PolitiFact, Snopes, and the Weekly 
Standard Fact Check.
    Publishers may reach out directly to the third-party fact-checking 
organizations if (1) they have corrected the rated content, or if (2) 
they believe the fact-checker's rating is inaccurate. To issue a 
correction, the publisher must correct the false content and clearly 
state that a correction was made directly on the story. To dispute a 
rating, the publisher must clearly indicate why the original rating was 
inaccurate. If a rating is successfully corrected or disputed, the 
demotion on the content will be lifted and the strike against the 
domain or Page will be removed. It may take a few days to see the 
distribution for the domain or Page recover. Additionally, any recovery 
will be affected by other false news strikes and related interventions 
(like demotions for clickbait). Corrections and disputes are processed 
at the fact-checker's discretion. Fact-checkers are asked to respond to 
requests in a reasonable time period--ideally one business day for a 
simple correction, and up to a few business days for more complex 
disputes.
    We want Facebook to be a place where people can discover more news, 
information, and perspectives, and we are working to build products 
that help.
    As to the questions regarding ranking and algorithmic changes, see 
Response to Question 47.

    Question 50. Facebook's Help section explains that the posts that 
users see are influenced by their connections and activity on Facebook, 
including the number of comments, likes, and reactions a post receives 
and what kind of story it is. Some reporting suggests that Facebook's 
algorithm functions based on the content available (inventory), 
considerations about the content (signals), considerations about a 
person (predictions), and overall score.
    (a) How do Facebook employees determine how informative a post is 
or which interactions create a more meaningful experience?

    (b) Does a speaker's viewpoint determine in whole or part how 
informative or meaningful a post is?

    (c) Does a speaker's partisan affiliation determine in whole or 
part how informative or meaningful a post is?

    (d) Does a speaker's religious affiliation determine in whole or 
part how informative or meaningful a post is?
    Answer. See Response to Question 47.

    Question 51. Facebook is entitled to contribute money to Federal 
and State elections both as a function of the First Amendment as well 
as of Federal and State law. Including all of its subsidiaries, 
affiliates, as well as political action committees, partnerships, 
councils, groups, or entities organized with either a sole or 
significant purpose of electioneering, making political contributions 
to issue advocacy, candidates, or political parties, or of bundling or 
aggregating money for candidates or issue or party advocacy, whether 
disclosed by law or not, and during primary elections or general 
elections, how much money has Facebook contributed to:
    (a) All federal, State, and local candidates for office from 2008 
to present?

    (b) All national party committees?

        (i) Of that amount, how much was to:

                (1) The Democratic National Committee?

                (2) The Democratic Senatorial Campaign Committee?

                (3) The Democratic Congressional Campaign Committee?

                (4) The Republican National Committee?

                (5) The National Republican Senate Committee?

                (6) The National Republican Congressional Committee?

    (c) All political action committees (or other groups outlined above 
in question 43) from 2008 to present?

    (d) All issue-advocacy campaigns, including initiatives, referenda, 
ballot measures, and other direct-democracy or similar lawmaking 
measures?

    (e) Candidates running for President:

        (i) In 2008?

                (1) How much of that money was to the Democratic 
                candidate? (2) How much of that money was to the 
                Republican candidate? (3) How much of that money was to 
                other candidates?

        (ii) In 2012?

                (1) How much of that money was to the Democratic 
                candidate?

                (2) How much of that money was to the Republican 
                candidate?

                (3) How much of that money was to other candidates?

        (iii) In 2016?

                (1) How much of that money was to the Democratic 
                candidate?

                (2) How much of that money was to the Republican 
                candidate?

                (3) How much of that money was to other candidates?

    (f) Candidates running for the U.S. Senate: (for special or off-
year elections going forward, please group donation amounts with the 
next nearest cycle)

        (i) In 2008?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (ii) In 2010?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (iii) In 2012?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (iv) In 2014?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (v) In 2016?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (vi) In 2018?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

    (g) Candidates running for the U.S. House of Representatives:

        (i) In 2008?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (ii) In 2010?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (iii) In 2012?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (iv) In 2014?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (v) In 2016?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (vi) In 2018?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

    (h) Candidates running for Governor:

        (i) In 2008?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (ii) In 2010?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (iii) In 2012?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (iv) In 2014?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (v) In 2016?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (vi) In 2018?

                (1) How much of that money was to Democratic 
                candidates?

                (2) How much of that money was to Republican 
                candidates?

                (3) How much of that money was to other candidates?

        (i) Political action committees or other groups mentioned in 
        question 43 that:

                (i) Contribute 75 percent or more of their money to 
                Democratic candidates for office?

                (ii) Contribute 75 percent or more of their money to 
                Republican candidates for office?

                (iii) Identify as liberal, progressive, or otherwise 
                left-wing?

                (iv) Identify as conservative or right-wing?

    Answer. Facebook complies with all political contribution reporting 
requirements, and such reports are publicly available. For more 
information on Facebook's contributions, please see https://
newsroom.fb.com/news/h/facebook-political-engagement/.

    Question 52. How much has Facebook donated, either in the form of 
money or services (including free or discounted advertising or more 
prominent placements within the platform via searches and other 
suggested-content mechanisms), to the following not-for-profit 
organizations (or their affiliates or subsidiaries) in the last 10 
years? (Please separate answers into cash and non-cash components.)
    (a) Planned Parenthood

    (b) NARAL

    (c) The Center for Reproductive Rights

    (d) The National Right to Life Committee

    (e) Americans United for Life

    (f) Everytown for Gun Safety

    (g) The Brady Campaign

    (h) The National Rifle Association

    (i) Gun Owners of America

    (j) Human Rights Campaign

    (k) Amnesty International

    (l) Lambda Legal

    (m) National Immigration Forum

    (n) Federation

    (o) GLAAD

    (p) ACLU

    (q) UnidosUS (formerly ``La Raza'' or the ``National Council of La 
Raza'')

    (r) The Sierra Club

    (s) Greenpeace

    (t) The Heritage Foundation

    (u) The Cato Institute

    (v) The Institute for Justice

    (w) Southern Poverty Law Center

    (x) The Open Society Foundation(s)

    (y) Americans for Prosperity
    Answer. We partner with various domestic and international non-
governmental organizations, which span the political and ideological 
spectrum. We provide our partners with technical expertise, 
sponsorships, advertising credits, and trainings, among other support. 
Our partnerships are crucial to our mission of building community. More 
information about our partnerships is available at https://
newsroom.fb.com/news/h/facebook-political-engagement/.

    Question 53. Facebook sells advertisements to political candidates 
and organizations. Multiple sources report that Facebook charged 
different rates to the Hillary Clinton and Donald Trump campaigns 
during the 2016 election. For the following questions, to the extent 
that geographic or local-market concerns significantly explain 
disparate rates between candidates, please explain how they do so and 
to what extent they do so, including calculations justifying that 
explanation.
    (a) Did Facebook charge the two campaigns different rates?

        (i) If so, on what basis?

        (ii) If so, what rates did Facebook charge:

                (1) The Clinton Campaign?

                (2) The Trump Campaign?

    (b) If these campaigns purchased advertising rates on Facebook or 
its platforms, what rates did Facebook charge each of the following 
campaigns?

        (i) Barack Obama's 2008 campaign

        (ii) John McCain's 2008 campaign

        (iii) Barack Obama's 2012 campaign

        (iv) Mitt Romney's 2012 campaign

    (c) On average, and among campaigns that purchased advertisements, 
what rates did Facebook charge:

        (i) Democrats running for Senate in 2008?

        (ii) Republicans running for Senate in 2008?

        (iii) Democrats running for the House of Representatives in 
        2008?

        (iv) Republicans running for the House of Representatives in 
        2008?

        (v) Democrats running for Governor in 2008?

        (vi) Republicans running for Governor in 2008?

        (vii) Democrats running in State or local legislative races in 
        2008?

        (viii) Republicans running in State or local legislative races 
        in 2008?

        (ix) Democrats running for Senate in 2010?

        (x) Republicans running for Senate in 2010?

        (xi) Democrats running for the House of Representatives in 
        2010?

        (xii) Republicans running for the House of Representatives in 
        2010?

        (xiii) Democrats running for Governor in 2010?

        (xiv) Republicans running for Governor in 2010?

        (xv) Democrats running in State or local legislative races in 
        2010?

        (xvi) Republicans running in State or local legislative races 
        in 2010?

        (xvii) Democrats running for Senate in 2012?

        (xviii) Republicans running for Senate in 2012?

        (xix) Democrats running for the House of Representatives in 
        2012?

        (xx) Republicans running for the House of Representatives in 
        2012?

        (xxi) Democrats running for Governor in 2012?

        (xxii) Republicans running for Governor in 2012?

        (xxiii) Democrats running in State or local legislative races 
        in 2014?

        (xxiv) Republicans running in State or local legislative races 
        in 2014?

        (xxv) Democrats running for Senate in 2014?

        (xxvi) Republicans running for Senate in 2014?

        (xxvii) Democrats running for the House of Representatives in 
        2014?

        (xxviii) Republicans running for the House of Representatives 
        in 2014?

        (xxix) Democrats running for Governor in 2014?

        (xxx) Republicans running for Governor in 2014?

        (xxxi) Democrats running in State or local legislative races in 
        2014?

        (xxxii) Republicans running in State or local legislative races 
        in 2014?

        (xxxiii) Democrats running in State or local legislative races 
        in 2016?

        (xxxiv) Republicans running in State or local legislative races 
        in 2016?

        (xxxv) Democrats running for Senate in 2016?

        (xxxvi) Republicans running for Senate in 2016?

        (xxxvii) Democrats running for the House of Representatives in 
        2016?

        (xxxviii) Republicans running for the House of Representatives 
        in 2016?

        (xxxix) Democrats running for Governor in 2016?

        (xl) Republicans running for Governor in 2016?

        (xli) Democrats running in State or local legislative races in 
        2016?

        (xlii) Republicans running in State or local legislative races 
        in 2016?

        (xliii) Democrats running in State or local legislative races 
        in 2018?

        (xliv) Republicans running in State or local legislative races 
        in 2018?

        (xlv) Democrats running for Senate in 2018?

        (xlvi) Republicans running for Senate in 2018?

        (xlvii) Democrats running for the House of Representatives in 
        2018?

        (xlviii) Republicans running for the House of Representatives 
        in 2018?

        (xlix) Democrats running for Governor in 2018?

                (l) Republicans running for Governor in 2018?

                (li) Democrats running in State or local legislative 
                races in 2018?

                (lii) Republicans running in State or local legislative 
                races in 2018?

    (d) Yes or no: does Facebook consider partisan affiliation in 
deciding whether to sell advertisements to a political candidate, 
political action committee, or other organization purchasing political 
advertisements?

    (e) Yes or no: does Facebook consider partisan affiliation in 
deciding at what rates to sell advertisements to a political candidate, 
political action committee, or other organization purchasing political 
advertisements?

    (f) Yes or no: does Facebook consider the likelihood of a 
candidate's ultimate electoral success (via polls or otherwise) in 
deciding whether to sell advertisements to a political candidate?

    (g) Yes or no: does Facebook consider the likelihood of a 
candidate's ultimate electoral success (via polls or otherwise) in 
deciding at what rates to sell advertisements to a political candidate?
    Answer. Facebook offered identical support to both the Trump and 
Clinton campaigns, and had teams assigned to both. Everyone had access 
to the same tools, which are the same tools that every campaign is 
offered.
    See also Response to Question 54.

    Question 54. Please provide Facebook's advertising rates for each 
U.S. Senate and U.S. House election for which Facebook quoted or sold 
advertisements to one or more candidates for the years 2008, 2010, 
2012, 2014, 2016, and 2018. For elections not falling in those years or 
special elections, please provide and group these rates with the next 
sequential election cycle. Where Facebook offered or sold advertising 
to multiple candidates within the same race, please pair those quotes 
or prices together along with party affiliation.
    Answer. People can run ads on Facebook, Instagram and Audience 
Network on any budget. The exact cost associated with an ad being shown 
to someone is determined in Facebook's ad auction.

    Question 55. Yes or no: has Facebook ever provided at no cost 
advertising to political candidates, campaign committees, political 
action committees or similar groups, or issue-advocacy groups or 
campaigns, whether through outright advertising or by altering search 
rankings, trending topics, content rankings, or the position of content 
within any suggested content mechanism?
    (a) If so, please provide each instance in which Facebook has done 
so and indicate whether Facebook offered similar support to any other 
candidate or issue in that race or election.

    (b) If so, please indicate whether Facebook coordinated with that 
campaign, candidate, or issue in doing so, or if Facebook acted 
unilaterally.
    Answer. Political candidates, campaign committees, political action 
committees and similar groups, as well as issue advocacy groups and 
campaigns can set up Facebook Pages for free and post free content via 
those Pages, in the same way that any Page creator may. To run ads on 
Facebook, a form of payment must be provided. The algorithms that set 
content rankings are not designed to promote any candidate or party.

    Question 56. Please list and describe all mandatory trainings that 
Facebook employees are required to undergo and the topics involved in 
each, including any trainings on sexual harassment, unconscious bias, 
racial privilege, and inclusivity.
    Answer. At Facebook, we treat any allegations of harassment, 
discrimination, or retaliation with the utmost seriousness, and we have 
invested significant time and resources into developing our policies 
and processes. We have made our policies and processes available 
publicly--not because we think we have all the answers, but because we 
believe that the more companies are open about their policies, the more 
we can all learn from one another. Our internal policies on sexual 
harassment and bullying are available on our Facebook People Practices 
website (http://peoplepractices.fb.com/), along with details of our 
investigation process and tips and resources we have found helpful in 
preparing our Respectful Workplace internal trainings. Our philosophy 
on harassment, discrimination, and bullying is to go above and beyond 
what is required by law. Our policies prohibit intimidating, offensive, 
and sexual conduct even when that conduct might not meet the legal 
standard of harassment. Even if it's legally acceptable, it's not the 
kind of behavior we want in our workplace. In developing our policies, 
we were guided by six basic principles:

  <bullet> First, develop training that sets the standard for 
        respectful behavior at work, so people understand what's 
        expected of them right from the start. In addition to 
        prescribing mandatory harassment training, we wrote our own 
        unconscious bias training program at Facebook, which is also 
        available publicly on our People Practices website. Our 
        training includes Sustainable Equity, a three-day course in the 
        U.S. about racial privilege and injustice, and Design for 
        Inclusion, a multi-day course in the UK to educate on systemic 
        inequity.

  <bullet> Second, treat all claims--and the people who voice them--
        with seriousness, urgency, and respect. At Facebook, we make 
        sure to have HR business partners available to support everyone 
        on the team, not just senior leaders.

  <bullet> Third, create an investigation process that protects 
        employees from stigma or retaliation. Facebook has an 
        investigations team made up of experienced HR professionals and 
        lawyers trained to handle sensitive cases of sexual harassment 
        and assault.

  <bullet> Fourth, follow a process that is consistently applied in 
        every case and is viewed by employees as providing fair 
        procedures for both victims and those accused.

  <bullet> Fifth, take swift and decisive action when it is determined 
        that wrongdoing has occurred. We have a zero-tolerance policy, 
        and that means that when we are able to determine that 
        harassment has occurred, those responsible are fired. 
        Unfortunately, in some cases investigations are inconclusive 
        and come down to one person's word against another's. When we 
        don't feel we can make a termination decision, we take other 
        actions designed to help everyone feel safe, including changing 
        people's roles and reporting lines.

  <bullet> Sixth, make it clear that all employees are responsible for 
        keeping the workplace safe--and anyone who is silent or looks 
        the other way is complicit. There's no question that it is 
        complicated and challenging to get this right. We are by no 
        means perfect, and there will always be bad actors. Unlike law 
        enforcement agencies, companies don't have access to forensic 
        evidence and instead have to rely on reported conversations, 
        written evidence, and the best judgment of investigators and 
        legal experts. What we can do is be as transparent as possible, 
        share best practices, and learn from one another--recognizing 
        that policies will evolve as we gain experience. We don't have 
        everything worked out at Facebook on these issues, but we will 
        never stop striving to make sure we have a safe and respectful 
        working environment for all our people.

    We are also working to reduce unconscious bias. Our publicly 
available Managing Unconscious Bias class encourages our people to 
challenge and correct bias as soon as they see it--in others, and in 
themselves. We've also doubled down by adding two additional internal 
programs: Managing Inclusion, which trains managers to understand the 
issues that affect marginalized communities, and Be The Ally, which 
gives everyone the common language, tools, and space to practice 
supporting others.

    Question 57. Please list and describe all optional recommended 
trainings that Facebook employees are required to undergo and the 
topics involved in each, including any trainings on sexual harassment, 
unconscious bias, racial privilege, and inclusivity.
    Answer. See Response to Question 56.

    Question 58. Do any of the materials Facebook uses in any of these 
trainings identify different preferences, values, goals, ideas, world-
views, or abilities among individuals on the basis of the following? If 
so, please list each and include those materials.
    (a) Race

    (b) Sex

    (c) Sexual orientation

    (d) Place of origin
    Answer. Diversity is core to our business at Facebook and we're 
committed to building and maintaining a workforce as diverse and 
inclusive as the people and communities we serve. We have developed and 
implemented programs and groups to help build a more diverse and 
inclusive company, and to better engage and support employees from 
diverse backgrounds. We have a number of Facebook Resource Groups 
(FBRGs) that are run by our internal communities from different 
backgrounds, such as Asians and Pacific Islanders, African-Americans, 
People with Disabilities, those of faith, Latinos/Hispanics, LGBTQ, 
Veterans, and women. These FBRGs provide members with support, foster 
understanding between all people, and can coordinate programming to 
further support members. Examples of such programs include <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4d1a222028230d">[email&#160;protected]</a> 
Leadership Day, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d694bab7b5bd96">[email&#160;protected]</a> Leadership Day, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d894b9acb1b698">[email&#160;protected]</a> Leadership Day, and 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0555776c616045">[email&#160;protected]</a> Leadership Day. Facebook also values and creates programming to 
support its Veterans and People with Disabilities through dedicated 
program managers and recruiters, mentoring programs and awareness 
campaigns to promote education and inclusion. These groups and programs 
are created to support and provide a more inclusive work experience for 
people from diverse backgrounds, with membership and participation open 
even to those who do not self-identify with these groups. For example, 
people who do not self-identify as Black are still members of <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4b09272a28200b">[email&#160;protected]</a> 
and have attended <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="094b65686a6249">[email&#160;protected]</a> Leadership Day, and there are male members of 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e8bf87858d86a8">[email&#160;protected]</a> and men can attend <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d681b9bbb3b896">[email&#160;protected]</a> Leadership Day. Facebook is also an 
Equal Opportunity Employer.

    Question 59. Facebook acknowledges that it is located in a very 
liberal part of the country, and has suggested that it understands that 
many of its employees as well as the surrounding community share a 
particular (very liberal) culture.
    (a) Does Facebook have any training specifically aimed at 
discouraging political, ideological, or partisan bias in decision-
making by its employees?

    (b) Does Facebook have any training specifically aimed at 
discouraging political, ideological, or partisan bias in hiring, 
retention, promotion, and firing of its employees?

    (c) Does Facebook have any training specifically aimed at 
discouraging political, ideological, or partisan bias in the monitoring 
and supervision of content, users, or advertisements on each of its 
platforms?
    Answer. Our Community Standards are global and all reviewers use 
the same guidelines when making decisions.
    They undergo extensive training when they join and, thereafter, are 
regularly trained and tested with specific examples on how to uphold 
the Community Standards and take the correct action on a piece of 
content. This training includes when policies are clarified, or as they 
evolve.
    We seek to write actionable policies that clearly distinguish 
between violating and non-violating content and we seek to make the 
decision making process for reviewers as objective as possible.
    Our reviewers are not working in an empty room. There are quality 
control mechanisms as well as management on site to help or seek 
guidance from if needed. When a reviewer isn't clear on the action to 
take based on the Community Standards, they can pass the content 
decision to another team for review.
    We also audit the accuracy of reviewer decisions on an ongoing 
basis to coach them and follow up on improving, where errors are being 
made.
    When we're made aware of incorrect content removals, we review them 
with our Community Operations team so as to prevent similar mistakes in 
the future.
    We recently introduced the right to appeal our decisions on 
individual posts so users can ask for a second opinion when they think 
we've made a mistake. As a first step, we are launching appeals for 
posts that were removed for nudity/sexual activity, hate speech or 
graphic violence. We are working to extend this process further, by 
supporting more violation types, giving people the opportunity to 
provide more context that could help us make the right decision, and 
making appeals available not just for content that was taken down, but 
also for content that was reported and left up. We believe giving 
people a voice in the process is another essential component of 
building a fair system.

    Question 60. Please list the names of any third-party organizations 
or vendors that Facebook uses to facilitate its trainings.
    Answer. We have a comprehensive training program that includes many 
hours of live instructor-led training, as well as hands-on practice for 
all of our reviewers.
    All training materials are created in partnership with our policy 
team and in-market specialists or native speakers from the region.
    After starting, reviewers are regularly trained and tested with 
specific examples on how to uphold the Community Standards and take the 
correct action on a report. Additional training happens continuously 
and when policies are clarified, or as they evolve.

    Question 61. In the last five years, how many discrimination 
complaints has Facebook received from Christians? Please indicate how 
these complaints were resolved.
    Answer. Decisions about content are made based on whether content 
violates our Community Standards. A user's personal characteristics do 
not influence the decisions we make, and Facebook does not track the 
religious beliefs or other personal characteristics of complainants.

    Question 62. Yes or no: Does Facebook offer any compensation, 
amenities, trainings, or similar services to its employees on account 
of their race, sex, sexual orientation, or religious affiliation? If 
so, please list each and whether all other races, sexes, etc. are 
provided the same compensation, amenity, etc.
    Answer. See Response to Question 58.

    Question 63. In August 2017, Google fired James Damore for 
violating its code of conduct after Damore submitted an internal memo 
criticizing the company's hiring practices and arguing that the 
company's political bias created a negative work environment.
    (a) Yes or no: Does Facebook agree with Google's decision to fire 
James Damore?

    (b) Would an individual at Facebook have been fired for publishing 
a memorandum like Damore's? Assume no previous negative disciplinary 
history.

    (c) Does Facebook permit employees to believe that some portion of 
the career differences between men and women are the result of 
differing choices between the sexes?

        (i) Would a Facebook employee be disciplined for mentioning 
        that opinion in a conversation to a willing participant?

        (ii) Would a Facebook employee be disciplined for mentioning 
        that opinion on his or her Facebook account?

    (d) Does Facebook permit employees to criticize its ``diversity'' 
efforts as being racist against whites or sexist against men?

        (i) Would a Facebook employee be disciplined for mentioning 
        that opinion in a conversation to a willing participant?

        (ii) Would a Facebook employee be disciplined for mentioning 
        that opinion on his or her Facebook account?

    Answer. We try to run our company in a way where people can express 
different opinions internally. We are not in a position to comment on 
the personnel decisions of another company or to engage in speculation 
about how we might respond in particular hypothetical circumstances.

    Question 64. In October 2017, Prager University filed suit against 
Google and Youtube, alleging that the two companies illegally 
discriminated against Prager University because of its conservative 
political perspective. As evidence, Prager University pointed to the 
dozens of educational videos that Youtube either put in ``restricted 
mode'' or demonetized.
    (a) Yes or no: Does Facebook agree with YouTube/Google's decision 
to restrict the following Prager University video, and if so, why?

        (i) The World's Most Persecuted Minority: Christians?

        (ii) Israel's Legal Founding?

        (iii) Are the Police Racist?

        (iv) Why Did America Fight the Korean War?

        (v) What Should We Do About Guns?

        (vi) Why America Must Lead?

        (vii) The Most Important Question About Abortion?

    (b) Yes or no: Does Facebook agree with YouTube/Google's decision 
to demonetize the following Prager University video, and if so, why?

        (i) Are The Police Racist?

        (ii) Israel's Legal Founding

        (iii) The Most Important Question About Abortion?

        (iv) Who's More Pro-Choice: Europe or America?

        (v) Why Do People Become Islamic Extremists?

        (vi) Is the Death Penalty Ever Moral?

        (vii) Why Isn't Communism as Hated as Nazism?

        (viii) Radical Islam: The Most Dangerous Ideology?

        (ix) Is Islam a Religion of Peace?

    Answer. See Response to Question 27.

    Question 65. Recently, Jack Dorsey, Twitter's CEO, praised an 
article by two Democrats calling for a ``new civil war'' against the 
Republican Party, in which ``the entire Republican Party, and the 
entire conservative movement that has controlled it for the past four 
decades'' will be given a ``final takedown that will cast them out'' to 
the ``political wilderness'' ``for a generation or two.''
    (a) Does you agree with the premise of this article? It is located 
here: https://medium.com/s/state-of-the-future/the-great-lesson-of-
california-in-americas-new-civil
-war-e52e2861f30

    (b) Do you or Facebook believe it is appropriate for its platform 
or company to call for a ``new civil war?''

    (c) Do you or Facebook believe it is appropriate for its platform 
or company to call for an end to one of the Nation's two major 
political parties?

    (d) Do you or Facebook believe it is appropriate for its platform 
or company to call for an end to the conservative movement?

    (e) Do you or Facebook condemn Twitter for calling for an end to 
the Republican Party?

    (f) Do you or Facebook condemn Twitter for calling for an end to 
the conservative movement?

    (g) Do you or Facebook condemn Twitter for calling for a new 
American civil war?
    Answer. We are not in a position to comment on the decisions of 
another company or on another company's executive's statements about a 
news articles.
    We are committed to designing our products to give all people a 
voice and foster the free flow of ideas and culture. That said, when 
something crosses the line into hate speech, it has no place on 
Facebook, and we are committed to removing it from our platform any 
time we become aware of it.

    Question 66. Does Facebook collect information regarding its 
users':
    (a) Usage of non-Facebook apps?

    (b) E-mail?

    (c) Audio or ambient sound?

    (d) Telephone usage?

    (e) Text messaging?

    (f) iMessaging?

    (g) Physical location when the user is not using the Facebook app?

    (h) Spending?
    Answer. As explained in our Data Policy, we collect three basic 
categories of data about people:

        (1) data about things people do and share (and who they connect 
        with) on our services,

        (2) data about the devices people use to access our services, 
        and

        (3) data we receive from partners, including the websites and 
        apps that use our business tools.

    As far as the amount of data we collect about people, the answer 
depends on the person. People who have only recently signed up for 
Facebook have usually shared only a few things--such as name, contact 
information, age, and gender. Over time, as people use our products, we 
receive more data from them, and this data helps us provide more 
relevant content and services. That data will fall into the categories 
noted above, but the specific data we receive will, in large part, 
depend on how the person chooses to use Facebook. For example, some 
people use Facebook to share photos, so we receive and store photos for 
those people. Some people enjoy watching videos on Facebook; when they 
do, we receive information about the video they watched, and we can use 
that information to help show other videos in their News Feeds. Other 
people seldom or never watch videos, so we do not receive the same kind 
of information from them, and their News Feeds are likely to feature 
fewer videos.
    The data we have about people also depends on how they have used 
our controls. For example, people who share photos can easily delete 
those photos. The same is true of any other kind of content that people 
post on our services. Through Facebook's Activity Log tool, people can 
also control the information about their engagement--i.e., their likes, 
shares and comments--with other people's posts. The use of these 
controls of course affects the data we have about people.

    Question 67. Does Facebook give its users the opportunity to opt 
out of Facebook collecting its users' data while still using the 
service?
    Answer. The Ad Preferences tool on Facebook shows people the 
advertisers whose ads the user might be seeing because they visited the 
advertisers' sites or apps. The person can remove any of these 
advertisers to stop seeing their ads.
    In addition, the person can opt out of these types of ads 
entirely--so he or she never sees those ads on Facebook based on 
information we have received from other websites and apps.
    We've also announced plans to build Clear History, a feature that 
will enable people to see the websites and apps that send us 
information when they use them, delete this information from their 
accounts, and turn off our ability to store it associated with their 
accounts going forward.
    Apps and websites that use features such as the Like button or 
Facebook Analytics send us information to make their content and ads 
better. We also use this information to make user experience on 
Facebook better.
    If a user clears his or her history or uses the new setting, we'll 
remove identifying information so a history of the websites and apps 
the user used won't be associated with the user's account. We'll still 
provide apps and websites with aggregated analytics--for example, we 
can build reports when we're sent this information so we can tell 
developers if their apps are more popular with men or women in a 
certain age group. We can do this without storing the information in a 
way that's associated with the user's account, and as always, we don't 
tell advertisers who users are.
    It will take a few months to build Clear History. We'll work with 
privacy advocates, academics, policymakers and regulators to get their 
input on our approach, including how we plan to remove identifying 
information and the rare cases where we need information for security 
purposes. We've already started a series of roundtables in cities 
around the world, and heard specific demands for controls like these at 
a session we held at our headquarters. We're looking forward to doing 
more.

    Question 68. Yes or no: In preparation for the April 10, 2018 
hearing, did Facebook, employees of Facebook, or independent 
contractors hired by Facebook examine the personal Facebook pages of 
the U.S. Senators scheduled to take part in the hearing?
    (a) If so, please identify the Facebook pages visited and the 
information sought.

    (b) If so, please identify the individuals who sought such 
information and what information they obtained.

    (c) If so, please identify all individuals who possessed or 
reviewed that information.
    Answer. While Facebook employees regularly look at the public pages 
of members of Congress to track the issues that are important to them, 
we are confident that no employees accessed any private data on 
personal profiles to prepare for the hearing or the questions for the 
record.

    Question 69. Yes or no: In preparation for the April 10, 2018 
hearing, did Facebook, employees of Facebook, or independent 
contractors hired by Facebook examine the personal Facebook pages of 
U.S. Senators' family members?
    (a) If so, please identify the Facebook pages visited and the 
information sought.

    (b) If so, please identify the individuals who sought such 
information and what information they obtained.

    (c) If so, please identify all individuals who possessed or 
reviewed that information.
    Answer. See Response to Question 68.

    Question 70. Yes or no: In preparation for the April 10, 2018 
hearing, did Facebook, employees of Facebook, or independent 
contractors hired by Facebook examine the personal Facebook pages of 
any Senate employees?
    (a) If so, please identify the Facebook pages visited and the 
information sought.

    (b) If so, please identify the individuals who sought such 
information and what information they obtained.

    (c) If so, please identify all individuals who possessed or 
reviewed that information.
    Answer. See Response to Question 68.

    Question 71. Yes or no: In responding to these or any other 
questions for the record arising from the April 10, 2018 hearing, did 
Facebook, employees of Facebook, or independent contractors hired by 
Facebook examine the personal Facebook pages of the U.S. Senators 
scheduled to take part in the hearing?
    (a) If so, please identify the Facebook pages visited and the 
information sought.

    (b) If so, please identify the individuals who sought such 
information and what information they obtained.

    (c) If so, please identify all individuals who possessed or 
reviewed that information.
    Answer. See Response to Question 68.

    Question 72. Yes or no: In responding to these or any other 
questions for the record arising from the April 10, 2018 hearing, did 
Facebook, employees of Facebook, or independent contractors hired by 
Facebook examine the personal Facebook pages of U.S. Senators' family 
members?
    (a) If so, please identify the Facebook pages visited and the 
information sought.

    (b) If so, please identify the individuals who sought such 
information and what information they obtained.

    (c) If so, please identify all individuals who possessed or 
reviewed that information.
    Answer. See Response to Question 68.

    Question 73. Yes or no: In responding to these or any other 
questions for the record arising from the April 10, 2018 hearing, did 
Facebook, employees of Facebook, or independent contractors hired by 
Facebook examine the personal Facebook pages of U.S. Senate employees?
    (a) If so, please identify the Facebook pages visited and the 
information sought.

    (b) If so, please identify the individuals who sought such 
information and what information they obtained.

    (c) If so, please identify all individuals who possessed or 
reviewed that information.
    Answer. See Response to Question 68.

    Question 74. Yes or no: Does Facebook collect data on individuals 
who are not registered Facebook users?
    (a) If so, does Facebook use this data as part of the advertising 
products it sells?

    (b) If so, does Facebook share or has Facebook ever shared this 
data with third parties?
    Answer. Facebook does not create profiles for people who do not 
hold Facebook accounts.
    When people visit apps or websites that feature our technologies--
like the Facebook Like or Comment button--our servers automatically log 
(i) standard browser or app records of the fact that a particular 
device or user visited the website or app (this connection to 
Facebook's servers occurs automatically when a person visits a website 
or app that contains our technologies, such as a Like button, and is an 
inherent function of Internet design); and (ii) any additional 
information the publisher of the app or website chooses to share with 
Facebook about the person's activities on that site (such as the fact 
that a purchase was made on the site). This is a standard feature of 
the Internet, and most websites and apps share this same information 
with multiple different third-parties whenever people visit their 
website or app. For example, the Senate Commerce Committee's website 
shares information with Google and its affiliate DoubleClick and with 
the analytics company Webtrends. This means that, when a person visits 
the Committee's website, it sends browser information about their visit 
to each one of those third parties. More information about how this 
works is available at https://newsroom.fb.com/news/2018/04/data-off-
facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product, or use specific features like our Like button--
but without providing any information about a specific person. We do 
not create profiles for non-Facebook users, nor do we use browser and 
app logs for non-Facebook users to show targeted ads from our 
advertisers to them or otherwise seek to personalize the content they 
see. However, we may take the opportunity to show a general ad that is 
unrelated to the attributes of the person or an ad encouraging the non-
user to sign up for Facebook.

    Question 75. To the extent that Facebook collects and uses data 
from individuals who are not registered Facebook users, has Facebook 
gained consent from those individuals to collect and use their personal 
data?
    Answer. Facebook does not create profiles about or track web or app 
browsing history for people who are not registered users of Facebook.

    Question 76. To the extent that Facebook collects and uses data 
from individuals who are registered Facebook users, has Facebook 
obtained those individuals' informed consent on an opt-in basis prior 
to the acquisition of that data?
    (a) If so, please provide the basis for concluding that data was 
acquired on an informed consent basis.

    (b) If so, please provide the basis for concluding that users 
opted-in to Facebook's collection and commercialization of their data.
    Answer. All users must expressly consent to Facebook's Terms and 
Data Policy when registering for Facebook. The Data Policy explains the 
kinds of information we collect, how we use this information, how we 
share this information, and how users can manage and delete 
information. After joining Facebook, people are presented with the 
opportunity to consent to additional data collection and uses, such as 
the use of location or the users' address book on their mobile device.
    In response to your specific questions, depending on which Services 
a person uses, we collect different kinds of information from or about 
them. This is described in our Data Policy:
    Things users and others do and provide.

  <bullet> Information and content users provide. We collect the 
        content, communications and other information users provide 
        when they use our Products, including when they sign up for an 
        account, create or share content, and message or communicate 
        with others. This can include information in or about the 
        content they provide (like metadata), such as the location of a 
        photo or the date a file was created. It can also include what 
        they see through features we provide, such as our camera, so 
        they can do things like suggest masks and filters that users 
        might like, or give them tips on using camera formats. Our 
        systems automatically process content and communications users 
        and others provide to analyze context and what's in them for 
        the purposes described below.

    <ctr-circle> Data with special protections. Users can choose to 
            provide information in their Facebook profile fields or 
            Life Events about their religious views, political views, 
            who they are ``interested in,'' or their health. This and 
            other information (such as racial or ethnic origin, 
            philosophical beliefs or trade union membership) could be 
            subject to special protections under the laws of a user's 
            country.

  <bullet> Networks and connections. We collect information about the 
        people, Pages, accounts, hashtags, and groups users are 
        connected to and how users interact with them across our 
        Products, such as people users communicate with the most or 
        groups they are part of. We also collect contact information if 
        users choose to upload, sync or import it from a device (such 
        as an address book or call log or SMS log history), which we 
        use for things like helping users and others find people they 
        may know and for the other purposes listed below.

  <bullet> Users' usage. We collect information about how users use our 
        Products, such as the types of content they view or engage 
        with; the features they use; the actions they take; the people 
        or accounts they interact with; and the time, frequency and 
        duration of their activities. For example, we log when users 
        are using and have last used our Products, and what posts, 
        videos and other content users view on our Products. We also 
        collect information about how users use features like our 
        camera.

  <bullet> Information about transactions made on our Products. If 
        users use our Products for purchases or other financial 
        transactions (such as when they make a purchase in a game or 
        make a donation), we collect information about the purchase or 
        transaction. This includes payment information, such as their 
        credit or debit card number and other card information; other 
        account and authentication information; and billing, shipping 
        and contact details.

  <bullet> Things others do and information they provide about users. 
        We also receive and analyze content, communications and 
        information that other people provide when they use our 
        Products. This can include information about users, such as 
        when others share or comment on a photo of them, send a message 
        to them, or upload, sync or import their contact information.

Device Information
  <bullet> As described below, we collect information from and about 
        the computers, phones, connected TVs and other web-connected 
        devices users use that integrate with our Products, and we 
        combine this information across different devices users use. 
        For example, we use information collected about users' use of 
        our Products on their phone to better personalize the content 
        (including ads) or features they see when they use our Products 
        on another device, such as their laptop or tablet, or to 
        measure whether they took an action in response to an ad we 
        showed them on their phone on a different device.

  <bullet> Information we obtain from these devices includes:

    <ctr-circle> Device attributes: information such as the operating 
            system, hardware and software versions, battery level, 
            signal strength, available storage space, browser type, app 
            and file names and types, and plugins.

    <ctr-circle> Device operations: information about operations and 
            behaviors performed on the device, such as whether a window 
            is foregrounded or backgrounded, or mouse movements (which 
            can help distinguish humans from bots).

    <ctr-circle> Identifiers: unique identifiers, device IDs, and other 
            identifiers, such as from games, apps or accounts users 
            use, and Family Device IDs (or other identifiers unique to 
            Facebook Company Products associated with the same device 
            or account).

    <ctr-circle> Device signals: Bluetooth signals, and information 
            about nearby Wi-Fi access points, beacons, and cell towers.

    <ctr-circle> Data from device settings: information users allow us 
            to receive through device settings they turn on, such as 
            access to their GPS location, camera, or photos.

    <ctr-circle> Network and connections: information such as the name 
            of users' mobile operator or ISP, language, time zone, 
            mobile phone number, IP address, connection speed and, in 
            some cases, information about other devices that are nearby 
            or on their network, so we can do things like help users 
            stream a video from their phone to their TV.

    <ctr-circle> Cookie data: data from cookies stored on a user's 
            device, including cookie IDs and settings. Learn more about 
            how we use cookies in the Facebook Cookies Policy (https://
            www.facebook.com/policies/cookies/) and Instagram Cookies 
            Policy (https://www.instagram.com/legal/cookies/)
Information from partners.
  <bullet> Advertisers, app developers, and publishers can send us 
        information through Facebook Business Tools they use, including 
        our social plug-ins (such as the Like button), Facebook Login, 
        our APIs and SDKs, or the Facebook pixel. These partners 
        provide information about users' activities off Facebook--
        including information about their device, websites they visit, 
        purchases they make, the ads they see, and how they use their 
        services--whether or not they have a Facebook account or are 
        logged into Facebook. For example, a game developer could use 
        our API to tell us what games a user plays, or a business could 
        tell us about a purchase a user made in its store. We also 
        receive information about users' online and offline actions and 
        purchases from third-party data providers who have the rights 
        to provide us with users' information.

  <bullet> Partners receive users' data when users visit or use their 
        services or through third parties they work with. We require 
        each of these partners to have lawful rights to collect, use 
        and share users' data before providing any data to us.

    Question 77. Yes or no: Does Facebook give non-Facebook users a 
reasonable opportunity to learn what information has been collected 
about them by Facebook? If yes, please describe how.
    Answer. Yes. If a person doesn't have a Facebook account but 
believes Facebook may have information about them, they can contact us 
to request a copy of their information. A contact form is available at 
https://www.facebook.com/help/contact/180237885820953.
    However, Facebook does not create profiles about or track web or 
app browser behavior of non-users.

    Question 78. During the April 10, 2018 joint committee hearing, you 
stated, ``Every piece of content that you share on Facebook, you own 
and you have complete control over who sees it and--and how you share 
it, and you can remove it at any time.'' To corroborate that statement, 
you cited multiple mechanisms provided by Facebook that allow users to 
locate, edit, download, and delete information collected about them by 
Facebook.
    (a) Yes or no: Does Facebook offer non-Facebook users the same 
opportunities to control and edit any data collected about them by 
Facebook?
    Answer. A user owns the information they share on Facebook. This 
means they decide what they share and who they share it with on 
Facebook, and they can change their mind. We believe everyone deserves 
good privacy controls. We require websites and apps who use our tools 
to tell users they're collecting and sharing their information with us, 
and to get users' permission to do so. However, non-Facebook users 
cannot post content on Facebook. Accordingly, there are not 
corresponding controls for non-Facebook users.

    (b) Facebook's ``Privacy Basics'' on deleting posts states ``Hiding 
lets you keep your post but no one else will be able to see it when 
they view your Timeline. Note that it might still show up in search 
results and other places on Facebook.''

    (i) How does an individual have ``complete control'' over their 
data if a post that has been hidden still shows up ``in search results 
and other places on Facebook?''
    Answer. A user can delete any post they have made. If they do so, 
it will not appear in search results and in other places on Facebook. 
The language you refer to appears in a feature that allows people to 
hide--not delete--content from their personal timeline. That is, a 
person can choose to delete a post that they have made from Facebook 
entirely, or they can choose to hide a post from their timeline even 
though it may be visible in other places on Facebook.

    (ii) Does Facebook give users an opportunity delete their content 
or information from these ``other places'' or search results?
    Answer. Yes. See Response to Question 78(b)(i).

    (iii) Does Facebook give non-users an opportunity to delete content 
containing or relating to them from these ``other places'' or search 
results?
    Answer. Since this passage refers to content created by Facebook 
users and whether it's visible on their timeline, this does not apply 
to non-users. See the responses to the sub-questions above and below.

    (c) If a Facebook user deletes a post will it show up in search 
results and other places on Facebook? If so, please describe the other 
places on Facebook in which a deleted post may appear.
    Answer. In general, when a user deletes their account, we delete 
things they have posted, such as their photos and status updates, and 
they won't be able to recover that information later. (Information that 
others have shared about them isn't part of their account and won't be 
deleted.)
    There are some limited exceptions to these policies: For instance, 
information can be accessed and preserved for an extended period when 
it is the subject of a legal request or obligation, governmental 
investigation, or investigations of possible violations of our terms or 
policies, or otherwise to prevent harm. We also retain information from 
accounts disabled for terms violations for at least a year to prevent 
repeat abuse or other term violations.

    (d) If a Facebook user deletes his account, will any of his data 
show up in search results and other places on Facebook?
    Answer. See Response to Question 78(c).

    (i) Will Facebook retain any of his data for any purpose? If so, 
please describe what data and for what purposes.
    Answer. See Response to Question 78(c).

    Question 79. Yes or no: does Facebook employ facial-recognition 
technology?
    (a) If so, does Facebook collect user data using facial-recognition 
technology?

    (b) If so, does Facebook collect data on individuals who are not 
registered Facebook users using facial-recognition technology?

    (c) If yes, does Facebook allow third-parties access to its facial-
recognition technology or related information obtained as a result of 
the technology?

    (d) If yes, does Facebook allow government entities access to its 
facial recognition technology and/or the information obtained as a 
result of the technology?

    (e) To the extent that Facebook uses facial-recognition technology, 
what policies and procedures does Facebook have to safeguard 
information and data collected using that technology?

    (f) Does Facebook offer individuals, whether registered users or 
not, any opportunity to not be subject to facial-recognition technology 
or to have data collected using facial-recognition technology deleted?

    (g) Yes or no: Will Facebook commit to not using its facial-
recognition technology to assemble data on individuals who have never 
consented to being part of Facebook?
    Answer. Facebook uses facial recognition technology to provide 
people with products and features that enhance online experiences for 
Facebook users while giving them control over this technology. 
Facebook's facial recognition technology helps people tag their friends 
in photos; gives people an easier and faster way to privately share 
their photos with friends; helps people with visual impairments by 
generating descriptions of photos that people using screen readers can 
hear as they browse Facebook; lets people know when a photo or video of 
them has been uploaded to Facebook, even if they are not tagged; and 
helps prevent people from impersonating other Facebook users.
    Facial recognition technology uses machine-learning algorithms to 
analyze the pixels in photos and videos in which a user is tagged, and 
the photo used by the person as his or her profile picture, and 
generates a unique number called a template. When a photo or video is 
uploaded to Facebook, Facebook uses the template to attempt to identify 
someone by determining whether there are any faces in that content, and 
analyzing the portion of the image in which the face appears to compare 
it against certain Facebook users depending on the purpose for which 
facial recognition is being performed.
    Facebook has not shared and does not have plans to share or make 
available to any third party its facial recognition templates. 
Moreover, these templates do not provide meaningful information on 
their own; they can be used to identify a person only in conjunction 
with Facebook's software. They could not be reverse-engineered to 
recreate someone's face.
    Facebook designed its facial-recognition technology and the 
applications that use it with privacy considerations in mind and 
incorporated various safeguards and controls that protect both (1) 
users' ability to control the collection, use, and disclosure of their 
personal information, and (2) the security of that personal 
information.
    Facebook gives users control over whether Facebook uses facial 
recognition to recognize them in photos and videos. That control is 
exercised through users' privacy settings. If a user chooses to turn 
facial recognition off, Facebook does not create a template for that 
person or deletes any template it has previously created. Facebook will 
then be unable to recognize that person in any photos or videos that 
are uploaded to the service. Facebook also deletes templates of people 
who delete their Facebook accounts. Additionally, Facebook does not 
maintain templates for users who have no photos tagged of themselves 
and do not have a profile photo that is capable of being used to 
generate a face signature or template (e.g., where a user has no 
profile photo, where a user's profile photo does not contain a human 
face, or where a user's profile photo contains multiple untagged 
faces).
    We inform people about our use of facial-recognition technology 
through the Data Policy, Help Center, posts on Facebook, and direct 
user notifications. Facebook users are told that they can opt out of 
facial recognition at any time--in which case Facebook will delete 
their template and will no longer use facial recognition to identify 
them.
    In creating facial recognition templates, Facebook uses only data 
that people have voluntarily provided to Facebook: the photos and 
videos that people have voluntarily uploaded to Facebook (including 
public profile pictures) and the tags people have applied to those 
photos and videos. Facebook does not use facial recognition to identify 
someone to a stranger.

    Question 80. Yes or no: does Facebook collect users' audio or 
visual information for any reason whatsoever, or otherwise activate, 
monitor, or capture data from a microphone or camera from a user's 
phone without the user's contemporaneous knowledge and express, 
contemporaneous consent? If so, please list each and every instance 
under which Facebook does so.
    Answer. No, Facebook does not engage in these practices or capture 
data from a microphone or camera without consent. Of course, we do 
allow people to take videos on their devices and share those on our 
platform.

    Question 81. Will Facebook commit to not using its platform to 
gather such audio or visual information surreptitiously?
    Answer. See Response to Question 80.

    Question 82. During the April 11, 2018 House Energy and Commerce 
Hearing, you stated, ``there may be specific things about how you use 
Facebook, even if you're not logged in, that we keep track of, to make 
sure that people aren't abusing the systems.'' You further stated that 
``in general, we collect data on people who have not signed up for 
Facebook for security purposes.''
    (a) What categories of data does Facebook collect about registered 
users' activity on websites and mobile applications other than 
Facebook?

    (b) What categories of data does Facebook collect about individuals 
who are not registered Facebook users and their activity on websites 
and mobile applications other than Facebook?

    (c) To the extent Facebook collects such data, does Facebook sell 
or provide this data to third parties?

    (d) To the extent Facebook collects such data, has Facebook gained 
consent from those individuals to collect and use their personal data?

    (e) To the extent Facebook gathers such data, what opportunity does 
Facebook provide to individuals not using Facebook to know, correct, or 
delete any information Facebook has gathered and retained about them?
    Answer. See Response to Question 74.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings. We do not sell or share this information with third-parties.

    Question 83. Most of your answers to the questions you received on 
April 10, 2018, and likely most of the answers to these questions for 
the record, will depend on information that Facebook alone possesses.
    (a) Why is/are Facebook's content-suggesting algorithm(s) secret?

    (b) Why are Facebook's editorial decisions secret?
    Answer. See Response to Question 74.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings. We do not sell or share this information with third-parties.

    Question 84. Numerous Americans receive all or a significant 
portion of their news from Facebook, which, in turn, suggests that news 
to them based on an algorithm that determines appropriate content based 
on criteria known only to Facebook.
    (a) To what extent will Facebook make public the criteria on which 
this algorithm relies?

    (b) To what extent will Facebook make public any changes that it 
makes to this or similar algorithms?
    Answer. Facebook is a distribution platform that reflects the 
conversations already taking place in society. We want Facebook to be a 
place where people can discover more news, information, and 
perspectives, and we are working to build products that help.
    As to the questions regarding ranking and algorithmic changes, see 
Response to Question 47.

    Question 85. Facebook conducts numerous social experiments on its 
users, examining everything from the effects of Facebook on voter 
turnout to the effects of Facebook on the mood of its users.
    (a) Will Facebook commit to not experimenting on its users without 
express, informed consent in advance?

    (b) Will Facebook commit to making the results of any such 
experiments known publicly?

    (c) Will Facebook commit to not experimenting on human subjects at 
all?
    Answer. Facebook does research in a variety of fields, from systems 
infrastructure to user experience to artificial intelligence to social 
science. We do this work to understand what we should build and how we 
should build it, with the goal of improving the products and services 
we make available each day. We're committed to doing research to make 
Facebook better, but we want to do it in the most responsible way.
    In October 2014, we announced a new framework that covers both 
internal work and research that might be published:

  <bullet> Guidelines: we've given researchers clearer guidelines. If 
        proposed work is focused on studying particular groups or 
        populations (such as people of a certain age) or if it relates 
        to content that may be considered deeply personal (such as 
        emotions) it will go through an enhanced review process before 
        research can begin. The guidelines also require further review 
        if the work involves a collaboration with someone in the 
        academic community.

  <bullet> Review: we've created a panel including our most senior 
        subject-area researchers, along with people from our 
        engineering, research, legal, privacy and policy teams, that 
        will review projects falling within these guidelines. This is 
        in addition to our existing privacy cross-functional review for 
        products and research.

  <bullet> Training: we've incorporated education on our research 
        practices into Facebook's six-week training program, called 
        bootcamp, that new engineers go through, as well as training 
        for others doing research. We'll also include a section on 
        research in the annual privacy and security training that is 
        required of everyone at Facebook.

  <bullet> Research website: our published academic research is now 
        available at a single location (https://research.facebook.com/) 
        and will be updated regularly.

    We believe in research because it helps us build a better Facebook. 
Like most companies today, our products are built based on extensive 
research, experimentation and testing.
    It's important to engage with the academic community and publish in 
peer-reviewed journals, to share technology inventions and because 
online services such as Facebook can help us understand more about how 
the world works. We want to do this research in a way that honors the 
trust users put in us by using Facebook every day. We will continue to 
learn and improve as we work toward this goal.

    Question 86. What, if any, procedures does Facebook employ to 
verify the identities of individuals who purchase or employ data from 
Facebook?
    Answer. Facebook does not sell people's information to anyone, and 
we never will. We also impose strict restrictions on how our partners 
can use and disclose the data we provide.
    Our Data Policy makes clear the circumstances in which we work with 
third-party partners who help us provide and improve our Products or 
who use Facebook Business Tools to grow their businesses, which makes 
it possible to operate our companies and provide free services to 
people around the world.

    Question 87. Research and reporting by NYU Professor of Marketing 
Scott Galloway suggests that, combined, Facebook and Google (parent 
company now known as Alphabet) are together worth approximately $1.3 
trillion. He concludes that this figure exceeds the world's top five 
advertising agencies (WPP, Omnicom, Publicis, IPG, and Dentsu) with 
five major media companies (Disney, Time Warner, 21st Century Fox, CBS, 
and Viacom) and still need to add five major communications companies 
(AT&T, Verizon, Comcast, Charter, and Dish) approach 90 percent of 
Facebook and Google's combined worth.
    (a) What business or product lines does Facebook consider itself to 
be in?

        (i) On what basis does Facebook make that determination?

        (ii) Who does Facebook consider its major competitors in each 
        of these business or product lines?

    (b) Of those business or product lines, what market share does 
Facebook believe that it has?

    (c) What other entities provide all of the services that Facebook 
does in one place or platform, if any?

    (d) What other entities provide any of the services that Facebook 
does?

    (e) What is the relevant product market for Facebook (the 
platform)?

    (f) What are the relevant product markets for each of Facebook's 
products?

    (g) What is the relevant geographic market for Facebook (the 
platform)?

    (h) What is the relevant geographic market for each of Facebook's 
products?

    (i) Given these relevant geographic and product markets, what is 
Facebook's market share in each distinct market in which it operates?

    (j) What procedures, tools, programs, or calculations does Facebook 
use to ascertain its market position relevant to its five largest 
competitors overall (if five exist)?

    (k) What procedures, tools, programs, or calculations does Facebook 
use to ascertain its market position relevant to its five largest 
competitors in each product market (if five exist)?
    Answer. In Silicon Valley and around the world, new social apps are 
emerging all the time. The average American uses eight different apps 
to communicate with their friends and stay in touch with people. There 
is a lot of choice, innovation, and activity in this space, with new 
competitors arising all the time. Facebook's top priority and core 
service is to build useful and engaging products that enable people to 
connect, discover and share through mobile devices and personal 
computers. Given its broad product offerings, Facebook faces numerous 
competitors, competing to attract, engage, and retain users, to attract 
and retain marketers, and to attract and retain developers who build 
compelling mobile and web applications. For instance, if a user wants 
to share a photo or video, they can choose between Facebook, 
DailyMotion, Snapchat, YouTube, Flickr, Twitter, Vimeo, Google Photos, 
and Pinterest, among many other services. Similarly, if a user is 
looking to message someone, just to name a few, there's Apple's 
iMessage, Telegram, Skype, Line, Viber, WeChat, Snapchat, and 
LinkedIn--as well as the traditional text messaging services their 
mobile phone carrier provides. Equally, companies also have more 
options than ever when it comes to advertising--from billboards, print 
and broadcast, to newer platforms like Facebook, Spotify, Twitter, 
Google, YouTube, Amazon or Snapchat. Facebook represents a small part 
(in fact, just 6 percent) of this $650 billion global advertising 
ecosystem and much of that has been achieved by helping small 
businesses--many of whom could never have previously afforded newspaper 
or TV ads--to cost-effectively reach a wider audience.

    Question 88. As you indicated in your testimony, Facebook's 
business model relies on advertising to individuals, typically through 
tailored advertisements. This means that Facebook has monetized access 
to the information that those individuals have published on Facebook.
    (a) To Facebook's best approximation, what is the total value of 
all user information that Facebook has acquired or to which Facebook 
has access?
    Answer. Facebook generates substantially all of its revenue from 
selling advertising placements to third parties. Our total revenue and 
the percentage of which comes from third-party ads is below. This 
information is from our SEC filings.

        2017: 40,653,000,000 (98 percent from third party ads)

        2016: 27,638,000,000 (97 percent from third party ads)

        2015: 17,928,000,000 (95 percent from third party ads)

        2014: 12,466,000,000 (92 percent from third party ads)

        2013: 7,872,000,000 (89 percent from third party ads)

        2012: 5,089,000,000 (84 percent from third party ads)

        2011: 3,711,000,000 (85 percent from third party ads)

        2010: 1,974,000,000 (95 percent from third party ads)

        2009: 777,000,000

        2008: 272,000,000

    (b) How does Facebook categorize individual pieces of information 
for purposes of monetizing that information? (For example, Facebook 
acknowledges that if it is approached by a company selling ski 
equipment, it will target ads to individuals who have expressed an 
interest in skiing. We want to know in what ways Facebook organizes 
this information.)
    Answer. As explained in our Data Policy, we collect three basic 
categories of data about people: (1) data about things people do and 
share (and who they connect with) on our services, (2) data about the 
devices people use to access our services, and (3) data we receive from 
partners, including the websites and apps that use our business tools. 
Our Data Policy provides more detail about each of the three 
categories. Any person can see each of the specific interests we 
maintain about them for advertising by visiting Ads Preferences, which 
lets people see what interests we use to choose ads for them--and to 
edit or delete these interests.
    We use data from each of the categories described above to obtain 
these interests and to personalize every aspect of our services, which 
is the core value we offer and the thing that makes Facebook services 
unique from other online experiences. This includes selecting and 
ranking relevant content, including ads, posts, Page recommendations, 
to cite but a few examples.
    For example, we use the data people provide about their age and 
gender to help advertisers show ads based on those demographics but 
also to customize the pronouns on our site and deliver relevant 
experiences to those users.
    We use data about things people do on Facebook, such as the Pages 
they like, to associate ``interests'' with their accounts, so we can 
rank posts relating to those interests higher in NewsFeed, for example, 
or enable advertisers to reach audiences--i.e., groups of people--that 
share those interests. For example, if a person has liked Pages about 
baseball, we might associate them with interests called ``baseball'' or 
``sports.''
    We use data from devices (such as location data) to help 
advertisers reach people in particular areas. For example, if people 
have shared their device locations with Facebook or checked into a 
specific restaurant, we can show them organic posts from friends who 
have been in that location or we can show them ads from an advertiser 
that wants to promote its services in their area or from the 
restaurant.
    We also help advertisers reach people who have given the advertiser 
their contact information or who have used the advertiser's website or 
app. For example, advertisers can send us a hashed list of e-mail 
addresses of people they would like to reach on Facebook. If we have 
matching e-mail addresses, we can show those people ads from that 
advertiser (although we cannot see the e-mail addresses which are sent 
to us in hashed form, and these are deleted as soon as we complete the 
match).
    Again, for people who are new to Facebook, we may have minimal data 
that we can use to personalize their experience, including their 
NewsFeed, their recommendations and the content (organic and sponsored) 
that they see. For people who have used our services for longer, we 
likely have more data, but the amount of data will depend on the nature 
of that use and how they have used our controls.
    As noted above, in addition to general controls--such as Activity 
Log--we provide controls that specifically govern the use of data for 
ads. Through Ad Preferences, people see and control things like: (1) 
their ``interests,'' which are keywords associated with a person based 
on activities such liking Pages and clicking ads; (2) their 
``behaviors'' (which we also call ``categories''), which generally 
reflect how, when and where they connect to Facebook; and (3) the 
advertisers that are currently showing them ads based on the person's 
contact information, based on the person's previous use of the 
advertiser's website or app, or based on a visit to the advertiser's 
store. People also can choose whether we use information about their 
activities on websites and apps off of Facebook to show them ads 
through Facebook, and whether we can use their Facebook advertising 
interests to show them ads off of Facebook. People's use of these 
controls will, of course, affect the data we use to show them ads.

    (c) What types of advertisements does Facebook categorically 
prohibit?
    Answer. Section 4 of our Advertising Policies list the types of ads 
that we categorically prohibit. These include ads that violate 
Community Standards, ads for illegal products and services, ads with 
adult content, ads that are misleading or false, ads that include 
profanity, and many more.

    (d) What external controls restrict how Facebook monetizes, sells, 
rents, or otherwise commercializes an individual's information? Please 
include (separately) any laws that Facebook views as applicable, any 
injunctions presently binding Facebook, any regulations directing how 
Facebook may monetize information, and any publicly available, 
independent audits of how Facebook monetizes information.
    Answer. Facebook complies with all applicable laws. In addition, we 
adhere to the commitments set forth in our Data Policy, which describes 
how we collect and use data.

    (e) What internal controls restrict how Facebook monetizes, sells, 
rents, or otherwise commercializes an individual's information? Please 
include (separately) any internal policies, statements of ethics or 
principles, directives, guidelines, or prohibitions that Facebook 
routinely applies in determining whether to use an individual's 
personal information for commercial gain.
    Answer. See Response to previous question.

    Question 89. When an individual chooses to ``lock down'' or 
otherwise publicly conceal his Facebook profile, does Facebook:
    (a) Continue to use that individual's private information for 
commercial gain? (This includes aggregating data as well as targeting 
advertisements at that individual.)

    (b) Continue to retain that individual's private information for 
its own archives or records?
    Answer. When people post on Facebook--whether in a status update or 
by adding information to their profiles--the ability to input the 
information is generally accompanied by an audience selector. This 
audience selector allows the person to choose who will see that piece 
of information on Facebook--whether they want to make the information 
public, share it with friends, or keep it for ``Only Me.'' The tool 
remembers the audience a user shared with the last time they posted 
something and uses the same audience when the user shares again unless 
they change it. This tool appears in multiple places, such as privacy 
shortcuts and privacy settings. When a person makes a change to the 
audience selector tool in one place, the change updates the tool 
everywhere it appears. The audience selector also appears alongside 
things a user has already shared, so it's clear who can see each post. 
After a person shares a post, they have the option to change who it is 
shared with.
    The audience with which someone chooses to share their information 
is independent of whether we use that information to personalize the 
ads and other content we show them. Specifically, our Data Policy 
explains that we may use any information that people share on Facebook 
``to deliver our Products, including to personalize features and 
content (including your News Feed, Instagram Feed, Instagram Stories 
and ads).'' However, people can use our Ad Preferences tool to see the 
list of interests that we use to personalize their advertising. This 
means that, for example, a person who is interested in cars can 
continue to share that interest with their friends but tell us not to 
assign them an interest in ads for ad targeting purposes.
    Likewise, the audience of a post does not determine whether a post 
is retained. Someone can choose to share a post with ``Only Me'' 
(meaning that they don't want anyone to see it but want to retain it in 
their Facebook account). They may also choose to delete the information 
entirely. When people choose to delete something they have shared on 
Facebook, we remove it from the site. In most cases, this information 
is permanently deleted from our servers; however, some things can only 
be deleted when a user permanently deletes their account.

    Question 90. What are Facebook's total advertising revenues for 
each of the calendar years 2001 to 2018?
    Answer. Our total revenue and the percentage of which comes from 
third-party ads is below. This information is from our SEC filings.

        2017: 40,653,000,000 (98 percent from third party ads)

        2016: 27,638,000,000 (97 percent from third party ads)

        2015: 17,928,000,000 (95 percent from third party ads)

        2014: 12,466,000,000 (92 percent from third party ads)

        2013: 7,872,000,000 (89 percent from third party ads)

        2012: 5,089,000,000 (84 percent from third party ads)

        2011: 3,711,000,000 (85 percent from third party ads)

        2010: 1,974,000,000 (95 percent from third party ads)

        2009: 777,000,000

        2008: 272,000,000

    (a) What are Facebook's online advertising revenues for each of the 
calendar years 2001 to 2018?

    (b) What are Facebook's five largest competitors for online 
advertising in each year from 2001 to 2018?

        (i) What were each of those competitors' advertising revenues 
        through each of those years?

        (ii) How many of Facebook's executive staff previously worked 
        at each of those entities?

    Answer. We expect that our competitors make their numbers available 
in their SEC filings. And, like many industries across the private 
sector, many people may work in multiple technology companies 
throughout the course of their careers.

    Question 91. Regardless of place of incorporation, does Facebook 
consider itself an American company?
    Answer. Yes, we're an American-based company where ninety percent 
of our community are outside the U.S.

    Question 92. When Facebook makes policy decisions, are American 
citizens the company's top priority? If not, what is the company's top 
priority when it comes to policy decisions?
    Answer. We are proud to be a U.S.-based company that serves 
billions of people around the world. While the majority of our 
employees are located here in the United States, more than 80 percent 
of the people who use Facebook are outside this country. We consider 
the needs of all of our users when making policy decisions. Of course, 
with headquarters in the U.S. and Ireland, we have particularly strong 
relationships with policy makers in those regions. We regularly engage 
with policy makers around the world, however, and work to take account 
of regional policy concerns as we build our products and policies for a 
global user base.

    Question 93. Facebook, WhatsApp, and Instagram have all reportedly 
been blocked or partially blocked from the People's Republic of China 
(PRC) since 2009.
    (a) Please describe the extent to which these services may be 
accessed from within the territory of the PRC, including Hong Kong and 
Macau, and describing in detail any geographical limits or limits on 
the available content.
    Answer. Facebook, WhatsApp, and Instagram are available in Hong 
Kong and Macau. Facebook and Instagram are blocked in Mainland China. 
However, these can be accessed by people in Mainland China who employ 
VPNs. WhatsApp is typically available in Mainland China although we 
notice availability is often restricted around important events.

    (b) On what basis does Facebook evaluate whether to honor a foreign 
government's request to block specific content?
    Answer. When something on Facebook or Instagram is reported to us 
as violating local law, but doesn't go against our Community Standards, 
we may restrict the content's availability only in the country where it 
is alleged to be illegal after careful legal review. We receive reports 
from governments and courts, as well from non-government entities such 
as members of the Facebook community and NGOs.

    (c) How does Facebook determine whether to honor a foreign 
government's request to block specific content or users?
    Answer. See Response to previous question.

    (d) Listed by country, what percentage of requests to block 
specific content (or users) from foreign governments does Facebook 
honor in whole or part?
    Answer. This information is available here: https://
transparency.facebook.com/content-restrictions.

    (e) How does Facebook determine whether to honor the U.S. 
Government's request to block specific content or users?
    Answer. Our Transparency Report contains data on restrictions we 
place on content that does not violate community standards but that is 
alleged to violate local law. We do not have any such reports for the 
United States.

    (f) What percentage of requests to block specific content (or 
users) from the U.S. Government does Facebook honor in whole or part?
    Answer. See Response to previous question.

    Question 94. Yes or no: Has Facebook made any alterations, 
modifications, or changes to the encryption security of WhatsApp in 
response to or as a result of the PRC government or any of its agencies 
or in order to comply with PRC law?
    Answer. No.

    (a) If so, what changes has Facebook made to the encryption 
security?

    (b) Does Facebook program in ``back doors'' or other mechanisms to 
decrypt or otherwise decode encrypted information at a government's 
request?
    Answer. No.

        (i) If so, under what circumstances does Facebook decrypt such 
        data?

        (ii) If so, on what platforms does Facebook have such 
        protocols?

    (c) Does Facebook make WhatsApp or Facebook information available 
to the PRC government on a searchable basis?
    Answer. No.

    Question 95. Since 2014, the PRC government has held a World 
Internet Conference. Charles Smith, the co-founder of the non-profit 
censorship monitoring website GreatFire, described foreign guests of 
the Conference as ``complicit actors in the Chinese censorship regime 
[that] are lending legitimacy to Lu Wei, the Cyberspace Administration 
of China and their heavy-handed approach to Internet governance. They 
are, in effect, helping to put all Chinese who stand for their 
constitutional right to free speech behind bars.''
    (a) How many Facebook employees have attended the PRC's World 
Internet Conference?

    (b) Have any Facebook employees ever participated on any panels or 
advisory committees that are held or have been established by the World 
Internet Conference?
    Answer. There have been four World Internet Conferences. Several 
Facebook employees have attended one or more of these four conferences.

    (i) If so, please list the employees and the panels or high-level 
advisory committees they have participated on.
    Answer. One Facebook representative, Vaughan Smith, has 
participated in World Internet Conference panels and keynotes alongside 
representatives of other leading U.S. technology companies, for example 
Tim Cook and Sundar Pichai. No employees participated in advisory 
committees. Mr. Smith has provided keynotes on AI, innovation and how 
Facebook is building the knowledge economy.

    (ii) Has Facebook assisted other countries in designing regimes to 
monitor or censor Facebook content? If so, which countries, and under 
what circumstances? Please describe each.
    Answer. When something on Facebook or Instagram is reported to us 
as violating local law, but doesn't go against our Community Standards, 
we may restrict the content's availability only in the country where it 
is alleged to be illegal after careful legal review. We receive reports 
from governments and courts, as well from non-government entities such 
as members of the Facebook community and NGOs. This information is 
available here: https://transparency.facebook.com/content-restrictions.
    Government criticism does not violate our community standards, and 
we do not evaluate or categorize accounts based on whether they engage 
in government criticism.
    See also Response to Question 93(c).

    (c) Has Facebook ever provided any financial support to the World 
Internet Conference? If yes, please provide and itemize all financial 
support that has been provided to the World Internet Conference.
    Answer. Facebook has not paid to participate in the World Internet 
Conference. In 2016 we paid $10,000 to rent exhibit space at the event 
to showcase Oculus VR which is manufactured in China.

    Question 96. Has Facebook ever temporarily shut down or limited 
access to Facebook, WhatsApp, or Instagram within a country or a 
specific geographic area, at the request of a foreign government or 
agency, including but not limited to, the PRC, the Islamic Republic of 
Iran, Syria, the Russian Federation, and Turkey?
    (a) If so, please describe each instance Facebook has complied with 
a foreign government's request to censor content or users, the 
requesting government, the provided justification for the government 
request, and a description of the content requested to be removed.

    (b) Please describe what if any policies Facebook has in place 
governing Facebook's responses to government censorship requests.
    Answer. We do not block access to Facebook products and services in 
areas where they are otherwise generally available on the basis of 
specific government requests. We may independently limit access to 
certain functionality--such as peer-to-peer payments or facial 
recognition--in some jurisdictions based on legal and regulatory 
requirements.
    In some instances, we may receive requests from governments or 
other parties to remove content that does not violate our Community 
Standards but is alleged to contravene local law. When we receive such 
requests, we conduct a careful review to confirm whether the report is 
legally valid and is consistent with international norms, as well as 
assess the impact of our response on the availability of other speech. 
When we comply with a request, we restrict the content only within the 
relevant jurisdiction. We publish details of content restrictions made 
pursuant to local law, as well as details of our process for handling 
these requests, in our Transparency Report (https://
transparency.facebook.com/content-restrictions).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Deb Fischer to 
                            Mark Zuckerberg
    Question 1. Given ongoing user privacy concerns, American consumers 
are asking for a public dialogue about the purposes for which Facebook 
uses their personal data. However, a meaningful conversation cannot 
happen until users also understand the sources from which their data is 
gleaned, and the scope of the specific data--which characteristics, 
attributes, labels, or categories of data points--being collected and 
utilized. How many categories (i.e., attributes, factors, labels, or 
data points) does Facebook collect about particular users?
    Answer. As explained in our Data Policy, we collect three basic 
categories of data about people:

  (1)  data about things people do and share (and who they connect 
        with) on our services;

  (2)  data about the devices people use to access our services; and

  (3)  data we receive from partners, including the websites and apps 
        that use our business tools.

    As far as the amount of data we collect about people, the answer 
depends on the person. People who have only recently signed up for 
Facebook have usually shared only a few things--such as name, contact 
information, age, and gender. Over time, as people use our products, we 
receive more data from them, and this data helps us provide more 
relevant content and services. That data will fall into the categories 
noted above, but the specific data we receive will, in large part, 
depend on how the person chooses to use Facebook. For example, some 
people use Facebook to share photos, so we receive and store photos for 
those people. Some people enjoy watching videos on Facebook; when they 
do, we receive information about the video they watched, and we can use 
that information to help show other videos in their News Feeds. Other 
people seldom or never watch videos, so we do not receive the same kind 
of information from them, and their News Feeds are likely to feature 
fewer videos.
    The data we have about people also depends on how they have used 
our controls. For example, people who share photos can easily delete 
those photos. The same is true of any other kind of content that people 
post on our services. Through Facebook's Activity Log tool, people can 
also control the information about their engagement--i.e., their likes, 
shares and comments--with other people's posts. The use of these 
controls of course affects the data we have about people.
    We recently announced improvements to our Download Your Information 
tool, as well as a new feature that makes it easier for people to see 
the information that's in their account on Facebook. These recently-
expanded tools for accessing your information will allow people to see 
their data, delete it, and easily download and export it.

    Question 2. How many categories, as the term is described above, 
are used to construct the digital profiles that Facebook utilizes to 
direct ads to particular users?
    Answer. The specific number of categories that are used to decide 
what ads a person will see vary from person to person, depending on the 
interests and information that they have shared on Facebook, how 
frequently they interact with ads and other content on Facebook, and 
other factors. Any person can see each of the specific interests we 
maintain about them for advertising by visiting Ads Preferences, which 
lets people see what interests we use to choose ads for them--and to 
edit or delete these interests. We also provide more detailed 
information about how we use data to decide what ads to show to people 
in our ``About Facebook Ads'' page, at https://www.facebook.com/ads/
about.
    We use data about things people do on Facebook, such as the Pages 
they like, to associate ``interests'' with their accounts, and we 
enable advertisers to reach audiences--i.e., groups of people--that 
share those interests. For example, if a person has liked Pages about 
baseball, we might associate them with interests called ``baseball'' or 
``sports.''
    We use data from devices (such as location data) to help 
advertisers reach people in particular areas. For example, if people 
have shared their device locations with Facebook or checked into a 
specific restaurant, we can show them ads from an advertiser that wants 
to promote its services in their area or from the restaurant.
    We also help advertisers reach people who have given the advertiser 
their contact information or who have used the advertiser's website or 
app. For example, advertisers can send us a hashed list of e-mail 
addresses of people they would like to reach on Facebook. If we have 
matching e-mail addresses, we can show those people ads from that 
advertiser (although we cannot see the e-mail addresses which are sent 
to us in hashed form, and these are deleted as soon as we complete the 
match). The data we use to show ads to people depends on the data we 
have received from people. Again, for people who are new to Facebook, 
we may have minimal data that we can use. For people who have used our 
services for longer, we likely have more data, but the amount of data 
will depend on the nature of that use and how they have used our 
controls.
    As noted above, in addition to general controls--such as Activity 
Log--we provide controls that specifically govern the use of data for 
ads. Through Ad Preferences, people see and control things like: (1) 
their ``interests,'' which are keywords associated with a person based 
on activities such as liking Pages and clicking ads; (2) their 
``behaviors'' (which we also call ``categories''), which generally 
reflect how, when and where they connect to Facebook; and (3) the 
advertisers that are currently showing them ads based on the person's 
contact information, based on the person's previous use of the 
advertiser's website or app, or based on a visit to the advertiser's 
store. People also can choose whether we use information about their 
activities on websites and apps off of Facebook to show them ads 
through Facebook, and whether we can use their Facebook advertising 
interests to show them ads off of Facebook. People's use of these 
controls will, of course, affect the data we use to show them ads.

    Question 3. If a user opts out of directed advertising, does 
Facebook halt collection of all such data?
    Answer. We give people a number of controls over the data we use to 
show them ads. These controls apply to our use of data to show people 
ads; they do not apply to the collection of data, because the same core 
data sets are used to ensure the safety and security of our platform 
and to provide our core service to our users. As noted above, people 
can see and control the advertising ``interests'' and ``behaviors'' we 
have associated with their accounts to show them ads. They can choose 
not to see ads from a particular advertiser or not to see ads based on 
their use of third-party websites and apps. They also can choose not to 
see ads off Facebook that are based on the interests we derive from 
their activities on Facebook.

    Question 4. If a user opts out of directed advertising, does 
Facebook delete all such data that was previously stored? 
Alternatively, does Facebook instead simply stop utilization of that 
data for directed advertising purposes?
    Answer. Our advertising controls apply only to the use of data for 
targeting and selecting ads. Using these controls does not result in 
deletion of data, because the same core data sets are used to ensure 
the safety and security of our platform and to provide our core service 
to our users. This is consistent with industry practice. For example, 
the Digital Advertising Alliance's Self-Regulatory Principles set the 
industry standard for the collection and use of data for online 
behavioral advertising and related practices. Those principles require 
companies to offer controls over the use of data for advertising 
purposes. Companies are not required to stop collecting data from 
opted-out users or to delete previously collected data. Please note, 
however, that when a person removes an ``interest'' or ``behavior'' in 
Ad Preferences, that interest or behavior is permanently removed from 
the person's ad profile; it will not be recreated even if the person 
subsequently engages in activities that otherwise would have resulted 
in the creation of the interest or behavior.

    Question 5. When users download a copy of their Facebook data, as 
Facebook has recently enabled, is all ad targeting data included in 
that file?
    Answer. Our Download Your Information or ``DYI'' tool is Facebook's 
data portability tool and was launched many years ago to let people 
access many types of information that we maintain about them, with a 
focus on those types that a person may wish to use on another online 
service. The data in DYI includes each of the demographic and 
interests-based attributes we use to show or target people ads. 
Although we do not store this data within DYI, people can also use Ad 
Preferences to see which advertisers are currently running ads based on 
their use of an advertiser's website or app. People also can choose not 
to see ads from those advertisers.
    We are also launching Access Your Information, a screenshot of 
which was included in our April 27, 2018 letter to you. This is a 
secure way for people to access and manage their information. Users can 
go here to delete anything from their timeline or profile that they no 
longer want on Facebook. They can also see their ad interests, as well 
as information about ads they've clicked on and advertisers who have 
provided us with information about them that influence the ads they 
see. From here, they can go to their ad settings to manage how this 
data is used to show them ads.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Jerry Moran to 
                            Mark Zuckerberg
    Question 1. Cambridge Analytica had access to data on up to 87 
million Facebook users because 270,000 individuals participated in a 
personality quiz that also exposed their friends' data. While I 
understand how the 270,000 individuals could have given their express 
consent, can you please walk me through how the many millions of 
friends could have given their ``affirmative express consent'' for 
their data to be shared with a third party as is required by the 2011 
consent decree--when they were unaware that a friend of theirs was even 
participating in a personality quiz?
    Answer. At the outset, we do not know what data Kogan may have 
shared with Cambridge Analytica. Our investigation into these matters 
is ongoing, and we are paused on investigating Cambridge Analytica 
directly (or conducting a forensic audit of its systems) due to the 
request of the UK Information Commissioner's Office, which is 
separately investigating Cambridge Analytica, a UK entity. The best 
information to date also suggests only U.S. user data was shared by 
Kogan with Cambridge Analytica.
    As was the practice of other online or mobile app platforms, at 
that time, people on Facebook were able to take their data and data 
their friends had shared with them off of Facebook to apps they 
authorized to obtain a broader range of experiences than were available 
on Facebook. But people could not share data for friends whose privacy 
settings did not permit their data to be shared by their friends with 
apps--and no data was shared with Kogan's app in violation of friends' 
settings. The 2011 consent decree requires Facebook to get affirmative 
express consent for materially expanding the audience of a user's 
existing privacy settings. No privacy settings were expanded or 
exceeded on Platform, and the consent order therefore does not apply 
here.
    Approximately 300,000 Facebook users worldwide installed Kogan's 
app. For the majority of these users, the app requested consent to 
access the following data fields associated with the user and with the 
friends of the user: Public profile data, including name and gender; 
Birthdate; ``Current city'' in the ``About'' section of the user's 
profile, if provided; and Facebook Pages liked.
    For a small subset of users, it appears that the app also requested 
consent to access users' Facebook messages (fewer than 1,500 
individuals, based on current information) and to posts that appeared 
in the user's News Feed or Timeline (approximately 100 individuals, 
based on current information)--but only for users who installed the 
app. For a small subset of users (fewer than 1,500 individuals, based 
on current information), it appears that the app also requested consent 
to access the hometowns that the users' friends had specified in the 
``About'' section of their profiles. And for a handful of people (fewer 
than 10) who appear to be associated with Kogan/GSR, the app requested 
consent to e-mail address and photos.

    Question 2. According to Facebook's March 21 press release, one of 
the six changes that Facebook initially offered to ``crack down on 
platform abuse'' was to reward outside parties who find vulnerabilities 
through its bug bounty program. My subcommittee has held hearings and 
met with interested stakeholders on these types of data security 
solutions along with other cyber vulnerability disclosure programs. One 
concern I have regarding the utility of this approach is that 
vulnerability disclosure programs are normally geared to identify 
unauthorized access to data, not point out data sharing arrangements 
that likely harm users but technically abide by the complex consent 
agreements Facebook pushes on their users. Could you please explain how 
Facebook's expansion of its bug bounty program will prevent future data 
sharing issues with its associated applications from occurring?
    Answer. The Data Abuse Bounty will reward people with first-hand 
knowledge and proof of cases where a Facebook platform app collects and 
transfers people's data to another party to be sold, stolen or used for 
scams or political influence. We'll review all legitimate reports and 
respond as quickly as possible when we identify a credible threat to 
people's information. If we confirm data abuse, we will shut down the 
offending app and, if necessary, take legal action against the company 
selling or buying the data. We'll pay a bounty to the person who 
reported the issue, or allow them to donate their bounty to a charity, 
and we'll also alert those we believe to be affected. We also encourage 
our users to report to us content that they find concerning or that 
results in a bad experience, as well as other content that may violate 
our policies. We review these reports and take action on abuse, like 
removing content and disabling accounts.

    Question 3. Facebook has confirmed alterations to its terms and 
conditions shifting more than 1.5 billion of its user from contracts 
with the international headquarters in Ireland to Facebook Inc. in the 
United States, thereby removing these users from the protections they 
would otherwise receive from the Europeans Union's General Data 
Protection Regulation (GDPR). With the recent scrutiny that Facebook 
has faced about its data collection, sharing, and security polices what 
is the justification for moving approximately 1.5 billion Facebook user 
away from the more stringent rules of the European Union's GDPR?
    Answer. We will offer everyone who uses Facebook the same controls 
and settings, no matter where they live. However, the GDPR creates some 
specific requirements that do not apply in the rest of the world, for 
example the requirement to provide contact information for the EU Data 
Protection Officer or to specify legal bases for processing data. We 
are also looking to be more responsive to regional norms and legal 
frameworks going forward, and want to have the flexibility to work with 
local regulators, which is possible with this new model. At the same 
time, we are changing the provisions in our Facebook, Inc. terms in our 
user agreements outside the United States to allow people in other 
countries to file lawsuits against Facebook in their home country, 
rather than in courts in the U.S. This transition was part of a 
continued effort to be locally responsive in countries where people use 
our services.

    Question 4. During your testimony, you noted that Facebook 
cooperates with law enforcement in two instances, where there is an 
``imminent threat of harm'' or when law enforcement reaches out to the 
company with a ``valid request for data.'' In December 2017, the 
Chicago Police Department announced that it had arrested fifty people 
who were utilizing Facebook private group features in order to 
communicate and facilitate illegal firearm and drug transactions. 
Several national news outlets reported that Facebook was not helpful in 
regards to this investigation and Chicago Police Superintendent Eddie 
Johnson was later quoted in response to media inquiries as saying 
``Quite frankly, they haven't been very friendly to law enforcement to 
prevent these things.'' What specific policies and procedures does 
Facebook currently have in place to aid law enforcement agencies in 
gaining access to relevant information that indicates a clear threat to 
public safety?
    Answer. We recognize there are serious and evolving threats to 
public safety and that law enforcement has an important responsibility 
to keep people safe. Our legal and safety teams work hard to respond to 
legitimate law enforcement requests while fulfilling our responsibility 
to protect people's privacy and security. We have a global team that 
strives to respond within minutes to emergency requests from law 
enforcement. In the second half of 2017, for example, we provided 
information in response to nearly 78 percent of the 1,808 requests for 
emergency disclosures that we received from U.S. law enforcement 
agencies. Facebook also reaches out to law enforcement whenever we see 
a credible threat of imminent harm. We use automated and manual review 
and also rely on users to help by reporting violating accounts or 
content. We are also working with law enforcement and others to improve 
our ability to find users at risk of harming themselves or others. We 
also disclose information in response to law enforcement requests in 
accordance with our terms of service and applicable law. In the second 
half of 2017, for example, we disclosed data in response to 85 percent 
of law enforcement requests from agencies in the U.S. Facebook 
regularly produces a report on government requests to help people 
understand the nature and extent of these requests and the policies and 
processes in place to handle them.
    In addition, we cooperated with the Chicago Police Department's 
investigation that led to the December 2017 arrests. We reached out 
immediately after we learned of the comments referenced in your 
question, and they issued follow-up statements indicating that we 
reached out and were planning to provide training. We followed up by 
training over 100 Chicago-area law enforcement officers in a working 
group hosted by the FBI and U.S. Attorney's Office. We also met 
separately with the Chicago Police unit that conducted the 
investigation to make sure they understood Facebook's policies, how to 
submit requests to us, and how we could help them through additional 
training and support.

    Question 5. What specifically qualifies as a ``valid request for 
data,'' which is required to gain access to information?''
    Answer. We disclose account records in accordance with our terms of 
service and applicable law, including the Federal Stored Communications 
Act. In the United States, a valid subpoena issued in connection with 
an official criminal investigation is required to compel the disclosure 
of basic subscriber records. A court order issued under 18 U.S.C. 
Sec. 2703(d) is required to compel the disclosure of certain records or 
other information pertaining to the account, not including contents of 
communications. A search warrant issued under the procedures described 
in the Federal Rules of Criminal Procedure or equivalent state warrant 
procedures upon a showing of probable cause is required to compel the 
disclosure of the stored contents of any account. Facebook may also 
voluntarily disclose information to law enforcement where we have a 
good faith reason to believe that the matter involves imminent risk of 
serious physical injury or death.

    Question 6. How does Facebook determine what rises to an imminent 
threat of harm and does that determination change the threshold for 
deciding whether to respond to a law enforcement data request?
    Answer. Facebook discloses account records in accordance with our 
terms of service and applicable law, including the Federal Stored 
Communications Act. The law permits Facebook to voluntarily disclose 
information to law enforcement where we have a good faith reason to 
believe that the matter involves imminent risk of serious physical 
injury or death. Our law enforcement response team receives and 
responds to emergency data requests around the clock and from around 
the globe based on our timely and careful review of information 
submitted by law enforcement and any other relevant facts. We also rely 
on experience and input from law enforcement, safety organizations, and 
industry to identify and respond to potential threats of harm.

    Question 7. Facebook has made a big deal about users' ability to 
request and download the data that Facebook has compiled about the 
user. But that downloaded data does not include data such as the list 
of the websites Facebook users have visited that is collected by 
Facebook. Why is that the case, and when will Facebook make this 
information available to users? What other information about Facebook 
users is not available for download?
    Answer. Our Download Your Information or ``DYI'' tool is Facebook's 
data portability tool and was launched many years ago to let people 
access and download many types of information that we maintain about 
them. The data in DYI and in our Ads Preferences tool contain each of 
the interest categories that are used to show people ads, along with 
information about the advertisers are currently running ads based on 
their use of an advertiser's website or app. People also can choose not 
to see ads from those advertisers. We recently announced expansions to 
Download Your Information, which, among other things, will make it 
easier for people to see their data, delete it, and easily download and 
export it. More information is available at https://newsroom.fb.com/
news/2018/04/new-privacy-protections.
    Responding to feedback that we should do more to provide 
information about websites and apps that send us information when 
people use them, we also announced plans to build Clear History. This 
new feature will enable users to see the websites and apps that send us 
information when they use them, delete this information from their 
account, and turn off Facebook's ability to store it associated with 
their account going forward.
    We have also introduced Access Your Information. This feature 
provides a new way for people to access and manage their information. 
Users can go here to delete anything from their timeline or profile 
that they no longer want on Facebook. They can also see their ad 
interests, as well as information about ads they've clicked on and 
advertisers who have provided us with information about them that 
influence the ads they see. From here, they can go to their ad settings 
to manage how this data is used to show them ads.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                            Mark Zuckerberg
    Question 1. In the hearing, the topics of anticompetitive 
consolidation and the enormous market capitalization of tech companies 
such as Facebook were frequently raised. Recent calculations value the 
four largest tech companies' capitalization at $2.8 trillion dollars, 
which is a staggering 24 percent of the S&P 500 Top 50, close to the 
value of every stock traded on the Nasdaq in 2001, and to give a 
different perspective, approximately the same amount as France's 
current GDP. At what point, from an antitrust perspective, is Facebook 
simply too big? Would you say that your size inhibits the ``next 
Facebook''?
    Answer. In Silicon Valley and around the world, new social apps are 
emerging all the time. The average American uses eight different apps 
to communicate with their friends and stay in touch with people. There 
is a lot of choice, innovation, and activity in this space, with new 
competitors arising all the time. Facebook's top priority and core 
service is to build useful and engaging products that enable people to 
connect, discover and share through mobile devices and personal 
computers. Given its broad product offerings, Facebook faces numerous 
competitors, competing to attract, engage, and retain users, to attract 
and retain marketers, and to attract and retain developers who build 
compelling mobile and web applications. For instance, if you want to 
share a photo or video, you can choose between Facebook, DailyMotion, 
Snapchat, YouTube, Flickr, Twitter, Vimeo, Google Photos and Pinterest 
among many other services. Similarly, if you are looking to message 
someone, just to name a few, there's Apple's iMessage, Telegram, Skype, 
Line, Viber, WeChat, Snapchat and LinkedIn--as well as the traditional 
text messaging services your mobile phone carrier provides. Equally, 
companies also have more options than ever when it comes to 
advertising--from billboards, print and broadcast, to newer platforms 
like Facebook, Spotify, Twitter, Google, YouTube, Amazon, or Snapchat. 
Facebook represents a small part (in fact, just 6 percent) of this $650 
billion global advertising ecosystem and much of that has been achieved 
by helping small businesses--many of whom could never have previously 
afforded newspaper or TV ads--to cost-effectively reach a wider 
audience.

    Question 2. Senator Peters asked if Facebook extracts audio from 
its users to enhance personal data profiles, to which you responded 
no--is that the case? There are countless anecdotes about this exact 
situation. Would you characterize these as coincidence or is targeted 
advertising just that effective?
    Answer. To be crystal clear on this point: Facebook does not use 
users' phone's microphone or any other method to extract audio to 
inform ads or to determine what they see in their News Feed. Facebook 
show ads based on people's interests and other profile information--not 
what users are talking out loud about. Facebook only accesses users' 
microphone if the user has given our app permission and if they are 
actively using a specific feature that requires audio (like voice 
messaging features).

    Question 3. As you are aware, children are increasingly active 
users of technology. Do you have concerns generally about children's 
increased use, in many cases that rises to the level of addiction, of 
electronics? And more specifically, since I'm very interested in the 
issue of individual privacy rights, what are your thoughts on the data 
footprint of children being collected?
    Answer. We take the privacy, safety, and security of all those who 
use our platform very seriously and when it comes to minors (13 to 18 
years old), we provide special protections and resources.
    We also provide special protections for teens on Facebook and 
Messenger. We provide education before allowing teens to post publicly. 
We don't show search results based on specific profile data (high 
school, birthday/age, and hometown, or current city) of teens to 
unconnected adults when the adults search on Facebook. Unconnected 
adults can't message minors who are 13-17. We prohibit search engines 
off Facebook from indexing minors' profiles. And, we have age limits 
for advertisements. For example, ads for dating sites, financial 
services and other products or services are gated to users under 18.
    We provide special resources to help ensure that they enjoy a safe 
and secure experience. For example, we recently announced the launch of 
our Youth Portal, which is available in 60 languages at facebook.com/
safety/youth. This portal is a central place for teens that includes:

  <bullet> Education: Information on how to get the most out of 
        products like Pages, Groups, Events, and Profile, while staying 
        safe. Plus, information on the types of data Facebook collects 
        and how we use it.

  <bullet> Peer Voices: First person accounts from teens around the 
        world about how they are using technology in new and creative 
        ways.

  <bullet> Ways to control your experience: Tips on things like 
        security, reporting content, and deciding who can see what 
        teens share.

  <bullet> Advice: Guidelines for how to safely get the most out of the 
        internet.

    Instagram also will be providing information to teens to show them 
where they can learn about all of the tools on Instagram to manage 
their privacy and stay safe online, including how to use the new Access 
and Download tools to understand what they have shared online and learn 
how to delete things they no longer want to share. We are also making 
this information available in formats specifically designed for young 
users, including video tutorials for our privacy and safety tools, and 
teen-friendly FAQs about the Instagram Terms of Use, Data Policy, 
safety features, and Community Guidelines.
    Instagram has also launched new content on Instagram Together, 
including videos and FAQs about privacy controls; information on how to 
use safety features, including comment controls, blocking accounts, 
reporting abuse, spam, or troubling messages; information on 
responsible social media use; and FAQs about safety on Instagram. We 
will be reaching out to users under 18 on Instagram to encourage them 
to learn more on Instagram Together.
    Further, we have content restrictions and reporting features for 
everyone, including minors. We have Community Standards that prohibit 
hate speech, bullying, intimidation, and other kinds of harmful 
behavior. We encourage people to report posts and rely on our team of 
content reviewers around the world to review reported content. Our 
reviewers are trained to look for violations and enforce our policies 
consistently and as objectively as possible. When reviewed by our team, 
we hide certain graphic content from users under 18 (and include a 
warning for adults). We are also working to improve our ability to get 
our community help in real time, especially in instances where someone 
is expressing thoughts of suicide or self-harm, by expanding our use of 
proactive detection, working with safety experts and first-responders, 
and dedicating more reviewers from our Community Operations team.
    In addition, with 9 out of 10 children under the age of 13 in the 
United States able to access a tablet or smartphone and 2 out of 3 with 
their own device, and parents seeking greater control over who connects 
with their children, the content they see and the time they spend 
online, we are committed to working with parents and families, as well 
as experts in child development, online safety and children's health 
and media, to ensure we are building better products for families.
    That is why we're committed to both continued research and to 
building tools that promote meaningful interactions and help people 
manage their time on our platform.
    Indeed, as we built Messenger Kids, we worked closely with leading 
child development experts, educators, and parents to inform our 
decisions. Our advisors include experts in the fields of child 
development, online safety, and children's media currently and formerly 
from organizations such as the Yale Center for Emotional Intelligence, 
Connect Safely, Center on Media and Child Health, Sesame Workshop and 
more. The app does not have ads or in app purchase and we recently 
added Sleep Mode which gives the parent the ability to set parameters 
on when the app can be used. Messenger Kids collects only a limited 
amount of information. Additionally, when a Messenger Kids user turns 
13, which the minimum age to join Facebook, they don't automatically 
get a Facebook account.
    We recently launched a Parents Portal and Youth Portal, which are 
both focused on fostering conversations around online safety and giving 
parents and young people access to the information and resources they 
need to make informed decisions about their use of online technologies.

    Question 4. I'm very proud to be a cosponsor of the recently passed 
SESTA legislation, which as you know, takes serious steps to hold 
websites and other institutions accountable that knowingly facilitate 
sex trafficking activity by closing loopholes in what was outdated 
Federal communications law. As an active participant in the 
deliberations and negotiations throughout the process, I noticed that 
while Facebook ultimately supported the legislation, that was a stance 
that evolved significantly- can you explain Facebook's shifting views 
on this bill?
    Answer. Facebook supports SESTA. We support the goal of the 
legislation of providing victims of sex trafficking with recourse in 
the courts against parties who directly support these illegal 
activities, but wanted to ensure that good actors were not penalized 
for their efforts to root out this type of harm online. We were very 
pleased to be able to work successfully with a bipartisan group of 
Senators on a bill that protects women and children from the harms of 
sex trafficking.
    Facebook is committed to making our platform a safe place, 
especially for individuals who may be vulnerable. We have a long 
history of working successfully with governments to address a wide 
variety of threats to our platform, including child exploitation. When 
we learn of a situation involving physical abuse, child exploitation, 
or an imminent threat of harm to a person, we immediately report the 
situation to first responders or the National Center for Missing and 
Exploited Children (NCMEC).
    Further, as part of official investigations, government officials 
sometimes request data about people who use Facebook. We have processes 
in place to handle these government requests, and we disclose account 
records in accordance with our terms of service and applicable law. We 
also have a global team that strives to respond within minutes to 
emergency requests from law enforcement.
    Our relationship with NCMEC also extends to an effort that we 
launched in 2015 to send AMBER Alerts to the Facebook community to help 
find missing children. When police determine that a case qualifies for 
an AMBER Alert, the alert is issued by the NCMEC and distributed 
through the Facebook system with any available information, including a 
photograph of the missing child, a license plate number, and the names 
and descriptions of the child and suspected abductor. Law enforcement 
determines the range of the target area for each alert. We know the 
chances of finding a missing child increase when more people are on the 
lookout, especially in the critical first hours. Our goal is to help 
get these alerts out quickly to the people who are in the best position 
to help, and a number of missing children have been found through AMBER 
Alerts on Facebook.
    Further, we work tirelessly to identify and report child 
exploitation images (CEI) to appropriate authorities. We identify CEI 
through a combination of automated and manual review. On the automated 
review side, we use image hashing to identify known CEI. On the manual 
review side, we provide in-depth training to content reviewers on how 
to identify possible CEI. Confirmed CEI is reported to the NCMEC, which 
then forwards this information to appropriate authorities. When we 
report content to the NCMEC, we preserve account information in 
accordance with applicable law, which can help further law enforcement 
investigations. We also reach out to law enforcement authorities in 
serious cases to ensure that our reports are received and acted upon.

    Question 5. Were your terms of service for third party app 
developers violated by Cambridge Analytica? If not, have they ever been 
violated in the past and what were those situations and outcomes?
    Answer. Cambridge Analytica signed certifications at our insistence 
declaring that they had deleted all copies of Facebook data and 
derivatives obtained from Kogan's app. In March 2018, we received 
reports that, contrary to the certification and confirmation we were 
given by SCL/Cambridge Analytica, not all data was deleted. We are 
moving aggressively to determine the accuracy of these claims. If true, 
this is an unacceptable violation of trust and a breach of the 
representations Cambridge Analytica made in the certifications.

    Question 6. Can a user opt-out of Facebook collecting and compiling 
a user's web browsing history? If so, please provide the details 
regarding how a user opts out of this collection.
    Answer. The Ad Preferences tool on Facebook shows people the 
advertisers whose ads the user might be seeing because they visited the 
advertisers' sites or apps. The person can remove any of these 
advertisers to stop seeing their ads.
    In addition, the person can opt out of these types of ads 
entirely--so he or she never sees those ads on Facebook based on 
information we have received from other websites and apps.
    We've also announced plans to build Clear History, a feature that 
will enable people to see the websites and apps that send us 
information when they use them, delete this information from their 
accounts, and turn off our ability to store it associated with their 
accounts going forward.
    Apps and websites that use features such as the Like button or 
Facebook Analytics send us information to make their content and ads 
better. We also use this information to make user experience on 
Facebook better. If a user clears his or her history or uses the new 
setting, we'll remove identifying information so a history of the 
websites and apps the user used won't be associated with the user's 
account. We'll still provide apps and websites with aggregated 
analytics--for example, we can build reports when we're sent this 
information so we can tell developers if their apps are more popular 
with men or women in a certain age group. We can do this without 
storing the information in a way that's associated with the user's 
account, and as always, we don't tell advertisers who users are.
    It will take a few months to build Clear History. We'll work with 
privacy advocates, academics, policymakers, and regulators to get their 
input on our approach, including how we plan to remove identifying 
information and the rare cases where we need information for security 
purposes. We've already started a series of roundtables in cities 
around the world and heard specific demands for controls like these at 
a session we held at our headquarters. We're looking forward to doing 
more.

    Question 7. Finally, since you've recently spent some time in 
Alaska, I'm sure your travels gave you a sense for our ardent 
individualism and general skepticism about the benefits of conceding 
privacy in the name of security. How can my constituents be assured of 
their security online? Or more generally, what would you say should be 
their new expectation of privacy online?
    Answer. We believe that everyone has the right to expect strong 
protections for their information, and that we also need to do our part 
to help keep our community safe, in a way that's consistent with 
people's privacy expectations. We've recently announced several steps 
to give people more control over their privacy, including a new Privacy 
Shortcuts tool that we're rolling out now to give people information 
about how to control their information, including choosing who can see 
what they post and adding protections like two-factor authentication to 
their account. People can learn more about how to protect their privacy 
in our updated Data Policy and in our Privacy Basics feature (https://
www.facebook.com/about/basics).
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Mark Zuckerberg
    Question 1. While the primary focus of the April 10 hearing was on 
Cambridge Analytica and Facebook's privacy and data security policies, 
concerns were heard about many other issues from Members on both sides 
of the aisle. Within this context, please detail specific steps that 
Facebook is taking to address: (1) ``fake news'', (2) foreign 
government interference in American elections, (3) illegal sex 
trafficking, and (4) copyright infringement of digital content.
    Answer. Fake News: We are working hard to stop the spread of false 
news. We work with third party fact checking organizations to limit the 
spread of articles with rated false. To reduce the spread of false 
news, we remove fake accounts and disrupt economic incentives for 
traffickers of misinformation. We also use various signals, including 
feedback from our community, to identify potential false news. In 
countries where we have partnerships with independent third-party fact-
checkers, stories rated as false by those fact-checkers are shown lower 
in News Feed. If Pages or domains repeatedly create or share 
misinformation, we significantly reduce their distribution and remove 
their advertising rights. We also want to empower people to decide for 
themselves what to read, trust, and share. We promote news literacy and 
work to inform people with more context. For example, if third-party 
fact-checkers write articles about a news story, we show them 
immediately below the story in the Related Articles unit. We also 
notify people and Page Admins if they try to share a story, or have 
shared one in the past, that's been determined to be false. In addition 
to our own efforts, we're learning from academics, scaling our 
partnerships with third-party fact-checkers and talking to other 
organizations about how we can work together.
    Foreign Interference: In the run-up to the 2016 elections, we were 
focused on the kinds of cybersecurity attacks typically used by nation 
states, for example phishing and malware attacks. And we were too slow 
to spot this type of information operations interference. Since then, 
we've made important changes to prevent bad actors from using 
misinformation to undermine the democratic process. This will never be 
a solved problem because we're up against determined, creative and 
well-funded adversaries. But we are making steady progress. Here is a 
list of the 10 most important changes we have made:

  <bullet> Ads transparency. Advertising should be transparent: users 
        should be able to see all the ads an advertiser is currently 
        running on Facebook, Instagram, and Messenger. We are taking 
        steps to help users assess the content they see on Facebook. 
        For example, for ads with political content, we've created an 
        archive that will hold ads with political content for seven 
        years--including for information about ad impressions and 
        spend, as well as demographic data such as age, gender, and 
        location. People in Canada and Ireland can already see all the 
        ads that a Page is running on Facebook--and we're launching 
        this globally in June. Further, advertisers will now need to 
        confirm their ID and location before being able to run any ads 
        with political content in the U.S. All ads with political 
        content will also clearly state who paid for them. We also want 
        to empower people to decide for themselves what to read, trust, 
        and share. We promote news literacy and work to inform people 
        with more context. For example, if third-party fact-checkers 
        write articles about a news immediately below the story in the 
        Related Articles unit. We also notify people and Page Admins if 
        they try to share a story, or have shared one in the past, 
        that's been determined to be false.

  <bullet> Verification and labeling. We are working hard to regain the 
        trust of our community. Success would consist of minimizing or 
        eliminating abuse of our platform and keeping our community 
        safe. We have a number of specific goals that we will use to 
        measure our progress in these efforts. First, we are increasing 
        the number of people working on safety and security at 
        Facebook, to 20,000. We have significantly expanded the number 
        of people who work specifically on election integrity, 
        including people who investigate this specific kind of abuse by 
        foreign actors. Those specialists find and remove more of these 
        actors. Second, we work to improve threat intelligence sharing 
        across our industry, including, we hope, by having other 
        companies join us in formalizing these efforts. This is a fight 
        against sophisticated actors, and our entire industry needs to 
        work together to respond quickly and effectively. Third, we are 
        bringing greater transparency to election ads on Facebook by 
        requiring more disclosure from people who want to run election 
        ads about who is paying for the ads and by making it possible 
        to see all of the ads that an advertiser is running, regardless 
        of the targeting. We believe that these efforts will help to 
        educate our community and to arm users, media, civil society, 
        and the government with information that will make it easier to 
        identify more sophisticated abuse to us and to law enforcement.

  <bullet> Updating targeting. We want ads on Facebook to be safe and 
        civil. We thoroughly review the targeting criteria advertisers 
        can use to ensure they are consistent with our principles. As a 
        result, we removed nearly one-third of the targeting segments 
        used by the IRA. We continue to allow some criteria that people 
        may find controversial. But we do see businesses marketing 
        things like historical books, documentaries or television shows 
        using them in legitimate ways.

  <bullet> Better technology. We have gotten increasingly better at 
        finding and disabling fake accounts. We're now at the point 
        that we block millions of fake accounts each day at the point 
        of creation before they do any harm. This is thanks to 
        improvements in machine learning and artificial intelligence, 
        which can proactively identify suspicious behavior at a scale 
        that was not possible before--without needing to look at the 
        content itself.

  <bullet> Action to tackle fake news. (see above).

  <bullet> Significant investments in security. We're doubling the 
        number of people working on safety and security from 10,000 
        last year to over 20,000 this year. We expect these investments 
        to impact our profitability. But the safety of people using 
        Facebook needs to come before profit.

  <bullet> Industry collaboration. In April, we joined 34 global tech 
        and security companies in signing a TechAccord pact to help 
        improve security for everyone.

  <bullet> Intelligence sharing with government. In the 2017 German 
        elections, we worked closely with the authorities there, 
        including the Federal Office for Information Security (BSI). 
        This gave them a dedicated reporting channel for security 
        issues related to the Federal elections.

  <bullet> Tracking 40+ elections. In recent months, we've started to 
        deploy new tools and teams to proactively identify threats in 
        the run-up to specific elections. We first tested this effort 
        during the Alabama Senate election, and plan to continue these 
        efforts for elections around the globe, including the U.S. 
        midterms. Last year we used public service announcements to 
        help inform people about fake news in 21 separate countries, 
        including in advance of French, Kenyan and German elections.

  <bullet> Action against the Russia-based IRA. In April, we removed 70 
        Facebook and 65 Instagram accounts--as well as 138 Facebook 
        Pages--controlled by the IRA primarily targeted either at 
        people living in Russia or Russian-speakers around the world 
        including from neighboring countries like Azerbaijan, 
        Uzbekistan, and Ukraine. The IRA has repeatedly used complex 
        networks of inauthentic accounts to deceive and manipulate 
        people in the U.S., Europe, and Russia--and we don't want them 
        on Facebook anywhere in the world. We are taking steps to 
        enhance trust in the authenticity of activity on our platform, 
        including increasing ads transparency, implementing a more 
        robust ads review process, imposing tighter content 
        restrictions, and exploring how to add additional authenticity 
        safeguards. We also have improved information sharing about 
        these issues among our industry partners.

    Copyright: Facebook takes intellectual property rights seriously 
and believes they are important to promoting expression, creativity, 
and innovation in our community. Facebook's Terms of Service do not 
allow people to post content that violates someone else's intellectual 
property rights, including copyright and trademark. We publish 
information about the intellectual property reports we receive in our 
bi-annual Transparency Report, which can be accessed at https://
transparency.facebook.com/
    Sex trafficking: Facebook is committed to making our platform a 
safe place, especially for individuals who may be vulnerable. We have a 
long history of working successfully with governments to address a wide 
variety of threats to our platform, including child exploitation.
    When we learn of a situation involving physical abuse, child 
exploitation, or an imminent threat of harm to a person, we immediately 
report the situation to first responders or the National Center for 
Missing and Exploited Children (NCMEC). Further, as part of official 
investigations, government officials sometimes request data about 
people who use Facebook. We have processes in place to handle these 
government requests, and we disclose account records in accordance with 
our terms of service and applicable law. We also have a global team 
that strives to respond within minutes to emergency requests from law 
enforcement.
    Our relationship with NCMEC also extends to an effort that we 
launched in 2015 to send AMBER Alerts to the Facebook community to help 
find missing children. When police determine that a case qualifies for 
an AMBER Alert, the alert is issued by the NCMEC and distributed 
through the Facebook system with any available information, including a 
photograph of the missing child, a license plate number, and the names 
and descriptions of the child and suspected abductor. Law enforcement 
determines the range of the target area for each alert. We know the 
chances of finding a missing child increase when more people are on the 
lookout, especially in the critical first hours. Our goal is to help 
get these alerts out quickly to the people who are in the best position 
to help, and a number of missing children have been found through AMBER 
Alerts on Facebook.
    Further, we work tirelessly to identify and report child 
exploitation images (CEI) to appropriate authorities. We identify CEI 
through a combination of automated and manual review. On the automated 
review side, we use image hashing to identify known CEI. On the manual 
review side, we provide in-depth training to content reviewers on how 
to identify possible CEI. Confirmed CEI is reported to the NCMEC, which 
then forwards this information to appropriate authorities. When we 
report content to the NCMEC, we preserve account information in 
accordance with applicable law, which can help further law enforcement 
investigations. We also reach out to law enforcement authorities in 
serious cases to ensure that our reports are received and acted upon.

    Question 2. Some commentators worry that the Internet is dominated 
by a few large platforms with little competition or accountability. 
Facebook is obviously considered to be one of those key, dominant 
platforms.

  <bullet> Please comment on how American laws should hold large 
        Internet platforms accountable when things go wrong?

  <bullet> What is Facebook's legal and ethical responsibility as an 
        Internet platform with billions of global users?

    Answer. Our mission is to give people the power to build community 
and bring the world closer together--a mission that is inherently 
global and enhanced by a global scope. As the Internet becomes more 
important in people's lives, the real question is about the right set 
of regulations that should apply to all Internet services, regardless 
of size. Across the board, we have a responsibility to not just build 
tools, but to make sure that they're used in ways that are positive for 
our users. It will take some time to work through all the changes we 
need to make across the company, but Facebook is committed to getting 
this right.

    Question 3. If large Internet platforms compromise consumer privacy 
and/or facilitate the theft of original content, what should be the 
Federal Government's response? What should be the obligations of the 
platforms?
    Answer. We take intellectual property rights seriously at Facebook 
and work closely with the motion picture industries and other rights 
holders worldwide to help them protect their copyrights and other IP. 
Our measures target potential piracy across our products, including 
Facebook Live, and continue to be enhanced and expanded. These include 
a global notice-and-takedown program, a comprehensive repeat infringer 
policy, integration with the content recognition service Audible Magic, 
and our proprietary video-and audio-matching technology called Rights 
Manager. More information about these measures can be found in our 
Intellectual Property Help Center, Transparency Report, and Rights 
Manager website.

    Question 4. In general, as reflected in the General Data Protection 
Regulation (GDPR), the European Union (EU) is considered to require 
stronger data and privacy protections than the United States. According 
to press reports, Facebook will be moving 1.5 billion users outside of 
the scope of the EU's GDPR. Please explicitly lay out how Facebook's 
compliance with the GDPR will affect all Facebook users, including 
American users. That is, to what extent will the GDPR's requirements 
and protections extend to Americans and users outside Europe?
    Answer. The press reports referred to in this question pertain to 
the legal entity with which Facebook users contract when they use the 
service, which changed in some jurisdictions as a part of the most 
recent updates to our Terms of Service and Data Policy. This change did 
not impact people who live in the United States, who contract with 
Facebook, Inc. under both our new and old policies.
    The substantive protections in our user agreements offered by 
Facebook Ireland and Facebook, Inc. are the same. However, there are 
certain aspects of our Facebook Ireland Data Policy that are specific 
to legal requirements in the GDPR--such as the requirement that we 
provide contact information for our EU Data Protection Officer (DPO) or 
that we identify the ``legal bases'' we use for processing data under 
the GDPR. Likewise, our Facebook Ireland terms and Data Policy address 
the lawful basis for transferring data outside the EU, based on legal 
instruments that are applicable only to the EU.
    In any case, the controls and settings that Facebook is enabling as 
part of GDPR are available to people around the world, including 
settings for controlling our use of face recognition on Facebook and 
for controlling our ability to use data we collect off Facebook Company 
Products to target ads. We recently began providing direct notice of 
these controls and our updated terms to people around the world 
(including in the U.S.), allowing people to choose whether or not to 
enable or disable these settings or to consent to our updated terms. We 
provide the same tools for access, rectification, erasure, data 
portability and others to people in the U.S. and rest of world that we 
provide in Europe, and many of those tools (like our Download Your 
Information tool, ad preferences tool, and Activity Log) have been 
available globally for many years.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Mark Zuckerberg
    I understand that last week you announced your support for 
legislation that would regulate political ads on Internet platforms. By 
your own report, Facebook has removed 70 Facebook accounts, 138 
Facebook Pages, and 65 Instagram accounts run by the Russian 
government-connected troll farm and election interference group known 
as the Internet Research Agency.
    I want to explore the distinction between paid political ads and 
the troll and bot activity deployed by Russia that was designed to 
meddle with and influence U.S. elections.
    Question 1. What tools do we have to address this going forward? If 
we pass the Honest Ads Act, won't we still have a problem with bots and 
trolls that aren't running traditional paid ``political ads''?
    Answer. We have always believed that Facebook is a place for 
authentic dialogue and that the best way to ensure authenticity is to 
require people to use the names they are known by. Fake accounts 
undermine this objective and are closely related to the creation and 
spread of inauthentic communication such as spam and disinformation. We 
also prohibit the use of automated means to access our platform. We 
rely on both automated and manual review in our efforts to effectively 
detect and deactivate fake accounts, including bots, and we are now 
taking steps to strengthen both. For example, we continually update our 
technical systems to identify, checkpoint, and remove inauthentic 
accounts. We block millions of attempts to register fake accounts every 
day. These systems examine thousands of detailed account attributes and 
prioritize signals that are more difficult for bad actors to disguise.

    Question 2. Do we need a new definition of paid advertising or 
political expenditures that reaches bots and troll activity that are 
backed by foreign national interests?
    Answer. We're committed to addressing this, and we have a number of 
efforts underway. Facebook has generally dealt with bots and troll 
activity via its Authenticity policy. Already, we build and update 
technical systems every day to better identify and remove inauthentic 
accounts, which also helps reduce the distribution of material that can 
be spread by accounts that violate our policies. Each day, we block 
millions of fake accounts at registration. Our systems examine 
thousands of account attributes and focus on detecting behaviors that 
are very difficult for bad actors to fake, including their connections 
to others on our platform. By constantly improving our techniques, we 
also aim to reduce the incentives for bad actors who rely on 
distribution to make their efforts worthwhile.
    For example, the Internet Research Agency, based in St. Petersburg, 
is a ``troll farm'' and generally thought to be aligned with the 
Russian government. Facebook has determined that Internet Research 
Agency users violated Facebook's authenticity policy and has been 
working to remove them from the platform. This has resulted in the 
removal of numerous Facebook and Instagram accounts, as well as the 
content connected with those accounts. Facebook has found that many 
trolls are motivated by financial incentives and is taking steps to 
disrupt those incentives to discourage the behavior. While working to 
limit the impact of bots and trolls, Facebook is striving to strike the 
right balance between enabling free expression and ensuring that its 
platform is safe. Facebook's policies are aimed at encouraging 
expression and respectful dialogue.

    Question 3. Would you commit to working on troll problem in a way 
that does not compromise free speech?
    Answer. Yes, see Response to Question 2.

    Question 4. In your testimony you talked about your use of 
artificial intelligence to combat hate speech, bots, and trolls. What 
do you feel is the correct regulatory or other approach Congress should 
take to address artificial intelligence or other emerging technologies?
    Answer. Artificial Intelligence (AI) is a very promising technology 
that has many applications. Fairness, transparency and accountability 
should guide its development. Presently, AI systems make decisions in 
ways that people don't really understand. Thus, society needs to invest 
further in developing AI systems which are more transparent. Facebook 
has AI teams working on developing the philosophical, as well as 
technical, foundations for this work. We discussed our AI ethics work 
during the keynote of our recent developer's conference (at minute 47): 
https://www.facebook.com/FacebookforDevelopers/videos/
10155609688618553/.

    Question 5. How does Facebook plan to address the leveraging of its 
social engineering tools developed to optimize advertising revenue by 
state sponsored actors and geopolitical forces that seek to influence 
democratic elections and political outcomes?
    Answer. In the run-up to the 2016 elections, we were focused on the 
kinds of cybersecurity attacks typically used by nation states, for 
example phishing and malware attacks. And we were too slow to spot this 
type of information operations interference. Since then, we've made 
important changes to prevent bad actors from using misinformation to 
undermine the democratic process.
    This will never be a solved problem because we're up against 
determined, creative and well-funded adversaries. But we are making 
steady progress. Here is a list of the 10 most important changes we 
have made:

   1.  Ads transparency. Advertising should be transparent: users 
        should be able to see all the ads an advertiser is currently 
        running on Facebook, Instagram and Messenger. And for ads with 
        political content, we've created an archive that will hold ads 
        with political content for seven years--including information 
        about ad impressions and spend, as well as demographic data 
        such as age, gender and location. People in Canada and Ireland 
        can already see all the ads that a Page is running on 
        Facebook--and we're launching this globally in June.

   2.  Verification and labeling. Every advertiser will now need 
        confirm their ID and location before being able to run any ads 
        with political content in the U.S. All ads with political 
        content will also clearly state who paid for them.

   3.  Updating targeting. We want ads on Facebook to be safe and 
        civil. We thoroughly review the targeting criteria advertisers 
        can use to ensure they are consistent with our principles. As a 
        result, we removed nearly one-third of the targeting segments 
        used by the IRA. We continue to allow some criteria that people 
        may find controversial. But we do see businesses marketing 
        things like historical books, documentaries or television shows 
        using them in legitimate ways.

   4.  Better technology. Over the past year, we've gotten increasingly 
        better at finding and disabling fake accounts. We now block 
        millions of fake accounts each day as people try to create 
        them--and before they've done any harm. This is thanks to 
        improvements in machine learning and artificial intelligence, 
        which can proactively identify suspicious behavior at a scale 
        that was not possible before--without needing to look at the 
        content itself.

   5.  Action to tackle fake news. We are working hard to stop the 
        spread of false news. We work with third party fact checking 
        organizations to limit the spread of articles with rated false. 
        To reduce the spread of false news, we remove fake accounts and 
        disrupt economic incentives for traffickers of misinformation. 
        We also use various signals, including feedback from our 
        community, to identify potential false news. In countries where 
        we have partnerships with independent third-party fact-
        checkers, stories rated as false by those fact-checkers are 
        shown lower in News Feed. If Pages or domains repeatedly create 
        or share misinformation, we significantly reduce their 
        distribution and remove their advertising rights. We also want 
        to empower people to decide for themselves what to read, trust, 
        and share. We promote news literacy and work to inform people 
        with more context. For example, if third-party fact-checkers 
        write articles about a news story, we show them immediately 
        below the story in the Related Articles unit. We also notify 
        people and Page Admins if they try to share a story, or have 
        shared one in the past, that's been determined to be false. In 
        addition to our own efforts, we're learning from academics, 
        scaling our partnerships with third-party fact-checkers and 
        talking to other organizations about how we can work together.

      A key focus is working to disrupt the economics of fake news. For 
        example, preventing the creation of fake accounts that spread 
        it, banning sites that engage in this behavior from using our 
        ad products, and demoting articles found to be false by fact 
        checkers in News Feed--causing it to lose 80 percent of its 
        traffic. We now work with independent fact checkers in the 
        U.S., France, Germany, Ireland, the Netherlands, Italy, Mexico, 
        Colombia, India, Indonesia and the Philippines with plans to 
        scale to more countries in the coming months.

   6.  Significant investments in security. We're doubling the number 
        of people working on safety and security from 10,000 last year 
        to over 20,000 this year. We expect these investments to impact 
        our profitability. But the safety of people using Facebook 
        needs to come before profit.

   7.  Industry collaboration. Recently, we joined 34 global tech and 
        security companies in signing a TechAccord pact to help improve 
        security for everyone.

   8.  Information sharing and reporting channels. In the 2017 German 
        elections, we worked closely with the authorities there, 
        including the Federal Office for Information Security (BSI). 
        This gave them a dedicated reporting channel for security 
        issues related to the Federal elections.

   9.  Tracking 40+ elections. In recent months, we've started to 
        deploy new tools and teams to proactively identify threats in 
        the run-up to specific elections. We first tested this effort 
        during the Alabama Senate election, and plan to continue these 
        efforts for elections around the globe, including the U.S. 
        midterms. Last year we used public service announcements to 
        help inform people about fake news in 21 separate countries, 
        including in advance of French, Kenyan and German elections.

  10.  Action against the Russia-based IRA. In April, we removed 70 
        Facebook and 65 Instagram accounts--as well as 138 Facebook 
        Pages--controlled by the IRA primarily targeted either at 
        people living in Russia or Russian-speakers around the world 
        including from neighboring countries like Azerbaijan, 
        Uzbekistan and Ukraine. The IRA has repeatedly used complex 
        networks of inauthentic accounts to deceive and manipulate 
        people in the U.S., Europe and Russia--and we don't want them 
        on Facebook anywhere in the world.

    Question 6. How should Congress address the leveraging of social 
engineering tools developed to optimize advertising revenue on 
technology platforms, by state sponsored actors and geopolitical forces 
that seek to influence democratic elections and political outcomes?
    Answer. From its earliest days, Facebook has always been focused on 
security. These efforts are continuous and involve regular contact with 
law enforcement authorities in the U.S. and around the world. Elections 
are particularly sensitive events for Facebook's security operations, 
and as the role of Facebook's service plays in promoting political 
dialogue and debate has grown, so has the attention of its security 
team. To address these concerns, Facebook is taking steps to enhance 
trust in the authenticity of activity on its platform, including 
increasing ads transparency, implementing a more robust ads review 
process, imposing tighter content restrictions, and exploring how to 
add additional authenticity safeguards. We welcome a dialog with 
government about how to address these societal issues.

    Question 7. During the 2016 campaign, Cambridge Analytica worked 
with the Trump campaign to refine tactics. Were Facebook employees 
involved in that?
    Answer. During the 2016 election cycle, Facebook worked with 
campaigns to optimize their use of the platform, including helping them 
understand various ad formats and providing other best practices 
guidance on use of the platform.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                            Mark Zuckerberg
    Question. Do you support a rule that would require you to notify 
your users of a breach within 72 hours?
    Answer. Facebook is generally open to the idea of breach 
notification requirements, particularly legislation that would 
centralize reporting and ensure a consistent approach across the United 
States. For example, in Europe, the GDPR requires notification to a 
lead supervisory authority, rather than individual member states, in 
cases of a data breach. In the United States, however, there is no 
centralized notification scheme, and instead, reporting obligations 
vary widely across all 50 states. This complexity makes it harder to 
respond appropriately and swiftly to protect people in the event of a 
data breach. We believe this is an important issue and an area that is 
ripe for thoughtful regulation.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Richard Blumenthal to 
                            Mark Zuckerberg
    Question 1. Facebook's Download Your Information Tool: During the 
hearing, I asked not only whether Facebook users should be able to 
access their information, but specifically whether it would provide its 
users ``all of the information that you collect as a result of 
purchases from data brokers, as well as tracking them?'' You 
affirmatively stated that Facebook has a ``Download Your Information 
(DYI) tool that allows people to see and to take out all of the 
information that they have put into Facebook or that Facebook knows 
about them.''
    However, in a March 7, 2018 correspondence provided to the U.K. 
Parliament regarding Paul-Olivier Dehaye's legal request for personal 
data, Facebook's Privacy Operations Team acknowledged that the DYI tool 
does not provide records stored in its `Hive' database. This answer 
appears to confirm that the Facebook `Pixel' web tracking system and 
other records are stored and combined with profile information, but not 
provided to users. Since then, WIRED magazine and academic researchers 
have noted the omission from the DYI tool of other pieces of data that 
Facebook is known to collect.
    What specific pieces of data does Facebook collect that are not 
provided through the DYI tool? Please provide exact labels and 
descriptions of the types of data and its source, rather than broad 
categories or intent, including but not limited to web tracking data, 
location history, ad interactions and advertiser targeting data, third 
party applications, and derived inferences.
    Answer. Our Download Your Information or ``DYI'' tool is Facebook's 
data portability tool and was launched many years ago to let people 
access and download many types of information that we maintain about 
them. The data in DYI and in our Ads Preferences tool contain each of 
the interest categories that are used to show people ads, along with 
information about the advertisers that are currently running ads based 
on their use of an advertiser's website or app. People also can choose 
not to see ads from those advertisers. We recently announced expansions 
to Download Your Information, which, among other things, will make it 
easier for people to see their data, delete it, and easily download and 
export it. More information is available at https://newsroom.fb.com/
news/2018/04/new-privacy-protections/.
    Responding to feedback that we should do more to provide 
information about websites and apps that send us information when 
people use them, we also announced plans to build Clear History. This 
new feature will enable users to see the websites and apps that send us 
information when they use them, delete this information from their 
account, and turn off Facebook's ability to store it associated with 
their account going forward.
    We have also introduced Access Your Information. This feature 
provides a new way for people to access and manage their information. 
Users can go here to delete anything from their timeline or profile 
that they no longer want on Facebook. They can also see their ad 
interests, as well as information about ads they've clicked on and 
advertisers who have provided us with information about them that 
influence the ads they see. From here, they can go to their ad settings 
to manage how this data is used to show them ads.

    Question 2. Facebook's Web Tracking: While users can more readily 
understand the types of data that Facebook collects directly from them, 
Facebook's data collection practices regarding non-users and from other 
sources are opaque. For example, Facebook collects data from its social 
plugins, Pixel, and other similar properties (``web tracking data'') 
that provide a deep understanding about an individual's web browsing 
habits.
    Would an employee with appropriate technical permissions to the 
Hive database be able to generate a list of websites viewed by a 
Facebook user, where such websites contained a Facebook tracking 
property?
    Answer. We have strict policy controls and technical restrictions 
so employees only access the data they need to do their jobs--for 
example to fix bugs, manage customer support issues or respond to valid 
legal requests. Employees who abuse these controls will be fired. 
Further information is available in our Cookies Policy, available at 
http://facebook.com/ads/about.

    Question 3. Is web tracking data used for inferring an individual's 
interests or other characteristics? Are those inferences used in 
advertising?
    Answer. Yes, but only for Facebook users. We do not use web 
browsing data to show ads to non-users or otherwise store profiles 
about non-users. Our goal is to show people content (including 
advertising) that is relevant to their interests. We use information 
people have provided on Facebook--such as things they've liked or posts 
they've engaged with--to help determine what people will be interested 
in. Like most online advertising companies, we also inform our 
judgments about what ads to show based on apps and websites that people 
use off of Facebook. People can turn off our use of web browser data 
and other data from third-party partners to show them ads through a 
control in Ads Preferences. They can also customize their advertising 
experience by removing interests that they do not want to inform the 
Facebook ads they see. In addition, a person's browser or device may 
offer settings that allow users to choose whether browser cookies are 
set and to delete them.

    Question 4. Does Facebook provide users and non-users with the 
ability to disable the collection (not merely the use) of web tracking? 
Does Facebook allow users to delete this data without requiring the 
deletion of their accounts?
    Answer. When people visit apps or websites that feature our 
technologies--like the Facebook Like or Comment button--our servers 
automatically log (i) standard browser or app records of the fact that 
a particular device or user visited the website or app (this connection 
to Facebook's servers occurs automatically when a person visits a 
website or app that contains our technologies, such as a Like button, 
and is an inherent function of Internet design); and (ii) any 
additional information the publisher of the app or website chooses to 
share with Facebook about the person's activities on that site (such as 
the fact that a purchase was made on the site). This is a standard 
feature of the Internet, and most websites and apps share this same 
information with multiple different third-parties whenever people visit 
their website or app. For example, the Senate Commerce Committee's 
website shares information with Google and its affiliate DoubleClick 
and with the analytics company Webtrends. This means that, when a 
person visits the Committee's website, it sends browser information 
about their visit to each one of those third parties. More information 
about how this works is available at https://newsroom.fb.com/news/2018/
04/data-off-facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product or use specific features like our Like button--but 
without providing any information about a specific person.
    We do not create profiles for non-Facebook users, nor do we use 
browser and app logs for non-Facebook users to show targeted ads from 
our advertisers to them or otherwise seek to personalize the content 
they see. However, we may take the opportunity to show a general ad 
that is unrelated to the attributes of the person or an ad encouraging 
the non-user to sign up for Facebook.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings. We do not sell or share this information with third-parties.
    We recently announced plans to build on this by introducing Clear 
History, a new feature that will enable users to see the websites and 
apps that send us information when they use them, delete this 
information from their accounts, and turn off our ability to store it 
associated with their accounts going forward.

    Question 5. One academic study from 2015 raised concerns about the 
privacy risks of web tracking data collected from health-related web 
pages, including an example of Facebook collecting information from the 
inclusion of a Facebook Like button on the CDC's page about HIV. Does 
Facebook impose any limitation on itself regarding the collection and 
use (including references) of web tracking data collected from health-
related pages or any other themes of websites?
    Answer. Websites and apps choose whether they use Facebook services 
to make their content and ads more engaging and relevant and whether 
they share browser data or other information with Facebook or other 
companies when people visit their sites. These services include:

  <bullet> Social plugins, such as our Like and Share buttons, which 
        make other sites more social and help people share content on 
        Facebook;

  <bullet> Facebook Login, which lets people use their Facebook account 
        to log into another website or app;

  <bullet> Facebook Analytics, which helps websites and apps better 
        understand how people use their services; and

  <bullet> Facebook ads and measurement tools, which enable websites 
        and apps to show ads from Facebook advertisers, to run their 
        own ads on Facebook or elsewhere, and to understand the 
        effectiveness of their ads.

    Many companies offer these types of services and, like Facebook, 
they also get information from the apps and sites that use them. 
Twitter, Pinterest, and LinkedIn all have similar Like and Share 
buttons to help people share things on their services. Google has a 
popular analytics service. And Amazon, Google, and Twitter all offer 
login features. These companies--and many others--also offer 
advertising services. In fact, most websites and apps send the same 
information to multiple companies each time users visit them.
    For example, when a user visits a website, their browser (for 
example Chrome, Safari or Firefox) sends a request to the site's 
server. The browser shares a user's IP address, so the website knows 
where on the Internet to send the site content. The website also gets 
information about the browser and operating system (for example Android 
or Windows) they're using because not all browsers and devices support 
the same features. It also gets cookies, which are identifiers that 
websites use to know if a user has visited before.
    A website typically sends two things back to a user's browser: 
first, content from that site; and second, instructions for the browser 
to send the user's request to the other companies providing content or 
services on the site. So, when a website uses one of our services, our 
users' browsers send the same kinds of information to Facebook as the 
website receives. We also get information about which website or app 
our users are using, which is necessary to know when to provide our 
tools.
    Our policies include a range of restrictions on the use of these 
tools for health-related advertising. For example, we do not allow ads 
that discriminate based on disability, medical or genetic condition. 
Ads also may not contain content that directly or indirectly asserts or 
implies a person's disability, medical condition (including physical or 
mental health), or certain other traits. And ads generally may not 
request health information, including physical health, mental health, 
medical treatments, medical conditions, or disabilities. And we 
prohibit anyone from using our pixel to send us data that includes 
health, financial information, or other categories of sensitive 
information.
    In addition, we also enable ad targeting options--called 
``interests'' and ``behaviors''--that are based on people's activities 
on Facebook, and when, where, and how they connect to the Internet 
(such as the kind of device they use and their mobile carrier). These 
options do not reflect people's personal characteristics, but we still 
take precautions to limit the potential for advertisers to misuse them. 
For example, we do not create interest or behavior segments that 
suggest the people in the segment are members of sensitive groups such 
as people who have certain medical conditions.

    Question 6. What changes, if any, is Facebook making to limit the 
amount of data that Facebook itself collects about users and non-users?
    Answer. As explained in our Data Policy, we collect three basic 
categories of data about people: (1) data about things people do and 
share (and who they connect with) on our services, (2) data about the 
devices people use to access our services, and (3) data we receive from 
partners, including the websites and apps that use our business tools. 
Our Data Policy provides more detail about each of the three 
categories.
    We use this information for a variety of purposes, including to 
provide, personalize, and improve our products, provide measurement, 
analytics, and other business services, promote safety and security, to 
communicate with people who use our services, and to research and 
innovate to promote the social good. We provide more information in our 
Data Policy about these uses as well.
    Our policies limit our retention of the data that we receive in 
several ways. Specifically, we store data until it is no longer 
necessary to provide our services and Facebook products, or until a 
person's account is deleted--whichever comes first. This is a case-by-
case determination that depends on things like the nature of the data, 
why it is collected and processed, and relevant legal or operational 
retention needs. For example, when a user searches for something on 
Facebook, they can access and delete that query from within their 
search history at any time, but the log of that search is deleted after 
6 months. If they submit a copy of their government-issued ID for 
account verification purposes, we delete that copy 30 days after 
submission. If a user posts something on their Facebook profile, then 
that information would be retained until they delete it or until they 
delete their account.
    We also have other policies that are designed to limit our 
retention of other types of information about people. For example, if a 
user visits a site with the ``Like'' button or another social plugin, 
we receive cookie information that we use to help show them a 
personalized experience on that site as well as Facebook, to help 
maintain and improve our service, and to protect both the user and 
Facebook from malicious activity. We delete or anonymize it within 90 
days.
    In general, when a user deletes their account, we delete things 
they have posted, such as their photos and status updates, and they 
won't be able to recover that information later. (Information that 
others have shared about them isn't part of their account and won't be 
deleted.)
    There are some limited exceptions to these policies: For instance, 
information can be accessed and preserved for an extended period when 
it is the subject of a legal request or obligation, governmental 
investigation, or investigations of possible violations of our terms or 
policies, or otherwise to prevent harm. We also retain information from 
accounts disabled for terms violations for at least a year to prevent 
repeat abuse or other term violations.
    We collect very little data about non-users (unless they choose to 
communicate directly with us) and do not create profiles or track 
browsing history for people who are not registered users of Facebook, 
for example.
    Particularly in the past few months, we've realized that we need to 
take a broader view of our responsibility to our community. Part of 
that effort is continuing our ongoing efforts to identify ways that we 
can improve our privacy practices. This includes restricting the way 
that developers can get information from Facebook and announcing plans 
to build Clear History, a new feature that will enable users to see the 
websites and apps that send us information when they use them, delete 
this information from their accounts, and turn off our ability to store 
it associated with their accounts going forward.

    Question 7. Onavo Protect: When Facebook bought a VPN service, 
Onavo Protect, the purchase was portrayed as a way for your company to 
build more efficient mobile products. Since 2016, you have encouraged 
users to install the Onavo application as a way to ``keep you and your 
data safe,'' although it does not brand itself as a Facebook product. 
Onavo is a particularly sensitive product since it provides your 
company access to all of the Internet traffic being generated by the 
device. Wall Street Journal and other publications have reported that 
Facebook has used the data captured from the Onavo for market analytics 
on competitive services.
    Does Facebook use traffic information collected from Onavo to 
monitor the adoption or popularity of non-Facebook applications?
    Answer. When people first install the iOS version of the Onavo 
Protect app, we explain that Onavo uses a VPN that ``helps keep you and 
your data safe by understanding when you visit potentially malicious or 
harmful websites and giving you a warning.'' In addition, the first 
screen that a person sees when installing the app explains, under a 
heading that reads ``Data Analysis'':

        ``When you use our VPN, we collect the info that is sent to, 
        and received from, your mobile device. This includes 
        information about: your device and its location, apps installed 
        on your device and how you use those apps, the websites you 
        visit, and the amount of data use.

        This helps us improve and operate the Onavo service by 
        analyzing your use of websites, apps and data. Because we're a 
        part of Facebook, we also use this info to improve Facebook 
        products and services, gain insights into the products and 
        services people value, and build better experiences.''

    People must tap a button marked ``Accept & Continue'' after seeing 
this information in a full-screen interstitial before they can use the 
app.
    The Android version of the Onavo Protect app offers data management 
features (e.g., the ability to block apps from using background data) 
that do not require users to enable the app's VPN.
    For both versions of the app, we communicate repeatedly and up 
front--in the App Store description, in Onavo's Privacy Policy, and in-
line at the time the user first opens the app after downloading it--
that Onavo is part of Facebook and what that means for how Onavo 
Protect handles data in other ways.
    More broadly, websites and apps have used market research services 
for years. We use Onavo, App Annie, comScore, and publicly available 
tools to help us understand the market and improve all our services. 
When people download Onavo to manage their data usage and help secure 
their connection, we are clear about the information we collect and how 
it is used. Like other VPNs, when the Onavo VPN is enabled, Onavo 
Protect helps create a secure connection, including when people are on 
public Wi-Fi. As part of this process, Onavo receives their mobile data 
traffic. This helps us improve and operate the Onavo service. Because 
we're part of Facebook, we also use this information to improve 
Facebook products and services. We let people know about this activity, 
and other ways that Onavo uses, analyzes, and shares data (for example, 
the apps installed on users' devices) in the App Store descriptions, 
and when they first open the app after downloading it.
    Facebook does not use Onavo data for Facebook product uses, nor 
does it append any Onavo data or data about individuals' app usage to 
Facebook accounts.

    Question 8. Has Facebook ever used the Onavo data in decisions to 
purchase another company or develop a product to compete against 
another company?
    Answer. See Response to Question 7.

    Question 9. Does Facebook associate Onavo traffic information with 
profile data from its social networking sites, including for analytic 
purposes?
    Answer. See Response to Question 7.

    Question 10. Facebook and Academic Research: Facebook's users place 
a significant amount of trust in the company to keep its data safe and 
protect the integrity of the platform. While Facebook has now developed 
a well-regarded ethical review processes and it is commendable that the 
company has supported academic research, any process is fallible and at 
least one of its experiments on ``emotional contagion'' was highly 
criticized by the academic community. One of the researchers behind the 
Cambridge Analytica application, Dr. Aleksandr Kogan, had frequently 
collaborated with Facebook on social science research based on its 
data, including a paper where Facebook provided data on every 
friendship formed in 2011 in every country in the world at the national 
aggregate level. Facebook users almost certainly are unaware that their 
data is used for scientific research by outside researchers nor do they 
have a credible understanding of the accountability of these 
relationships.
    Has Facebook ever provided any third party researcher with direct 
access to non-anonymized user data?
    Answer. In our Data Policy, we explain that we may use the 
information we have to conduct and support research in areas that may 
include general social welfare, technological advancement, public 
interest, health, and well-being. Researchers are subject to strict 
restrictions regarding data access and use as part of these 
collaborations.

    Question 11. Do users have the ability to opt out of such 
experiments?
    Answer. No, users do not have the ability to opt out of such 
research; however, we disclose our work with academic researchers in 
our Data Policy, and our work with academics is conducted subject to 
strict privacy and research protocols.

    Question 12. Has a researcher ever been found to have misused 
access to the non-anonymized user data? Please describe any such 
incidents.
    Answer. We are investigating all apps that, like Aleksandr Kogan's, 
had access to large amounts of information before we changed our 
platform in 2014 to reduce data access. The investigation process is in 
full swing, and it has two phases. First, a comprehensive review to 
identify every app that had access to this amount of Facebook data. And 
second, where we have concerns, we will conduct interviews, make 
requests for information (RFI)--which ask a series of detailed 
questions about the app and the data it has access to--and perform 
audits that may include on-site inspections. We have large teams of 
internal and external experts working hard to investigate these apps as 
quickly as possible. To date thousands of apps have been investigated 
and around 200 (from a handful of developers: Kogan, AIQ, Cube You, the 
Cambridge Psychometrics Center, and myPersonality) have been 
suspended--pending a thorough investigation into whether they did in 
fact misuse any data. Where we find evidence that these or other apps 
did misuse data, we will ban them and notify people whose data was 
shared with these apps. Additionally, we have suspended an additional 
14 apps, which were installed by around one thousand people. They were 
all created after 2014, after we made changes to more tightly restrict 
our platform APIs to prevent abuse. However, these apps appear to be 
linked to AIQ, which was affiliated with Cambridge Analytica. So, we 
have suspended them while we investigate further. Any app that refuses 
to take part in or fails our audit will be banned.

    Question 13. Does Facebook believe it would have a responsibility 
to report such incidents der the consent decree? If such incidents have 
occurred, has Facebook reported them to the FTC?
    Answer. The July 27, 2012 Consent Order memorializes the agreement 
between Facebook and the FTC and does not require ongoing reporting.
    Instead, and among other things, the consent order obligates 
Facebook not to misrepresent the extent to which it maintains the 
privacy or security of covered information (Section I), not to 
materially exceed the restrictions of a privacy setting that applies to 
nonpublic user information without affirmative express consent (Section 
II), and to implement a comprehensive privacy program that is subjected 
to ongoing review by an independent assessor (Sections IV and V). 
Facebook accurately represented the operation of its developer Platform 
and the circumstances under which people could share data (including 
friends data) with developers, honored the restrictions of all privacy 
settings that covered developer access to data, and implemented a 
comprehensive privacy program build on industry-leading controls and 
principles, which has undergone ongoing review by an independent 
assessor approved by the FTC.

    Question 14. Cambridge Analytica Timeline Questions: There have 
been conflicting reports regarding the timeline of Facebook's response 
to the ``thisisyourdigitallife'' application developed for Cambridge 
Analytica. Please provide specific information about Facebook's 
response to the matter.
    With respect to the harvesting of user data from the 
``thisisyourdigitallife'' application, for each the following (a) 
Cambridge Analytica, (b) Christopher Wylie, and (c) Dr. Kogan, on what 
date did Facebook:

  1.  First contact that party about the data collected from the 
        application?

  2.  Seek certification that the partys copy of the data was 
        destroyed?

  3.  Receive the certification from party?

    Answer. On December 11, 2015, The Guardian published an article 
reporting that Kogan and his company, GSR, may have passed information 
the app had obtained from Facebook users to SCL Elections Ltd. (SCL)/
Cambridge Analytica. If this occurred, Kogan and his company violated 
Facebook's Platform Policies, which explicitly prohibited selling user 
data accessed from Facebook and from sharing any user data accessed 
from Facebook with any ad network, data broker or other advertising or 
monetization related service.
    For this reason, Facebook immediately banned the app from our 
platform and investigated what happened and what further action we 
should take to enforce our Platform Policies. Facebook also contacted 
Kogan/GSR and demanded that they explain what data they collected, how 
they used it, and to whom they disclosed it. Facebook further insisted 
that Kogan and GSR, as well as other persons or entities to whom they 
had disclosed any such data, account for and irretrievably delete all 
such data and information.
    Facebook also contacted Cambridge Analytica to investigate the 
allegations reflected in the reporting. On January 18, 2016, Cambridge 
Analytica provided written confirmation to Facebook that it had deleted 
the data received from Kogan and that its server did not have any 
backups of that data. On June 11, 2016, Kogan executed and provided to 
Facebook signed certifications of deletion on behalf of himself and 
GSR. The certifications also purported to identify all of the 
individuals and entities that had received data from GSR (in addition 
to Kogan and his lab), listing the following: SCL, Eunoia Technologies 
(a company founded by Christopher Wylie), and a researcher at the 
Toronto Laboratory for Social Neuroscience at the University of 
Toronto. On July 7, 2016, a representative of the University of Toronto 
certified that it deleted any user data or user-derived data. On August 
16, 2016, Eunoia (executed by Eunoia Founder Christopher Wylie) 
certified that it deleted any user and user-derived data. On September 
6, 2016, counsel for SCL informed counsel for Facebook that SCL had 
permanently deleted all Facebook data and derivative data received from 
GSR and that this data had not been transferred or sold to any other 
entity. On April 3, 2017. Alexander Nix, on behalf of SCL, certified to 
Facebook, that it deleted the information that it received from GSR or 
Kogan.
    Because all of these concerns relate to activity that took place 
off of Facebook and its systems, we have no way to confirm whether 
Cambridge Analytica may have Facebook data without conducting a 
forensic audit of its systems. Cambridge Analytica has agreed to submit 
to a forensic audit, but we have not commenced that yet due to a 
request from the UK Information Commissioner's Office, which is 
simultaneously investigating Cambridge Analytica (which is based in the 
UK). And even with an audit, it may not be possible to determine 
conclusively what data was shared with Cambridge Analytica or whether 
it retained data after the date it certified that data had been 
deleted.
    The existing evidence that we are able to access supports the 
conclusion that Kogan only provided SCL with data on Facebook users 
from the United States. While the accounts of Kogan and SCL conflict in 
some minor respects not relevant to this question, both have 
consistently maintained that Kogan never provided SCL with any data for 
Facebook users outside the United States. These consistent statements 
are supported by a publicly released contract between Kogan's company 
and SCL.

    Question 15. Was Facebook aware at that time that Cambridge 
Analytica had developed other platform applications to collect user 
data? What applications did it delete due to associations with 
Cambridge Analytica and when were they removed from the platform?
    Answer. Our investigation of Cambridge Analytica's advertising 
activities is ongoing, and we have banned Cambridge Analytica from 
purchasing ads on our platform. Cambridge Analytica generally utilized 
custom audiences, some of which were created from contact lists and 
other identifiers that it generated and uploaded to our system to 
identify the people it wanted to deliver ads to on Facebook, and in 
some instances, refined those audiences with additional targeting 
attributes.

    Question 16. Facebook's ``People You May Know'' Feature: Facebook's 
``People You May Know'' feature has drawn attention for disclosures 
that reveal sensitive relationships, such as psychiatrists who have 
reported that their clients were recommended to each other.
    What pieces of data does Facebook use for the PYMK feature? Has it 
ever used data collected from data brokers for this purpose?
    Answer. People You May Know can help Facebook users find friends on 
Facebook. People You May Know suggestions come from things such as 
having friends in common, or mutual friends; being in the same Facebook 
group or being tagged in the same photo; users' networks (for example, 
school or work); and contacts users have uploaded. We give people 
context when we suggest someone with mutual friends. Users may delete 
contacts that they have uploaded to Facebook, in which case that 
information is no longer used for People You May Know. Facebook does 
not allow advertisers to target ads based o People You May Know. 
Facebook does not use data collected from data brokers for PYMK.

    Question 17. Has PYMK ever used location to make recommendations 
and does it currently? If so, is this based on device reported 
geolocation or IP address?
    Answer. PYMK uses country-level location to help users find 
friends.

    Question 18. Does Facebook provide users with the ability to opt 
out of data collected from them or data about them being used by PYMK?
    Answer. See Response to Question 16.

    Question 19. Has the PYMK feature ever bypassed the privacy 
controls in order to perform its analytics for recommendations? For 
example, if a user's friends list is set to private, will Facebook 
still use this data to make recommendations to others?
    Answer. See Response to Question 16.

    Question 20. Other Cambridge Analyticas: Over a month ago, Mr. 
Zuckerberg stated that one of Facebook's next responsibilities was to 
``make sure that there aren't any other Cambridge Analyticas out 
there.'' One would expect that review process would include identifying 
past cases where Facebook identified or took action against third-party 
developers over their data collection practices.
    When the company Klout automatically created accounts and assigned 
social popularity scores for the children of Facebook users, did 
Facebook send a deletion letter or exercise its right to audit?
    Answer. In 2011, Facebook contacted Klout regarding potential 
violations of Facebook polices. Facebook determined that these issues 
had been resolved by Dec. 2011.
    We use a variety of tools to enforce Facebook policies against 
violating parties, including developers. We review tens of thousands of 
apps per year and regularly disapprove noncompliant apps as part of our 
proactive review process. We also use tools like cease and desist 
letters, account suspensions, letter agreements, and civil litigation. 
For example, since 2006, Facebook has sent over 1,150 cease-and-desist 
letters to over 1,600 targets. In 2017, we took action against about 
370,000 apps, ranging from imposing certain restrictions to removal of 
the app from the platform. Moreover, we have required parties who have 
procured our data without authorization to delete that data. We have 
invested significant resources in these efforts. Facebook is presently 
investigating apps that had access to large amounts of information 
before we changed our platform policies in 2014 to significantly reduce 
the data apps could access. To date around 200 apps (from a handful of 
developers: Kogan, AIQ, Cube You, the Cambridge Psychometrics Center, 
and myPersonality) have been suspended--pending a thorough 
investigation into whether they did in fact misuse any data.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So, we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.

    Question 21. How many times was Facebook made aware of privacy 
breaches by applications?
    Answer. Facebook's policies regarding third-party usage of its 
platform technologies have prohibited--and continue to prohibit--those 
third-party app developers from selling or licensing user data obtained 
from Facebook and from sharing any user data obtained from Facebook 
with any ad network, data broker or other advertising or monetization-
related service. We will investigate all apps that had access to large 
amounts of information before we changed our platform in 2014 to reduce 
data access, and we will conduct a full audit of any app with 
suspicious activity.

    Question 22. How many times did Facebook send a deletion letter to 
an application developer for strictly privacy violations?
    Answer. We use a variety of tools to enforce Facebook policies 
against violating parties, including developers. We review tens of 
thousands of apps per year and regularly disapprove noncompliant apps 
as part of our proactive review process. We also use tools like cease 
and desist letters, account suspensions, letter agreements, and civil 
litigation. For example, since 2006, Facebook has sent over 1,150 
cease-and-desist letters to over 1,600 targets. In 2017, we took action 
against about 370,000 apps, ranging from imposing certain restrictions 
to removal of the app from the platform. Moreover, we have required 
parties who have procured our data without authorization to delete that 
data. We have invested significant resources in these efforts. Facebook 
is presently investigating apps that had access to large amounts of 
information before we changed our platform policies in 2014 to 
significantly reduce the data apps could access. To date around 200 
apps (from a handful of developers: Kogan, AIQ, Cube You, the Cambridge 
Psychometrics Center, and myPersonality) have been suspended--pending a 
thorough investigation into whether they did in fact misuse any data.

    Question 23. How many times did Facebook perform an audit on an 
application for strictly privacy violations?
    Answer. See Response to Question 22.

    Question 24. How many times did Facebook initiate litigation for 
strictly privacy violations?
    Answer. See Response to Question 22.

    Question 25. How many times did Facebook impose a moratorium or ban 
on an application developer for strictly privacy violations?
    Answer. See Response to Question 22.

    Question 26. Does Facebook plan to provide public disclosure of 
incidents where it finds that user data was improperly obtained or 
transferred by third-party application developers?
    Answer. We are in the process of investigating every app that had 
access to a large amount of information before we changed our Platform 
in 2014. The investigation process is in full swing, and it has two 
phases. First, a comprehensive review to identify every app that had 
access to this amount of Facebook data and to focus on apps that 
present reason for deeper investigation. And second, where we have 
concerns, we will conduct interviews, make requests for information 
(RFI)--which ask a series of detailed questions about the app and the 
data it has access to--and perform audits using expert firms that may 
include on-site inspections. We have large teams of internal and 
external experts working hard to investigate these apps as quickly as 
possible. To date thousands of apps have been investigated and around 
200 apps have been suspended--pending a thorough investigation into 
whether they did in fact misuse any data. Where we find evidence that 
these or other apps did misuse data, we will ban them and let people 
know.
    These apps relate to a handful of developers: Kogan, AIQ, Cube You, 
the Cambridge Psychometrics Center, and myPersonality, with many of the 
suspended apps being affiliated with the same entity. Many of these 
suspensions include apps that appear to be ``test'' apps that were 
never released to the public, and therefore would not have acquired 
significant user data, although our investigation into these apps is 
ongoing.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So, we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.
    We will commit to briefing your staff on future developments.

    Question 27. Facebook Privacy Settings: This month, Facebook began 
to roll out changes to comply with new European data protection rules. 
These updates include a new consent process that affects how Facebook 
uses sensitive data and whether facial recognition is enabled, among 
other factors.
    Has Facebook engaged in user testing or other analysis that 
assessed how platform changes and interface design influence the 
adoption of certain privacy settings?
    Answer. We routinely test new products and consent flows before 
rolling them out broadly to ensure that there are no bugs or unintended 
behaviors that would lead to an unintended or negative user experience. 
In designing the GDPR roll out, like all product roll outs, we rely on 
design principles and research derived from numerous sources, including 
user research and academic research, to develop experiences that are 
engaging and useful for the broadest number of people. We also 
conducted cross-disciplinary workshops, called ``design jams,'' with 
experts around the world to collect input on user interaction 
principles that would inform our work. We have learned from our work 
and other design research in the field that people are less likely to 
make informed or thoughtful decisions when bombarded with many 
different choices in succession. To avoid so-called ``notice fatigue,'' 
we streamlined the number of data choices people are presented with as 
part of the GDPR roll out to 2-3 choices (depending on the user's 
existing settings), responding to early testing of a version with 
several additional choices, which the people who tested this version 
did not like. We also used a layered approach that gave people the 
information needed to make an informed choice on the first screen, 
while enabling ready access to deeper layers of information and 
settings for those interested in a particular topic. We will continue 
to monitor how these and other privacy settings perform with users. 
It's important to us that people have the information they need to make 
the privacy choices that are right for them.

    Question 28. Has Facebook ever tested platform changes and 
interface design to determine whether it would lead to users allowing 
more permissive privacy settings?
    Answer. At Facebook, we make decisions about privacy through a 
cross-functional, cross-disciplinary effort that involves participants 
from departments across the company. This process is a collaborative 
approach to privacy that seeks to promote strong privacy protections 
and sound decision making at every stage of the product development 
process. Our privacy program is responsible for reviewing product 
launches, major changes, and privacy-related bug fixes to products and 
features to ensure that privacy policies and procedures are 
consistently applied and that key privacy decisions are implemented for 
the product. This approach has several key benefits.
    First, it is designed to consider privacy early in the product 
development process. This allows us to consider the benefits that a 
feature is intended to have for people who use our services, how data 
will be used to deliver those benefits, and how we can build features 
from the ground up that include privacy protections to enable those 
benefits while protecting people's information and putting them in 
control.
    Second, while complying with our obligations is critically 
important, taking a cross-disciplinary approach to privacy encourages 
us to think about data protection as more than just a compliance 
exercise. Instead, we evaluate how to design privacy into the features 
that we build and consider this from the perspective of things like how 
we design interfaces that make data use intuitive, taking a consistent 
approach to privacy across our services, and building protections in 
how our software is engineered. Accordingly, while we scale our privacy 
review process depending on the complexity of a particular data use, 
reviews typically involve experts who evaluate proposed data practices 
from the perspective of multiple disciplines.
    As part of our consent agreement with the Federal Trade Commission, 
we submit a report to the FTC every two years. That report is based on 
assessments conducted by an independent third party on a bi-annual 
basis, which require us to submit evidence to demonstrate the 
effectiveness of the program.

    Question 29. EU Data Protection Regulations: In Europe, under new 
data protection regulations, Facebook will be required to provide users 
will more clear opportunities to provide consent and afford more 
protections to that data. While Facebook has stated that it will offer 
some of those protections for users outside of Europe, it has not 
committed to providing all of these protection. I am interested in what 
rules Congress should put into place for such data.
    Would Facebook support a requirement that users be provided with 
clear and plain information about the use of their data?
    Answer. Yes. We work hard to provide clear information to people 
about how their information is used and how they can control it. We 
agree that companies should provide clear and plain information about 
their use of data and strive to do this in our Data Policy, in in-
product notices and education, and throughout our product--and we 
continuously work on improving this. We provide the same information 
about our data practices to users around the world and are required 
under many existing laws--including U.S. laws (e.g., Section 5 of the 
FTC Act) to describe our data practices in language that is fair and 
accurate.

    Question 30. Would Facebook support a requirement that users be 
allowed to download and take their data to competitive services?
    Answer. Facebook already allows users to download a copy of their 
information from Facebook. This functionality, which we've offered for 
many years, includes numerous categories of data, including About Me, 
Account Status History, Apps, Chat, Follower, Following, Friends, 
Messages, Networks, Notes, and more. We recently launched improvements 
to our ``Download Your Information'' tool, including to give people 
choices about whether they want to download only certain types of 
information and about the format in which they want to receive the 
download, to make it easier for people to use their information once 
they've retrieved it.

    Question 31. Would Facebook support a requirement that users are 
assured that their data is actually deleted when they request its 
deletion or close their account?
    Answer. In general, when a user deletes their account, we delete 
things they have posted, such as their photos and status updates, and 
they won't be able to recover that information later. (Information that 
others have shared about them isn't part of their account and won't be 
deleted.)
    There are some limited exceptions to these policies: For instance, 
information can be accessed and preserved for an extended period when 
it is the subject of a legal request or obligation, governmental 
investigation, or investigations of possible violations of our terms or 
policies, or otherwise to prevent harm. We also retain information from 
accounts disabled for terms violations for at least a year to prevent 
repeat abuse or other term violations.

    Question 32. Would Facebook support a requirement of mandatory and 
timely disclosure of breaches?
    Answer. Facebook is generally open to the idea of breach 
notification requirements, particularly legislation that would 
centralize reporting and ensure a consistent approach across the United 
States. For example, in Europe, the GDPR requires notification to a 
lead supervisory authority, rather than individual member states, in 
cases of a data breach. In the United States, however, there is no 
centralized notification scheme, and instead, reporting obligations 
vary widely across all 50 states. This complexity makes it harder to 
respond appropriately and swiftly to protect people in the event of a 
data breach. We believe this is an important issue and an area that is 
ripe for thoughtful regulation.

    Question 33. Would Facebook support a requirement for a baseline 
technical and organizational measures to ensure adequate data security?
    Answer. Facebook is generally not opposed to regulation but wants 
to ensure it is the right regulation. The issues facing the industry 
are complex, multi-faceted, and affect an important part of peoples' 
lives. As such, Facebook is absolutely committed to working with 
regulators, like Congress, to craft the right regulations. Facebook 
would be happy to review any proposed legislation and provide comments.

    Question 34. Russian Interference: As early as June 2015, the New 
York Times Magazine had documented the Internet Research Agency's 
interest in interfering with American politics, and even named specific 
Facebook accounts associated in the disinformation effort. The way that 
Facebook is designed, outsiders have very little insight into these 
efforts. And yet, the Russian media outlet RBC had identified accounts 
that were paying to spread content several months before Facebook took 
notice. New York Times also claims that as early as November 2016, 
Facebook's Chief Security Officer Alex Stamos had uncovered evidence 
that Russian operatives used the platform to weaponized information 
obtained from the hacking of the DNC and the Clinton campaign.
    In a CNN interview, Mr. Zuckerberg for the first time disclosed 
that Facebook had found ``a lot of different accounts coming from 
Macedonia'' to spread false news during the Alabama special election. 
That election, another one decided by only small margin, was months 
ago. Mr. Zuckerberg acknowledged that Facebook expects there will be 
attempts to interfere in the midterm elections with newer tactics, a 
belief shared by the intelligence community.
    Will you commit to providing Congress with information about 
disinformation and propaganda campaigns on a timely basis prior to the 
midterm elections?
    Answer. We recently outlined steps we are taking on election 
integrity here: https://newsroom.fb.com/news/2018/03/hard-questions-
election-security/.
    Further, pursuant to the new transparency measures Facebook is 
launching, all advertisers who want to run ads with political content 
targeted at the U.S. will have to confirm their identity and location 
by providing either a U.S. driver's license or passport, last four 
digits of their social security number, and a residential mailing 
address. Ads that include political content and appear on Facebook or 
Instagram will include a ``Paid for by'' disclaimer provided by the 
advertisers that shows the name of the funding source for the ad.

    Question 35. The New York Times reports details of Russian 
interference were removed from the April 2017 report ``Information 
Operations and Facebook'' by management due to political and business 
reasons. Will Facebook provide Congress with the original draft of the 
report?
    Answer. In the run-up to the 2016 elections, we were focused on the 
kinds of cybersecurity attacks typically used by nation states, for 
example phishing and malware attacks. And we were too slow to spot this 
type of information operations interference. Since then, we've made 
important changes to prevent bad actors from using misinformation to 
undermine the democratic process.
    This will never be a solved problem because we're up against 
determined, creative and well-funded adversaries. But we are making 
steady progress. Here is a list of the 10 most important changes we 
have made:

  <bullet> Ads transparency. Advertising should be transparent: users 
        should be able to see all the ads an advertiser is currently 
        running on Facebook, Instagram, and Messenger. And for ads with 
        political content, we've created an archive that will hold ads 
        with political content for seven years--including information 
        about ad impressions and spend, as well as demographic data 
        such as age, gender, and location. People in Canada and Ireland 
        can already see all the ads that a Page is running on 
        Facebook--and we're launching this globally in June.

  <bullet> Verification and labeling. Every advertiser will now need 
        confirm their ID and location before being able to run any ads 
        with political content in the U.S. All ads with political 
        content will also clearly state who paid for them.

  <bullet> Updating targeting. We want ads on Facebook to be safe and 
        civil. We thoroughly criteria advertisers can use to ensure 
        they are consistent with our principles. As a result, we 
        removed nearly one-third of the targeting segments used by the 
        IRA. We continue to allow some criteria that people may find 
        controversial. But we do see businesses marketing things like 
        historical books, documentaries or television shows using them 
        in legitimate ways.

  <bullet> Better technology. Over the past year, we've gotten 
        increasingly better at finding and disabling fake accounts. We 
        now block millions of fake accounts each day as people try to 
        create them--and before they've done any harm. This is thanks 
        to improvements in machine learning and artificial 
        intelligence, which can proactively identify suspicious 
        behavior at a scale that was not possible before--without 
        needing to look at the content itself.

  <bullet> Action to tackle fake news. We are working hard to stop the 
        spread of false news. We work with third party fact checking 
        organizations to limit the spread of articles with rated false. 
        To reduce the spread of false news, we remove fake accounts and 
        disrupt economic incentives for traffickers of misinformation. 
        We also use various signals, including feedback from our 
        community, to identify potential false news. In countries where 
        we have partnerships with independent third-party fact-
        checkers, stories rated as false by those fact-checkers are 
        shown lower in News Feed. If Pages or domains repeatedly create 
        or share misinformation, we significantly reduce their 
        distribution and remove their advertising rights. We also want 
        to empower people to decide for themselves what to read, trust, 
        and share. We promote news literacy and work to inform people 
        with more context. For example, if third-party fact-checkers 
        write articles about a news story, we show them immediately 
        below the story in the Related Articles unit. We also notify 
        people and Page Admins if they try to share a story, or have 
        shared one in the past, that's been determined to be false. In 
        addition to our own efforts, we're learning from academics, 
        scaling our partnerships with third-party fact-checkers, and 
        talking to other organizations about how we can work together.

  <bullet> Significant investments in security. We're doubling the 
        number of people working on safety and security from 10,000 
        last year to over 20,000 this year. We expect these investments 
        to impact our profitability. But the safety of people using 
        Facebook needs to come before profit.

  <bullet> Industry collaboration. Recently, we joined 34 global tech 
        and security companies in signing a TechAccord pact to help 
        improve security for everyone.

  <bullet> Information sharing and reporting channels. In the 2017 
        German elections, we worked closely with the authorities there, 
        including the Federal Office for Information Security (BSI). 
        This gave them a dedicated reporting channel for security 
        issues related to the Federal elections.

  <bullet> Tracking 40+ elections. In recent months, we've started to 
        deploy new tools and teams to proactively identify threats in 
        the run-up to specific elections. We first tested this effort 
        during the Alabama Senate election, and plan to continue these 
        efforts for globe, including the U.S. midterms. Last year we 
        used public service announcements to help inform people about 
        fake news in 21 separate countries, including in advance of 
        French, Kenyan and German elections.

  <bullet> Action against the Russia-based IRA. In April, we removed 70 
        Facebook and 65 Instagram accounts--as well as 138 Facebook 
        Pages--controlled by the IRA primarily targeted either at 
        people living in Russia or Russian-speakers around the world 
        including from neighboring countries like Azerbaijan, 
        Uzbekistan, and Ukraine. The IRA has repeatedly used complex 
        networks of inauthentic accounts to deceive and manipulate 
        people in the U.S., Europe, and Russia--and we don't want them 
        on Facebook anywhere in the world.

    We are taking steps to enhance trust in the authenticity of 
activity on our platform, including increasing ads transparency, 
implementing a more robust ads review process, imposing tighter content 
restrictions, and exploring how to add additional authenticity 
safeguards.

    Question 36. Hate Speech: Over the past months, human rights 
organizations and other civil society groups have raised attention to 
concerns over Facebook's insufficient response to hate speech in 
countries where there is a credible threat of violence. In addition to 
Myanmar, the New York Times recently published an article on how mob 
violence against Muslims in Sri Lanka was spurred by a baseless rumor 
that a Muslim restaurant owner was secretly feeding sterilization pills 
to women from the Sinhalese-Buddhist community.
    Mr. Zuckerberg and other members of Facebook management have 
expressed a renewed commitment to providing resources to address these 
threats, including taking action to address those who generate hate 
speech. As Mr. Zuckerberg noted, AI will not be able to resolve such 
complex matters in the near or medium term, necessitating teams that 
deal with local languages and context. While Facebook currently has 
approximately 1,200 German content reviewers to comply with 
regulations, it only has plans to hire ``dozens'' of Burmese content 
reviewers. Hiring staff with reviewers, market specialists and analysts 
with the appropriate expertise can be difficult, but these reports of 
violence demonstrate the human cost of insufficient community resources 
to handle content and complaints.
    What ``specific product changes'' will you be making to address 
hate speech in such countries? Will the new product changes enable 
content that violates Facebook's Community Standards to be removed 
within 24 hours?
    Answer. We've been too slow to deal with the hate and violence in 
places like Myanmar and Sri Lanka. The challenges we face in a country 
that has fast come online are very different than those in other parts 
of the world, and we are investing in people, technology, and programs 
to help address them as effectively as possible.
    We are increasing the number of Burmese and Sinhalese-language 
content reviewers as we continue to grow and invest in Myanmar and Sri 
Lanka. Our goal is always to have the right number of people with the 
right native language capabilities to ensure incoming reports are 
reviewed quickly and effectively. That said, there is more to tackling 
this problem than reported content. A lot of abuse may go unreported, 
which is why we are supplementing our hiring with investments in 
technology and programs.
    We are building new tools so that we can more quickly and 
effectively detect abusive, hateful, or false content. We have, for 
example, designated several hate figures and organizations for 
repeatedly violating our hate speech policies, which has led to the 
removal of accounts and content that support, praise, or represent 
these individuals or organizations. We are also investing in artificial 
intelligence that will help us improve our understanding of dangerous 
content.
    We are further strengthening our civil society partner network so 
that we have a better understanding of local context and challenges. We 
are focusing on digital literacy education with local partners in 
Myanmar and Sri Lanka. For example, we launched a local language 
version of our Community Standards (https://www.facebook.com/safety/
resources/myanmar) to educate new users on how to use Facebook 
responsibly in 2015 and we have been promoting these actively in 
Myanmar, reaching over 8 million people through promotional posts on 
our platform alone. We've also rolled out several education programs 
and workshops with local partners to update them on our policies and 
tools so that they can use this information in outreach to communities 
around the country. One example of our education initiatives is our 
work with the team that developed the Panzagar initiative (https://
www.facebook.com/supportflowerspeech) to develop the Panzagar 
counterspeech Facebook stickers to empower people in Myanmar to share 
positive messages online. We also recently released locally illustrated 
false news tips, which were promoted on Facebook and in consumer print 
publications. We have a dedicated Safety Page for Myanmar (https://
www.facebook.com/safety/resources/myanmarand) and have delivered hard 
copies of our local language Community Standards and safety and 
security tips to civil society groups in Myanmar who have distributed 
them around the country for trainings. Similarly, in Sri Lanka, we ran 
a promotion in English, Sinhalese, and Tamil at the top of News Feeds 
in April 2017 to educate people on our Community Standards, in 
particular hate speech. The content has been viewed almost 100M times 
by almost 4M people.

    Question 37. Does Facebook believe that it has hired or will hire 
within the year a sufficient number of content reviewers and 
established local emergency points of contact for all regions where its 
platform could inadvertently facilitate communal violence?
    Answer. We are investing in people, technology, and programs to 
help address the very serious challenges we have seen in places like 
Myanmar and Sri Lanka.
    Our content review teams around the world--which grew by 3,000 
people last year--work 24 hours a day and in over 50 languages.
    Over the last two years, we have added dozens more Burmese language 
reviewers to handle reports from users across our services, and we plan 
to more than double the number of content reviewers focused on user 
reports. We also have increased the number of people across the company 
working on Myanmar-related issues and we have a special product team 
working to better understand the local challenges and build the right 
tools to help keep people in the country safe. We will continue to hire 
more staff dedicated to Myanmar, including Burmese speakers and policy 
experts.
    In Sri Lanka, we are increasing the number of Sinhalese language 
experts sevenfold. From a programmatic perspective, we will continue to 
work with experts to develop safety resources and counter-speech 
campaigns in these regions and conduct regular training for civil 
society and community groups on using our tools.
    Facebook is committed to continuing to provide a platform where 
people can raise awareness about human rights abuses around the globe, 
and we have a track record of partnering with experts and local 
organizations on these issues. For example, we have been part of the 
Global Network Initiative (GNI) since 2013. That organization brings 
together industry, civil society, academics, and socially-responsible 
investors to address freedom-of-expression and privacy issues online. 
An independent assessor conducted a human-rights-impact assessment of 
Facebook to confirm that we comply with GNI's principles.

    Question 38. What product changes, operational decisions, and 
resource allocations has Facebook made in order to avoid future risks 
such as those made abundantly clear in Myanmar and Sri Lanka?
    Answer. We are working to enable freedom of expression around the 
globe and ensure that our platform is safe. Our Community Standards 
account for situations in which people may be raising awareness of and/
or condemning violence; however, they prohibit hate speech and 
celebrating graphic violence. Drawing that line can be complex, which 
is why we work with experts and external groups, including local civil 
society organizations in places like Myanmar and Sri Lanka, to ensure 
that we are taking local context and challenges into account. Our 
content review team, which includes native language speakers, carefully 
reviews reports that we receive from the public, media, civil society, 
and governments. We remove content that violates our policies, 
regardless of who posted the content (including the government). We 
have also been working with local communities and NGOs for years in 
these regions to educate people about hate speech, news literacy, and 
our polices. For example, we have introduced an illustrated, Myanmar 
language specific copy of our community standards and a customized 
safety Page, which we work with our local partners to promote, and we 
recently ran a series of public service ads in Myanmar that we 
developed with the News Literacy Project to help inform people about 
these important issues.

    Question 39. What emergency processes for escalation do you have in 
place for situations where there is content inciting people to 
violence, such as what happened in Sri Lanka?
    Answer. We have clear rules against hate speech and content that 
incites violence, and we remove such content as soon as we're made 
aware of it. In response to the situation in Sri Lanka, we're building 
up teams that deal with reported content, working with civil society 
and government to learn more about local context and changing language, 
and exploring the use of technology to help. We want to provide direct 
reporting channels to civil society partners so that they can alert us 
to offline activity that might prompt an increase in violating content 
on Facebook. We work with local civil society organizations to 
understand what types of reporting channels would best serve their 
specific communities and are engaging with organizations in Sri Lanka 
to understand what more we can do. We are committed to having the right 
policies, products, people, and partnerships in place to help keep our 
community in Sri Lanka safe.

    Question 40. In the context of Sri Lanka and Myanmar, rumors 
present a credible threat of violence and have resulted in violence. 
Are rumors such as those in Sri Lanka interpreted as violations under 
your existing ``credible threat'' policy? How do your systems or 
reporting mechanisms account for such country or context specific 
threats? Given how quickly such content can lead to violence, do you 
apply different processes or response time targets to prioritize 
content categorized as hate speech?
    Answer. We require everyone on Facebook to comply with our 
Community Standards, and we carefully review reports of threatening 
language to identify serious threats of harm to public and personal 
safety. We recognize our services have an important role to play in 
countries that are fast coming online. That's why we're investing in 
people, technology, and programs to address the challenges we face in 
these countries. We've added more local language reviewers, established 
dedicated product teams, rolled out better reporting tools and appeals, 
and are removing fake accounts, hate groups and individuals. We remove 
credible threats of physical harm to individuals and specific threats 
of theft, vandalism, or other financial harm. We also prohibit the use 
of Facebook to facilitate or organize criminal activity that causes 
physical harm to people, businesses or animals, or financial damage to 
people or businesses, and we work with law enforcement when we believe 
there is a genuine risk of physical harm or direct threats to public 
safety. As part of our work in places like Sri Lanka and Myanmar, we 
are strengthening our relationships with civil society organizations to 
ensure we are taking local context, challenges, and tensions into 
account.

    Question 41. The anti-Muslim monk, U Wirathu, was reportedly banned 
by Facebook in January 2018 after having been frequently reported for 
hate content. Despite several bans, he was able to recreate a presence 
on the platform on several occasions and there are to this day accounts 
which carry his name. What mechanisms do you have in place to remove 
users who repeatedly breach Facebook's Community Standards and what 
actions are you taking to guarantee their permanent removal?
    Answer. Our Community Standards (https://www.facebook.com/community
standards) prohibit hate speech that targets people based on their 
race, ethnic identity, or religion. We remove violating content when it 
is reported to us. We also have designated several hate figures and 
hate organizations in Myanmar. These include Wirathu, Thuseitta, Ma Ba 
Tha, and Parmaukkha. This means these individuals or organizations are 
not allowed a presence on Facebook, and we will remove accounts and 
content that support, praise or represent these individuals or 
organizations.
    In addition to removing content that violates our Community 
Standards or Page Terms, we disable the accounts of repeat infringers 
in appropriate circumstances.
    Over the last several months, we have proactively searched for and 
removed content on the platform that praises, supports, or represents 
Wirathu.

    Question 42. Human Rights--Iran: Iranian women's rights and pro-
democracy advocates have reported that copyright infringement and 
content reporting mechanisms have been instrumentalized by pro-
government actors to take down their Instagram pages and Facebook 
Groups over the past several years. While community reporting 
mechanisms are necessary, and often legally required, for operating a 
platform as large as Facebook, the threat posed by abusive reporting 
also demonstrates the need for human reviewers. Likewise, the trolling, 
hacking, and impersonation that frequently target Iranian dissidents 
also necessitate teams that are empowered to deal with the Persian 
language and the Iranian context. However, many activists have 
struggled to establish relationships or receive help from Facebook to 
have such issues addressed.
    Answer. We recognize that individuals and entities may purposefully 
report content en masse in an attempt to stifle speech. That is why we 
believe content must be reviewed with the appropriate context.
    We are proud that our platform has been used to inspire people to 
stand up for their beliefs and values, even in the face of intimidating 
opposition, and we regularly provide tools and programmatic resources 
to activists and journalists. We also make materials available to 
ensure activists and journalists are able to use Facebook safely.
    Based on the foundation established in the Universal Declaration of 
Human Rights and the UN Guiding Principles on Business and Human 
Rights, Facebook joined the ICT-sector specific Global Network 
Initiative in 2013. As part of our commitments as a GNI member, we 
routinely conduct human rights impact assessments of our product and 
policy decisions and engage with external stakeholders to inform this 
work. We are also independently assessed against our compliance with 
the GNI Principles every two years.

    Question 43. What measures, such as verification of accounts, has 
Facebook taken to address the impersonation of Iranian activists, 
cultural dissidents, and other public figures?
    Answer. Claiming to be another person violates our Community 
Standards, and we want to make it harder for anyone to be impersonated 
on our platform. Users can also report accounts that are impersonating 
them. We've developed several techniques to help detect and block this 
type of abuse. At the time someone receives a friend request, our 
systems are designed to check whether the recipient already has a 
friend with the same name, along with a variety of other factors that 
help us determine if an interaction is legitimate. Further, we recently 
announced new features that use face recognition technology that may 
help detect when someone is using another user's image as their profile 
photo--which helps stop impersonation. This is an area we're 
continually working to improve so that we can provide a safe and secure 
experience on Facebook.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Brian Schatz to 
                            Mark Zuckerberg
    Question 1. You said at the hearing that Facebook users own and 
control their data. But I am not persuaded that the company has done an 
adequate job explaining, for example, what specific information the 
company collects about individuals, how that information is being used 
and kept safe, and how they can easily delete or modify it. If you and 
your company are committed to putting privacy first, I urge that you 
answer these questions in a precise, accurate, but straightforward way. 
I understand your legal team will be reviewing this, but I hope you 
resist complexity and answer these questions in a way that any American 
could understand.
    Please list and describe all of the types and categories of data 
that Facebook collects and how Facebook uses this data. This includes, 
but is not limited to, data collected:

  <bullet> on the Facebook platform (e.g., posts, messages, and search 
        history);

  <bullet> off the Facebook platform (quantify how ubiquitous 
        Facebook's plugins are on the web, for instance);

  <bullet> on products offered by Facebook family companies;

  <bullet> on specific devices (e.g., smartphone microphone and camera, 
        other apps, data from the operating system);

  <bullet> via third-party companies and app developers;

  <bullet> from data brokers; and

  <bullet> from publishers.

    For each, describe whether users own the data, and what options 
users have to modify or delete the data.
    Answer. We believe that it's important to communicate with people 
about the information that we collect and how people can control it. 
That is why we work hard to provide this information to people in a 
variety of ways: in our Data Policy, and in Privacy Basics, which 
provides walkthroughs of the most common privacy questions we receive. 
Beyond simply disclosing our practices, we also think it's important to 
give people access to their own information, which we do through our 
Download Your Information and Access Your Information tools, Activity 
Log, and Ad Preferences, all of which are accessible through our 
Privacy Shortcuts tool. We also provide information about these topics 
as people are using the Facebook service itself.
    We've heard loud and clear that privacy settings and other 
important tools are too hard to find and that we must do more to keep 
people informed. So, we're taking additional steps to put people more 
in control of their privacy. For instance, we redesigned our entire 
settings menu on mobile devices from top to bottom to make things 
easier to find. We also created a new Privacy
    Shortcuts in a menu where users can control their data in just a 
few taps, with clearer explanations of how our controls work. The 
experience is now clearer, more visual, and easy-to-find. Furthermore, 
we also updated our terms of service that include our commitments to 
everyone using Facebook. We explain the services we offer in language 
that's easier to read. We're also updating our Data Policy to better 
spell out what data we collect and how we use it in Facebook, 
Instagram, Messenger, and other products.
    In response to your specific questions, depending on which Services 
a person uses, we collect different kinds of information from or about 
them. This is described in our Data Policy:

  <bullet> Things Users and others do and provide. Information and 
        content users provide. We collect the content, communications 
        and other information users provide when they use our Products, 
        including when they sign up for an account, create or share 
        content, and message or communicate with others. This can 
        include information in or about the content they provide (like 
        metadata), such as the location of a photo or the date a file 
        was created. It can also include what users see through 
        features we provide, such as our camera, so we can do things 
        like suggest masks and filters that they might like, or give 
        users tips on using camera formats. Our systems automatically 
        process content and communications users provide to analyze 
        context and what's in them for the purposes described below. 
        Learn more about how people can control who can see the things 
        they share.

    <ctr-circle> Data with special protections: Users can choose to 
            provide information in their Facebook profile fields or 
            Life Events about their religious views, political views, 
            who they are ``interested in,'' or their health. This and 
            other information (such as racial or ethnic origin, 
            philosophical beliefs, or trade union membership) could be 
            subject to special protections under the laws of their 
            country.

  <bullet> Networks and connections. We collect information about the 
        people, Pages, accounts, hashtags, and groups users are 
        connected to and how they interact with them across our 
        Products, such as people a user communicates with the most or 
        groups users are part of. We also collect contact information 
        if they choose to upload, sync, or import it from a device 
        (such as an address book or call log or SMS log history), which 
        we use for things like helping them and others find people they 
        may know and for the other purposes listed below.

  <bullet> People's usage. We collect information about how people use 
        our Products, such as the types of content they view or engage 
        with; the features they use; the actions they take; the people 
        or accounts they interact with; and the time, frequency, and 
        duration of their activities. For example, we log when they're 
        using and have last used our Products, and what posts, videos, 
        and other content they view on our Products. We also collect 
        information about how they use features like our camera.

  <bullet> Information about transactions made on our Products. If 
        people use our Products for purchases or other financial 
        transactions (such as when users make a purchase in a game or 
        make a donation), we collect information about the purchase or 
        transaction. This includes payment information, such as their 
        credit or debit card number and other card information; other 
        account and authentication information; and billing, shipping, 
        and contact details.

  <bullet> Things others do and information they provide about users. 
        We also receive and analyze content, communications, and 
        information that other people provide when they use our 
        Products. This can include information about them, such as when 
        others share or comment on a photo of a user, send a message to 
        them, or upload, sync or import their contact information.

  <bullet> Device Information. As described below, we collect 
        information from and about the computers, phones, connected TVs 
        and other web-connected devices they use that integrate with 
        our Products, and we combine this information across different 
        devices they use. For example, we use information collected 
        about their use of our Products on their phone to better 
        personalize the content (including ads) or features they see 
        when they use our Products on another device, such as their 
        laptop or tablet, or to measure whether they took an action in 
        response to an ad we showed they on their phone on a different 
        device.

    Information we obtain from these devices includes:

    <ctr-circle> Device attributes: information such as the operating 
            system, hardware and software versions, battery level, 
            signal strength, available storage space, browser type, app 
            and file names and types, and plugins.

    <ctr-circle> Device operations: information about operations and 
            behaviors performed on the device, such as whether a window 
            is foregrounded or backgrounded, or mouse movements (which 
            can help distinguish humans from bots).

    <ctr-circle> Identifiers: unique identifiers, device IDs, and other 
            identifiers, such as from games, apps or accounts people 
            use, and Family Device IDs (or other identifiers unique to 
            Facebook Company Products associated with the same device 
            or account).

    <ctr-circle> Device signals: Bluetooth signals, and information 
            about nearby Wi-Fi access points, beacons, and cell towers.

    <ctr-circle> Data from device settings: information users allow us 
            to receive through device settings people turn on, such as 
            access to their GPS location, camera, or photos.

    <ctr-circle> Network and connections: information such as the name 
            of users' mobile operator or ISP, language, time zone, 
            mobile phone number, IP address, connection speed and, in 
            some cases, information about other devices that are nearby 
            or on users' network, so we can do things like help people 
            stream a video.

    <ctr-circle> Cookie data: data from cookies stored on a user's 
            device, including cookie IDs and settings. Learn more about 
            how we use cookies in the Facebook Cookies Policy (https://
            www.facebook.com/policies/cookies/) and Instagram Cookies 
            Policy (https://www.instagram.com/legal/cookies/).

  <bullet> Information from partners. Advertisers, app developers, and 
        publishers can send us information through Facebook Business 
        Tools they use, including our social plug-ins (such as the Like 
        button), Facebook Login, our APIs and SDKs, or the Facebook 
        pixel. These partners provide information about users' 
        activities off Facebook--including information about a user's 
        device, websites users visit, purchases users make, the ads 
        they see, and how they use their services--whether or not they 
        have a Facebook account or are logged into Facebook. For 
        example, a game developer could use our API to tell us what 
        games users play, or a business could tell us about a purchase 
        a user made in its store. We also receive information about a 
        user's online and offline actions and purchases from third-
        party data providers who have the rights to provide us with 
        their information. Partners receive user data when users visit 
        or use their services or through third parties they work with. 
        We require each of these partners to have lawful rights to 
        collect, use and share user data before providing any data to 
        us.

    People own what they share on Facebook, and they can manage things 
like who sees their posts and the information they choose to include on 
their profile.
    Any person can see each of the specific interests we maintain about 
them for advertising by visiting Ads Preferences, which lets people see 
what interests we use to choose ads for them--and to edit or delete 
these interests. They can choose not to see ads from a particular 
advertiser or not to see ads based on their use of third-party websites 
and apps. They also can choose not to see ads off Facebook that are 
based on the interests we derive from their activities on Facebook.
    Our Download Your Information or ``DYI'' tool is Facebook's data 
portability tool and was launched many years ago to let people access 
and download many types of information that we maintain about them. The 
data in DYI and in our Ads Preferences tool contain each of the 
interest categories that are used to show people ads, along with 
information about the advertisers are currently running ads based on 
their use of an advertiser's website or app. People also can choose not 
to see ads from those advertisers. We recently announced expansions to 
Download Your Information, which, among other things, will make it 
easier for people to see their data, delete it, and easily download and 
export it. More information is available at https://newsroom.fb.com/
news/2018/04/new-privacy-protections/.
    And we recently announced plans to build Clear History. This 
feature will enable users to see the websites and apps that send us 
information when they use them, delete this information from their 
accounts, and turn off our ability to store it associated with their 
accounts going forward. Apps and websites that use features such as the 
Like button or Facebook Analytics send us information to make their 
content and ads better. We also use this information to make users' 
experiences on Facebook better. If a user clears their history or use 
the new setting, we'll remove identifying information so a history of 
the websites and apps they've used won't be associated with their 
account. We'll still provide apps and websites with aggregated 
analytics--for example, we can build reports when we're sent this 
information so we can tell developers if their apps are more popular 
with men or women in a certain age group. We can do this without 
storing the information in a way that's associated with a user's 
account, and as always, we don't tell advertisers who a user is.

    Question 2. What data does Facebook collect about non-users? For 
example, when a user first joins Facebook, what data has Facebook 
already typically collected about them? Assume that the new user is an 
average American and active web user with many friends who are already 
on Facebook. List the attributes that Facebook would typically know 
about the new user and where that information comes from. If Facebook 
collects information about non-users, what is the purpose?
    Answer. Facebook does not create profiles or track website visits 
for people without a Facebook account.
    When people visit apps or websites that feature our technologies--
like the Facebook Like or Comment button--our servers automatically log 
(i) standard browser or app records of the fact that a particular 
device or user visited the website or app (this connection to 
Facebook's servers occurs automatically when a person visits a website 
or app that contains our technologies, such as a Like button, and is an 
inherent function of Internet design); and (ii) any additional 
information the publisher of the app or website chooses to share with 
Facebook about the person's activities on that site (such as the fact 
that a purchase was made on the site). This is a standard feature of 
the Internet, and most websites and apps share this same information 
with multiple different third-parties whenever people visit their 
website or app. For example, the Senate Commerce Committee's website 
shares information with Google and its affiliate DoubleClick and with 
the analytics company Webtrends. This means that, when a person visits 
the Committee's website, it sends browser information about their visit 
to each one of those third parties. More information about how this 
works is available at https://newsroom.fb.com/news/2018/04/data-off-
facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product or use specific features like our Like button--but 
without providing any information about a specific person. We do not 
create profiles for non-Facebook users, nor do we use browser and app 
logs for non-Facebook users to show targeted ads from our advertisers 
to them or otherwise seek to personalize the content they see. However, 
we may take the opportunity to show a general ad that is unrelated to 
the attributes of the person or an ad encouraging the non-user to sign 
up for Facebook.

    Question 3. Last year, how many Facebook users clicked on their 
privacy settings at least once? What was the average time a user spent 
adjusting their privacy controls? How often does an average user go 
into their privacy settings (per year, for instance)? In 2017, how many 
times did Facebook modify the user experience of its privacy settings 
to better suit its users? What other analytics of this kind does 
Facebook measure?
    Answer. Privacy is at the core of everything we do, and our 
approach to privacy starts with our commitment to transparency and 
control. Our threefold approach to transparency includes, first, 
whenever possible, providing information on the data we collect and use 
and how people can control it in context and in our products. Second, 
we provide information about how we collect and use data in our user 
agreements and related educational materials. And third, we enable 
people to learn more about the specific data we have about them through 
interactive tools such as Download Your Information, which lets people 
download a file containing data that they may want to take to another 
service, and Access Your Information, a tool we are launching that will 
let people more easily access and manage their data on Facebook.
    Our approach to control is based on the belief that people should 
be able to choose who can see what they share and how their data shapes 
their experience on Facebook. People can control the audience for their 
posts and the apps that can receive their data. They can see and delete 
the history of their activities on Facebook, and, if they no longer 
want to use Facebook, they can delete their account and the data 
associated with it. Of course, we recognize that controls are only 
useful if people know how to find and use them. That is why we 
continuously deliver in-product educational videos in people's News 
Feeds on important privacy topics. We are also inviting people to take 
our Privacy Checkup--which prompts people to review key data controls--
and we are sharing privacy tips in education campaigns off of Facebook, 
including through ads on other websites. To make our privacy controls 
easier to find, we are launching a new settings menu that features core 
privacy settings in a single place. We are always working to help 
people understand and control how their data shapes their experience on 
Facebook.

    Question 4. At the hearing, you said that you don't believe that 
enough users read Facebook's terms-of-service policy. Facebook has some 
of tech's smartest UX and behavioral experts, which is evident by a 
platform that millions of people use for hours each week. How is 
Facebook applying its UX and behavioral expertise to track and improve 
user engagement in this area? What does Facebook know about its users' 
understanding of its terms-of-service? For example, how long do users 
take to read Facebook's policies, on average? What does this number 
indicate about whether users have actually read the material?
    Answer. We believe that it's important to communicate with people 
about the information that we collect and how people can control it. 
This is why we work hard to provide this information to people in a 
variety of ways: in our Data Policy, and in Privacy Basics, which 
provides walkthroughs of the most common privacy questions we receive. 
Beyond simply disclosing our practices, we also think it's important to 
give people access to their own information, which we do through our 
Download Your Information and Access Your Information tools, Activity 
Log, and Ad Preferences, all of which are accessible through our 
Privacy Shortcuts tool. We also provide information about these topics 
as people are using the Facebook service itself.
    As to your specific question, there is no single number that 
measures how much time people spend understanding how Facebook services 
work, in large part because Facebook seeks, as much as possible, to put 
controls and information in context within its service. While ``up 
front'' information like that contained in the terms of service are 
useful, research overwhelmingly demonstrates that in-product controls 
and education are the most meaningful to people and the most likely to 
be read and understood. On-demand controls are also important, and we 
recently redesigned our entire settings menu on mobile devices from top 
to bottom to make things easier to find. We also created a new Privacy 
Shortcuts, a menu where people can control their data in just a few 
taps, with clearer explanations of how our controls work. The 
experience is now clearer, more visual, and easy-to-find.
    Improving people's understanding of how digital services work is an 
industry-wide challenge that we are highly committed to addressing. 
That's why, over the last 18 months, we've run a global series of 
design workshops called ``Design Jams'', bringing together experts in 
design, privacy, law, and computer science to work collaboratively on 
new and innovative approaches. These workshops have run in Paris, 
London, Dublin, Berlin, Sao Paolo, Hong Kong, and other cities, and 
included global regulators and policymakers. At these workshops, expert 
teams use ``people centric design'' methods to create innovative new 
design prototypes and experiences to improve transparency and education 
in digital services. These workshops inform Facebook's constantly-
improving approach.
    In recognition of the need for improved approaches to data 
transparency across all digital services, working with partners from 
academia, design, and industry we recently launched TTC Labs, a design 
innovation lab that seeks to improve user experiences around personal 
data. TTC Labs is an open platform for sharing and innovation and 
contains insights from leading experts in academia, design, and law, in 
addition to prototype designs from the design jams, template services 
and open-source toolkits for people-centric design for transparency, 
trust and control of data. Working collaboratively, and based on open-
source approaches, TTC Labs seeks to pioneer new and more people-
centric best practices for people to understand how their data is used 
by digital services, in ways that they find easy to understand and 
control.
    Facebook is highly committed to improving people's experience of 
its own services as well as investing in new innovations and approaches 
to support improvements across the industry.

    Question 5. Recently you said Facebook would ``make all controls 
and settings the same everywhere, not just in Europe.'' Please describe 
these controls and settings and what they do? Would the modification of 
these controls and settings apply in the U.S. only to new users or to 
all users? Would Facebook commit to default those settings and controls 
to minimize, to the greatest extent, the collection and use of users' 
data? What changes will U.S. users see in their settings and controls 
after this change is implemented? And what features and protections 
(including but not limited to controls and settings) will European 
Facebook users have that will differ from U.S. users after the company 
implements GDPR?
    Answer. The GDPR requires companies to obtain explicit consent to 
process certain kinds of data (``special categories of data'' like 
biometric data). We are seeking explicit consent from people in Europe 
to three specific uses of data: facial recognition data (which 
previously was not enabled in Europe), special categories of data and 
use of data we collect off Facebook Company Products to target ads. We 
recently began providing direct notice of these controls and our 
updated terms to people around the world (including in the U.S.), 
allowing people to choose whether or not to enable or disable these 
settings or to agree to our updated terms. Outside of Europe we are not 
requiring people to complete those flows if they repeatedly indicate 
that they do not want to go through the experience. At the same time, 
the events of recent months have underscored how important it is to 
make sure people know how their information is used and what their 
choices are. So, we decided to communicate prominently on Facebook--
through a full-screen message and a reminder to review at a later date. 
People can choose to dismiss or ignore these messages and continue 
using Facebook.
    The controls and settings that Facebook is enabling as part of GDPR 
are already available to other users around the world, including in the 
U.S.. We also provide identical levels of transparency in our user 
agreements and in product notices to people in the U.S. that we are 
providing under GDPR.
    In the U.S., where these settings are already in place, people will 
have a mechanism to maintain their current choice or to change it. In 
each of these cases, we want people to make the choice--not Facebook--
so nobody's settings will change as part of this roll out unless they 
choose to change an existing setting.
    And we also provide the same tools for access, rectification, 
erasure, data portability and others to users in in the U.S. and rest 
of world that we provide in Europe, and many of those tools (like our 
Download Your Information tool, Ads Preferences tool, and Activity Log) 
have been available globally for many years.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Edward Markey to 
                            Mark Zuckerberg
    Question 1. Mr. Zuckerberg, your company has stated that it has 
``no plans'' to include advertisements on Messenger Kids. Will you 
pledge that Facebook will never incorporate advertising into Messenger 
Kids or any future products for children 12 and under?
    Answer. We have no plans to include advertising in Messenger Kids. 
Moreover, there are no in-app purchases, and we do not use the data in 
Messenger Kids to advertise to kids or their parents. In developing the 
app, we assembled a committee of advisors, including experts in child 
development, online safety, and media and children's health, and we 
continue to work with them on an ongoing basis. In addition, we 
conducted roundtables with parents from around the country to ensure we 
were addressing their concerns and built the controls they need and 
want in the app. We are committed to approaching all efforts related to 
children 12 and under thoughtfully, and with the guidance and input of 
experts and parents.

    Question 2. In your response to my letter on the topic of Messenger 
Kids, you stated that your company will not ``automatically'' create a 
Facebook account for Messenger Kids users when those children turn 13. 
Will you commit to not share children's information for targeted 
advertisements, once young users turn 13?
    Answer. As we stated in our response to your earlier letter, we 
will not automatically create a Facebook account for Messenger Kids 
users, or automatically transition a Messenger Kids account into a 
Facebook account once a child turns 13. Contained within that 
commitment and our commitment not to use data collected within 
Messenger Kids to market to kids or their parents is a commitment that 
we will not automatically enable third parties to send targeted ads to 
children who have used Messenger Kids when the child turns 13.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Mark Zuckerberg
    Question 1. Data Protection on Facebook: The General Data 
Protection Regulation or ``GDPR'', which will go into effect on May 25 
of this year. Will Facebook provide the same privacy protections for 
consent, retention, data portability, and transparency to American 
consumers that it will provide to EU consumers?
    Answer. The controls and settings that Facebook is enabling as part 
of GDPR are available to people around the world, including settings 
for controlling our use of face recognition on Facebook and for 
controlling our ability to use data we collect off Facebook Company 
Products to target ads. We recently began providing direct notice of 
these controls and our updated terms to people around the world 
(including in the U.S.), allowing people to choose whether or not to 
enable or disable these settings or to consent to our updated terms. We 
provide the same tools for access, rectification, erasure, data 
portability and others to people in the U.S. and rest of world that we 
provide in Europe, and many of those tools (like our Download Your 
Information tool, ad preferences tool, and Activity Log) have been 
available globally for many years. We also provide identical levels of 
transparency in our user agreements and in product notices to people in 
the United States that we are providing under GDPR.

    Question 2. What kind of privacy review is required to make a 
change to Facebook that impacts user privacy? When did that level of 
review become mandatory?
    Answer. At Facebook, we make decisions about privacy through a 
cross-functional, cross-disciplinary effort overseen by the Chief 
Privacy Officer that involves participants from departments across the 
company. This process is a collaborative approach to privacy that seeks 
to promote strong privacy protections and sound decision making at 
every stage of the product development process. Our privacy program is 
responsible for reviewing product launches, major changes, and privacy-
related bug fixes to products and features to ensure that privacy 
policies and procedures are consistently applied and that key privacy 
decisions are implemented for the product. This approach has several 
key benefits:

  <bullet> First, it is designed to consider privacy early in the 
        product development process. This allows us to consider the 
        benefits that a feature is intended to have for people who use 
        our services, how data will be used to deliver those benefits, 
        and how we can build features from the ground up that include 
        privacy protections to enable those benefits while protecting 
        people's information and putting them in control.

  <bullet> Second, while complying with our obligations is critically 
        important, taking a cross-disciplinary approach to privacy 
        encourages us to think about data protection as more than just 
        a compliance exercise. Instead, we evaluate how to design 
        privacy into the features that we build and consider this from 
        the perspective of things like how we design interfaces that 
        make data use intuitive, taking a consistent approach to 
        privacy across our services, and building protections in how 
        our software is engineered. Accordingly, while we scale our 
        privacy review process depending on the complexity of a 
        particular data use, reviews typically involve experts who 
        evaluate proposed data practices from the perspective of 
        multiple disciplines.

    As part of our consent agreement with the Federal Trade Commission, 
we submit a report to the FTC every two years. That report is based on 
assessments conducted by an independent third party on a bi-annual 
basis, which require us to submit evidence to demonstrate the 
effectiveness of the program.

    Question 3. Before that level of review was required, what checks 
were in place to ensure new features would not adversely impact users' 
privacy? What level of seniority was required of employees to approve a 
launch of such a privacy-impacting feature? For example, have you ever 
allowed an intern make changes that impacts customers' privacy?
    Answer. See Response to Question 2.

    Question 4. Has Facebook ever launched a feature that had to be 
turned off because of the privacy concerns? If yes, how many times has 
that happened, and how many users were impacted? Did you notify the 
users who were impacted?
    Answer. See Response to Question 2.

    Question 5. Russia/Cambridge Analytica: Between 2010 and 2015, 3rd 
party applications were able to keep data indefinitely. Can you say how 
many applications downloaded app users' data, their friends' data, or 
their personal messages in this period of time?
    Answer. We are in the process of investigating every app that had 
access to a large amount of information before we changed our Platform 
in 2014. The investigation process is in full swing, and it has two 
phases. First, a comprehensive review to identify every app that had 
access to this amount of Facebook data and to focus on apps that 
present reason for deeper investigation. And second, where we have 
concerns, we will conduct interviews, make requests for information 
(RFI)--which ask a series of detailed questions about the app and the 
data it has access to--and perform audits using expert firms that may 
include on-site inspections. We have large teams of internal and 
external experts working hard to investigate these apps as quickly as 
possible. To date thousands of apps have been investigated and around 
200 apps have been suspended--pending a thorough investigation into 
whether they did in fact misuse any data. Where we find evidence that 
these or other apps did misuse data, we will ban them and let people 
know.
    These apps relate to a handful of developers: Kogan, AIQ, Cube You, 
the Cambridge Psychometrics Center, and myPersonality, with many of the 
suspended apps being affiliated with the same entity. Many of these 
suspensions include apps that appear to be ``test'' apps that were 
never released to the public, and therefore would not have acquired 
significant user data, although our investigation into these apps is 
ongoing.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So, we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.
    We will commit to briefing your staff on future developments.

    Question 6. Given the recent reports about Cambridge Analytica and 
the years of poor security around your data, what measures will be put 
into place to ensure that advertisers are not targeting ads using ill-
gotten data?
    Answer. We are not aware of any evidence to suggest that Kogan 
shared data obtained through his app with Russia or other foreign 
governments, but our investigation is ongoing. We are in the process of 
investigating every app that had access to a large amount of 
information before we changed our Platform in 2014.
    In April 2014, we significantly restricted the types of data 
generally available to app developers and required apps seeking 
additional categories of data to undergo proactive review by our 
internal teams. We rejected more than half of the apps seeking these 
permissions, including the second version of Kogan's app.
    We review apps to ensure that the requested permissions clearly 
improve the user experience and that the data obtained is tied to an 
experience within the app. We conduct a variety of manual and automated 
checks of applications on the platform for Policy compliance, as well 
as random sampling. When we find evidence of or receive allegations of 
violations, we investigate and, where appropriate, employ a number of 
measures, including restricting applications from our platform, 
preventing developers from building on our platform in the future, and 
taking legal action where appropriate.
    Recently, we announced a number of additional steps we're taking to 
address concerns raised by Kogan's app.

  <bullet> Review our platform. We will investigate all apps that had 
        access to large amounts of data before the platform changes we 
        announced in 2014, and we will audit any app where we identify 
        suspicious activity. If we identify misuses of data, we'll take 
        immediate action, including banning the app from our platform 
        and pursuing legal action if appropriate.

  <bullet> Tell people about data misuse. We will tell people about 
        apps that have misused their data. This includes building a way 
        for people to know if their data might have been accessed via 
        the app. Moving forward, if we remove an app for misusing data, 
        we will tell everyone who used it.

  <bullet> Turn off access for unused apps. If someone has not used an 
        app within the last three months, we will turn off the app's 
        access to their data.

  <bullet> Restrict Facebook Login data. We are changing Login, so that 
        the only data that an app can request without app review will 
        include name, profile photo, and e-mail address. Requesting any 
        other data will require approval from Facebook. We will also no 
        longer allow apps to ask for access to information like 
        religious or political views, relationship status and details, 
        custom friends lists, education and work history, fitness 
        activity, book reading and music listening activity, news 
        reading, video watch activity, and games activity. We will 
        encourage people to manage the apps they use. We already show 
        people what apps their accounts are connected to and allow them 
        to control what data they've permitted those apps to use. But 
        we're making it easier for people to see what apps they use and 
        the information they have shared with those apps.

  <bullet> Reward people who find vulnerabilities. We launched the Data 
        Abuse Bounty program so that people can report to us any 
        misuses of data by app developers.

  <bullet> Update our policies. We have updated our terms and Data 
        Policy to explain how we use data and how data is shared with 
        app developers.

    Question 7. Will your team re-architect the Facebook platform 
software architecture to ensure that 3rd party applications do not have 
the ability to store and share data?
    Answer. In April 2014, we announced that we would more tightly 
restrict our platform APIs to prevent abuse. At that time we made clear 
that existing apps would have a year to transition--at which point they 
would be forced (1) to migrate to the more restricted API and (2) be 
subject to Facebook's new review and approval protocols. A small number 
of developers asked for and were granted short-term extensions beyond 
the one-year transition period, the longest of which lasted several 
months. These extensions ended several years ago. A transition period 
of this kind is standard when platforms implement significant changes 
to their technology base and was necessary here to avoid disrupting the 
experience of millions of people. New apps that launched after April 
30, 2014 were required to use our more restrictive platform APIs. We 
required apps seeking additional categories of data to undergo 
proactive review by our internal teams. We rejected more than half of 
the apps seeking these permissions, including the second version of 
Kogan's app.
    We review apps to ensure that the requested permissions clearly 
improve the user experience and that the data obtained is tied to an 
experience within the app. We conduct a variety of manual and automated 
checks of applications on the platform for Policy compliance, as well 
as random sampling. When we find evidence of or receive allegations of 
violations, we investigate and, where appropriate, employ a number of 
measures, including restricting applications from our platform, 
preventing developers from building on our platform in the future, and 
taking legal action where appropriate.
    Recently, we announced a number of additional steps we're taking to 
address concerns raised by Kogan's app.

  <bullet> Review our platform. We will investigate all apps that had 
        access to large amounts of data before the platform changes we 
        announced in 2014, and we will audit any app where we identify 
        suspicious activity. If we identify misuses of data, we'll take 
        immediate action, including banning the app from our platform 
        and pursuing legal action if appropriate.

  <bullet> Tell people about data misuse. We will tell people about 
        apps that have misused their data. This includes building a way 
        for people to know if their data might have been accessed via 
        the app. Moving forward, if we remove an app for misusing data, 
        we will tell everyone who used it.

  <bullet> Reward people who find vulnerabilities. We launched the Data 
        Abuse Bounty program so that people can report to us any 
        misuses of data by app developers.

  <bullet> Update our policies. We have updated our terms and Data 
        Policy to explain how we use data and how data is shared with 
        app developers.

    We are investing so much in security that our costs will increase 
significantly. But we want to be clear about what our priority is: 
protecting our community is more important than maximizing our profits.
    As our CEO Mark Zuckerberg has said, when you are building 
something unprecedented like Facebook, there are going to be mistakes. 
What people should hold us accountable for is learning from the 
mistakes and continually doing better--and, at the end of the day, 
making sure that we're building things that people like and that make 
their lives better.

    Question 8. How will you prevent another developer like Kogan from 
creating a viral app for the expressed purpose of gathering data and 
downloading, storing, and sharing that data?
    See Response to Question 7.

    Question 9. How do you know that there are no other copies of the 
data that Kogan acquired from Facebook?
    Answer. Facebook obtained written certifications from Kogan, GSR, 
and other third parties (including Cambridge Analytica and SCL) 
declaring that all data they had obtained, and any derivatives, was 
accounted for and destroyed. Based on recent allegations, we have 
reopened our investigation into the veracity of these certifications 
and have hired a forensic auditor to conduct a forensic audit of 
Cambridge Analytica's systems. We are currently paused on the audit at 
the request of the UK Information Commissioner's Office request, which 
is conducting a regulatory investigation into Cambridge Analytica 
(based in the UK), and we hope to move forward with that audit soon.
    We have suspended SCL/Cambridge Analytica from purchasing 
advertising on Facebook.

    Question 10. A March 2018 online article in Quartz reported that 
Facebook employees and Cambridge Analytica employees were both working 
in the Trump Campaign San Antonio headquarters.\1\ How will you ensure 
that your advertising salespeople are not engaging with entities 
previously identified for violating your terms of service?
---------------------------------------------------------------------------
    \1\ Kozlowska, Hanna. 20 March 2018. Facebook and Cambridge 
Analytica worked side by side at a Trump campaign office in San 
Antonio. https://qz.com/1233579/facebook-and-cambridge-analytica-
worked-side-by-side-at-a-trumpcampaign-office-in-san-antonio/.
---------------------------------------------------------------------------
    Answer. No one from Facebook was assigned full-time to the Trump 
campaign, or full-time to the Clinton campaign. We offered identical 
support to both the Trump and Clinton campaigns, and had teams assigned 
to both. Everyone had access to the same tools, which are the same 
tools that every campaign is offered. We continuously work to ensure 
that we comply with all applicable laws and policies. While our 
investigation is ongoing, our review indicates that Facebook employees 
did not identify any issues involving the improper use of Facebook data 
in the course of their interactions with Cambridge Analytica during the 
2016 U.S. Presidential campaign.

    Question 11. In a recent press conference,\2\ you state that you 
are fully confident you are making progress against foreign actor 
manipulating the Facebook platform. Will you provide Congress and the 
American people auditable periodic reports about the progress you and 
your team are making on fighting disinformation on your platform?
---------------------------------------------------------------------------
    \2\ Facebook. 4 April 2018. ``Hard Questions: Q&A with Mark 
Zuckerberg on Protecting People's Information''. https://
newsroom.fb.com/news/2018/04/hard-questions-protecting-peoples-
information/.
---------------------------------------------------------------------------
    Answer. We have worked to notify people about this issue, broadly, 
through our white paper in April 2017, Information Operations on 
Facebook, and our disclosure about the IRA last fall. We have also been 
publishing updates on these issues in our Newsroom.

    Question 12. Third Party Applications: How many times has Facebook 
enforced your terms of services against 3rd party application for 
misuse of data?
    Answer. We use a variety of tools to enforce Facebook policies 
against violating parties, including developers. We review tens of 
thousands of apps per year and regularly disapprove noncompliant apps 
as part of our proactive review process. We also use tools like cease 
and desist letters, account suspensions, letter agreements, and civil 
litigation. For example, since 2006, Facebook has sent over 1,150 
cease-and-desist letters to over 1,600 targets. In 2017, we took action 
against about 370,000 apps, ranging from imposing certain restrictions 
to removal of the app from the platform. Moreover, we have required 
parties who have procured our data without authorization to delete that 
data. We have invested significant resources in these efforts. Facebook 
is presently investigating apps that had access to large amounts of 
information before we changed our platform policies in 2014 to 
significantly reduce the data apps could access. To date around 200 
apps (from a handful of developers: Kogan, AIQ, Cube You, the Cambridge 
Psychometrics Center, and myPersonality) have been suspended--pending a 
thorough investigation into whether they did in fact misuse any data.

    Question 13. It's clear that, over the course of the Facebook 
platform program, enforcement of the Platform Policy has been reactive 
rather than proactive. Of all the 3rd party applications, how many such 
applications have been reviewed in the past 8 years? How many 3rd party 
applications have been removed from the platform due to violations of 
the terms of service?
    Answer. See Response Question 12.

    Question 14. According to your Platform Policy, if you exceed 5 
million monthly active users or 100M API calls per day, developers may 
be subject to additional terms. What are the additional terms? How many 
3rd party applications are currently subject to additional terms?
    Answer. In circumstances where developers make a high volume of API 
calls, Facebook may impose additional terms, which are generally 
negotiated and vary depending on which APIs are at issue.
    In addition, Facebook has a set of APIs that enable certain 
partners, primarily operating systems and device manufacturers, to 
provide people with Facebook-like experiences (e.g., Facebook apps, 
news feed notifications, address book syncs) in their products. We 
developed these APIs, which are commonly known as ``device-integrated 
APIs,'' in the early days of mobile when the demand for Facebook 
outpaced our ability to build versions of our product that worked on 
every phone or operating system. Several dozen companies still used 
them at the start of the year, including Amazon, Apple, Blackberry, 
HTC, Microsoft, Huawei, Lenovo and Samsung, among others. On April 23, 
2018, we announced that we would wind down these APIs. So far over 30 
of these partnerships have been ended, including with Huawei.
    These device-integrated APIs are different from the platform APIs 
that were used by Alexandr Kogan, which were the focus of the hearing 
and went to the heart of the Cambridge Analytica matter. Third party 
developers using our platform APIs built new, social experiences 
incorporating information that Facebook users brought with them; by 
contrast, the very point of our device-integrated APIs was to enable 
other companies to create Facebook functionality, primarily for devices 
and operating systems. The experiences that partners built using our 
device-integrated APIs were reviewed and approved by Facebook, and 
partners could not integrate the user's Facebook features without the 
user's permission.

    Question 15. For the Platform Policy for Messenger, how do you 
ensure that malicious actors are not using bots using the Messenger API 
to spread disinformation to users at a mass scale?
    Answer. Businesses large and small are using bots for Messenger to 
connect with their customers in a way that is convenient, functional, 
and enables them to connect with customers at scale. We give people 
control of their experience. We offer a set of tools that allow a 
person to block or mute a bot or business at any time and people can 
also report bots where the Facebook Community Operations team will 
review and take action if appropriate. Finally, a few months ago we 
announced that bot developers are now required to have business 
verification for apps/bots that need access to specialized APIs as a 
result of our ongoing efforts to ensure integrity across our platforms.

    Question 16. Facebook--Suite of Application--Onavo VPN: Do know 
whether customers who download the virtual private network, or VPN, of 
Facebook's subsidiary Onavo's understand that any activity occurring on 
their mobile device is being collected and stored by Facebook? Doesn't 
this practice violate the privacy consumers expect of a VPN?
    Answer. When people first install the iOS version of the Onavo 
Protect app, we explain that Onavo uses a VPN that ``helps keep you and 
your data safe by understanding when you visit potentially malicious or 
harmful websites and giving you a warning.'' In addition, the first 
screen that a person sees when installing the app explains, under a 
heading that reads ``Data Analysis'':

        ``When you use our VPN, we collect the info that is sent to, 
        and received from, your mobile device. This includes 
        information about: your device and its location, apps installed 
        on your device and how you use those apps, the websites you 
        visit, and the amount of data use.

        This helps us improve and operate the Onavo service by 
        analyzing your use of websites, apps and data. Because we're a 
        part of Facebook, we also use this info to improve Facebook 
        products and services, gain insights into the products and 
        services people value, and build better experiences.''

    People must tap a button marked ``Accept & Continue'' after seeing 
this information in a full-screen interstitial before they can use the 
app.
    The Android version of the Onavo Protect app offers data management 
features (e.g., the ability to block apps from using background data) 
that do not require users to enable the app's VPN.
    For both versions of the app, we communicate repeatedly and up 
front--in the App Store description, in Onavo's Privacy Policy, and in-
line at the time the user first opens the app after downloading it--
that Onavo is part of Facebook and what that means for how Onavo 
Protect handles data in other ways.
    More broadly, websites and apps have used market research services 
for years. We use Onavo, App Annie, comScore, and publicly available 
tools to help us understand the market and improve all our services. 
When people download Onavo to manage their data usage and help secure 
their connection, we are clear about the information we collect and how 
it is used. Like other VPNs, when the Onavo VPN is enabled, Onavo 
Protect helps create a secure connection, including when people are on 
public Wi-Fi. As part of this process, Onavo receives their mobile data 
traffic. This helps us improve and operate the Onavo service. Because 
we're part of Facebook, we also use this information to improve 
Facebook products and services. We let people know about this activity, 
and other ways that Onavo uses, analyzes, and shares data (for example, 
the apps installed on users' devices) in the App Store descriptions, 
and when they first open the app after downloading it.
    Facebook does not use Onavo data for Facebook product uses, nor 
does it append any Onavo data or data about individuals' app usage to 
Facebook accounts.

    Question 17. According to this Wall Street Journal article, 
Facebook uses data collected from the Onavo suite of applications to 
monitor potentially competitive application.\3\ Since the acquisition 
in 2013, how specifically has Facebook used information from Onavo to 
inform acquisitions as well as product development?
---------------------------------------------------------------------------
    \3\ Seetharaman, Deepa and Morris, Betsy. ``Facebook's Onavo Gives 
Social-Media Firm Inside Peek at Rivals' Users.'' 13 August 2017. Wall 
Street Journal.
---------------------------------------------------------------------------
    Answer. See Response to Question 16.

    Question 18. Terms of Service: Has Facebook ever disclosed to its 
users which ``third parties partners'' have access to user information? 
If no, will you publish this list so that users know which outside 
parties have access to their information?
    Answer. Facebook allows people to view, manage, and remove the apps 
that they have logged into with Facebook through the App Dashboard. We 
recently prompted everyone to review their App Dashboard as a part of a 
Privacy Checkup, and we also provided an educational notice on Facebook 
to encourage people to review their settings. More information about 
how users can manage their app settings is available at https://
www.facebook.com/help/218345114850283?helpref=about_content.
    The categories of information that an app can access is clearly 
disclosed before the user consents to use an app on Facebook platform. 
Users can view and edit the categories of information that apps they 
have used have access to through the App Dashboard.

    Question 19. User Tracking: Does Facebook can ``track a user's 
Internet browsing activity, even after that user has logged off of the 
Facebook platform''? If yes, how Facebook discloses that kind of 
tracking to its users? And can users opt-out of this kind of tracking?
    Answer. When people visit apps or websites that feature our 
technologies--like the Facebook Like or Comment button--our servers 
automatically log (i) standard browser or app records of the fact that 
a particular device or user visited the website or app (this connection 
to Facebook's servers occurs automatically when a person visits a 
website or app that contains our technologies, such as a Like button, 
and is an inherent function of Internet design); and (ii) any 
additional information the publisher of the app or website chooses to 
share with Facebook about the person's activities on that site (such as 
the fact that a purchase was made on the site). This is a standard 
feature of the Internet, and most websites and apps share this same 
information with multiple different third-parties whenever people visit 
their website or app. For example, the Senate Commerce Committee's 
website shares information with Google and its affiliate DoubleClick 
and with the analytics company Webtrends. This means that, when a 
person visits the Committee's website, it sends browser information 
about their visit to each one of those third parties. More information 
about how this works is available at https://newsroom.fb.com/news/2018/
04/data-off-facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product, or use specific features like our Like button--
but without providing any information about a specific person. We do 
not create profiles for non-Facebook users, nor do we use browser and 
app logs for non-Facebook users to show targeted ads from our 
advertisers to them or otherwise seek to personalize the content they 
see. However, we may take the opportunity to show a general ad that is 
unrelated to the attributes of the person or an ad encouraging the non-
user to sign up for Facebook.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings. We do not sell or share this information with third-parties.

    Question 20. How many Facebook ``Like'' buttons there are on non-
Facebook web pages?
    Answer. Facebook does not publish tracking software. When people 
visit apps or websites that feature our technologies--like the Facebook 
Like or Comment button--our servers automatically log (i) standard 
browser or app records of the fact that a particular device or user 
visited the website or app (this connection to Facebook's servers 
occurs automatically when a person visits a website or app that 
contains our technologies, such as a Like button, and is an inherent 
function of Internet design); and (ii) any additional information the 
publisher of the app or website chooses to share with Facebook about 
the person's activities on that site (such as the fact that a purchase 
was made on the site).
    This is a standard feature of the Internet, and most websites and 
apps share this same information with multiple different third-parties 
whenever people visit their website or app. For example, the Senate 
Commerce Committee's website shares information with Google and its 
affiliate DoubleClick and with the analytics company Webtrends. This 
means that, when a person visits the Committee's website, it sends 
browser information about their visit to each one of those third 
parties. More information about how this works is available at https://
newsroom.fb.com/news/2018/04/data-off-facebook/.
    During the week prior to April 16, 2018, on sites that use Facebook 
services: the Like button appeared on 8.4M websites, the Share button 
on 931K websites covering 275M webpages, and there were 2.2M Facebook 
pixels installed on websites.

    Question 21. How many Facebook ``Share'' buttons there are on non-
Facebook web pages?
    Answer. See Response to Question 20.

    Question 22. How many non-Facebook websites have Facebook pixel 
code?
    Answer. See Response to Question 20.

    Question 23. While users can download their user generated data 
using the ``Download Your Information'' tool, how can users download 
data that Facebook has inferred about them?
    Answer. Our Download Your Information or ``DYI'' tool is Facebook's 
data portability tool and was launched many years ago to let people 
access and download many types of information that we maintain about 
them. The data in DYI and in our Ads Preferences tool contain each of 
the interest categories that are used to show people ads, along with 
information about the advertisers are currently running ads based on 
their use of an advertiser's website or app. People also can choose not 
to see ads from those advertisers. We recently announced expansions to 
Download Your Information, which, among other things, will make it 
easier for people to see their data, delete it, and easily download and 
export it. More information is available at https://newsroom.fb.com/
news/2018/04/new-privacy-protections/.
    Responding to feedback that we should do more to provide 
information about websites and apps that send us information when 
people use them, we also announced plans to build Clear History. This 
new feature will enable users to see the websites and apps that send us 
information when they use them, delete this information from their 
account, and turn off Facebook's ability to store it associated with 
their account going forward.
    We have also introduced Access Your Information. This feature 
provides a new way for people to access and manage their information. 
Users can go here to delete anything from their timeline or profile 
that they no longer want on Facebook. They can also see their ad 
interests, as well as information about ads they've clicked on and 
advertisers who have provided us with information about them that 
influence the ads they see. From here, they can go to their ad settings 
to manage how this data is used to show them ads.

    Question 24. How many websites have Facebook-tracking software on 
them? What percentage of all Internet sites have Facebook-tracking 
software?
    Answer. See Response to Question 20.

    Question 25. According to a Gizmodo report,\4\ Facebook collects 
data on people using Shadow Profiles. Do you collect data on people who 
are not Facebook users? Please describe the process for non-Facebook 
users can employ to delete any data collected about them by the 
company.
---------------------------------------------------------------------------
    \4\ Hill, Kasmir. 07 November 2017. How Facebook Figures Out 
Everyone You've Met. Gizmodo. https://gizmodo.com/how-facebook-figures-
out-everyone-youve-ever-met-1819822691?IR=T.
---------------------------------------------------------------------------
    Answer. Yes. If a person doesn't have a Facebook account but 
believes Facebook may have information about them, they can contact us 
to request a copy of your information. A contact form is available at 
https://www.facebook.com/help/contact/180237885820953. However, 
Facebook does not create profiles about or track web or app browser 
behavior of non-users.
    When people visit apps or websites that feature our technologies--
like the Facebook Like or Comment button--our servers automatically log 
(i) standard browser or app records of the fact that a particular 
device or user visited the website or app (this connection to 
Facebook's servers occurs automatically when a person visits a website 
or app that contains our technologies, such as a Like button, and is an 
inherent function of Internet design); and (ii) any additional 
information the publisher of the app or website chooses to share with 
Facebook about the person's activities on that site (such as the fact 
that a purchase was made on the site). This is a standard feature of 
the Internet, and most websites and apps share this same information 
with multiple different third-parties whenever people visit their 
website or app. For example, the Senate Commerce Committee's website 
shares information with Google and its affiliate DoubleClick and with 
the analytics company Webtrends. This means that, when a person visits 
the Committee's website, it sends browser information about their visit 
to each one of those third parties. More information about how this 
works is available at https://newsroom.fb.com/news/2018/04/data-off-
facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product, or use specific features like our Like button--
but without providing any information about a specific person.
    We do not create profiles for non-Facebook users, nor do we use 
browser and app logs for non-Facebook users to show targeted ads from 
our advertisers to them or otherwise seek to personalize the content 
they see. However, we may take the opportunity to show a general ad 
that is unrelated to the attributes of the person or an ad encouraging 
the non-user to sign up for Facebook.

    Question 26. Do you support a kids' privacy bill of rights where 
opt-in is the standard?
    Answer. Facebook is generally not opposed to regulation but wants 
to ensure it is the right regulation. The issues facing the industry 
are complex, multi-faceted, and affect an important part of peoples' 
lives. As such, Facebook is absolutely committed to working with 
regulators, like Congress, to craft the right regulations. Facebook 
would be happy to review any proposed legislation and provide comments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                            Mark Zuckerberg
    Question 1. A major challenge artificial intelligence (AI) and 
machine learning developers need to address is the ability to ensure 
prolonged safety, security, and fairness of the systems. This is 
especially true of systems designed to work in complex environments 
that may be difficult to replicate in training and testing, or systems 
that are designed for significant learning after deployment. One 
approach to address this challenge is to implement standards or 
principles guiding the development of AI systems. However, you 
referenced AI more than 30 times in your testimony on Capitol Hill, and 
many of those references were in different contexts. This seems to 
imply Facebook has assumed a broad or vague definition of AI. I fear 
that a vague definition will make it difficult to implement clear, 
unambiguous standards or principles to guide the fair, safe, and secure 
application of AI and algorithms.

  <bullet> What how does Facebook define AI?

  <bullet> How is Facebook currently working to build trust in its 
        usage of AI? Specifically, has your company developed a set of 
        principles to guide your development and use of AI systems? If 
        so, what are they? Please also provide details on how these 
        principles are being implemented.

  <bullet> How will these principles improve the transparency of 
        decision-making AI systems?

  <bullet> How will these principles prevent a system designed to learn 
        after deployment from developing unacceptable behavior over 
        time?

    Answer. We are focused on both the technical and the ethical 
aspects of artificial intelligence. We believe these two should go 
hand-in-hand together in order to fulfill our commitment to being fair, 
transparent and accountable in our development and use of AI. Facebook 
has AI teams working on developing the philosophical, as well as 
technical, foundations for this work. Facebook is also one of the co-
founders and members of the Partnership on AI (PAI), a collaborative 
and multi-stakeholder organization established to study and formulate 
best practices on AI technologies, to advance the public's 
understanding of AI, and to serve as an open platform for discussion 
and engagement about AI and its influences on people and society. The 
thematic pillars that structure the work we're doing in the scope of 
the PAI--safety, fairness, transparency and accountability--are the 
principles that we believe industry should follow and promote when 
building and deploying AI systems. The PAI's Fair, Transparent and 
Accountable AI Working Group is also working alongside industry, 
academia, and civil society to develop best practices around the 
development and fielding of fair, explainable, and accountable AI 
systems.
    We believe that over the long term, building AI tools is the 
scalable way to identify and root out most content that violates our 
policies. We are making substantial investments in building and 
improving these tools. We already use artificial intelligence to help 
us identify threats of real world harm from terrorists and others. For 
example, the use of AI and other automation to stop the spread of 
terrorist content is showing promise. Today, 99 percent of the ISIS and 
Al Qaeda related terror content we remove from Facebook is content we 
detect before anyone in our community has flagged it to us, and in some 
cases, before it goes live on the site. We do this primarily through 
the use of automated systems like photo and video matching and text-
based machine learning. We also use AI to help find child exploitation 
images, hate speech, discriminatory ads, and other prohibited content.

    Question 2. Mr. Zuckerberg, you said recently that Facebook is more 
like a government than a traditional company. Facebook is a community 
of over 2 billion people from every country in the world. You have also 
said you hope to grow the number of Facebook employees working on 
security of the user community to 20,000 by the end of the year. A city 
like Flint, Michigan has a population of 100,000 and roughly 100 
uniformed police officers. Your company is aiming to have one cop on 
the beat for every 100,000 of its 2 billion users.

  <bullet> Is this going to be adequate to prevent another misuse of 
        consumer data like we saw with Cambridge Analytica?

    Answer. We are doubling the size of our security and content review 
teams (from 10,000 to 20,000) over the course of this year. We 
currently have approximately 15,000 people working on these teams.

    Question 3. How are you making the efforts of these employees 
transparent and accountable to your users?
    Answer. We are taking significant steps to increase our 
transparency. For example, we have published the internal guidelines we 
use to enforce our Community Standards here: https://newsroom.fb.com/
news/2018/04/comprehensive-community-standards/. We decided to publish 
these internal guidelines for two reasons. First, the guidelines will 
help people understand where we draw the line on nuanced issues. 
Second, providing these details makes it easier for everyone, including 
experts in different fields, to give us feedback so that we can improve 
the guidelines--and the decisions we make--over time.
    We also recently publicized data around enforcement of our 
Community Standards in a Community Standards Enforcement Report 
(https://transparency.facebook
.com/community-standards-enforcement). The report details our 
enforcement efforts between October 2017 to March 2018, and it covers 
six areas: graphic violence, adult nudity and sexual activity, 
terrorist propaganda, hate speech, spam, and fake accounts. The numbers 
show you:

  <bullet> How much content people saw that violates our standards;

  <bullet> How much content we removed; and

  <bullet> How much content we detected proactively using our 
        technology--before people who use Facebook reported it.

    The data we published is the same information we use to measure our 
progress internally.
    We believe this increased transparency will lead to increased 
accountability and responsibility over time.

    Question 4. Facebook has made some changes in light of the 2016 
U.S. Presidential election and the fact that your platform allowed for 
the proliferation of fake news. You've since developed tools that try 
to tamp down on this activity--pulling down fake accounts and 
destroying bots.

  <bullet> You have described the content on your platform during 
        elections held since 2016, both foreign and domestic, as 
        ``cleaner''--but what metrics are you using to evaluate the 
        real effectiveness of the changes you have made?

  <bullet> Once you have a true understanding of the impact these tools 
        have--how can you communicate the changes to users so they can 
        be confident that what they are viewing is real and not there 
        for the purpose of manipulating them?

  <bullet> Consumers are skeptical of the content on your platform, how 
        can you gain back their trust?

    Answer. We are working hard to regain the trust of our community.
    Success would consist of minimizing or eliminating abuse of our 
platform and keeping our community safe. We have a number of specific 
goals that we will use to measure our progress in these efforts. First, 
we are increasing the number of people working on safety and security 
at Facebook, to 20,000. We have significantly expanded the number of 
people who work specifically on election integrity, including people 
who investigate this specific kind of abuse by foreign actors. Those 
specialists find and remove more of these actors. Second, we work to 
improve threat intelligence sharing across our industry, including, we 
hope, by having other companies join us in formalizing these efforts. 
This is a fight against sophisticated actors, and our entire industry 
needs to work together to respond quickly and effectively. Third, we 
are bringing greater transparency to election ads on Facebook by 
requiring more disclosure from people who want to run election ads 
about who is paying for the ads and by making it possible to see all of 
the ads that an advertiser is running, regardless of the targeting. We 
believe that these efforts will help to educate our community and to 
arm users, media, civil society, and the government with information 
that will make it easier to identify more sophisticated abuse to us and 
to law enforcement.
    We have gotten increasingly better at finding and disabling fake 
accounts. We're now at the point that we block millions of fake 
accounts each day at the point of creation before they do any harm.
    We are taking steps to help users assess the content they see on 
Facebook. For example, for ads with political content, we've created an 
archive that will hold ads with political content for seven years--
including for information about ad impressions and spend, as well as 
demographic data such as age, gender and location. People in Canada and 
Ireland can already see all the ads that a Page is running on 
Facebook--and we're launching this globally in June. Further, 
advertisers will now need to confirm their ID and location before being 
able to run any ads with political content in the U.S. All ads with 
political content will also clearly state who paid for them. We also 
want to empower people to decide for themselves what to read, trust, 
and share. We promote news literacy and work to inform people with more 
context. For example, if third-party fact-checkers write articles about 
a news story, we show them immediately below the story in the Related 
Articles unit. We also notify people and Page Admins if they try to 
share a story, or have shared one in the past, that's been determined 
to be false.

    Question 5. How did Facebook, prior to the 2016 U.S. Presidential 
election, identify and evaluate fake or troll accounts, and how have 
your processes changed since then?

  <bullet> What steps are taken once Facebook has identified fake or 
        troll accounts and, specifically, how much of your response is 
        consumer-facing? Will a user ever truly know the extent to 
        which they were influenced by a fake account?

    Answer. We continue to make improvements to our efforts to more 
effectively detect and deactivate fake accounts to help reduce the 
spread of spam, false news, and misinformation. We continually update 
our technical systems to identify, checkpoint, and remove inauthentic 
accounts, and we block millions of attempts to register fake accounts 
every day. These systems examine thousands of detailed account 
attributes and prioritize signals that are more difficult for bad 
actors to disguise, such as their connections to others on our 
platform. As with all security threats, we have been incorporating new 
insights into our models for detecting fake accounts, including 
information specific to election issues.

    Question 6. Is it true that Facebook does not authenticate the 
administrators of group and organization pages in the same manner it 
authenticates individual accounts? Will you take a different approach 
going forward?
    Answer. We have announced that people who manage Pages with large 
numbers of followers will need to be verified. Those who manage large 
Pages that do not clear the process will no longer be able to post. 
This will make it much harder for people to administer a Page using a 
fake account, which is strictly against our policies. We will also show 
users additional context about Pages to effectively assess their 
content. For example, a user can see whether a Page has changed its 
name.

    Question 7. Current sector-specific privacy laws and state privacy 
laws, as well as currently proposed Federal legislation that address 
data privacy and security, often narrowly define personal information 
to include identifiers like a person's name, social security number, 
and bank information. But definitions of personal information currently 
do not cover information like social media ``likes'' and certain 
choices and activities online that bad actors have at worst used to 
manipulate voters and at best used to deliver targeted advertisements.

  <bullet> What do you think Cambridge Analytica has taught us about 
        what should be considered personal information?

  <bullet> Should definitions of personal information be updated to 
        include an individual's activities like search activity and 
        social media ``likes''?

    Answer. Facebook is generally not opposed to regulation but wants 
to ensure it is the right regulation. The issues facing the industry 
are complex, multi-faceted, and affect an important part of peoples' 
lives. As such, Facebook is absolutely committed to working with 
regulators, like Congress, to craft the right regulations. Facebook 
would be happy to review any proposed legislation and provide comments.

    Question 8. Who do you consider to be Facebook's customers (i.e., 
what stakeholders directly provide Facebook with revenue)? To the 
extent that the customers are not the end users of the platform, how 
will Facebook reconcile the privacy expectations and interests of both 
sets of stakeholders?
    Answer. In the words of Facebook CEO and Founder Mark Zuckerberg, 
``Facebook is an idealistic and optimistic company. For most of our 
existence, we focused on all the good that connecting people can bring. 
As Facebook has grown, people everywhere have gotten a powerful new 
tool to stay connected to the people they love, make their voices 
heard, and build communities and businesses.'' Our product is social 
media--the ability to connect users with the people that matter to 
them, wherever they are in the world. It's the same with a free search 
engine, website or newspaper. The core product is reading the news or 
finding information--and the ads exist to fund that experience. Our 
priority is protecting our community, and that is more important than 
maximizing our profits.

    Question 9. Does Facebook intend to provide its users with a 
comprehensive listing of all apps and services that have accessed their 
Facebook data? In such a listing, would Facebook include information 
about which data points were accessed, when they were accessed, and how 
they were accessed?
    Answer. Facebook allows people to view, manage, and remove the apps 
that they have logged into with Facebook through the App Dashboard. We 
recently prompted everyone to review their App Dashboard as a part of a 
Privacy Checkup, and we also provided an educational notice on Facebook 
to encourage people to review their settings. More information about 
how users can manage their app settings is available at https://
www.facebook.com/help/218345114850283?helpref=aboutcontent.
    The categories of information that an app can access is clearly 
disclosed before the user consents to use an app on Facebook platform. 
Users can view and edit the categories of information that apps they 
have used have access to through the App Dashboard.

    Question 10. What mechanisms does Facebook have in place to monitor 
third parties who have access to user data once the data is delivered? 
If a user deletes their data on Facebook, how does Facebook ensure that 
third parties with access to their data have also deleted it?
    Answer. We use a variety of tools to enforce Facebook policies 
against violating parties, including developers. We review tens of 
thousands of apps per year. With the exception of Account Information 
(name, e-mail, gender, birthday, current city, and profile picture 
URL), apps may maintain user data obtained from us only for as long as 
necessary for their business purpose and must delete the information if 
they stop using the Facebook Platform. Further, developers are required 
to keep the data maintained on their systems up to date.

    Question 11. What mechanisms--beyond self-reporting--are currently 
in place, or will be in place in the future, to enable independent 
academic and journalistic validation of Facebook's current and future 
claims that the platform has removed bad actors who have abused or 
compromised user data and privacy?
    Answer. App Review. We have large teams of internal and external 
experts working hard to investigate these apps as quickly as possible. 
To date, thousands of apps have been investigated and around 200 (from 
a handful of developers) have been suspended--pending a thorough 
investigation into whether they did in fact misuse any data.
    The App Review process introduced in 2014 requires developers who 
create an app that asks for more than certain basic user information 
from installers to justify the data they are looking to collect and how 
they are going to use it. Facebook then reviews whether the developer 
has a legitimate need for the data in light of how the app functions. 
Only if it is approved following such review can the app ask for users' 
permission to get their data. Facebook has rejected more than half of 
the apps submitted for App Review between April 2014 and April 2018.
    New Developer Requirements. We are in the process of investigating 
every app that had access to a large amount of information before we 
changed our Platform in 2014. If we find suspicious activity, we will 
take immediate steps to investigate (including a full forensic audit) 
or take enforcement actions against the app. If we determine that there 
has been improper use of data, we will ban those developers and notify 
everyone affected. Facebook is launching the Data Abuse Bounty to 
reward people who report any misuse of data by app developers. The Data 
Abuse Bounty, inspired by the existing bug bounty program that we use 
to uncover and address security issues, will help us identify 
violations of our policies.
    Further, Facebook's Platform Policy makes clear to app developers 
the relevant requirements regarding users' privacy that apply to apps 
operating on the Platform, including the requirements to give users 
choice and control, and to respect user privacy. Application developers 
explicitly agree to Facebook's Statement of Rights and Responsibilities 
and Platform Policy when they set up their Facebook accounts. The 
Platform Policy imposes a variety of obligations on app developers 
regarding the features, functionality, data collection and usage, and 
content for apps on the Platform, as well as Facebook's right to take 
enforcement action if an application violates the Platform Policy.
    Clear History. We have also worked with regulators, legislators, 
and privacy experts on updates that make data settings and tools easier 
to find. For example, we recently announced plans to build Clear 
History. This feature will enable users to see the websites and apps 
that send us information when they use them, delete this information 
from their accounts, and turn off our ability to store it associated 
with their accounts going forward. When developing tools such as Clear 
History, we will work with privacy advocates, academics, policymakers, 
and regulators to get their input on our approach, including how we 
plan to remove identifying information and the rare cases where we need 
information for security purposes. We've already started a series of 
roundtables in cities around the world, and heard specific demands for 
controls like these at a session we held at our headquarters two weeks 
ago. We're looking forward to doing more.
    Measuring Misinformation Through Academic Commission. In April, 
Facebook also announced a new initiative to help provide independent 
research about the role of social media in elections, as well as 
democracy more generally. In the coming weeks, the commission will lead 
a request for proposals to measure the volume and effects of 
misinformation on Facebook. They will then manage a peer review process 
to select which scholars will receive funding for their research, and 
access to privacy-protected data sets from Facebook. This will help 
keep us accountable and track our progress over time.
    Elections. We know that outside experts, researchers, and academics 
can also help by analyzing political advertising on Facebook. It's why 
we're working closely with our newly-formed Election Commission and 
other stakeholders to launch an API for the archive of ads with 
political content. We also recognize that news coverage of elections 
and important issues is distinct from advocacy or electoral ads, even 
if those news stories receive paid distribution on Facebook. We're 
working closely with news partners and are committed to updating the 
archive to help differentiate between news and non-news content.

    Question 12. Well, you bring up the principles because, as you are 
well aware, AI systems, especially in very complex environments when 
you have machine learning, it is sometimes very difficult to 
understand, as you mentioned, exactly how those decisions were arrived 
at. There are examples of how decisions are made on a discriminatory 
basis and that they can compound if you are not very careful about how 
that occurs. And so is your company--you mentioned principles. Is your 
company developing a set of principles that are going to guide that 
development? And would you provide details to us as to what those 
principles are and how they will help deal with this issue?
    Answer. We are focused on both the technical and the ethical 
aspects of artificial intelligence. We believe these two should go 
hand-in-hand together in order to fulfill our commitment to being fair, 
transparent, and accountable in our development and use of AI. Facebook 
has AI teams working on developing the philosophical, as well as 
technical, foundations for this work. Facebook is also one of the co-
founders and members of the Partnership on AI (PAI), a collaborative 
and multi-stakeholder organization established to study and formulate 
best practices on AI technologies, to advance the public's 
understanding of AI, and to serve as an open platform for discussion 
and engagement about AI and its influences on people and society. The 
thematic pillars that structure the work we're doing in the scope of 
the PAI--safety, fairness, transparency, and accountability--are the 
principles that we believe industry should follow and promote when 
building and deploying AI systems. The PAI's Fair, Transparent and 
Accountable AI Working Group is also working alongside industry, 
academia, and civil society to develop best practices around the 
development and fielding of fair, explainable, and accountable AI 
systems.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Tammy Baldwin to 
                            Mark Zuckerberg
    Question 1. Do you know whether Aleksandr Kogan sold any of the 
data he collected to anyone other than Cambridge Analytica?
    Answer. Kogan represented to us that he provided data to SCL, 
Eunoia Technologies (a company founded by Christopher Wylie), and a 
researcher at the Toronto Laboratory for Social Neuroscience at the 
University of Toronto. He represented to Facebook that he only received 
payment from SCL/Cambridge Analytica.

    Question 2. How much do you know or have you tried to find out how 
Cambridge Analytica used the data while they had it before you believed 
they deleted it?
    Answer. On December 11, 2015, The Guardian published an article 
reporting that Kogan and his company, GSR, may have passed information 
his app had obtained from Facebook users to SCL Elections Ltd. (SCL)/
Cambridge Analytica. By doing so, Kogan and his company violated 
Facebook's Platform Policies, which explicitly prohibited selling or 
licensing user data accessed from Facebook and from sharing any user 
data accessed from Facebook with any ad network, data broker or other 
advertising or monetization-related service. For this reason, Facebook 
immediately banned his app from our platform and launched an 
investigation into these allegations. Kogan signed a certification 
declaring that he had deleted all data that he obtained through his app 
and obtained certifications of deletion from others he had shared data 
with, including Cambridge Analytica. In March 2018, new allegations 
surfaced that Cambridge Analytica may not have deleted data as it had 
represented. Our investigation of these matters is ongoing.

    Question 3. I find some encouragement in the steps you have 
outlined today to provide greater transparency regarding political ads. 
I want to get further information on how you can be confident that you 
have excluded entities based outside of the United States.
    Answer. Pursuant to the new transparency measures Facebook is 
launching, all advertisers who want to run ads with political content 
targeted at the U.S. will have to confirm their identity and location 
by providing either a U.S. driver's license or passport, last four 
digits of their social security number, and a residential mailing 
address. In addition, people who manage Pages with large numbers of 
followers will need to be verified. Those who manage large Pages that 
do not clear the process will no longer be able to post.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Tammy Duckworth to 
                            Mark Zuckerberg
    Question 1. According to the New York Times and other media 
outlets, fair housing advocates recently filed a lawsuit in Federal 
court arguing that ``Facebook continues to discriminate against certain 
groups, including women, disabled veterans and single mothers, in the 
way that it allows advertisers to target the audience for their ads.'' 
Despite repeated announcements by Facebook suggesting that your company 
will remedy this disturbing practice, third-party organizations have 
tested your platform repeatedly to exclude certain minorities. 
Unfortunately, many of these tests of your platform were successful and 
this issue has been known to Facebook for several years.
    Please explain in detail why Facebook provided housing advertisers 
with targeting options to exclude users based on ``ethnic affinity'' in 
clear violation of Federal law. Following third-party demonstrations of 
how a housing advertiser could unlawfully use Facebook to discriminate 
against certain protected classes of housing customers, please describe 
in detail the specific actions Facebook took to end the practice and 
make sure that Facebook's user tools actually reflect Facebook's 
written policies that claim to prohibit using Facebook's targeting 
options to discriminate. As Chairman and Chief Executive Officer, 
please describe how you personally responded to the public reports 
demonstrating that Facebook's targeting options had enabled unlawful 
discrimination in housing. Please provide any company documents, in 
hard copy or electronic form, addressing the implementation of Facebook 
advertising targeting options and any associated risk that such an 
option could result in violations of Federal legal prohibitions against 
discrimination in housing. If Facebook has no such documents, please 
provide a detailed justification as to why the company did not, or does 
not, have a compliance protocol or office dedicated to enforcing Fair 
Housing laws.
    Answer. We want our advertising tools to help promote inclusion and 
diversity of all kinds. Discrimination has no place on Facebook, and we 
make this clear to advertisers in a number of ways. Everyone on 
Facebook must agree to our Terms when they sign up to use our service. 
In so doing, they agree not to engage in discriminatory conduct on 
Facebook. In addition, our Advertising Policies (available at https://
www.facebook.com/policies/ads/) include an explicit and detailed anti-
discrimination policy that prohibits discriminatory ads or the use of 
our audience selection tools for discriminatory purposes.
    In late 2016, we began building machine learning tools (called 
``classifiers'') that were intended to automatically identify, at the 
point of creation, advertisements offering housing, employment or 
credit opportunities (referred to here generally as ``housing, 
employment and credit ads''). We built these classifiers so that when 
we identified one of these kinds of ads, we could: (1) prevent the use 
of our ``multicultural affinity'' targeting options in connection with 
the ad, and (2) for the use of any other kind of targeting, require 
that the advertiser certify compliance with our anti-discrimination 
policy and applicable anti-discrimination laws.
    We trained the classifiers before we launched them, including by 
using search terms provided by your office in January 2017. After the 
classifiers launched in approximately February 2017, we anticipated 
that, through machine learning, they would become better over time at 
distinguishing ads offering housing, employment, or credit 
opportunities from other types of ads. We also expected that we would 
receive feedback about the performance of the tool that would enable us 
to detect problems and improve the classifiers over time.
    In practice, the classifiers did not improve over time as much as 
we had anticipated. Rather, they became both over- and under-inclusive, 
identifying and requiring self-certification for hundreds of thousands 
of ads each day that may have had nothing to do with housing, 
employment, or credit offers, while missing ads that may have contained 
such offers.
    There were two principal reasons for this failure. First, a key 
aspect of our ad-review process involves the random sampling of ads 
that are live on Facebook for the purpose of reassessing those ads' 
compliance with our Advertising Policies. When we identify ads that 
should have been flagged as being in violation of our policies, we use 
that information to improve our review processes, including our machine 
learning classifiers. In hindsight, our training set was not 
sufficiently comprehensive and did not include an evolving set of 
housing, credit and employment ads that should have been flagged by our 
classifiers to better train our models. We also failed to fully account 
for the lack of feedback we would likely receive about the performance 
of these classifiers through other channels--feedback we typically rely 
on to alert us to performance issues. For example, advertisers whose 
ads should have been (but were not) identified through this process 
would have had no reason to report a problem.
    We take these limitations very seriously, and we regret that they 
prevented us from providing the oversight we had hoped to provide. 
Since they were brought to our attention in November 2017, we have 
taken significant steps to remedy them. These steps include the 
following:

  <bullet> We have integrated all of the classifiers and targeting 
        prohibitions into the random sampling process we use to gather 
        feedback about the performance of our ad review processes.

  <bullet> We are adding more than 1,000 people to our global ads 
        review teams over the next year to allow for more human review 
        of the ads placed on our platform.

  <bullet> We have built teams whose role it is to pressure test our 
        policy-enforcement products to identify potential performance 
        issues.

    In addition to addressing the issues with housing, employment and 
credit classifiers to more accurately identify such ads, as of January 
2018, we have implemented the following additional changes with regard 
to multicultural affinity targeting more generally:

  <bullet> We disabled the use of multicultural affinity exclusion 
        targeting for all ads; this prohibition is no longer limited to 
        housing, employment and credit ads.

  <bullet> We now require self-certification of compliance with our 
        anti-discrimination policies and applicable anti-discrimination 
        laws for any use of multicultural affinity targeting, 
        regardless of the type of ad.

  <bullet> We have undertaken a review of our ad-targeting tools 
        generally, with an eye toward identifying the potential for the 
        tools to be abused.

  <bullet> As a result of that review, we disabled the use of other 
        exclusion targeting categories that we determined, on their 
        face, may have been misunderstood to identify a group of 
        Facebook users based on race, color, national origin or 
        ancestry.

    Question 2. What is Facebook doing to protect Veterans, women and 
other minorities to ensure that advertisements on your platform do not 
discriminate against them in possible violation of Federal laws? Is 
Facebook aware of an investigation by the U.S. Department of Housing 
and Urban Development regarding these issues and is Facebook 
cooperating with an investigation? When were you alerted that an 
investigation(s) had begun? Do you believe that violators of Federal 
laws prohibiting discrimination, such as the protections contained in 
the Fair Housing Act, should be held accountable?
    Answer. Discriminatory advertising has no place on Facebook's 
platform and Facebook removes such content as soon as it becomes aware 
of it. Facebook's policies prohibit advertisers from discriminating 
against people on personal attributes such as race, ethnicity, color, 
national origin, religion, age, sex, sexual orientation, gender 
identity, family status, disability, and medical or genetic conditions. 
Facebook educates advertisers on our anti-discrimination policy, and in 
some cases, requires the advertisers to certify compliance with 
Facebook's anti-discrimination policy and anti-discrimination laws.
    Facebook also uses machine learning to help identify ads that offer 
housing, employment, or credit opportunities. When an advertiser 
attempts to show an ad that Facebook identifies as offering a housing, 
employment, or credit opportunity and includes Facebook's multicultural 
advertising segments, Facebook will disapprove the ad. Facebook also 
requires advertisers to certify that they are complying with Facebook's 
updated anti-discrimination policy and anti-discrimination laws when 
the advertiser attempts to show a housing, employment, or credit 
opportunity and uses any other audience segment on Facebook.
    Facebook has been actively engaged with the U.S. Department of 
Housing and Urban Development (HUD) since at least the Fall of 2016. As 
part of the engagement, Facebook has focused on addressing the concern 
that advertisers may seek to engage in discriminatory advertising on 
Facebook's platform. In connection with this engagement, Facebook has 
made numerous modifications and improvements to its ad policies, 
practices, and tools.

    Question 3. I'm glad to hear that Facebook plans to extend the 
European Union's General Data Protection Regulations (GDPR) to U.S. 
users. By what date does Facebook plan on extending those protections 
to U.S. users? In doing so, is Facebook affirming that all data 
generated by a user is the property of that user and is subject to 
protections outlined in the General Data Protection Regulations, 
including rights to access, rectification, erasure, data portability, 
among others?
    Answer. We confirm that we provide the same tools for access, 
rectification, erasure, data portability and others to people in the 
U.S. (and globally) that we provide in the European Union, and many of 
those tools (like our Download Your Information tool, Ad Preferences 
tool, and Activity Log) have been available globally for many years. We 
have recently begun providing direct notice of these controls and our 
updated terms of service to people around the world (including in the 
U.S.), allowing people to choose whether or not to enable or disable 
these settings or to consent to our updated terms. The controls and 
settings that Facebook is enabling as part of GDPR are available to 
people around the world, including settings for controlling our use of 
face recognition on Facebook and for controlling our ability to use 
data we collect off Facebook Company Products to target ads.

    Question 4. The European Union's deadline for full implementation 
of their General Data Protection Regulations (GDPR) is May 25, 2018. 
While you have said publically that Facebook plans to extend General 
Data Protection Regulations (GDPR) across its platform ``in spirit,'' 
including to users in the U.S., recent media reporting suggests that 
Facebook's commitment to GDPR implementation across its platform is 
questionable. In your view, what does implementation of GDPR ``in 
spirit'' mean? If Facebook were to be found violating GDPR protections 
for non-European Union users, what recourse do those users have, legal 
or otherwise, to remedy a complaint?
    Answer. As a part of our overall approach to privacy, we are 
providing the same tools for access, rectification, erasure, data 
portability and others to people in the U.S. (and globally) that we 
provide in the European Union under the GDPR. The controls and settings 
that Facebook is enabling as part of GDPR include settings for 
controlling our use of face recognition on Facebook and for controlling 
our ability to use data we collect off Facebook Company Products to 
target ads. We recently began providing direct notice of these controls 
and our updated terms to people around the world (including in the 
U.S.), allowing people to choose whether or not to enable or disable 
these settings or to consent to our updated terms. Many of these tools 
(like our Download Your Information tool, ad preferences tool, and 
Activity Log) have been available globally for many years.
    The substantive protections in our user agreements offered by 
Facebook Ireland and Facebook, Inc. are the same. However, there are 
certain aspects of our Facebook Ireland Data Policy that are specific 
to legal requirements in the GDPR--such as the requirement that we 
provide contact information for our EU Data Protection Officer or that 
we identify the ``legal bases'' we use for processing data under the 
GDPR. Likewise, our Facebook Ireland terms and Data Policy address the 
lawful basis for transferring data outside the EU, based on legal 
instruments that are applicable only to the EU. And other provisions of 
the GDPR itself pertain to interactions between European regulators and 
other matters that are not relevant to people located outside of the 
EU.
    Facebook is subject to ongoing oversight by the Federal Trade 
Commission with respect to its privacy commitments to people and its 
implementation of privacy settings, under a Consent Order with the FTC. 
Facebook is subject to the authority of the Irish Data Protection 
Commissioner, its lead regulator, under the GDPR in the European Union.

    Question 5. As reported by Politico on April 17, 2018, Facebook has 
enlisted the help of conservative organizations to push back against 
GDPR and other potential regulatory efforts in the U.S. Is Facebook 
coordinating with political organizations to consider or address 
potential state or Federal regulatory actions?
    Answer. When the GDPR was finalized, we realized it was an 
opportunity to invest even more heavily in privacy. We not only wanted 
to comply with the law, but also go beyond our obligations to build new 
and improved privacy experiences for everyone on Facebook. To that end, 
as we often do, we sought feedback from people with a variety of 
perspectives on privacy, including people who use our services, 
regulators and government officials, privacy and policy experts, and 
designers. We are applying the same protections, controls, and 
transparency to people in the U.S. and around the world that we are 
providing to people in Europe under GDPR.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Mark Zuckerberg
    Question 1. During the hearing, you stated that you ``don't know'' 
whether Facebook employees actively coordinated with Cambridge 
Analytica as a result of the support Facebook provided directly to the 
Trump campaign. Representatives from the Trump campaign have 
extensively detailed how Facebook provided ``hands-on'' support to the 
campaign, embedding Facebook employees at the campaign's digital 
operation center in San Antonio.\5\ Cambridge Analytica appears to have 
had employees nearby, in the same office, at the same time that 
Facebook employees were embedded there.
---------------------------------------------------------------------------
    \5\ https://qz.com/1233579/facebook-and-cambridge-analytica-worked-
side-by-side-at-a-trump-campaign-office-insan-antonio/

  <bullet> Was Facebook aware that Cambridge Analytica personnel would 
        be working out of the same Trump campaign office before 
        Facebook agreed to provide support to the campaign at this 
        location? If not, when did someone at Facebook become aware, 
---------------------------------------------------------------------------
        and what disclosure process was followed internally?

  <bullet> Would Facebook have still provided support if it knew 
        beforehand that it would be working alongside Cambridge 
        Analytica? Once Facebook found out it would be working 
        alongside Cambridge Analytica, what actions did Facebook take?

  <bullet> Have you conducted an internal investigation into the 
        vetting process behind this arrangement with the Trump 
        campaign?

    Answer. While no one from Facebook was assigned full-time to the 
Trump campaign, Facebook employees did interact with Cambridge 
Analytica employees. While our investigation is ongoing, our review 
indicates that Facebook employees did not identify any issues involving 
the improper use of Facebook data in the course of their interactions 
with Cambridge Analytica during the 2016 U.S. Presidential campaign.
    In general, political data firms working on the 2016 campaign had 
access to Facebook's advertising support services, including technical 
support, and best practices guidance on how to optimize their use of 
Facebook. Everyone had access to the same tools, which are the same 
tools that every campaign is offered.

    Question 2. You stated that Facebook only collected text/call data 
when people opted-in from Facebook Messenger. Some reports \6\ seem to 
contradict that, with users who reportedly did not download the 
Messenger app onto a given device seeing their message data from those 
devices in their Facebook files. Can you clarify this discrepancy?
---------------------------------------------------------------------------
    \6\ https://arstechnica.com/information-technology/2018/03/
facebook-scraped-call-text-message-data-for-years-fromandroid-phones/
---------------------------------------------------------------------------
    You also stated that this was done to improve the user experience. 
Can you explain why it would be necessary to collect not only the 
contact data from a user's phone, but also the date, time, and length 
of calls and store that data for years?
    Answer. Call and text history logging is part of an opt-in feature 
that lets people import contact information to help them connect with 
people they know on Facebook and Messenger. We introduced the call and 
text history component of this feature for Android users several years 
ago, and currently offer it in Messenger and Facebook Lite, a 
lightweight version of Facebook, on Android.
    Contact importers are fairly common among social apps and serve as 
a way to more easily find the people users want to connect with. They 
help users find and stay connected with the people they care about and 
provide them with a better experience across Facebook.
    Before we receive call and text history from people, they 
specifically grant us permission to access this data on their device 
and separately agree to use the feature. If, at any time, they no 
longer wish to use this feature they can turn it off, and all 
previously shared call and text history shared via that app is deleted. 
People can also access information they previously imported through the 
Download Your Information tool.
    We've reviewed this feature to confirm that Facebook does not 
collect the content of messages--and will delete all logs older than 
one year. In the future, people will only upload to our servers the 
information needed to offer this feature--not broader data such as the 
time of calls.

    Question 3. You stated that information sent via WhatsApp is not 
seen or collected by Facebook, and is never used to inform 
advertisements. WhatsApp features end-to-end encryption, meaning 
Facebook has no access to those messages. But other Facebook services 
such as Messenger or messages on Instagram are not encrypted this way, 
meaning Facebook does have access to them. Are the content of messages 
sent through Facebook Messenger or Instagram ever used, or have they 
ever been used, to inform the placement of advertisements?
    Answer. Facebook does not analyze the content of photos or text in 
users' posts or messages to target ads to them using AI or otherwise. 
Instead, there are a few primary ways that we personalize the ads and 
sponsored content for people on Facebook, based on:

  <bullet> Information from people's use of Facebook. When people use 
        Facebook, they can choose to share things about themselves like 
        their age, gender, hometown, or interests. They can also click 
        or like posts, Pages, or articles. We use this information to 
        understand what users might be interested in and hopefully show 
        them ads that are relevant. If a bike shop comes to Facebook 
        wanting to reach female cyclists in Atlanta, we can show their 
        ad to women in Atlanta who liked a Page about bikes. People can 
        always see the ``interests'' assigned to them in their ad 
        preferences, and if they want, remove them.

  <bullet> Information that an advertiser shares with us (or ``custom 
        audiences''). In this case, advertisers bring us the customer 
        information so they can reach those people on Facebook. These 
        advertisers might have people's e-mail address from a purchase 
        users made, or from some other data source. If we have matching 
        e-mail addresses, we can show those people ads from that 
        advertiser (although we cannot see the e-mail addresses which 
        are sent to us in hashed form, and these are deleted as soon as 
        we complete the match). In ad preferences people can see which 
        advertisers with their contact information are currently 
        running campaigns--and they can click the top right corner of 
        any ad to hide all ads from that business.

  <bullet> Information that websites and apps send to Facebook. Some of 
        the websites and apps people visit may use Facebook tools to 
        make their content and ads more relevant, if people consent to 
        let Facebook show them ads based on data from third-party 
        partners. For example, if an online retailer is using Facebook 
        Pixel, they can ask Facebook to show ads to people who looked 
        at a certain style of shoe or put a pair of shoes into their 
        shopping cart. If users don't want this data used to show them 
        ads, they can turn it off in ad preferences.

  <bullet> Facebook also offers Lookalike Audiences. Advertisers 
        creating a Lookalike Audience choose a source audience (which 
        could include a custom audience as described above, people who 
        have opened or completed a form in lead ads on Facebook, people 
        who have interacted with the advertiser's Facebook page or its 
        Instagram profile). Facebook then identifies common qualities 
        of the people in the source audience (e.g., demographic 
        information or information about their interests), and then 
        identifies people who are similar to them (on the basis of the 
        common signals identified in the source audience), without 
        sharing this information with the advertiser.

    Question 4. What research have you done relating to users' 
understanding of your policies and/or procedures relating to privacy 
and/or security of user data?
    Answer. We do extensive research around our privacy controls, 
including focus-groups and on-platform surveys. Our research 
overwhelmingly demonstrates that, while ``up front'' information like 
that contained in the terms of service are useful, in-product controls 
and education are the most meaningful to people and the most likely to 
be read and understood. On-demand controls are also important, and we 
recently redesigned our entire settings menu on mobile devices from top 
to bottom to make things easier to find. We also created a new Privacy 
Shortcuts, a menu where people can control their data in just a few 
taps, with clearer explanations of how our controls work. The 
experience is now clearer, more visual, and easy-to-find.
    Improving people's understanding of how digital services work is an 
industry-wide challenge that we are highly committed to addressing. 
That's why, over the last 18 months, we've run a global series of 
design workshops called ``Design Jams'', bringing together experts in 
design, privacy, law, and computer science to work collaboratively on 
new and innovative approaches. These workshops have run in Paris, 
London, Dublin, Berlin, Sao Paolo, Hong Kong, and other cities, and 
included global regulators and policymakers. At these workshops, expert 
teams use ``people centric design'' methods to create innovative new 
design prototypes and experiences to improve transparency and education 
in digital services. These workshops inform Facebook's constantly-
improving approach.
    In recognition of the need for improved approaches to data 
transparency across all digital services, working with partners from 
academia, design, and industry we recently launched TTC Labs, a design 
innovation lab that seeks to improve user experiences around personal 
data. TTC Labs is an open platform for sharing and innovation and 
contains insights from leading experts in academia, design, and law, in 
addition to prototype designs from the Design Jams, template services 
and open-source toolkits for people-centric design for transparency, 
trust and control of data. Working collaboratively, and based on open-
source approaches, TTC Labs seeks to pioneer new and more people-
centric best practices for people to understand how their data is used 
by digital services, in ways that they find easy to understand and 
control.
    Facebook is highly committed to improving people's experience of 
its own services as well as in to support improvements across the 
industry.

    Question 5. What percentage of users change their default privacy 
settings?
    Answer. There is no single number that measures how much time 
people spend understanding how Facebook services work, in large part 
because Facebook seeks, as much as possible, to put controls and 
information in context within its service.
    We've heard loud and clear that privacy settings and other 
important tools are hard to find and that we must do more to keep 
people informed. So, we're taking additional steps to put people more 
in control of their privacy. For instance, we redesigned our entire 
settings menu on mobile devices from top to bottom to make things 
easier to find. We also created a new Privacy Shortcuts in a menu where 
users can control their data in just a few taps, with clearer 
explanations of how our controls work. The experience is now clearer, 
more visual, and easy-to-find. Furthermore, we also updated our terms 
of service that include our commitments to everyone using Facebook. We 
explain the services we offer in language that's easier to read. We 
also updated our Data Policy to better spell out what data we collect 
and how we use it in Facebook, Instagram, Messenger, and other 
products.

    Question 6. What types of data or information does Facebook collect 
and store about non-Facebook users? For what purpose does Facebook 
collect this data and information?
    Answer. When people visit apps or websites that feature our 
technologies--like the Facebook Like or Comment button--our servers 
automatically log (i) standard browser or app records of the fact that 
a particular device or user visited the website or app (this connection 
to Facebook's servers occurs automatically when a person visits a 
website or app that contains our technologies, such as a Like button, 
and is an inherent function of Internet design); and (ii) any 
additional information the publisher of the app or website chooses to 
share with Facebook about the person's activities on that site (such as 
the fact that a purchase was made on the site). This is a standard 
feature of the Internet, and most websites and apps share this same 
information with multiple different third-parties whenever people visit 
their website or app. For example, the House Energy and Commerce 
Committee's website shares information with Google Analytics to help 
improve the site. This means that, when a person visits the Committee's 
website, it sends browser information about their visit to that party. 
More information about how this works is available at https://
newsroom.fb.com/news/2018/04/data-off-facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product or use specific features like our Like button--but 
without providing any information about a specific person. We do not 
create profiles for non-Facebook users, nor do we use browser and app 
logs for non-Facebook users to show targeted ads from our advertisers 
to them or otherwise seek to personalize the content they see. However, 
we may take the opportunity to show a general ad that is unrelated to 
the attributes of the person or an ad encouraging the non-user to sign 
up for Facebook.
    We do receive some information from devices and browsers that may 
be used by non-users. For example:

  <bullet> We also may receive information about the device of a non-
        registered user if that user visits a part of Facebook that 
        does not require people to log in--such as a public Facebook 
        Page. The information we log when people visit our websites or 
        apps is the same as described above and is the same information 
        that any provider of an online service would receive.

  <bullet> In addition, Facebook may receive some basic information 
        about devices where Facebook apps are installed, including 
        before people using those devices have registered for Facebook 
        (such as when a user downloads a Facebook app, but has not yet 
        created an account, or if the app is preloaded on a given 
        device). This device data includes things like device model, 
        operating system, IP address, app version and device 
        identifiers. We use this information to provide the right 
        version of the app, help people who want to create accounts 
        (for example, optimizing the registration flow for the specific 
        device), retrieving bug fixes and measuring and improving app 
        performance. We do not use this information to build profiles 
        about non-registered users.

    Question 7. Some reports have indicated that private messages sent 
via Facebook may have been accessible to Cambridge Analytica and other 
third party developers via the first version of the Graph API.\7\ Is 
there merit to those reports? If so, how many users' private messages 
would have been available through this mechanism?
---------------------------------------------------------------------------
    \7\ https://medium.com/tow-center/the-graph-api-key-points-in-the-
facebook-and-cambridge-analytica-debacle-b69fe692d747
---------------------------------------------------------------------------
    Answer. At the outset, we do not know what data Kogan may have 
shared with Cambridge Analytica. Our investigation into these matters 
is ongoing, and we are paused on investigating Cambridge Analytica 
directly (or conducting a forensic audit of its systems) due to the 
request of the UK Information Commissioner's Office, which is 
separately investigating Cambridge Analytica, a UK entity. The best 
information to date also suggests only U.S. user data was shared by 
Kogan with Cambridge Analytica.
    Approximately 300,000 Facebook users worldwide installed Kogan's 
app. For the majority of these users, the app requested consent to 
access the following data fields associated with the user and with the 
friends of the user: Public profile data, including name and gender; 
Birthdate; ``Current city'' in the ``About'' section of the user's 
profile, if provided; and Facebook Pages liked.
    For a small subset of users, it appears that the app also requested 
consent to access users' Facebook messages (fewer than 1,500 
individuals, based on current information) and to posts that appeared 
in the user's News Feed or Timeline (approximately 100 individuals, 
based on current information)--but only for users who installed the 
app. For a small subset of users (fewer than 1,500 individuals, based 
on current information), it appears that the app also requested consent 
to access the hometowns that the users' friends had specified in the 
``About'' section of their profiles. And for a handful of people (fewer 
than 10) who appear to be associated with Kogan/GSR, the app requested 
consent to e-mail address and photos.

    Question 8. What steps is Facebook taking to combat the opioid 
crisis (such as efforts to crack down on the sale of illicit drugs or 
identify users at risk of addiction)?
    Answer. Thank you for highlighting this important issue. We have an 
iterative, proactive process to help prevent opportunities for--and 
respond quickly to--illicit drug sales on our platforms:

  <bullet> Our Community Standards make it very clear that buying, 
        selling or trading non-medical or pharmaceutical drugs is not 
        allowed on Facebook. Any time we become aware of content on 
        Facebook that is facilitating activity like drug sales, we 
        remove it and have taken numerous measures to minimize the 
        opportunity for these activities to take place on our platform.

  <bullet> We make it easy for people to flag content for us so that we 
        can quickly review and remove it if it violates. That's why 
        people can report any piece of content on Facebook--profiles, 
        Pages, Groups, individual content and even comments.

  <bullet> If we identify violating content, we are able to look for 
        associated profiles, Pages, groups, and accounts and remove 
        them.

  <bullet> We have also made it harder for people to find content that 
        facilitates the sale of opioids on our platform.

  <bullet> We have removed content that violated our policies that was 
        surfaced in Search.

  <bullet> We have blocked hundreds of terms associated with drugs 
        sales from being able to surface results on Facebook or only 
        returning links to news about drugs shared for awareness.

  <bullet> We have removed thousands of terms from being suggested in 
        search--meaning that our systems won't recognize the beginning 
        of the word as it is being typed and suggest what the completed 
        term to search is.

  <bullet> We continue to look for ways to get faster at finding and 
        removing this content, working across our policy, operations, 
        product, and partnerships team. We also update our detection 
        methods as bad actors work to game the system and bypass our 
        safeguards.

    We recently launched a new feature on Facebook so that now, when 
people search for help with opioid misuse--as well as attempt to buy 
opioids--they are prompted with content at the top of the search 
results page that will ask them if they would like help finding free 
and confidential treatment referrals. This will then direct them to the 
Substance Abuse and Mental Health Services Administration National 
Helpline.
    The same resources will be available on Instagram in the coming 
weeks. This is one of a number of ways we are helping connect people 
with resources and communities to support them.

    Question 9. What process does Facebook use to vet third parties 
before granting them access to user data?
    Answer. In April 2014, we announced that we would more tightly 
restrict our platform APIs to prevent abuse. At that time, we made 
clear that existing apps would have a year to transition--at which 
point they would be forced (1) to migrate to the more restricted API 
and (2) be subject to Facebook's new review and approval protocols. The 
vast majority of companies were required to make the changes by May 
2015; a small number of companies (fewer than 100) were given a one-
time extension of less than six months beyond May 2015 to come into 
compliance. (One company received an extension to January 2016.) In 
addition, in the context of our ongoing review of third-party apps, we 
discovered a very small number of companies (fewer than 10) that 
theoretically could have accessed limited friends' data as a result of 
API access that they received in the context of a beta test. We are not 
aware that any of this handful of companies used this access, and we 
have now revoked any technical capability they may have had to access 
any friends' data.
    New apps that launched after April 30, 2014 were required to use 
our more restrictive platform APIs. We required apps seeking additional 
categories of data to undergo proactive review by our internal teams. 
We rejected more than half of the apps seeking these permissions, 
including the second version of Kogan's app.
    We review apps to ensure that the requested permissions clearly 
improve the user experience and that the data obtained is tied to an 
experience within the app. We conduct a variety of manual and automated 
checks of applications on the platform for Policy compliance, as well 
as random sampling. When we find evidence of or receive allegations of 
violations, we investigate and, where appropriate, employ a number of 
measures, including restricting applications from our platform, 
preventing developers from building on our platform in the future, and 
taking legal action where appropriate.
    Recently, we announced a number of additional steps we're taking to 
address concerns raised by Kogan's app.

  <bullet> Review our platform. We will investigate all apps that had 
        access to large amounts of data before the platform changes we 
        announced in 2014, and we will audit any app where we identify 
        suspicious activity. If we identify misuses of data, we'll take 
        immediate action, including banning the app from our platform 
        and pursuing legal action if appropriate.

  <bullet> Tell people about data misuse. We will tell people about 
        apps that have misused their data. This includes building a way 
        for people to know if their data might have been accessed via 
        the app. Moving forward, if we remove an app for misusing data, 
        we will tell everyone who used it.

  <bullet> Turn off access for unused apps. If someone has not used an 
        app within the last three months, we will turn off the app's 
        access to their data.

  <bullet> Restrict Facebook Login data. We are changing Login, so that 
        the only data that an app can request without app review will 
        include name, profile photo, and e-mail address. Requesting any 
        other data will require approval from Facebook. We will also no 
        longer allow apps to ask for access to information like 
        religious or political views, relationship status and details, 
        custom friends lists, education and work history, fitness 
        activity, book reading and music listening activity, news 
        reading, video watch activity, and games activity. We will 
        encourage people to manage the apps they use. We already show 
        people what apps their accounts are connected to and allow them 
        to control what data they've permitted those apps to use. But 
        we're making it easier for people to see what apps they use and 
        the information they have shared with those apps.

  <bullet> Reward people who find vulnerabilities. We launched the Data 
        Abuse Bounty program so that people can report to us any 
        misuses of data by app developers.

  <bullet> Update our policies. We have updated our terms and Data 
        Policy to explain how we use data and how data is shared with 
        app developers.

    Question 10. What steps does Facebook take to monitor third parties 
who have access to user data?
    Answer. See Response to Question 9.

    Question 11. Which third parties have improperly accessed or 
inappropriately used user data, or violated signed agreements with 
Facebook regarding data? What steps has Facebook taken to remedy these 
events?
    Answer. Facebook is in the process of investigating all the apps 
that had access to large amounts of information, such as extensive 
friends data (if those friends privacy data settings allowed sharing), 
before we changed our platform policies in 2014--significantly reducing 
the data apps could access. Where we have concerns about individual 
apps, we are investigating them--and any app that either refuses or 
fails an audit will be banned from Facebook. As of early June 2018, 
thousands of apps have been investigated and around 200 have been 
suspended--pending a thorough investigation into whether they did in 
fact misuse any data.
    These apps relate to a handful of developers: Kogan, AIQ, Cube You, 
the Cambridge Psychometrics Center, and myPersonality, with many of the 
suspended apps being affiliated with the same entity. Many of these 
apps also appear to be ``test'' apps that were never released to the 
public, and therefore would not have acquired significant user data, 
although our investigation into these apps is ongoing.

    Question 12. You stated that Facebook is an ``idealistic company.'' 
Facebook has reportedly sought to build a censorship-friendly app to 
help enter the Chinese market.\8\ Are those reports true? If so, do you 
consider those actions to be consistent with Facebook's idealism?
---------------------------------------------------------------------------
    \8\ https://www.nytimes.com/2016/11/22/technology/facebook-
censorship-tool-china.html
---------------------------------------------------------------------------
    Answer. Because Facebook has been blocked in China since 2009, we 
are not in a position to know exactly how the government would seek to 
apply its laws and regulations on content were we permitted to offer 
our service to Chinese users. Since 2013, Facebook has been a member of 
the Global Network Initiative (GNI), a multi-stakeholder digital rights 
initiative. As part of our membership, Facebook has committed to the 
freedom of expression and privacy standards set out in the GNI 
Principles--which are in turn based on the Universal Declaration of 
Human Rights and the United Nations Guiding Principles on Business and 
Human Rights--and we are independently assessed on our compliance with 
these standards on a biennial basis.
    In keeping with these commitments, rigorous human rights due 
diligence and careful consideration of free expression and privacy 
implications would constitute important components of any decision on 
entering China.

    Question 13. We are all grappling with the ability of foreign 
nations to exploit technology platforms like Facebook to spread 
propaganda and misinformation. While Facebook does not operate within 
China, reports have shown that the Chinese government advertises 
extensively on Facebook to spread propaganda in the U.S. and throughout 
Southeast Asia. Reports indicate that the Chinese government is the 
largest advertiser Facebook has in Asia. Do you believe Facebook should 
be a platform for allowing foreign nations to spread propaganda? Are 
the Chinese government's propaganda efforts consistent with Facebook's 
goal of cracking down on misinformation?
    Answer. Entities can maintain a presence on Facebook as long as 
they comply with Facebook's policies, including complying with 
applicable law. We hold all accounts to the same standards, including 
standards related to authenticity, and we remove accounts and content 
that violate our policies. For content that does not violate our 
policies but that is false or misleading, we have begun to work with 
third-party fact-checking organizations to provide additional 
information to people who see or share this kind of content. Posts that 
don't violate Facebook's policies but that are determined to be false 
or disputed may also appear lower in News Feed and become less likely 
to be widely distributed. If we become aware that our policies are 
being violated, we will take action.
    We've made important changes to prevent bad actors from using 
misinformation to undermine the democratic process. Here is a list of 
the 10 most important changes we have made:

  <bullet> Ads transparency. Advertising should be transparent: users 
        should be able to see all the ads an advertiser is currently 
        running on Facebook, Instagram and Messenger. And for ads with 
        political content, we've created an archive that will hold ads 
        with political content for seven years--including information 
        about ad impressions and spend, as well as demographic data 
        such as age, gender, and location. People in Canada and Ireland 
        have already been able to see all the ads that a Page is 
        running on Facebook--and we've launched this globally.

  <bullet> Verification and labeling. Every advertiser will now need 
        confirm their ID and location before being able to run any ads 
        with political content in the U.S. All ads with political 
        content will also clearly state who paid for them.

  <bullet> Updating targeting. We want ads on Facebook to be safe and 
        civil. We thoroughly review the targeting criteria advertisers 
        can use to ensure they are consistent with our principles. As a 
        result, we removed nearly one-third of the targeting segments 
        used by the IRA. We continue to allow some criteria that people 
        may find controversial. But we do see businesses marketing 
        things like historical books, documentaries or television shows 
        using them in legitimate ways.

  <bullet> Better technology. Over the past year, we've gotten 
        increasingly better at finding and disabling fake accounts. We 
        now block millions of fake accounts each day as people try to 
        create them--and before they've done any harm. This is thanks 
        to improvements in machine learning and artificial 
        intelligence, which can proactively identify suspicious 
        behavior at a scale that was not possible before--without 
        needing to look at the content itself.

  <bullet> Action to tackle fake news. We block millions of fake 
        account attempts each day as people try to create them thanks 
        to improvements in machine learning and artificial 
        intelligence. We are also working hard to stop the spread of 
        false news. To reduce the spread of false news, we remove fake 
        accounts and disrupt economic incentives for traffickers of 
        misinformation. We also use various signals, including feedback 
        from our community, to identify potential false news. In 
        countries where we have partnerships with independent third-
        party fact-checkers, stories rated as false by those fact-
        checkers are shown lower in News Feed. If Pages or domains 
        repeatedly create or share misinformation, we significantly 
        reduce their distribution and remove their advertising rights.

  <bullet> Significant investments in security. We're doubling the 
        number of people working on safety and security from 10,000 
        last year to over 20,000 this year. We expect these investments 
        to impact our profitability. But the safety of people using 
        Facebook needs to come before profit.

  <bullet> Industry collaboration. Recently, we joined 34 global tech 
        and security companies in signing a TechAccord pact to help 
        improve security for everyone.

  <bullet> Information sharing and reporting channels. In the 2017 
        German elections, we worked closely with the authorities there, 
        including the Federal Office for Information Security (BSI). 
        This gave them a dedicated reporting channel for security 
        issues related to the Federal elections.

  <bullet> Tracking 40+ elections. In recent months, we've started to 
        deploy new tools and teams to proactively identify threats in 
        the run-up to specific elections. We first tested this effort 
        during the Alabama Senate election, and plan to continue these 
        efforts for elections around the globe, including the U.S. 
        midterms. Last year we used public service announcements to 
        help inform people about fake news in 21 separate countries, 
        including in advance of French, Kenyan and German elections.

  <bullet> Action against the Russia-based IRA. In April, we removed 70 
        Facebook and 65 Instagram accounts--as well as 138 Facebook 
        Pages--controlled by the IRA primarily targeted either at 
        people living in Russia or Russian-speakers around the world 
        including from neighboring countries like Azerbaijan, 
        Uzbekistan, and Ukraine. The IRA has repeatedly used complex 
        networks of inauthentic accounts to deceive and manipulate 
        people in the U.S., Europe and Russia--and we don't want them 
        on Facebook anywhere in the world.

    We are taking steps to enhance trust in the authenticity of 
activity on our platform, including increasing ads transparency, 
implementing a more robust ads review process, imposing tighter content 
restrictions, and exploring how to add additional authenticity 
safeguards.

    Question 14. You have stated that users are able to download all of 
the data that Facebook has about them. Does this include data that 
Facebook has obtained through means such as cross-web tracking, 
purchasing data from brokers, and inferential data created with that 
user data?
    If not, how can a user access this data?
    Answer. Every user has a dedicated section in their settings which 
enables them to access or download their information at any time. Our 
Download Your Information or ``DYI'' tool is Facebook's data 
portability tool and was launched many years ago to let people access 
and download many types of information that we maintain about them. The 
data in DYI and in our Ads Preferences tool contain each of the 
interest categories that are used to show people ads, along with 
information about the advertisers that are currently running ads based 
on their use of an advertiser's website or app. People also can choose 
not to see ads from those advertisers. We recently expanded the tools 
we provide people for accessing their information, which will now allow 
people to see their data, delete it, and easily download and export it. 
More information is available at https://newsroom.fb.com/news/2018/04/
new-privacy-protections/.
    Responding to feedback that we should do more to provide 
information about websites and apps that send us information when 
people use them, we also announced plans to build Clear History. This 
new feature will enable users to see the websites and apps that send us 
information when they use them, clear this information from their 
account, and turn off Facebook's ability to store it associated with 
their account going forward.
    We have also introduced Access Your Information. This feature 
provides a new way for people to access and manage their information. 
Users can go here to delete anything from their timeline or profile 
that they no longer want on Facebook. They can also see their ad 
interests, as well as information about ads they've clicked on and 
advertisers who have provided us with information about them that 
influence the ads they see. From here, they can go to their ad settings 
to manage how this data is used to show them ads.

    Question 15. Before the hearing, Facebook announced an independent 
election research commission to solicit research on the effects of 
social media on elections and democracy. Does Facebook plan to solicit 
similar research on the effects of social media on other important 
aspects of society, including privacy, mental health and wellbeing, 
inequality, etc.?
    Answer. Facebook employs social psychologists, social scientists, 
and sociologists, and collaborates with top scholars to better 
understand well-being. Facebook has also pledged $1 million towards 
research to better understand the relationship between media 
technologies, youth development and well-being. Facebook is teaming up 
with experts in the field to look at the impact of mobile technology 
and social media on kids and teens, as well as how to better support 
them as they transition through different stages of life. Facebook is 
committed to bringing people together and supporting well-being through 
meaningful interactions on Facebook.

    Question 16. Many large institutions have set up independent 
systems to ensure transparency and internally check bad decisions. 
Federal agencies have inspectors general and offices to encourage 
whistleblowing. Many companies have ombudsmen, and some media companies 
have public editors to help publicly examine and evaluate their 
choices. Hospitals have ethics boards. What kinds of independent 
systems does Facebook have? Have you considered setting up an 
independent entity to help publicly examine and explain your decision-
making?
    Answer. Facebook's Board of Directors acts as the management team's 
adviser and monitors management's performance. The Board also reviews 
and, if appropriate, approves significant transactions and develops 
standards to be utilized by management in determining the types of 
transactions that should be submitted to the Board for review and 
approval or notification. The Board of Directors also has an Audit and 
Risk Oversight Committee with an oversight role.
    In addition to the Board's role, Facebook works with outside groups 
on these issues. For example, Relman, Dane & Colfax, a respected civil 
rights law firm, will carry out a comprehensive civil rights assessment 
of Facebook's services and internal operations. Laura Murphy, a 
national civil liberties and civil rights leader, will help guide this 
process--getting feedback directly from civil rights groups, like The 
Leadership Conference on Civil and Human Rights, and help advise 
Facebook on the best path forward.
    Moreover, Facebook recently announced a new initiative to help 
provide independent, credible research about the role of social media 
in elections, as well as democracy more generally. It will be funded by 
the Laura and John Arnold Foundation, Democracy Fund, the William and 
Flora Hewlett Foundation, the John S. and James L. Knight Foundation, 
the Charles Koch Foundation, the Omidyar Network, and the Alfred P. 
Sloan Foundation. At the heart of this initiative will be a group of 
scholars who will:

  <bullet> Define the research agenda;

  <bullet> Solicit proposals for independent research on a range of 
        different topics; and

  <bullet> Manage a peer review process to select scholars who will 
        receive funding for their research, as well as access to 
        privacy-protected datasets from Facebook which they can 
        analyze.

    Facebook will not have any right to review or approve the r 
research findings prior to publication. More information regarding the 
study is available at https://newsroom.fb.com/news/2018/04/new-
elections-initiative/.

    Question 17. When Facebook comes across terrorist-related content--
such as ISIS or al-Qaeda propaganda--does Facebook proactively alert 
Federal law enforcement to the terrorist content? If not, under what 
circumstances will Facebook alert Federal law enforcement about 
terrorist propaganda on your platform?
    Answer. We reach out to law enforcement if we learn of content that 
we believe reflects a credible threat of imminent harm. We have been 
able to provide support to authorities around the world that are 
responding to the threat of terrorism, including in cases where law 
enforcement has been able to disrupt attacks and prevent harm. Further, 
as part of official investigations, government officials sometimes 
request data about people who use Facebook. We have strict processes in 
place to handle these government requests, and we disclose account 
records in accordance with our terms of service and applicable law. We 
publish more information in our Law Enforcement Guidelines at https://
www.facebook.com/safety/groups/law/guidelines/ and Transparency Report 
at https://transparency.facebook.com/.

    Question 18. The other question I had, and it does not just apply 
to Facebook, is should the framework include financial penalties when 
large providers like Facebook are breached and privacy is compromised 
as a result? There is very little incentive for whether it is Facebook 
or Equifax to actually be abreast of protecting customer privacy and 
working for potential breaches or vulnerabilities in the system.
    Answer. Protecting people's data is one of our most important 
responsibilities. We know that if people don't trust that their 
information will be safe on Facebook, they won't feel comfortable using 
our services.
    We have every incentive to work as hard as we can to protect 
people's information, and we're committed to continuing our work to 
improve those protections.
    Facebook is generally open to the idea of Federal breach 
notification requirements, particularly legislation that would 
centralize reporting and ensure a consistent approach across the United 
States. For example, in Europe, the GDPR requires notification to a 
lead supervisory authority, rather than individual member states, in 
cases of a data breach. In the United States, however, there is no 
centralized notification scheme, and instead, reporting obligations 
vary widely across all 50 states. This complexity makes it harder to 
respond appropriately and swiftly to protect people in the event of a 
data breach. We believe this is an important issue and an area that is 
ripe for thoughtful regulation.
    Facebook is generally not opposed to regulation but wants to ensure 
it is the right regulation. We are already regulated in many ways--for 
example, under the Federal Trade Commission Act--and we are subject to 
ongoing oversight by the FTC under the terms of a 2011 consent order. 
Facebook has inherent incentives to protect its customers' privacy and 
address breaches and vulnerabilities. Indeed, the recent discovery of 
misconduct by an app developer on the Facebook platform clearly hurt 
Facebook and made it harder for us to achieve our social mission. As 
such, Facebook is committed to protecting our platform from bad actors, 
ensuring we are able to continue our mission of giving people a voice 
and bringing them closer together.
    We are also actively building new technologies to help prevent 
abuse on its platform, including advanced AI tools to monitor and 
remove fake accounts. We have also significantly increased our 
investment in security, employing more than 15,000 individuals working 
solely on security and content review and planning to increase that 
number to over 20,000 by the end of the year. We have also strengthened 
our advertising policies, seeking to prevent discrimination while 
improving transparency.
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                           to Mark Zuckerberg
    Question 1. Children's Data: Does Instagram have an age limit 
requirement similar to the 13 years old Facebook requires?
    Answer. Yes, Instagram requires everyone to be at least 13 years 
old before they can create an account (and in some jurisdictions, this 
age limit may be higher).

    Question 2. How vulnerable or widely utilized have children's (18 
or younger) data been in both Facebook and your other platforms?
    Answer. We take the privacy, safety, and security of all those who 
use our platform very seriously, and when it comes to minors (13 to 18 
years old), we provide special protections and resources.
    We also provide special protections for teens on Facebook and 
Messenger. We provide education before allowing teens to post publicly. 
We don't show search results based on specific profile data (high 
school, birthday/age, and hometown, or current city) of teens to 
unconnected adults when the adults search on Facebook. Unconnected 
adults can't message minors who are 13-17. And, we prohibit search 
engines off Facebook from indexing minors' profiles. And, we have age 
limits for advertisements. For example, ads for dating sites, financial 
services, and other products or services are gated to users under 18.
    We provide special resources to help ensure that they enjoy a safe 
and secure experience. For example, we recently announced the launch of 
our Youth Portal, which is available in 60 languages at https://
www.facebook.com/safety/youth. This portal is a central place for teens 
that includes:

  <bullet> Education. Information on how to get the most out of 
        products like Pages, Groups, Events, and Profile, while staying 
        safe. Plus, information on the types of data Facebook collects 
        and how we use it.

  <bullet> Peer Voices. First-person accounts from teens around the 
        world about how they are using technology in new and creative 
        ways.

  <bullet> Ways to control user experience. Tips on things like 
        security, reporting content, and deciding who can see what 
        teens share.

  <bullet> Advice. Guidelines for how to safely get the most out of the 
        internet.

    Instagram also will be providing information to teens to show them 
where they can learn about all of the tools on Instagram to manage 
their privacy and stay safe online, including how to use the new Access 
and Download tools to understand what they have shared online and learn 
how to delete things they no longer want to share. We are also making 
this information available in formats specifically designed for young 
users, including video tutorials for our privacy and safety tools, and 
teen-friendly FAQs about the Instagram Terms of Use, Data Policy, 
safety features, and Community Guidelines.
    Instagram has also launched new content on Instagram Together, 
including videos and FAQs about privacy controls; information on how to 
use safety features, including comment controls, blocking accounts, 
reporting abuse, spam, or troubling messages; information on 
responsible social media use; and FAQs about safety on Instagram. We 
will be reaching out to users under 18 on Instagram to encourage them 
to learn more on Instagram Together, available at https://
www.instagram-together.com/.
    Further, we have content restrictions and reporting features for 
everyone, including minors. We have Community Standards that prohibit 
hate speech, bullying, intimidation, and other kinds of harmful 
behavior. We encourage people to report posts and rely on our team of 
content reviewers around the world to review reported content. Our 
reviewers are trained to look for violations and enforce our policies 
consistently and as objectively as possible. When reviewed by our team, 
we hide certain graphic content from users under 18 (and include a 
warning for adults). We are also working to improve our ability to get 
our community help in real time, especially in instances where someone 
is expressing thoughts of suicide or self-harm, by expanding our use of 
proactive detection, working with safety experts and first-responders, 
and dedicating more reviewers from our Community Operations team.

    Question 3. How many children (18 or younger) had their data taken 
during the Cambridge Analytica breach?
    Answer. The Children's Online Privacy Protection Act (COPPA) 
requires parental consent and notification in specific instances 
involving the collection and use of data about children under the age 
of 13. Facebook does not allow children under the age of 13 on its 
service or collect data about children under 13 that would trigger 
parental consent or notification.

    Question 4. Are you notifying parents about their children's 
exposed data?
    Answer. See Response to Question 3.

    Question 5. Discriminatory Advertising: Please provide a detailed 
description, including screenshots if applicable, of the 
nondiscrimination compliance certification that Facebook currently 
requires advertisers to complete.
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 6. Please provide a complete list of the characteristics, 
categories, descriptors, and/or interests that Facebook allows 
advertisers to select in order to target certain users for inclusion in 
an advertisement's audience.
    Answer. Please refer to our letter to you dated May 16, 2018. 
Please note, however, that in limited cases and for the purpose of 
running ads that are not related to housing, employment or credit, we 
are re-enabling the ability of advertisers to exclude people from their 
audiences based on family status but are reviewing this as a targeting 
option.

    Question 7. Please provide a complete list of the characteristics, 
categories, descriptors, and/or interests that Facebook allows 
advertisers to select in order to exclude certain users from an 
advertisement's audience.
    Answer. See Response to Question 6.

    Question 8. Are there any characteristics, categories, descriptors, 
and/or interests that
    Facebook had previously permitted advertisers to select, but that 
Facebook no longer allows to be selected as targeting or exclusion 
criteria? If so, please provide a complete list of those 
characteristics, categories, descriptors, and/or interests.
    Answer. See Response to Question 6.

    Question 9. Are there certain characteristics, categories, 
descriptors, and/or interests that Facebook has never allowed 
advertisers to select for the purpose of targeting or excluding users 
from an advertisement's audience? If so, please provide a complete list 
of those characteristics, categories, descriptors, and/or interests.
    Answer. See Response to Question 6.

    Question 10. Please describe the process that Facebook uses to 
determine whether a characteristic, category, descriptor, or interest 
will be available for selection as a targeting or exclusion criteria. 
If Facebook has a written policy governing this determination, please 
provide a copy.
    Answer. We have Community Standards that prohibit hate speech, 
bullying, intimidation, and other kinds of harmful behavior. We hold 
advertisers to even stricter advertising policies to protect users from 
things like discriminatory ads. We don't want advertising to be used 
for hate or discrimination, and our policies reflect that. For example, 
our Advertising Policies make it clear that advertisers may not 
discriminate against people based on personal attributes such as race, 
ethnicity, color, national origin, religion, age, sex, sexual 
orientation, gender identity, family status, disability, and medical or 
genetic condition. The Policies also prohibit asserting or implying 
that a person belongs to one of these groups.
    We educate advertisers on our anti-discrimination policy, and when 
we detect that an advertiser is attempting to run a housing, employment 
or credit ad, we require the advertiser to certify compliance with our 
anti-discrimination policy and anti-discrimination laws. We are 
committed to getting better at enforcing our advertising policies. We 
review many ads proactively using automated and manual tools, and 
reactively when people hide, block, or mark ads as offensive. We are 
taking aggressive steps to strengthen both our automated and our manual 
review. We are also expanding our global ads review teams and investing 
more in machine learning to better understand when to flag and take 
down ads, such as ads that use our multicultural affinity segments in 
connection with offers of housing, employment or credit opportunities.

    Question 11. Regardless of whether the characteristics are 
described as demographic, behavioral, or interest-based criteria, does 
Facebook allow employment, housing, credit advertisements to be 
targeted to users on the basis of protected characteristics, including 
race, national origin, religion, sex, gender, disability, age, and 
familial status?
    Answer. See Response to Question 6.

    Question 12. Regardless of whether the characteristics are 
described as demographic, behavioral, or interest-based criteria, does 
Facebook allow advertisers for employment and housing to exclude users 
on the basis of protected characteristics, including race, national 
origin, religion, sex, gender, disability, age, and familial status?
    Answer. See Response to Question 6.

    Question 13. Has Facebook reviewed characteristics/categories 
available for advertising to select or exclude when targeting that can 
be used as ``proxies'' for protected characteristics? If so, what is 
Facebook's policy regarding the continued availability of that 
characteristic as a targeting or exclusion criteria and has Facebook 
ever removed categories that were being used as ``proxies'' for 
protected categories? How does Facebook go about determining which such 
categories could potentially be used as ``proxies'' for discrimination?
    Answer. See Response to Question 10.

    Question 14. Does Facebook allow employment, housing, and credit 
advertisements to be targeted to users on the basis of categories that 
may be reasonable proxies for protected characteristics?
    Answer. See Response to Question 6.

    Question 15. Does Facebook allow employment, housing, and credit 
advertisements to be targeted to users on the basis of their sexual 
orientation or gender identity?
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 16. In Facebook's December 20, 2017 press release, Rob 
Goldman, VP of Ads, wrote that Facebook ``proactively look[s] for bad 
ads, and investigate[s] concerns when they are raised.'' Please 
describe Facebook's process for monitoring ads for possible violations 
of Title VII, the Fair Housing Act, the Americans with Disabilities 
Act, and Title II of the Genetic Information Nondiscrimination Act.
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 17. Does Facebook ``proactively look'' for ads that may be 
discriminatory on the basis of each protected characteristic before 
they are posted to the platform?
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 18. Does Facebook have defined, written policies for 
determining whether an employment, housing, or credit ad is 
discriminatory on the basis of each protected characteristic, and a 
procedure for deleting such ads? If so, please provide copies of such 
policies.
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 19. Has Facebook ever proactively deleted an employment, 
housing, or credit ad on the grounds that it discriminated on the basis 
of a protected characteristic? If so, how many such ads has Facebook 
deleted, broken down by each protected characteristic?
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 20. Has Facebook ever deleted an employment, housing, or 
credit ad on the grounds that it discriminated on the basis of a 
protected characteristic in response to a user complaint? If so, how 
many such ads has Facebook deleted, broken down by each protected 
characteristic?
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 21. Has Facebook ever barred a businesses or ad companies 
from using its services because of discriminatory ads? How many? Please 
detail the process Facebook has for addressing discriminatory 
advertisers, once identified.
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 22. Many state and local nondiscrimination laws go further 
than Federal statutes prohibiting discrimination against protected 
classes. Does Facebook require advertisers to certify that they will 
comply with state and local nondiscrimination laws?
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 23. Does Facebook ``proactively look'' at employment, 
housing, and credit ads to evaluate their compliance with state and 
local nondiscrimination laws?
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 24. Does Facebook respond to user complaints about 
employment, housing, and credit ads that may violate state and local 
nondiscrimination laws? If so, how?
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 25. Please provide a timeline and any relevant 
documentation of interactions with the U.S. Department of Housing and 
Urban Development on Facebook's advertisement policies.
    Answer. Please refer to our letter to you dated May 16, 2018.

    Question 26. Please provide a detailed description of any other 
U.S. Federal agencies that have contacted Facebook regarding the issue 
of discriminatory advertising on the Facebook platform.
    Answer. We regularly work cooperatively with regulators that may 
have questions about our platform and are happy to answer questions.

    Question 27. Please describe when this contact took place and a 
detailed description of the agency's inquiry and interaction with 
Facebook, as well as Facebook's response.
    Answer. See Response to Question 26.

    Question 28. Will Facebook commit to having an outside entity 
conducting a Civil Rights Audit of its platform and advertising 
practices? If so, will Facebook commit to meaningfully consulting civil 
rights organizations on the perimeters of the Civil Rights Audit? Will 
Facebook commit to making the results of such audit accessible to the 
public?
    Answer. Relman, Dane & Colfax, a respected civil rights law firm, 
will carry out a comprehensive civil rights assessment of Facebook's 
services and internal operations. Laura Murphy, a national civil 
liberties and civil rights leader, will help guide this process--
getting feedback directly from civil rights groups, like The Leadership 
Conference on Civil and Human Rights, and help advise Facebook on the 
best path forward.

    Question 29. Discrimination and Diversity in Tech Community: Over 
the past few months, our country has been reckoning with some hard 
truths about the way that women and minorities are treated in the 
workplace. And I think this is a moment for all types of organizations, 
including tech giants like the one represented here, to take a clear-
eyed accounting of their culture and practices, to take responsibility 
for what hasn't worked, and to renew their commitments to make 
meaningful improvements. The Equal Employment Opportunity Commission's 
2016 report on ``Diversity in High Tech'' found that that women, 
African Americans, and Hispanics are all represented at significantly 
lower levels in high tech than in private industry as a whole. And 
while recent internal studies by you at Facebook, and Google, have 
showed some progress in the hiring of women, there has not been equal 
improvement in the representation of people of color and other 
underrepresented groups.
    What does diversity mean to you, and how do you want it reflected 
in your operations?
    Answer. With a global community of over two billion people on 
Facebook, greater diversity and inclusivity are critical to achieving 
our mission. Studies have shown that cognitive diversity on teams that 
are working on hard problems produces better results. Diversity helps 
us build better products, make better decisions and better serve our 
community. In order to achieve that, we have developed programming to 
attract and retain more people from traditionally underrepresented 
groups which include women, people of color, veterans and people with 
disabilities.
    We are not where we would like to be, but we are encouraged that 
representation for people from underrepresented groups at Facebook has 
increased. We've grown Black and Hispanic representation by 1 percent 
each (2 percent combined) between our first report in 2014 and our most 
recent report in 2017:

  <bullet> Black Representation: from 2 percent to 3 percent

  <bullet> Hispanic Representation: from 4 percent to 5 percent

  <bullet> Black Non-Tech: from 2 percent to 6 percent

  <bullet> Hispanic Non-Tech: from 6 percent to 8 percent

  <bullet> Black Leadership: from 2 percent to 3 percent

  <bullet> Hispanic Leadership: from 3 percent to 4 percent

  <bullet> Black and Hispanic Tech have stayed at 1 percent and 3 
        percent

    As of August 2017, the number of women globally increased from 33 
percent to 35 percent:

  <bullet> Women in Tech: from 17 percent to 19 percent

  <bullet> Women in Non-Tech: from 47 percent to 55 percent

  <bullet> Women in Leadership: from 23 percent to 28 percent

  <bullet> Women made up 27 percent of all new graduate hires in 
        engineering and 21 percent of all new technical hires at 
        Facebook.

    We seek to promote diversity in a variety of ways, and we want to 
highlight three programs in particular. First, we have adopted our 
Diverse Slate Approach (DSA) to interviewing job candidates. The more 
people that hirers interview who don't look or think like them, the 
more likely they are to hire someone from a diverse background. To 
hardwire this behavior at Facebook, we introduced our DSA in 2015 and 
have since rolled it out globally. DSA sets the expectation that hiring 
managers will consider candidates from underrepresented backgrounds 
when interviewing for an open position.
    Second, we are working to reduce unconscious bias. Our publicly 
available Managing Unconscious Bias class encourages our people to 
challenge and correct bias as soon as they see it--in others, and in 
themselves. We've also doubled down by adding two additional internal 
programs: Managing Inclusion, which trains managers to understand the 
issues that affect marginalized communities, and Be The Ally, which 
gives everyone the common language, tools, and space to practice 
supporting others.
    Third, we have created Facebook University. We want to increase 
access and opportunity for students with an interest in software 
engineering, business, and analytics. Facebook University (FBU) gives 
underrepresented students extra training and mentorship earlier in 
their college education. We started FBU in 2013 with 30 students and 
expect to have 280 in 2018. More than 500 students have graduated from 
this program, with many returning to Facebook for internships and full-
time jobs.
    Finally, we have many partnerships to move the numbers nationally 
such as Black Girls Code, All Star Code, Hack the Hood, The Hidden 
Genius Project, Level Playing Field Institute, Yes We Code, Streetcode 
Academy, Dev Color, Dev Bootcamp and Techbridge. And, we now recruit at 
300 Universities--including historically black colleges and 
universities (HBCUs) like Spelman, Morehouse, Howard, NCA&T, and Morgan 
State (EIR) and the HBCU Faculty Summit.
    We're committed to building a more diverse, inclusive Facebook. 
Much like our approach to launching new products on our platform, we 
are willing to experiment and listen to feedback.

    Question 30. How are your entities working to address issues of 
discrimination, or lack of diversity, in your own workforce?
    Answer. See Response to Question 29.

    Question 31. Do you believe those efforts are sufficient and what 
do you believe is needed throughout the tech sector to address the 
mistreatment of some, and the need to expand ladders of opportunities 
for everyone?
    Answer. See Response to Question 29.

    Question 32. Like most companies, Facebook files numerous patents 
on its emerging technology and I'd like to raise concerns about some of 
the patents that your company has recently filed.
    One is titled ``Socioeconomic group classification based on user 
features'' which is technology that would allow Facebook to group users 
into upper, middle, and working classes based on user action. It was 
recently discovered that Facebook has allowed advertisers to 
discriminate on the base of age.
    How can we be confident that your company will crack down on 
discriminatory behavior as it is developing technology to group users 
into class?
    Answer. Discriminatory advertising has no place on Facebook's 
platform and Facebook removes such content as soon as it becomes aware 
of it. Facebook's policies prohibit advertisers from discriminating 
against people on personal attributes such as race, ethnicity, color, 
national origin, religion, age, sex, sexual orientation, gender 
identity, family status, disability, and medical or genetic conditions. 
Facebook educates advertisers on our anti-discrimination policy, and in 
some cases, requires the advertisers to certify compliance with 
Facebook's anti-discrimination policy and anti-discrimination laws.
    Facebook also uses machine learning to help identify ads that offer 
housing, employment, or credit opportunities. When an advertiser 
attempts to show an ad that Facebook identifies as offering a housing, 
employment, or credit opportunity and includes Facebook's multicultural 
advertising segments, Facebook will disapprove the ad. Facebook also 
requires advertisers to certify that they are complying with Facebook's 
updated anti-discrimination policy and anti-discrimination laws when 
the advertiser attempts to show a housing, employment, or credit 
opportunity and uses any other audience segment on Facebook.

    Question 33. What other uses could this patent possibly have?
    Answer. See Response to Question 1.

    Question 34. Equal Pay Day: Mr. Zuckerberg, the date you appeared 
before was Equal Pay Day in America, which symbolizes the number of 
extra days a typical woman who works full-time, year-round must work 
into this year to be paid what a typical white man got paid. Women are 
still only paid 80 cents on the dollar compared to men. It's estimated 
that women employed full time in the U.S. will lose nearly $900 billion 
to the wage gap this year. I'm passionate about getting 
underrepresented folks into the job opportunities that our tech 
revolution provides, and equal pay goes along with creating those 
ladders of opportunities.
    Is this an issue you are aware of and active on within your 
operations?
    Answer. At Facebook, women and men receive equal pay for equal work 
and have done so for many years. This is an absolute minimum standard 
for a diverse business such as ours and we continually review our 
hiring and compensation practices to ensure this remains the case. 
Compensation at Facebook is made up of base salary, cash bonus or 
commission, and equity in the company. We work hard to avoid 
unconscious bias affecting how much people get paid. Managers don't 
make decisions about compensation increases--instead, we use a 
formulaic approach that determines pay based on performance and level.
    Opportunities for advancement and leadership within the company are 
also crucial. For our women employees, we run a series of development 
workshops and training programs designed to provide a strong network of 
support, along with the tools they need to be the best leaders they can 
be across different levels in the company. We hold ourselves 
accountable because this matters to us. In 2017, the number of women 
employees globally rose from 33 percent to 35 percent and the number of 
women in technical roles increased from 17 percent to 19 percent. 
Between 2014 when we first publicly reported our representation data 
and 2017, the number of women in leadership roles has increased from 23 
percent to 28 percent.
    We are committed to increasing the representation of women at all 
levels. We know we're not where we need to be, and we're committed to 
making real progress.
    With a global community of over two billion people on Facebook, 
greater diversity and inclusivity are critical to achieving our 
mission. Studies have shown that cognitive diversity on teams that are 
working on hard problems produces better results. Diversity helps us 
build better products, make better decisions, and better serve our 
community.

    Question 35. Can you provide us confirmation, including figures, 
that your pay for women matches their male counterparts?
    Answer. See Response to Question 32.

    Question 36. And that you appropriately compensate all of your 
employees based on their job title and value to the company?
    Answer. See Response to Question 32.

    Question 37. Facebook's self-regulation of Campaign and Issue Ads & 
the Honest Ads Act: You recently announced that political ads run on 
Facebook are now going to be subject to heightened transparency 
requirements, such as including disclaimers stating who paid for the 
ad, and making it easier for viewers to see the ads that a page is 
running. I think this is a good first step but there are several 
questions I have regarding its implementation and how you will enforce 
this new policy.
    What if you have an organization, let's call them ``XYZ,'' who 
wants to post an issue or political ad, but they have never filed 
reports with the FEC, they are not registered with the IRS as a 
nonprofit, and they don't appear to have a website?
    Answer. We now require more thorough documentation from advertisers 
who want to run ads with political content. Any person who wants to run 
one of these ads must upload an identification document and provide the 
last four digits of their Social Security number. They also must prove 
residency in the U.S. by providing a residential mailing address. Once 
they provide the address, we mail a letter with a code that the person 
must provide to us in order to become authorized to run ads with 
political content.

    Question 38. You have said that advertisers running political ads 
and issue ads will have to be ``authorized,'' and that Facebook will 
confirm their identity and location before running ads. What does it 
mean to ``confirm their identity?''
    Answer. See Response to Question 37.

    Question 39. Walk me through how this ad would be treated under 
Facebook's new policies.
    Answer. See Response to Question 37.

    Question 40. So, this ad will say ``paid for by XYZ.'' But there is 
no public record of XYZ, besides the fact that they have a Facebook 
page. Would you let a mysterious group like this run an ad on Facebook 
without any further information about who they are?
    Answer. See Response to Question 37.

    Question 41. Will you require any further verification from this 
group?
    Answer. See Response to Question 37.

    Question 42. Will these transparency measures you are discussing 
tell you who paid the Facebook page to run the ad? In other words, will 
Facebook disclose the sources of funding for these political ads?
    Answer. Once verified as described above in response to Question 1, 
these advertisers will have to include a disclosure in these ads, which 
reads: ``Paid for by.'' When users click on the disclosure, they will 
be able to see details about the advertiser. These ads will also all 
appear in a searchable archive, available at www.facebook.com/
politicalcontentads, which includes information about how much the 
advertiser spent on the ad, how many people saw it, and general 
demographic information about the people who saw it.

    Question 43. What if a foreign government gave money to a Facebook 
page with a U.S. address to run political ads? Would you tell that to 
viewers?
    Answer. These are real challenges and reflect problems largely 
outside our control, but we will continue to work to improve our 
enforcement of ads that violate our policies.

    Question 44. What if a foreign government gave money to a Facebook 
page through a series of shell companies or LLCs?
    Answer. See Response to Question 43.

    Question 45. How will Facebook know who the real donors to this 
group are?
    Answer. See Response to Question 43.

    Question 46. How is Facebook defining a ``political ad'' and an 
``issue ad'' subject to these heightened transparency measures?
    Answer. Our Political Advertising Policy (https://www.facebook.com/
policies/ads/restricted_content/political) applies to any ad that:

  <bullet> Is made by, on behalf of or about a current or former 
        candidate for public office, a political party, a political 
        action committee or advocates for the outcome of an election to 
        public office;

  <bullet> Relates to any election, referendum or ballot initiative, 
        including ``get out the vote'' or election information 
        campaigns;

  <bullet> Relates to any national legislative issue of public 
        importance in any place where the ad is being run; or

  <bullet> Is regulated as political advertising.

    We further define ``national legislative issue of public 
importance'' as including twenty issues. Ads that take a position on 
one or more of these issues are covered by the policy. To develop this 
initial list (which we expect to evolve over time), we worked with the 
non-partisan Project and many other stakeholders from across the 
political spectrum.
    We determine whether an ad is subject to our Political Advertising 
policy based on the content of the ad.

    Question 47. Is the ``political ad/issue ad'' determination based 
on the content of a particular ad, or the identity of the advertiser 
running the ad, or some other criteria?
    Answer. See Response to Question 46.

    Question 48. Facebook sells several types of ads, including 
sponsored ads that appear directly in a user's newsfeed, and smaller 
ads that appear on the right column. Studies show that a large volume 
of political ads from the 2016 election ran in the right column rather 
than in a user's newsfeed.
    Will all types of ads sold by Facebook, including smaller ads, be 
subject to these heightened transparency measures?
    Answer. Yes, all ads with political content will be subject to this 
policy.

    Question 49. You mentioned that the disclaimers Facebook is going 
to implement will say which Facebook page paid for the ad. Will it tell 
you exactly what organization or individual is behind that page?
    Answer. We require the advertiser to disclose who paid for an ad 
with political content--regardless of whether that is an individual or 
an organization.

    Question 50. Rob Goldman, the Vice President of Ads at your 
company, indicated that you are working with the ``third parties'' to 
develop these parameters. Who are these ``third parties?''
    Answer. See Response to Question 47.

    Question 51. Will these ad transparency measures also apply to 
state and local elections?
    Answer. Our Political Advertising policy applies to all advertisers 
running ads with political content. The products we have launched 
(authorization, disclaimer, and archive) are available to all 
advertisers running ads with political content to users in the U.S.

    Question 52. Will these same measures apply to other platforms 
owned by Facebook, like Instagram?
    Answer. Yes, the measures will apply to ads with political content 
shown on Instagram.

    Question 53. New Employees--Content Review: In your testimony, you 
note that Facebook plans to hire an additional 5,000 workers for its 
security and content review teams, for a total of 20,000 workers by the 
end of this year. But Facebook first announced the plan for a 20,000 
person security team in late October of last year, in response to 
concerns about Russian interference in the election.
    Given the additional revelations about the role of Cambridge 
Analytica and other third party apps in compromising the privacy and 
personal information of at least 87 million users, do you still believe 
20,000 is the appropriate level of staffing for Facebook's security 
team?
    Answer. Our effort to make our platform safer and more secure is a 
holistic one that involves a continual evaluation of our personnel, 
processes, and policies, and we make changes as appropriate.
    We are doubling the size of our security and content review teams 
(from 10,000 to 20,000) over the course of this year. We currently have 
approximately 15,000 people working on these teams.
    Of that 15,000, more than 7,500 people review content around the 
world.

  <bullet> Our content review team is global and reviews reports in 
        over 50 languages.

  <bullet> Reports are reviewed 24 hours a day, 7 days a week and the 
        vast majority of reports are reviewed within 24 hours.

  <bullet> Our goal is always to have the right number of skilled 
        people with the right language capabilities to ensure incoming 
        reports are reviewed quickly and efficiently.

  <bullet> We hire people with native language and other specialist 
        skills according to the needs we see from incoming reports.

  <bullet> The team also includes specialists in areas like child 
        safety, hate speech and counter-terrorism, software engineers 
        to develop review systems, quality control managers, policy 
        specialists, legal specialists, and general reviewers.

    We are also using machine learning to better detect and action on 
content and people that should not be using our platform.
    For example, we incorporated learnings from interference in 
previous elections to better detect and stop false accounts from 
spreading misinformation in more recent elections.
    We recently shared how we are using machine learning to prevent bad 
actors like terrorists or scammers from using our platform (https://
www.facebook.com/notes/facebook-security/introducing-new-machine-
learning-techniques-to-help-stop-scams/10155213964780766/).
    We employ a mix of full-time employees, contractors and vendor 
partners to assist with content review and help us scale globally.
    We partner with reputable vendors who are required to comply with 
specific obligations, ns for resiliency, support, transparency, and 
user privacy.

    Question 54. Will these new security and content review workers be 
direct employees of Facebook, or do you plan to outsource this work to 
third party entities?
    Answer. See Response to Question 53.

    Question 55. If the security review work is outsourced, how will 
Facebook vet those contractors, subcontractors, and employees and where 
will those employees be located?
    Answer. See Response to Question 53.

    Question 56. And how can Facebook assure its users that there will 
be transparency and accountability for any future breaches of privacy 
if the company is outsourcing its security work?
    Answer. See Response to Question 53.

    Question 57. Future Facebook Technology: One of your recent patent 
is titled ``Dynamic eye tracking calibration'' and another is called 
``Techniques for emotion detection and content delivery''. The patent 
for the eye tracking technology says that ``the (eye) calibration 
process is performed automatically in the background while the user 
uses a device.'' The second patent would use a device's camera to 
monitor your emotions and ``display content based upon a received 
emotion type.''
    How does Facebook plan to use this technology?
    Answer. Like many companies, we apply for a wide variety of patents 
to protect our intellectual property. Right now we're not building 
technology to identify people with eye-tracking cameras. However, we're 
always exploring how new technologies and methods can improve our 
services, and eye-based identification is one way that we could 
potentially reduce consumer friction and add security for people when 
they log into Oculus or access Oculus content.
    If we implement this technology in the future, we will absolutely 
do so with people's privacy in mind, just as we do with movement 
information (which we anonymize in our systems).
    As we continue to develop new virtual reality products and 
services, we're committed to being transparent and open about the 
information that we collect and how we use it, as well as any ways that 
changes over time.

    Question 58. Will users be fully aware that their eyes and emotions 
are being tracked?
    Answer. See Response to Question 57.

    Question 59. Is Facebook confident it has the proper data security 
in place to have this intimate level of data on users?
    Answer. See Response to Question 57.

    Question 60. Facebook has reportedly been developing an in-home 
digital assistant similar to products like Alexa, will this also be 
tracking this granular level of data?
    Answer. See Response to Question 57.

    Question 61. The second patent says that content will be delivered 
on a person's perceived emotion type. Couldn't this be potentially 
dangerous in amplifying hateful messages?
    Answer. See Response to Question 57.

    Question 62. If a person focuses on an image of say, a propaganda 
image of immigrants, will this technology deliver more of this content?
    Answer. See Response to Question 57.

    Question 63. China's Facebook Access: In July 2009, the Chinese 
government blocked Facebook in China. The precise reason for that 
action remains obscure, but it fits into an overall pattern. The 
Chinese government is unwilling to allow a social media platform--
foreign or domestic--to operate in China unless it agrees to abide by 
Chinese law. First, a social media platform must agree to censor 
content and conversations in line with directives from China's 
information authorities. And second, businesses that collect data from 
Chinese individuals can only store that data in China where, 
presumably, it would be easier for the Chinese government to access, 
via legal means or otherwise. You've made no secret of your desire to 
see Facebook available once again in China.
    Could you please reveal to the Committee whether you are willing to 
agree to either of these requirements?
    Answer. Because Facebook has been blocked in China since 2009, we 
are not in a position to know exactly how the government would seek to 
apply its laws and regulations on content were we permitted to offer 
our service to Chinese users. Since 2013, Facebook has been a member of 
the Global Network Initiative (GNI), a multi-stakeholder digital rights 
initiative. As part of our membership, Facebook has committed to the 
freedom of expression and privacy standards set out in the GNI 
Principles--which are in turn based on the Universal Declaration of 
Human Rights and the United Nations Guiding Principles on Business and 
Human Rights--and we are independently assessed on our compliance with 
these standards on a biennial basis.
    In keeping with these commitments, rigorous human rights due 
diligence and careful consideration of free expression and privacy 
implications would constitute important components of any decision on 
entering China. Facebook has been blocked in China since 2009, and no 
decisions have been made around the conditions under which any possible 
future service might be offered in China.

    Question 64. And will Facebook pledge to guarantee its future 
Chinese users the same level of privacy protection it gives its users 
in the U.S. and the European Union?
    Answer. Everyone in the world deserves good privacy protection.

    Question 65. Consent Agreement: The FTC consent agreement with 
Facebook requires an independent, biennial audit of Facebook's privacy 
controls--when exactly have those audits been conducted, and what were 
the results?
    Answer. To date, three independent privacy assessments prepared by 
PwC have been completed and submitted to the FTC: a 180-Day Assessment 
(dated April 16, 2013), a biennial privacy assessment covering the 
period between February 12, 2013 and February 11, 2015 (dated April 13, 
2015), and a biennial privacy assessment covering the period between 
February 12, 2015 and February 11, 2017 (dated April 12, 2017). In each 
of these assessments, PwC determined that Facebook's privacy controls 
were operating with sufficient effectiveness to protect the privacy 
information covered under the FTC Consent Order.

    Question 66. Did Facebook inform any of its auditors of the 
Cambridge Analytica data leak? Did any of Facebook's auditors know 
about the Cambridge Analytic data leak?
    Answer. Facebook routinely undertakes internal and external 
reviews, including undergoing biennial assessments under Facebook's 
consent agreement with the Federal Trade Commission, which focus on the 
functioning of privacy controls that are part of Facebook's privacy 
program. As a part of the assessments, our independent assessors (PwC) 
have onsite access to our personnel and records, and we provide them 
with such access to information and personnel as they request in order 
to perform their work. PwC is also permitted to conduct a number of 
tests to determine whether the privacy controls in place under our 
privacy program--including controls relating to developer's access to 
information--are working properly. In its capacity as independent 
assessor, PwC evaluates the sufficiency of our controls through 
independent testing and requesting information that we provide to 
conduct that evaluation. Their focus is on evaluating the operation and 
sufficiency of our controls, rather than specific incidents.
    Kogan's violation of Facebook's Platform Policies was widely 
reported at the time Facebook learned about it, including reporting in 
The Guardian on December 11, 2015, which reported that Kogan and his 
company, GSR, may have passed information Kogan's app had obtained from 
Facebook users to SCL Elections Ltd. No data was transferred to Kogan's 
app unless it was authorized by the users who installed his app, so 
there was not a data leak from Facebook's systems. However, based on 
public reports and testimony, it appears that Kogan may have improperly 
transferred data to Cambridge Analytica in violation of our policies.

    Question 67. Does Facebook choose which policies and procedures the 
auditors look at? Please explain in detail how these policies and 
procedures are chosen? Does the 3rd party auditor have any say on what 
policies and procedures are examined? Does the FTC have any input on 
how an audit is structured?
    Answer. Facebook's privacy assessments are conducted pursuant to 
the July 27, 2012 Consent Order. They are conducted by an independent 
third-party professional (PwC) pursuant to the procedures and standards 
generally accepted in the profession and required by the FTC, as set 
forth in the Consent Order. Facebook incorporated GAPP principles in 
designing its privacy program and related controls, which are 
considered industry leading principles for protecting the privacy and 
security of personal information. Facebook provided the FTC with 
summaries of these controls and engaged extensively with the FTC 
regarding the structure of its privacy program. Facebook has submitted 
copies of each assessment to the FTC.

    Question 68. Will Facebook commit to making the entirety of PwC 
audit submitted to the Federal Trade Commission in 2017 public? If not, 
please describe in detail why.
    Answer. The privacy assessments conducted by PwC contain both 
Facebook's and PwC's sensitive business information that are 
confidential in order to prevent competitive harm and to ensure the 
integrity of Facebook's privacy program, including the steps that we 
take to protect people's information. We have furnished these reports 
to the FTC and are prepared to review the reports with regulators and 
lawmakers with appropriate assurances that confidential information or 
information that could be exploited to circumvent Facebook's privacy 
protections will not be disclosed publicly.

    Question 69. During the negotiations with the FTC in 2011, were you 
asked by them to remove the capability to expose friends from having 
their data utilized without their direct permission?
    Answer. We furnished extensive information to the FTC regarding the 
ability for users to port their Facebook data (including friends data 
that had been shared with them) with apps on Facebook's platform, as 
part of the FTC's investigation culminating in the July 27, 2012 
Consent Order. The Consent Order memorializes the agreement between 
Facebook and did not require Facebook to turn off the ability for 
people to port friends data that had been shared with them on Facebook 
to apps they used. Facebook voluntarily changed this feature of 
Platform in 2014, however.
    It is worth noting that in 2011, Facebook offered more control and 
protection over the availability of friends data to apps than any other 
digital platform at the time, including mobile app platforms, which 
generally permitted apps to access user data and their friends' data 
without consent or any control. By contrast, Facebook notified users of 
each category of data an app could access--including friends data--
before the user consented to the app, and also provided all users with 
controls that would prevent their friends from sharing their data with 
apps on Facebook's platform.

    Question 70. Hospital Data Sharing Project: It was reported by CNBC 
on April 5 that your company was in talks with top hospitals and other 
medical groups as recently as March 2018 about a proposal to share data 
you possess with the patients. As of now, the project is reportedly 
``on hiatus'' so that Facebook can do a better job of protecting 
individuals' data.
    Please provide us the specific privacy concerns Facebook has with 
compiling your users' data with medical data possessed by the 
hospitals?
    Answer. The medical industry has long understood that there are 
general health benefits to having a close-knit circle of family and 
friends. But deeper research into this link is needed to help medical 
professionals develop specific treatment and intervention plans that 
take social connection into account. With this in mind, last year 
Facebook began discussions with leading medical institutions, including 
the American College of Cardiology and the Stanford University School 
of Medicine, to explore whether scientific research using fully-
anonymized Facebook data could help the medical community advance our 
understanding in this area. This work has not progressed past the 
planning phase, and we have not received, shared, or analyzed anyone's 
data.
    In March, we decided that we should pause these discussions so we 
can focus on other important work, including doing a better job of 
protecting people's data and being clearer with them about how that 
data is used in our products and services.

    Question 71. Would you share any internal documents that led 
Facebook to put this project on hiatus?
    Answer. See Response to Question 70.

    Question 72. Data Details & FB Messenger Data: Based on the FTC-
Facebook consent order, your company collects a great deal of personal 
information on its users including--the location (e.g., city or state), 
age, sex, birthday, ``Interested in'' responses (i.e., whether a user 
is interested in men or women), Relationship Status, Likes and 
Interests, Education (e.g., level of education, current enrollment in 
high school or college, affiliation with a particular college, and 
choice of major in college), and name of employer of individuals.
    Do you collect any other specific information you have on 
individual Facebook users?
    Answer. In response to your specific questions, depending on which 
Services a person uses, we collect different kinds of information from 
or about them. This is described in our Data Policy:

  <bullet> Things you and others do and provide. Information and 
        content you provide. We collect the content, communications and 
        other information you provide when you use our Products, 
        including when you sign up for an account, create or share 
        content, and message or communicate with others. This can 
        include information in or about the content you provide (like 
        metadata), such as the location of a photo or the date a file 
        was created. It can also include what you see through features 
        we provide, such as our camera, so we can do things like 
        suggest masks and filters that you might like, or give you tips 
        on using camera formats. Our systems automatically process 
        content and communications you and others provide to analyze 
        context and what's in them for the purposes described below. 
        Learn more about how you can control who can see the things you 
        share.

    <ctr-circle> Data with special protections: You can choose to 
            provide information in your Facebook profile fields or Life 
            Events about your religious views, political views, who you 
            are ``interested in,'' or your health. This and other 
            information (such as racial or ethnic origin, philosophical 
            beliefs or trade union membership) could be subject to 
            special protections under the laws of your country.

  <bullet> Networks and connections. We collect information about the 
        people, Pages, accounts, hashtags, and groups you are connected 
        to and how you interact with them across our Products, such as 
        people you communicate with the most or groups you are part of. 
        We also collect contact information if you choose to upload, 
        sync or import it from a device (such as an address book or 
        call log or SMS log history), which we use for things like 
        helping you and others find people you may know and for the 
        other purposes listed below.

  <bullet> Your usage. We collect information about how you use our 
        Products, such as the types of content you view or engage with; 
        the features you use; the actions you take; the people or 
        accounts you interact with; and the time, frequency and 
        duration of your activities. For example, we log when you're 
        using and have last used our Products, and what posts, videos 
        and other content you view on our Products. We also collect 
        information about how you use features like our camera.

  <bullet> Information about transactions made on our Products. If you 
        use our Products for purchases or other financial transactions 
        (such as when you make a purchase in a game or make a 
        donation), we collect information about the purchase or 
        transaction. This includes payment information, such as your 
        credit or debit card number and other card information; other 
        account and authentication information; and billing, shipping 
        and contact details.

  <bullet> Things others do and information they provide about you. We 
        also receive and analyze content, communications and 
        information that other people provide when they use our 
        Products. This can include information about you, such as when 
        others share or comment on a photo of you, send a message to 
        you, or upload, sync, or import your contact information.

  <bullet> Device Information. As described below, we collect 
        information from and about the computers, phones, connected TVs 
        and other web-connected devices you use that integrate with our 
        Products, and we combine this information across different 
        devices you use. For example, we use information collected 
        about your use of our Products on your phone to better 
        personalize the content (including ads) or features you see 
        when you use our Products on another device, such as your 
        laptop or tablet, or to measure whether you took an action in 
        response to an ad we showed you on your phone on a different 
        device.

    Information we obtain from these devices includes:

    <ctr-circle> Device attributes: information such as the operating 
            system, hardware and software versions, battery level, 
            signal strength, available storage space, browser type, app 
            and file names and types, and plugins.

    <ctr-circle> Device operations: information about operations and 
            behaviors performed on the device, such as whether a window 
            is foregrounded or backgrounded, or mouse movements (which 
            can help distinguish humans from bots).

    <ctr-circle> Identifiers: unique identifiers, device IDs, and other 
            identifiers, such as from games, apps or accounts you use, 
            and Family Device IDs (or other identifiers unique to 
            Facebook Company Products associated with the same device 
            or account).

    <ctr-circle> Device signals: Bluetooth signals, and information 
            about nearby Wi-Fi access points, beacons, and cell towers.

    <ctr-circle> Data from device settings: information you allow us to 
            receive through device settings you turn on, such as access 
            to your GPS location, camera, or photos.

    <ctr-circle> Network and connections: information such as the name 
            of your mobile operator or ISP, language, time zone, mobile 
            phone number, IP address, connection speed and, in some 
            cases, information about other devices that are nearby or 
            on your network, so we can do things like help you stream a 
            video from your phone to your TV.

    <ctr-circle> Cookie data: data from cookies stored on your device, 
            including cookie IDs and settings. Learn more about how we 
            use cookies in the Facebook Cookies Policy (available at 
            https://www.facebook.com/policies/cookies/) and Instagram 
            Cookies Policy (available at https://www.instagram.com/
            legal/cookies/).

  <bullet> Information from partners. Advertisers, app developers, and 
        publishers can send us information through Facebook Business 
        Tools they use, including our social plug-ins (such as the Like 
        button), Facebook Login, our APIs and SDKs, or the Facebook 
        pixel. These partners provide information about your activities 
        off Facebook--including information about your device, websites 
        you visit, purchases you make, the ads you see, and how you use 
        their services--whether or not you have a Facebook account or 
        are logged into Facebook. For example, a game developer could 
        use our API to tell us what games you play, or a business could 
        tell us about a purchase you made in its store. We also receive 
        information about your online and offline actions and purchases 
        from third-party data providers who have the rights to provide 
        us with your information. Partners receive your data when you 
        visit or use their services or through third parties they work 
        with. We require each of these partners to have lawful rights 
        to collect, use, and share your data before providing any data 
        to us.

    Question 73. Are you tracking and collecting information and data 
from within your messenger chat tool? If so, what specific data are you 
collecting?
    Answer. See Response to Question 72.

    Question 74. What about your other platforms, like Instagram, what 
type of data are you tracking there?
    Answer. Our Instagram Data Policy describes the data we collect and 
is available at https://help.instagram.com/519522125107875.

    Question 75. Are you preserving broad and full conversations?
    Answer. See Response to Question 72 and 74.

    Question 76. Is that something you would have available to provide 
law enforcement?
    Answer. We reach out to law enforcement if we learn of content that 
we believe reflects a credible threat of imminent harm. We have been 
able to provide support to authorities around the world that are 
responding to the threat of terrorism, including in cases where law 
enforcement has been able to disrupt attacks and prevent harm. Further, 
as part of official investigations, government officials sometimes 
request data about people who use Facebook. We have strict processes in 
place to handle these government requests, and we disclose account 
records in accordance with our terms of service and applicable law. We 
publish more information on the standards that govern our release of 
information to law enforcement in our Law Enforcement Guidelines at 
https://www.facebook.com/safety/groups/law/guidelines/, and release 
statistics on the frequency with which we receive and comply with law 
enforcement requests at https://transparency.facebook.com/.

    Question 77. Data Protection on Facebook: Has Facebook ever 
launched a feature that had to be turned off because of the privacy 
implications?
    Answer. Protecting people's information is at the heart of 
everything we do, and as our CEO has recently stated, we are serious 
about doing what it takes to protect our community. We have developed 
extensive systems and processes that are designed to protect our data 
and user data, to prevent data loss, to disable undesirable accounts 
and activities on our platform, and to prevent or detect security 
breaches. In addition to comprehensive privacy reviews, we put products 
through rigorous data security testing. We also meet with regulators, 
legislators, and privacy experts around the world to get input on our 
data practices and policies.
    At Facebook, we make decisions about privacy through a cross-
functional, cross-disciplinary effort that involves participants from 
departments across the company. This process is a collaborative 
approach to privacy that seeks to promote strong privacy protections 
and sound decision making at every stage of the product development 
process. Our privacy program is responsible for reviewing product 
launches, major changes, and privacy-related bug fixes to products and 
features to ensure that privacy policies and procedures are 
consistently applied and that key privacy decisions are implemented for 
the product. This approach has several key benefits.

  <bullet> First, it is designed to consider privacy early in the 
        product development process. This allows us to consider the 
        benefits that a feature is intended to have for people who use 
        our services, how data will be used to deliver those benefits, 
        and how we can build features from the ground up that include 
        privacy protections to enable those benefits while protecting 
        people's information and putting them in control.

  <bullet> Second, while complying with our obligations is critically 
        important, taking a cross-disciplinary approach to privacy 
        encourages us to think about data protection as more than just 
        a compliance exercise. Instead, we evaluate how to design 
        privacy into the features that we build, and consider this from 
        the perspective of things like how we design interfaces that 
        make data use intuitive, taking a consistent approach to 
        privacy across our services, and building protections in how 
        our software is engineered. Accordingly, while we scale our 
        privacy review process depending on the complexity of a 
        particular data use, reviews typically involve experts who 
        evaluate proposed data practices from the perspective of 
        multiple disciplines.

    As part of our consent agreement with the Federal Trade Commission, 
we submit a report to the FTC every two years. That report is based on 
assessments conducted by an independent third party on a biennial 
basis, which require us to submit evidence to demonstrate the 
effectiveness of the program.

    Question 78. If so, how many times has that happened, and how many 
users were impacted?
    Answer. See Response to Question 77.

    Question 79. Did you notify the users who were impacted?
    Answer. See Response to Question 78.

    Question 80. Facebook tracking software: How many websites have 
Facebook tracking software on them?
    Answer. Facebook does not publish tracking software. When people 
visit apps or websites that feature our technologies--like the Facebook 
Like or Comment button--our servers automatically log (i) standard 
browser or app records of the fact that a particular device or user 
visited the website or app (this connection to Facebook's servers 
occurs automatically when a person visits a website or app that 
contains our technologies, such as a Like button, and is an inherent 
function of Internet design); and (ii) any additional information the 
publisher of the app or website chooses to share with Facebook about 
the person's activities on that site (such as the fact that a purchase 
was made on the site). This is a standard feature of the Internet, and 
most websites and apps share this same information with multiple 
different third-parties whenever people visit their website or app. For 
example, the Senate Commerce Committee's website shares information 
with Google and its affiliate DoubleClick and with the analytics 
company Webtrends. This means that, when a person visits the 
Committee's website, it sends browser information about their visit to 
each one of those third parties. More information about how this works 
is available at https://newsroom.fb.com/news/2018/04/data-off-
facebook/.
    During the week prior to April 16, 2018, on sites that use Facebook 
services, the Like button appeared on 8.4 million websites, the Share 
button on 931,000 websites covering 275 million webpages, and there 
were 2.2 million Facebook pixels installed on websites.

    Question 81. What percentage of all Internet sites have Facebook 
tracking software?
    Answer. See Response to Question 80.

    Question 82. Do you track users even when they are logged out from 
Facebook?
    Answer. When people visit apps or websites that feature our 
technologies--like the Facebook Like or Comment button--our servers 
automatically log (i) standard browser or app records of the fact that 
a particular device or user visited the website or app (this connection 
to Facebook's servers occurs automatically when a person visits a 
website or app that contains our technologies, such as a Like button, 
and is an inherent function of Internet design); and (ii) any 
additional information the publisher of the app or website chooses to 
share with Facebook about the person's activities on that site (such as 
the fact that a purchase was made on the site). (See https://
www.facebook.com/policies/cookies). This is a standard feature of the 
Internet, and most websites and apps share this same information with 
multiple different third-parties whenever people visit their website or 
app. For example, the Senate Commerce Committee's website shares 
information with Google and its affiliate DoubleClick and with the 
analytics company Webtrends. This means that, when a person visits the 
Committee's website, it sends browser information about their visit to 
each one of those third parties. More information about how this works 
is available at https://newsroom.fb.com/news/2018/04/data-off-
facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us 
in the following ways for non-Facebook users. First, these logs are 
critical to protecting the security of Facebook and to detecting or 
preventing fake account access. For example, if a browser has visited 
hundreds of sites in the last five minutes, that's a sign the device 
might be a bot, which would be an important signal of a potentially 
inauthentic account if that browser then attempted to register for an 
account. Second, we aggregate those logs to provide summaries and 
insights to websites and apps about how many people visit or use their 
product, or use specific features like our Like button--but without 
providing any information about a specific person. We do not create 
profiles for non-Facebook users, nor do we use browser and app logs for 
non-Facebook users to show targeted ads from our advertisers to them or 
otherwise seek to personalize the content they see. However, we may 
take the opportunity to show a general ad that is unrelated to the 
attributes of the person or an ad encouraging the non-user to sign up 
for Facebook.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings.
    We do not sell or share this information with third parties.

    Question 83. Do you collect data on people who have chosen not to 
use Facebook?
    Answer. See Response to Question 82.

    Question 84. How is this data used?
    Answer. See Response to Question 83.

    Question 85. Does it inform a user's ``interests'' on Facebook?
    Answer. See Response to Question 83.

    Question 86. If it does inform a user's ``interests'', was any of 
the data collected passively from users while they were browsing sites 
outside of Facebook passed to Cambridge Analytica?
    Answer. No. Kogan's app did not have access to advertising 
interests data or browser logs.

    Question 87. When the option or opportunity was previously 
available for folks to get the user data of individuals' friends, what 
was the total pool of data points one could obtain of friends, or was 
it all the exact same?
    Answer. In April 2014, we announced that we would more tightly 
restrict our platform APIs to prevent abuse. At that time we made clear 
that existing apps would have a year to transition--at which point they 
would be forced (1) to migrate to the more restricted API and (2) be 
subject to Facebook's new review and approval protocols. A small number 
of developers asked for and were granted short-term extensions beyond 
the one-year transition period, the longest of which lasted several 
months. These extensions ended several years ago. A transition period 
of this kind is standard when platforms implement significant changes 
to their technology base and was necessary here to avoid disrupting the 
experience of millions of people. New apps that launched after April 
30, 2014 were required to use our more restrictive platform APIs, which 
incorporated several key new elements, including:

  <bullet> Institution of a review and approval process, called App 
        Review (also called Login Review), for any app seeking to 
        operate on the new platform that would request access to data 
        beyond the user's own public profile, e-mail address, and a 
        list of friends of the user who had installed and authorized 
        the same app;

  <bullet> Generally preventing new apps on the new platform from 
        accessing friends data without review; and

  <bullet> Providing users with even more granular controls over their 
        permissions as to what categories of their data an app 
        operating on the new platform could access.

    Our investigation is ongoing and as part of it we are taking a 
close look at applications that had access to friends data under Graph 
API v.1.0 before we made technical changes to our platform to change 
this access.

    Question 88. Why did you change the policy of getting access to 
friends back in 2015?
    Answer. See Response to Question 87.

    Question 89. Quality Assurance--Policy changes within the company: 
What kind of privacy review is required to make a change to the 
Facebook platform?
    Answer. See Response to Question 77.

    Question 90. Is this review of platform changes mandatory? If so, 
when did that level of review become mandatory?
    Answer. See Response to Question 77.

    Question 91. Before that level of review was required, what checks 
were in place to ensure that new features wouldn't adversely impact 
users' privacy?
    Answer. See Response to Question 77.

    Question 92. What level of employee seniority was required of 
employees to approve a launch of such a privacy-impacting feature? For 
example, have you ever let an intern make changes that impact people's 
privacy?
    Answer. See Response to Question 77.

    Question 93. The Cambridge Analytica Data: Given the confessions 
made in undercover clips, and the means by which Cambridge Analytica 
obtained and used Facebook data, would you ever allow them broad access 
to your platform's user data again?
    Answer. No. Facebook banned Cambridge Analytica from our service. 
We understand that the company is now defunct.

    Question 94. Do you believe they have violated the Federal Trade 
Commission Act and its broad prohibition against ``unfair and deceptive 
acts and practices'' by misrepresenting the terms of their Facebook 
app?
    Answer. Facebook has not violated the Federal Trade Commission Act. 
Facebook is not in a position to determine whether third-party app 
developers violated the Act and leaves that determination to the FTC, 
although we can confirm that misrepresenting the terms of an app to 
users is a violation of Facebook's developer policies.

    Question 95. Previously, would you request an app developer or 
academic researcher outline any contractual or other association with 
outside entities--such as foreign nationals or states, or other 
potentially dangerous private operations? Are you doing so now?
    Answer. In November 2013, when Kogan's app first became active on 
the platform, apps generally could be launched on the Facebook Platform 
without affirmative review or approval by Facebook. Kogan's app used 
the Facebook Login service, which allowed users to utilize their 
Facebook credentials to authenticate themselves to third-party 
services. Facebook Login and Facebook's Graph API also allowed Kogan's 
app to request permission from its users to access certain categories 
of data that users had entered into their Facebook profiles, as well as 
certain data their friends had shared with them, if enabled by these 
friends' privacy settings.
    The App Review process introduced in 2014 requires developers who 
create an app that asks for more than certain basic user information 
from installers to justify the data they are looking to collect and how 
they are going to use it. Facebook then reviews whether the developer 
has a legitimate need for the data in light of how the app functions. 
Only if approved following such review can the app ask for users' 
permission to get their data. Facebook has rejected more than half of 
the apps submitted for App Review between April 2014 and April 2018.
    We are in the process of investigating every app that had access to 
a large amount of information before we changed our Platform in 2014. 
Where we have concerns, we will conduct interviews, make requests for 
information (RFI)--which ask a series of detailed questions about the 
app and the data it has access to--and perform audits that may include 
on-site inspections. If we determine that there has been improper use 
of data, we will ban those developers and notify everyone affected. 
Facebook is launching the Data Abuse Bounty to reward people who report 
any misuse of data by app developers. The Data Abuse Bounty, inspired 
by the existing bug bounty program that we use to uncover and address 
security issues, will help us identify violations of our policies.
    Further, Facebook's Platform Policy makes clear to app developers 
the relevant requirements regarding users' privacy that apply to apps 
operating on the Platform, including the requirements to give users 
choice and control, and to respect user privacy. Application developers 
explicitly agree to Facebook's Statement of Rights and Responsibilities 
and Platform Policy when they set up their Facebook accounts. The 
Platform Policy imposes a variety of obligations on app developers 
regarding the features, functionality, data collection and usage, and 
content for apps on the Platform, as well as Facebook's right to take 
enforcement action if an application violates the Platform Policy.
    Prior to the introduction of App review in 2014, the Facebook 
Platform Policy, included provisions to the following effect:

  <bullet> Give People Control: Section 2(8): Delete all of a person's 
        data you have received from us (including friend data) if that 
        person asks you to . . .

  <bullet> Protect Data: Section 3(3): Only use friend data (including 
        friends list) in the person's experience in your app.

  <bullet> Protect Data: Section 3(10): Don't transfer any data you 
        receive from us (including anonymous, aggregate, or derived 
        data) to any ad network, data broker or other advertising or 
        monetization-related service.

  <bullet> Login: Section 7(4): Request only the data and publishing 
        permission your app needs.

    The Platform Policy also outlined the actions Facebook could take 
for violations of the policy:

  <bullet> Things You Should Know: Section 6(8): We can audit your app 
        to ensure it is safe and does not violate our terms. If 
        requested, you must provide us with proof that your app 
        complies with our terms.

  <bullet> Things You Should Know: Section 6(15): We may enforce 
        against your app or website if we conclude that your app 
        violated our terms or is negatively impacting the Platform. We 
        may or may not notify you in advance.

  <bullet> Things You Should Know: Section 6(16): Enforcement is both 
        automated and manual, and can include disabling your app, 
        restricting you and your app's access to Platform 
        functionality, requiring that you delete data, terminating 
        agreements with you or any other action we deem appropriate.

    Question 96. Do you know exactly how much Kogan profited from the 
data he provided to Cambridge Analytica and any other entities?
    Answer. GSR certified to Facebook that it received payments 
totaling approximately 750,000 GBP from SCL for services relating to 
Kogan's modeling and use of data gathered by his app. The certification 
also stated that Kogan used the proceeds to operate GSR. Recently, 
Kogan has stated publicly that the above payment came from SCL. Kogan 
has also recently testified to the UK Parliament that GSR received 
additional payments not reflected in his certification to 1Facebook.

    Question 97. From your understanding, was Kogan on payroll with 
Cambridge Analytica when he ran the personality app on Facebook?
    Answer. Kogan has testified that he was not on Cambridge 
Analytica's payroll when he shared data and provided services to 
Cambridge Analytica. Rather, Kogan testified that he owned GSR, which 
entered into an agreement with Cambridge Analytica to provide it with 
services relating to certain Facebook data.

    Question 98. Did Facebook make any attempt to pro-actively contact 
the 87 million users you say had their data harvested by Cambridge 
Analytica in the more than two years after you were alerted to the 
breach? If not, why not?
    Answer. When Facebook learned about Kogan's breach of Facebook's 
data use policies in December 2015, we took immediate action. We 
retained an outside firm to assist in investigating Kogan's actions, to 
demand that Kogan and each party he had shared data with delete the 
data and any derivatives of the data, and to obtain certifications that 
they had done so. Because Kogan's app could no longer collect most 
categories of data due to changes in Facebook's platform, the company's 
highest priority at that time was ensuring deletion of the data that 
Kogan may have accessed before these changes took place. With the 
benefit of hindsight, we wish we had notified people whose information 
may have been impacted. Facebook has since notified all people 
potentially impacted with a detailed notice at the top of their News 
Feed.

    Question 99. Why did Facebook hire Joseph Chancellor, who was the 
business partner of Aleksandr Kogan, around the same time as the 
Guardian article alerted you to the violation of your policies?
    Answer. Mr. Chancellor is a quantitative researcher on the User 
Experience Research team at Facebook, whose work focuses on aspects of 
virtual reality. We are investigating Mr. Chancellor's prior work with 
Kogan through counsel.

    Question 100. Why do you continue to employ him to this day?
    Answer. See Response to Question 99.

    Question 101. Did any of the Facebook employees who were embedded 
with the Trump presidential campaign have any sense that they were 
helping target ads with data that was obtained through these 
disreputable means?
    Answer. While our investigation is ongoing, our review indicates 
that Facebook employees did not identify any issues involving the 
improper use of Facebook data in the course of their interactions with 
Cambridge Analytica during the 2016 U.S. Presidential campaign. No one 
from Facebook was assigned full time to the Trump campaign.

    Question 102. Is there no way any red flags would have arisen from 
how either good the targeting data was, or the way they were using it?
    Answer. We expect that advertisers will use targeted advertising, 
and many political campaigns use custom audiences. The fact that a 
campaign used a custom audience and the performance of that audience 
would not normally be an indicator of any wrongdoing.

    Question 103. To your knowledge, what foreign actors or entities 
may have accessed the same level of data that Cambridge Analytica has 
utilized?
    Answer. Kogan represented that, in addition to providing data to 
his Prosociality and Well-Being Laboratory at the University of 
Cambridge for the purposes of research, GSR provided some Facebook data 
to SCL Elections Ltd., Eunoia Technologies, and the Toronto Laboratory 
for Social Neuroscience at the University of Toronto. Our investigation 
is ongoing.

    Question 104. Russia: Facebook has downplayed the reach of Russian 
advertising during the 2016 election.
    But the company's main business model is based on giving ads and 
posts prominence in the feeds of well-targeted users.
    Has Facebook performed any analyses that looks at smaller groups of 
people and how effective those ads were against targeted groups? If so, 
can Facebook share that information?
    Answer. We learned from press accounts and statements by 
congressional leaders that Russian actors might have tried to interfere 
in the 2016 election by exploiting Facebook's ad tools. This is not 
something we had seen before, and so we started an investigation. We 
found that fake accounts associated with the IRA spent approximately 
$100,000 on around 3,500 Facebook and Instagram ads between June 2015 
and August 2017. Our analysis also showed that these accounts used 
these ads to promote the roughly 120 Facebook Pages they had set up, 
which in turn posted more than 80,000 pieces of content between January 
2015 and August 2017. The Facebook accounts that appeared tied to the 
IRA violated our policies because they came from a set of coordinated, 
inauthentic accounts. We shut these accounts down and began trying to 
understand how they misused our platform. We shared the ads we 
discovered with Congress, in a manner that is consistent with our 
obligations to protect user information, to help government authorities 
complete the vitally important work of assessing what happened in the 
2016 election.

    Question 105. Do your company's records show that Russia-backed ads 
and posts reached a higher number of people in certain states or 
regions of the United States?
    Answer. Approximately 25 percent of the ads that we've identified 
and turned over to the Committee were geographically targeted to a 
region smaller than the United States. The ads (along with the 
targeting information) are publicly available at https://
democratsintelligence.house.gov/facebook-ads/social-media-
advertisements.htm.

    Question 106. If so, how responsive were Facebook users in those 
targeted regions to the Russian posts and ads?
    Answer. Below is an overview of our analysis to date of the IRA's 
ads:

  <bullet> Impressions (an ``impression'' is how we count the number of 
        times something is on screen, for example this can be the 
        number of times something was on screen in a person's News 
        Feed)

    <ctr-circle> 44 percent of total ad impressions were before the 
            U.S. election on November 8, 2016.

    <ctr-circle> 56 percent of total ad impressions were after the 
            election

  <bullet> Reach (the number of people who saw a story at least once):

    <ctr-circle> We estimate 11.4 million people in the U.S. saw at 
            least one of these ads between 2015 and 2017.

  <bullet> Ads with zero impressions:

    <ctr-circle> Roughly 25 percent of the ads were never shown to 
            anyone. That's because advertising auctions are designed so 
            that ads reach people based on relevance, and certain ads 
            may not reach anyone as a result.

  <bullet> Amount spent on ads:

    <ctr-circle> For 50 percent of the ads, less than $3 was spent.

    <ctr-circle> For 99 percent of the ads, less than $1,000 was spent.

    <ctr-circle> Many of the ads were paid for in Russian currency, 
            though currency alone is a weak signal for suspicious 
            activity.

  <bullet> Content of ads:

    <ctr-circle> Most of the ads appear to focus on divisive social and 
            political messages across the ideological spectrum, 
            touching on topics from LGBT matters to race issues to 
            immigration to gun rights.

    <ctr-circle> A number of the ads encourage people to follow Pages 
            on these issues, which in turn produced posts on similarly 
            charged subjects.

    We estimate that roughly 29 million people were served content in 
their News Feeds directly from the IRA's 80,000 posts over the two 
years. Posts from these Pages were also shared, liked, and followed by 
people on Facebook, and, as a result, three times more people may have 
been exposed to a story that originated from the Russian operation. Our 
best estimate is that approximately 126 million people may have been 
served content from a Page associated with the IRA at some point during 
the two-year period. This equals about four-thousandths of one percent 
(0.004 percent) of content in News Feed, or approximately 1 out of 
23,000 pieces of content. While our data on Instagram is less complete, 
we believe another 16 million saw the IRA's Instagram posts starting in 
October 2016. Prior to that time, when our data is less incomplete, we 
believe another 4 million people may have seen this content.

    Question 107. When did anyone at Facebook become aware that 
Russians or other foreign nationals were running ads in connection with 
the election?
    Answer. See Response to Question 104.

    Question 108. What happened with that information and what was 
done?
    Answer. See Response to Question 104.

    Question 109. FEC: Has anyone raised or approached you about 
potential infractions of any election laws that obtaining or using 
Facebook's data might be linked to including Cambridge Analytica's use 
of Facebook data?
    Answer. We have a compliance team that trains our sales 
representatives to comply with all Federal election law requirements in 
this area. We also have processes designed to identify inauthentic and 
suspicious activity and we also maintain a sanctions compliance program 
to screen advertisers and paid app developers. Facebook's denied party 
screening protocol involves checking paid app developers and 
advertisers against applicable denied party listings. Those screened 
remain in an on-going monitoring portfolio and are screened against 
changes to applicable denied party listings. Moreover, our payments 
subsidiaries file Suspicious Activity Reports on developers of certain 
apps as appropriate. However, like other offline and online companies, 
Facebook has limited insight into the use of shell corporations or 
other sophisticated structures that may disguise the true buyer. In 
addition, the general challenge of attributing online activities to 
specific governments or organizations is widely recognized in the 
intelligence and law enforcement communities.

    Question 110. We are now learning that there is reason to believe 
that Cambridge Analytica and its foreign national employees 
participated in the decision making of its U.S. political committee 
clients, possibly in violation of our campaign finance law.\9\ What 
steps will you take to determine whether the companies behind political 
or issue ads posted on Facebook are not in violation of our campaign 
finance laws?
---------------------------------------------------------------------------
    \9\ http://fortune.com/2018/03/26/watchdog-alleges-cambridge-
analytica-violated-election-law/
---------------------------------------------------------------------------
    Answer. See Response to Question 109.

    Question 111. Will you undergo this examination before these ads 
are allowed to be posted on your platform?
    Answer. See Response to Question 109.

    Question 112. Technological Capabilities or Limitations to 
Protecting Data: Is it fair to say that not only were you not vigilant 
in following up or tracking those who have assessed Facebook's data, 
but that you have no technical solutions to track data activity once 
it's outside your network, such as specialty whether it's properly 
deleted?
    Answer. We use a variety of tools to enforce Facebook policies 
against violating parties, including developers. We review tens of 
thousands of apps per year and regularly disapprove noncompliant apps 
as part of our proactive review process. We also use tools like cease 
and desist letters, account suspensions, letter agreements, and civil 
litigation. For example, since 2006, Facebook has sent over 1,150 
cease-and-desist letters to over 1,600 targets. In 2017, we took action 
against about 370,000 apps, ranging from imposing certain restrictions 
to removal of the app from the platform. Moreover, we have required 
parties who have procured our data without authorization to delete that 
data. We have invested significant resources in these efforts. Facebook 
is presently investigating apps that had access to large amounts of 
information before we changed our platform policies in 2014 to 
significantly reduce the data apps could access. To date, around 200 
apps (from a handful of developers: Kogan, AIQ, Cube You, the Cambridge 
Psychometrics Center, and myPersonality) have been suspended pending a 
thorough investigation into whether they did in fact misuse any data.

    Question 113. Or at least without a formal deep audit?
    Answer. See Response to Question 112.

    Question 114. What are the specific aspects of a formal audit, 
including the technical capabilities?
    Answer. With respect to our audit of all apps that had access to 
large amounts of information before we changed our platform policies in 
2014, where we have concerns that data may have been shared outside the 
app in violation of our policies, we will conduct interviews, make 
requests for information (RFI)--which ask a series of detailed 
questions about the app and the data it has access to--and perform 
audits that may include on-site inspections.

    Question 115. And still with an audit, can you clarify what level 
of detail you have or could find misuse from someone?
    Answer. See Response to Question 114.

    Question 116. It's being reported, and opined by others in your 
field, including former employees of yours, that it's notoriously 
difficult to track down and secure personal information once it has 
been unleashed.
    So that makes it all the more important to be vigilant on the front 
end, no?
    Answer. In April 2014, we announced that we would more tightly 
restrict our platform APIs to prevent abuse. At that time we made clear 
that existing apps would have a year to transition--at which point they 
would be forced (1) to migrate to the more restricted API and (2) be 
subject to Facebook's new review and approval protocols. A small number 
of developers asked for and were granted short-term extensions beyond 
the one-year transition period, the longest of which lasted several 
months. These extensions ended several years ago. A transition period 
of this kind is standard when platforms implement significant changes 
to their technology base and was necessary here to avoid disrupting the 
experience of millions of people. New apps that launched after April 
30, 2014 were required to use our more restrictive platform APIs. We 
required apps seeking additional categories of data to undergo 
proactive review by our internal teams. We rejected more than half of 
the apps seeking these permissions, including the second version of 
Kogan's app.
    We review apps to ensure that the requested permissions clearly 
improve the user experience and that the data obtained is tied to an 
experience within the app. We conduct a variety of manual and automated 
checks of applications on the platform for Policy compliance, as well 
as random sampling. When we find evidence of or receive allegations of 
violations, we investigate and, where appropriate, employ a number of 
measures, including restricting applications from our platform, 
preventing developers from building on our platform in the future, and 
taking legal action where appropriate.
    Recently, we announced a number of additional steps we're taking to 
address concerns raised by Kogan's app.

  <bullet> Review our platform. We will investigate all apps that had 
        access to large amounts of data before the platform changes we 
        announced in 2014, and we will audit any app where we identify 
        suspicious activity. If we identify misuses of data, we'll take 
        immediate action, including banning the app from our platform 
        and pursuing legal action if appropriate.

  <bullet> Tell people about data misuse. We will tell people about 
        apps that have misused their data. This includes building a way 
        for people to know if their data might have been accessed via 
        the app. Moving forward, if we remove an app for misusing data, 
        we will tell everyone who used it.

  <bullet> Turn off access for unused apps. If someone has not used an 
        app within the last three months, we will turn off the app's 
        access to their data.

  <bullet> Restrict Facebook Login data. We are changing Login, so that 
        the only data that an app can request without app review will 
        include name, profile photo, and e-mail address. Requesting any 
        other data will require approval from Facebook. We will also no 
        longer allow apps to ask for access to information like 
        religious or political views, relationship status and details, 
        custom friends lists, education and work history, fitness 
        activity, book reading and music listening activity, news 
        reading, video watch activity, and games activity. We will 
        encourage people to manage the apps they use. We already show 
        people what apps their accounts are connected to and allow them 
        to control what data they've permitted those apps to use. But 
        we're making it easier for people to see what apps they use and 
        the information they have shared with those apps.

  <bullet> Reward people who find vulnerabilities. We launched the Data 
        Abuse Bounty program so that people can report to us any 
        misuses of data by app developers.

  <bullet> Update our policies. We have updated our terms and Data 
        Policy to explain how we use data and how data is shared with 
        app developers.

    Question 117. How much do you anticipate Facebook will be investing 
in your investigations or audits into app developers, and others who 
have had access to user data?
    How much value would you estimate that Facebook has lost through 
this latest string of controversies, and the Cambridge Analytica data 
security issue?
    Answer. We are investing so much in security that our costs will 
increase significantly. But we want to be clear about what our priority 
is: protecting our community is more important than maximizing our 
profits.

    Question 118. And how much personally to do suspect you've lost?
    Answer. See Response to Question 117.

    Question 119. What personal data of yours, or say your wife's, is 
available or exploitable on any of the platforms you run?
    Answer. Mark Zuckerberg's data was among the data that was shared 
with Kogan's app, which may have been improperly shared with Cambridge 
Analytica.

    Question 120. Seems like millions, or even billions, spent earlier 
and being proactively protective would, or could have, saved tens of 
billions overall, wouldn't you agree?
    Answer. See Response to Question 116.

    Question 121. Do you think there's enough accountability at all 
levels within Facebook, including for yourself, Ms. Sandberg, others in 
senior positions?
    Answer. As our CEO Mark Zuckerberg has said, when you are building 
something unprecedented like Facebook, there are going to be mistakes. 
What people should hold us accountable for is learning from the 
mistakes and continually doing better--and, at the end of the day, 
making sure that we're building things that people like and that make 
their lives better.

    Question 122. The Washington Post has reported that Mr. Kogan says 
that none of the data that was taken for research purposes in 2013 was 
provided to Cambridge Analytica. He says that after he began working 
with Cambridge Analytica, he sent out a new survey to Facebook users, 
with new terms of service that allowed for broad uses of the data. That 
new survey app collected data from nearly 300,000 Facebook users and 
captured data on 30 million of their friends. He says he has deleted 
all the data that he obtained from Facebook.
    Can Facebook prove all of this as fact or fiction?
    Answer. On December 11, 2015, The Guardian published an article 
reporting that Kogan and his company, GSR, may have passed information 
his app had obtained from Facebook users to SCL Elections Ltd. (SCL)/
Cambridge Analytica. By doing so, Kogan and his company violated 
Facebook's Platform Policies, which explicitly prohibited selling or 
licensing user data accessed from Facebook and from sharing any user 
data accessed from Facebook with any ad network, data broker, or other 
advertising or monetization-related service. For this reason, Facebook 
immediately banned his app from our platform and launched an 
investigation into these allegations. Kogan signed a certification 
declaring that he had deleted all data that he obtained through his app 
and obtained certifications of deletion from others he had shared data 
with, including Cambridge Analytica. In March 2018, new allegations 
surfaced that Cambridge Analytica may not have deleted data as it had 
represented. Our investigation of these matters is ongoing.

    Question 123. Facebook's Definition and Regulatory Positions: Do 
you believe you are an actual media entity now?
    Answer. Facebook does not create or edit the content that users 
share on its Platform, although we do take steps to arrange, rank and 
distribute that content to those who are most likely to be interested 
in it, or to remove objectionable content from our service. These 
activities are protected functions under Communications Decency Act 
Section 230 and the First Amendment.

    Question 124. Are you solely a tech company?
    Answer. We are, first and foremost, a technology company. Facebook 
does not create or edit the content that our users published on our 
platform. While we seek to be a platform for a broad range of ideas, we 
do moderate content in good faith according to published community 
standards in order to keep users on the platform safe, reduce 
objectionable content, and to make sure users participate on the 
platform responsibly.

    Question 125. When it comes to news posts and political 
advertising, why should Facebook get a regulatory exemption that 
traditional media doesn't get?
    Answer. Facebook is committed to transparency for all ads, 
including ads with political content. Facebook believes that people 
should be able to easily understand why they are seeing ads, who paid 
for them, and what other ads those advertisers are running. As such, 
Facebook only allows authorized advertisers to run ads about elections 
or issues that are being debated across the country. In order to be 
authorized by Facebook, advertisers will need to confirm their identity 
and location. Furthermore, all political ads will include a disclosure 
in their election-related ads, which reads: ``Paid for by,'' and when 
users click on this disclosure they will be able to see details about 
the advertiser. Users will also be able to see an explanation of why 
they saw the particular ad. This is similar to the disclosure included 
on political TV advertisements.

    Question 126. Facebook with Law Enforcement: How wide is the use 
and specific collection of social media data with law enforcement, say 
in a given year? (FBI, CBP, ICE)
    Answer. As part of official investigations, government officials 
sometimes request data about people who use Facebook. We have strict 
processes in place to handle these government requests, and we disclose 
account records in accordance with our terms of service and applicable 
law. We also have law enforcement response teams available around the 
clock to respond to emergency requests. As part of our ongoing effort 
to share information about the requests we have received from 
governments around the world, Facebook regularly produces a 
Transparency Report about government requests to Facebook.

    Question 127. Have you seen an increase is such request under the 
current Administration?
    Answer. See Response to Question 126.

    Question 128. Or has there been a variation in the type or 
aggressiveness of these requests over the same time?
    Answer. See Response to Question 126.

    Question 129. Social Media Addiction: Obvious the social media 
revolution has brought in a number of addition issues into play that we 
in Congress need to consider, from platforms for terrorist 
organizations and hate groups, to censorship and online addiction. And 
that is something I wanted to inquire about.
    I know it was raised by one member during your hearing, but do you 
fund any research on the issue of potential social media addiction, and 
if not, would you consider funding independent third-party research in 
this area?
    Answer. Facebook employs social psychologists, social scientists, 
and sociologists, and collaborates with top scholars to better 
understand well-being. Facebook has also pledged $1 million towards 
research to better understand the relationship between media 
technologies, youth development and well-being. Facebook is teaming up 
with experts in the field to look at the impact of mobile technology 
and social media on kids and teens, as well as how to better support 
them as they transition through different stages of life. Facebook is 
committed to bringing people together and supporting well-being through 
meaningful interactions on Facebook.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Chuck Grassley to 
                            Mark Zuckerberg
    Question 1. Please provide a comprehensive list of all forms of 
content or data Facebook collects on Facebook users from the Facebook 
platform, whether it is content or data created by the user or not.
    Answer. As explained in our Data Policy, we collect three basic 
categories of data about people:

        (1) data about things people do and share (and who they connect 
        with) on our services,

        (2) data about the devices people use to access our services, 
        and

        (3) data we receive from partners, including the websites and 
        apps that use our business tools.

    As far as the amount of data we collect about people, the answer 
depends on the person. People who have only recently signed up for 
Facebook have usually shared only a few things--such as name, contact 
information, age and gender. Over time, as people use our products, we 
receive more data from them, and this data helps us provide more 
relevant content and services. That data will fall into the categories 
noted above, but the specific data we receive will, in large part, 
depend on how the person chooses to use Facebook. For example, some 
people use Facebook to share photos, so we receive and store photos for 
those people. Some people enjoy watching videos on Facebook; when they 
do, we receive information about the video they watched, and we can use 
that information to help show other videos in their News Feeds. Other 
people seldom or never watch videos, so we do not receive the same kind 
of information from them, and their News Feeds are likely to feature 
fewer videos.
    The data we have about people also depends on how they have used 
our controls. For example, people who share photos can easily delete 
those photos. The same is true of any other kind of content that people 
post on our services. Through Facebook's Activity Log tool, people can 
also control the information about their engagement--i.e., their likes, 
shares and comments--with other people's posts. The use of these 
controls of course affects the data we have about people.
    We recently announced improvements to our Download Your Information 
tool, as well as a new feature that makes it easier for people to see 
the information that's in their account on Facebook. These recently-
expanded tools for accessing information will allow people to see their 
data, delete it, and easily download and export it.

    Question 2. Please provide a comprehensive list of all ways 
Facebook uses each form of content or data. Please provide as much 
detail as possible. For example, does Facebook ever use location 
information to tell a business that a consumer physically went to a 
store after seeing an ad?
    Answer. See Response to Question 1.

    Question 3. Does Facebook collect or purchase information about 
non-Facebook users? If so, what information is collected? How does 
Facebook acquire the information? What are all the ways Facebook uses 
the information? Please provide a comprehensive list of all forms of 
data Facebook collects on individuals, not collected from the Facebook 
website.
    a. Can a person who does not have a Facebook account request 
deletion of any data? How?

    b. If Facebook has utilized the information of a person who does 
not have an account in any way, such as building advertising profile, 
will deletion of the data ensure deletion from advertising profiles or 
any other products that the data was used to compile?
    Answer. Facebook does not create profiles or track website visits 
for people without a Facebook account.
    When people visit apps or websites that feature our technologies--
like the Facebook Like or Comment button--our servers automatically log 
(i) standard browser or app records of the fact that a particular 
device or user visited the website or app (this connection to 
Facebook's servers occurs automatically when a person visits a website 
or app that contains our technologies, such as a Like button, and is an 
inherent function of Internet design); and (ii) any additional 
information the publisher of the app or website chooses to share with 
Facebook about the person's activities on that site (such as the fact 
that a purchase was made on the site). This is a standard feature of 
the Internet, and most websites and apps share this same information 
with multiple different third parties whenever people visit their 
website or app. For example, the Senate Commerce Committee's website 
shares information with Google and its affiliate DoubleClick and with 
the analytics company Webtrends. This means that, when a person visits 
the Committee's website, it sends browser information about their visit 
to each one of those third parties. More information about how this 
works is available at https://newsroom.fb.com/news/2018/04/data-off-
facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product, or use specific features like our Like button--
but without providing any information about a specific person. We do 
not create profiles for non-Facebook users, nor do we use browser and 
app logs for non-Facebook users to show targeted ads from our 
advertisers to them or otherwise seek to personalize the content they 
see. However, we may take the opportunity to show a general ad that is 
unrelated to the attributes of the person or an ad encouraging the non-
user to sign up for Facebook.
    When the individual is a Facebook user, we are also able to use 
this information to personalize their experiences on Facebook, whether 
or not they are logged out, but we will not target ads to users relying 
on this information unless the user allows this in their privacy 
settings. We do not sell or share this information with third-parties.

    Question 4. When a user deletes information from Facebook, is that 
information still used to inform advertising?
    a. If it is, how does the user change this?

    b. When a user deletes their Facebook account, is underlying data 
still used in any way, including to inform advertising profile? Can the 
user prevent any further use?
    Answer. The audience with which someone chooses to share their 
information is independent of whether we use that information to 
personalize the ads and other content we show them. Specifically, our 
Data Policy explains that we may use any information that people share 
on Facebook ``to deliver our Products, including to personalize 
features and content (including your News Feed, Instagram Feed, 
Instagram Stories and ads).'' However, people can use our Ad 
Preferences tool to see the list of interests that we use to 
personalize their advertising. This means that, for example, a person 
who is interested in cars can continue to share that interest with 
their friends but tell us not to assign them an interest in ads for ad 
targeting purposes.
    Likewise, the audience of a post does not determine whether a post 
is retained. Someone can choose to share a post with ``Only Me'' 
(meaning that they don't want anyone to see it but want to retain it in 
their Facebook account). They may also choose to delete the information 
entirely. When people choose to delete something they have shared on 
Facebook, we remove it from the site. In most cases, this information 
is permanently deleted from our servers; however, some things can only 
be deleted when a user permanently deletes their account.

    Question 5. How long does Facebook keep a user's data after they 
delete their account? Is there any data that is not deleted from 
Facebook's servers?
    Answer. In general, when a user deletes their account, we delete 
things they have posted, such as their photos and status updates, and 
they won't be able to recover that information later. (Information that 
others have shared about them isn't part of their account and won't be 
deleted.)
    There are some limited exceptions to these policies: For instance, 
information can be accessed and preserved for an extended period when 
it is the subject of a legal request or obligation, governmental 
investigation, or investigations of possible violations of our terms or 
policies, or otherwise to prevent harm. We also retain information from 
accounts disabled for terms violations for at least a year to prevent 
repeat abuse or other term violations.

    Question 6. In your testimony you stated that the user has complete 
control over their Facebook page.
    a. Can a user make their profile invisible, so it cannot be found 
by searching Facebook or the web?

    b. Can a user choose to make their name or picture private?

    c. Can a user opt out of specific uses of their data, such as 
academic research?
    Answer. When someone creates a profile on Facebook, the purpose of 
the profile is to enable others on Facebook to see whatever information 
the person chooses to add to his or her profile. However, people are in 
control of what information they add--only a person's name and limited 
other data is required to create a Facebook profile. And, for nearly 
all information that people choose to add to their profiles, they can 
choose who is eligible to see this information. For example, a person 
might choose to share his or her hometown only with his or her friends.
    A limited amount of information that people provide--including 
their name and, if they choose to add one, their profile photo--is 
always public on Facebook. Among other things, this helps us inform a 
user before they make or accept a friend request of the identity of the 
person with whom he or she is about to connect.
    Through Facebook's Settings, people can make a range of choices 
about how their information will be used, including instructing that 
they do not want search engines to link to their profiles. We inform 
people that, even if they choose not to be linked to in search engines, 
anyone may see information that they share if they set the audience for 
that information to Public.

    Question 7. With regard to academic research, you recently updated 
your data policy as it was reported that Facebook was looking into 
partnering with healthcare providers to conduct medical research.
    a. Why was it not disclosed earlier to users that their data could 
be used for research?

    b. How does a user opt out of being a subject of medical or other 
academic research?

    c. If they cannot, why not? Will you change this?
    Answer. Facebook was exploring this type of data sharing because of 
the general health benefits to having a close-knit circle of family and 
friends and the need for more research on the impact of social 
connection on health. Deeper research into this link is needed to help 
medical professionals develop specific treatment and intervention plans 
that take social connection into account. With this in mind, last year 
Facebook began discussions with leading medical institutions, including 
the American College of Cardiology and the Stanford University School 
of Medicine, to explore whether scientific research using fully-
anonymized Facebook data could help the medical community advance our 
understanding in this area. This work did not progress past the 
planning phase, and we have not received, shared, or analyzed anyone's 
data.
    In March we decided that we should pause these discussions so we 
can focus on other important work, including doing a better job of 
protecting people's data and being clearer with them about how that 
data is used in our products and services.
    Our Data Policy has explained that we have engaged in research 
collaborations for several years. As part of a general effort to be 
more transparent, we updated our Data Policy recently to provide 
additional detail on a range of practices, including academic research. 
We also explain this in other ways, including announcements in our 
Newsroom and in a dedicated website providing more information about 
research at Facebook.

    Question 8. Does Facebook currently collect, or have any plans to 
collect, anonymized medical information of Americans?
    a. If so, what are the planned or potential uses of this 
information?
    Answer. See Response to Question 7.

    Question 9. In your testimony you stated that it would be too long 
a webpage if you provide a list of all the ways data is used. Is there 
a reason you could not have a short, easy to understand list, and a 
long comprehensive list for those who are interested to learn more?
    Answer. We believe that it's important to communicate with people 
about the information that we collect and how people can control it. 
This is why we work hard to provide this information to people in a 
variety of ways: in our Data Policy, and in Privacy Basics, which 
provides walkthroughs of the most common privacy questions we receive. 
Beyond simply disclosing our practices, we also think it's important to 
give people access to their own information, which we do through our 
Download Your Information and Access Your Information tools, Activity 
Log, and Ad Preferences, all of which are accessible through our 
Privacy Shortcuts tool. We also provide information about these topics 
as people are using the Facebook service itself.
    Facebook seeks, as much as possible, to put controls and 
information in context within its service. While ``up front'' 
information like that contained in the terms of service are useful, 
research overwhelmingly demonstrates that in-product controls and 
education are the most meaningful to people and the most likely to be 
read and understood. On-demand controls are also important, and we 
recently redesigned our entire settings menu on mobile devices from top 
to bottom to make things easier to find. We also created a new Privacy 
Shortcuts menu where users can control their data in just a few taps, 
with clearer explanations of how our controls work. The experience is 
now clearer, more visual, and easy-to-find.
    Improving people's understanding of how digital services work is an 
industry-wide challenge that we are highly committed to addressing. 
That's why, over the last 18 months, we've run a global series of 
design workshops called ``Design Jams,'' bringing together experts in 
design, privacy, law and computer science to work collaboratively on 
new and innovative approaches. These workshops have run in Paris, 
London, Dublin, Berlin, Sao Paolo, Hong Kong and other cities, and 
included global regulators and policymakers. At these workshops, expert 
teams use ``people centric design'' methods to create innovative new 
design prototypes and experiences to improve transparency and education 
in digital services. These workshops inform Facebook's constantly-
improving approach.
    In recognition of the need for improved approaches to data 
transparency across all digital services, working with partners from 
academia, design and industry we recently launched TTC Labs, a design 
innovation lab that seeks to improve user experiences around personal 
data. TTC Labs is an open platform for sharing and innovation and 
contains insights from leading experts in academia, design and law, in 
addition to prototype designs from the Design Jams, template services 
and open-source toolkits for people-centric design for transparency, 
trust and control of data. Working collaboratively, and based on open-
source approaches, TTC Labs seeks to pioneer new and more people-
centric best practices for people to understand how their data is used 
by digital services, in ways that they find easy to understand and 
control.
    Facebook is highly committed to improving people's experience of 
its own services as well as investing in new innovations and approaches 
to support improvements across the industry.

    Question 10. It has been reported that Facebook's download your 
information tool, contrary to your testimony, does not contain all the 
data Facebook has collected on that individual consumer. Can you 
explain that discrepancy? Will you be changing this?
    Answer. Our Download Your Information or ``DYI'' tool is Facebook's 
data portability tool and was launched many years ago to let people 
access and download many types of information that we maintain about 
them. The data in DYI and in our Ads Preferences tool contain each of 
the interest categories that are used to show people ads, along with 
information about the advertisers currently running ads based on their 
use of an advertiser's website or app. People also can choose not to 
see ads from those advertisers. We recently announced expansions to 
Download Your Information, which, among other things, will make it 
easier for people to see their data, delete it, and easily download and 
export it. More information is available at https://newsroom.fb.com/
news/2018/04/new-privacy-protections/.
    Responding to feedback that we should do more to provide 
information about websites and apps that send us information when 
people use them, we also announced plans to build Clear History. This 
new feature will enable users to see the websites and apps that send us 
information when they use them, delete this information from their 
account, and turn off Facebook's ability to store it associated with 
their account going forward.
    We have also introduced Access Your Information. This feature 
provides a new way for people to access and manage their information. 
Users can go here to delete anything from their timeline or profile 
that they no longer want on Facebook. They can also see their ad 
interests, as well as information about ads they've clicked on and 
advertisers who have provided us with information about them that 
influence the ads they see. From here, they can go to their ad settings 
to manage how this data is used to show them ads.

    Question 11. Facebook has previously stated that private messages 
are not scanned for advertising, but are scanned for content such as 
child pornography and facilitating genocide. Is there any other way in 
which private messages are used by Facebook or any third party?
    Answer. The way Facebook uses messages can be found in our Data 
Policy, located at: https://www.facebook.com/policy.php.

    Question 12. When a user logs in to Facebook, does Facebook 
continue to track, through cookies or other trading tools, the users 
pages visited (a) while the user is still logged onto the Facebook 
page, and (b) after the user logs out of the Facebook page?
    Answer. See Response to Question 3.

    Question 13. Please provide a detailed explanation how Facebook 
tracks a user's Internet browsing activity. Where is this disclosed on 
the Facebook website and could it be disclosed more fully?
    Answer. We do not use web browsing data to show ads to non-users or 
otherwise store profiles about non-users. Our goal is to show people 
content (including advertising) that is relevant to their interests. We 
use information people have provided on Facebook--such as things 
they've liked or posts they've engaged with--to help determine what 
people will be interested in. Like most online advertising companies, 
we also inform our judgments about what ads to show based on apps and 
websites that people use off of Facebook. People can completely turn 
off our use of web browser data and other data from third-party 
partners to show them ads through a control in Ads Preferences. They 
can also customize their advertising experience by removing interests 
that they do not want to inform the Facebook ads they see. In addition, 
a person's browser or device may offer settings that allow users to 
choose whether browser cookies are set and to delete them

    Question 14. Can people opt-out of being tracked across the Web by 
Facebook via cookies and other tracking tools? How?
    Answer. See Responses to Questions 10 and 13.

    Question 15. Has Facebook been collecting call history and SMS data 
from Android phones? If yes, how has it been collected and what is 
Facebook doing with this information?
    Answer. Call and text history logging is part of an opt-in feature 
that lets people import contact information to help them connect with 
people they know on Facebook and Messenger. We introduced the call and 
text history component this feature for Android users several years 
ago, and currently offer it in Messenger and Facebook Lite, a 
lightweight version of Facebook, on Android.
    Contact importers are fairly common among social apps and services 
as a way to more easily find the people users want to connect with. 
They help users find and stay connected with the people they care 
about, and provide them with a better experience across Facebook.
    Before we receive anyone's call and text history, they specifically 
grant us permission to access this data on their device and separately 
agree to use the feature. If, at any time, they no longer wish to use 
this feature, they can turn it off, and all previously shared call and 
text history shared via that app is deleted. People can also access 
information they previously imported through the Download Your 
Information tool.

    Question 16. Does Facebook scan users' photos to generate biometric 
data on them? Does Facebook scan photos for any reason other than to 
match photos based on facial recognition and to search for 
inappropriate content?
    Answer. Facebook uses facial recognition technology to provide 
people with products and features that enhance online experiences for 
Facebook users while giving them control over this technology. 
Facebook's facial recognition technology helps people tag their friends 
in photos; gives people an easier and faster way to privately share 
their photos with friends; helps people with visual impairments by 
generating descriptions of photos that people using screen readers can 
hear as they browse Facebook; lets people know when a photo or video of 
them has been uploaded to Facebook, even if they are not tagged; and 
helps prevent people from impersonating other Facebook users.
    Facial recognition technology uses machine-learning algorithms to 
analyze the pixels in photos and videos in which a user is tagged, and 
the photo used by the person as his or her profile picture, and 
generates a unique number called a template. When a photo or video is 
uploaded to Facebook, Facebook uses the template to attempt to identify 
someone by determining whether there are any faces in that content, and 
analyzing the portion of the image in which the face appears to compare 
it against certain Facebook users depending on the purpose for which 
facial recognition is being performed.
    Facebook has not shared and does not have plans to share or make 
available to any third party its facial recognition templates. 
Moreover, these templates do not provide meaningful information on 
their own; they can be used to identify a person only in conjunction 
with Facebook's software. They could not be reverse-engineered to 
recreate someone's face.
    Facebook designed its facial-recognition technology and the 
applications that use it with privacy considerations in mind and 
incorporated various safeguards and controls that protect both (1) 
users' ability to control the collection, use, and disclosure of their 
personal information, and (2) the security of that personal 
information.
    Facebook gives users control over whether Facebook uses facial 
recognition to recognize them in photos and videos. That control is 
exercised through users' privacy settings. If a user chooses to turn 
facial recognition off, Facebook does not create a template for that 
person or deletes any template it has previously created. Facebook will 
then be unable to recognize that person in any photos or videos that 
are uploaded to the service. Facebook also deletes templates of people 
who delete their Facebook accounts. Additionally, Facebook does not 
maintain templates for users who have no photos tagged of themselves 
and do not have a profile photo that is capable of being used to 
generate a face signature or template (e.g., where a user has no 
profile photo, where a user's profile photo does not contain a human 
face, or where a user's profile photo contains multiple untagged 
faces).
    We inform people about our use of facial recognition technology 
through the Data Policy, Help Center, posts on Facebook, and direct 
user notifications. Facebook users are told that they can opt out of 
facial recognition at any time--in which case Facebook will delete 
their template and will no longer use facial recognition to identify 
them.
    In creating facial recognition templates, Facebook uses only data 
that people have voluntarily provided to Facebook: the photos and 
videos that people have voluntarily uploaded to Facebook (including 
public profile pictures) and the tags people have applied to those 
photos and videos. Facebook does not use facial recognition to identify 
someone to a stranger.

    Question 17. Does Facebook collect user data through cross-device 
tracking? What types of data are collected? If a user accesses their 
Facebook account through a mobile device, for example, what information 
does Facebook collect about that mobile device? And what access, if 
any, does Facebook have to other data located on that user's mobile 
device? What are all the ways in which Facebook uses this data?
    Answer. Facebook's services inherently operate on a cross-device 
basis: understanding when people use our services across multiple 
devices helps us provide the same personalized experience wherever 
people use Facebook--for example, to ensure that a person's News Feed 
or profile contains the same content whether they access our services 
on their mobile phone or in a desktop computer's web browser.
    In support of those and other purposes, we collect information from 
and about the computers, phones, connected TVs and other web-connected 
devices our users use that integrate with our Products, and we combine 
this information across a user's different devices. For example, we use 
information collected about a person's use of our Products on their 
phone to better personalize the content (including ads) or features 
they see when they use our Products on another device, such as their 
laptop or tablet, or to measure whether they took an action in response 
to an ad we showed them on their phone or on a different device.
    Information we obtain from these devices includes:

  <bullet> Device attributes. Information such as the operating system, 
        hardware and software versions, battery level, signal strength, 
        available storage space, browser type, app and file names and 
        types, and plugins.

  <bullet> Device operations. Information about operations and 
        behaviors performed on the device, such as whether a window is 
        foregrounded or backgrounded, or mouse movements (which can 
        help distinguish humans from bots).

  <bullet> Identifiers. Unique identifiers, device IDs, and other 
        identifiers, such as from games, apps or accounts people use, 
        and Family Device IDs (or other identifiers unique to Facebook 
        Company Products associated with the same device or account).

  <bullet> Device signals. Bluetooth signals, and information about 
        nearby Wi-Fi access points, beacons, and cell towers.

  <bullet> Data from device settings. Information a user allows us to 
        receive through device settings they turn on, such as access to 
        their GPS location, camera, or photos.

  <bullet> Network and connections. Information such as the name of a 
        user's mobile operator or ISP, language, time zone, mobile 
        phone number, IP address, connection speed and, in some cases, 
        information about other devices that are nearby or on their 
        network, so we can do things like help them stream a video from 
        their phone to their TV.

  <bullet> Cookie data. Data from cookies stored on a user's device, 
        including cookie IDs and settings. More information is 
        available at https://www.facebook.com/policies/cookies/ and 
        https://help.instagram.com/1896641480634370?ref=ig.

    Advertisers, app developers, and publishers can send us information 
through Facebook Business Tools they use, including our social plug-ins 
(such as the Like button), Facebook Login, our APIs and SDKs, or the 
Facebook pixel. These partners provide information about a person's 
activities off Facebook--including information about their device, 
websites they visit, purchases they make, the ads they see, and how 
they use their services--whether or not they have a Facebook account or 
are logged into Facebook. For example, a game developer could use our 
API to tell us what games a person plays, or a business could tell us 
about a purchase a person made in its store. We also receive 
information about a person's online and offline actions and purchases 
from third-party data providers who have the rights to provide us with 
that person's information.
    We use the information we have to deliver our Products, including 
to personalize features and content (including a person's News Feed, 
Instagram Feed, Instagram Stories, and ads) and make suggestions for a 
user (such as groups or events they may be interested in or topics they 
may want to follow) on and off our Products. To create personalized 
Products that are unique and relevant to them, we use their 
connections, preferences, interests, and activities based on the data 
we collect and learn from them and others (including any data with 
special protections they choose to provide); how they use and interact 
with our Products; and the people, places, or things they're connected 
to and interested in on and off our Products.
    For example, if people have shared their device locations with 
Facebook or checked into a specific restaurant, we can show them ads 
from an advertiser that wants to promote its services in their area or 
from the restaurant. We use location-related information--such as a 
person's current location, where they live, the places they like to go, 
and the businesses and people they're near--to provide, personalize and 
improve our Products, including ads, for them and others. Location-
related information can be based on things like precise device location 
(if a user has allowed us to collect it), IP addresses, and information 
from their and others' use of Facebook Products (such as check-ins or 
events they attend). We store data until it is no longer necessary to 
provide our services and Facebook Products, or until a person's account 
is deleted--whichever comes first. This is a case-by-case determination 
that depends on things like the nature of the data, why it is collected 
and processed, and relevant legal or operational retention needs. We 
provide advertisers with reports about the kinds of people seeing their 
ads and how their ads are performing, but we don't share information 
that personally identifies someone (information such as a person's name 
or e-mail address that by itself can be used to contact them or 
identifies who they are) unless they give us permission. For example, 
we provide general demographic and interest information to advertisers 
(for example, that an ad was seen by a woman between the ages of 25 and 
34 who lives in Madrid and likes software engineering) to help them 
better understand their audience. We also confirm which Facebook ads 
led people to make a purchase or take an action with an advertiser.

    Question 18. There remains concern about timely fixes of security 
gaps in Facebook. In your written testimony you stated that a feature 
that allowed user look-up by phone number or e-mail had been abused to 
scrape profiles and that the feature had recently been shut down. 
However there are public reports that Facebook was made aware of the 
vulnerability as early as 2013.
    a. Are these reports accurate?

    b. If so, why was the feature not fixed earlier?

    c. What steps is Facebook taking to ensure that any abuses of 
privacy are dealt with more expeditiously?
    Answer. In April, we found out that a feature that lets users look 
someone up by their phone number and e-mail may have been misused by 
browsers looking up people's profiles in large volumes with phone 
numbers they already had. When we found out about the abuse, we shut 
this feature down. In the past, we have been aware of scraping as an 
industry issue, and have dealt with specific bad actors previously.

    Question 19. Does Facebook have a specific review protocol for a 
reported data breach or improper data transfer?
    Answer. Yes, Facebook maintains a data incident response plan.

    a. If not, why not? Will you be establishing one?
    Answer. See response above.

    b. If so, what is the protocol? Is there a timeline by which a 
review should be completed and the vulnerability addressed?
    Answer. Facebook monitors its systems for potential breaches of 
personal data and logs any potential breach in a system that 
automatically triggers expedited review. Facebook reviews such 
potential incidents to determine: (i) whether there was in fact an 
incident, (ii) its root cause, including short-and long-term 
remediation (if applicable); and (iii) our legal and ethical 
obligations. Facebook moves quickly to review potential incidents. 
Because of the fluid nature of an incident, there are no set timelines 
for completion of reviews and addressing of a discovered vulnerability, 
but any potential breach is escalated for high priority processing.

    c. What are the standards for when and how Facebook will notify 
users that their information may have been breached or improperly 
transferred?
    Answer. Facebook allows people to view, manage, and remove the apps 
that they have logged into with Facebook through the App Dashboard. We 
recently prompted everyone to review their App Dashboard as a part of a 
Privacy Checkup, and we also provided an educational notice on Facebook 
to encourage people to review their settings. More information about 
how users can manage their app settings is available at https://
www.facebook.com/help/218345114850283?helpref=about_content.
    The categories of information that an app can access is clearly 
disclosed before the user consents to use an app on the Facebook 
platform. Users can view and edit the categories of information that 
apps they have used have access to through the App Dashboard.
    In addition, Facebook notifies users in accordance with its 
obligations under applicable law and has also notified people in cases 
where there was no legal obligation to do so but we nevertheless 
determined it was the right thing to do under the circumstances.

    Question 20. Many of Facebook's vulnerabilities in security or 
privacy appear to be reported to Facebook and then addressed. Does 
Facebook have a specific proactive team or protocol for finding 
security leaks and privacy issues? In short, are there dedicated 
resources to seek out privacy issues on the platform? If not, why not? 
If so, when was the proactive approach implemented?
    Answer. Protecting a global community of more than 2 billion 
involves a wide range of teams and functions, and our expectation is 
that those teams will grow across the board. For example, we have 
dedicated information security and related engineering teams.
    Protecting the security of information on Facebook is at the core 
of how we operate. Security is built into every Facebook product, and 
we have dedicated teams focused on each aspect of data security. From 
encryption protocols for data privacy to machine learning for threat 
detection, Facebook's network is protected by a combination of advanced 
automated systems and teams with expertise across a wide range of 
security fields. Our security protections are regularly evaluated and 
tested by our own internal security experts and independent third 
parties. For the past seven years, we have also run an open bug bounty 
program that encourages researchers from around the world to find and 
responsibly submit security issues to us so that we can fix them 
quickly and better protect the people who use our service.
    We anticipate continuing to grow these teams by hiring a range of 
experts, including people with specific types of threat intelligence 
expertise.

    Question 21. How many improper data transfers to third parties have 
there been?
    a. Was Facebook only made aware of the improper data transfers by a 
third party?

    b. Have you ever required an audit to ensure the deletion of 
improperly transferred data? If so, how many times?

    c. Please provide a list of applications that Facebook has 
previously banned because data was transferred in violation of 
Facebook's terms.

    d. Beyond an audit, what tools is Facebook using to proactively 
stop improper transfers of data?

    e. How are you proactively ensuring that data is not improperly 
transferred by third parties in the future?
    Answer. We launched an initial investigation after the December 11, 
2015 publication of an article in The Guardian about Cambridge 
Analytica's potential misuse of Facebook data.
    We use a variety of tools to enforce Facebook policies against 
violating parties, including developers. We review tens of thousands of 
apps per year and regularly disapprove noncompliant apps as part of our 
proactive review process. We also use tools like cease and desist 
letters, account suspensions, letter agreements, and civil litigation. 
For example, since 2006, Facebook has sent over 1,150 cease-and-desist 
letters to over 1,600 targets. In 2017, we took action against about 
370,000 apps, ranging from imposing certain restrictions to removal of 
the app from the platform. Moreover, we have required parties who have 
procured our data without authorization to delete that data. We have 
invested significant resources in these efforts. Facebook is presently 
investigating apps that had access to large amounts of information 
before we changed our platform policies in 2014 to significantly reduce 
the data apps could access. To date around 200 apps (from a handful of 
developers: Kogan, AIQ, Cube You, the Cambridge Psychometrics Center, 
myPersonality, and AIQ) have been suspended--pending a thorough 
investigation into whether they did in fact misuse any data.

    Question 22. In page 3 of your written testimony you state that 
``strict requirements'' are going to be put on developers. What are 
those strict requirements?
    Answer. Recently, we announced a number of additional steps we're 
taking to address concerns raised by Kogan's app.

  <bullet> Review our platform. We are investigating all apps that had 
        access to large amounts of data before the platform changes we 
        announced in 2014, and we will audit any app where we identify 
        suspicious activity. If we identify misuses of data, we'll take 
        immediate action, including banning the app from our platform 
        and pursuing legal action if appropriate.

  <bullet> Tell people about data misuse. We will tell people about 
        apps that have misused their data.

  <bullet> Turn off access for unused apps. If someone has not used an 
        app within the last three months, we will turn off the app's 
        access to their data.

  <bullet> Restrict Facebook Login data. We are changing Login, so that 
        the only data that an app can request without app review will 
        include name, profile photo, and e-mail address. Requesting any 
        other data will require approval from Facebook. We will also no 
        longer allow apps to ask for access to information like 
        religious or political views, relationship status and details, 
        custom friends lists, education and work history, fitness 
        activity, book reading and music listening activity, news 
        reading, video watch activity, and games activity. We will 
        encourage people to manage the apps they use. We already show 
        people what apps their accounts are connected to and allow them 
        to control what data they've permitted those apps to use. But 
        we're making it easier for people to see what apps they use and 
        the information they have shared with those apps.

  <bullet> Reward people who find vulnerabilities. We launched the Data 
        Abuse Bounty program so that people can report to us any 
        misuses of data by app developers.

  <bullet> Update our policies. We have updated our terms and Data 
        Policy to explain in more detail how we use data and how data 
        is shared with app developers.

    Question 23. Please list all the companies or persons to whom 
Aleksandr Kogan sold Facebook data.
    Answer. Kogan represented that, in addition to providing data to 
his Prosociality and Well-Being Laboratory at the University of 
Cambridge for the purposes of research, GSR provided some Facebook data 
to SCL Elections Ltd., Eunoia Technologies, and the Toronto Laboratory 
for Social Neuroscience at the University of Toronto. However, the only 
party Kogan has claimed paid GSR was SCL. Our investigation is ongoing.

    Question 24. Please provide a detailed account of why Facebook did 
not detect that Mr. Kogan's user agreement included an agreement for 
resale, in violation of Facebook's polices?
    Answer. Facebook has developed an automated system for checking 
that all apps had terms of service and data policies. In performing 
such checks, however, Facebook does not examine the content of the 
developers' terms and policies because app developers act as 
independent third parties with regard to the data they obtain; they 
determine the purposes for which, and the manner in which, that data is 
processed. Our understanding is that this is consistent with the 
practices of other major online and mobile platforms, which generally 
enable developers on their platforms to provide access to the 
developers' terms and policies in their app stores, but do not 
proactively review the substance of those policies.
    Although developers act as independent third parties with regard to 
the data users share with them, all apps on the Facebook Platform must 
comply with our user data policies, Community Standards, Platform 
Policies, and Ad Guidelines. Our Platform policy also contains a number 
of enforcement provisions which apply after an app has been reviewed 
and approved. Facebook has several teams dedicated to detecting, 
escalating, investigating, and combating violations of its policies, 
including schemes to improperly access, collect, or exploit user data. 
The Developer Operations Policy Enforcement team looks for policy 
violations and either brings developers into compliance or removes them 
from the platform, and the Developer Operations Review team conducts an 
upfront review of apps to confirm proper use of advanced permissions.

    Question 25. What information exactly was received by Aleksandr 
Kogan? Private messages? Friends of friends' info?
    Answer. Approximately 300,000 Facebook users worldwide installed 
Kogan's app. For the majority of these users, the app requested consent 
to access the following data fields associated with the user and with 
the friends of the user: Public profile data, including name and 
gender; Birthdate; ``Current city'' in the ``About'' section of the 
user's profile, if provided; and Facebook Pages liked.
    For a small subset of users, it appears that the app also requested 
consent to access users' Facebook messages (fewer than 1,500 
individuals, based on current information) and to posts that appeared 
in the user's News Feed or Timeline (approximately 100 individuals, 
based on current information)--but only for users who installed the 
app. For a small subset of users (fewer than 1,500 individuals, based 
on current information), it appears that the app also requested consent 
to access the hometowns that the users' friends had specified in the 
``About'' section of their profiles. And for a handful of people (fewer 
than 10) who appear to be associated with Kogan/GSR, the app requested 
consent to e-mail address and photos.

    Question 26. Does Facebook have any evidence or reason to believe 
Cambridge Analytica, GSR, or Kogan, retained Facebook data after they 
certified they had deleted it?
    Answer. In March 2018, we learned from news reports that contrary 
to the certifications given, not all of the Kogan data may have been 
deleted by Cambridge Analytica. We have no direct evidence of this and 
no way to confirm this directly without accessing Cambridge Analytica's 
systems and conducting a forensic audit. We have held off on audits of 
Cambridge Analytica and other parties that are being investigated by 
the UK Information Commissioner's Office at its request. Our 
investigation is ongoing.

    Question 27. Are you currently engaged in any industry-wide 
conversations about setting best practices for disclosures of data 
collection and use, privacy policy settings, and/or proactively 
discovering privacy lapses? If not, why not? If so, will a public 
report be generated? If so, when?
    Answer. We regularly consult with a range of experts in our effort 
to deliver and improve the strong privacy protections that people who 
use Facebook expect. This includes regular consultation with privacy 
experts, academics, other companies, and industry groups. While we 
recognize that there is no one-size-fits-all approach to strong privacy 
protections, we believe that these ongoing discussions better enable us 
to design our services in a way that responds to the feedback we're 
receiving, as well as new research and best practices around privacy.

    Question 28. Please provide a detailed breakdown of the principles 
that will guide the development of artificial intelligence (AI) 
practices, the details about what those practices are, and how they'll 
help users.
    Answer. We are focused on both the technical and the ethical 
aspects of artificial intelligence. We believe these should go hand-in-
hand together in order to fulfill our commitment to being fair, 
transparent, and accountable in our development and use of AI. Facebook 
has AI teams working on developing the philosophical, as well as 
technical, foundations for this work. Facebook is also one of the co-
founders and members of the Partnership on AI (PAI), a collaborative 
and multi-stakeholder organization established to study and formulate 
best practices on AI technologies, to advance the public's 
understanding of AI, and to serve as an open platform for discussion 
and engagement about AI and its influences on people and society. The 
thematic pillars that structure the work we're doing in the scope of 
the PAI--safety, fairness, transparenc,y and accountability--are the 
principles that we believe industry should follow and promote when 
building and deploying AI systems. The PAI's Fair, Transparent and 
Accountable AI Working Group is also working alongside industry, 
academia and civil society to develop best practices around the 
development and fielding of fair, explainable, and accountable AI 
systems.

    a. Many are skeptical AI will be a cure-all for content issues. 
Facebook has also announced it will hire more content reviewers. Does 
Facebook have any other plans to deal with content review?
    Answer. We believe that over the long term, building AI tools is 
the scalable way to identify and root out most of this harmful content. 
We're investing a lot in building those tools. And we already use 
artificial intelligence to help us identify threats of real world harm 
from terrorists and others. For example, the use of AI and other 
automation to stop the spread of terrorist content is showing promise. 
Today, 99 percent of the ISIS and Al Qaeda related terror content we 
remove from Facebook is content we detect before anyone in our 
community has flagged it to us, and in some cases, before it goes live 
on the site. We do this primarily through the use of automated systems 
like photo and video matching and text-based machine learning. We also 
use AI to help find child exploitation images, hate speech, 
discriminatory ads, and other prohibited content. Moreover, in the last 
year, we have basically doubled the number of people doing security and 
content review. We will have more than 20,000 people working on 
security and content review by the end of this year.

    b. You have offered a ``bounty'' for information about improperly 
transferred user data. Are you concerned this bounty program may 
promote the hacking of third-party app developers? Could offering small 
bounties for finding hate speech, terrorism, etc. encourage more user 
reporting on the platform?
    Answer. The Data Abuse Bounty Program is carefully designed to help 
us lawfully obtain data necessary to review apps that are operating 
from malicious intent of their developers. The program does not reward 
reports that were a direct or indirect result of hacking of third-party 
app developers. We made this explicitly clear in the terms of the 
program. Following an investigation, we will reward a submission only 
if the report is genuine, based on direct and personal knowledge, and 
the information was obtained lawfully. To prevent abuse, we require the 
submission to be submitted in narrative form without any data appended. 
We will request data only if we need it and we are absolutely confident 
that the reporter obtained it and can share it lawfully.
    The Data Abuse Bounty will reward people with first-hand knowledge 
and proof of cases where a Facebook platform app collects and transfers 
people's data to another party to be sold, stolen or used for scams or 
political influence. We'll review all legitimate reports and respond as 
quickly as possible when we identify a credible threat to people's 
information. If we confirm data abuse, we will shut down the offending 
app and, if necessary, take legal action against the company selling or 
buying the data. We'll pay a bounty to the person who reported the 
issue, or allow them to donate their bounty to a charity, and we'll 
also alert those we believe to be affected. We also encourage our users 
to report to us content that they find concerning or that results in a 
bad experience, as well as other content that may violate our policies. 
We review these reports and take action on abuse, like removing content 
and disabling accounts.

    Question 29. Do you have a specific office that can respond to 
users' complaints and questions regarding privacy? If so, how is this 
office advertised? Could it be made more accessible to the public and 
or better equipped? If you have no such office, why not?
    Answer. Yes. In addition to the range of online educational 
resources that we provide through our website and mobile apps, we have 
staff responsible for responding to questions from people about 
privacy. We distribute the contact information for this team in a 
number of ways, including in the section of our Data Policy that begins 
with the heading, ``How to contact Facebook with questions.''

    Question 30. What assistance do Facebook employees embedded with 
advertising and political clients provide?
    Answer. Facebook representatives advise political advertisers on 
Facebook, as they would with other, non-political managed accounts. 
During the 2016 election cycle, for example, Facebook provided 
technical support and best practices guidance on optimizing their use 
of Facebook.

    a. Is there any way these embedded persons could bypass a security 
or privacy feature?

    b. Has Facebook investigated whether any Facebook personnel 
assisting the Obama campaign violated any Facebook policies?

    c. What protocols are in place to make sure these embedded persons 
cannot take any steps to bypass privacy or security controls on 
Facebook?
    Answer. Both the Obama and Romney campaigns had access to the same 
tools, and no campaign received any special treatment from Facebook. We 
continuously work to ensure that we comply with all applicable laws and 
policies.

    Question 31. You have received numerous questions about removing 
conservative content from Facebook. You have answered that these were 
enforcement errors.
    a. Have you undertaken any study to determine whether any specific 
forms of content have been more or less likely to be removed? If not, 
why not? If so, what are the results? Have you found that conservative 
content is more likely to be removed?

    b. What is the source of the enforcement errors? Are these 
individual people, AI algorithms, or something else?

    c. How are you addressing the source of any errors? E.g., training 
for individuals, changes to the AI algorithm?

    d. How do you notify persons whose content has been deleted of the 
deletion and the reasons for it?

    e. Do you disconnect friends with deleted content?

    f. Do you prevent information from reaching the feed of followers 
of persons who have previously had content deleted?

    g. How quickly are complaints about improper censoring addressed?

    h. How quickly are complaints about threats addressed?
    Answer. Suppressing political content or preventing people from 
seeing what matters most to them is directly contrary to Facebook's 
mission and our business objectives.
    We have engaged an outside advisor, former Senator Jon Kyl, to 
advise the company on potential bias against conservative voices. We 
believe this external feedback will help us improve over time and 
ensure we can most effectively serve our diverse community.
    We recently published a detailed set of Community Standards--which 
reflect our internal reviewer guidelines--to help people understand 
where we draw the line on complex and nuanced issues. Publishing these 
details will also make it easier for everyone to give us feedback so 
that we can improve the guidelines--and the decisions we make--over 
time. Our Community Standards, which are designed to encourage 
expression and create a safe environment on Facebook, outline what is 
and isn't allowed on the platform.
    When someone violates our Community Standards, we send them a 
notification. We are also introducing the right to appeal our decisions 
on individual posts so people can ask for a second opinion when they 
think we've made a mistake.

    Question 32. How do you as a company deal with a person whose 
content was wrongly deleted? Do you simply restore the content? Do you 
offer an apology? Do you make any form of recompense, or otherwise make 
clear to the user their speech is welcome on the platform?
    Answer. We recognize that our policies are only as good as the 
strength and accuracy of our enforcement--and our enforcement is not 
perfect. We make mistakes because our processes involve people, and 
people are not infallible. We are always working to improve.
    When we're made aware of incorrect content removals, we review them 
with team members so as to prevent similar mistakes in the future. On 
April 24, 2018, we announced the launch of appeals for content that was 
removed for hate speech. We recognize that we make enforcement errors 
on both sides of the equation--what to allow, and what to remove--and 
that our mistakes cause a great deal of concern for people, which is 
why we need to allow the option to request review of the decision and 
provide additional context that will help our team see the fuller 
picture as they review the post again. This type of feedback will allow 
us to continue improving our systems and processes so we can prevent 
similar mistakes in the future.
    We also audit the accuracy of reviewer decisions on an ongoing 
basis to coach them and follow up on improving where errors are being 
made.
    We hope that our recent decision to publicize our detailed 
Community Standards, reflecting our internal reviewer guidelines, and 
the introduction of appeals will aid in this process. By providing more 
clarity on what is and isn't allowed on Facebook, we hope that people 
will better understand how our policies apply to them. For some 
violation types, where people believe we have made a mistake, they can 
request review of our decisions, and we are working to extend this 
process further by supporting more violation types.

    Question 33. During the hearing, you testified that Facebook will 
soon, or does, employ 20,000 personnel to work exclusively on content 
moderation.
    a. How many personnel currently work on content moderation? How 
many new personnel must you hire to reach 20,000?

    b. Will all new personnel be directly employed by Facebook?

        i. If the answer to question b is no, what percentage of new 
        personnel will be employed directly by Facebook?

        ii.What percentage will be employed by a third party?

    c. For all new personnel, whether employed directly by Facebook or 
by a third party, how many will be American citizens?

        i. How many new personnel will be foreign nationals?

        ii. For all new personnel who are foreign nationals, what 
        worker visa programs--including but not limited to the H-1B and 
        TN visa programs--will Facebook or a third party use? Please 
        provide a list of every specific worker visa program Facebook 
        or a third party intends to use for employment purposes.

        iii. What steps will Facebook take to ensure that both the 
        spirt and the letter of the law governing any worker visa 
        program is complied with, both by Facebook itself and any third 
        party?

        iv. What additional measures will Facebook or any contracted 
        third party take to ensure that American workers are not 
        displaced by foreign workers?

        v. What additional measures will Facebook or any contracted 
        third party take to ensure that foreign workers are not paid a 
        lower wage than their American counterparts?

        vi. Will you commit that no American workers will lose their 
        job as a result of Facebook or a contracted third party 
        employing a foreign worker?

    Answer. Today, we have about 15,000 people working on security and 
content review across the company.
    Of that 15,000, more than 7,500 people review content around the 
world.

  <bullet> Our content review team is global and reviews reports in 
        over 50 languages.

  <bullet> Reports are reviewed 24 hours a day, 7 days a week and the 
        vast majority of reports are reviewed within 24 hours.

  <bullet> Our goal is always to have the right number of skilled 
        people with the right language capabilities to ensure incoming 
        reports are reviewed quickly and efficiently.

  <bullet> We hire people with native language and other specialist 
        skills according to the needs we see from incoming reports.

  <bullet> The team also includes specialists in areas like child 
        safety, hate speech and counter-terrorism, software engineers 
        to develop review systems, quality control managers, policy 
        specialists, legal specialists, and general reviewers.

    To provide 24/7 coverage across dozens of languages and time zones 
and ensure that Facebook is a place where both expression and personal 
safety are protected and respected, our content review team includes a 
combination of employees, contractors, and vendor partners based in 
locations around the world.
    Facebook endeavors to comply with all applicable immigration laws 
in the United States and the other countries where we operate.

    Question 34. What regulations would Facebook support?
    Answer. Facebook is generally not opposed to regulation but wants 
to ensure it is the right regulation. The issues facing the industry 
are complex, multi-faceted, and affect an important part of peoples' 
lives. As such, Facebook is absolutely committed to working with 
regulators, like Congress, to craft the right regulations. Facebook 
would be happy to review any proposed legislation and provide comments.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Orrin Hatch to 
                            Mark Zuckerberg
    Question 1. I understand that until just recently, Facebook split 
its privacy policy across 20 or more separate webpages, making it 
virtually impossible for a typical user to understand what information 
he or she was agreeing to allow Facebook to share. Why did you have in 
place such a convoluted privacy policy? Why not make the policy as 
clear, easy to understand, and accessible as possible?
    Answer. We've heard loud and clear that it's important to make 
privacy information and controls easy for people to find and use. We've 
made recent improvements to our privacy settings to centralize people's 
choices, and are providing access to people's key privacy choices 
through an updated Privacy Shortcuts feature.
    With regard to our Data Policy specifically, it has been available 
in a single webpage for many years. We recently updated our Data Policy 
in response to feedback that, among other things, we should provide 
more detailed explanations and improve the design of the policy. Like 
its predecessor, this policy is framed around short, easy-to-understand 
topics and questions, like ``What kinds of information do we collect'' 
and ``How can I manage or delete information about me.''
    In designing both our newly updated Data Policy and its 
predecessor, as well as our Privacy Basics educational center, we were 
mindful of guidance from the FTC and many other experts that recommend 
so-called ``layered'' privacy policies, which make it easy to find 
topics and high-level information but enable people to access more 
detailed information if they wish to do so.

    Question 2. I've been a bit perplexed by the way Facebook has come 
in for such criticism when so many other online platforms use a similar 
business model. I don't necessarily want to name names here, but 
Facebook is far from the only website that makes money by offering 
advertisers the ability to target ads to specific user groups. How does 
your business model differ from, say, Google's, or from other social 
media sites?
    Answer. Like many other free online services, we sell advertising 
space to third parties. Doing so enables us to offer our services to 
consumers for free. This is part of our mission to give people the 
power to build community and bring the world closer together.

    Question 3. Is Facebook unique in the way it collects user 
information and offers targeted advertising? How do your data practices 
differ from those of other websites?
    Answer. No. Countless online and offline companies sell and display 
advertising to support the costs of their services, and most engage in 
a variety of practices (targeting, contextual placement, list 
management) to deliver the most relevant and cost-effective advertising 
to people and businesses. Ad-based business models have long been a 
common way to enable companies to offer free services, even before the 
advent of the Internet when media like radio, television, and 
newspapers were ad-supported. Online advertising is particularly 
important for smaller and more niche publishers, as well as services--
like Facebook--whose mission is to provide access to everyone, 
regardless of their location or ability to pay for services.
    While we provide similar services to other websites--and to the 
third-party providers of online advertising services on which many 
websites rely--we are unique in the level of control we offer over how 
we use information to deliver ads. For example, we launched an About 
Facebook Ads page (www.facebook.com/ads/about) that explains how we use 
information to deliver Facebook ads. Every ad on Facebook comes with a 
``Why am I seeing this?'' tool that lets people learn why they are 
seeing that particular ad, and to control whether they would like to 
see similar ads in the future. And we have built a comprehensive Ad 
Preferences tool, which enables people to see interests that we use to 
decide what ads to show people, and the list of advertisers that are 
showing people ads on Facebook because of past interactions with the 
advertiser.
    Although these features exceed the transparency and control offered 
by many other companies, we've heard that we need to continue to invest 
in improvements in this area. That's why, among other things, we've 
announced plans to build Clear History, a new feature that will enable 
users to see the websites and apps that send us information when they 
use them, delete this information from their accounts, and turn off our 
ability to store it associated with their accounts going forward.

    Question 4. Does Facebook ever share user data with advertisers? If 
so, in what circumstances does Facebook share such data? Do advertisers 
ever learn the names of, or identifying information about, the 
individuals who receive their advertisements?
    Answer. We provide advertisers with reports about the kinds of 
people seeing their ads and how their ads are performing, but we don't 
share information that personally identifies people (information such 
as name or that by itself can be used to contact or identifies a 
person) unless we have permission from people. For example, we provide 
statistical demographic information to advertisers (for example, that 
an ad was seen by 2,436 women between the ages of 25 and 34 in 
Maryland) to help them better understand their audience. We also 
confirm which Facebook ads led people to make purchases or take an 
action with an advertiser.

    Question 5. How would limiting Facebook's ability to offer targeted 
advertising change your business model? How would it impact the 
services you offer to customers?
    Answer. To build a secure product with extensive infrastructure 
that connects people across continents and culture, we need to make 
sure everyone can afford it. To do this, we sell advertising, and we 
could not offer our service for free without selling advertising. 
Advertising lets us keep Facebook free, which ensures it remains 
affordable for everyone.
    Separately, our core service involves personalizing all content, 
features, and recommendations that people see on Facebook services. No 
two people have the same experience on Facebook or Instagram, and they 
come to our services because they expect everything they see to be 
relevant to them. If we were not able to personalize or select ads or 
other content based on relevance, this would fundamentally change the 
service we offer on Facebook--and it would no longer be Facebook.

    Question 6. In your written testimony, you discuss new efforts to 
verify advertisers who want to run political or issue ads on Facebook. 
It strikes me that this effort should apply to more than just political 
ads. For example, shouldn't you also put in place checks for 
advertisers that use your platform to illegally peddle prescription 
drugs? Which advertisers will need to be verified under your new 
policies? And how can we be sure that Facebook won't use these new 
policies to engage in viewpoint discrimination?
    Answer. Last October, we announced that we would require 
advertisers running electoral ads to verify their identities and 
locations. We also announced that we would require these ads to use a 
``paid for by'' label and that we would include them in a searchable 
archive. In April, we announced that we would extend these transparency 
measures to ``issue ads''--ads about national policy issues. We have 
worked with third parties like the Comparative Agendas Project to 
define an initial set of issues, and we will refine that list over 
time.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Dianne Feinstein to 
                            Mark Zuckerberg
Scraping of Public Profiles
    Question 1. Nearly 2.2 billion people who use Facebook \1\ have 
likely had their public profiles scraped by malicious actors, including 
by use of a search feature that allowed people to use telephone numbers 
and e-mail addresses to obtain user information and through the 
company's account recovery feature.
---------------------------------------------------------------------------
    \1\ Throughout these Questions, references to Facebook refer to 
Facebook as well as all other Facebook-owned platforms, products, 
applications, and subsidiaries. For example, this includes Instagram 
and WhatsApp.
---------------------------------------------------------------------------
    a. Why didn't Facebook take any action when it learned in 2013 \2\ 
that malicious actors could use its features to obtain personal 
information from users' profile pages?
---------------------------------------------------------------------------
    \2\ See, e.g., Matt Burgess, ``Facebook fixed a massive data 
scraping issue it said wasn't a problem,'' Wired UK (Apr. 5, 2018).

    b. Facebook has now disabled the search feature, but are there 
plans to replace it? If so, what has Facebook done to ensure that 
---------------------------------------------------------------------------
personal information cannot be obtained using this new search feature?

    c. What changes is Facebook making to the account recovery feature 
to reduce the risk that personal information will be accessible to 
malicious actors?

    d. What steps is Facebook taking to protect its 2.2 billion users 
whose information may have been scraped by malicious actors?

    e. What information is being provided to users?
    Answer. In April, we found out that a feature that lets users look 
someone up by their phone number and e-mail may have been misused by 
browsers looking up people's profiles in large volumes with phone 
numbers they already had. When we found out about the abuse, we shut 
this feature down. In the past, we have been aware of scraping as an 
industry issue, and have dealt with specific bad actors previously.
Third Parties
    Question 2. In 2014, Facebook updated its policies to reduce third 
party applications' access to user data. Facebook is now investigating 
applications that, as you described had access to ``a large amount of 
information,'' before this change.
    a. How is Facebook defining ``a large amount of information?''
    Answer. Our investigation is ongoing and as part of it we are 
taking a close look at applications that had access to friends data 
under Graph API v.1.0 before we made technical changes to our platform 
to change this access.

    b. How is Facebook determining what applications to include in this 
investigation?
    Answer. We are in the process of investigating every app that had 
access to a large amount of information before we changed our Platform 
in 2014. The investigation process is in full swing, and it has two 
phases. First, we are undertaking a comprehensive review to identify 
every app that had access to this amount of Facebook data and to focus 
on apps that present reason for deeper investigation. And second, where 
we have concerns, we will conduct interviews, make requests for 
information (RFI)--which ask a series of detailed questions about the 
app and the data it has access to--and perform audits using expert 
firms that may include on-site inspections. We have large teams of 
internal and external experts working hard to investigate these apps as 
quickly as possible. To date thousands of apps have been investigated 
and around 200 apps have been suspended--pending a thorough 
investigation into whether they did in fact misuse any data. Where we 
find evidence that these or other apps did misuse data, we will ban 
them and let people know.
    These apps relate to a handful of developers: Kogan, AIQ, Cube You, 
the Cambridge Psychometrics Center, and myPersonality, with many of the 
suspended apps being affiliated with the same entity. Many of these 
suspensions include apps that appear to be ``test'' apps that were 
never released to the public, and therefore would not have acquired 
significant user data, although our investigation into these apps is 
ongoing.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.

    c. When do you estimate this investigation will be complete?
    Answer. It's going to take many months to do this full process.

    d. Will Facebook make public the results of this investigation? If 
not, why not and will you notify Congress and provide the results when 
you are done?
    Answer. Where we find evidence that these or other apps did misuse 
data, we will ban them from the platform and tell people who used or 
may have had data shared with the app.

    e. How will Facebook notify people whose data was improperly used?
    Answer. See Response to Question (d).

    f. What is Facebook doing to monitor and investigate whether 
developers or others are taking and selling personal information?
    Answer. In general, on an ongoing basis, we proactively review all 
apps seeking access to more than basic information (and have rejected 
more than half of apps seeking such extended permissions). We also do a 
variety of manual and automated checks to ensure compliance with our 
policies and a positive experience for people. These include steps such 
as random checks of existing apps along with the regular and proactive 
monitoring of apps. We also respond to external or internal reports and 
investigate for potential app violations. When we find evidence of or 
receive allegations of violations, we investigate and, where 
appropriate, employ a number of measures, including restricting 
applications from our platform, preventing developers from building on 
our platform in the future, and taking legal action where appropriate.

    Question 3. Individuals who use Facebook assume a certain level of 
privacy. There may be an understanding that if something posted is 
``public'' that it's available broadly. However, the amount of data and 
personal information available through your platforms is enormous.
    a. What data about individuals, if any, does Facebook make 
available to businesses?
    Answer. Facebook does not sell people's information to anyone, and 
we never will. We also impose strict restrictions on how our partners 
can use and disclose the data we provide.
    Our Data Policy makes clear the circumstances in which we work with 
third parties who help us provide and improve our Products or who use 
Facebook Business Tools to grow their businesses, which makes it 
possible to operate our companies and provide free services to people 
around the world.
    When people choose to use third-party apps, websites, or other 
services that use, or are integrated with, our Products, they can 
receive information about what users post or share. For example, when 
users play a game with their Facebook friends or use a Facebook Comment 
or Share button on a website, the game developer or website can receive 
information about the users' activities in the game or receive a 
comment or link that users share from the website on Facebook. Also, 
when users download or use such third-party services, they can access 
users' public profile on Facebook, and any information that users share 
with them. Apps and websites that people use may receive their list of 
Facebook friends if they choose to share it with them. But apps and 
websites that people use will not be able to receive any other 
information about their Facebook friends from users, or information 
about any of the users' Instagram followers (although friends and 
followers may, of course, choose to share this information themselves). 
Information collected by these third-party services is subject to their 
own terms and policies.
    Devices and operating systems providing native versions of Facebook 
and Instagram (i.e., where we have not developed our own first-party 
apps) will have access to all information people choose to share with 
them, including information that friends share with users, so they can 
provide our core functionality to our users.

    b. Can businesses access users' e-mails, direct messages, buying 
history, or credit card information?
    Answer. See Response to Question 3, part a.

    c. Your privacy policies indicate Facebook collects the content of 
messages through your direct messenger applications and through private 
group postings. How is that information used? Is it shared with anyone?
    Answer. We use the information we collect for purposes specified in 
our Data Policy. These purposes include:

  <bullet> Providing, personalizing and improving our products;

  <bullet> Providing measurement, analytics and other business 
        services;

  <bullet> Promoting safety, integrity and security;

  <bullet> Communicating with our community;

  <bullet> Conducting research and innovating for social good.

    d. Does Facebook have the capacity to monitor how researchers or 
businesses use data they get from Facebook?
    Answer. We have a variety of controls in place to help ensure 
researchers and businesses comply with our policies.

    e. What does Facebook do, if anything, to ensure researchers and 
others comply with its use agreements?
    Answer. If we discover a researcher or business has misused 
people's information, we take appropriate action to address the issue. 
Such action may include suspending the business from Facebook or even 
banning it altogether.

    f. What limitations has Facebook placed on the personal information 
that application developers can request from Facebook users? How is 
this enforced?
    Answer. In April 2014, we announced that we would more tightly 
restrict our platform APIs to prevent abuse. At that time we made clear 
that existing apps would have a year to transition--at which point they 
would be forced (1) to migrate to the more restricted API and (2) be 
subject to Facebook's new review and approval protocols. A small number 
of developers asked for and were granted short-term extensions beyond 
the one-year transition period, the longest of which lasted several 
months. These extensions ended several years ago. A transition period 
of this kind is standard when platforms implement significant changes 
to their technology base and was necessary here to avoid disrupting the 
experience of millions of people. New apps that launched after April 
30, 2014 were required to use our more restrictive platform APIs.
    We are further restricting the data that an app can access without 
review to a person's name, profile photo, and e-mail address. We review 
to ensure that the requested permissions clearly improve the user 
experience and that the data obtained is tied to an experience within 
the app. We conduct a variety of manual and automated checks of 
applications on the platform for Policy compliance, as well as random 
sampling. When we find evidence of or receive allegations of 
violations, we investigate and, where appropriate, employ a number of 
measures, including restricting applications from our platform, 
preventing developers from building on our platform in the future, and 
taking legal action where appropriate.

    g. What limits has Facebook placed on how personal information can 
be used by third parties? Has Facebook prohibited uses beyond what is 
necessary to run third party applications?
    Answer. Developers can access Account Information in accordance 
with their privacy policies and other Facebook policies. All other data 
may not be transferred outside the Facebook app, except to service 
providers, who need that information to provide services to the 
Facebook app. With the exception of Account Information, developers may 
only maintain user data obtained from Facebook for as long as necessary 
for their business purpose. Developers may not use data obtained from 
Facebook to make decisions about eligibility, including whether to 
approve or reject an application or how much interest to charge on a 
loan. Developers must protect the information they receive from 
Facebook against unauthorized access, use, or disclosure. For example, 
developers may not use data obtained from Facebook to provide tools 
that are used for surveillance.
Cambridge Analytica
    Question 4. Facebook learned in 2015 that Cambridge Analytica had 
obtained Facebook user information without notice or consent.
    a. Why didn't Facebook notify users of this breach in 2015?

    b. What is Facebook's current policy for notifying users of privacy 
breaches?

    c. Why didn't Facebook suspend or ban Cambridge Analytica from its 
platforms until 2018?

    d. Why didn't Facebook audit Cambridge Analytica?

    e. What led Facebook to consider the matter ``closed'' without 
taking any of these steps?

    f. Have there been any reforms to Facebook's internal investigative 
policies based on this experience? (If so, please describe these 
changes.)

    g. Why didn't Facebook notify the Federal Trade Commission of this 
incident before press stories broke in March 2018?

    h. What will Facebook do to protect the 87 million people whose 
personal information remains in the hands of third parties? \3\
---------------------------------------------------------------------------
    \3\ See, e.g., Matthew Rosenberg et al., ``How Trump Consultants 
Exploited the Facebook Data of Millions,'' N.Y. Times (Mar. 17, 2018) 
(the New York Times viewed raw data from the profiles Cambridge 
Analytica obtained; copies of the data remain on Cambridge Analytica 
servers); Channel 4, ``Revealed: Cambridge Analytica data on thousands 
of Facebook users still not deleted,'' (Mar. 28, 2018) (Channel 4 News 
saw data on thousands of people in Colorado).
---------------------------------------------------------------------------
    Answer. When Facebook learned in December 2015 of allegations that 
Kogan may have violated Facebook's policies, we took immediate action. 
Facebook immediately banned Kogan's app from our developer platform and 
retained an outside firm to investigate what happened and what further 
action we should take to enforce our Platform Policies and protect 
people. This culminated in certifications from Kogan, and from 
Cambridge Analytica and others whom he certified he had shared some 
data with, certifying that they had deleted all data and any 
derivatives of the data. Because Kogan's app could no longer obtain 
access to most user data (or any friends data) in December 2015 due to 
changes in Facebook's platform, the most responsible step to protect 
users at the time was to work with Kogan, Cambridge Analytica, and 
others to obtain deletion of the data.
    Although our developer terms gave us the ability to audit Kogan's 
app, we did not have an agreement in place that would have allowed us 
to audit third parties that he may have shared data with. For this 
reason, we chose to require him to obtain certifications of deletion 
from each of these parties, leveraging our rights as to Kogan, who was 
the developer of the app.
    In March 2018, Facebook received information from the media that 
possible questions existed around the validity of deletion 
certifications that Facebook received. In response, Facebook 
immediately banned Cambridge Analytica and other potentially related 
parties from distributing advertising on Facebook or from using other 
aspects of our service. At that time, we requested an on-site audit of 
Cambridge Analytica, which it agreed to. The forensic auditor's work is 
currently on hold at the request of U.K. regulatory authorities, who 
themselves are investigating Cambridge Analytica, which is located in 
the U.K., and we are actively cooperating with the U.K. authorities to 
progress this analysis.
    It is important to clarify that Kogan's improper disclosure of 
Facebook data that users shared with him does not involve a data breach 
on Facebook's platform. There was no unauthorized access to Facebook 
data by Kogan, and instead, his app could only access Facebook data 
that users specifically consented to share with him. Even though 
Kogan's improper disclosure of data was not a breach of our systems, 
these actions violate our Platform policy--and we took extensive 
measures to try to mitigate any potential misuse of that data by 
downstream parties by pushing aggressively for deletion. And we are 
implementing an approach that goes beyond legal requirements and 
informs people any time we learn than an app developer shared data with 
a third-party in violation of our policies. This is consistent with the 
responsibility we believe we have with our users, even if the law does 
not require this.

    Question 5. Cambridge Analytica whistleblower Christopher Wylie 
told the U.K.'s House of Commons that senior employees at another data 
analytics firm were also working on the Facebook data obtained through 
Aleksandr Kogan's application.
    a. Did anyone besides Prof. Kogan and Cambridge Analytica have 
access to the data obtained by Prof. Kogan?

    b. Does any company have that data today?

    c. What steps are you taking to find out who had access to the data 
and how it was used?

    d. Is this data still being used? How can its ongoing use be 
prevented?
    Answer. On December 11, 2015, The Guardian published an article 
reporting that Kogan and his company, GSR, may have passed information 
the app had obtained from Facebook users to SCL Elections Ltd. (SCL)/
Cambridge Analytica. If this occurred, Kogan and his company violated 
Facebook's Platform Policies, which explicitly prohibited selling user 
data accessed from Facebook and from sharing any user data accessed 
from Facebook with any ad network, data broker or other advertising or 
monetization related service.
    For this reason, Facebook immediately banned the app from our 
platform and investigated what happened and what further action we 
should take to enforce our Platform Policies. Facebook also contacted 
Kogan/GSR and demanded that they explain what data they collected, how 
they used it, and to whom they disclosed it. Facebook further insisted 
that Kogan and GSR, as well as other persons or entities to whom they 
had disclosed any such data, account for and irretrievably delete all 
such data and information.
    Facebook also contacted Cambridge Analytica to investigate the 
allegations reflected in the reporting. On January 18, 2016, Cambridge 
Analytica provided written confirmation to Facebook that it had deleted 
the data received from Kogan and that its server did not have any 
backups of that data. On June 11, 2016, Kogan executed and provided to 
Facebook signed certifications of deletion on behalf of himself and 
GSR. The certifications also purported to identify all of the 
individuals and entities that had received data from GSR (in addition 
to Kogan and his lab), listing the following: SCL, Eunoia Technologies 
(a company founded by Christopher Wylie), and a researcher at the 
Toronto Laboratory for Social Neuroscience at the University of 
Toronto. On July 7, 2016, a representative of the University of Toronto 
certified that it deleted any user data or user-derived data. On August 
16, 2016, Eunoia (executed by Eunoia Founder Christopher Wylie) 
certified that it deleted any user and user-derived data. On September 
6, 2016, counsel for SCL informed counsel for Facebook that SCL had 
permanently deleted all Facebook data and derivative data received from 
GSR and that this data had not been transferred or sold to any other 
entity. On April 3, 2017, Alexander Nix, on behalf of SCL, certified to 
Facebook, that it deleted the information that it received from GSR or 
Kogan.
    Because all of these concerns relate to activity that took place 
off of Facebook and its systems, we have no way to confirm whether 
Cambridge Analytica may have Facebook data without conducting a 
forensic audit of its systems. Cambridge Analytica has agreed to submit 
to a forensic audit, but we have not commenced that yet due to a 
request from the UK Information Commissioner's Office, which is 
simultaneously investigating Cambridge Analytica (which is based in the 
UK). And even with an audit, it may not be possible to determine 
conclusively what data was shared with Cambridge Analytica or whether 
it retained data after the date it certified that data had been 
deleted.
    The existing evidence that we are able to access supports the 
conclusion that Kogan only provided SCL with data on Facebook users 
from the United States. While the accounts of Kogan and SCL conflict in 
some minor respects not relevant to this question, both have 
consistently maintained that Kogan never provided SCL with any data for 
Facebook users outside the United States. These consistent statements 
are supported by a publicly released contract between Kogan's company 
and SCL.

    Question 6. Cambridge Analytica's managing director was recorded 
explaining that the company pushes propaganda ``into the bloodstream of 
the internet, and then watch[es] it grow, give[s] it a little push 
every now and again . . . like a remote control.'' \4\
---------------------------------------------------------------------------
    \4\ Sonam Sheth, ``Cambridge Analytica began testing out pro-Trump 
slogans the same year Russia launched its influence operation targeting 
the 2016 election,'' Business Insider (Mar. 20, 2018).
---------------------------------------------------------------------------
    a. Has Facebook investigated what material Cambridge Analytica put 
on Facebook's platforms, how the material spread, and how Cambridge 
Analytica targeted people?

    b. If yes, please provide your findings to the Committee.

    c. If not, will Facebook conduct this investigation or allow 
researchers to do this, and to provide the findings to the Committee?
    Answer. Our investigation of Cambridge Analytica's advertising 
activities is ongoing, and we have banned Cambridge Analytica from 
purchasing ads on our platform. Cambridge Analytica generally utilized 
custom audiences, some of which were created from contact lists and 
other identifiers that it generated and uploaded to our system to 
identify the people it wanted to deliver ads to on Facebook, and in 
some instances, refined those audiences with additional targeting 
attributes.

    Question 7. Cambridge Analytica and the Kremlin-backed Internet 
Research Agency both improperly targeted Facebook users to influence 
the 2016 election.
    a. Has Facebook compared Cambridge Analytica's targeting of 
Facebook users in the United States during the 2016 presidential 
election cycle to targeting by the Internet Research Agency?

    b. If yes, please describe how Cambridge Analytica's targeting was 
both similar to and different from the Internet Research Agency's 
targeting.

    c. If not, will Facebook do this, and provide its findings to the 
Committee?
    Answer. The targeting for the IRA ads that we have identified and 
provided to the Senate Committee on the Judiciary and the Senate Select 
Committee on Intelligence was relatively rudimentary, targeting very 
broad locations and interests, and for example, only used custom 
audiences in a very small percentage of its overall targeting and did 
not use Contact List Custom Audiences. In addition, all of the custom 
audiences used by the IRA were created based on user engagement with 
certain IRA pages. By contrast, Cambridge Analytica used hundreds of 
Contact List Custom Audiences during the 2016 election cycle created 
from contact lists that Cambridge Analytica uploaded to our system, and 
Cambridge Analytica used those and other custom audiences in the 
majority of its ads targeting in combination with demographic targeting 
tools.
Foreign Actors
    Question 8. A new study found that more than half of the sponsors 
of Facebook ads that featured divisive political messages during the 
2016 election were from ``suspicious'' groups, and that one in six 
suspicious advertisers was linked to the Internet Research Agency.\5\
---------------------------------------------------------------------------
    \5\ Young Mie Kim et al., ``The Stealth Media? Groups and Targets 
behind Divisive Issue Campaigns on Facebook,'' Politcal Communication 
(forthcoming), available at https://journalism.wisc.edu/wp-content/
blogs.dir/41/files/2018/04/Kim.FB_.StealthMedia.Final_.PolCom
.0411181.pdf.
---------------------------------------------------------------------------
    a. Will you work with these researchers to determine whether any of 
the ``suspicious groups'' they identified, other than those associated 
with the Internet Research Agency, are also linked to Russia or other 
foreign government actors?

    b. If so, please also provide the findings to this Committee.

    c. If not, will you perform your own analysis of who bought 
divisive issue ads leading up to the 2016 election, including how many 
were attributable to the Internet Research Agency or other Russian-
backed accounts, and provide your findings to the Committee?
    Answer. Facebook has conducted a broad search for evidence that 
Russian actors, not limited to the IRA or any other specific entity or 
organization, attempted to interfere in the 2016 election by using 
Facebook's advertising tools. We found coordinated activity that we now 
attribute to the IRA, despite efforts by these accounts to mask the 
provenance of their activity. We have used the best tools and 
analytical techniques that are available to us to identify the full 
extent of this malicious activity, and we continue to monitor our 
platform for abuse and to share and receive information from others in 
our industry about these threats.
    We will continue to work with the government, and across the tech 
industry and civil society, to address this important national security 
matter so that we can do our part to prevent similar abuse from 
happening again. That's why we have provided all of the ads and 
associated information to the committees with longstanding, bipartisan 
investigations into Russian interference, and we defer to the 
committees to share as appropriate. We believe that Congress and law 
enforcement are best positioned to assess the nature and intent of 
these activities.

    Question 9. What is Facebook doing to limit foreign actors' ability 
to obtain and use personal information about American users?
    Answer. Protecting a global community of more than 2 billion 
involves a wide range of teams and functions, and our expectation is 
that those teams will grow across the board. For example, we have 
dedicated information security and related engineering teams.
    Protecting the security of information on Facebook is at the core 
of how we operate. Security is built into every Facebook product, and 
we have dedicated teams focused on each aspect of data security. From 
encryption protocols for data privacy to machine learning for threat 
detection, Facebook's network is protected by a combination of advanced 
automated systems and teams with expertise across a wide range of 
security fields. Our security protections are regularly evaluated and 
tested by our own internal security experts and independent third 
parties. For the past seven years, we have also run an open bug bounty 
program that encourages researchers from around the world to find and 
responsibly submit security issues to us so that we can fix them 
quickly and better protect the people who use our service.
    We anticipate continuing to grow these teams by hiring a range of 
experts, including people with specific types of threat intelligence 
expertise.
    This will never be a solved problem because we're up against 
determined, creative and well-funded adversaries. But we are making 
steady progress. Here is a list of the 10 most important changes we 
have made:

        1. Ads transparency. Advertising should be transparent: users 
        should be able to see all the ads an advertiser is currently 
        running on Facebook, Instagram, and Messenger. And for ads with 
        political content, we've created an archive that will hold ads 
        with political content for seven years--including information 
        about ad impressions and spend, as well as demographic data 
        such as age, gender and location. People in Canada and Ireland 
        can already see all the ads that a Page is running on 
        Facebook--and we're launching this globally in June.

        2. Verification and labeling. Every advertiser will now need 
        confirm their ID and location before being able to run any ads 
        with political content in the U.S. All ads with political 
        content will also clearly state who paid for them.

        3. Updating targeting. We want ads on Facebook to be safe and 
        civil. We thoroughly review the targeting criteria advertisers 
        can use to ensure they are consistent with our principles. As a 
        result, we removed nearly one-third of the targeting segments 
        used by the IRA. We continue to allow some criteria that people 
        may find controversial. But we do see businesses marketing 
        things like historical books, documentaries or television shows 
        using them in legitimate ways.

        4. Better technology. Over the past year, we've gotten 
        increasingly better at finding and disabling fake accounts. We 
        now block millions of fake accounts each day as people try to 
        create them--and before they've done any harm. This is thanks 
        to improvements in machine learning and artificial 
        intelligence, which can proactively identify suspicious 
        behavior at a scale that was not possible before--without 
        needing to look at the content itself.

        5. Action to tackle fake news. We are working hard to stop the 
        spread of false news. We work with third party fact checking 
        organizations to limit the spread of articles with rated false. 
        To reduce the spread of false news, we remove fake accounts and 
        disrupt economic incentives for traffickers of misinformation. 
        We also use various signals, including feedback from our 
        community, to identify potential false news. In countries where 
        we have partnerships with independent third-party fact-
        checkers, stories rated as false by those fact-checkers are 
        shown lower in News Feed. If Pages or domains repeatedly create 
        or share misinformation, we significantly reduce their 
        distribution and remove their advertising rights. We also want 
        to empower people to decide for themselves what to read, trust, 
        and share. We promote news literacy and work to inform people 
        with more context. For example, if third-party fact-checkers 
        write articles about a news story, we show them immediately 
        below the story in the Related Articles unit. We also notify 
        people and Page Admins if they try to share a story, or have 
        shared one in the past, that's been determined to be false. In 
        addition to our own efforts, we're learning from academics, 
        scaling our partnerships with third-party fact-checkers and 
        talking to other organizations about how we can work together.

        6. Significant investments in security. We're doubling the 
        number of people working on safety and security from 10,000 
        last year to over 20,000 this year. We expect these investments 
        to impact our profitability. But the safety of people using 
        Facebook needs to come before profit.

        7. Industry collaboration. Recently, we joined 34 global tech 
        and security companies in signing a TechAccord pact to help 
        improve security for everyone.

        8. Information sharing and reporting channels. In the 2017 
        German elections, we worked closely with the authorities there, 
        including the Federal Office for Information Security (BSI). 
        This gave them a dedicated reporting channel for security 
        issues related to the Federal elections.

        9. Tracking 40+ elections. In recent months, we've started to 
        deploy new tools and teams to proactively identify threats in 
        the run-up to specific elections. We first tested this effort 
        during the Alabama Senate election, and plan to continue these 
        efforts for elections around the globe, including the U.S. 
        midterms. Last year we used public service announcements to 
        help inform people about fake news in 21 separate countries, 
        including in advance of French, Kenyan and German elections.

        10. Action against the Russia-based IRA. In April, we removed 
        70 Facebook and 65 Instagram accounts--as well as 138 Facebook 
        Pages--controlled by the IRA primarily targeted either at 
        people living in Russia or Russian-speakers around the world 
        including from neighboring countries like Azerbaijan, 
        Uzbekistan, and Ukraine. The IRA has repeatedly used complex 
        networks of inauthentic accounts to deceive and manipulate 
        people in the U.S., Europe, and Russia--and we don't want them 
        on Facebook anywhere in the world.

    We are taking steps to enhance trust in the authenticity of 
activity on our platform, including increasing ads transparency, 
implementing a more robust ads review process, imposing tighter content 
restrictions, and exploring how to add additional authenticity 
safeguards.

    Question 10. Russian accounts continue to use social media to try 
to influence American opinion. For example, Fox News started a social 
media campaign to demand the declassification and release of the Nunes 
memo, which attacked the FBI's Russia investigation. Within hours, 
Russian bots were promoting the release of the memo.
    a. When this began did Facebook investigate whether Russians were 
using its platforms to promote the ``Release the Memo'' campaign?

    b. Has Facebook analyzed whether any of the accounts that users 
shared WikiLeaks' offer of $1 million for a copy of the Nunes memo 
(before it was declassified and released) had connections to Russian-
backed accounts?
    Answer. As of our February 7, 2018 letter to you on this issue, our 
internal Information Security team has not become aware of information 
or activity of a sort that would prompt further review. In addition to 
reaching out to law enforcement and our industry partners to understand 
whether they have any relevant information regarding this issue and 
Russian influence more generally, our Information Security team 
regularly conducts internal reviews to monitor for state-sponsored 
threats. While we do not publicly disclose the elements of these 
reviews for security reasons, factors include monitoring and assessing 
thousands of detailed account attributes, such as location information 
and connections to others on our platform. We are committed to keeping 
law enforcement apprised of our efforts and to working together to 
address this threat.

    Question 11. How many communications has Facebook had with 
individuals associated with any accounts that Facebook has identified 
as Internet Research Agency accounts?
    Answer. Last fall, we concluded that sharing the ads we've 
discovered with Congress, in a manner that is consistent with our 
obligations to protect user information, will help government 
authorities complete the vitally important work of assessing what 
happened in the 2016 election. That is an assessment that can be made 
only by investigators with access to classified intelligence and 
information from all relevant companies and industries--and we want to 
do our part. Congress is best placed to use the information we and 
others provide to inform the public comprehensively and completely. Our 
practice is to provide messages in response to valid legal process. The 
ads (along with the targeting information) are publicly available at 
https://democrats-intelligence.house.gov/facebook-ads/social-media-
advertisements
.htm.

    Question 12. On October 27, 2017, I asked you to provide to the 
Committee all communications between Facebook and individuals or 
entities associated with Russia-connected users that posted ads or 
organic content targeted to any part of the United States for the time 
period from January 2, 2015 to the date of production. You have not yet 
provided a substantive response to this request. Please provide these 
communications.
    Answer. See Response to Question 11.

    Question 13. Please provide all organic Instagram posts for 
Internet Research Agency accounts that targeted users in the United 
States.
    Answer. Facebook provided all of these posts to the Senate 
Judiciary Committee last fall on October 30 and 31.
Global Privacy Protections
    Question 14. You have said that Facebook would apply the European 
Union's new privacy requirements globally in spirit.
    a. Will the privacy requirements be incorporated into the terms of 
service that apply to users in the United States? If not, why not? If 
so, when will this change be made?

    b. It was recently reported that Facebook users outside of the 
United States and Canada had previously been governed by terms of 
service agreed with Facebook in Ireland.\6\ Facebook is apparently 
changing this so that non-European Union users will have their terms of 
service agreed with Facebook in the United States. This affects 1.5 
billion users. Does this mean that the European Union's new privacy 
requirements will not apply to these 1.5 billion users? If Facebook 
intends to provide the same privacy protections and controls to users 
globally, why did it make this change?
---------------------------------------------------------------------------
    \6\ Alex Hern, ``Facebook moves 1.5bn users out of reach of new 
European privacy law,'' The Guardian (Apr. 19, 2018).
---------------------------------------------------------------------------
    Answer. The change referred to in this question involves the legal 
entity with which Facebook users contract when they use the service, 
which changed in some jurisdictions as a part of the most recent 
updates to our Terms of Service and Data Policy. This change did not 
impact people who live in the United States, who contract with 
Facebook, Inc. under both our new and old policies.
    The substantive protections in our user agreements offered by 
Facebook Ireland and Facebook, Inc. are the same. However, there are 
certain aspects of our Facebook Ireland Data Policy that are specific 
to legal requirements in the GDPR--such as the requirement that we 
provide contact information for our EU Data Protection Officer (DPO) or 
that we identify the ``legal bases'' we use for processing data under 
the GDPR. Likewise, our Facebook Ireland terms and Data Policy address 
the lawful basis for transferring data outside the EU, based on legal 
instruments that are applicable only to the EU.
    In any case, the controls and settings that Facebook is enabling as 
part of GDPR are available to people around the world, including 
settings for controlling our use of face recognition on Facebook and 
for controlling our ability to use data we collect off Facebook Company 
Products to target ads. We recently began providing direct notice of 
these controls and our updated terms to people around the world 
(including in the U.S.), allowing people to choose whether or not to 
enable or disable these settings or to consent to our updated terms. We 
provide the same tools for access, rectification, erasure, data 
portability, and others to people in the U.S. and rest of world that we 
provide in Europe, and many of those tools (like our Download Your 
Information tool, ad preferences tool, and Activity Log) have been 
available globally for many years.
    We are also looking to be more responsive to regional norms and 
legal frameworks going forward, and want to have the flexibility to 
work with local regulators, which is possible with this new model. At 
the same time, we are changing the provisions in our Facebook, Inc. 
terms in our user agreements outside the United States to allow people 
in other countries to file lawsuits against Facebook in their home 
country, rather than in courts in the U.S. This transition was part of 
a continued effort to be locally responsive in countries where people 
use our services.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Patrick Leahy to 
                            Mark Zuckerberg
    Question 1. At the April 10, 2018 hearing, regarding Facebook's 
role in facilitating dangerous hate speech against Rohingya refugees 
from Myanmar, I asked: ``How can you dedicate, and will you dedicate, 
resources to make sure such hate speech is taken down within 24 
hours?''
    You replied, ``Yes. We're working on this.'' \7\ I appreciate your 
commitment, in the context of Myanmar, to dedicate resources to take 
down hate speech within 24 hours. As you know, hours can save lives.
---------------------------------------------------------------------------
    \7\ Transcript of April 10, 2018 hearing, at https://
www.washingtonpost.com/news/the-switch/
wp/2018/04/10/transcript-of-mark-zuckerbergs-senate-hearing/
?utm_term=.5789208de46b.
---------------------------------------------------------------------------
    a. When will Facebook be able to fully implement your commitment to 
a 24-hour review time for Myanmar?

        i. Will Facebook commit to providing relevant data so that 
        outside researchers can evaluate Facebook's performance metrics 
        on this matter?

    b. Will you extend this same commitment to dedicating the resources 
necessary to achieve a 24-hour review time for hate speech in all other 
regions of the world in which Facebook is active?
    Answer. Reports are reviewed 24 hours a day, 7 days a week, and the 
vast majority of reports are reviewed within 24 hours. Where there are 
credible threats of violence we aim to respond much faster, and have 
significantly reduced our response time in Myanmar.
    To support these efforts, we are investing in people, technology, 
and programs.
    Over the last two years, we have added dozens more Burmese language 
reviewers to handle reports from users across our services, and we plan 
to more than double the number of content reviewers focused on user 
reports. We also have increased the number of people across the company 
working on Myanmar-related issues and we have a special product team 
working to better understand the local challenges and build the right 
tools to help keep people in the country safe. We will continue to hire 
more staff dedicated to Myanmar, including Burmese speakers and policy 
experts.
    From a programmatic perspective, we will continue to work with 
experts to develop safety resources and counter-speech campaigns in 
these regions and conduct regular training for civil society and 
community groups on using our tools.

    Question 2. At the hearing, I showed you an example of a Facebook 
post targeting a Muslim journalist in Myanmar. Although comments to the 
incendiary post called for the death of this journalist, upon an 
initial review the post was deemed not to breach Facebook's Community 
Standards.
    a. Why was this post deemed not to breach Facebook's Community 
Standards?

    b. Please describe what processes and systems you have in place to 
proactively identify content that breaches Facebook's Community 
Standards.

    c. What emergency processes do you have in place for situations 
where there is content inciting people to violence, and that content 
has been reported by users and deemed not to breach your Community 
Standards?

    d. Please describe any additional processes that you intend to put 
in place to address this problem in the future.
    We are unable to respond without further information on these 
Pages.
    However, we can say that our Community Standards strictly prohibit 
credible threats of violence. We assess credibility based upon the 
information available to us and generally consider statements credible 
if the following are present:

  <bullet> A target (person, group of people, or place) and:

    <ctr-circle> Bounty/demand for payment, or

    <ctr-circle> Mention or image of specific weapon, or o Sales offer 
            or ask to purchase weapon, or o Spelled-out address or 
            named building, or

  <bullet> A target and two or more of the following details (can be 
        two of the same detail):

    <ctr-circle> Location

    <ctr-circle> Timing

    <ctr-circle> Method

    In evaluating content, context is extremely important. A post 
itself may be benign, but the comments associated with the post may 
amount to credible threats of violence. That's why people can report 
posts, Pages, and Groups to us, as well as individual comments.
    The other way we can identify and remove violating content from 
Facebook is by proactively finding it using technology. Advances in 
technology, including in artificial intelligence, machine learning, and 
computer vision, mean that we can now:

  <bullet> Remove bad content faster because we don't always have to 
        wait for it to be reported.

  <bullet> Get to more content because we don't have to wait for 
        someone else to find it.

  <bullet> Increase the capacity of our review team, which includes 
        more than 7,500 people around the world, to work on cases where 
        human expertise is needed to understand the context or nuance 
        of a particular situation.

    Question 3. At the hearing, you stated that Facebook is hiring 
``dozens more'' Burmese language content reviewers. There appear to be 
only three Burmese content reviewer vacancies currently listed on the 
Facebook careers page, all in Facebook's Dublin office.\8\
---------------------------------------------------------------------------
    \8\ See https://www.facebook.com/careers/.
---------------------------------------------------------------------------
    a. How many Myanmar (Burmese) content reviewers does Facebook 
currently have, and how many does Facebook expect to have on staff by 
the end of 2018? Please use Full Time Equivalent (FTE) numbers.

    b. How does Facebook staff its Burmese language content reviewers 
to ensure the capacity to promptly review content outside of normal 
Dublin working hours, including during daytime and on weekends in the 
Myanmar time zone? How many Burmese language content reviewers do you 
have based in Southeast Asia?

    c. Facebook reportedly has approximately 1,200 German language 
content reviewers, in part to help ensure that hate speech is removed 
within 24 hours. How are ``dozens'' of Burmese content reviewers going 
to be sufficient to remove all Burmese language hate speech within 24 
hours?
    Answer. To provide 24/7 coverage across dozens of languages and 
time zones and ensure that Facebook is a place where both expression 
and personal safety are protected and respected, our content review 
teams are made up of a combination of full-time employees, contractors, 
and vendor partners based in locations around the world.
    Our content review team has included Burmese language reviewers 
since 2013, and we have increased this number over time as we continue 
to grow and invest in Myanmar. Our goal is always to have the right 
number of people with the native language capabilities to ensure 
incoming reports are reviewed quickly and effectively.
    Reports are reviewed 24 hours a day, 7 days a week and the vast 
majority of reports are reviewed within 24 hours. Where there are 
credible threats of violence we aim to respond much faster, and have 
significantly reduced our response time in Myanmar.
    That said, there is more to tackling this problem than reported 
content. A lot of abuse may go unreported, which is why we are 
exploring the use of artificial intelligence to proactively identify 
this content so that we can find it and review it faster.

    Question 4. Facebook has long stated its desire to re-enter the 
market in China.\9\ As we have seen with other technology platforms, 
however, there is a cost to doing business in China, including 
potentially enabling the Chinese government's sophisticated censorship 
and surveillance regimes. I expressed these concerns to Apple in a 
letter with Senator Cruz last year.\10\
---------------------------------------------------------------------------
    \9\ See, e.g., Answers to Questions for the Record by Colin 
Stretch, submitted to the Subcommittee on Crime and Terrorism, Oct. 31, 
2017, at https://www.judiciary.senate.gov/
download/stretch-responses-to-questions-for-the-record.
    \10\ See https://www.cruz.senate.gov/files/documents/Letters/
20171017_tim_cook_letter.pdf.
---------------------------------------------------------------------------
    a. In order to operate in China, Internet companies must generally 
comply with Chinese laws and regulations on censorship.\11\ This 
includes a requirement to remove content relating to a list of vaguely-
defined prohibited topics such as ``disrupting social order and 
stability'' or ``damaging state honor and interests.'' \12\ Given the 
vagueness surrounding which precise words and terms are prohibited in 
China, how would Facebook decide what specific content to censor in 
China? And if a China-based user travels outside of China, will those 
censorship controls still apply to that user's account?
---------------------------------------------------------------------------
    \11\ ``China Has Launched Another Crackdown on the Internet--but 
it's Different This Time'', CNBC, Oct. 26, 2017, at https://
www.cnbc.com/2017/10/26/china-internet-censorship-new-
crackdowns-and-rules-are-here-to-stay.html. See also, ``Media 
Censorship in China,'' COUNCIL ON FOREIGN RELATIONS, at https://
www.cfr.org/backgrounder/media-censorship-china.
    \12\ See https://citizenlab.ca/2016/11/wechat-china-censorship-one-
app-two-systems/.
---------------------------------------------------------------------------
    Answer. Because Facebook has been blocked in China since 2009, we 
are not in a position to know exactly how the government would seek to 
apply its laws and regulations on content were we permitted to offer 
our service to Chinese users. Since 2013, Facebook has been a member of 
the Global Network Initiative (GNI), a multi-stakeholder digital rights 
initiative. As part of our membership, Facebook has committed to the 
freedom of expression and privacy standards set out in the GNI 
Principles--which are in turn based on the Universal Declaration of 
Human Rights and the United Nations Guiding Principles on Business and 
Human Rights--and we are independently assessed on our compliance with 
these standards on a biennial basis.

    b. According to The New York Times, Facebook developed ``software 
to suppress posts from appearing in people's news feeds in specific 
geographic areas,'' in order to ``help Facebook get into China.'' \13\ 
If true, then what procedures did such software assume would be used to 
identify specific content to censor, given the vagueness surrounding 
prohibited topics under Chinese law?
---------------------------------------------------------------------------
    \13\ ``Facebook Said to Create Censorship Tool to Get Back Into 
China,'' THE NEW YORK TIMES, Nov. 22, 2016, at https://www.nytimes.com/
2016/11/22/technology/facebook-censorship-tool-china.html.
---------------------------------------------------------------------------
    Answer. See Response to Question 4a.

    c. Under domestic Chinese law, peaceful acts of free expression may 
be considered illegal. For example, the Chinese government has 
described the late Nobel Peace laureate Liu Xiaobo as ``a criminal who 
has been sentenced by Chinese judicial departments for violating 
Chinese law.'' \14\ The case of Tashi Wangchuk indicates that simply 
promoting the Tibetan language can be deemed illegally ``inciting 
separatism.'' \15\ If Facebook re-enters the Chinese market, what would 
it do if Chinese authorities serve it with a legal demand, properly 
issued under domestic Chinese law, asking Facebook to turn over the 
account information of a peaceful political or religious dissident in 
China?
---------------------------------------------------------------------------
    \14\ ``Nobel Peace Prize Given to Jailed Chinese Dissident,'' THE 
NEW YORK TIMES, Oct. 8, 2010, at https://www.nytimes.com/2010/10/09/
world/09nobel.html?pagewanted=all.
    \15\ ``China to Try Tibetan Education Advocate Detained for 2 
Years,'' THE NEW YORK TIMES, Dec. 30, 2017, at https://www.nytimes.com/
2017/12/30/world/asia/tashi-wangchuck-trial-tibet.html.
---------------------------------------------------------------------------
    Answer. When something on Facebook or Instagram is reported to us 
as violating local law, but doesn't go against our Community Standards, 
we may restrict the content's availability only in the country where it 
is alleged to be illegal after careful legal review. We receive reports 
from governments and courts, as well from non-government entities such 
as members of the Facebook community and NGOs. Because Facebook has 
been blocked in China since 2009, we are not in a position to know 
exactly how the government would seek to apply its laws and regulations 
were we permitted to offer our service to Chinese users. Wherever we 
operate our service, Facebook is committed to meeting human rights' 
standards and to providing transparency around any government requests 
for data. This information is available here: https://
transparency.facebook.com/content-restrictions. Our Transparency Report 
contains data on restrictions we place on content that does not violate 
community standards but that is alleged to violate local law. We do not 
have any such reports for the United States.

    Question 5. On April 9, 2018, a group of Vietnamese activists and 
journalists wrote to you to ask whether Facebook was ``coordinating 
with a government known for cracking down on expression.'' \16\
---------------------------------------------------------------------------
    \16\ See http://viettan.org/en/open-letter-to-facebook/. See also, 
``Vietnam Activists Question Facebook on Suppressing Dissent,'' 
REUTERS, April 10, 2018, at https://www.reuters.com/
article/us-facebook-privacy-vietnam/vietnam-activists-question-
facebook-on-suppressing-dissent-idUSKBN1HH0DO.
---------------------------------------------------------------------------
    a. What safeguards does Facebook have in place to ensure that 
account suspension and content takedown are not abused by governments--
including in conjunction with state-sponsored ``trolls''--to silence 
legitimate criticism?
    Answer. As a GNI member, Facebook is committed to privacy and free 
expression principles and implementation guidelines regarding 
government requests. The GNI standards have been shaped by 
international human rights laws and norms and developed through a 
robust multi-stakeholder and consultative process.

    b. What more can and will Facebook do in this regard, including but 
not limited to providing more transparency and more accessible appeal 
mechanisms on takedown decisions?
    Answer. On April 24, 2018, we published the internal guidelines we 
use to enforce our Community Standards. We decided to publish these 
internal guidelines for two reasons. First, the guidelines will help 
people understand where we draw the line on nuanced issues. Second, 
providing these details makes it easier for everyone, including experts 
in different fields, to give us feedback so that we can improve the 
guidelines--and the decisions we make--over time.
    We know we need to do more. That's why, over the coming year, we 
are going to build out the ability for people to appeal our decisions. 
As a first step, we are launching appeals for posts that were removed 
for nudity/sexual activity, hate speech or graphic violence.
    Here's how it works:

  <bullet> If a user's photo, video, or post has been removed because 
        we found that it violates our Community Standards, they will be 
        notified, and given the option to request additional review.

  <bullet> This will lead to a review by our team (always by a person), 
        typically within 24 hours.

  <bullet> If we've made a mistake, we will notify the user and their 
        post, photo or video will be restored.

    We are working to extend this process further, by supporting review 
of more violation types, giving people the opportunity to provide more 
context that could help us make the right decision, and making appeals 
available not just for content that was taken down, but also for 
content that was reported and left up. We believe giving people a voice 
in the process is another essential component of building a fair 
system.

    Question 6. Like so many other companies, Facebook has made 
promises before to do better on privacy, including in its consent 
decree with the FTC. But the American people want accountability, not 
promises. That is why I introduced my Consumer Privacy Protection Act, 
which would create standards and require prompt notification when a 
breach occurs. It is important to note that we only know about the 
Cambridge Analytica breach because of a whistleblower.
    a. Facebook did not notify the 87 million users when it learned of 
this breach in 2015, but you are doing so now. You have now said that 
Facebook's failure to notify 87 million users that their information 
had been compromised in the Cambridge Analytica breach was a 
``mistake.'' Would you support legislation requiring prompt 
notification of data breaches (with appropriate temporary exceptions 
for ongoing investigations, law enforcement, and national security)?

    b. Why did Facebook not verify that Cambridge Analytica actually 
deleted the data--especially in 2016 when it was known they were 
working for the Trump campaign?
    Answer. Facebook is generally open to the idea of breach 
notification requirements, particularly legislation that would 
centralize reporting and ensure a consistent approach across the United 
States. For example, in Europe, the GDPR requires notification to a 
lead supervisory authority, rather than individual member states, in 
cases of a data breach. In the United States, however, there is no 
centralized notification scheme, and instead, reporting obligations 
vary widely across all 50 states. This complexity makes it harder to 
respond appropriately and swiftly to protect people in the event of a 
data breach. We believe this is an important issue and an area that is 
ripe for thoughtful regulation.
    When Facebook learned about Kogan's breach of Facebook's data use 
policies in December 2015, it took immediate action. The company 
retained an outside firm to assist in investigating Kogan's actions, to 
demand that Kogan and each party he had shared data with delete the 
data and any derivatives of the data, and to obtain certifications that 
they had done so. Because Kogan's app could no longer obtain access to 
most categories of data due to changes in Facebook's platform, the 
company's highest priority at that time was ensuring deletion of the 
data that Kogan may have accessed before these changes took place. With 
the benefit of hindsight, we wish we had notified people whose 
information may have been impacted. Facebook has since notified all 
people potentially impacted with a detailed notice at the top of their 
News Feed.

    Question 7. In a recent interview, Dr. Aleksandr Kogan described an 
extensive relationship with Facebook, stating that ``I visited their 
campus many times. They had hired my students. I even did a consulting 
project with Facebook in November of 2015.'' According to 60 Minutes, 
Facebook confirmed that Kogan had done research and consulting with the 
company in 2013 and 2015.\17\ Please detail Facebook's relationship 
with Dr. Kogan, including any consulting and research he did for the 
company. Please describe what, if any, access to user data Dr. Kogan 
and his company was provided as part of this consulting agreement.
---------------------------------------------------------------------------
    \17\ See https://www.cbsnews.com/news/aleksandr-kogan-the-link-
between-cambridge-analytica
-and-facebook/.
---------------------------------------------------------------------------
    Answer. Facebook was put in touch with Kogan (a researcher at the 
University of Cambridge) in late 2012, about a possible collaboration 
on research relating to the potential relationship between Facebook 
friendship ties and economic trade volumes between countries. Kogan 
collaborated with current and former Facebook employees on 
approximately ten academic papers. As part of these collaborations, 
Kogan could only access fully anonymized, aggregated data. Facebook 
frequently partners with leading academic researchers to address topics 
pertaining to wellbeing, innovation, and other topics of public 
importance, following strict protocols to ensure personal information 
is safeguarded.
    In October 2015, Facebook retained Kogan on a short-term contract 
to consult on a research project related to predicting survey outcomes.

    Question 8. In 2010, media reports revealed that that an online 
tracking company, RapLeaf, was collecting and reselling data it had 
obtained from third-party Facebook apps. Facebook subsequently 
reportedly cut off RapLeaf's data access and took steps to limit apps' 
sharing of data with the company.\18\
---------------------------------------------------------------------------
    \18\ See, e.g., http://www.adweek.com/digital/facebook-shuts-down-
apps-that-sold-user-data-ba
ns-rapleaf/ and https://www.wsj.com/articles/
SB10001424052702304772804575558484075236
968.
---------------------------------------------------------------------------
    a. Please describe what steps, if any, Facebook took to require 
RapLeaf to delete the Facebook user data it had obtained, and the 
subsequent steps Facebook took to ensure that the information was in 
fact deleted. If Facebook did not act to ensure that RapLeaf deleted 
this data, please describe why.

    b. Please describe what steps, if any, Facebook took with respect 
to any third party apps that had sold or shared Facebook user data with 
RapLeaf.
    Answer. Facebook disabled all RapLeaf domains and instituted six-
month moratoriums on access to Facebook distribution channels for the 
developers who shared data. RapLeaf agreed to delete all Facebook IDs 
in its possession, immediately terminate all agreements with Facebook 
developers, and no longer conduct any activity on the Facebook 
platform, whether directly or indirectly. Facebook updated its terms of 
service to explicitly prohibit developers from interacting with any 
data brokers.

    Question 9. At the hearing, you stated ``every single time they 
choose to share something, there [on Facebook]--they have a control 
right there about who they want to share it with.'' \19\ If a user sets 
these privacy controls to limit their information to a specific 
audience (e.g. their ``friends''), should that user expect that no 
other parties--including Facebook's advertising algorithms--will be 
able to view or use that information? Should this expectation extend to 
the trail of information that the user generates by interacting with 
the service (e.g., ``likes'' and other reactions, IP logins, 
geolocation, and operating system usage)?
---------------------------------------------------------------------------
    \19\ Transcript of April 10, 2018 hearing, at https://
www.washingtonpost.com/news/the-switch/wp/2018/04/10/transcript-of-
mark-zuckerbergs-senate-hearing/?utm_term=.5789208de46b.
---------------------------------------------------------------------------
    Answer. Our goal is to show people information on Facebook that's 
relevant and useful to them. To do this, we personalize people's news 
feeds and other information, including ads, that we show them based on 
the information that they've added to their Facebook accounts, like the 
things they like or comment on.
    People can control how this works through their News Feed Settings 
and Ad Preferences, and they can also choose who can see the 
information that they choose to share on Facebook. With regard to 
advertisers specifically, though, we do not tell advertisers who people 
are or sell their information to anyone. We think relevant advertising 
and privacy aren't in conflict, and we're committed to doing both well.

    Question 10. Beyond information provided directly in response to 
valid legal process in individual criminal matters, does Facebook 
provide any information about users to, or cooperate in any way with, 
Federal, State, or local agencies or authorities--or companies working 
on their behalf--in a way that would allow for user profiling and/or 
predictive analytics?
    Answer. Facebook is not familiar with government agencies' 
practices regarding profiling and/or predictive analytics and therefore 
cannot speculate what would ``allow for'' such agencies to use such 
techniques. Facebook discloses account records to Federal, State, or 
local agencies and authorities only in accordance with our terms of 
service and applicable law. Additionally, we prohibit developers from 
using data obtained from us to provide tools that are used for 
surveillance.

    Question 11. One critique of social media in general is that the 
most sensational or provocative material often tends to spread the 
fastest, due to algorithms that prioritize ``engagement.'' This can 
contribute to a deepening polarization of society. What is Facebook 
doing with regards to its algorithms, if anything, to address this 
problem? And what role to you see for outside auditing, verification, 
or checks of these solutions, given the impact on society?
    Answer. Facebook is a distribution platform that reflects the 
conversations, including polarized ones, already taking place in 
society. We are keenly aware of the concern that our platform is 
contributing to polarization, and we have been working to understand 
the role that we play in discourse and information diversity. The data 
on what causes polarization and ``filter bubbles'' is mixed. Some 
independent research has shown that social media platforms provide more 
information diversity than traditional media, and our own research 
indicates that most people on Facebook have at least some friends who 
claim an opposing political ideology--probably because Facebook helps 
people to maintain ties with people who are more distantly connected to 
them than their core community--and that the content in News Feed 
reflects that added diversity.
    We want Facebook to be a place where people can discover more news, 
information, and perspectives, and we are working to build products 
that help to that. Through our News Feed algorithm, we also work hard 
to actively reduce the distribution of clickbait, sensationalism, and 
misinformation, on the one hand, and to boost news and information from 
sources that are trusted, informative, and local, on the other hand.

    Question 12. Some people have claimed that what Cambridge Analytica 
did was no different than the Obama campaign's data-driven campaign in 
2012.
    a. Yes or no, did the Obama campaign in 2012 violate any of 
Facebook's policies, and thereby get banned from the platform?
    Answer. Both the Obama and Romney campaigns had access to the same 
tools, and no campaign received any special treatment from Facebook.

    b. Yes or no, did Cambridge Analytica violate multiple policies--
including misleading users and Facebook, and improperly exploiting user 
data--and thereby get banned from your platform?
    Answer. By passing information on to a third party, including SCL/
Cambridge Analytica and Christopher Wylie of Eunoia Technologies, Kogan 
violated our platform policies. When we learned of this violation in 
2015, we removed his app from Facebook and demanded certifications from 
Kogan and all parties he had given data to that the information had 
been destroyed. Cambridge Analytica, Kogan, and Wylie all certified to 
us that they destroyed the data. In March 2018, we received reports 
that, contrary to the certifications we were given, not all data was 
deleted. We are moving aggressively to determine the accuracy of these 
claims. If true, this is another unacceptable violation of trust and 
the commitments they made. We have suspended SCL/Cambridge Analytica, 
Wylie, and Kogan from Facebook, pending further information.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Richard Durbin to 
                            Mark Zuckerberg
    For questions with subparts, please answer each subpart separately.
    Question 1. Mr. Zuckerberg, at your hearing I asked whether it is 
fair for users of Facebook to expect to know what information Facebook 
is collecting on them, who Facebook is sending the information to, and 
whether Facebook asked the user in advance for permission to do that. 
You answered ``yes'' and said ``I think everyone should have control 
over how their information is used.''
    a. In order for users to know what information Facebook is 
collecting on them, will Facebook commit to proactively notifying each 
Facebook user via e-mail on at least an annual basis that the user can 
securely view all information that Facebook has collected on that user 
during the previous year and providing the user with instructions for 
how to do so?
    Answer. Our Download Your Information or ``DYI'' tool is Facebook's 
data portability tool and was launched many years ago to let people 
access and download many types of information that we maintain about 
them. The data in DYI and in our Ads Preferences tool contain each of 
the interest categories that are used to show people ads, along with 
information about the advertisers are currently running ads based on 
their use of an advertiser's website or app. People also can choose not 
to see ads from those advertisers. We recently announced expansions to 
Download Your Information, which, among other things, will make it 
easier for people to see their data, delete it, and easily download and 
export it. More information is available at https://newsroom.fb.com/
news/2018/04/new-privacy-protections.
    Responding to feedback that we should do more to provide 
information about websites and apps that send us information when 
people use them, we also announced plans to build Clear History. This 
new feature will enable users to see the websites and apps that send us 
information when they use them, delete this information from their 
account, and turn off Facebook's ability to store it associated with 
their account going forward.
    We have also introduced Access Your Information. This feature 
provides a new way for people to access and manage their information. 
Users can go here to delete anything from their timeline or profile 
that they no longer want on Facebook. They can also see their ad 
interests, as well as information about ads they've clicked on and 
advertisers who have provided us with information about them that 
influence the ads they see. From here, they can go to their ad settings 
to manage how this data is used to show them ads.

    b. Will Facebook commit to proactively notifying each Facebook user 
via e-mail on at least an annual basis that the user can securely view 
a list of all entities to which Facebook has sent any of the user's 
information during the previous year and providing the user with 
instructions on how to do so?
    Answer. Facebook allows people to view, manage, and remove the apps 
that they have logged into with Facebook through the App Dashboard. We 
recently prompted everyone to review their App Dashboard as a part of a 
Privacy Checkup, and we also provided an educational notice on Facebook 
to encourage people to review their settings. More information about 
how users can manage their app settings is available at https://
www.facebook.com/help/218345114850283?helpref=about_content.
    The categories of information that an app can access are clearly 
disclosed before the user consents to use an app on the Facebook 
Platform. Users can view and edit the categories of information that 
apps they have used have access to through the App Dashboard.

    Question 2. At your hearing, I pointed out that information is 
collected on users by Facebook and ``sometimes, people have made money 
off of sharing that information'' without the users' knowledge or 
advance consent. You responded by saying you would provide information 
about Facebook's developer platform, and I asked if you could provide 
that information for the record because of limited time. Please provide 
this information for the record.
    Answer. In 2007, there was industry-wide interest in enriching and 
expanding users' experiences on various platforms by allowing them to 
take their data (from a device or service) to third-party developers to 
receive new experiences. For example, around that time, Apple and 
Google respectively launched their iOS and Android platforms, which 
were quickly followed by platform technologies and APIs that allowed 
developers to develop applications for those two platforms and 
distribute them to users through a variety of channels. Similarly, in 
2007, Facebook launched a set of platform technologies that allowed 
third parties to build applications that could run on and integrate 
with the Facebook service and that could be installed by Facebook users 
who chose to do so. In December 2009, Facebook launched new privacy 
controls that enabled users to control which of the types of 
information that they made available to their friends could be accessed 
by apps used by those friends.
    As with all of these platforms, the permissions model that governed 
the information that third-party applications could access from the 
Platform evolved. For example, in April 2010, Facebook launched 
granular data permissions (GDP), which allowed users to examine a list 
of categories of information that an app sought permission to access 
before they authorized the app.
    Throughout the relevant period and through today, Facebook's 
policies regarding third-party usage of its platform technologies have 
prohibited--and continue to prohibit--those third-party app developers 
from selling or licensing user data obtained from Facebook or from 
sharing any user data obtained from Facebook with any ad network, data 
broker or other advertising or monetization-related service.
    In November 2013, when Kogan launched the app, apps generally could 
be launched on the Platform without affirmative review or approval by 
Facebook. The app used the Facebook Login service, which allowed users 
to utilize their Facebook credentials to authenticate themselves to 
third-party services. Facebook Login and Facebook's Graph API also 
allowed the app to request permission from its users to bring their 
Facebook data (their own data and data shared with them by their 
friends) to the app, to obtain new experiences.
    At that time, the Graph API V1 allowed app developers to request 
consent to access information from the installing user such as name, 
gender, birthdate, location (i.e., current city or hometown), photos 
and Page likes--and also (depending on, and in accordance with, each 
friend's own privacy settings) the same or similar categories of 
information the user's friends had shared with the installing user. 
Permitting users to share data made available to them by their friends 
had the upside of making the experience of app users more personalized 
and social. For example, a Facebook user might want to use a music app 
that allowed the user to (1) see what his or her friends were listening 
to and (2) give the app permission to access the user's friend list and 
thereby know which of the user's friends were also using the app. Such 
access to information about an app user's friends required not only the 
consent of the app user, but also required that the friends whose data 
would be accessed have their own privacy settings set to permit such 
access by third-party apps. In other words, Kogan's app could have 
accessed a user's friends' information only for friends whose privacy 
settings permitted such sharing.
    In April 2014, we announced that we would more tightly restrict our 
platform APIs to prevent abuse. At that time we made clear that 
existing apps would have a year to transition--at which point they 
would be forced (1) to migrate to the more restricted API and (2) be 
subject to Facebook's new review and approval protocols. A small number 
of developers asked for and were granted short-term extensions beyond 
the one-year transition period, the longest of which lasted several 
months. These extensions ended several years ago. A transition period 
of this kind is standard when platforms implement significant changes 
to their technology base and was necessary here to avoid disrupting the 
experience of millions of people. New apps that launched after April 
30, 2014 were required to use our more restrictive platform APIs, which 
incorporated several key new elements, including:

  <bullet> Institution of a review and approval process, called App 
        Review (also called Login Review), for any app seeking to 
        operate on the new platform that would request access to data 
        beyond the user's own public profile, e-mail address, and a 
        list of friends of the user who had installed and authorized 
        the same app;

  <bullet> Generally preventing new apps on the new platform from 
        accessing friends data without review; and

  <bullet> Providing users with even more granular controls over their 
        permissions as to what categories of their data an app 
        operating on the new platform could access.

    Our investigation is ongoing and as part of it we are taking a 
close look at applications that had access to friends data under Graph 
API v.1.0 before we made technical changes to our platform to change 
this access.
    The App Review process introduced in 2014 required developers who 
create an app that asks for more than certain basic user information to 
justify the data they are looking to collect and how they are going to 
use it. Facebook then reviewed whether the developer has a legitimate 
need for the data in light of how the app functions. Only if approved 
following such review can the app ask for a user's permission to get 
their data. Facebook has rejected more than half of the apps submitted 
for App Review between April 2014 and April 2018, including Kogan's 
second app. We are changing Login so that the only data that an app can 
request without app review will include name, profile photo, and e-mail 
address.

    Question 3. At your hearing I asked you about Messenger Kids and 
asked ``what guarantees can you give us that no data from Messenger 
Kids is or will be collected or shared'' in ways that might violate the 
Children's Online Privacy Protection Act. You said ``in general, that 
data is not going to be shared with third parties.'' I noted that your 
use of the qualifier ``in general'' ``seems to suggest that in some 
circumstances it will be shared with third parties'' You responded 
``no, it will not.''
    a. Please describe any information collected via Messenger Kids 
that is shared by Facebook with any third party.
    Answer. We have no plans to include advertising in Messenger Kids. 
Moreover, there are no in-app purchases, and we do not use the data in 
Messenger Kids to advertise to children or their parents. In developing 
the app we assembled a committee of advisors, including experts in 
child development, online safety, and media and children's health, and 
we continue to work with them on an ongoing basis. In addition, we 
conducted roundtables with parents from around the country to ensure we 
were addressing their concerns and built the controls they need and 
want in the app. We are committed to approaching all efforts related to 
children 12 and under thoughtfully, and with the guidance and input of 
experts and parents.

    b. Please confirm for the record that no data collected from 
Messenger Kids is, or will be, shared with third parties in violation 
of COPPA.
    Answer. See Response to Question 3a.

    Question 4. At your hearing, I asked ``would you be open to the 
idea that someone having reached adult age having grown up with 
Messenger Kids be allowed to delete the data you have collected?'' You 
said ``Senator, yes . . . I think it is a good idea to consider making 
sure that all that information is deleted.''
    a. Will you commit to allow children, when they reach adulthood, to 
request that any information gathered about them by Facebook while they 
were under age 13 be deleted and will you commit that Facebook will 
comply with such requests?

    b. Do you support giving American Internet users the ability to 
request the deletion of any and all information collected as a result 
of a user's online activities prior to age 13, and to require companies 
to delete such information when an individual has requested it?

    c. Do you think children would benefit from the ability to wipe 
clean the information that has been gathered and collected on them 
through their online activities before age 13?

    d. Do children deserve the chance to grow up and learn how to 
responsibly use the Internet prior to age 13 without having their 
childhood Internet data preserved in perpetuity by for-profit 
companies?
    Answer. Under our Messenger Kids Privacy Policy, available at 
https://www.facebook.com/legal/messengerkids/privacypolicy, Parents can 
control their children's accounts. Through the Parent Dashboard in 
their Facebook (or Messenger) account, a parent or guardian can review 
and edit their child's Messenger Kids profile information, and remove 
contacts to prevent further communication with their child on Messenger 
Kids. In addition, a parent or guardian who has authorized the 
Messenger Kids app can see their child's interactions on Messenger Kids 
by accessing their child's account. In order to stop further collection 
and use of their child's personal information on Messenger Kids, a 
parent or guardian can delete their child's Messenger Kids account. If 
a parent deletes their child's account, Facebook deletes their 
Messenger Kids registration information, information about their 
activity and contacts, and device information, as described above. 
However, the messages and content a child sent to and received from 
others before their account was deleted may remain visible to those 
users.

    Question 5. What do you think is the maximum amount of time per day 
that a child under age 13 should spend using Internet social media?
    Answer. We are committed to working with parents and families, as 
well as experts in child development, online safety and children's 
health and media, to ensure we are building better products for 
families--that means building tools that promote meaningful 
interactions and help people manage their time on our platform and it 
means giving parents the information, resources and tools they need to 
set parameters for their children's use of online technologies and help 
them develop healthy and safe online habits. It also means continued 
research in this area.
    Indeed, Messenger Kids, the only product we offer to children under 
the age of 13, includes Sleep Mode, which gives parents the ability to 
set parameters on when the app can be used, and the app does not have 
ads or in app purchases. In building the app, we worked closely with 
leading child development experts, educators, and parents to inform our 
decisions and we continue to work with them on an ongoing basis. Our 
advisors included experts in the fields of child development, online 
safety and children's media currently and formerly from organizations 
such as the Yale Center for Emotional Intelligence (http://ei.yale.edu/
who-we-are/mission/), Connect Safely (http://www.connectsafely.org/
about-us/), Center on Media and Child Health (http://cmch.tv/), Sesame 
Workshop (http://www.huffingtonpost.com/author/dr-lewis-bernstein) and 
more.
    We also have a Parents Portal (https://www.facebook.com/safety/
parents) and Youth Portal (https://www.facebook.com/safety/youth), 
which are both focused on fostering conversations around online safety, 
security, and well-being and giving parents and young people access to 
the information and resources they need to make informed decisions 
about their use of online technologies.

    Question 6. Does Facebook agree that states have a strong interest 
in protecting the privacy of their residents?
    Answer. We believe strongly in providing meaningful privacy 
protections to people. This is why we work hard to communicate with 
people about privacy and build controls that make it easier for people 
to control their information on Facebook. For example, Facebook has 
redesigned its settings menu to make things easier to find and 
introduced new Privacy Shortcuts. These shortcuts allow users to make 
their account more secure, control their personal information, control 
which ads they see, and control who sees their posts and profile 
information. Facebook has also introduced additional tools to find, 
download, and delete user data.
    We've worked with regulators, legislators, and privacy experts, at 
both the state and national levels to educate people and businesses 
about privacy. We believe an important component of any privacy 
regulation is clear and consistent oversight and enforcement. We intend 
to continue this collaborative work to promote privacy protections for 
our community.

    Question 7. Does Facebook think companies should have to get 
Americans' consent before scanning and storing their biometric data?
    Answer. Facebook uses facial recognition technology to provide 
people with products and features that enhance online experiences for 
Facebook users while giving them control over this technology. 
Facebook's facial recognition technology helps people tag their friends 
in photos; gives people an easier and faster way to privately share 
their photos with friends; helps people with visual impairments by 
generating descriptions of photos that people using screen readers can 
hear as they browse Facebook; lets people know when a photo or video of 
them has been uploaded to Facebook, even if they are not tagged; and 
helps prevent people from impersonating other Facebook users.
    Facial recognition technology uses machine-learning algorithms to 
analyze the pixels in photos and videos in which a user is tagged, and 
the photo used by the person as his or her profile picture, and 
generates a unique number called a template. When a photo or video is 
uploaded to Facebook, Facebook uses the template to attempt to identify 
someone by determining whether there are any faces in that content, and 
analyzing the portion of the image in which the face appears to compare 
it against certain Facebook users depending on the purpose for which 
facial recognition is being performed.
    Facebook has not shared and does not have plans to share or make 
available to any third party its facial recognition templates. 
Moreover, these templates do not provide meaningful information on 
their own; they can be used to identify a person only in conjunction 
with Facebook's software. They could not be reverse-engineered to 
recreate someone's face.
    Facebook designed its facial-recognition technology and the 
applications that use it with privacy considerations in mind and 
incorporated various safeguards and controls that protect both (1) 
users' ability to control the collection, use, and disclosure of their 
personal information, and (2) the security of that personal 
information.
    Facebook gives users control over whether Facebook uses facial 
recognition to recognize them in photos and videos. That control is 
exercised through users' privacy settings. If a user chooses to turn 
facial recognition off, Facebook does not create a template for that 
person or deletes any template it has previously created. Facebook will 
then be unable to recognize that person in any photos or videos that 
are uploaded to the service. Facebook also deletes templates of people 
who delete their Facebook accounts. Additionally, Facebook does not 
maintain templates for users who have no photos tagged of themselves 
and do not have a profile photo that is capable of being used to 
generate a face signature or template (e.g., where a user has no 
profile photo, where a user's profile photo does not contain a human 
face, or where a user's profile photo contains multiple untagged 
faces).
    We inform people about our use of facial-recognition technology 
through the Data Policy, Help Center, posts on Facebook, and direct 
user notifications. Facebook users are told that they can opt out of 
facial recognition at any time--in which case Facebook will delete 
their template and will no longer use facial recognition to identify 
them.
    In creating facial recognition templates, Facebook uses only data 
that people have voluntarily provided to Facebook: the photos and 
videos that people have voluntarily uploaded to Facebook (including 
public profile pictures) and the tags people have applied to those 
photos and videos. Facebook does not use facial recognition to identify 
someone to a stranger.

    Question 8. Has Facebook advocated for any changes to the Illinois 
Biometric Information Privacy Act, either on its own or as the member 
of a trade association or state chamber of commerce?
    Answer. We are aware of several pending measures to amend the 
Illinois Biometric Information Privacy Act to foster the use of 
technology to enhance privacy and data security and combat threats like 
fraud, identity theft, and impersonation. Facebook has not supported 
these measures or requested any organization or chamber of commerce to 
do so.
    In 2016, Senator Terry Link, the author of the Illinois Biometric 
Information Privacy Act, introduced a measure (HB 6074) clarifying that 
the original law (1) does not apply to information derived from 
physical or digital photographs and (2) uses the term ``scan'' to mean 
information that is obtained from an in-person process. These 
clarifying amendments were consistent with industry's longstanding 
interpretation of the law and Facebook publicly supported them.

    Question 9. Would advocating for changes to the Illinois Biometric 
Identification Privacy Act be consistent with Facebook's commitment to 
protecting privacy?
    Answer. Facebook's advocacy is consistent with our commitment to 
protecting privacy. As the findings of the Illinois General Assembly 
confirm, when people raise privacy concerns about facial recognition, 
they are generally about specific uses of facial recognition. In 
enacting the Illinois Biometric Information Privacy Act, the General 
Assembly explained that its concern was ``new applications of 
biometric-facilitated financial transactions, including finger-scan 
technologies at grocery stores, gas stations, and school cafeterias.''
    Facebook's use of facial recognition in our products, on the other 
hand, is very different. Facebook uses facial-recognition technology 
with users to provide Facebook users--who choose to join Facebook for 
the purpose of connecting with and sharing information about themselves 
with others, and affirmatively agree to Facebook's Terms of Service and 
Data Policy--with products and features that protect their identities 
and enhance their online experiences while giving them control over the 
technology. For example, Facebook uses facial-recognition technology to 
protect users against impersonators by notifying users when someone 
else has uploaded a photo of them for use as a profile photo and to 
enable features on the service to people who are visually impaired. 
Facebook also uses facial-recognition technology to suggest that people 
who upload photos or videos tag the people who appear in the photos or 
videos. When someone is tagged in a photo or video, Facebook 
automatically notifies that person that he or she has been tagged, 
which in turn enables that person to take action if he or she does not 
like the content--such as removing the tag or requesting that the 
content be removed entirely. Facebook users have always had the ability 
to change their settings to prevent Facebook from using facial 
recognition to recognize them.
    Given the very different uses of facial-recognition technology that 
exist, we believe that a one-size-fits-all approach to regulation of 
facial-recognition technology is not in the public's best interest, and 
we believe that clarification that the Illinois Biometric Information 
Privacy Act was not intended to apply to all uses of facial recognition 
is consistent with Facebook's commitment to protecting privacy. 
Furthermore, our commitment to support meaningful, thoughtfully drafted 
privacy legislation means that we can and do oppose measures that 
create confusion, interfere with legitimate law enforcement action, 
create unnecessary risk of frivolous litigation, or place undue burdens 
on people's ability to do business online.

    Question 10. Does Facebook oppose legislative efforts to revise and 
carve exceptions out of the Illinois Biometric Identification Privacy 
Act?
    Answer. See Responses to Questions 8 and 9.

    Question 11. Last October, Facebook's general counsel, Colin 
Stretch, testified before the Senate Judiciary Subcommittee on Crime 
and Terrorism. I asked him about a letter that 19 leading civil rights 
organizations--including Muslim Advocates, The Leadership Conference on 
Civil and Human Rights, the NAACP, the Arab American Institute, Human 
Rights Campaign, and the Southern Poverty Law Center--sent to Facebook, 
which explained their ``deep concern regarding ads, pages, and hateful 
content on your platform used to divide our country, and in particular, 
to promote anti-Muslim, anti-Black, anti-immigrant, and anti-LGBTQ 
animus.''
    The organizations referenced a number of examples that had 
previously been reported by the media, including a Russian Facebook 
account that ``not only promoted anti-immigrant messaging online, but 
also managed to organize an in-person anti-refugee rally in Twin Falls, 
Idaho in August 2016.'' The letter also alleges that ``Facebook offered 
its expertise to a bigoted advocacy group by creating a case study 
testing different video formats, and advising on how to enhance the 
reach of the group's anti-refugee campaign in swing states during the 
final weeks of the 2016 election.''
    Mr. Stretch agreed that the content was vile and responded that 
Facebook was ``tightening our content guidelines as they apply to ads 
with respect to violence.''
    I know that Facebook has met with the groups that have expressed 
these concerns, but can you elaborate on the specific, substantive 
steps that Facebook has taken so far, and plans to take in the future, 
to combat violent hate content on your platform?
    Answer. Facebook has engaged Relman, Dane & Colfax, a respected 
civil rights law firm, to carry out a comprehensive civil rights 
assessment of Facebook's services and internal operations. Laura 
Murphy, a national civil liberties and civil rights leader, will help 
guide this process--getting feedback directly from civil rights groups, 
like The Leadership Conference on Civil and Human Rights--and help 
advise Facebook on the best path forward.
    On hate speech specifically, our policies prohibit direct attacks 
on people based on what we call protected characteristics--race, 
ethnicity, national origin, religious affiliation, sexual orientation, 
sex, gender, gender identity, and serious disability or disease. We 
also provide some protections for immigration status. We define attack 
as violent or dehumanizing speech, statements of inferiority, or calls 
for exclusion or segregation, and we separate attacks into three tiers 
of severity.
    We recently updated our hate speech policies to remove violent 
speech directed at groups of people defined in part by protected 
characteristics. Under the previous hate speech policy, a direct attack 
targeting women exclusively on the basis of gender, for example, would 
have been removed from Facebook, but the same content directed at women 
drivers would have remained on the platform. We have come to see that 
this distinction is a mistake, and we no longer differentiate between 
the two forms of attack when it comes to only the most violent hate 
speech. We continue to explore how we can adopt a more granular 
approach to hate speech.
    In the last nine months, we have also made significant changes to 
advertising on Facebook, committing to a more robust ad review process 
and the hiring of 10,000 more people to aid in our safety and security 
efforts, increasing ads transparency, and tightening restrictions on 
advertiser content and targeting.

  <bullet> Strengthening enforcement. Before any ad can appear on 
        Facebook or Instagram, it must go through our ad review 
        process. We rely on both automated and manual review, and we're 
        taking aggressive steps to strengthen both. The process 
        includes automated checks of an ad's images, text, targeting, 
        and positioning, in addition to the content on the ad's 
        Facebook and landing pages. Our automated systems also flag 
        content for human review. We are increasing the size of our 
        security and safety teams from 10,000 to 20,000 over the course 
        of this year, and are simultaneously working to hire more 
        people from African American and Hispanic communities. This 
        will help increase the diversity of our workforce and improve 
        our understanding and awareness of ads that are meant to 
        exploit culturally sensitive issues. In addition, we are 
        investing more in machine learning to better understand when to 
        flag and take down ads.

  <bullet> Making advertising more transparent. We believe that when 
        users see an ad, they should know who ran it and what other ads 
        they're running--which is why we show the Page name for any ads 
        that run in a user's News Feed. To provide even greater 
        transparency for people and accountability for advertisers, 
        we're now building new tools that will allow users to see the 
        other ads a Page is running as well--including ads that aren't 
        targeted to them directly. We hope that this will establish a 
        new standard for our industry in ad transparency. We try to 
        catch content that shouldn't be on Facebook before it's even 
        posted--but because this is not always possible, we also take 
        action when people report ads that violate our policies. We 
        hope that more transparency will mean more people can report 
        inappropriate ads.

  <bullet> Tightening restrictions on advertiser content. We hold 
        people on Facebook to our Community Standards, and we hold 
        advertisers to even stricter guidelines. Our ads policies 
        already prohibit shocking content, direct threats and the 
        promotion of the sale or use of weapons. Going forward, we are 
        expanding these policies to prevent ads that use even more 
        subtle expressions of violence.

  <bullet> Changes to advertiser targeting. Being able to direct ads at 
        a particular audience is particularly valuable for businesses 
        and for people, but it's important that this be done in a safe 
        and civil way. That's why we've been closely reviewing the 
        targeting options we offer. Even though targeting is an 
        important tool to reach people, we have heard concerns about 
        potential abuse, particularly about the feature that lets 
        advertisers exclude people from their ads. Advertisers want to 
        show ads to people most likely to be interested in their 
        offerings, and exclusion targeting helps avoid showing ads to 
        people who likely aren't interested. For example, if a local 
        basketball team is trying to attract new fans, they can exclude 
        people who are already interested in the team. In response to 
        the feedback we've received, we've removed thousands of 
        categories from exclusion targeting. We focused mainly on 
        topics that relate to potentially sensitive personal 
        attributes, such as race, ethnicity, sexual orientation, and 
        religion. Our review is continuous; the process will be ongoing 
        and we'll continue soliciting feedback. We take our 
        responsibility to keep advertising safe and civil seriously, 
        and we will keep exploring more ways to make targeting work for 
        people and businesses.

    Question 12. We have also seen the impact of hate content on the 
international stage. In Myanmar, United Nations investigators have 
found that Facebook has played a ``determining role'' in violence 
against the Muslim Rohingya population.
    Specifically, the chairman of the U.N. Independent International 
Fact-Finding Mission on Myanmar told reporters that social media ``has 
. . . substantively contributed to the level of acrimony and dissension 
and conflict, if you will, within the public. Hate speech is certainly 
of course a part of that. As far as the Myanmar situation is concerned, 
social media is Facebook, and Facebook is social media.'' Another 
investigator said that Facebook was used by ultra-nationalists who were 
``inciting a lot of violence and a lot of hatred against the Rohingya 
or other ethnic minorities.''
    In a recent interview with Vox, you suggested that Facebook's 
systems had detected inflammatory, widely-shared chain letters about 
imminent attacks, and that Facebook stopped those messages. In reality, 
a group of Myanmar civil society organizations had flagged this 
content, and the messages were shared thousands of times for three days 
before Facebook took steps to prevent the spread of the messages. After 
your interview, these organizations sent you a letter noting ``this 
case exemplifies the very opposite of effective moderation: it reveals 
an over-reliance on third parties, a lack of a proper mechanism for 
emergency escalation, a reticence to engage local stakeholders around 
systemic solutions and a lack of transparency.'' I understand that you 
have personally responded to these organizations and that they have 
sent you a follow-up letter asking for additional information on how 
Facebook is addressing these issues.
    The situation in Myanmar is not unique. Violent anti-Muslim content 
is also widely shared in Sri Lanka and recently led the Sri Lankan 
government to temporarily ban access to Facebook. A recent Buzzfeed 
report stated:

        Government officials, researchers, and local NGOs say they have 
        pleaded with Facebook representatives from as far back as 2013 
        to better enforce the company's own rules against using the 
        platform to call for violence or to target people for their 
        ethnicity or religious affiliation. They repeatedly raised the 
        issue with Facebook representatives in private meetings, by 
        sharing in-depth research, and in public forums. The company, 
        they say, did next to nothing in response.

        Ethnic tensions run deep in Sri Lanka, particularly between the 
        majority Sinhala Buddhists and minority groups, and the country 
        has seen a troubling rise in anti-Muslim hate groups and 
        violence since the end of its decades-long civil war in 2009. 
        Many of those hate groups spread their messages on Facebook. 
        The problem came to a head in March when Buddhist mobs in 
        central Sri Lanka burned down dozens of Muslim shops, homes, 
        and places of worship.

    a. What is your response to these reports?

    b. What steps is Facebook taking to address anti-Muslim hate 
content in countries like Sri Lanka and Myanmar?
    Answer. We've been too slow to deal with the hate and violence in 
places like Myanmar and Sri Lanka. The challenges we face in a country 
that has fast come online are very different than those in other parts 
of the world, and we are investing in people, technology, and programs 
to help address them as effectively as possible.
    We are increasing the number of Burmese and Sinhalese-language 
content reviewers as we continue to grow and invest in Myanmar and Sri 
Lanka. Our goal is always to have the right number of people with the 
right native language capabilities to ensure incoming reports are 
reviewed quickly and effectively. That said, there is more to tackling 
this problem than reported content. A lot of abuse may go unreported, 
which is why we are supplementing our hiring with investments in 
technology and programs.
    We are building new tools so that we can more quickly and 
effectively detect abusive, hateful, or false content. We have, for 
example, designated several hate figures and organizations for 
repeatedly violating our hate speech policies, which has led to the 
removal of accounts and content that support, praise, or represent 
these individuals or organizations. We are also investing in artificial 
intelligence that will help us improve our understanding of dangerous 
content.
    We are further strengthening our civil society partner network so 
that we have a better understanding of local context and challenges. We 
are focusing on digital literacy education with local partners in 
Myanmar and Sri Lanka. For example, we launched a local language 
version of our Community Standards to educate new users on how to use 
Facebook responsibly in 2015 and we have been promoting these actively 
in Myanmar, reaching over 8 million people through promotional posts on 
our platform alone. We've also rolled out several education programs 
and workshops with local partners to update them on our policies and 
tools so that they can use this information in outreach to communities 
around the country. One example of our education initiatives is our 
work with the team that developed the Panzagar initiative (https://
www.facebook.com/supportflowerspeech) to develop the Panzagar 
counterspeech Facebook stickers to empower people in Myanmar to share 
positive messages online. We also recently released locally illustrated 
false news tips, which were promoted on Facebook and in consumer print 
publications. We have a dedicated Safety Page for Myanmar (https://
www.facebook.com/safety/resources/myanmar) and have delivered hard 
copies of our local language Community Standards and safety and 
security tips to civil society groups in Myanmar who have distributed 
them around the country for trainings. Similarly, in Sri Lanka, we ran 
a promotion in English, Sinhalese, and Tamil at the top of News Feeds 
in April 2017 to educate people on our Community Standards, in 
particular hate speech. The content has been viewed almost 100M times 
by almost 4M people.

    Question 13. When I chaired the Senate Judiciary Subcommittee on 
Human Rights and the Law, I held a series of hearings on Internet 
freedom. I invited Facebook to testify at our 2010 hearing. Unlike 
Google, Yahoo, and Microsoft, Facebook declined.
    Beginning in 2009, I urged you and other technology companies to 
join the Global Network Initiative, a voluntary code of conduct that 
requires participating companies to take reasonable measures to protect 
human rights. Again, unlike Google, Yahoo, and Microsoft, you declined.
    I reached out to you again in 2011 about serious concerns that 
repressive governments were using Facebook to monitor and suppress 
democracy activists.
    I was glad when Facebook finally joined other major technology 
companies and became a member of the Global Network Initiative in 2013. 
But it's also clear that Facebook has lagged behind other technology 
leaders in this area and that you continue to face serious ongoing 
human rights challenges.
    For example, human rights activists in Vietnam have expressed 
concerns that Facebook is working with the Vietnamese government to 
suppress dissent. A number of Vietnamese human rights activists and 
independent media groups sent a letter to you yesterday that noted 
``your company's aggressive practices . . . could silence human rights 
activists and citizen journalists in Vietnam.''
    The letter went on to say the following: ``We appreciate Facebook's 
efforts in addressing safety and misinformation concerns online in 
Vietnam and around the world. Yet it would appear that after this high 
profile agreement to coordinate with a government that is known for 
suppressing expression online and jailing activists, the problem of 
account suspension and content takedown has only grown more acute.''
    a. Can you comment on Facebook's commitment to human rights?

    b. What is your response to this letter?

    c. How is Facebook addressing free expression and user privacy 
concerns in countries with repressive regimes?
    Answer. Facebook is committed to respecting human rights. Since 
2013, Facebook has been a member of the Global Network Initiative 
(GNI), a multi-stakeholder digital rights initiative. As part of our 
membership, Facebook has committed to the freedom of expression and 
privacy standards set out in the GNI Principles--which are in turn 
based on the Universal Declaration of Human Rights and the United 
Nations Guiding Principles on Business and Human Rights--and we are 
independently assessed on our compliance with these standards on a 
biennial basis. In keeping with these commitments, rigorous human 
rights due diligence and careful consideration of free expression and 
privacy implications would constitute important components of any 
decision on entering China.
    As a GNI member, Facebook is committed to privacy and free 
expression principles and implementation guidelines regarding 
government requests. The GNI standards have been shaped by 
international human rights laws and norms and developed through a 
robust multi-stakeholder and consultative process. The GNI principles 
and guidelines inform Facebook's approach to evaluating government 
requests for user data in all the markets where we operate.
    Regarding the letter from Vietnamese human rights activists and 
citizen journalists specifically, we are committed to protecting the 
rights of people using Facebook in Vietnam, and to providing a place 
where people can express themselves freely and safely.

  <bullet> Our Community Standards (https://www.facebook.com/
        communitystandards), which outline what is and isn't allowed on 
        Facebook, seek to encourage expression and create a safe 
        community on the platform. We will remove content that violates 
        these standards when we're made aware of it.

  <bullet> There are also times when we may have to remove or restrict 
        access to content because it violates a law in a particular 
        country, even though it doesn't violate our Community 
        Standards. We have a well-established process for this, which 
        is no different in Vietnam to the rest of the world. Every 
        request we receive is checked for legal sufficiency. We require 
        officials to provide a detailed description of the legal and 
        factual basis for their request, and we push back when we find 
        legal deficiencies or overly broad or vague requests. We report 
        the number of pieces of content we restrict for contravening 
        local law in our Transparency Report.

  <bullet> We did not take any action on the accounts of the 
        signatories of the letter at the request of the Vietnamese 
        government, nor did we see mass reporting on their accounts.

  <bullet> We continue to work with partners in industry and civil 
        society to voice concerns about efforts to restrict expression 
        and limit the voice that people have online.

    Question 14. Open Secrets recently reported that multimillionaire 
donor Robert Mercer was behind a secretive dark money group called 
Secure America Now. According to Open Secrets, this organization 
``worked hand in hand with Facebook and Google to target their message 
at voters in swing states who were most likely to be receptive to 
them.''
    Specifically, Secure America Now created mock travel ads that 
invited visitors to the ``Islamic State of France,'' the ``Islamic 
State of Germany,'' and the ``Islamic States of America.'' Each ad 
began with an image of missiles shooting through the sky. The 
``French'' ad included clips of blindfolded men with guns held to their 
head and children training with weapons. The ``German'' ad discussed 
``sell[ing] your daughter or sister to be married'' with the image of a 
woman wearing a burka. The ``American'' ad had an image of Ground Zero 
in New York City as a place where citizens ``celebrate Islamic 
victories.''
    The ads were clearly designed to stoke anti-Muslim sentiment in the 
days leading up to the 2016 election.
    a. Under your new policies, how will ads like this be handled in 
the future?

    b. Will Facebook continue to work with groups like Secure America 
Now to create targeted, bigoted content?
    Answer. We did not work directly with Secure America Now; we worked 
through a third-party advertising agency. We did not create any content 
for Secure America Now. As is customary across managed advertising 
agencies, we provided a general best practices training to the agency 
staff, and we provided the measurement tools to determine the efficacy 
of the ads and differences between formats.
    We require everyone on Facebook to comply with our Community 
Standards, which outline what is and isn't allowed on Facebook.
    Explicit in our Community Standards is our prohibition on hate 
speech. We are opposed to hateful content in all its forms, and are 
committed to removing it from our platform any time we become aware of 
it. We're also committed to getting better at addressing these issues, 
including improving specific policies, our review process, and 
community reporting.
    We have Community Standards that prohibit hate speech, bullying, 
intimidation and other kinds of harmful behavior. We hold advertisers 
to even stricter advertising policies to protect people from things 
like discriminatory ads--and we have recently tightened our ad policies 
even further to prohibit additional shocking and sensational content.

    Question 15. As you noted in your testimony, before the 2017 French 
election Facebook found and took down 30,000 fake accounts. Will you 
commit to inform Congress and the public on a real-time basis how many 
fake accounts Facebook takes down in the lead-up to the 2018 U.S. 
midterm elections?
    Answer. We recently released enforcement statistics in our 
Community Standards Enforcement Report, including how many Facebook 
accounts we took action on because we determined they were fake. We 
will refine our approach over time, and we also hope to release 
additional metrics in future reports.

    Question 16. What percentage of current Facebook accounts do you 
understand or estimate to be fake?
    Answer. We estimate that fake accounts represented approximately 3 
percent to 4 percent of monthly active users (MAU) on Facebook during 
Q1 2018 and Q4 2017. We share this number in the Facebook quarterly 
financial results. This estimate may vary each quarter based on spikes 
or dips in automated fake account creation.

    Question 17. I assume there is an advertising revenue loss when 
Facebook deletes an account that is active but that is a fake or 
imposter account created to sow disinformation. But it is important for 
the public and Congress to know how many of these accounts there are 
and whether they are being removed.
    a. Will Facebook be transparent with Congress and the public about 
how many active fake accounts Facebook is deleting?

    b. How will Facebook enable Congress to track your progress in 
addressing and removing fake accounts?
    Answer. We publish information and metrics about fake accounts at 
https://transparency.facebook.com/community-standards-enforcement#fake-
accounts and in our SEC filings. We estimate that fake accounts 
represented approximately 3 percent to 4 percent of monthly active 
users (MAU) on Facebook during Q1 2018 and Q4 2017. We share this 
number in the Facebook quarterly financial results. This estimate may 
vary each quarter based on spikes or dips in automated fake account 
creation.

    Question 18. You say in your testimony that Facebook now has about 
15,000 people working on security and content review. How many of those 
people are dedicated to identifying and removing fake accounts?
    Answer. Estimating a number is difficult because stopping this type 
of abuse is a focus for many teams, some more directly and some in more 
of a supportive role. For example, we are expanding our threat 
intelligence team, and more broadly, we are working now to ensure that 
we will more than double the number of people working on safety and 
security at Facebook, from 10,000 to 20,000, by the end of 2018. We 
expect to have at least 250 people specifically dedicated to 
safeguarding election integrity on our platforms, and that number does 
not include the thousands of people who will contribute to this effort 
in some capacity. Many of the people we are adding to these efforts 
will join our ad review team, and we also expect to add at least 3,000 
people to Community Operations, which reviews content that our users 
and automated tools flag as inappropriate, dangerous, abusive, or 
otherwise violating our policies.

    Question 19. You stated during your testimony that Facebook has 
built A.I. tools for identifying terror and extremist-related content 
and that, for example, 99 percent of the ISIS and al-Qaeda content that 
Facebook takes down is flagged first via A.I.
    a. How much content did Facebook take down that was linked to ISIS 
and al-Qaeda and what was the basis of your 99 percent statistic? 
Please quantify this in terms of accounts closed per year or some other 
quantifiable metric.

    b. How much extremist content does Facebook take down that is not 
first identified by A.I.? Please quantify this in terms of accounts 
closed per year.

    c. How much extremist content would you estimate is not removed by 
Facebook because it is not flagged by A.I. or by users?

    d. We are facing a rising threat from white supremacist and other 
domestic extremist groups. An unclassified May 2017 FBI-DHS joint 
intelligence bulletin found that ``white supremacist extremism poses 
[a] persistent threat of lethal violence,'' and that white supremacists 
``were responsible for 49 homicides in 26 attacks from 2000 to 2016 . . 
. more than any other domestic extremist movement.'' And Politico 
reported in August 2017 that ``suspects accused of extreme right-wing 
violence have accounted for far more attacks in the U.S. than those 
linked to foreign Islamic groups like al Qaeda and ISIS, according to 
multiple independent studies.'' What specific steps is Facebook taking 
to address extremist content from white supremacists and other domestic 
terrorist threats?
    Answer. While these metrics are in development, in Q1 2018, we took 
action on 1.9 million pieces of terrorist propaganda content related to 
ISIS, al-Qaeda, and their affiliates, up from 1.1 million in Q4 2017. 
This increase is due to improvements in our ability to find violating 
content using photo detection technology, which detects both old 
content and newly posted content.
    While these metrics are in development, in Q1 2018, we found and 
flagged 99.5 percent of the terrorist propaganda content related to 
ISIS, al-Qaeda, and their affiliates we subsequently took action on, 
before users reported it. We acted on the other 0.5 percent because 
users reported it to us first. The amount of content we flagged 
increased from around 97 percent in Q4 2017 because we improved our 
photo detection technology and processes to find and flag more content 
before users reported it.
    Terrorists, terrorist content, and hate speech in all forms--
including white supremacy and domestic terrorist content--have no place 
on Facebook. We prohibit content that incites violence, and we remove 
terrorists and posts that support terrorism whenever we become aware of 
them. We are using a variety of tools in this fight.
    Our policies against terrorist organizations and hate organizations 
fall within the broader category of dangerous organizations and 
individuals. We do not want Facebook to be a platform for hatred or 
violence, so our policies apply to all groups that have engaged in 
premeditated acts of violence or attacks on the basis of race, 
religious affiliation, nationality, ethnicity, gender, sex, sexual 
orientation, and serious disease or disability.
    We define terrorism as ``Any non-governmental organization that 
engages in premeditated acts of violence against persons or property to 
intimidate a civilian population, government, or international 
organization in order to achieve a political, religious, or ideological 
aim.'' Our definition is agnostic to the ideology or political goals of 
a group, which means it includes everything from religious extremists 
and violent separatists to white supremacists and militant 
environmental groups. It's about whether they use violence to pursue 
those goals.
    We are equally committed to identifying and rooting out domestic 
hate organizations. We define hate organizations as ``Any association 
of three or more people that is organized under a name, sign, or symbol 
and that has an ideology, statements, or physical actions that attack 
individuals based on characteristics, including race, religious 
affiliation, nationality, ethnicity, gender, sex, sexual orientation, 
and serious disease or disability.'' In evaluating groups and 
individuals for designation as hateful, we have an extensive process 
that takes into account a number of different signals, and regularly 
engage with academics and organizations to refine this process.

    Question 20. If Facebook's users have their personal information 
misused without their knowledge and consent and then seek redress in 
the court system, it is possible that the companies that misused their 
information will try to force Facebook's users into mandatory 
arbitration proceedings. These arbitration proceedings are typically 
kept secret and rules are titled in favor of the repeat corporate 
player and against the victims.
    a. Do you think it is fair for Facebook users to be forced into 
mandatory arbitration when they are trying to seek redress for 
companies' misuse of their personal information?

    b. Does Facebook prohibit apps that use the Facebook platform from 
using mandatory arbitration clauses on Facebook users? If not, will you 
commit to doing so going forward?
    Answer. Our Terms of Service, available at https://
www.facebook.com/terms.php, addresses dispute resolution for users and 
our Platform Policy, available at https://developers.facebook.com/
policy, lists the requirements for developers. Facebook's Terms do not 
contain an arbitration clause and, in fact, we recently updated our 
Terms to make it easier for users outside of the United States to 
access court systems in their home countries.

    Question 21. In December, the Federal Communications Commission 
(FCC) voted to dismantle net neutrality rules, paving the way for 
Internet providers to block, throttle, or manipulate consumer access to 
the Internet. This action threatens the right of every consumer to 
access a free and open internet.
    In the past, Facebook has expressed support for net neutrality 
protections.
    a. As one of the most visited websites in the world, how important 
is net neutrality to Facebook's mission?

    b. If left unchanged, what impact will the FCC's decision to undo 
net neutrality protections have on Facebook's millions of users?
    Answer. Keeping the Internet open for everyone is crucial. Not only 
does it promote innovation, but it lets people access information that 
can change their lives and gives voice to those who might not otherwise 
be heard. For these reasons, Facebook supports net neutrality and is 
open to working members of Congress and anyone else on a solution that 
will preserve strong net neutrality protections.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Sheldon Whitehouse to 
                            Mark Zuckerberg
    Question 1. Your written testimony referenced a number of policies 
Facebook has planned or implemented to prevent foreign nationals from 
using the platform to interfere in political and electoral processes.
    a. How will you ensure that the companies advertising on Facebook 
are who they purport and claim to be, rather than fronts for otherwise 
prohibited users?

    b. Do shell corporations impede your company's progress in 
preventing abuse of your platform by foreign agents? If so, how?

    c. Would incorporation transparency laws requiring the disclosure 
of beneficial ownership information at the time of incorporation 
enhance your ability to overcome those impediments?
    Answer. We announced that only authorized advertisers will be able 
to run electoral ads on Facebook or Instagram. And we're also extending 
that requirement to anyone that wants to show ``issue ads''--like 
political topics that are being debated across the country. We are 
working with third parties to develop a list of key issues, which we 
will refine over time. To get authorized by Facebook, advertisers will 
need to confirm their identity and location. Advertisers will be 
prohibited from running political ads--electoral or issue-based--until 
they are authorized.
    Further, we have processes designed to identify inauthentic and 
suspicious activity and we also maintain a sanctions compliance program 
to screen advertisers and paid app developers. Facebook's denied party 
screening protocol involves checking paid app developers and 
advertisers against applicable denied party listings. Those screened 
remain in an on-going monitoring portfolio and are screened against 
changes to applicable denied party listings. Moreover, our payments 
subsidiaries file Suspicious Activity Reports on developers of certain 
apps as appropriate.
    However, like other offline and online companies, Facebook has 
limited insight into the use of shell corporations or other 
sophisticated structures that may disguise the true buyer. In addition, 
the general challenge of attributing online activities to specific 
governments or organizations is widely recognized in the intelligence 
and law enforcement communities.
    It is possible that such laws could help companies gain insight 
into the use of shell corporations or other sophisticated structures 
that may disguise the true buyer.

    Question 2. With respect to the exchange below, is there anything 
you would like to add to your statements about the process whereby 
Facebook required Cambridge Analytica to certify that it had deleted 
all improperly acquired data? Can you confirm that Facebook entered 
into a legally binding contract with Cambridge Analytica surrounding 
the deletion of unlawfully obtained user data? Would you be willing to 
share a copy of the contract in question with the Senate Committees 
before which you appeared, if so?

    WHITEHOUSE: And with respect to Cambridge Analytica, your testimony 
is that first you required them to formally certify that they had 
deleted all improperly acquired data. Where did that formal 
certification take place? That sounds kind of like a quasi-official 
thing, to formally certify. What did that entail?

    ZUCKERBERG: Senator, first they sent us an e-mail notice from their 
chief data officer telling us that they didn't have any of the data any 
more, that they deleted it and weren't using it. And then later we 
followed up with, I believe, a full legal contract where they certified 
that they had deleted the data.

    WHITEHOUSE: In a legal contract?

    ZUCKERBERG: Yes, I believe so.

    On December 11, 2015, The Guardian published an article reporting 
that Kogan and his company, GSR, may have passed information the app 
had obtained from Facebook users to SCL Elections Ltd. (SCL)/Cambridge 
Analytica. If this occurred, Kogan and his company violated Facebook's 
Platform Policies, which explicitly prohibited selling user data 
accessed from Facebook and from sharing any user data accessed from 
Facebook with any ad network, data broker, or other advertising or 
monetization related service.
    For this reason, Facebook immediately banned the app from our 
platform and investigated what happened and what further action we 
should take to enforce our Platform Policies. Facebook also contacted 
Kogan/GSR and demanded that they explain what data they collected, how 
they used it, and to whom they disclosed it. Facebook further insisted 
that Kogan and GSR, as well as other persons or entities to whom they 
had disclosed any such data, account for and irretrievably delete all 
such data and information.
    Facebook also contacted Cambridge Analytica to investigate the 
allegations reflected in the reporting. On January 18, 2016, Cambridge 
Analytica provided written confirmation to Facebook that it had deleted 
the data received from Kogan and that its server did not have any 
backups of that data. On June 11, 2016, Kogan executed and provided to 
Facebook signed certifications of deletion on behalf of himself and 
GSR. The certifications also purported to identify all of the 
individuals and entities that had received data from GSR (in addition 
to Kogan and his lab), listing the following: SCL, Eunoia Technologies 
(a company founded by Christopher Wylie), and a researcher at the 
Toronto Laboratory for Social Neuroscience at the University of 
Toronto. On July 7, 2016, a representative of the University of Toronto 
certified that it deleted any user data or user-derived data. On August 
16, 2016, Eunoia (executed by Eunoia Founder Christopher Wylie) 
certified that it deleted any user and user-derived data. On September 
6, 2016, counsel for SCL informed counsel for Facebook that SCL had 
permanently deleted all Facebook data and derivative data received from 
GSR and that this data had not been transferred or sold to any other 
entity. On April 3, 2017. Alexander Nix, on behalf of SCL, certified to 
Facebook, that it deleted the information that it received from GSR or 
Kogan.
    Because all of these concerns relate to activity that took place 
off of Facebook and its systems, we have no way to confirm whether 
Cambridge Analytica may have Facebook data without conducting a 
forensic audit of its systems. Cambridge Analytica has agreed to submit 
to a forensic audit, but we have not commenced that yet due to a 
request from the UK Information Commissioner's Office, which is 
simultaneously investigating Cambridge Analytica (which is based in the 
UK). And even with an audit, it may not be possible to determine 
conclusively what data was shared with Cambridge Analytica or whether 
it retained data after the date it certified that data had been 
deleted.
    The existing evidence that we are able to access supports the 
conclusion that Kogan only provided SCL with data on Facebook users 
from the United States. While the accounts of Kogan and SCL conflict in 
some minor respects not relevant to this question, both have 
consistently maintained that Kogan never provided SCL with any data for 
Facebook users outside the United States. These consistent statements 
are supported by a publicly released contract between Kogan's company 
and SCL.

    Question 3. Until 2014, Facebook allowed ``friend permissiosn,'' 
which meant that if one of your Facebook friends connected an 
authorized app to his Facebook account, the app could access not only 
that person's personal information, but also your personal 
information--and all of his other friends' personal information--
regardless of his friends' privacy settings. Facebook rightly changed 
that permission in 2014.
    a. Do you have an estimate as to how many third party entities were 
authorized to collect friends' data while ``friend permission'' was in 
effect?

    b. Do you know what happened to that data and whether it was shared 
further?
    Answer. We are in the process of investigating every app that had 
access to a large amount of information before we changed our Platform 
in 2014. The investigation process is in full swing, and it has two 
phases. First, a comprehensive review to identify every app that had 
access to this amount of Facebook data and to focus on apps that 
present reason for deeper investigation. And second, where we have 
concerns, we will conduct interviews, make requests for information 
(RFI)--which ask a series of detailed questions about the app and the 
data it has access to--and perform audits using expert firms that may 
include on-site inspections. We have large teams of internal and 
external experts working hard to investigate these apps as quickly as 
possible. To date thousands of apps have been investigated and around 
200 apps have been suspended--pending a thorough investigation into 
whether they did in fact misuse any data. Where we find evidence that 
these or other apps did misuse data, we will ban them and let people 
know.
    These apps relate to a handful of developers: Kogan, AIQ, Cube You, 
the Cambridge Psychometrics Center, and myPersonality, with many of the 
suspended apps being affiliated with the same entity. Many of theses 
suspensions include apps that appear to be ``test'' apps that were 
never released to the public, and therefore would not have acquired 
significant user data, although our investigation into these apps is 
ongoing.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So, we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.
    We will commit to briefing your staff on future developments.

    c. How does Facebook audit third party applications to ensure that 
they are who they say they are?
    Answer. In general, on an ongoing basis, we proactively review all 
apps seeking access to more than basic information (and have rejected 
more than half of apps seeking such extended permissions). We also do a 
variety of manual and automated checks to ensure compliance with our 
policies and a positive experience for people. These include steps such 
as random checks of existing apps along with the regular and proactive 
monitoring of apps. We also respond to external or internal reports and 
investigate for potential app violations. When we find evidence of or 
receive allegations of violations, we investigate and, where 
appropriate, employ a number of measures, including restricting 
applications from our platform, preventing developers from building on 
our platform in the future, and taking legal action where appropriate.

    d. Do users have a way of tracking what data about them was shared 
with third parties, including when this data is shared by their 
friends? Should they?
    Answer. With respect to our investigation into apps that had access 
to large amounts of information, if we find evidence that these or 
other apps did misuse data, we will ban them and notify people whose 
data was shared with these apps.

    Question 4. Aleksander Kogan purported to be a researcher when he 
came to Facebook with the app Thisisyourdigitallife. He then funneled 
the information he collected about Facebook's users to Cambridge 
Analytica, which planned to use that information to influence Facebook 
users' political opinions. How was Dr. Kogan vetted? What policies and 
procedures does Facebook follow to ensure that researchers are who they 
say they are and that their research is legitimate?
    Answer. Facebook was put in touch with Kogan (a researcher at the 
University of Cambridge) in late 2012, about a possible collaboration 
on research relating to the potential relationship between Facebook 
friendship ties and economic trade volumes between countries. Kogan 
collaborated with current and former Facebook employees on 
approximately ten academic papers. As part of these collaborations, 
Kogan could only access fully anonymized, aggregated data from 
Facebook. Facebook frequently partners with leading academic 
researchers to address topics pertaining to wellbeing, innovation, and 
other topics of public importance, following strict protocols to ensure 
personal information is safeguarded.

    Question 5. The General Data Protection Regulation (GDPR) goes into 
effect in Europe in May. It will require that users be afforded 
meaningful opportunities for informed consent and the ability to opt-
out of direct marketing. It will also require data portability and give 
users the right to access their personal data. Finally, it will mandate 
privacy by design and require that users be informed within 72 hours of 
a data breach. What is Facebook doing in Europe to get ready to comply 
with GDPR?
    Answer. The GDPR requires companies to obtain explicit consent to 
process certain kinds of data (``special categories of data'' like 
biometric data). We are seeking explicit consent from people in Europe 
to three specific uses of data: facial recognition data (which 
previously was not enabled in Europe), special categories of data, and 
use of data we collect off Facebook Company Products to target ads. We 
recently began providing direct notice of these controls and our 
updated terms to people around the world (including in the U.S.), 
allowing people to choose whether or not to enable or disable these 
settings or to agree to our updated terms. Outside of Europe we are not 
requiring people to complete those flows if they repeatedly indicate 
that they do not want to go through the experience. At the same time, 
the events of recent months have underscored how important it is to 
make sure people know how their information is used and what their 
choices are. So, we decided to communicate prominently on Facebook--
through a full-screen message and a reminder to review at a later date. 
People can choose to dismiss or ignore these messages and continue 
using Facebook.
    We are also upgrading our tools for access, rectification, erasure, 
data portability, and others to people in the U.S. and rest of world 
that we provide in Europe, and many of those tools (like our Download 
Your Information tool, Ads Preferences tool, and Activity Log) have 
been available globally for many years.
    Many of the requirements under GDPR previously applied to Facebook 
Ireland under the Data Protection Directive, and we have therefore been 
following these principles for many years. The GDPR is founded on core 
principles of transparency and control, which are also central values 
we employ in designing our products.

    Question 6. You've made headlines recently by saying that Facebook 
will not apply all of GDPR in the United States. Which GDPR 
requirements is Facebook choosing not to apply in the U.S.? Why? What 
parts of GDPR do you think the U.S. should import?
    Answer. The controls and settings that Facebook is enabling as part 
of GDPR are available to people around the world, including settings 
for controlling our use of face recognition on Facebook and for 
controlling our ability to use data we collect off Facebook Company 
Products to target ads. We recently began providing direct notice of 
these controls and our updated terms to people around the world 
(including in the U.S.), allowing people to choose whether or not to 
enable or disable these settings or to consent to our updated terms. We 
provide the same tools for access, rectification, erasure, data 
portability and others to people in the U.S. and rest of world that we 
provide in Europe, and many of those tools (like our Download Your 
Information tool, ad preferences tool, and Activity Log) have been 
available globally for many years.

    Question 7. Facebook has announced that it will begin placing ads 
into a searchable database, which will include details about how much 
the ads cost and what kinds of people the advertisers were targeting. 
Ads will stay in the database for four years. Will the database include 
information on the audience that advertisers were trying to target or 
just the demographic information about which users were ultimately 
reached?
    Answer. The database will include demographic information (e.g., 
age, general location, gender) about the audience that the ads reached.

    Question 8. As Chair of the Cybersecurity Task Force and a Co-Chair 
of the International Creativity and Theft-Prevention Caucus, I have 
focused time and attention on the issue of platform security and 
responsibility--including as it relates to intellectual property theft. 
What steps is Facebook taking to ensure that it provides a safe and 
secure platform in this respect? Will you devote the resources 
necessary to ensure that your platform and its features/tools, 
including Facebook Live, are used in a responsible and legal fashion?
    Answer. We take intellectual property rights seriously at Facebook 
and work closely with the motion picture industries and other rights 
holders worldwide to help them protect their copyrights and other IP. 
Our measures target potential piracy across our products, including 
Facebook Live, and continue to be enhanced and expanded. These include 
a global notice-and-takedown program, a comprehensive repeat infringer 
policy, integration with the content recognition service Audible Magic, 
and our proprietary video- and audio-matching technology called Rights 
Manager. More information about these measures can be found in our 
Intellectual Property Help Center, Transparency Report, and Rights 
Manager website.

    Question 9. Your Q3 earnings disclosure in 2017 indicated that over 
270 million Facebook accounts are fake or duplicate accounts. Fake and 
imposter accounts have been identified as central to the disinformation 
campaigns threatening democracies, and you have responded by banning 
tens of thousands of these accounts to protect elections in France, 
Germany, and Alabama. Do you intend to enforce your user policy and 
track and delete as many fake and imposter accounts on your site as 
possible and, if so, on what timeline? Are there circumstances under 
which Facebook would track, but opt not to delete, inauthentic accounts 
that may be involved in disinformation campaigns? What would such 
circumstances be?
    Answer. We are committed to finding and removing fake accounts. We 
continue to make improvements to our efforts to more effectively detect 
and deactivate fake accounts to help reduce the spread of spam, false 
news, and misinformation. We continually update our technical systems 
to identify, checkpoint, and remove inauthentic accounts, and we block 
millions of attempts to register fake accounts every day. These systems 
examine thousands of detailed account attributes and prioritize signals 
that are more difficult for bad actors to disguise, such as their 
connections to others on our platform. As with all security threats, we 
have been incorporating new insights into our models for detecting fake 
accounts, including information specific to election issues.
    We do not share detailed descriptions of how our tools work in 
order to avoid providing a road map to bad actors who are trying to 
avoid detection. When we suspect that an account is inauthentic, we 
typically enroll the account in a checkpoint that requires the account 
holder to provide additional information or verification. We view 
disabling an account as a severe sanction, and we want to ensure that 
we are highly confident that the account violates our policies before 
we take permanent action. When we have confirmed that an account 
violates our policies, we remove the account.

    Question 10. (a) How does Facebook define fake news?

    (b) How does the company distinguish real news stories from fake 
ones, if at all?

    (c) What mechanisms, if any, does Facebook use to prevent news 
stories identified as fake from appearing on users' news feeds?

    (d) Does Facebook keep track of users who exhibit a pattern of 
sharing fake news stories? Does it suspend users who exhibit such a 
pattern? If not, would Facebook consider implementing a policy that 
disciplines users who spread fake news? What else could Facebook do to 
stop the spread of fake news?
    Answer. At Facebook, we define false news as ``[n]ews articles that 
purport to be factual, but which contain intentional misstatements of 
fact with the intention to arouse passions, attract viewership, or 
deceive.''
    We believe that tech companies, media companies, newsrooms, and 
educators all need to work together to address this societal problem. 
We are engaged with partners across these industries to help create a 
more informed community.
    We are working to build a more informed community by promoting 
trustworthy, informative, and local news and by focusing on four 
different strategies to address misinformation:

  <bullet> Strengthening enforcement of our authenticity policies. We 
        are investing heavily in new technology and hiring thousands 
        more people to tackle the problem of inauthenticity on the 
        platform. Fake accounts are often associated with false news, 
        so this is an area that will have a huge impact on curbing the 
        spread of inaccurate information.

  <bullet> Finding industry solutions. All of us--from tech companies 
        and media companies to newsrooms and classrooms--must work 
        together to find industry solutions to strengthen the online 
        news ecosystem and our own digital literacy. That's why we're 
        collaborating with others who operate in this space. Last 
        January, we announced The Facebook Journalism Project, an 
        initiative that seeks to establish stronger ties between 
        Facebook and the news industry. The project is focused on 
        developing news products, providing training and tools for 
        journalists, and working with publishers and educators on how 
        we can equip people with the knowledge they need to be informed 
        readers in the digital age. Since launching the Journalism 
        Project, we've met with more than 2,600 publishers around the 
        world to understand how they use our products and how we can 
        make improvements to better support their needs.

  <bullet> Disrupting economic incentives. When it comes to fighting 
        false news, we've found that a lot of it is financially 
        motivated. So, one of the most effective approaches is removing 
        the economic incentives for those who traffic in inaccurate 
        information. We've done things like block ads from pages that 
        repeatedly share false news and significantly limit the 
        distribution of web pages that deliver low quality web 
        experiences.

  <bullet> Building new products. We believe it's important to amplify 
        the good effects of social media and mitigate the bad--to 
        contribute to the diversity of ideas, information, and view 
        points, while strengthening our common understanding. Among the 
        products we've launched is:

    <ctr-circle> We believe giving people more context can help them 
            decide what to trust and what to share. The third-party 
            fact-checking program we have developed uses reports from 
            our community, along with other signals, to send stories to 
            accredited third-party fact checking organizations. If the 
            fact checking organizations identify a story as fake, we 
            will suggest related articles in News Feed to show people 
            different points of view, including information from fact 
            checkers. Stories that have been disputed may also appear 
            lower in News Feed. Our own data analytics show that a 
            false rating from one of our fact checking partners reduces 
            future impressions on Facebook by 80 percent.

    <ctr-circle> We're also testing Article Context as a way of giving 
            people more information about the material they're reading 
            on Facebook. Since we launched this test, some of the 
            articles people see in News Feed will feature an ``i'' icon 
            that allows them to access more information at the tap of a 
            button. The information we surface is pulled from across 
            the internet, and includes things like the publisher's 
            Wikipedia entry, trending articles or related articles 
            about the topic, and information about how the article is 
            being shared on Facebook. In some cases, if that 
            information is unavailable, we will let people know since 
            that can also be helpful context.

    Question 11. It is my understanding that Facebook currently 
restricts notifications related to fake news to users who seek to share 
the content in question. In other words, before sharing a story flagged 
as fake on the site, a user will receive a warning that the story's 
accuracy has been ``disputed.'' Does Facebook intend to expand the 
existing policy and begin notifying individual users each time they 
view (not just share) fake content? If not, why not?
    Answer. As we announced in December 2017, we will no longer use 
Disputed Flags to identify false news. Instead, we will use Related 
Articles to help give people more context about the story. Academic 
research on correcting misinformation has shown that putting a strong 
image, like a red flag, next to an article may actually entrench deeply 
held beliefs--the opposite effect to what we intended. Related 
Articles, by contrast, are simply designed to give more context, which 
our research has shown is a more effective way to help people get to 
the facts. Indeed, we have found that when we show Related Articles 
next to a false news story, it leads to fewer shares than when the 
Disputed Flag is shown.
    We are giving people more context about the information they see on 
Facebook with Article Context. Since we launched this test, some of the 
articles you see in News Feed will feature an ``i'' icon that allows 
you to access more information at the tap of a button. The information 
we surface is pulled from across the internet, and includes things like 
the publisher's Wikipedia entry, trending articles or related articles 
about the topic, and information about how the article is being shared 
on Facebook. In some cases, if that information is unavailable, we will 
let people know since that can also be helpful context.
    We continue to look for opportunities to improve this experience 
and help give people more context so that they can decide what to read, 
trust, and share on Facebook.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Amy Klobuchar to 
                            Mark Zuckerberg
    Question 1. In the hearing, I asked if Facebook had determined 
whether the up to 87 million Facebook users whose data was shared with 
Cambridge Analytica were concentrated in certain states. You said that 
you could follow up with that information.

  <bullet> Can you provide a state-by-state breakdown of the Facebook 
        users whose data was improperly obtained by Cambridge 
        Analytica?

    Answer. See the state breakdown here: https://
fbnewsroomus.files.wordpress.com
/2018/05/state-by-state-breakdown.pdf.

    Question 2. As you know, I also asked whether any of the roughly 
126 million people who may have been shown content from a Facebook page 
associated with the Internet Research Agency were the same Facebook 
users whose data was shared with Cambridge Analytica. You said that 
Facebook was investigating that question and that you believe it is 
``entirely possible that there will be a connection there.''

  <bullet> Please provide an answer as to whether there was any overlap 
        between the Facebook users who were shown content from a 
        Facebook page associated with the Internet Research Agency and 
        those whose data was shared with Cambridge Analytica.

    Answer. The targeting for the IRA ads that we have identified and 
provided to the Senate Committee on the Judiciary and the Senate Select 
Committee on Intelligence was relatively rudimentary, targeting very 
broad locations and interests, and for example, only used custom 
audiences in a very small percentage of its overall targeting and did 
not use Contact List Custom Audiences. In addition, all of the custom 
audiences used by the IRA were created based on user engagement with 
certain IRA Pages. By contrast, Cambridge Analytica used hundreds of 
Contact List Custom Audiences during the 2016 election cycle created 
from contact lists that Cambridge Analytica uploaded to our system, and 
Cambridge Analytica used those and other custom audiences in the 
majority of its ads targeting in combination with demographic targeting 
tools.

    Question 3. When I asked if you would support a rule that would 
require Facebook to notify users of a breach of their information 
within 72 hours, you responded that such a rule makes sense to you and 
that your team would follow up with my staff to discuss the details of 
such a proposal.

  <bullet> I am working to introduce bipartisan legislation requiring 
        that online platforms notify users of a breach of their 
        information within 72 hours. Will Facebook support this 
        requirement?

  <bullet> What process would Facebook implement to notify users of a 
        breach of their information within 72 hours?

    Answer. Facebook is generally open to the idea of breach 
notification requirements, particularly legislation that would 
centralize reporting and ensure a consistent approach across the United 
States. For example, in Europe, the GDPR requires notification to a 
lead supervisory authority, rather than individual member states, in 
cases of a data breach. In the United States, however, there is no 
centralized notification scheme, and instead, reporting obligations 
vary widely across all 50 states. This complexity makes it harder to 
respond appropriately and swiftly to protect people in the event of a 
data breach. We believe this is an important issue and an area that is 
ripe for thoughtful regulation.

    Question 4. With more than two billion monthly active users, 
Facebook is by far the largest social networking platform on the 
internet. Some have called Facebook a monopoly and claimed that 
Facebook has no true competition.

  <bullet> If a Facebook user living in the United States wanted to 
        switch to a different online social networking platform, what 
        are the top ten alternative social networking platforms 
        available? To the best of your knowledge, how many monthly 
        active users does each attract?

    Answer. In Silicon Valley and around the world, new social apps are 
emerging all the time. The average American uses eight different apps 
to communicate with their friends and stay in touch with people. There 
is a lot of choice, innovation, and activity in this space, with new 
competitors arising all the time. Facebook's top priority and core 
service is to build useful and engaging products that enable people to 
connect, discover and share through mobile devices and personal 
computers. Given its broad product offerings, Facebook faces numerous 
competitors, competing to attract, engage, and retain users, to attract 
and retain marketers, and to attract and retain developers who build 
compelling mobile and web applications. For instance, if you want to 
share a photo or video, you can choose between Facebook, DailyMotion, 
Snapchat, YouTube, Flickr, Twitter, Vimeo, Google Photos, and 
Pinterest, among many other services. Similarly, if you are looking to 
message someone, just to name a few, there's Apple's iMessage, 
Telegram, Skype, Line, Viber, WeChat, Snapchat, and LinkedIn--as well 
as the traditional text messaging services your mobile phone carrier 
provides. Equally, companies also have more options than ever when it 
comes to advertising--from billboards, print and broadcast, to newer 
platforms like Facebook, Spotify, Twitter, Google, YouTube, Amazon, or 
Snapchat. Facebook represents a small part (in fact, just 6 percent) of 
this $650 billion global advertising ecosystem and much of that has 
been achieved by helping small businesses--many of whom could never 
have previously afforded newspaper or TV ads--to cost-effectively reach 
a wider audience.

    Question 5. Last week, legislation that I supported to combat 
online sex trafficking--the Allow States and Victims to Fight Online 
Sex Trafficking Act (FOSTA)--was signed into law. Facebook also 
supported that legislation.

  <bullet> What has Facebook observed in terms of efforts to facilitate 
        human trafficking on its platform, and what actions has 
        Facebook taken in response?

    Answer. Sex trafficking has no place on Facebook. Our Community 
Standards make it very clear that human trafficking and smuggling are 
against our policies. This is true across the platform. We remove 
content that threatens or promotes sexual violence, assault, or 
exploitation, including against minors, when we become aware of it. We 
have a team of professional investigators and work with agencies across 
the world that seek to identify and rescue victims and bring 
perpetrators to justice.
    Facebook is committed to making our platform a safe place, 
especially for individuals who may be vulnerable. We have a long 
history of working successfully with governments to address a wide 
variety of threats to our platform, including child exploitation. When 
we learn of a situation involving physical abuse, child exploitation, 
or an imminent threat of harm to a person, we immediately report the 
situation to first responders or the National Center for Missing and 
Exploited Children (NCMEC).
    Further, as part of official investigations, government officials 
sometimes request data about people who use Facebook. We have processes 
in place to handle these government requests, and we disclose account 
records in accordance with our terms of service and applicable law. We 
also have a global team that strives to respond within minutes to 
emergency requests from law enforcement.
    Our relationship with NCMEC also extends to an effort that we 
launched in 2015 to send AMBER Alerts to the Facebook community to help 
find missing children. When police determine that a case qualifies for 
an AMBER Alert, the alert is issued by the NCMEC and distributed 
through the Facebook system with any available information, including a 
photograph of the missing child, a license plate number, and the names 
and descriptions of the child and suspected abductor. Law enforcement 
determines the range of the target area for each alert. We know the 
chances of finding a missing child increase when more people are on the 
lookout, especially in the critical first hours. Our goal is to help 
get these alerts out quickly to the people who are in the best position 
to help, and a number of missing children have been found through AMBER 
Alerts on Facebook.
    Further, we work tirelessly to identify and report child 
exploitation images (CEI) to appropriate authorities. We identify CEI 
through a combination of automated and manual review. On the automated 
review side, we use image hashing to identify known CEI. On the manual 
review side, we provide in-depth training to content reviewers on how 
to identify possible CEI. Confirmed CEI is reported to the NCMEC, which 
then forwards this information to appropriate authorities. When we 
report content to the NCMEC, we preserve account information in 
accordance with applicable law, which can help further law enforcement 
investigations. We also reach out to law enforcement authorities in 
serious cases to ensure that our reports are received and acted upon.
    Since 2015 we have proactively engaged with relevant NGOs working 
to safeguard girls and women from trafficking and violence to 
understand where we can do more. This included a number of roundtables 
on the topic of women's safety, including trafficking and prostitution. 
For example:

  <bullet> X-Industry Child Safety Hackathon: In May 2016, we invited 
        over 75 engineers from across industry, including Microsoft and 
        Google, as well as from child safety NGOs, such as NCMEC, 
        Thorn, and InHope, to the Facebook campus in San Francisco for 
        the first-ever cross industry child safety hackathon to develop 
        tools and products that enhance child online safety (read more 
        at https://www.wearethorn.org/blog/hackathon-creates-tech-
        solutions-child-safety/?utm_
        campaign=coschedule&utm_source=facebook_page&utm_medium=Thorn&ut
        m_
        content=Hackathon%20Creates%20Tech%20Solutions%20for%20Child%20S
        afety). We again hosted the hackathon in 2017 and have now 
        added the TechCoalition and Google as co-hosts to the event to 
        expand its scope and reach. One of the prototypes that came out 
        of the hackathon is a tool that enables people to match known 
        photos of missing children against online trafficking ads.

  <bullet> Roundtable with leading organizations to share best 
        practices and build network. On October 24, 2017, we hosted our 
        first anti-sex trafficking roundtable in Menlo Park. The 
        roundtable was attended by representatives from law enforcement 
        officials, government agencies and anti-trafficking non-
        governmental organizations. The focus of the roundtable was to 
        allow participants to discuss and share expertise, experience, 
        and research. The Sex Trafficking Cross-functional Team will 
        continue to collaborate with both our internal and external 
        partners on the objectives, projects, and deliverables 
        discussed at the roundtable.

    We have created shortcuts on Facebook and Instagram to provide 
education and additional resources (developed in conjunction with the 
National Human Trafficking Resource Center) to people who search for 
terms related to sex trafficking. These terms have been provided by 
internal and external experts and when someone searches for them on 
Facebook, we will have a pop-up that reminds them sex trafficking is 
illegal and violates our policies and shares resources for getting 
help.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Christopher Coons to 
                            Mark Zuckerberg
    Question 1. In 2015, Facebook learned that Aleksandr Kogan sold 
users' data he obtained from an application to the political consulting 
firm Cambridge Analytica in violation of Facebook's terms of service. 
Facebook did not publicly disclose that Cambridge Analytica obtained 
this user data until 2018, after public reports that Kogan had 
improperly sold the data to Cambridge Analytica.
    a. Why did you fail to tell the public until March 2018 that Kogan 
sold the data to Cambridge Analytica?

    b. Who specifically at Facebook made the decision not to tell the 
public that millions of users' data was obtained by Cambridge Analytica 
without their consent?

    c. Your announcement that at least 87 million users had their 
privacy violated came out only recently. In 2015, did you try to 
determine the universe of users whose privacy was violated?

    d. How long have you known the number of affected users was in the 
millions?
    Answer. When Facebook learned about Kogan's breach of Facebook's 
data use policies in December 2015, we took immediate action. The 
company retained an outside firm to assist in investigating Kogan's 
actions, to demand that Kogan and each party he had shared data with 
delete the data and any derivatives of the data, and to obtain 
certifications that they had done so. Because Kogan's app could no 
longer collect most categories of data due to changes in Facebook's 
platform, our highest priority at that time was ensuring deletion of 
the data that Kogan may have accessed before these changes took place. 
With the benefit of hindsight, we wish we had notified people whose 
information may have been impacted. Facebook has since notified all 
people potentially impacted with a detailed notice at the top of their 
newsfeed.

    Question 2. In your testimony for the hearing, you noted, ``In 
2015, we learned from journalists at The Guardian that Kogan had shared 
data from his app with Cambridge Analytica.''
    a. Prior to learning this from The Guardian, what steps was 
Facebook taking to ensure that developers were not selling data to 
third parties in violation of the site's terms of service?
    Answer. Since 2014, Facebook has proactively reviewed any app 
seeking to obtain extended permissions to data beyond a basic set of 
data, and it has rejected more than half of the apps seeking these 
permissions. Before we learned about the Guardian allegations and 
through today, Facebook's policies regarding third-party usage of its 
platform technologies have prohibited--and continue to prohibit--those 
third-party app developers from selling or licensing user data accessed 
from Facebook and from sharing any user data accessed from Facebook 
with any ad network, data broker or other advertising or monetization-
related service. We take action on potential violations of our Platform 
Policies based on proactive review, external reports, and other 
signals.

    b. Why did Facebook wait until eight months after The Guardian's 
report about Cambridge Analytica to send a letter asking for 
certification that the data was deleted?
    Answer. Facebook did not wait until eight months after The 
Guardian's report about Cambridge Analytica to seek assurance that the 
data was deleted. Facebook contacted Cambridge Analytica the day the 
article was released. About one month later, on January 18, 2016, 
Cambridge Analytica assured Facebook in writing that it had deleted the 
data received from Kogan/GSR and that their server contained no backups 
of the data.

    c. If it were not for The Guardian's reporting, would you have 
learned that Kogan sold the data to Cambridge Analytica? If yes, how?
    Answer. We learned from journalists at The Guardian that Kogan may 
have shared data from his app with Cambridge Analytica. We would have 
acted in response to any external report, user report, or other signal 
to investigate these allegations and take appropriate action.

    d. It is likely that there will not always be a newspaper reporting 
on every application developer that improperly sells user data. Has 
Facebook ever proactively (i.e., without being alerted by another 
party) learned about a similar violation of its terms of service--
selling or transferring user data without consent to a third party--and 
if so, how? How many other such instances have you discovered?
    Answer. We regularly take enforcement action against apps. For 
example, in 2017, we took action against about 370,000 apps, ranging 
from imposing certain restrictions to removal of the app from the 
platform.
    As part of the app investigation and audit we announced in March, 
we have suspended 200 apps, pending a thorough investigation into 
whether they did in fact misuse any data. These apps relate to a 
handful of developers: Kogan, AIQ, Cube You, the Cambridge 
Psychometrics Center, and myPersonality, with many of the suspended 
apps being affiliated with the same entity. Many of these apps also 
appear to be ``test'' apps that were never released to the public, and 
therefore would not have acquired significant user data, although our 
investigation into these apps is ongoing.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So, we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.

    Question 3. Why did Facebook only recently suspend Cambridge 
Analytica's and Aleksandr Kogan's Facebook accounts when you knew about 
the illicit transfer of user data back in 2015?
    a. Why did Facebook fail to take legal action back in 2015 when it 
learned from The Guardian that Kogan sold the data to Cambridge 
Analytica?

    b. After Cambridge Analytica's acquisition of data came to 
Facebook's attention in 2015, did any policy or process change within 
your company in response? Please describe any such changes and when 
they occurred.
    Answer. See Response to Question 1.

    Question 4. In 2014, Facebook stopped allowing applications access 
to the profiles of a user's friends, but for applications like 
Aleksandr Kogan's, you still allowed access to friends' data for 
another year. Why did Facebook permit other applications continued 
access to that data for another year?
    Answer. In April 2014, we announced that we would more tightly 
restrict our platform APIs to prevent abuse. At that time we made clear 
that existing apps would have a year to transition--at which point they 
would be forced (1) to migrate to the more restricted API and (2) be 
subject to Facebook's new review and approval protocols. A small number 
of developers asked for and were granted short-term extensions beyond 
the one-year transition period, the longest of which lasted several 
months. These extensions ended several years ago. A transition period 
of this kind is standard when platforms implement significant changes 
to their technology base and was necessary here to avoid disrupting the 
experience of millions of people. New apps that launched after April 
30, 2014 were required to use our more restrictive platform APIs.

    Question 5. Can you now confirm that Cambridge Analytica and its 
partners, AggregateIQ and Strategic Communications Laboratories, have 
deleted the Facebook data they received from Aleksandr Kogan? If not, 
why not?
    a. Has Facebook ever attempted to prevent Cambridge Analytica from 
offering products or services that rely on or use the data it 
improperly obtained from Kogan?

    b. Is there anything that will prevent Cambridge Analytica from 
offering products or services that rely on or use the illicitly 
acquired Facebook data in the 2018 and 2020 elections?
    Answer. Facebook obtained written certifications from Kogan, GSR, 
and other third parties (including Cambridge Analytica and SCL) 
declaring that all data they had obtained, and any derivatives, was 
accounted for and destroyed. Based on recent allegations, we have 
reopened our investigation into the veracity of these certifications 
and have hired a forensic auditor to conduct a forensic audit of 
Cambridge Analytica's systems. We are currently paused on the audit at 
the request of the UK Information Commissioner's Office request, which 
is conducting a regulatory investigation into Cambridge Analytica 
(based in the UK), and we hope to move forward with that audit soon.
    We have suspended SCL/Cambridge Analytica from purchasing 
advertising on Facebook as well as removed the personal accounts of 
some of their officers.

    Question 6. You wrote in your testimony that, in March 2018, 
Facebook hired a firm to conduct a forensic audit of Cambridge 
Analytica and Kogan. Why did Facebook wait until March of 2018 to 
conduct an audit of Cambridge Analytica's and Kogan's systems to ensure 
the data was destroyed, when the company has known for three years that 
the data was misappropriated?
    Answer. Facebook knew about Cambridge Analytica in 2015, when 
Facebook banned Kogan's app from our platform and investigated what 
happened and what further action Facebook should take to enforce our 
Platform Policies. Facebook considered the matter closed after 
obtaining written certifications and confirmations from Kogan, GSR, 
Cambridge Analytica, and SCL declaring that all such data they had 
obtained was accounted for and destroyed.
    We did not have any reason to affirmatively question the veracity 
of any of these certifications until March 2018, when we learned that 
questions had been raised concerning the accuracy of the 
certifications. Moreover, while Facebook's policies in place at the 
time allowed us to audit apps to ensure that they were safe and did not 
violate its terms, we had already terminated Kogan's app's access to 
Facebook (and there was no intention of considering its reinstatement). 
Accordingly, there were no ongoing concerns about the level of data 
that app could access or might access in the future.
    Facebook, and Mr. Zuckerberg, became aware from media reporting in 
March 2018 that the certifications we received may not have been 
accurate. Facebook immediately banned Cambridge Analytica and SCL from 
purchasing advertisements on our services as well as removed the 
personal accounts of some of their officers.

    Question 7. In an interview with CBS's 60 Minutes, Aleksandr Kogan 
estimated that ``tens of thousands'' of application developers had 
similar access to their participants' friends' profiles.
    a. Approximately how many other application developers had access 
to their users' friends' profiles, like Kogan?
    Answer. Facebook is in the process of investigating all the apps 
that had access to large amounts of information, such as extensive 
friends data (if those friends privacy data settings allowed sharing), 
before we changed our platform policies in 2014--significantly reducing 
the data apps could access. Where we have concerns about individual 
apps, we are investigating them--and any app that either refuses or 
fails an audit will be banned from Facebook. To date thousands of apps 
have been investigated and around 200 have been suspended--pending a 
thorough investigation into whether they did in fact misuse any data.
    These apps relate to a handful of developers: Kogan, AIQ, Cube You, 
the Cambridge Psychometrics Center, and myPersonality, with many of the 
suspended apps being affiliated with the same entity. Many of these 
apps also appear to be ``test'' apps that were never released to the 
public, and therefore would not have acquired significant user data, 
although our investigation into these apps is ongoing.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we changed our platform to reduce data access. However, 
these apps appear to be linked to AIQ, which was affiliated with 
Cambridge Analytica. So, we have suspended them while we investigate 
further. Any app that refuses to take part in or fails our audit will 
be banned.

    b. Has Facebook ever learned of an application developer other than 
Kogan transferring or selling user data without user consent and in 
violation of Facebooks terms of service to a third party?
    Answer. The ability for app developers to share data entrusted to 
them is an industry-wide challenge, which impacts every major app 
platform. We will investigate all apps that had access to large amounts 
of data before the platform changes we announced in 2014, and among 
other things, analyze potentially suspicious activity from our analysis 
of logs and usage patterns by these apps. Where we have concerns, we 
will conduct an audit using internal and external experts and ban any 
developer that refuses to comply. If we identify misuses of data, our 
enforcement actions may include banning the app from our platform and 
pursuing legal action if appropriate.

    Question 8. Have there been instances in which Facebook discovered 
misuse of user data by application developers in any way other than 
transferring or selling data without user consent?
    a. If so, how many additional instances does Facebook currently 
know about?

    b. Have you notified any users in these cases? If not, will you 
commit to doing so?

    c. Will you commit to publicly announcing and notifying users of 
every future violation of Facebook's terms of service by application 
developers?
    Answer. We are in the process of investigating every app that had 
access to a large amount of information before we changed our platform 
in 2014. The investigation process is in full swing, and it has two 
phases. First, a comprehensive review to identify every app that had 
access to this amount of Facebook data and to focus on apps that 
present reason for deeper investigation. And second, where we have 
concerns, we will conduct interviews, make requests for information 
(RFI)--which ask a series of detailed questions about the app and the 
data it has access to--and perform audits using expert firms that may 
include on-site inspections. We have large teams of internal and 
external experts working hard to investigate these apps as quickly as 
possible. To date thousands of apps have been investigated and around 
200 apps have been suspended--pending a thorough investigation into 
whether they did in fact misuse any data. Where we find evidence that 
these or other apps did misuse data, we will ban them and let people 
know.
    These apps relate to a handful of developers: Kogan, AIQ, Cube You, 
the Cambridge Psychometrics Center, and myPersonality, with many of the 
suspended apps being affiliated with the same entity. Many of these 
suspensions include apps that appear to be ``test'' apps that were 
never released to the public, and therefore would not have acquired 
significant user data, although our investigation into these apps is 
ongoing.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica. So, we have suspended them 
while we investigate further. Any app that refuses to take part in or 
fails our audit will be banned.
    We will commit to briefing your staff on future developments.

    Question 9. The Guardian recently reported that Joseph Chancellor, 
former co-director of Aleksandr Kogan's company, Global Science 
Research (GSR), has been working as a quantitative social psychologist 
at Facebook since 2015. In an interview for CBS's 60 Minutes, Kogan was 
asked whether Chancellor had anything to do with the study he did for 
Cambridge Analytica. He replied, ``Yes. I mean, we did everything 
together.''
    a. Does Facebook continue to employ Chancellor, knowing since 2015 
that he was involved in GSR's harvesting and sale of Facebook data to 
Cambridge Analytica? If so, why?

    b. Facebook banned Aleksandr Kogan's account and required that he 
certify the user data he harvested was deleted. Did Facebook take 
similar actions against Chancellor? If not, why not?
    Answer. We are investigating Mr. Chancellor's work with Kogan/GSR.

    Question 10. Cambridge Analytica whistleblower Christopher Wylie 
testified to the U.K. House of Commons that Russian intelligence 
agencies easily could have put a key logger in Aleksandr Kogan's 
computer during his regular trips to Russia to get his psychological 
profiles of Americans. Is Facebook aware of whether Russia or other 
foreign governments accessed Kogan's data?
    Answer. We are not aware of any evidence to suggest that Kogan 
shared data obtained through his app with Russia or other foreign 
governments, but our investigation is ongoing.

    a. Is Facebook aware of any instances in which foreign governments 
accessed user data from third-party application developers?
    Answer. We are in the process of investigating every app that had 
access to a large amount of information before we changed our Platform 
in 2014.

    b. What steps is Facebook taking to ensure that foreign governments 
cannot access the private information of U.S. citizens held by 
application developers?
    Answer. In April 2014, we announced that we would more tightly 
restrict our platform APIs to prevent abuse. At that time we made clear 
that existing apps would have a year to transition--at which point they 
would be forced (1) to migrate to the more restricted API and (2) be 
subject to Facebook's new review and approval protocols. A small number 
of developers asked for and were granted short-term extensions beyond 
the one-year transition period, the longest of which lasted several 
months. These extensions ended several years ago. A transition period 
of this kind is standard when platforms implement significant changes 
to their technology base and was necessary here to avoid disrupting the 
experience of millions of people. New apps that launched after April 
30, 2014 were required to use our more restrictive platform APIs. We 
required apps seeking additional categories of data to undergo 
proactive review by our internal teams. We rejected more than half of 
the apps seeking these permissions, including the second version of 
Kogan's app.
    We review apps to ensure that the requested permissions clearly 
improve the user experience and that the data obtained is tied to an 
experience within the app. We conduct a variety of manual and automated 
checks of applications on the platform for Policy compliance, as well 
as random sampling. When we find evidence of or receive allegations of 
violations, we investigate and, where appropriate, employ a number of 
measures, including restricting applications from our platform, 
preventing developers from building on our platform in the future, and 
taking legal action where appropriate.
    Recently, we announced a number of additional steps we're taking to 
address concerns raised by Kogan's app.

  <bullet> Review our platform. We will investigate all apps that had 
        access to large amounts of data before the platform changes we 
        announced in 2014, and we will audit any app where we identify 
        suspicious activity. If we identify misuses of data, we'll take 
        immediate action, including banning the app from our platform 
        and pursuing legal action if appropriate.

  <bullet> Tell people about data misuse. We will tell people about 
        apps that have misused their data. This includes building a way 
        for people to know if their data might have been accessed via 
        the app. Moving forward, if we remove an app for misusing data, 
        we will tell everyone who used it.

  <bullet> Turn off access for unused apps. If someone has not used an 
        app within the last three months, we will turn off the app's 
        access to their data.

  <bullet> Restrict Facebook Login data. We are changing Login, so that 
        the only data that an app can request without app review will 
        include name, profile photo, and e-mail address. Requesting any 
        other data will require approval from Facebook. We will also no 
        longer allow apps to ask for access to information like 
        religious or political views, relationship status and details, 
        custom friends lists, education and work history, fitness 
        activity, book reading and music listening activity, news 
        reading, video watch activity, and games activity. We will 
        encourage people to manage the apps they use. We already show 
        people what apps their accounts are connected to and allow them 
        to control what data they've permitted those apps to use. But 
        we're making it easier for people to see what apps they use and 
        the information they have shared with those apps.

  <bullet> Reward people who find vulnerabilities. We launched the Data 
        Abuse Bounty program so that people can report to us any 
        misuses of data by app developers.

  <bullet> Update our policies. We have updated our terms and Data 
        Policy to explain how we use data and how data is shared with 
        app developers.

    c. Is there a way for Facebook to affirmatively track Facebook data 
that application developers download from the platform such that you 
know when that data has been improperly accessed or transferred?
    Answer See Response to Question 10, part b.

    Question 11. Why did Facebook threaten The Guardian with legal 
action after it sought to publish an interview with former Cambridge 
Analytica employee Christopher Wylie? Has Facebook ever taken legal 
action against a current or former employee who attempted to, or did, 
expose violations of user agreements?
    Answer. Facebook did not threaten to sue The Guardian. We sent The 
Guardian a letter to correct some facts in the article they sought to 
publish. Facebook supports vocal, independent journalism.

    Question 12. Facebook sends employees or affiliates to work as 
consultants with campaigns to help shape digital strategy, content, and 
execution. Do you plan to embed such Facebook consultant embeds in 
major political campaigns in the 2018 and 2020 elections? If yes, what 
will Facebook instruct such consultant embeds about their 
responsibility to monitor for improper uses of Facebook user data or 
breaches of the Facebook user agreement?
    Answer. We want all candidates, groups, and voters to use our 
platform to engage in elections. We want it to be easy for people to 
find, follow, and contact their elected representatives--and those 
running to represent them. That's why, for candidates across the 
political spectrum, Facebook offers the same levels of support in key 
moments to help campaigns understand how best to use the platform.

    a. Were any of Facebook's consultant embeds in 2016 aware of the 
user data improperly acquired by Cambridge Analytica?
    Answer. While our investigation is ongoing, our review indicates 
that Facebook employees did not identify any issues involving the 
improper use of Facebook data in the course of their interactions with 
Cambridge Analytica during the 2016 U.S. Presidential campaign.

    b. Did Facebook consultant embeds work with Cambridge Analytica in 
shaping strategy for any U.S. campaigns in 2016?
    Answer. In general, political data firms working on the 2016 
campaign had access to Facebook's advertising support services, 
including technical support, and best practices guidance on how to 
optimize their use of Facebook.

    Question 13. In 2011, Facebook entered into a binding consent 
decree with the FTC, in which it promised to get users' consent before 
sharing their data with third parties. Yet, as late as 2015, app 
developers had access to the Facebook profiles of the friends of users 
who downloaded their apps, without the friends' knowledge or consent. 
Why did Facebook permit this even after entering into the consent 
decree with the FTC?
    a. In the consent decree, Facebook further agreed to report any 
unauthorized access to data to the FTC. Did Facebook ever report to the 
FTC that Cambridge Analytica accessed the profiles of at least 87 
million Facebook users without Facebook's authorization or those users' 
consent?

    b. If not, why not, and who made the decision that this did not 
have to be reported to the FTC?
    Answer. We furnished extensive information to the FTC regarding the 
ability for users to port their Facebook data (including friends data 
that had been shared with them) with apps on Facebook's platform, as 
part of the FTC's investigation culminating in the July 27, 2012 
Consent Order. The Consent Order memorializes the agreement between 
Facebook and the FTC and did not require Facebook to turn off or change 
the ability for people to port friends data that had been shared with 
them on Facebook to apps they used. Facebook voluntarily changed this 
feature of Platform in 2014, however.
    Instead, and among other things, the consent order obligates 
Facebook not to misrepresent the extent to which it maintains the 
privacy or security of covered information (Section I), not to 
materially exceed the restrictions of a privacy setting that applies to 
nonpublic user information without affirmative express consent (Section 
II), and to implement a comprehensive privacy program that is subjected 
to ongoing review by an independent assessor (Sections IV and V). 
Facebook (i) accurately represented the operation of its developer 
Platform and the circumstances under which people could share data 
(including friends data) with developers at all times; (ii) honored the 
restrictions of all privacy settings that covered developer access to 
data (including settings that allowed people to turn off the ability of 
their friends to share their data with apps); and (iii) implemented a 
comprehensive privacy program build on industry-leading controls and 
principles, which has undergone ongoing review by an independent 
assessor approved by the FTC.
    The Consent Order does not contain ongoing reporting obligations to 
the FTC of the sort suggested in this question. Moreover, Kogan was 
authorized to access all data that he obtained through Facebook's 
platform by the people who authorized his app, and no data was shared 
with Kogan relating to friends who had enabled settings preventing 
their data from being shared with apps by their friends.

    Question 14. Last year, Facebook generated almost $40 billion in 
advertising revenues. How much is Facebook spending on data privacy and 
security?
    a. How much is Facebook spending to ensure compliance with civil 
rights laws?
    Answer. We do not have a single budget line-item for these efforts.

    b. The NAACP, Muslim Advocates, the Leadership Conference, the 
Southern Poverty Law Center, and over a dozen other civil rights 
organizations asked for a third-party civil rights audit of Facebook's 
policies in October 2017. Will you commit to hiring an independent 
third party to conduct an audit focused on civil rights and privacy?
    Answer. Relman, Dane & Colfax, a respected civil rights law firm, 
will carry out a comprehensive civil rights assessment of Facebook's 
services and internal operations. Laura Murphy, a national civil 
liberties and civil rights leader, will help guide this process--
getting feedback directly from civil rights groups, like The Leadership 
Conference on Civil and Human Rights, and help advise Facebook on the 
best path forward.

    Question 15. Does Facebook use artificial intelligence to analyze 
content posted by users in order to assist in the creation of targeted 
advertisements? How many individuals are involved in reviewing 
advertisements that are targeted using personal information?
    Answer. Facebook does not analyze the content of photos or text in 
users' posts or messages to target ads to them using AI or otherwise. 
Instead, there are a few primary ways that we personalize the ads and 
sponsored content for people on Facebook, based on:

  <bullet> Information from people's use of Facebook. When people use 
        Facebook, they can choose to share things about themselves like 
        their age, gender, hometown, or interests. They can also click 
        or like posts, Pages, or articles. We use this information to 
        understand what users might be interested in and hopefully show 
        them ads that are relevant. If a bike shop comes to Facebook 
        wanting to reach female cyclists in Atlanta, we can show their 
        ad to women in Atlanta who liked a Page about bikes. People can 
        always see the ``interests'' assigned to them in their ad 
        preferences, and if they want, remove them.

  <bullet> Information that an advertiser shares with us (or ``custom 
        audiences''). In this case, advertisers bring us the customer 
        information so they can reach those people on Facebook. These 
        advertisers might have people's e-mail address from a purchase 
        users made, or from some other data source. If we have matching 
        e-mail addresses, we can show those people ads from that 
        advertiser (although we cannot see the e-mail addresses which 
        are sent to us in hashed form, and these are deleted as soon as 
        we complete the match). In ad preferences people can see which 
        advertisers with their contact information are currently 
        running campaigns--and they can click the top right corner of 
        any ad to hide all ads from that business.

  <bullet> Information that websites and apps send to Facebook. Some of 
        the websites and apps people visit may use Facebook tools to 
        make their content and ads more relevant, if people consent to 
        let Facebook show them ads based on data from third-party 
        partners. For example, if an online retailer is using Facebook 
        Pixel, they can ask Facebook to show ads to people who looked 
        at a certain style of shoe or put a pair of shoes into their 
        shopping cart. If users don't want this data used to show them 
        ads, they can turn it off in ad preferences.

  <bullet> Facebook also offers Lookalike Audiences. Advertisers 
        creating a Lookalike Audience choose a source audience (which 
        could include a custom audience as described above, people who 
        have opened or completed a form in lead ads on Facebook, people 
        who have interacted with the advertiser's Facebook page or its 
        Instagram profile). Facebook then identifies common qualities 
        of the people in the source audience (e.g., demographic 
        information or information about their interests), and then 
        identifies people who are similar to them (on the basis of the 
        common signals identified in the source audience), without 
        sharing this information with the advertiser.

    We have thousands of people whose job it is to help review ads for 
compliance with our policies. We recently announced that we are hiring 
thousands of additional reviewers this year.

    Question 16. Would it be possible to create a one-click way for a 
Facebook user to opt out of targeted advertising?

    a. Why did you decide not to offer that option to users?

    b. Will you commit to offering that option in the future?

    c. Have you considered creating a one-click way for a user to 
prevent Facebook from collecting and storing data beyond what 
individual users elect to post?
    Answer. Users can't opt out of seeing ads altogether because 
selling ads are what keep Facebook free, but they do have different 
options to control how their data can and can't be used to show them 
ads. They're all found in ad preferences, which allows users to turn 
off the use of all data collected from partners off Facebook to target 
ads.
    Users can also decide which of their profile fields they want used 
for ad targeting in the Information section under ``About you.'' Users 
can remove themselves from interests under ``Your interests'' and 
categories under ``Your categories.''

    Question 17. What do Facebook and its subsidiary companies consider 
``private'' information that is not collected or used for advertising 
purposes? Is there any content that users provide or post that Facebook 
does not analyze or review for advertising purposes?
    Answer. As explained in our Data Policy, we collect three basic 
categories of data about people: (1) data about things people do and 
share (and who they connect with) on our services, (2) data about the 
devices people use to access our services, and (3) data we receive from 
partners, including the websites and apps that use our business tools. 
Our Data Policy provides more detail about each of the three 
categories.
    We use data from each of the categories described above to obtain 
these interests and to personalize every aspect of our services, which 
is the core value we offer and the thing that makes Facebook services 
unique from other online experiences. This includes selecting and 
ranking relevant content, including ads, posts, and Page 
recommendations, to cite but a few examples.
    For example, we use the data people provide about their age and 
gender to help advertisers show ads based on those demographics but 
also to customize the pronouns on our site and deliver relevant 
experiences to those users.
    We use data about things people do on Facebook, such as the Pages 
they like, to associate ``interests'' with their accounts, so we can 
rank posts relating to those interests higher in NewsFeed, for example, 
or enable advertisers to reach audiences--i.e., groups of people--that 
share those interests. For example, if a person has liked Pages about 
baseball, we might associate them with interests called ``baseball'' or 
``sports.''
    We use data from devices (such as location data) to help 
advertisers reach people in particular areas. For example, if people 
have shared their device locations with Facebook or checked into a 
specific restaurant, we can show them organic posts from friends who 
have been in that location or we can show them ads from an advertiser 
that wants to promote its services in their area or from the 
restaurant.
    We also help advertisers reach people who have given the advertiser 
their contact information or who have used the advertiser's website or 
app. For example, advertisers can send us a hashed list of e-mail 
addresses of people they would like to reach on Facebook. If we have 
matching e-mail addresses, we can show those people ads from that 
advertiser (although we cannot see the e-mail addresses which are sent 
to us in hashed form, and these are deleted as soon as we complete the 
match).
    Again, for people who are new to Facebook, we may have minimal data 
that we can use to personalize their experience, including their News 
Feed, their recommendations and the content (organic and sponsored) 
that they see. For people who have used our services for longer, we 
likely have more data, but the amount of data will depend on the nature 
of that use and how they have used our controls.
    In addition to general controls--such as Activity Log--we provide 
controls that specifically govern the use of data for ads. Through Ad 
Preferences, people see and control things like: (1) their 
``interests,'' which are keywords associated with a person based on 
activities such liking Pages and clicking ads; (2) their ``behaviors'' 
(which we also call ``categories''), which generally reflect how, when 
and where they connect to Facebook; and (3) the advertisers that are 
currently showing them ads based on the person's contact information, 
based on the person's previous use of the advertiser's website or app, 
or based on a visit to the advertiser's store. People also can choose 
whether we use information about their activities on websites and apps 
off of Facebook to show them ads through Facebook, and whether we can 
use their Facebook advertising interests to show them ads off of 
Facebook. People's use of these controls will, of course, affect the 
data we use to show them ads.

    Question 18. If a user leaves Facebook and affirmatively deletes 
his/her account, do you destroy his/her data?

    a. What, if any, information is retained after a user profile is 
deleted?

    b. If any data is retained by Facebook, what is that data used for?
    Answer. In general, when a user deletes their account, we delete 
things they have posted, such as their photos and status updates, and 
they won't be able to recover that information later. (Information that 
others have shared about them isn't part of their account and won't be 
deleted.)
    There are some limited exceptions to these policies: For instance, 
information can be accessed and preserved for an extended period when 
it is the subject of a legal request or obligation, governmental 
investigation, or investigations of possible violations of our terms or 
policies, or otherwise to prevent harm. We also retain information from 
accounts disabled for terms violations for at least a year to prevent 
repeat abuse or other term violations.

    Question 19. At your hearing before the House Committee on Commerce 
and Energy, when asked by Representative Gene Greene if you would 
``commit today that Facebook will extend the same protections to 
Americans that Europeans users will receive under the GDPR,'' you 
replied: ``Yes Congressman, we believe that everyone around the world 
deserves good privacy controls. We've had a lot of these privacy 
controls in place for years, the GDPR requires us to do a few more 
things, and we're going to extend that to the world.'' However, Reuters 
recently reported that, before the GDPR becomes effective in the EU in 
May, you plan to move non-European users' data--including profile data 
on 1.5 billion users from Africa, Asia, Australia, and Latin America--
from Ireland to Silicon Valley in order to ``reduce exposure'' to the 
GDPR (available at https://www.reuters.com/article/us-facebook-privacy-
eu
-exclusive/exclusive-facebook-to-put-1-5-billion-users-out-of-reach-of-
new-eu-privacy-law-idUSKBN1HQ00P).
    a. Can you confirm that the reason you are moving 1.5 billon users' 
data is to avoid unnecessary exposure to the GDPR?
    Answer. No, that is not the reason. The change referred to in this 
question involves the legal entity with which Facebook users contract 
when they use the service, which changed in some jurisdictions as a 
part of the most recent updates to our Terms of Service and Data 
Policy. This change did not impact people who live in the United 
States, who contract with Facebook, Inc. under both our new and old 
policies.
    The substantive protections in our user agreements offered by 
Facebook Ireland and Facebook, Inc. are the same. However, there are 
certain aspects of our Facebook Ireland Data Policy that are specific 
to legal requirements in the GDPR--such as the requirement that we 
provide contact information for our EU Data Protection Officer (DPO) or 
that we identify the ``legal bases'' we use for processing data under 
the GDPR. Likewise, our Facebook Ireland terms and Data Policy address 
the lawful basis for transferring data outside the EU, based on legal 
instruments that are applicable only to the EU.
    We are also looking to be more responsive to regional norms and 
legal frameworks going forward, and want to have the flexibility to 
work with local regulators, which is possible with this new model. At 
the same time, we are changing the provisions in our Facebook, Inc. 
terms in our user agreements outside the United States to allow people 
in other countries to file lawsuits against Facebook in their home 
country, rather than in courts in the U.S. This transition was part of 
a continued effort to be locally responsive in countries where people 
use our services.

    b. Do you agree that such a move fails to show your willingness to 
apply stronger privacy controls and practices to all of your users?
    Answer. No. See the answer above. In addition, the controls and 
settings that Facebook is enabling as part of GDPR are already 
available to other users around the world, including settings for 
controlling our use of face recognition on Facebook and for controlling 
our ability to use data we collect off Facebook Company Products to 
target ads. We also provide the same tools for access, rectification, 
erasure, data portability and others to users in the U.S. and rest of 
world that we provide in Europe, and many of those tools (like our 
Download Your Information tool, Ads Preferences tool, and Activity Log) 
have been available globally for many years.

    c. Is your response to Representative Greene at your hearing, that 
you were ``going to extend [the things required by the GDPR] to the 
world,'' consistent with Facebook's actions to relocate massive amounts 
of user data outside of the EU following your hearings?
    Answer. We are not relocating people's data. To enable people to 
access Facebook globally and communicate with people throughout the 
world, we maintain data centers in multiple locations around the world. 
We typically store people's information in multiple data centers, and 
that is not changing. We are instead changing the entity that provides 
the service for users outside of Europe and North America to Facebook, 
Inc., for the reasons set forth above. We are offering the same 
controls and settings to people everywhere.

    Question 20. Facebook continues to find Russian trolls operating on 
your platform. At your hearing, you stated, ``just last week, we were 
able to determine that a number of Russian media organizations that 
were sanctioned by the Russian regulator were operated and controlled 
by this Internet Research Agency.'' Hate groups thrive on Facebook even 
though your policies prohibit hate speech and glorifying violence. Fake 
duplicate profiles of real users frequently appear on the site in spite 
of Facebook policy prohibiting them. This recently happened to me, and 
I had to alert Facebook in order to have this false profile taken down. 
Why does Facebook shift the burden to its users to flag inappropriate 
content--is it not Facebook's job to protect its users?
    Answer. Facebook does not ``shift the burden'' to users to flag 
inappropriate content, though we encourage people to report posts to 
help us find and take action on inappropriate content. Advances in 
technology, including in artificial intelligence, machine learning, and 
computer vision mean that we can now remove bad content faster, get to 
more content, and increase the capacity of our review team. It has 
taken time to develop this software--and we're constantly pushing to 
improve it. We do this by analyzing specific examples of bad content 
that have been reported and removed to identify patterns of behavior. 
These patterns can then be used to teach our software to proactively 
find other, similar problems. But understanding the context of speech, 
for example, often requires human eyes--is something hateful, or is it 
being shared to condemn hate speech or raise awareness about it? We've 
started using technology to proactively detect something that might 
violate our policies, starting with certain languages such as English 
and Portuguese. Our teams then review the content so what's OK stays 
up, for example someone describing hate they encountered to raise 
awareness of the problem.

    a. Is Facebook's artificial intelligence technology capable of 
automatically flagging fake profiles?
    Answer. Claiming to be another person violates our Community 
Standards, and we want to make it harder for anyone to be impersonated 
on our platform. Users can also report accounts that are impersonating 
them. We've developed several techniques to help detect and block this 
type of abuse. At the time someone receives a friend request, our 
systems are designed to check whether the recipient already has a 
friend with the same name, along with a variety of other factors that 
help us determine if an interaction is legitimate. Further, we recently 
announced new features that use face recognition technology that may 
help detect when someone is using another user's image as their profile 
photo--which helps stop impersonation. This is an area we're 
continually working to improve so that we can provide a safe and secure 
experience on Facebook.

    b. Is there currently any automated system in place for flagging 
fake profiles or fake news articles at Facebook?
    Answer. We block millions of fake account attempts each day as 
people try to create them thanks to improvements in machine learning 
and artificial intelligence. We are also working hard to stop the 
spread of false news. To reduce the spread of false news, we remove 
fake accounts and disrupt economic incentives for traffickers of 
misinformation. We also use various signals, including feedback from 
our community, to identify potential false news. In countries where we 
have partnerships with independent third-party fact-checkers, stories 
rated as false by those fact-checkers are shown lower in News Feed. If 
Pages or domains repeatedly create or share misinformation, we 
significantly reduce their distribution and remove their advertising 
rights.

    c. If yes, do Facebook employees review every such potentially fake 
profile or news article that these systems flag?
    Answer. Not every fake account that has been disabled is reviewed 
as the volume is simply too great (Facebook took action on 
approximately 583 million fake accounts in the first three months of 
2018). But our engineers carefully test and retest the accuracy of the 
policies and rules they implement to identify and disable fake 
accounts.

    d. Do Facebook employees manually search for fake content, or is 
the function of flagging fake or inappropriate content left solely to 
users and automated systems?
    Answer. See Response to previous question (Question 20, part c).

    Question 21. Special Counsel Robert Mueller's indictment of 13 
Russian individuals and three Russian companies states that the 
Russians have engaged in `` `information warfare against the United 
States of America' through fictitious U.S. personas on social media 
platforms,'' including Facebook. As a U.S. company, do you have an 
obligation to prevent your platform from being used as a weapon against 
our democracy?

    a. What are you doing to prevent Facebook from being used for 
information warfare in the 2018 election and beyond?
    Answer. In the run-up to the 2016 elections, we were focused on the 
kinds of cybersecurity attacks typically used by nation states, for 
example phishing and malware attacks. And we were too slow to spot this 
type of information operations interference. Since then, we've made 
important changes to prevent bad actors from using misinformation to 
undermine the democratic process.
    This will never be a solved problem because we're up against 
determined, creative, and well-funded adversaries. But we are making 
steady progress. Here is a list of the 10 most important changes we 
have made:

        1. Ads transparency. Advertising should be transparent: users 
        should be able to see all the ads an advertiser is currently 
        running on Facebook, Instagram and Messenger. And for ads with 
        political content, we've created an archive that will hold ads 
        with political content for seven years--including information 
        about ad impressions and spend, as well as demographic data 
        such as age, gender, and location. People in Canada and Ireland 
        can already see all the ads that a Page is running on 
        Facebook--and we're launching this globally in June.

        2. Verification and labeling. Every advertiser will now need 
        confirm their ID and location before being able to run any ads 
        with political content in the U.S. All ads with political 
        content will also clearly state who paid for them.

        3. Updating targeting. We want ads on Facebook to be safe and 
        civil. We thoroughly review the targeting criteria advertisers 
        can use to ensure they are consistent with our principles. As a 
        result, we removed nearly one-third of the targeting segments 
        used by the IRA. We continue to allow some criteria that people 
        may find controversial. But we do see businesses marketing 
        things like historical books, documentaries or television shows 
        using them in legitimate ways.

        4. Better technology. Over the past year, we've gotten 
        increasingly better at finding and disabling fake accounts. We 
        now block millions of fake accounts each day as people try to 
        create them--and before they've done any harm. This is thanks 
        to improvements in machine learning and artificial 
        intelligence, which can proactively identify suspicious 
        behavior at a scale that was not possible before--without 
        needing to look at the content itself.

        5. Action to tackle fake news. We block millions of fake 
        account attempts each day as people try to create them thanks 
        to improvements in machine learning and artificial 
        intelligence. We are also working hard to stop the spread of 
        false news. To reduce the spread of false news, we remove fake 
        accounts and disrupt economic incentives for traffickers of 
        misinformation. We also use various signals, including feedback 
        from our community, to identify potential false news. In 
        countries where we have partnerships with independent third-
        party fact-checkers, stories rated as false by those fact-
        checkers are shown lower in News Feed. If Pages or domains 
        repeatedly create or share misinformation, we significantly 
        reduce their distribution and remove their advertising rights.

        6. Significant investments in security. We're doubling the 
        number of people working on safety and security from 10,000 
        last year to over 20,000 this year. We expect these investments 
        to impact our profitability. But the safety of people using 
        Facebook needs to come before profit.

        7. Industry collaboration. Recently, we joined 34 global tech 
        and security companies in signing a TechAccord pact to help 
        improve security for everyone.

        8. Information sharing and reporting channels. In the 2017 
        German elections, we worked closely with the authorities there, 
        including the Federal Office for Information Security (BSI). 
        This gave them a dedicated reporting channel for security 
        issues related to the Federal elections.

        9. Tracking 40+ elections. In recent months, we've started to 
        deploy new tools and teams to proactively identify threats in 
        the run-up to specific elections. We first tested this effort 
        during the Alabama Senate election, and plan to continue these 
        efforts for elections around the globe, including the U.S. 
        midterms. Last year we used public service announcements to 
        help inform people about fake news in 21 separate countries, 
        including in advance of French, Kenyan and German elections.

        10. Action against the Russia-based IRA. In April, we removed 
        70 Facebook and 65 Instagram accounts--as well as 138 Facebook 
        Pages--controlled by the IRA primarily targeted either at 
        people living in Russia or Russian-speakers around the world 
        including from neighboring countries like Azerbaijan, 
        Uzbekistan, and Ukraine. The IRA has repeatedly used complex 
        networks of inauthentic accounts to deceive and manipulate 
        people in the U.S., Europe and Russia--and we don't want them 
        on Facebook anywhere in the world.

    We are taking steps to enhance trust in the authenticity of 
activity on our platform, including increasing ads transparency, 
implementing a more robust ads review process, imposing tighter content 
restrictions, and exploring how to add additional authenticity 
safeguards.

    b. Have you made any attempt to identify Russian political 
advertisements or troll accounts that are not associated with the 
Internet Research Agency?
    Answer. Facebook has conducted a broad search for evidence that 
Russian actors, not limited to the IRA or any other specific entity or 
organization, attempted to interfere in the 2016 election by using 
Facebook's advertising tools. We found coordinated activity that we now 
attribute to the IRA, despite efforts by these accounts to mask the 
provenance of their activity. We have used the best tools and 
analytical techniques that are available to us to identify the full 
extent of this malicious activity, and we continue to monitor our 
platform for abuse and to share and receive information from others in 
our industry about these threats.

    Question 22. Do you have the technology or capability to detect 
when a foreign entity is attempting to buy a political ad?
    Answer. Now all election and issue ads on Facebook and Instagram in 
the U.S. must be clearly labeled--including a ``Paid for by'' 
disclosure from the advertiser at the top of the ad. This will help 
ensure that people can see who is paying for the ad--which is 
especially important when the Page name doesn't match the name of the 
company or person funding the ad. This also meets the commitments we 
made back in October 2017 to increase the transparency of the election-
related ads people see on Facebook.
    When people see that label, it means the person running the ad went 
through the authorization process and verified his or her identity and 
location. We believe this new level of transparency is good for people, 
and it will allow journalists, researchers, NGOs and others to hold 
campaigns, candidates and organizations accountable for the ads they 
create. And all people on Facebook, no matter where they live, will 
also be able to access and review a searchable archive that will house 
these ads for seven years from the day they run. More information about 
our transparency efforts can be found at our recent Newsroom posthere: 
https://newsroom.fb.com/news/2018/05/hard-questions-political-ads.
    Moreover, Facebook's Statement of Rights and Responsibilities (the 
terms that govern all use of our services) prohibit using Facebook to 
do anything that is unlawful, misleading, or malicious. In addition, 
advertisers must comply with Facebook's Advertising Policies, including 
acknowledging that they are responsible for understanding and complying 
with all applicable laws and regulations. Therefore, violating the 
Federal Election Campaign Act also violates our terms.
    We also have processes designed to identify inauthentic and 
suspicious activity and we also maintain a sanctions compliance program 
to screen advertisers and paid app developers. Facebook's denied party 
screening protocol involves checking paid app developers and 
advertisers against applicable denied party listings. Those screened 
remain in an on-going monitoring portfolio and are screened against 
changes to applicable denied party listings. Moreover, our payments 
subsidiaries file Suspicious Activity Reports on developers of certain 
apps as appropriate. However, like other offline and online companies, 
Facebook has limited insight into the use of shell corporations or 
other sophisticated structures that may disguise the true buyer. In 
addition, the general challenge of attributing online activities to 
specific governments or organizations is widely recognized in the 
intelligence and law enforcement communities.

    a. If so, do you have any procedures to inform U.S. enforcement 
agencies when a foreign entity is attempting to buy a political ad or 
when it may be taking other steps to interfere in an election?
    Answer. In general, we have a long history of working successfully 
with the DOJ, the FBI, and other law enforcement to address a wide 
variety of threats to our platform. We deeply respect and value the 
seriousness, diligence, and support of those organizations, and we 
would welcome their partnership as we work to address this specific 
threat. We are particularly encouraged by the FBI's creation of a task 
force dedicated to addressing election interference and we are actively 
working with that newly-formed body. This is a new kind of threat, and 
we believe that we will need to work together--across industry and 
between industry and government--to be successful.

    b. What trends have you discovered with respect to the rate at 
which foreign entities are attempting to interfere in our elections? Is 
this tactic becoming more prevalent over time?
    Answer. See Response to Question 21, part b.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mazie Hirono to 
                            Mark Zuckerberg
Collection of Personal Data of Non-Facebook Users
    Question 1. We asked you many questions at our hearing about what 
rights Facebook users have or should have to know what personal data of 
theirs Facebook has, to know who their data is shared with, and to have 
effective control over the use of their personal data. At a hearing the 
next day in the House of Representatives, you testified that Facebook 
also collects ``data of people who have not signed up for Facebook.'' 
These are people who are not on Facebook and have had no ability to opt 
in or out of sharing their personal data. In many if not most 
instances, they may not know that Facebook has collected this data.
    In response to criticism of this revelation, Facebook told the 
press that it has no plans to build a tool that would disclose to non-
users that their data had been collected. Facebook's statement stated 
that ``[t]his kind of data collection is fundamental to how the 
Internet works,'' and ``standard to how the Internet works'' and 
suggested that people use ``browser or device settings to delete 
cookies,'' which are one of the ways in which Facebook and others track 
people on the internet.
    I have serious concerns that this answer is incomplete and 
dismissive of the concerns. You said at the House hearing that this 
kind of 3rd-party data collection was done for ``security purposes.'' 
But that answer also seems incomplete and not consistent with 
Facebook's later statement that this is ``standard to how the Internet 
works.'' Let me give you an opportunity to clarify.
    a. Why do you collect this third party personal data from non-
Facebook users?

    b. How do you collect this third party personal data from non-
Facebook users? Please be specific, including whether and how you use 
``cookies'' and other hidden trackers.

    c. How do you use the personal data you collect from non-Facebook 
users? What do you use it to measure or analyze?

    d. Do you use the personal data of non-Facebook users to target 
ads? If so, how is that consistent with your testimony at the hearing 
that such data is collected for ``security purposes''?

    e. Does collecting cookies from any websites with Facebook ``like'' 
buttons or otherwise tracking the data of non-Facebook users serve any 
``security purposes''? If so, how? If not, why did you testify that the 
collection of such date was for ``security purposes''?

    f. How do you store personal data you collect from non-Facebook 
users? Do you ever delete this data?
    Answer. When people visit apps or websites that feature our 
technologies--like the Facebook Like or Comment button--our servers 
automatically log (i) standard browser or app records of the fact that 
a particular device or user visited the website or app (this connection 
to Facebook's servers occurs automatically when a person visits a 
website or app that contains our technologies, such as a Like button, 
and is an inherent function of Internet design); and (ii) any 
additional information the publisher of the app or website chooses to 
share with Facebook about the person's activities on that site (such as 
the fact that a purchase was made on the site). This is a standard 
feature of the Internet, and most websites and apps share this same 
information with multiple different third-parties whenever people visit 
their website or app. For example, the Senate Commerce Committee's 
website shares information with Google and its affiliate DoubleClick 
and with the analytics company Webtrends. This means that, when a 
person visits the Committee's website, it sends browser information 
about their visit to each one of those third parties. More information 
about how this works is available at https://newsroom.fb.com/news/2018/
04/data-off-facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product, or use specific features like our Like button--
but without providing any information about a specific person. We do 
not create profiles for non-Facebook users, nor do we use browser and 
app logs for non-Facebook users to show targeted ads from our 
advertisers to them or otherwise seek to personalize the content they 
see. However, we may take the opportunity to show a general ad that is 
unrelated to the attributes of the person or an ad encouraging the non-
user to sign up for Facebook.

    Question 2. According to the Princeton Web Transparency & 
Accountability Project (WebTAP), Facebook trackers are used on about 25 
percent of the top million websites. Gabriel Weinberg, CEO and Founder 
of DuckDuckGo, an Internet privacy company, wrote recently on 
FastCompany.com that Facebook uses these trackers to create ``shadow 
profiles'' even of non-Facebook users based on their browsing history. 
However, Facebook said in a press statement that it does not create 
databases on non-users by combining web-browsing history with uploaded 
contacts.
    a. Can you confirm that you do not create such databases of non-
users or clarify in what ways you collect and use the personal data of 
non-users that you collect?

    b. Can you specify whether you use tracking of non-Facebook users' 
personal data to create ``shadow profiles'' of them and/or any other 
type of profile of them and, if so, how are these profiles used?

    c. Do you believe that Americans who use the Internet have a right 
to know they are being tracked and profiled by Facebook and other 
companies like Google? Do you believe American have the right to have 
access to the contents of those profiles?

    d. Given that non-users of Facebook have not had the opportunity to 
consent at all to Facebook's collection of their data, let alone its 
use, do you believe they should be given the opportunity to ``opt in'' 
before their personal data is tracked and captured?
    Answer. Facebook does not create profiles or track website visits 
for people without a Facebook account. See response to Question 1 for 
more detail.
Adopting the EU's Model for Personal Data Protection
    Question 3. On May 25, just a few weeks from now, the European 
Union will put into effect its new General Data Protection Regulation, 
or GDPR. Under that system, the concept of ownership over personal data 
is almost completely upside down from what we have in America. In 
Europe, where data protection is a fundamental right, consent to use 
that information can only be given if it is clear, affirmative and 
unambiguous. Owners of data may withdraw their consent at any time, and 
companies and organizations must notify the EU of serious data breaches 
as soon as possible, and not wait years, as happens here.
    The week before our hearing, you told reporters that you intend to 
make the same controls and settings required under the GDPR everywhere. 
However, when you were asked about applying these new regulations in 
the U.S., you were much more vague, committing only that applying these 
European regulations here in the U.S. is ``worth discussing.'' I want 
to start having that discussion now.
    a. Will you commit to making the setting and controls required by 
GDPR available everywhere, including in America? If not, why not, and 
what privacy controls and settings will you make available here?
    Answer. The controls and settings that Facebook is enabling as part 
of GDPR are available to people around the world, including settings 
for controlling our use of face recognition on Facebook and for 
controlling our ability to use data we collect off Facebook Company 
Products to target ads. We recently began providing direct notice of 
these controls and our updated terms to people around the world 
(including in the U.S.), allowing people to choose whether or not to 
enable or disable these settings or to consent to our updated terms. We 
provide the same tools for access, rectification, erasure, data 
portability, and others to people in the U.S. and the rest of world 
that we provide in Europe, and many of those tools (like our Download 
Your Information tool, ad preferences tool, and Activity Log) have been 
available globally for many years.

    b. Will users in this country have the right to data portability, 
where they will be able to transfer their personal data from Facebook 
if they choose?
    Answer. See Response to Question 3(a).

    c. At the hearing many Senators discussed with you the need for 
Facebook users to be notified promptly when their data has been hacked. 
You told Senator Klobuchar you though 72 hours for notification ``makes 
sense to [you].'' Can you commit to a 72 hour timeline for 
notification?
    Answer. One of the challenges with notification in the United 
States is that there is no Federal breach notification law, which means 
that notification technically requires reaching out to 50 different 
state regulators under a patchwork of different frameworks. While we 
would support a short time period for notification in the United 
States, this would need to be part of a centrally managed Federal 
scheme that would make this process efficient and manageable. In 
Europe, for example, we are required to notify our lead supervisory 
authority--the Irish Data Protection Commissioner--within 72 hours of a 
data breach that poses a risk to the rights and freedoms of data 
subjects, not every single Member State's data protection authority. 
Moreover, the GDPR only requires notification to people in cases where 
there is a high risk of harm to an individual resulting from the breach 
and where the data controller is unable to mitigate that harm through 
subsequent measures that prevent continued access to the data, etc. 
GDPR thus creates incentives for companies to work with a lead 
regulator and to mitigate harm to people, reserving notification to 
people for cases where there is no other means to avoid a high risk of 
harm to people. This reflects a responsible and thoughtful evaluation 
of the potential risks to people resulting from public notification, 
which would have the effect of publicizing a breach that could then be 
exploited by bad actors (who might not otherwise know about it). The 
regulatory notification requirement ensures there is appropriate 
oversight in a specific situation.

    d. Will you treat what Article 9 of the GDPR calls ``Special 
Categories'' of personal data, such as data revealing, among other 
things, racial or ethnic origin, religious beliefs, and genetic data, 
according to the strict EU standards?
    Answer. We are prompting people in Europe and in the United States 
to go through an engagement flow that educates them about data they 
have shared on their profiles that constitutes ``special categories of 
personal data'' under GDPR (such as information they choose to include 
in their profile like religious and political views). This experience 
gives people--including both people in Europe and people in the U.S.--
the ability to delete this information from their profile through in-
line controls.

    e. Will Facebook users who gave consent to share their data be able 
to withdraw that consent at any time?
    Answer. Yes, by visiting Facebook Settings. For sharing of specific 
pieces of information, such as a Facebook post or a field in a person's 
Facebook profile, people also have the ability to delete this 
information or change the audience who is eligible to see it.

    f. Would Facebook's collection of the personal data of non-users be 
permissible under these GDPR regulations, which require affirmative 
notice and consent?
    Answer. GDPR does not require consent for most uses of personal 
information, and instead, recognizes that many uses of data are 
necessary to provide a service or within a company's legitimate 
interests or the public interest, etc. We agree that different levels 
of consent or notice are appropriate depending on the type of 
information or contemplated use at issue. The GDPR does not 
differentiate between users and non-users, and indeed, many online or 
digital services around the world do not require registration or 
distinguish between ``users'' and ``non-users'' before collecting or 
logging data, such as browser logs of people who visit their website.

    g. Considering that these regulations go into effect in less than a 
month, can you produce to the Committee the language that European 
users of Facebook will be presented with on May 25?
    Answer. Yes, here are screenshots of the consent flows being 
provided in Europe:

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Discriminatory Targeting of Facebook Ads
    Question 4. I asked you several questions about whether Facebook is 
following its own stated policy of forbidding Facebook ads that 
excluded audiences for the ads on the basis of race, gender, family 
status, sexual orientation, disability or veteran status. These are all 
categories prohibited by Federal law in housing and employment law. 
Yet, in October 2016, journalists at Pro Publica revealed that it was 
possible to buy Facebook ads that excluded these audiences. Even though 
Facebook announced in February 2017 that it would no longer allow such 
ads, a year later Pro Publica found they could still place them. They 
also found ads for employment that excluded age groups employers 
weren't interested in targeting, also a violation of Federal law.
    I appreciated your sincerity in telling me and other Senators that 
it is ``against [Facebook] policies to have any ideas that are 
discriminatory.'' I also appreciate your candor, after describing the 
need for more active screening, in admitting that policing 
discriminatory targeting is ``a work in progress.'' I want to ask you 
about the path forward in enforcing your policy, and your assessment of 
Facebook's capacity to handle these problems and the legal concerns 
they raise without outside enforcement.
    a. At the hearing you cited your anti-discrimination policy. Yet, 
it has been well over a year since Facebook announced it would no 
longer allow ads that used discriminatory, and in some cases illegal, 
targeting and you admit that you still need to develop better tools. 
How do you measure and assess that you efforts to enforce your own 
anti-discrimination policies are working?

    b. The story from Pro Publica suggests little if any progress has 
been made, even though during the whole period of time your policy 
against discrimination was your policy, and you explicitly banned the 
purchase of ad engaging in discriminatory targeting over a year ago. 
Recognizing this is a ``work in progress,'' what does improvement look 
like to you? What does complying with your policy look like to you?

    c. What accountability is there for failure to comply with your 
policy against discriminatory targeting?

    d. In addition to your existing screening of ads and flags raised 
by the community that you follow-up on with your team, you suggested 
that Facebook needs ``to develop more AI tools that can more 
proactively identify those types of content and do that kind of 
filtering up front.'' What are your plans for developing and timeline 
for deploying these tools, and when do you expect to see a measurable 
progress the elimination of discriminatory targeting?

    e. Is there a way for the public to verify that you have made 
progress or are we just expected to trust you?
    Answer. Our Terms and Advertising Policies have long emphasized our 
prohibition on the use of Facebook's platform to engage in wrongful 
discrimination. Starting in late 2016, we began implementing additional 
protections for the people who use Facebook. Specifically, we set out 
to help better educate advertisers about our policies against 
discrimination and relevant Federal and state laws, and to help prevent 
the abuse of our tools. First, we updated our Advertising Policies 
applicable to all advertisers and advertisements to strengthen our 
prohibition against discrimination, and we added a section to provide 
advertisers with anti-discrimination educational resources from 
government agencies and civil rights groups. Second, we implemented 
technical measures aimed at better protecting users from wrongful 
discrimination by advertisers that offer housing, employment and credit 
opportunities. We continue to work to improve these measures.
    We are continuing to evaluate the targeting options we make 
available to advertisers. This work involves consultation with key 
stakeholders outside the company, including with policymakers, 
regulators, civil rights experts, and consumer advocates. The decision 
to remove targeting options is not something we take lightly: as many 
of these stakeholders have pointed out, targeting is a key mechanism 
for forging meaningful connections between people and organizations on 
Facebook.
    One recent example illustrates the challenge of getting this work 
right. Earlier this year, we eliminated the ability to target people 
based on the ``interested in'' field that people can add to their 
Facebook profiles. People can indicate that they are interested in men, 
women, or both, and some consider the field to be a place where people 
can indicate their sexual orientation. After receiving feedback from a 
range of stakeholders, we eliminated the ability to target based on 
this field. Although some groups applauded the decision, others 
criticized it, noting that it would now be harder to reach certain 
groups.
    We also are working to provide more in-product education about 
advertisers' obligations under our non-discrimination policy, and 
anticipate that this education will be more detailed and will be 
presented to a broader range of advertisers than our current education. 
Finally, we will soon launch View Ads, a feature that will enable 
anyone to see all of the ads an advertiser is currently running by 
visiting the advertiser's Facebook Page. This level of transparency is 
unprecedented among advertising platforms, and we believe it will 
further our efforts to combat discrimination by giving people the 
opportunity to see ads regardless of whether they are in the target 
audience.
    We have focused on measures that are designed to prevent 
advertisers from misusing our tools to place discriminatory housing, 
credit and employment ads, including: requiring such advertisers to 
certify their compliance with our Advertising Policies and with 
relevant anti-discrimination laws and prophylactically removing 
advertisers' ability to use certain categories of information to target 
their audience. Some of these measures are proactive, such as the 
classifiers we use to detect when an advertiser is attempting to run a 
housing, credit, or employment ad. Facebook rejects ads from 
advertisers who do not certify compliance. We also recently launched 
automated tools to proactively identify racist or offensive content and 
hate speech in ads.
    In addition, Facebook conducts an automated review of ads to ensure 
that they do not assert or imply personal attributes in violation of 
our Advertising Policies. Ads that violate this policy are rejected. 
Advertisers can appeal these rejections. Understanding that we might 
not be able to prevent every misuse of our ad tools, we encourage users 
to report offensive ads to Facebook. Ads that violate our Advertising 
Policies are removed when we become aware of them. We also anticipate 
that the View Ads tool--which, as described above, will allow people to 
see all the ads an advertiser is currently running--will encourage 
people to report more ads to us, and will therefore enhance our efforts 
to curtail misuse of our tools.
Consumer Protection for Facebook Users
    Question 5. American consumers rightfully expect that they can take 
part in the market for goods and services while being protected from 
certain kinds of harm. The government makes sure that our food and 
drugs aren't tainted. We have laws that make sure advertising in print 
or on TV and radio doesn't contain lies. We demand transparency and 
honesty from banks and stock brokers.
    Yet, for Americans using Facebook, there is almost a total lack of 
these kinds of protections. And when Americans suffer harm, there is no 
accountability for Facebook. We are expected to hand over our most 
vital personal information with no control over how it is used or 
misused, and we are told this is the cost of ``connection'' and of 
being part of the Facebook ``community''. I know that since some of the 
worst breaches of trust were discovered you've been talking about the 
steps you are taking to do better.
    a. Why should we leave it up to you to protect America's Facebook 
consumers?

    b. Do you think they are any less deserving of their government's 
protection than milk drinkers or detergent buyers or home buyers 
seeking a mortgage? What makes your business different?
    Answer. Facebook is generally not opposed to regulation but wants 
to ensure it is the right regulation. We are already regulated in many 
ways--for example, under the Federal Trade Commission Act--and we are 
subject to ongoing oversight by the FTC under the terms of a 2011 
consent order. Facebook has inherent incentives to protect its 
customers' privacy and address breaches and vulnerabilities. Indeed, 
the recent discovery of misconduct by an app developer on the Facebook 
platform clearly hurt Facebook and made it harder for us to achieve our 
social mission. As such, Facebook is committed to protecting our 
platform from bad actors, ensuring we are able to continue our mission 
of giving people a voice and bringing them closer together. We are also 
actively building new technologies to help prevent abuse on our 
platform, including advanced AI tools to monitor and remove fake 
accounts. We have also significantly increased our investment in 
security, employing more than 15,000 individuals working solely on 
security and content review and planning to increase that number to 
over 20,000 by the end of the year. We have also strengthened our 
advertising policies, seeking to prevent discrimination while improving 
transparency.

    Question 6. When users sign up for services on Facebook, they are 
asked for consent to use their personal data in certain ways. But it's 
typically in the form of pages of small print that pop up on the screen 
that few people bother to read. And as these terms of services change 
over time or as users sign up for new services, they are asked to click 
a box next to yet more pages of small print. The Pew Research Center 
tells us that about 52 percent of Internet users believe that ``when a 
company posts a privacy policy, it ensures that the company keeps 
confidential all the information it collects on users.''
    Do you believe this is a reasonable expectation of people who sign 
up to use Facebook? Should it be?
    Answer. We believe that it's important to communicate with people 
about the information that we collect and how people can control it. 
This is why we work hard to provide this information to people in a 
variety of ways: in our Data Policy, and in Privacy Basics, which 
provides walkthroughs of the most common privacy questions we receive. 
Beyond simply disclosing our practices, we also think it's important to 
give people access to their own information, which we do through our 
Download Your Information and Access Your Information tools, Activity 
Log, and Ad Preferences, all of which are accessible through our 
Privacy Shortcuts tool. We also provide information about these topics 
as people are using the Facebook service itself.
    Facebook seeks, as much as possible, to put controls and 
information in context within its service. While ``up front'' 
information like that contained in the terms of service are useful, 
research overwhelmingly demonstrates that in-product controls and 
education are the most meaningful to people and the most likely to be 
read and understood. On-demand controls are also important, and we 
recently redesigned our entire settings menu on mobile devices from top 
to bottom to make things easier to find. We also created a new Privacy 
Shortcuts menu where people can control their data in just a few taps, 
with clearer explanations of how our controls work. The experience is 
now clearer, more visual, and easy to find.
    Improving people's understanding of how digital services work is an 
industry-wide challenge that we are highly committed to addressing. 
That's why, over the last 18 months, we've run a global series of 
design workshops called ``Design Jams,'' bringing together experts in 
design, privacy, law and computer science to work collaboratively on 
new and innovative approaches. These workshops have run in Paris, 
London, Dublin, Berlin, Sao Paolo, Hong Kong, and other cities, and 
included global regulators and policymakers. At these workshops, expert 
teams use ``people centric design'' methods to create innovative new 
design prototypes and experiences to improve transparency and education 
in digital services. These workshops inform Facebook's constantly-
improving approach.
    In recognition of the need for improved approaches to data 
transparency across all digital services, working with partners from 
academia, design, and industry we recently launched TTC Labs, a design 
innovation lab that seeks to improve user experiences around personal 
data. TTC Labs is an open platform for sharing and innovation and 
contains insights from leading experts in academia, design, and law, in 
addition to prototype designs from the Design Jams, template services 
and open-source toolkits for people-centric design for transparency, 
trust, and control of data. Working collaboratively, and based on open-
source approaches, TTC Labs seeks to pioneer new and more people-
centric best practices for people to understand how their data is used 
by digital services, in ways that they find easy to understand and 
control.
    Facebook is highly committed to improving people's experience of 
its own services as well as investing in new innovations and approaches 
to support improvements across the industry.
Advertising Revenue Model and Facebook's Mission
    Question 7. At the hearing and in recent interviews you have 
defended Facebook's approach to generating advertising revenue by 
targeting ads towards users. You proudly said that a model based on 
adverting is the only rational way to make Facebook accessible to all 
people. In response to Apple CEO Tim Cook saying he wouldn't have 
gotten himself into a situation like the one you and Facebook find 
yourselves in, you talked a lot about ways that Facebook shows it cares 
about its users. You defended your model as the best way to connect 
everyone.
    a. But is an advertising based model really the only way to make 
Facebook accessible to all people, or is it the only way to do so while 
making massive profits?
    Answer. Like many other free online services, we sell advertising 
space to third parties. Doing so enables us to offer our services to 
consumers for free. This is part of our mission to give people the 
power to build community and bring the world closer together. To build 
a secure product with extensive infrastructure that connects people 
across continents and culture, we need to make sure everyone can afford 
it. Advertising lets us keep Facebook free, which ensures it remains 
affordable for everyone.
    Separately, our core service involves personalizing all content, 
features, and recommendations that people see on Facebook services. No 
two people have the same experience on Facebook or Instagram, and they 
come to our services because they expect everything they see to be 
relevant to them. If we were not able to personalize or select ads or 
other content based on relevance, this would fundamentally change the 
service we offer on Facebook--and it would no longer be Facebook.
    We maintain our commitment to privacy by not telling advertisers 
who users are or selling people's information to anyone. That has 
always been true. We think relevant advertising and privacy are not in 
conflict, and we're committed to doing both well.

    b. Isn't there a better way that balances the making of profits 
with stronger privacy protections, and shouldn't it be our role in 
Congress to make sure we are keeping that balance?
    Answer. Privacy is at the core of everything we do, and our 
approach to privacy starts with our commitment to transparency and 
control--to helping people understand how their data is collected and 
used, and to giving them meaningful controls.

    Question 8. Facebook's stated mission is ``to give people the power 
to build community and bring the world closer together.''
    a. How is this mission consistent with your business model of 
finding ways to extract value from the personal data of users?
    Answer. See Response to Question 7(a).

    b. Doesn't the gross misuse of users' data without their consent to 
better target them with fake news undermine this mission by devaluing 
and dividing the community?
    Answer. We believe targeted advertising creates value for people 
and advertisers who use Facebook. Being able to target ads to the 
people most likely to be interested in the products, service or causes 
being advertised enables businesses and other organizations to run 
effective campaigns at reasonable prices. This efficiency has 
particularly benefited small businesses, which make up the vast 
majority of the six million active advertisers on Facebook. That said, 
we are keenly aware of the concerns about the potential of our tools to 
be abused. That is why we are investing heavily in improving the 
security and integrity of our platform.

    c. What happens the next time you have a business reason to again 
compromise the personal data of users, or at least look the other way?
    Answer. We do not have a ``business reason'' to compromise the 
personal data of users; we have a business reason to protect that 
information. Our mission is to build community and bring the world 
closer together, but it is not enough to just connect people--we have 
to make sure those connections are positive. If people's experiences 
are not positive--if we fail to maintain their trust--they will not use 
our services.
Irish Elections
    Question 9. On May 25, 2018, there will be a referendum conducted 
in Ireland to determine whether there will be changes in abortion laws. 
Is Facebook willing to implement full transparency of political ads 
that they have accepted have targeted Irish voters, together with any 
information they hold on the person or organizations who paid to 
promote the content?
    Answer. As of April 25, we added Ireland to our pilot program for 
the first phase of our transparency efforts--the View Ads tool. This 
has enabled Irish Facebook users to see all of the ads every page is 
running on Facebook targeting users in Ireland at the same time. We 
also announced on May 8 that we would begin rejecting ads related to 
the referendum if run by advertisers based outside of Ireland.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Cory Booker to 
                            Mark Zuckerberg
    Question 1. In 2016, ProPublica revealed that advertisers could use 
``ethnic affinity'' marketing categories to potentially discriminate 
against Facebook users in the areas of housing, employment, and credit, 
in violation of Federal law. While you committed in November 2016 to 
``build tools to detect and automatically disable the use of ethnic-
affinity marketing for certain types of ads,'' a year later ProPublica 
found that the system you built was still letting housing ads through 
without applying the new restrictions. It was chalked up to a 
``technical failure.'' You then opted for system where advertisers 
self-certify that they are complying with Federal law and Facebook's 
antidiscrimination policy, but in fact just last month, several fair 
housing organizations filed a lawsuit against Facebook in the S.D.N.Y. 
alleging discrimination in housing advertising based not just on race, 
but also on disability, gender, and familial status. According to the 
lawsuit, the most recent ad buys were still occurring just weeks ago in 
late February 2018.
    a. Is a self-certification model the strongest way to safeguard 
against discrimination?
    Answer. Our Terms and Advertising Policies have long emphasized our 
prohibition on the use of Facebook's platform to engage in wrongful 
discrimination. Starting in late 2016, we began implementing additional 
protections for the people who use Facebook. Specifically, we set out 
to help better educate advertisers about our policies against 
discrimination and relevant Federal and state laws, and to help prevent 
the abuse of our tools. First, we updated our Advertising Policies 
applicable to all advertisers and advertisements to strengthen our 
prohibition against discrimination, and we added a section to provide 
advertisers with antidiscrimination educational resources from 
government agencies and civil rights groups. Second, we implemented 
technical measures aimed at better protecting users from wrongful 
discrimination by advertisers that offer housing, employment and credit 
opportunities. Specifically, when we identify one of these types of 
ads, we require the advertiser to certify that it is complying with our 
anti-discrimination policy and with applicable law. We reject thousands 
of ads a day where the advertiser fails to certify.

    b. Would it be better to not serve ads in certain categories 
(housing/credit/employment) at all?
    Answer. We have heard concerns about third party advertisers 
misusing these tools to engage in wrongful discrimination with respect 
to ads for housing, credit, and employment by targeting people based on 
the protected characteristics outlined in your questions. Based on 
feedback we have received from our community, and from policymakers, 
regulators, civil rights experts, and consumer advocates, we have 
limited the targeting options we offer for such advertisements that 
relate to protected classes as follows:

  <bullet> We do not offer targeting based on race, religion, 
        disability, sexual orientation, or gender identity.

  <bullet> We do not offer targeting based on national origin, but we 
        do have segments composed of ``ex-pats''--people who used to 
        live in particular countries (and may or may not be from these 
        countries originally).

  <bullet> We do permit some targeting based on family status (e.g., 
        people who are parents), but we generally do not permit 
        advertisers to exclude people from their audiences based on 
        family status. Please note, however, that in limited cases and 
        for the purpose of running ads that are not related to housing, 
        employment or credit, we are re-enabling the ability of 
        advertisers to exclude people from their audiences based on 
        family status but are reviewing this as a targeting option.

  <bullet> Like other major ad platforms, we enable targeting based on 
        age and gender.

  <bullet> We offer targeting options--called ``interests'' and 
        ``behaviors''--that are based on people's activities on 
        Facebook, and when, where and how they connect to the Internet 
        (such as the kind of device they use and their mobile carrier). 
        These options do not reflect people's personal characteristics, 
        but we still take precautions to limit the potential for 
        advertisers to misuse them. For example, we do not create 
        interest or behavior segments that suggest the people in the 
        segment are members of sensitive groups such as particular 
        races, ethnicities, or religions. We therefore would not create 
        an interest segment called ``Muslims,'' because it could be 
        misunderstood to enable an advertiser to reach people based on 
        their religious beliefs.

  <bullet> We also offer what we call the multicultural affinity 
        segments, which are groups of people whose activities on 
        Facebook suggest they may be interested in content related to 
        the African American, Asian American, or Hispanic American 
        communities. (For example, if a person ``likes'' Facebook Pages 
        with the words ``African American'' in them or likes Pages for 
        Historically Black Colleges and Universities, that person may 
        be included in the African American multicultural segment.) As 
        we explain to advertisers in our tools, these segments are 
        based on people's activities on Facebook, not on race or 
        ethnicity (which categories Facebook does not enable people to 
        even include on their profiles).

  <bullet> We have gone even further when it comes to using the 
        ``exclude'' feature in our ads tools. This feature is designed 
        to help advertisers refine their audiences by, for example, 
        excluding people who are already interested in their products. 
        But we recognize that permitting exclusions could, in some 
        circumstances, raise the risk that an advertiser would engage 
        in wrongful discrimination. For that reason, many of the 
        targeting audiences that advertisers can choose to include in 
        the group eligible to see their ad are not available for 
        exclusion. For example, while we believe it is important that 
        organizations be able to affirmatively reach people in the 
        multicultural affinity segments, advertisers are not able to 
        exclude people from their audiences based on the multicultural 
        affinity segments.

  <bullet> We also recently added a notice below the ``exclude'' field 
        that reminds advertisers of their obligations under our non-
        discrimination policy as well as under relevant applicable law 
        in a persistent manner when they create their advertisements 
        and define their audiences.

  <bullet> In early 2017, we launched machine learning tools (called 
        ``classifiers'') that were intended to automatically identify, 
        once an ad was entered into our systems, employment, credit, 
        and housing ads. We built these classifiers so that when one of 
        these kinds of ads was identified, we could take two actions 
        that would make it harder for advertisers to misuse our tools.

    c. Given your inability to fix something as straightforward as 
discriminatory housing ads, why should Congress trust Facebook's 
ability to target and reduce suspicious election activity?
    Answer. These industry-wide problems are not easy to solve, but we 
are committed to doing better by implementing the steps outlined 
throughout this document.

    d. How does Facebook prevent advertisers from using their own data 
to segment users by race or other protected categories using Facebook's 
Custom Audiences feature?
    Answer. See Response to Question 1, part c.

    Question 2. In responding to a November 2016 class action lawsuit 
against Facebook for discrimination in housing, employment, and credit, 
Facebook moved to dismiss the complaint on the basis that the 
plaintiffs were not injured.
    a. Do you believe that people of color who are not recruited for 
various economic opportunities are harmed by not hearing about those 
opportunities?
    Answer. We have Community Standards that prohibit hate speech, 
bullying, intimidation, and other kinds of harmful behavior. We hold 
advertisers to even stricter advertising policies to protect users from 
things like discriminatory ads. We don't want advertising to be used 
for hate or discrimination, and our policies reflect that. For example, 
we make it clear that advertisers may not discriminate against people 
based on personal attributes such as race, ethnicity, color, national 
origin, religion, age, sex, sexual orientation, gender identity, family 
status, disability, and medical or genetic condition. We educate 
advertisers on our anti-discrimination policy, and in some cases--
including when we detect that an advertiser is running a housing ad--we 
require advertisers to certify compliance with our anti-discrimination 
policy and anti-discrimination laws.

    Question 3. A 2016 investigation by the ACLU of California revealed 
that another app developer, Geofeedia, was using data from Facebook and 
other platforms to help law enforcement monitor the activities of 
peacefully protesting civilians of color. In response, Facebook changed 
its policy to prohibit any developers from facilitating the 
surveillance of Facebook users.
    a. You have endorsed Black Lives Matter and expressed sympathy 
after Philando Castile's killing, which was broadcast on Facebook Live. 
Despite this, why should communities of color trust Facebook has 
sufficiently addressed this surveillance issue?

    b. Is simply changing the language of your terms of service enough? 
Have you taken any other steps to prevent another Geofeedia from 
attempting something similar?
    Answer. In March 2017, we added language to our Facebook and 
Instagram platform policies to more clearly explain that developers 
cannot use data obtained from us to provide tools that are used for 
surveillance. Our previous policy limited developers' use of data but 
did not explicitly mention surveillance. We found out that some 
developers created and marketed tools meant for surveillance, took 
action, and we clarified our policy.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Kamala Harris to 
                            Mark Zuckerberg
Follow-up Questions Never Answered
    At the hearing, I raised a series of questions for which you did 
not have answers. Please respond to those questions, which include:
    Question 1. Whether Facebook can track users' browsing activity 
even after the user has logged off of Facebook?
    Answer. When people visit apps or websites that feature our 
technologies--like the Facebook Like or Comment button--our servers 
automatically log (i) standard browser or app records of the fact that 
a particular device or user visited the website or app (this connection 
to Facebook's servers occurs automatically when a person visits a 
website or app that contains our technologies, such as a Like button, 
and is an inherent function of Internet design); and (ii) any 
additional information the publisher of the app or website chooses to 
share with Facebook about the person's activities on that site (such as 
the fact that a purchase was made on the site). This is a standard 
feature of the Internet, and most websites and apps share this same 
information with multiple different third-parties whenever people visit 
their website or app. For example, the Senate Commerce Committee's 
website shares information with Google and its affiliate DoubleClick 
and with the analytics company Webtrends. This means that, when a 
person visits the Committee's website, it sends browser information 
about their visit to each one of those third parties. More information 
about how this works is available at https://newsroom.fb.com/news/2018/
04/data-off-facebook/.
    When the person visiting a website featuring Facebook's tools is 
not a registered Facebook user, Facebook does not have information 
identifying that individual, and it does not create profiles for this 
individual.
    We use the browser and app logs that apps and websites send to us--
described above--in the following ways for non-Facebook users. First, 
these logs are critical to protecting the security of Facebook and to 
detecting or preventing fake account access. For example, if a browser 
has visited hundreds of sites in the last five minutes, that's a sign 
the device might be a bot, which would be an important signal of a 
potentially inauthentic account if that browser then attempted to 
register for an account. Second, we aggregate those logs to provide 
summaries and insights to websites and apps about how many people visit 
or use their product, or use specific features like our Like button--
but without providing any information about a specific person. We do 
not create profiles for non-Facebook users, nor do we use browser and 
app logs for non-Facebook users to show targeted ads from our 
advertisers to them or otherwise seek to personalize the content they 
see. However, we may take the opportunity to show a general ad that is 
unrelated to the attributes of the person or an ad encouraging the non-
user to sign up for Facebook.
    When the individual is a Facebook user, we are also able to use 
this information to personalize that individual's experiences on 
Facebook, whether or not the individual is logged out, but we will not 
target ads to users relying on this information unless they allow this 
in their privacy settings. We do not sell or share this information 
with third-parties.

    Question 2. Whether Facebook can track your activity across devices 
even when you are not logged into Facebook?
    Answer. See Response to Question 1.

    Question 3. Who are Facebook's biggest competitors?
    Answer. In Silicon Valley and around the world, new social apps are 
emerging all the time. The average American uses eight different apps 
to communicate with their friends and stay in touch with people. There 
is a lot of choice, innovation, and activity in this space, with new 
competitors arising all the time. Facebook's top priority and core 
service is to build useful and engaging products that enable people to 
connect, discover, and share through mobile devices and personal 
computers. Given its broad product offerings, Facebook faces numerous 
competitors, competing to attract, engage, and retain users, to attract 
and retain marketers, and to attract and retain developers who build 
compelling mobile and web applications. For instance, if users want to 
share a photo or video, they can choose between Facebook, DailyMotion, 
Snapchat, YouTube, Flickr, Twitter, Vimeo, Google Photos, and 
Pinterest, among many other services. Similarly, if people are looking 
to message someone, just to name a few, there's Apple's iMessage, 
Telegram, Skype, Line, Viber, WeChat, Snapchat, and LinkedIn--as well 
as the traditional text messaging services their mobile phone carrier 
provides. Equally, companies also have more options than ever when it 
comes to advertising--from billboards, print, and broadcast, to newer 
platforms like Facebook, Spotify, Twitter, Google, YouTube, Amazon, or 
Snapchat. Facebook represents a small part (in fact, just 6 percent) of 
this $650 billion global advertising ecosystem and much of that has 
been achieved by helping small businesses--many of whom could never 
have previously afforded newspaper or TV ads--to cost-effectively reach 
a wider audience.

    Question 4. Whether Facebook may store up to 96 categories of 
users' information?
    Answer. Your question likely references a Washington Post article 
that purported to identify ``98 data points that Facebook uses to 
target ads to you.'' The article was based on the writer's use of the 
tool that allows advertisers to select the audience that they want to 
see their ads. Anyone on Facebook can see the tool and browse the 
different audiences that advertisers can select.
    The ``data points'' to which the article refers are not categories 
of information that we collect from everyone on Facebook. Rather, they 
reflect audiences into which at least some people on Facebook fall, 
based on the information they have provided and their activity. For 
example, the article lists ``field of study'' and ``employer'' as two 
of the ``data points'' that can be used to show ads to people. People 
can choose to provide information about their field of study and their 
employer in profile fields, and those who do may be eligible to see ads 
based on that information--unless they have used the controls in Ad 
Preferences that enable people to opt out of seeing ads based on that 
information. The same is true of the other items in the list of 98.
    Further, the specific number of categories that are used to decide 
what ads a person will see vary from person to person, depending on the 
interests and information that they have shared on Facebook, how 
frequently they interact with ads and other content on Facebook, and 
other factors. Any person can see each of the specific interests we 
maintain about them for advertising by visiting Ads Preferences, which 
lets people see what interests we use to choose ads for them--and to 
edit or delete these interests. We also provide more detailed 
information about how we use data to decide what ads to show to people 
in our ``About Facebook Ads'' page, at https://www.facebook.com/ads/
about.
    Please note, however, that (as the article explains) many of these 
refer to ``Partner Categories''--audiences that are offered by third-
party data providers. We announced in April that we would stop offering 
this kind of targeting later this year.

    Question 5. Whether you knew Dr. Kogan's terms of service?
    Answer. Facebook has developed an automated system for checking 
that all apps had terms of service and data policies. In performing 
such checks, however, Facebook does not examine the content of the 
developers' terms and policies because app developers act as 
independent third parties with regard to the data they obtain; they 
determine the purposes for which, and the manner in which, that data is 
processed. Our understanding is that this is consistent with the 
practices of other online and mobile platforms, which generally enable 
developers on their platforms to provide access to the developers' 
terms and policies in their app stores, but do not proactively review 
the substance of those policies.
    Although developers act as independent third parties with regard to 
the data users share with them, all apps on the Facebook Platform must 
comply with our user data policies, Community Standards, Platform 
Policies, and Ad Guidelines. Our Platform policy also contains a number 
of enforcement provisions which apply after an app has been reviewed 
and approved. Facebook has several teams dedicated to detecting, 
escalating, investigating, and combating violations of its policies, 
including schemes to improperly access, collect, or exploit user data. 
The Developer Operations Policy Enforcement team looks for policy 
violations and either brings developers into compliance or removes them 
from the platform, and the Developer Operations Review team conducts an 
upfront review of apps to confirm proper use of advanced permissions.

    Question 6. Whether you knew that Dr. Kogan could sell or transfer 
data?
    Answer. Kogan was not permitted to sell or transfer data to third-
parties for the purposes he did. In doing so, Kogan and his company 
violated Facebook's Platform Policies, which explicitly prohibit 
selling or licensing user data accessed from Facebook and from sharing 
any user data accessed from Facebook with any ad network, data broker, 
or other advertising or monetization-related service.
Scope of Data Collection
    The core of Facebook's business model is the commodification of 
personal user data. This data culling and packaging is a complex 
endeavor, but the crux of it is simple--Facebook collects user data, 
categorizes it into demographic buckets, and works with advertising 
companies to target ads.
    There are two realms of data collection--user-generated data (e.g. 
data input by the user such as name, gender, etc.) and platform-
generated data (e.g. IP addresses, searches, and likes).
    Question 1. Please answer, for the record, the following with a 
simple yes or no response. Does Facebook collect and permanently store:
    a. Usernames?
    Answer. Yes, Facebook collects a user's Facebook URL (e.g., 
username or vanity for your account). Users can view the vanity URL in 
their Timeline URL. They can change their usernames via Settings.

    b. Reported gender?
    Answer. Yes, Facebook collects information regarding the gender a 
user added to the About section of their Timeline.

    c. Reported address?
    Answer. Yes, Facebook collects information regarding a user's 
current address or any past addresses they chose to include on their 
account.

    d. Reported school affiliation?
    Answer. Yes, Facebook collects information regarding any 
information a user added to Education field in the About section of 
your Timeline. Users can download Education information, as well as 
other information associated with their Facebook accounts, through our 
Download Your Information tool. We also recently introduced Access Your 
Information--a secure way for people to access and manage their 
information, such as posts, reactions, comments, and things they've 
searched for. Users can go here to delete anything from their timelines 
or profiles that they no longer want on Facebook.
    If someone adds this information to their profile, they can later 
choose to delete it. If they do so, we will remove it from our site and 
delete it in accordance with our Data Policy.

    e. Reported employment?
    Answer. Yes, Facebook collects any current information a user has 
added to Work in the About section of their Timeline. They can download 
Work information, as well as other information associated with their 
Facebook account, through our Download Your Information tool. We also 
recently introduced Access Your Information--a secure way for people to 
access and manage their information, such as posts, reactions, 
comments, and things they've searched for. Users can go here to delete 
anything from their timelines or profiles that they no longer want on 
Facebook.
    If someone adds this information to their profile, they can later 
choose to delete it. If they do so, we will remove it from our site and 
delete it in accordance with our Data Policy.

    f. Reported political affiliation?
    Answer. Yes, Facebook collects any information a user added to 
Political Views in the About section of Timeline. Users can download 
Political Views information, as well as other information associated 
with their Facebook accounts, through our Download Your Information 
tool. We also recently introduced Access Your Information--a secure way 
for people to access and manage their information, such as posts, 
reactions, comments, and things they've searched for. Users can go here 
to delete anything from their timelines or profiles that they no longer 
want on Facebook.
    If someone adds this information to their profile, they can later 
choose to delete it. If they do so, we will remove it from our site and 
delete it in accordance with our Data Policy.
    We recently began to prompt people on Facebook who have added a 
political affiliation to their profiles to review this information and 
decide whether they want to keep it on their profiles. More information 
about these prompts is available at https://newsroom.fb.com/news/2018/
05/pardon-the-interruption/.

    g. Every friend in a user's network?
    Answer. Yes, Facebook collects a list of a user's friends. Users 
can download a list of their friends, as well as other information 
associated with their Facebook accounts, through our Download Your 
Information tool. We also recently introduced Access Your Information--
a secure way for people to access and manage their information, such as 
posts, reactions, comments, and things you've searched for. Users can 
go here to delete anything from their timelines or profiles that they 
no longer want on Facebook.
    If someone adds this information to their profile, they can later 
choose to remove a friend relationship. If they do so, we retain the 
fact that the friend relationship was removed in order to properly 
display privacy-protected content (for example, to avoid showing 
Friends-only information to people who previously had access) and for 
other purposes related to protecting the safety and privacy of people 
on Facebook.

    h. Every friend ever deleted from a user's network?
    Answer. Yes, Facebook collects information regarding people a user 
has removed as friends. Users can download deleted friend information, 
as well as other information associated with their Facebook account, 
through our Download Your Information tool. We also recently introduced 
Access Your Information--a secure way for people to access and manage 
their information, such as posts, reactions, comments, and things 
they've searched for. Users can go here to delete anything from their 
timelines or profiles that they no longer want on Facebook.

    i. Every ad ever clicked on?
    Answer. Yes, Facebook collects information regarding dates, times, 
and titles of ads clicked, although the retention period is limited. 
Users can download information about ads clicked, as well as other 
information associated with their Facebook accounts, through our 
Download Your Information tool. Through Ad Preferences, people see and 
control things like: (1) their ``interests,'' which are keywords 
associated with a person based on activities such liking Pages and 
clicking ads; (2) their ``behaviors'' (which we also call 
``categories''), which generally reflect how, when, and where they 
connect to Facebook; and (3) the advertisers that are currently showing 
them ads based on the person's contact information, based on the 
person's previous use of the advertiser's website or app, or based on a 
visit to the advertiser's store. People also can choose whether we use 
information about their activities on websites and apps off of Facebook 
to show them ads through Facebook, and whether we can use their 
Facebook advertising interests to show them ads off of Facebook. 
People's use of these controls will, of course, affect the data we use 
to show them ads.

    j. Every IP address ever used when logging into Facebook?
    Answer. Facebook automatically logs IP addresses where a user has 
logged into their Facebook account. Users can download a list of IP 
addresses where they've logged into their Facebook accounts, as well as 
other information associated with their Facebook accounts, through our 
Download Your Information tool, although this list won't include all 
historical IP addresses as they are deleted according to a retention 
schedule.

    k. Every ``like''?
    Answer. Yes, Facebook collects posts, photos, or other content a 
user has liked; likes on their own posts, photos, or other content; and 
likes they've made on sites off of Facebook. Users can manage the 
content and information they share when they use Facebook, including 
``likes,'' through the Activity Log tool. We also recently introduced 
Access Your Information--a secure way for people to access and manage 
their information, such as posts, reactions, comments, and things 
they've searched for. Users can go here to delete anything from their 
timelines or profiles that they no longer want on Facebook.
    If someone chooses to Like content on Facebook, they can later 
choose to remove that like. If they do so, we will remove it from our 
site and delete it in accordance with our Data Policy.

    l. Every status change?
    Answer. Yes, Facebook collects status updates a user has posted. 
Users can download status updates, as well as other information 
associated with their Facebook accounts, through our Download Your 
Information tool, and they can also manage the content and information 
they share when they use Facebook, including status updates, through 
the Activity Log tool. We also recently introduced Access Your 
Information--a secure way for people to access and manage their 
information, such as posts, reactions, comments, and things they've 
searched for. Users can go here to delete anything from their timelines 
or profiles that they no longer want on Facebook.
    If someone adds this information to their profile, they can later 
choose to delete it. If they do so, we will remove it from our site and 
delete it in accordance with our Data Policy.

    m. Every search of another person on Facebook?
    Answer. Yes, Facebook collects searches a user has made on 
Facebook. Users can manage the content and information they share when 
they use Facebook, including searches, through the Activity Log tool. 
We also recently introduced Access Your Information--a secure way for 
people to access and manage their information, such as posts, 
reactions, comments, and things they've searched for. Users can go here 
to delete anything from their timeline or profile that they no longer 
want on Facebook.
    When a user searches for something on Facebook, they can access and 
delete that query from within the search history in their Activity Log 
at any time, but the log of that search is deleted after 6 months.

    Question 2. Assuming the above is not exhaustive, please list all 
types of data Facebook collects or otherwise acquires.
    Answer. As explained in our Data Policy, we collect three basic 
categories of data about people:

        (1) data about things people do and share (and who they connect 
        with) on our services;

        (2) data about the devices people use to access our services; 
        and

        (3) data we receive from partners, including the websites and 
        apps that use our business tools.

    As far as the amount of data we collect about people, the answer 
depends on the person. People who have only recently signed up for 
Facebook have usually shared only a few things--such as name, contact 
information, age, and gender. Over time, as people use our products, we 
receive more data from them, and this data helps us provide more 
relevant content and services. That data will fall into the categories 
noted above, but the specific data we receive will, in large part, 
depend on how the person chooses to use Facebook. For example, some 
people use Facebook to share photos, so we receive and store photos for 
those people. Some people enjoy watching videos on Facebook; when they 
do, we receive information about the video they watched, and we can use 
that information to help show other videos in their News Feeds. Other 
people seldom or never watch videos, so we do not receive the same kind 
of information from them, and their News Feeds are likely to feature 
fewer videos.
    The data we have about people also depends on how they have used 
our controls. For example, people who share photos can easily delete 
those photos. The same is true of any other kind of content that people 
post on our services. Through Facebook's Activity Log tool, people can 
also control the information about their engagement--i.e., their likes, 
shares and comments--with other people's posts. The use of these 
controls of course affects the data we have about people.
    We recently announced improvements to our Download Your Information 
tool, as well as a new feature that makes it easier for people to see 
the information that's in their account on Facebook. These recently-
expanded tools for accessing your information will allow people to see 
their data, delete it, and easily download and export it.

    Question 3. Please list all data that Facebook generates based on 
user inputs.
    Answer. Depending on which Services a person uses, we collect 
different kinds of information from or about them. This is described in 
our Data Policy:

  <bullet> Things you and others do and provide. Information and 
        content you provide. We collect the content, communications, 
        and other information you provide when you use our Products, 
        including when you sign up for an account, create or share 
        content, and message or communicate with others. This can 
        include information in or about the content you provide (like 
        metadata), such as the location of a photo or the date a file 
        was created. It can also include what you see through features 
        we provide, such as our camera, so we can do things like 
        suggest masks and filters that you might like, or give you tips 
        on using camera formats. Our systems automatically process 
        content and communications you and others provide to analyze 
        context and what's in them for the purposes described below. 
        Learn more about how you can control who can see the things you 
        share.

    <ctr-circle> Data with special protections. You can choose to 
            provide information in your Facebook profile fields or Life 
            Events about your religious views, political views, who you 
            are ``interested in,'' or your health. This and other 
            information (such as racial or ethnic origin, philosophical 
            beliefs, or trade union membership) could be subject to 
            special protections under the laws of your country.

  <bullet> Networks and connections. We collect information about the 
        people, Pages, accounts, hashtags, and groups you are connected 
        to and how you interact with them across our Products, such as 
        people you communicate with the most or groups you are part of. 
        We also collect contact information if you choose to upload, 
        sync or import it from a device (such as an address book or 
        call log or SMS log history), which we use for things like 
        helping you and others find people you may know and for the 
        other purposes listed below.

  <bullet> Your usage. We collect information about how you use our 
        Products, such as the types of content you view or engage with; 
        the features you use; the actions you take; the people or 
        accounts you interact with; and the time, frequency and 
        duration of your activities. For example, we log when you're 
        using and have last used our Products, and what posts, videos, 
        and other content you view on our Products. We also collect 
        information about how you use features like our camera.

  <bullet> Information about transactions made on our Products. If you 
        use our Products for purchases or other financial transactions 
        (such as when you make a purchase in a game or make a 
        donation), we collect information about the purchase or 
        transaction. This includes payment information, such as your 
        credit or debit card number and other card information; other 
        account and authentication information; and billing, shipping 
        and contact details.

  <bullet> Things others do and information they provide about you. We 
        also receive and analyze content, communications, and 
        information that other people provide when they use our 
        Products. This can include information about you, such as when 
        others share or comment on a photo of you, send a message to 
        you, or upload, sync or import your contact information.

  <bullet> Device Information. As described below, we collect 
        information from and about the computers, phones, connected TVs 
        and other web-connected devices you use that integrate with our 
        Products, and we combine this information across different 
        devices you use. For example, we use information collected 
        about your use of our Products on your phone to better 
        personalize the content (including ads) or features you see 
        when you use our Products on another device, such as your 
        laptop or tablet, or to measure whether you took an action in 
        response to an ad we showed you on your phone on a different 
        device.

    Information we obtain from these devices includes:

    <ctr-circle> Device attributes: information such as the operating 
            system, hardware and software versions, battery level, 
            signal strength, available storage space, browser type, app 
            and file names and types, and plugins.

    <ctr-circle> Device operations: information about operations and 
            behaviors performed on the device, such as whether a window 
            is foregrounded or backgrounded, or mouse movements (which 
            can help distinguish humans from bots).

    <ctr-circle> Identifiers: unique identifiers, device IDs, and other 
            identifiers, such as from games, apps or accounts you use, 
            and Family Device IDs (or other identifiers unique to 
            Facebook Company Products associated with the same device 
            or account).

    <ctr-circle> Device signals: Bluetooth signals, and information 
            about nearby Wi-Fi access points, beacons, and cell towers.

    <ctr-circle> Data from device settings: information you allow us to 
            receive through device settings you turn on, such as access 
            to your GPS location, camera, or photos.

    <ctr-circle> Network and connections: information such as the name 
            of your mobile operator or ISP, language, time zone, mobile 
            phone number, IP address, connection speed and, in some 
            cases, information about other devices that are nearby or 
            on your network, so we can do things like help you stream a 
            video from your phone to your TV.

    <ctr-circle> Cookie data: data from cookies stored on your device, 
            including cookie IDs and settings. Learn more about how we 
            use cookies in the Facebook Cookies Policy and Instagram 
            Cookies Policy.

  <bullet> Information from partners. Advertisers, app developers, and 
        publishers can send us information through Facebook Business 
        Tools they use, including our social plug-ins (such as the Like 
        button), Facebook Login, our APIs and SDKs, or the Facebook 
        pixel. These partners provide information about your activities 
        off Facebook--including information about your device, websites 
        you visit, purchases you make, the ads you see, and how you use 
        their services--whether or not you have a Facebook account or 
        are logged into Facebook. For example, a game developer could 
        use our API to tell us what games you play, or a business could 
        tell us about a purchase you made in its store. We also receive 
        information about your online and offline actions and purchases 
        from third-party data providers who have the rights to provide 
        us with your information. Partners receive your data when you 
        visit or use their services or through third parties they work 
        with. We require each of these partners to have lawful rights 
        to collect, use and share your data before providing any data 
        to us.
Application of European Data Protection Rules
    Facebook is not the first company to experience a data breach or 
have its users' data misappropriated. Previously disclosed data 
breaches include Equifax, Uber, Yahoo, eBay, AOL, Target, and Home 
Depot. This suggests that there is a real need for a Federal regulatory 
scheme.
    The European Union recently adopted the General Data Protect 
Regulation (GDPR), which requires businesses to protect the personal 
data and privacy of EU citizens. These EU rules also protect the 
exportation of personal data outside the EU.
    On April 4, 2018, Mr. Zuckerberg publicly committed to ``make all 
the same controls and settings available everywhere, not just in 
Europe.''
    However, according to an April 2018 Reuters report, Facebook 
intends on altering its terms of service to ensure that non-EU users 
will have their data processed by Facebook USA. The result is change is 
that GDPR protections would no longer cover the more than 1.5 billion 
international Facebook users who are not EU citizens.
    Question 1. Is Facebook still committed to making GDPR privacy 
settings available to ``everywhere''?
    Answer. Yes. The controls and settings that Facebook is enabling as 
part of GDPR are available to people around the world, including 
settings for controlling our use of face recognition on Facebook and 
for controlling our ability to use data we collect off Facebook Company 
Products to target ads. We recently began providing direct notice of 
these controls and our updated terms to people around the world 
(including in the U.S.), allowing people to choose whether or not to 
enable or disable these settings or to consent to our updated terms. We 
provide the same tools for access, rectification, erasure, data 
portability, and others to people in the U.S. and rest of world that we 
provide in Europe, and many of those tools (like our Download Your 
Information tool, ad preferences tool, and Activity Log) have been 
available globally for many years.

    a. For users in the United States, will Facebook commit to adopting 
a broad definition of ``personal information'' including information 
associated with an identifier number rather than a name is exempt from 
regulation?
    Answer. Facebook is generally not opposed to regulation but wants 
to ensure it is the right regulation. The issues facing the industry 
are complex, multi-faceted, and affect an important part of peoples' 
lives. As such, Facebook is absolutely committed to working with 
regulators, like Congress, to craft the right regulations. Facebook 
would be happy to review any proposed legislation and provide comments.

    b. For users in the United States, will Facebook commit to 
requiring affirmative consent should they seek to use or disclose 
personal information?
    Answer. We are seeking explicit consent from people in Europe to 
three specific uses of data: facial recognition data (which previously 
was not enabled in Europe), special categories of data, and use of data 
we collect off Facebook Company Products to target ads. We recently 
began providing direct notice of these controls and our updated terms 
to people around the world (including in the U.S.), allowing people to 
choose whether or not to enable or disable these settings or to agree 
to our updated terms. Outside of Europe we are not requiring people to 
complete those flows if they repeatedly indicate that they do not want 
to go through the experience. At the same time, the events of recent 
months have underscored how important it is to make sure people know 
how their information is used and what their choices are. So, we 
decided to communicate prominently on Facebook--through a full-screen 
message and a reminder to review at a later date. People can choose to 
dismiss or ignore these messages and continue using Facebook.
    GDPR does not require consent for most uses of personal 
information, and instead, recognizes that many uses of data are 
necessary to provide a service or within a companies' legitimate 
interests or the public interest. We agree that different levels of 
consent or notice are appropriate depending on the type of information 
or contemplated use at issue.

    c. For users in the United States, will Facebook allow customers to 
access, correct, retrieve, and delete their personal information?
    Answer. We enable people, including people in the United States, to 
learn more about the data we collect through interactive tools such as 
Download Your Information, which lets people download a file containing 
data that they may want to take to another service, and through Access 
Your Information, a tool we've launched for people to more easily 
access and manage their data on Facebook. People can also control their 
information through their Settings and the Privacy Shortcuts tool that 
we're rolling out now.

    d. For users in the United States, will Facebook commit to 
requiring individual notification in the event of a data breach?
    Answer. Yes.

    Question 2. If not, please explain why Facebook no longer will 
apply GDPR protections to all Facebook users.
    Answer. As explained in the previous question, the controls and 
settings that Facebook is enabling as part of GDPR are already 
available to other people around the world, including settings for 
controlling our use of face recognition on Facebook and for controlling 
our ability to use data we collect off Facebook Company Products to 
target ads. We also provide the same tools for access, rectification, 
erasure, data portability, and others to people in the U.S. and rest of 
world that we provide in Europe, and many of those tools (like our 
Download Your Information tool, Ads Preferences tool, and Activity Log) 
have been available globally for many years.

    Question 3. If Facebook does not intend to make GDPR protections 
available to users in the United States, please explain in detail how 
Facebook will ensure these users are covered by robust data protection 
policies?
    Answer. As explained in the previous response, Facebook will be 
making the same controls and settings available under GDPR to people in 
the U.S.

    Question 4. Will Facebook change its default settings to minimize 
the collection and use of U.S. user data?
    Answer. We regularly review and update our settings to help people 
protect their privacy and give people choices about how their 
information is used and who can see it. That's why, for example, in 
2014 we changed the default audience for posts from Public to Friends, 
and why we now ask people when they create a new account who they would 
like to see the things they post--their friends, the public, or a 
different audience.
Foreign Propaganda and Facebook Revenue
    Last November, the Senate Intelligence Committee held a hearing on 
Social Media Influence in our 2016 elections where executives from 
Facebook, Twitter and Google testified. Following the hearing, I 
submitted 50 written questions to Facebook and the other companies.
    The responses I received were evasive and some were nonresponsive. 
Please respond to the following question to the best of your ability. 
Where you have learned new information since submitting answers to 
previous QFRs, please supplement and amend your previous answers.
    Question 1. How much revenue does Facebook earn from the user 
engagement that results from foreign propaganda?
    Answer. We believe that annual revenue that is attributable to 
inauthentic or false accounts is immaterial.

    Question 2. How much revenue does Facebook earn from the user 
engagement that results from fake news?
    Answer. See Response to Question 1.

    Question 3. How much revenue does Facebook earn from the user 
engagement that results from hyper-partisan content?
    Answer. We do not have a definition of hyper-partisan, as defining 
what is hyper-partisan is difficult and controversial.

    Question 4. What does Facebook do with money received from an 
entity that is found, either through internal audits or third-party 
notification, to be using the platform to distribute foreign 
propaganda, fake news, or hyper-partisan content?
    Answer. Fraudulent ads are not allowed on Facebook. They are in 
breach of our advertising policies and we will remove them when we find 
them. Where we discover ads that violate our policies or applicable 
laws, we do not generally return money to those attempting to deceive 
our users. Instead, we make investments in areas to improve security on 
Facebook and beyond. In addition, the investments that we are making to 
address security issues are so significant that we have informed 
investors that we expect that the amount that we will spend will impact 
our profitability.

    Question 5. How many employees are dedicated to addressing foreign 
propaganda?
    Answer. We expect to have at least 250 people specifically 
dedicated to safeguarding election integrity on our platforms, and that 
number does not include the thousands of people who will contribute to 
this effort in some capacity. This type of abuse touches a number of 
different teams at Facebook. Thousands on our Business Integrity team 
will be working to better enforce our ad policies and to review more 
ads, and a significant number of engineers will build tools to identify 
ad and election abuse, and to enable us to follow through on our 
commitment to bring greater transparency to ads with political content.
Facebook Data Abuse Bounty
    In April 2018, Facebook's announced a new ``Data Abuse Bounty'' 
program to ``reward people who report any misuse of data by app 
developers.''
    According to your press release, ``this program will reward people 
with first-hand knowledge and proof of cases where a Facebook platform 
app collects and transfers people's data to another party to be sold, 
stolen or used for scams or political influence.''
    Facebook also promised to shut down any offending apps if it 
confirms that an app has abused user data.
    Question 1. Please list what abuses of data this program has 
identified and whether Facebook has investigated or is in the process 
of investigating these abuses.
    Answer. This is a pilot program. We assess all submissions for 
validity, and if valid, conduct an investigation. Since launching the 
program we have received and are reviewing hundreds of reports. Updates 
about the Bug Bounty Program and the Data Abuse Bounty Program will be 
posted at https://www.facebook.com/bugbounty and https://
www.facebook.com/data-abuse.

    Question 2. Please list how many offending apps have been 
identified and subsequently shut down.
    Answer. Since launching the program we have received and are 
reviewing hundreds of reports. Updates about the Bug Bounty Program and 
Data Abuse Bounty Program will be posted at https://www.facebook.com/
bugbounty and https://www.facebook.com/data-abuse.

    Question 3. Please explain how and when you intend to notify users 
impacted by newly-discovered data abuses.
    Answer. Where we find evidence that these or other apps did misuse 
data, we will ban them and notify people whose data was shared with 
these apps.

    Question 4. Upon identifying a malicious app, has Facebook 
considered other punitive measures beyond denying apps access to the 
platform (such as fines, lawsuits, etc.)? If not, please explain why 
not.
    Answer. We use a variety of tools to enforce Facebook policies 
against violating parties, including developers. We review tens of 
thousands of apps per year and regularly disapprove noncompliant apps 
as part of our proactive review process. We also use tools like cease 
and desist letters, account suspensions, letter agreements, and civil 
litigation. For example, since 2006, Facebook has sent over 1,150 
cease-and-desist letters to over 1,600 targets. In 2017, we took action 
against about 370,000 apps, ranging from imposing certain restrictions 
to removal of the app from the platform. Moreover, we have required 
parties who have procured our data without authorization to delete that 
data. We have invested significant resources in these efforts. Facebook 
is presently investigating apps that had access to large amounts of 
information before we changed our platform policies in 2014 to 
significantly reduce the data apps could access. To date around 200 
apps (from a handful of developers: Kogan, AIQ, Cube You, the Cambridge 
Psychometrics Center, myPersonality, and AIQ) have been suspended--
pending a thorough investigation into whether they did in fact misuse 
any data.
    Additionally, we have suspended an additional 14 apps, which were 
installed by around one thousand people. They were all created after 
2014, after we made changes to more tightly restrict our platform APIs 
to prevent abuse. However, these apps appear to be linked to AIQ, which 
was affiliated with Cambridge Analytica.
Embedding Employees in Campaigns
    Facebook often embeds staff with advertising clients to help them 
target their campaigns. Brad Parscale, the Trump Campaign's digital 
director, said of Facebook: ``we had their staff embedded inside our 
offices,'' and ``Facebook employees would show up for work every day in 
our offices.'' Mr. Parscale said that staff provided to the Trump 
Campaign by Facebook and other companies worked ``side by side'' with 
Cambridge Analytica.
    Press reports indicate that Cambridge Analytica ultimately had 13 
people working on the Trump campaign's digital operation, headquartered 
in San Antonio.
    Question 1. What services did embedded Facebook staff provide?
    Answer. Facebook representatives advise political advertisers on 
Facebook, as they would with other, non-political managed accounts. 
During the 2016 election cycle, Facebook worked with campaigns to 
optimize their use of the platform, including helping them understand 
various ad formats and providing other best practices guidance on use 
of the platform. No one from Facebook was assigned full-time to the 
Trump campaign, or full-time to the Clinton campaign.

    Question 2. Did these employees have a set of rules, standards or 
regulations under which they provide these services?
    Answer. We have a compliance team that trains our sales 
representatives to comply with all Federal election law requirements in 
this area.

    Question 3. Was there a mechanism through which they could alert 
Facebook if they had concerns about the campaign's activities?
    Answer. Facebook employees are encouraged to raise any concerns 
about improper activity to their managers.

    Question 4. How many people did Facebook send to San Antonio to 
work with the Trump Campaign's digital operation? For how long?
    Answer. We offered identical support to both the Trump and Clinton 
campaigns, and had teams assigned to both. Everyone had access to the 
same tools, which are the same tools that every campaign is offered. 
The campaigns did not get to ``hand pick'' the people who worked with 
them from Facebook. And no one from Facebook was assigned full-time to 
the Trump campaign, or full-time to the Clinton campaign. Both 
campaigns approached things differently and used different amounts of 
support.

    Question 5. Did Facebook employees embedded with the campaign work 
directly or indirectly with Cambridge Analytica?
    Answer. While no one from Facebook was assigned full-time to the 
Trump campaign, Facebook employees did interact with Cambridge 
Analytica employees. While our investigation is ongoing, our review 
indicates that Facebook employees did not identify any issues involving 
the improper use of Facebook data in the course of their interactions 
with Cambridge Analytica during the 2016 U.S. Presidential campaign.

    Question 6. What, exactly, did the Facebook ``embeds'' work on with 
Cambridge Analytica in San Antonio?
    Answer. In general, political data firms working on the 2016 
campaign had access to Facebook's advertising support services, 
including technical support, and best practices guidance on how to 
optimize their use of Facebook. Everyone had access to the same tools, 
which are the same tools that every campaign is offered. No one from 
Facebook was assigned full-time to the Trump campaign.

    Question 7. Were Facebook employees aware of data sets that may 
have been scraped from Facebook users?
    Answer. While our investigation is ongoing, our review indicates 
that Facebook employees did not identify any issues involving the 
improper use of Facebook data in the course of their interactions with 
Cambridge Analytica during the 2016 U.S. Presidential campaign.

    Question 8. Did Facebook work with Cambridge Analytica, directly or 
indirectly, on ad optimization or voter targeting?
    Answer. Facebook representatives provide general ad support to 
political advertisers on Facebook, as they do with other, non-political 
managed accounts. During the 2016 election cycle, for example, Facebook 
provided technical support and best practices guidance to advertisers, 
including Cambridge Analytica, on using Facebook's advertising tools.

    Question 9. Did Cambridge Analytica or Parscale's digital operation 
purchase media on Facebook?
    Answer. Yes.

    Question 10. Reports suggest that the Special Counsel has met with 
at least one Facebook employee who worked in San Antonio. Is Facebook 
cooperating fully with the investigation?
    Answer. We have stated publicly that we have cooperated with the 
Special Counsel.

    Question 11. What role has Facebook played in supporting Cambridge 
Analytica/SCL work on elections in other countries (in Africa, the 
Caribbean, former Soviet Republics, etc.)?
    Answer. Facebook did not provide support to Cambridge Analytica/SCL 
in connection with elections in other countries. It also appears from 
the best information we have to date that Kogan only provided SCL with 
data on Facebook users from the United States. Kogan and SCL have 
consistently maintained that Kogan never provided SCL with any data for 
Facebook users outside the United States, which is supported by a 
contract between Kogan's company and SCL, which was furnished by 
Christopher Wylie to the UK Parliament.

    Question 12. Did Facebook, in the past 4 years, embed employees 
with Cambridge Analytica for foreign electoral campaigns/referenda, 
including Brexit or elections in Nigeria, Kenya, the Czech Republic, 
Lithuania, or Georgia?
    Answer. No.

    Question 13. Has Facebook ever provided support to Secure America 
Now, a political action committee targeting swing state voters with 
anti-Muslim messaging?
    Answer. We did not work directly with Secure America Now; we worked 
through a third-party advertising agency. Neither did we create any 
content for Secure America Now. As is customary across managed 
advertising agencies, we provided a general best practices training to 
the agency staff. As is also customary, we provided the measurement 
tools to determine the efficacy of the ads and differences between 
formats.

    Question 14. Who at Facebook would have overseen work on this 
account?
    Answer. We did not work directly with Secure America Now; we worked 
through a third-party advertising agency.

    Question 15. Did it raise any ethical concerns within Facebook? If 
not, please explain.
    Answer. See Response to Question 13.
    We recognize how important it is for Facebook to be a place where 
people feel empowered to communicate, and we take our role in keeping 
abuse off our service seriously. Our mission entails embracing diverse 
views. We err on the side of allowing content, even when some find it 
objectionable, unless removing that content prevents a specific harm. 
That said, we do not allow hate speech on our platform because it 
creates an environment of intimidation and exclusion and in some cases 
may promote real-world violence.
    We define hate speech as a direct attack on people based on what we 
call protected characteristics--race, ethnicity, national origin, 
religious affiliation, sexual orientation, sex, gender, gender 
identity, and serious disability or disease. We also provide some 
protections for immigration status. We define attack as violent or 
dehumanizing speech, statements of inferiority, and calls for exclusion 
or segregation. Our detailed hate speech policies are available at 
https://www.facebook.com/
communitystandards/objectionable_content/hate_speech.
    We have Community Standards that prohibit hate speech, bullying, 
intimidation, and other kinds of harmful behavior. We hold advertisers 
to even stricter advertising policies to protect you from things like 
discriminatory ads--and we have recently tightened our ad policies even 
further to prohibit additional shocking and sensational content.
Third-Party Data Aggregators and Third-Party Transfers
    Prior to March 2017, Facebook worked with third-party data 
aggregators to enhance existing data sets. As a result, advertisers had 
access to data collected by Facebook and data collected by third 
parties such as Experian and Acxion.
    In the aftermath of the Facebook-Cambridge Analytica debacle, 
Facebook announced that it would be shutting down Partner Categories 
and that third-party data providers would no longer be able to offer 
their targeting directly on Facebook.
    This verbal commitment is laudable but must be implemented in order 
to ensure the public's data are safeguarded.
    Question 1. Please detail any efforts Facebook has initiated and/or 
completed to identify other improper third-party data transfers.
    Answer. We are in the process of investigating every app that had 
access to a large amount of information before we changed our Platform 
in 2014. If we find suspicious activity, we will take immediate steps 
to investigate (including a full forensic audit) or take enforcement 
actions against the app. If we determine that there has been improper 
use of data, we will ban those developers and notify everyone affected. 
Facebook is launching the Data Abuse Bounty to reward people who report 
any misuse of data by app developers. The Data Abuse Bounty, inspired 
by the existing bug bounty program that we use to uncover and address 
security issues, will help us identify violations of our policies.

    Question 2. What, if any, external audits has Facebook completed to 
ensure that all third parties are following Facebook privacy policies?
    Answer. See Response to Question 1.
Facebook's New Partnership with Independent Researchers
    On April 9, 2018 the William and Flora Hewlett Foundation, 
announced it would fund a research initiative to examine Facebook's 
role in elections and democracy.
    The fund will support an independent committee of scholars who will 
define research topics and vet research proposals that explore the 
intersection of elections, democracy, and social media.
    In addition, according to media reports, Facebook has reportedly 
agreed to give research accesses to proprietary data.
    Question 1. Facebook has limited this new initiative to prospective 
studies. Will Facebook commit to allowing studies of Russian 
interference in the 2016 election?
    Answer. Facebook recently announced a new initiative to help 
provide independent, credible research about the role of social media 
in elections, as well as democracy more generally. It will be funded by 
the Laura and John Arnold Foundation, Democracy Fund, the William and 
Flora Hewlett Foundation, the John S. and James L. Knight Foundation, 
the Charles Koch Foundation, the Omidyar Network, and the Alfred P. 
Sloan Foundation. At the heart of this initiative will be a group of 
scholars who will:

  <bullet> Define the research agenda;

  <bullet> Solicit proposals for independent research on a range of 
        different topics; and

  <bullet> Manage a peer review process to select scholars who will 
        receive funding for their research, as well as access to 
        privacy-protected datasets from Facebook which they can 
        analyze.

    Facebook will not have any right to review or approve their 
research findings prior to publication. More information regarding the 
study is available at https://newsroom.fb.com/news/2018/04/new-
elections-initiative/.

    Question 2. The new initiative also does not appear to cover 
studies on privacy and security, even though those are some of the most 
pressing issues related to your platform. Will you commit to expanding 
the initiative to cover privacy and security?
    Answer. We regularly work with privacy experts outside the company, 
including academics, to understand how to improve privacy protections 
for people on Facebook and to support efforts to improve privacy 
protections for people overall. For example, we recently hosted a 
workshop for privacy academics to discuss research around online 
privacy and worked with academics as a part of recent privacy 
consultations that we have conducted at our headquarters and around the 
world.
    Also, we recently announced plans to collaborate with academics and 
other privacy experts as a part of our efforts to build Clear History, 
a new feature that will enable people to see the websites and apps that 
send us information when they use them, delete this information from 
their account, and turn off our ability to store it associated with 
their account going forward.

    Question 3. Given that many of the issues with Facebook relate to 
income, ethnicity, gender, sexual orientation, and other diverse 
groups, will you commit to ensuring that this committee includes 
individuals who will adequately represent perspectives of these diverse 
groups?
    Answer. In consultation with the foundations funding the 
initiative, Facebook will invite respected academic experts to form a 
commission which will then develop a research agenda about the impact 
of social media on society--starting with elections. We are keen to 
have a broad range of experts--with different political outlooks, 
expertise and life experiences, gender, ethnicity, and from a broad 
range of countries.
Discriminatory Ad Practices
    Facebook offers advertisers ``targeting categories'' that range 
from ethnic affinity, education level, political affiliation, and 
employment status. The categories may seem innocuous but invariably 
serve as proxies for demographic characteristics such as race, family 
status, class, and sexual orientation.
    A recent Pro Publica report revealed that, in February 2017, 
companies could still buy rental-housing ads on Facebook and request 
that those ads not be shown to certain categories of users including 
African Americans, mothers of high school kids, people interested in 
wheelchair ramps, Jewish people, and Spanish speakers.
    As of March 27, 2018 housing rights advocates are suing Facebook in 
Federal court for allowing real estate brokers and landlords to exclude 
select certain categories--family status, sex, and disability--when 
targeting advertisements.
    Question 1. Does Facebook still allow advertisers to target based 
on the abovementioned categories?
    Answer. Discriminatory advertising has no place on Facebook's 
platform and Facebook removes such content as soon as it becomes aware 
of it. Facebook's policies prohibit advertisers from discriminating 
against people on personal attributes such as race, ethnicity, color, 
national origin, religion, age, sex, sexual orientation, gender 
identity, family status, disability, and medical or genetic conditions. 
Facebook educates advertisers on our anti-discrimination policy, and in 
some cases, requires the advertisers to certify compliance with 
Facebook's anti-discrimination policy and anti-discrimination laws.
    Facebook also uses machine learning to help identify ads that offer 
housing, employment, or credit opportunities. When an advertiser 
attempts to show an ad that Facebook identifies as offering a housing, 
employment, or credit opportunity and includes Facebook's multicultural 
advertising segments, Facebook will disapprove the ad. Facebook also 
requires advertisers to certify that they are complying with Facebook's 
updated anti-discrimination policy and anti-discrimination laws when 
the advertiser attempts to show a housing, employment, or credit 
opportunity and uses any other audience segment on Facebook.

    Question 2. Do you agree this categorization lends itself to 
discriminatory practices?
    Answer. See Response to Question 1.

    Question 3. As Facebook works to reform company policies, how will 
Facebook protect the civil rights of all Facebook users?
    Answer. We have Community Standards that prohibit hate speech, 
bullying, intimidation, and other kinds of harmful behavior. We hold 
advertisers to even stricter advertising policies to protect users from 
things like discriminatory ads. We don't want advertising to be used 
for hate or discrimination, and our policies reflect that. For example, 
we make it clear that advertisers may not discriminate against people 
based on personal attributes such as race, ethnicity, color, national 
origin, religion, age, sex, sexual orientation, gender identity, family 
status, disability, and medical or genetic condition. We educate 
advertisers on our anti-discrimination policy, and in some cases--
including when we detect that an advertiser is running a housing ad--we 
require advertisers to certify compliance with our anti-discrimination 
policy and anti-discrimination laws.
    We look forward to finding additional ways to combat 
discrimination, while increasing opportunity for underserved 
communities, and to continuing our dialogue with policymakers and civil 
rights leaders about these important issues.

    Question 4. Will you commit to modifying your existing policies and 
procedures to ensure that housing discrimination is prohibited on your 
platform?
    Answer. See Response to Question 3.
2015 Cambridge Analytical Leak and Decision not to Notify Users
    On March 17, 2018, the New York Times reported that the data 
analytics firm, Cambridge Analytica, had secretly harvested the 
personal data of millions of Facebook users.
    Reports have confirmed that Facebook knew of this data breach in 
December 2015, but declined to notify the affected users.
    On April 10, 2018, Mr. Zuckerberg confirmed that such a decision 
had, in fact, been made. At a Joint hearing with the Senate Commerce 
and Judiciary Committees, when asked whether there was ``decision made 
[by Facebook] not to inform the users [of the breach],'' Mr. Zuckerberg 
replied ``that is my understanding, yes.''
    Question 1. Please explain how, and when, Facebook first became 
aware of Cambridge Analytica's misappropriation of Facebook users' 
data?
    Answer. On December 11, 2015, The Guardian published an article 
reporting that Kogan and his company, GSR, may have passed information 
the app had obtained from Facebook users to SCL Elections Ltd. (SCL)/
Cambridge Analytica. As part of its investigation, Facebook contacted 
Kogan and Cambridge Analytica to investigate the allegations reflected 
in the reporting. Thereafter, Facebook obtained written certifications 
or confirmations from Kogan, GSR, and other third parties (including 
Cambridge Analytica and SCL) declaring that all such data they had 
obtained was accounted for and destroyed. In March 2018, Facebook 
received information from the media suggesting that the certification 
we received from SCL may not have been accurate and immediately banned 
SCL Group and Cambridge Analytica from purchasing advertising on our 
platform. Since then, Facebook has been actively investigating the 
issue, including pursuing a forensic audit of Cambridge Analytica, 
which is currently paused at the request of the UK Information 
Commissioner's Office (which is separately investigating Cambridge 
Analytica).
    Mr. Zuckerberg did not become aware of allegations that Cambridge 
Analytica may not have deleted data about Facebook users obtained from 
Kogan's app until March of 2018, when these issues were raised in the 
media.

    Question 2. What steps did Facebook take in deciding not to inform 
impacted Facebook users of Cambridge Analytica's misappropriation of 
their data? When did Facebook decide not to inform Facebook users who 
were impacted?
    Answer. When Facebook learned about Kogan's breach of Facebook's 
data use policies in December 2015, it took immediate action. The 
company retained an outside firm to assist in investigating Kogan's 
actions, to demand that Kogan and each party he had shared data with 
delete the data and any derivatives of the data, and to obtain 
certifications that they had done so. Because Kogan's app could no 
longer collect most categories of data due to changes in Facebook's 
platform, the company's highest priority at that time was ensuring 
deletion of the data that Kogan may have accessed before these changes 
took place. With the benefit of hindsight, we wish we had notified 
people whose information may have been impacted. Facebook has since 
notified all people potentially impacted with a detailed notice at the 
top of their newsfeed.

    Question 3. Who at Facebook made the decision not to inform 
Facebook users?
    Answer. See Response to Question 2.

    Question 4. What was the rationale for this decision?
    Answer. See Response to Question 2.

    Question 5. When did Mr. Zuckerberg learn of this breach and the 
decision not to inform users?
    Answer. See Response to Question 2.

    Question 6. Are there changes in place to improve the way Facebook 
responds to these breaches in the future?
    Answer. Facebook allows people to view, manage, and remove the apps 
that they have logged into with Facebook through the App Dashboard. We 
recently prompted everyone to review their App Dashboard as a part of a 
Privacy Checkup, and we also provided an educational notice on Facebook 
to encourage people to review their settings. More information about 
how users can manage their app settings is available at https://
www.facebook.com/help/218345114850283?helpref=about_content.
    The categories of information that an app can access is clearly 
disclosed before the user consents to use an app on Facebook platform. 
Users can view and edit the categories of information that apps they 
have used have access to through the App Dashboard.

    Question 7. Please list other instances of abuse where Facebook 
user data was misappropriated and a decision was made not to inform 
users or where the company failed to inform users.
    Answer. See Response to Question 6.
Annual Transparency Report
    On June 1, 2017 Facebook shareholders voted down a transparency 
proposal requesting that ``Facebook issue a report reviewing the public 
policy issues associated with fake news enabled by Facebook. The report 
should review the impact of current fake news flows and management 
systems on the democratic process, free speech, and a cohesive society, 
as well as reputational and operational risks from potential public 
policy developments.''
    Facebook's board of directors urged a no vote on the proposal, 
calling the report ``unnecessary'' and ``not beneficial to 
shareholders.'' The shareholder proposal failed.
    Since then, Facebook has publicly acknowledged that Russian actors 
purchased ads to manipulate and interfere with the election. It took 
Facebook two years and a whistleblower before to disclose the data 
breach by Cambridge Analytica.
    It appears that the ordinary practice and tendency of Facebook--
like most other companies--is to advocate for less disclosure.
    Question 1. Will Facebook commit to producing an annual public 
transparency report to your shareholders?
    Answer. Facebook publishes an annual transparency report, the most 
recent report was issued on May 15, 2018 and can be found here: https:/
/transparency.facebook.com/.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
